<html>
<title> - REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT OF 1965</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT OF 1965

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 10, 2007

                               ----------                              

                           Serial No. 110-61

                               ----------                              

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                 REAUTHORIZATION OF THE ELEMENTARY AND
                    SECONDARY EDUCATION ACT OF 1965


 REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT OF 1965

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 10, 2007

                               __________

                           Serial No. 110-61

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
37-638                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 10, 2007...............................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............   311
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     6
        Prepared statement of....................................     7
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     4
        Additional materials submitted:
            Byard, Eliza, Ph.D., interim executive director, Gay, 
              Lesbian, and Straight Education Network............   311
            Crew, Rudolph F., Ed.D., superintendent, Miami-Dade 
              County, Florida Public Schools.....................   314
            Poeck, Mary K., MLIS, library media specialist, 
              Vallejo City Unified School District...............   318

Statement of Witnesses:
    Bradburn, Frances Bryant, director of instructional 
      technology, North Carolina Department of Public Instruction   248
        Prepared statement of....................................   249
    Bray, Janet B., CAE, executive director, Association for 
      Career and Technical Education.............................    81
        Prepared statement of....................................    83
    Brewer, David L. III, superintendent, Los Angeles Unified 
      School District............................................   273
        Prepared statement of....................................   275
    Brown, Germaine, fifth grade teacher and mentor teacher......    10
        Prepared statement of....................................    11
    Cannaday, Dr. Billy, Jr., superintendent of public 
      instruction, Virginia Department of Education..............    62
        Prepared statement of....................................    63
    Carey, Kevin, policy manager, Education Sector...............    52
        Prepared statement of....................................    53
    Casserly, Michael, executive director, Council of the Great 
      City Schools...............................................   291
        Prepared statement of....................................   293
    Castellani, John J., president, Business Roundtable, on 
      behalf of the Business Coalition for Student Achievement 
      (BCSA).....................................................   206
        Prepared statement of....................................   207
    Cohen, Michael, president, Achieve. Inc......................    75
        Prepared statement of....................................    77
    Cortese, Antonia, executive vice president, the American 
      Federation of Teachers.....................................   245
        Prepared statement of....................................   246
    Darling-Hammond, Linda, Charles E. Ducommun professor of 
      education, Stanford University.............................    26
        Prepared statement of....................................    28
    Gong, Brian, executive director, the National Center for the 
      Improvement of Educational Assessment......................    90
        Prepared statement of....................................    92
    Gray, Dr. La Ruth H., deputy director, Metropolitan Center 
      for Urban Education........................................   300
        Prepared statement of....................................   302
    Harris, Charles T. III, cofounder and executive partner, 
      Seachange Capital Partners.................................   190
        Prepared statement of....................................   192
    Haycock, Kati, president, the Education Trust................   239
        Prepared statement of....................................   240
    Houston, Dr. Paul, executive director, American Association 
      of School Administrators...................................   296
        Prepared statement of....................................   298
    Hughes, MaryKate, master teacher, D.C. Preparatory Academy...   226
        Prepared statement of....................................   228
    Jennings, Jack, president, Center on Education Policy........    19
        Prepared statement of....................................    20
        Additional submission:
            Recommendations from the Center on Education Policy..    22
    Jones, Stephanie J., executive director, National Urban 
      League Policy Institute....................................   112
        Prepared statement of....................................   114
        Additional submission:
            National Urban League recommendations for the 
              reauthorization of No Child Left Behind (NCLB).....   117
    Kohlmoos, James, president and CEO, Knowledge Alliance.......   209
        Prepared statement of....................................   211
    Losen, Daniel J., senior education law and policy associate, 
      on behalf of the Civil Rights Project of UCLA..............   150
        Prepared statement of....................................   151
    Mandlawitz, Myrna R., policy director, Learning Disabilities 
      Association of America.....................................   177
        Prepared statement of....................................   178
    McPartland, James M., Ph.D., research professor and co-
      director, Center for Social Organization of Schools, Johns 
      Hopkins University.........................................    71
        Prepared statement of....................................    73
    Messina, Andrea, commissioner, Aspen Institute Commission on 
      No Child Left Behind.......................................    43
        Prepared statement of....................................    45
        Letters submitted to Messrs. Miller and McKeon...........    50
    Neas, Katy Beh, co-chair, Consortium for Citizens With 
      Disabilities Task Force....................................   172
        Prepared statement of....................................   174
    Petrilli, Mike, vice president for national programs & 
      policy, the Thomas B. Fordham Foundation...................   213
        Prepared statement of....................................   215
    Piche, Dianne M., executive director, Citizens' Commission on 
      Civil Rights...............................................   159
        Prepared statement of....................................   161
    Podesta, John, president and chief executive officer, Center 
      for American Progress......................................    39
        Prepared statement of....................................    40
    Pompa, Delia, vice president, National Council of La Raza....   165
        Prepared statement of....................................   167
        Additional submission:
            Internet address to National Council of La Raza Issue 
              Brief No. 16, Mar. 22, 2006........................   171
    Resnick, Michael A., associate executive director, National 
      School Boards Association..................................   305
        Prepared statement of....................................   307
    Rodriguez, Sonia Hernandez, executive director, National Farm 
      Workers Service Center.....................................   202
        Prepared statement of....................................   203
    Rooker, Kathleen, principal, Neil Armstrong Elementary School   231
        Prepared statement of....................................   233
    Schnur, Jon, chief executive officer and cofounder, New 
      Leaders for New Schools....................................   183
        Prepared statement of....................................   186
    Smith, Nelson, president, National Alliance for Public 
      Charter Schools............................................   193
        Prepared statement of....................................   195
    Sommers, Mary Kay, Ph.D., president, National Association of 
      Elementary School Principals (NAESP).......................   254
        Prepared statement of....................................   255
    Stark, Barry, president, National Association of Secondary 
      School Principals..........................................    13
        Prepared statement of....................................    14
    Steinberg, Adria, associate vice president, Jobs for the 
      Future.....................................................    68
        Prepared statement of....................................    70
    Van Hook, Kristan, senior vice president, Public Policy and 
      Development, National Institute for Excellence in Teaching.   259
        Prepared statement of....................................   262
        Additional submission:
            Internet address to appendices to statement..........   267
    Weaver, Reg, president, National Education Association.......   234
        Prepared statement of....................................   235
    Wise, Hon. Bob, president, Alliance for Excellent Education..    64
        Prepared statement of....................................    66
    Wodiska, Joan E., director, Education, Early Childhood and 
      Workforce Committee, National Governors Association........   278
        Prepared statement of....................................   280
    Wyner, Joshua, executive vice president, Jack Kent Cooke 
      Foundation.................................................   198
        Prepared statement of....................................   200
        Additional submission:
            Internet address to ``Achievementrap,'' How America 
              Is Failing Millions of High-Achieving Students From 
              Lower-Income Families, a report by the Jack Kent 
              Cooke Foundation...................................   202
    Zamora, Peter, Washington, DC, Regional Counsel, Mexican 
      American Legal Defense and Educational Fund (MALDEF).......   107
        Prepared statement of....................................   108
    Zirkin, Nancy, vice president and director of public policy, 
      Leadership Conference on Civil Rights (LCCR)...............   101
        Prepared statement of....................................   102
        Additional submission:
            Statement of the Leadership Conference on Civil 
              Rights.............................................   103


 REAUTHORIZATION OF THE ELEMENTARY AND SECONDARY EDUCATION ACT OF 1965

                              ----------                              


                       Monday, September 10, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:10 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, Hinojosa, Tierney, Wu, Holt, Davis of 
California, Grijalva, Bishop of New York, Sanchez, Sarbanes, 
Loebsack, Hirono, Yarmuth, Hare, Clarke, Courtney, Shea-Porter, 
McKeon, Petri, Castle, Biggert, Wilson, Kline, McMorris 
Rodgers, and Price.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Johnson Cain, Senior Education 
Policy Advisor (K-12); Alejandra Ceja, Senior Budget/
Appropriations Analyst; Fran-Victoria Cox, Documents Clerk; 
Adrienne Dunbar, Legislative Fellow, Education; Sarah Dyson, 
Administrative Assistant, Oversight; Adam Ezring, Junior 
Legislative Associate; Denise Forte, Director of Education 
Policy; Ruth Friedman, Senior Education Policy Advisor (Early 
Childhood); Michael Gaffin, Staff Assistant, Labor; Lloyd 
Horwich, Policy Advisor for Subcommittee on Early Childhood, 
Elementary and Secondary Education; Lamont Ivey, Staff 
Assistant, Education; Thomas Kiley, Communications Director; 
Ann-Frances Lambert, Administrative Assistant to Director of 
Education Policy; Danielle Lee, Press/Outreach Assistant; Sara 
Lonardo, Staff Assistant; Jill Morningstar, Education Policy 
Advisor; Ricardo Martinez, Policy Advisor for Subcommittee on 
Higher Education, Lifelong Learning and Competitiveness; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, Deputy 
Communications Director; Mark Zuckerman, Staff Director; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Kathryn Bruns, Minority Legislative Assistant; 
Cameron Coursen, Minority Assistant Communications Director; 
Kirsten Duncan, Minority Professional Staff Member; Taylor 
Hansen, Minority Legislative Assistant; Amy Raaf Jones, 
Minority Professional Staff Member; Victor Klatt, Minority 
Staff Director; Chad Miller, Minority Professional Staff; Susan 
Ross, Minority Director of Education and Human Services Policy; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; Sally Stroup, Minority Deputy Staff Director; and Brad 
Thomas, Minority Professional Staff Member.
    Chairman Miller. The Committee on Education and Labor will 
come to order. The Chair notes the presence of a quorum. I 
would like to begin with an opening statement by the Chair. 
That would be me. In Washington, we talk like an out-of-body 
experience.
    Good morning and welcome to everyone in attendance. Today I 
certainly want to thank, in the beginning, all of those who 
have agreed to testify. There were many more people who sought 
to testify that we were not able to accommodate, but we have 
asked them to give us written submissions so that the members 
and the staff could review their comments and their concerns 
along with those who are testifying in the hearing. I want to 
thank the members of the committee on both sides of the aisle 
for their attendance.
    Today is a bit of an unusual day. We have a number of 
members who also serve on the Armed Services Committee, where a 
very important hearing will begin later this morning. And we 
have a very extensive witness list. I would encourage that this 
would be a listening session. But I also want to make it clear 
for members who have a specific concern or if there is 
ambiguity or a point of clarification that you seek to have 
made I would encourage you to go ahead and pursue that effort. 
But we would like to make sure that we are able to get through 
all of the witnesses in a timely fashion. So it is a little bit 
different, but in no way seek to diminish the rights that the 
members have under the 5-minute rule to question any members of 
the panel that is before us.
    Let me begin by just saying that all parents, no matter 
where they live, how much they earn or what color their skin, 
want their children to go to a good school, to do well 
academically, and to go and have the opportunity to go on to 
college or to a good and rewarding job. And as a Nation 
concerned with our leadership in the world, the strength of our 
economy, the vitality of our democracy, we must ensure that 
every child receives the best possible education. We have known 
for decades that too many children, particularly poor and 
minority children, are being deprived of the opportunity of a 
decent education that could help them lead more successful and 
gratifying lives. Six years ago, we finally came together on a 
bipartisan basis to do something about that. We asked the 
States to set higher standards for the schools and students. We 
did this because we believed that every child could succeed if 
given access to a highly qualified teacher, a sound curriculum 
and a decent school. We also made performance at our schools 
transparent and began to hold schools accountable for their 
performance. These were historic and positive changes.
    However, we didn't get it all right when we enacted No 
Child Left Behind. I know it is rare to hear such an admission 
in Washington, but it is the truth. We simply didn't get it all 
right the first time around. In increasing numbers and with 
increasing urgency, the American people are telling us that No 
Child Left Behind is not fair, not flexible and not adequately 
funded. We will not waver when it comes to accountability to 
setting high goals and standards of the current law. That is 
not negotiable. But we would be negligent, whether because of 
hubris or some short-sighted reasons, to refuse to make 
significant improvements to the law that are necessary for it 
to succeed as we intended in 2001 and 2002. America's education 
law must insist on accountability with high expectations, high 
standards and high quality assessments. It must be a law that 
closes the achievement gap and helps all children learn. That 
same law must treat children in school fairly, to provide 
educators with flexibility and resources they need to succeed. 
Fortunately, we are not faced with a choice between more 
accountability or less accountability. Rather we face the 
obligation and the opportunity to finish what we started, to 
ensure that our system of educational accountability is smarter 
and more effective.
    In late August and early September, Mr. McKeon, Mr. 
Kildee,Mr. Castle and myself released a bipartisan discussion 
draft for the reauthorization legislation. It has inspired a 
vigorous and welcome discussion about how we can improve the 
law. There have been over 60,000 downloads of that discussion 
draft to date. We took the unprecedented step of releasing a 
bipartisan discussion draft to ensure that the public would 
have ample opportunity to consider the comments on any 
direction that my colleagues and I believe we must take before 
we formally introduce a bill. This reauthorization process has 
been one of the most open, transparent and bipartisan processes 
that I have had the privilege to participate in. The bipartisan 
discussion draft reflects years worth of discussion with 
parents, teachers and administrators. It reflects the input of 
Members of Congress from both parties across all ideological 
minds. It reflects testimony delivered in nearly two dozen 
congressional hearings that were originally started under the 
chairmanship of Mr. McKeon when we started the bipartisan 
process last year before the elections. And it reflects the 
recommendation of more than 100 education, civil rights and 
business organizations.
    A good process, however, is the result of more than just 
logistics. More than anything, the changes we are recommending 
are motivated by the aspirations and the expectations of 
parents for their children. We must do better, and we can do 
better. And here is how we can do it. For starters, we must 
have a clear, richer and more informed understanding of what is 
happening inside of our schools. That is why our discussion 
draft creates a smarter system of accountability that judges 
schools on more than just a single test on a single day. 
Emphasis will continue on reading and math. In fact, at the 
elementary level under the discussion draft, 85 percent of the 
accountability will come from reading and math scores as they 
do today. But we would also allow the use of additional valid 
and reliable measures to assess student learning and school 
performance more fairly, comprehensively and accurately. We 
want to make sure that schools get credit for the progress that 
they make with students over time. That is why we create a 
smarter system of accountability that includes a growth model 
for crediting schools for gains in student achievement. Even 
better, growth models will give us information that will be 
timely and helpful to teachers and principals in implementing 
reform. To be successful, our system of accountability must 
encourage States to set high standards. Lowering the bar so 
more children can reach it is a sham.
    Across the country employers are telling us that too many 
high school graduates are not ready for the workplace while 
colleges are telling us that too many high school graduates are 
not ready for the college classroom. Our bipartisan discussion 
draft asks business and higher education leaders to come 
together and work with educators to develop more rigorous State 
standards so that high school graduates will be ready for the 
next stage of their lives, whether they choose the workplace, a 
career or college. We must have a smarter system of 
accountability that distinguishes among different schools and 
the challenges facing them, as well as their needs for 
addressing those challenges. Schools with specific problems in 
specific areas should be allowed to use instruction 
interventions most appropriate to their needs. Schools facing 
greater challenges must receive more intensive support. Only in 
this way can we truly target our resources appropriately.
    We will never achieve the goals of No Child Left Behind 
unless we change the way we treat teachers and principals. As a 
Nation, we are not offering teachers the respect and the 
support they deserve. As a result, we are facing a teacher 
shortage crisis. It is long past time that we treated teachers 
like valued partners in the education system. The bipartisan 
discussion draft provides incentives that will bring top talent 
into the classrooms that need it the most. These include 
teacher career ladders, improved working conditions, mentoring 
for new teachers, performance pay for principals and teachers 
based upon fair and proven models developed in collaboration 
with principals and teachers.
    As we seek to make improvements to the law, we also need to 
ensure that States have adequate resources to make the law a 
success. We need greater and sustained investment in American 
education. In the new Congress, the Democratic leadership has 
begun this new era of investment. I would hope that, rather 
than fight against it, the President will join us in securing 
the new appropriated levels for Title I and for elementary and 
secondary education and No Child Left Behind. A great American 
education system for our children and our country cannot be 
built on the cheap. We will continue to insist upon high 
standards and high expectations for all children, poor 
children, minority children, children with disabilities and 
English language learners. There is no question about that.
    But it is equally clear that in order to accomplish our 
shared and critical goal of meeting the expectations and 
aspirations of America's parents and students, we must make 
improvements to the current law. I am excited to hear from our 
panels today as we continue this open process we began last 
year. We will hear from 44 experts, from education, civil 
rights, business, philanthropic and research communities. I 
expect we will have a lively and informative discussion. And I 
want to thank all the witnesses again for their time and for 
their expertise. And at this point, I would like to recognize 
Mr. McKeon, the senior Republican on the Education and Labor 
Committee.
    [The prepared statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning and welcome.
    All parents--no matter where they live, how much they earn, or what 
color their skin--want their children to go to a good school, to do 
well academically, and to go on to college or to a good, rewarding job.
    And as a nation concerned with our leadership in the world, the 
strength of our economy, and the vitality of our democracy, we must 
ensure that every child receives the best possible education.
    We have known for decades that too many children--particularly poor 
and minority children--were being deprived of the opportunity of a 
decent education that could help them to lead more successful and 
gratifying lives.
    Six years ago we finally came together on a bipartisan basis to do 
something about that.
    We asked states to set higher standards for their schools and 
students. We did this because we believed that every child could 
succeed--if given access to a highly qualified teacher and a sound 
curriculum in a good school.
    We made performance at our schools transparent and began to hold 
schools accountable for their performance.
    These were historic and positive changes.
    However, we didn't get it all right when we enacted No Child Left 
Behind. In increasing numbers and with increasing urgency, the American 
people are telling us that the No Child Left Behind Act is not fair, 
not flexible, and not adequately funded.
    We will not waver when it comes to the accountability goals and 
standards of the current law. That's not negotiable.
    But we would be negligent, whether because of hubris or for other 
shortsighted reasons, to refuse to make significant improvements to the 
law--improvements that are necessary for it to succeed as we intended 
in 2001 and 2002.
    America's education law must insist on accountability with high 
expectations, high standards, and high-quality assessments. It must be 
a law that closes the achievement gap and helps all children learn.
    That same law must treat children and schools fairly--and provide 
educators with the flexibility and resources they need to succeed.
    Fortunately, we are not faced with a choice between more 
accountability and less accountability. Rather, we face the obligation 
and opportunity to finish what we started--to ensure that our system of 
educational accountability is smart and effective.
    In late August and early September, Mr. McKeon, Mr. Kildee, Mr. 
Castle and I released a bipartisan discussion draft of the 
reauthorization legislation. It has inspired a vigorous and welcome 
discussion about how we can improve the law.
    We took the unprecedented step of releasing the bipartisan 
discussion draft to ensure that the public would have ample opportunity 
to consider and comment on the direction my colleagues and I believe we 
must take--before we formally introduce a bill.
    This reauthorization process has been one of the most open, 
transparent, and bipartisan processes that I have had the privilege to 
participate in.
    The bipartisan discussion draft reflects years' worth of 
discussions with parents, teachers, and administrators.
    It reflects the input of members of Congress from both parties and 
across the ideological spectrum. It reflects testimony delivered in 
nearly two dozen Congressional hearings. And it reflects the 
recommendations of more than 100 education, civil rights, and business 
organizations.
    A good process, however, is the result of more than just logistics. 
More than anything, the changes we are recommending are motivated by 
the aspirations and expectations of parents for their children. We must 
do better, and we can do better.
    Here's how we can do it.
    For starters, we must have a clearer, richer, and more informed 
understanding of what's happening inside our schools. That's why our 
discussion draft creates a smarter system of accountability that judges 
schools on more than just a single test given on a single day.
    Emphasis will continue to be on reading and math achievement, but 
we will also allow the use of additional valid and reliable measures to 
assess student learning and school performance more fairly, 
comprehensively, and accurately.
    We want to make sure that schools get credit for the progress they 
make with students over time. That's why we create a smarter system of 
accountability that includes growth models for crediting schools for 
gains in student achievement.
    Even better, these growth models will give us information that will 
be timely and helpful to teachers and principals in implementing 
reforms.
    To be successful, our system of accountability must encourage 
states to set high standards. Lowering the bar so that more children 
reach it is a sham. Across the country, employers say that high school 
graduates are not ready for the workplace, while colleges say that high 
school graduates are not ready for the college classroom.
    Our bipartisan discussion draft asks business and higher education 
leaders to come together and work with educators to develop more 
rigorous state standards so that high school graduates will be ready 
for the next stage of their lives.
    We must have a smarter system of accountability that distinguishes 
among different schools and the challenges facing them, as well as 
their needs for addressing those challenges.
    Schools with specific problems in specific areas should be allowed 
to use the instructional interventions most appropriate to their needs. 
Schools facing greater challenges must receive more intensive support. 
Only in this way will we truly target our resources appropriately.
    We will never achieve the goals of No Child Left Behind unless we 
change the way we treat teachers and principals. As a nation we are not 
offering teachers the respect and support they deserve, and as a result 
we are facing a teacher shortage crisis. It's long past time that we 
treated teachers like valued partners in the education system.
    The bipartisan discussion draft provides incentives that will bring 
top talent into the classrooms that need it most. These include teacher 
career ladders, improved working conditions, mentoring for new 
teachers, and performance pay for principals and teachers based on fair 
and proven models developed in collaboration with principals and 
teachers.
    As we seek to make improvements to the law, we also need to ensure 
that states have adequate resources to make the law a success. We need 
greater and sustained investments in American education.
    In the new Congress, the Democratic Leadership has begun this new 
era of investment. Rather than fight against it, President Bush should 
join it. A great American education system for our children and our 
country cannot be built on the cheap.
    We will continue to insist upon high standards and high 
expectations for all children: poor children, minority children, 
children with disabilities, and English language learners. There is no 
question about that.
    But it is equally clear that in order to accomplish our shared and 
critical goal of meeting the expectations and aspirations of America's 
parents, we must make improvements to current law.
    I am excited to hear from our panels today as we continue the open 
process we began last year.
    We will hear from 44 experts from the education, civil rights, 
business, philanthropic, and research communities. I expect we will 
have a lively and informative discussion. I want to thank all of 
witnesses for their time and expertise.
                                 ______
                                 
    Mr. McKeon. Thank you, Mr. Chairman, for convening today's 
hearing. We have an impressive list of witnesses here today to 
offer a broad range of viewpoints on this critical topic. 
Reauthorization of the No Child Left Behind is one of the 
greatest opportunities this committee has. It also is one of 
the greatest challenges. During my time as chairman, we began a 
series of hearings and meetings with stakeholders to thoroughly 
and thoughtfully examine the issues that must be confronted 
during reauthorization. Chairman Miller has continued that 
effort. Together we have held nearly two dozen hearings and met 
with countless educators and experts. I have been clear from 
the outset of this process that my goal is to lend my support 
to a bipartisan bill that strengthens the law and maintains its 
core principles of accountability, flexibility and parental 
choice. The staff on both sides of the aisle have been working 
tirelessly to produce a discussion draft that reflects what we 
have heard during our extensive hearing and meeting process. 
That draft, which we are here today to discuss, represents a 
starting point upon which to build. Chairman Miller and I along 
with Mr. Kildee and Mr. Castle, the chairman, senior Republican 
on the Elementary and Secondary Education Subcommittee, have 
been receiving written comments on the draft since it was 
released. Today we have the opportunity to hear directly from 
those who share our commitment to ensuring that every child is 
learning. I have said this before, and it bears repeating: 
There are those who believe this draft goes too far in 
modifying the original law. And there are those who believe it 
does not go far enough. If there is one consistent message in 
the comments we have received, it is that this draft is far 
from perfect. Rest assured, this bill is far from complete and 
this process is far from over. We made great progress, but much 
work remains. But by adhering to the pillars of the law, 
accountability, flexibility and parental choice, I believe we 
can craft a bill that builds on NCLB's strengths, improves its 
shortcomings and produces even more results for students. Once 
again, I would like to thank Chairman Miller for convening this 
hearing and working in a bipartisan fashion to improve this 
landmark law, and I yield back the balance of my time.
    [The prepared statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Mr. Chairman, for convening today's hearing. We have an 
impressive list of witnesses here today to offer a broad range of 
viewpoints on this critical topic, and so I will keep my remarks brief.
    Reauthorization of the No Child Left Behind Act is one of the 
greatest opportunities this committee has. It is also one of the 
greatest challenges.
    During my time as Chairman, we began a series of hearings and 
meetings with stakeholders to thoroughly and thoughtfully examine the 
issues that must be confronted during reauthorization. Chairman Miller 
has continued that effort, and together we have held nearly two dozen 
hearings and met with countless educators and experts.
    I have been clear from the outset of this process that my goal is 
to lend my support to a bipartisan bill that strengthens the law and 
maintains its core principles of accountability, flexibility, and 
parental choice.
    The staff on both sides of the aisle have been working tirelessly 
to produce a discussion draft that reflects what we have heard during 
our extensive hearing and meeting process. That draft, which we are 
here today to discuss, represents a starting point upon which to build.
    Chairman Miller and I, along with Mr. Kildee and Mr. Castle, the 
Chairman and Senior Republican on the Elementary and Secondary 
Education Subcommittee, have been receiving written comments on the 
draft since it was released. Today, we have the opportunity to hear 
directly from those who share our commitment to ensuring that every 
child is learning.
    I have said this before, and it bears repeating: there are those 
who believe this draft goes too far in modifying the original law, and 
there are those who believe it does not go far enough. If there is one 
consistent message in the comments we have received, it is that this 
draft is far from perfect.
    Rest assured, this bill is far from complete and this process is 
far from over. We have made great progress, but much work remains. But 
by adhering to the pillars of the law--accountability, flexibility, and 
parental choice--I believe we can craft a bill that builds on NCLB's 
strengths, improves its shortcomings, and produces even more results 
for students.
    Once again I'd like to thank Chairman Miller for convening this 
hearing and working in a bipartisan fashion to improve this landmark 
law. I yield back the balance of my time.
                                 ______
                                 
    Chairman Miller. I thank the gentleman. At this point, I 
would like to recognize The Chair of the subcommittee, and then 
I will recognize the senior Republican on the subcommittee, Mr. 
Castle.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Thank you for calling 
this important hearing on this bipartisan discussion draft. At 
the beginning of this process, you and I and our colleagues, 
Mr. McKeon and Governor Castle, all spoke on the importance of 
this process being an open process. And this certainly has 
been. We have had hearings here in Washington. We have had 
hearings around the country. My subcommittee went to Michigan, 
California, Arizona and Pennsylvania with many subcommittee 
hearings here in Washington and many full committee hearings. 
And we received recommendations from hundreds of education 
people, civil rights, business and other organizations, and 
hundreds of our colleagues here in the Congress, including many 
of our freshman, who are very, very aware of what this bill was 
when they arrived here in Congress. In recent weeks, we have 
received hundreds of e-mails on the draft from parents, 
teachers and other educators. And today we will hear from about 
40 witnesses who thoroughly have studied this bill. And as we 
continue to work together to improve and reauthorize the law, I 
look forward to the continuing openness on this.
    I have always, and you have heard this many times--Jack 
Jennings has heard this for 31 years--I have always believed 
that education is a local function, a State responsibility and 
a very, very important Federal concern. It is a Federal concern 
for two reasons. We live in a very mobile society. A person 
educated in Michigan may wind up in Mississippi or vice versa. 
And we are competing in a global economy now. And what will 
give us the cutting edge in that global economy is an educated 
and trained workforce.
    During those hearings, I have heard strong support from 
educators for the No Child Left Behind goals, including 
accountability, but equally strong convictions in more 
flexibility and more resources. Had we adopted the President's 
budget this year, we would be about $70 billion short of the 
authorization level. I for years have used the analogy that an 
authorization, and this is a very important thing, 
authorization, is like a Get Well card. It expresses our 
sentiment and how we value the person to whom we send the Get 
Well card. What our person, our friend really needs is the Blue 
Cross card, and the Blue Cross card is the appropriations bill. 
And this year, we did add about 9 percent; 7 percent adjusted 
for inflation, for No Child Left Behind. That is a significant 
step. But we really need to make sure this bill and this 
reauthorization really reflects the needs and the experience 
that we have had in the last few years. And we have called in 
around the country and called here again today people who can 
assist us in that. This process is very open. I look forward to 
the testimony. And thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Castle.
    Mr. Castle. Good morning. And thank you, Chairman Miller, 
for holding today's hearing. And I thank all of you for joining 
us. I look forward to hearing from the witnesses who are with 
us today. I think we can agree that one of the greatest 
challenges this Nation faces is ensuring every child receives 
the academic tools he or she needs to succeed in the future. 
Five years ago, Congress enacted the No Child Left Behind Act 
to help meet this challenge and to address the achievement gap 
that exists between disadvantaged students and their more 
affluent peers. The results are clear: No Child Left Behind is 
working. And this year, Congress has the unique opportunity to 
work in a bipartisan way to create a bill which strengthens the 
law while at the same time maintains its core principles of 
accountability, flexibility and parental choice. For everyone 
here No Child Left Behind is a priority, as I expect it is 
across the Nation. In my opinion, being able to have an 
effective dialogue is imperative to the underlying 
reauthorization process. Over the last several years, the 
committee has held many hearings here in Washington and around 
the country to examine a number of issues for the 
reauthorization of No Child Left Behind. Today we have the 
privilege to hear directly from those who share Congress' 
commitment to what No Child Left Behind stands for. Since the 
draft's release, I, along with Chairman Miller and Kildee and 
senior Republican McKeon have received very useful feedback. As 
Mr. McKeon stated, this bill is far from complete and the 
reauthorization process is far from over.
    However, this discussion draft represents a good starting 
place for the reauthorization of this important piece of 
legislation, and this hearing allows us to discuss the feedback 
we have heard. I believe that by hearing from you today, and 
throughout the rest of the process we can produce a bill that 
builds on No Child Left Behind's strengths, improves some of 
its limitations and continues to produce more results for our 
students, parents and teachers. Once again Mr. Miller, thank 
you for holding this hearing and for facilitating a bipartisan 
process to improve No Child Left Behind, and I yield back the 
balance of my time.
    Chairman Miller. Thank you very much. I want to introduce 
the first panel. Most of the first panel is very well known to 
the members of the committee, and their bios are available for 
the members of the committee.
    However, Ms. Brown and Mr. Stark are not that well known to 
us. And let me just, if I might, say that Germaine Brown is a 
fifth grade teacher at Stewart Street Elementary School in 
Gadsden County, Florida. In addition to her own classroom, she 
serves as a mentor teacher providing professional support in 
coaching for teachers in grades three, four and five. Barry 
Stark is a principal of Norris Middle School in Firth, NE, and 
President of the National Association of Secondary School 
Principals. Jack Jennings is very well known to this committee 
and to all of us involved in education. He is the president of 
the Center on Educational Policy. Linda Darling-Hammond is a 
Professor of Education at Stanford University and has a long, 
long involvement in the improvement of teaching in this 
country. John Podesta is the President/Chief Executive Officer 
of the Center of American Progress, which has undertaken a 
specific program in an effort on No Child Left Behind. Andrea 
Messina is a commissioner of the Aspen Institute Commission on 
No Child Left Behind, which does extensive work on the 
improvements and changes in the act. And Kevin Carey is a 
researcher and policy manager for the Education Sector, which 
again has been very much involved with this committee.
    Ms. Brown, we are going to begin with you. I hope you can 
see them, there are three sets of lights. They will begin with 
the green light. And then after about 4 minutes, it will go to 
a yellow light, which means you have about 1 minute, and then a 
red light when we would like you to finish. However, we want 
you to complete your thoughts. Don't get nervous about the 
lights, but we have a long day, and it gives us some 
opportunity to keep order. Something you struggle with all the 
time. So welcome to the committee and thank you so much for 
taking your time.

STATEMENT OF GERMAINE BROWN, TEACHER, STEWART STREET ELEMENTARY 
                             SCHOOL

    Ms. Brown. Good morning. And thank you for inviting me to 
testify today on the teacher quality issues in the No Child 
Left Behind reauthorization bill. My name is Germaine Brown, 
and I am a fifth grade teacher and a mentor teacher at Stewart 
Street Elementary in Gadsden County Florida.
    I understand that the draft being considered by the 
committee includes new funding for teachers for pay performance 
and career ladder programs for teachers. I am part of such a 
program. This program, the Teacher Advancement Program, has 
helped to develop highly skilled teachers in high-need schools. 
The TAP program has supported our school from moving to new 
achievement levels. It has resulted in us moving from an F to a 
B within 2 years.
    My district is a very high need district. I teach at an 
elementary school, Stewart Street, that has a 90 percent rate 
of students who receive free and reduced lunch. Even with two 
major universities close to our district, Florida State 
University and Florida A & M University, it is extremely 
difficult to get these teachers, new teachers, to come to our 
schools to teach our high-need students. They choose to teach 
elsewhere.
    Another obstacle is recruiting highly qualified teachers 
who seek competitive pay and teacher salaries. In 2005, I was 
approached by my administration at Stewart Street about a new 
innovative program to be implemented. That same year, Stewart 
Street had become a double F, a double F by the Department of 
Education, having received two Fs within 5 years. To 
dramatically improve or increase student achievement, the 
superintendent of schools, Mr. Reginald James, decided to pilot 
a program called the Teacher Advancement Program. It was a 
program that had already been making progress in other high-
need schools, and it had the elements that Stewart Street had 
been lacking. For one, it included strong professional 
development. It helped those new teachers become effective 
teachers, and it helped those veteran teachers become 
exceptional teachers.
    It also used student data to drive daily instruction. It 
has a standards-based evaluation system that is fair and helps 
identify the areas of improvement for our teachers. There is 
also a career ladder that provides opportunities for 
advancement and additional compensation for teachers. Last but 
not least, a performance-based system to award success that is 
measured by a combination of student achievement gains of 
individual teachers, gains by the school as a whole and the 
overall performance of classroom teachers.
    Personally, the TAP program has provided me with an 
exciting career opportunity for me as a mentor teacher with the 
responsibility of providing professional development and 
support to career teachers. The position came with more 
responsibility, new challenges and more compensation. An 
important aspect of my selection as a mentor teacher was my own 
student achievement scores consistently from previous years. 
TAP has provided me with the intensive training and support in 
developing my skills and leading career teachers; identifying 
and field testing those effective instructional strategies; and 
creating a strong learning environment community at my school.
    School was out for the summer break of 2005 and 2006 when 
our school scores were released. Stewart Street was no longer 
an F. We were not even a D. We had moved two letter grades to a 
C. And at the end of this past year, we earned a B, and we made 
adequate yearly progress. The results show that Gadsden County 
school students are just as bright as those in any high 
performance school. It doesn't matter what home environment our 
students come from. As teachers, as soon as they step into our 
classrooms, it is our job to nurture and instill in them the 
belief that they too can succeed.
    My experience as a teacher with the Teacher Advancement 
Program has taught me the power of excellent teaching and what 
can happen when time and resources are focused on improving the 
schools of teachers so that our students reap the benefits. It 
has also taught me that teachers deserve to be compensated for 
their successes for taking on the hardest jobs. I hope that 
this committee will provide funding for programs, more programs 
like the Teacher Advancement Program, to allow more schools in 
more districts to reform their compensation systems for 
teachers. Thank you.
    [The statement of Ms. Brown follows:]

 Prepared Statement of Germaine Brown, Fifth Grade Teacher and Mentor 
                                Teacher

Summary
    Thank you for inviting me to testify today on teacher quality 
issues in the draft NCLB reauthorization bill. My name is Germaine 
Brown, and I work as a math, reading and writing teacher at Stewart 
Street Elementary School in Gadsden County Florida.
    I understand that the draft bill being considered by the Committee 
includes new funding for performance pay and career ladder programs for 
teachers. I am a part of such a program in a high need elementary 
school. In my experience, this program, the Teacher Advancement Program 
or ``TAP'', helps to develop highly skilled teachers in high need 
schools. In our case, this program supported us in moving students at 
Stewart Street Elementary to new levels of achievement, and resulted in 
the school moving from a rating of an ``F'' to a ``B'' on the state 
rating system in two years.
    I want to thank you for responding to the successes that 
performance pay and career ladder programs have demonstrated in high 
need schools by including funding for these important initiatives in 
the NCLB bill.
Discussion
    Our district is a very high need district. Stewart Street 
Elementary has 90% percent of students receiving free and reduced 
lunch. There are two major universities close to our district in 
Tallahassee (Florida State University and Florida A & M University). 
They have a college of teacher education, but it has traditionally been 
extremely difficult for us to recruit new teachers from this program to 
come teach in Gadsden County. Potential teachers look at the high needs 
of our students and choose to teach elsewhere. In addition, it is 
difficult to recruit new and highly qualified teachers who seek a 
competitive teacher salary.
    I taught at my alma mater, Stewart Street Elementary in Gadsden 
County, Florida, for eight years from 1996 to 2004. I became burned out 
by the environment and was ready for a new, stimulating experience. I 
then sought employment at a higher performing school in the same 
district. I had a successful year at this high performing school. In 
the same year Stewart Street had just become a ``double F'' school by 
the Florida Department of Education, having received two ``F's'' within 
five years. It was a discouraging place to work. After one year, even 
with the success I had at the new school, my heart was still at Stewart 
Street.
    I was approached by the administration at Stewart Street and was 
given information on a new innovative program to be implemented at 
Stewart Street. To dramatically improve student achievement, the 
Superintendent of Schools, Mr. Reginald James decided in 2005 to pilot 
the Teacher Advancement Program (TAP), which had been making meaningful 
progress in some high need Florida schools. TAP provided exactly the 
elements that had been lacking at Stewart Street:
    <bullet> a strong professional development program to help new 
teachers become effective teachers, and veteran teachers to become 
exceptional teachers, including support in using student data to drive 
instruction
    <bullet> a standards-based evaluation system that helped to 
identify areas for teacher skill improvement
    <bullet> a career ladder that provided opportunity for advancement 
and additional compensation, as well as providing the staff to provide 
with school-based professional support
    <bullet> and a performance pay bonus system to reward success as 
measured by: 1. value added student achievement gains of individual 
teachers, 2. value added gains by the school as a whole, and 3. 
classroom performance by teachers
    TAP's comprehensive approach to education reform focused and 
supported the faculty in their pursuit of student learning gains.
    In addition, TAP provided an exciting career opportunity for me, as 
Stewart Street was recruiting me to return as a Mentor teacher, with 
responsibility for providing professional development and coaching 
support to career teachers in the school. This new position came with 
more responsibility, new challenges, and more compensation. An 
important aspect of my selection as Mentor teacher was my own student 
achievement scores. But equally important was my ability and enthusiasm 
in working with other adults at the school. TAP provided me with 
intensive training and support in developing my skills in leading 
career teachers, in identifying and field testing effective teaching 
strategies, and creating a strong learning community at the school.
    The key to effective teaching is more than just knowing best 
practices. It's learning how to apply these practices in the classroom. 
TAP helped me and the teachers that I coach because it provides a 
structure not just outlining how to teach, but how to teach 
effectively, and how to measure if your teaching is really having an 
impact with students.
    Let me give you a quick description of why this comprehensive 
program has been a success at Stewart Street.
    At the beginning of each school year, school leaders analyze state 
test data and identify students' greatest areas of need. Each week at 
Stewart Street, core-subject teachers and specialists collaborate in 
``cluster group'' meetings targeting individual student needs with 
proven instructional strategies. Teachers share effective best 
practices with others, and mentor teachers model exemplary teaching 
behaviors, for example by team teaching with a teacher in their 
classroom. As a result, students benefit from the connectivity of these 
strategies across the content areas.
    For the (2006-2007) school year, Stewart Street's leadership team, 
including mentor and lead teachers and the principal, identified math 
as the students' greatest area of need, particularly solving word 
problems. I devoted time in my weekly professional development meeting 
with teachers to helping them learn new problem-solving strategies, and 
how to teach them to their students. For example, some of our 
strategies were focused on helping students identify what each problem 
was asking them to do--something that many struggled with. Not only did 
students apply these comprehension strategies to math, but they also 
transferred them to reading.
    School was out when our 2005-06 results were released, but that 
didn't stop teachers from calling each other to celebrate the news: 
Stewart Street was no longer an ``F'' school on the Florida state 
rating system. We weren't even a ``D'' school. After just one year of 
TAP, we had jumped two letter grades to a ``C.'' At the end of this 
past school year, we earned a ``B'' grade and made Academic Yearly 
Progress (AYP).
    The results show that Gadsden County students are just as bright as 
those in any high-performing school. It doesn't matter where our kids 
come from; it may be from homes with no running water, families of 
domestic violence, poorly structured households or households with no 
structure at all. But when they get here, it's our job to nurture them 
and instill in them the belief that they can succeed. The TAP program 
has helped us to do that, and it has rewarded us for our success.
    This experience has taught me the power of excellent teaching, and 
what can happen when time and resources are focused on improving the 
skills of teachers in a school. It has also taught me that teachers 
deserve to be compensated for their success, and for taking on the 
hardest jobs. I hope that this committee will provide funding for 
programs to allow more schools and districts to reform their 
compensation systems for teachers. These reforms should support 
additional pay for taking on new roles and responsibilities such as 
that of a Mentor teacher, as well as rewarding teachers for their own 
skill development and the academic achievement gains of their students 
and their school. I am happy to answer any questions you have.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Stark.

STATEMENT OF BARRY STARK, PRINCIPAL, NORRIS MIDDLE SCHOOL, AND 
 PRESIDENT, NATIONAL ASSOCIATION OF SECONDARY SCHOOL PRINCIPALS

    Mr. Stark. Chairman Miller, Ranking Member McKeon and 
members of the committee, thank you for allowing us the 
opportunity to share our recommendations concerning the 
reauthorization of the No Child Left Behind Act. My name is 
Barry Stark. I am the principal of Norris Middle School in 
Firth, Nebraska. And I serve as the President of the National 
Association of Secondary School Principals. Our mission is to 
promote excellence in middle level and high school leadership. 
My comments today are based upon feedback from our NCLB task 
force and our members, school leaders across the Nation.
    While we still have concerns with some aspects of the 
discussion draft, we would like to focus on a few areas we feel 
deserve your support. NASSP is pleased that the committee is 
considering additional flexibility through the use of growth 
models, multiple measures of student performance and additional 
time for students to graduate from high school if needed. NCLB 
has placed principals at the center of all school reform 
efforts. And today's school leaders are expected to be skilled 
in instructional leadership, organizational development, 
community relations and change management.
    As the ones held ultimately responsible for student 
achievement, principals and assistant principals require 
continuous professional development personalized to meet their 
individual needs. NASSP is extremely supportive of the major 
overhaul made to Title II and the discussion draft, as it 
includes much needed mandatory professional development for 
school leaders. We have long advocated for induction and peer 
mentoring programs for principals that emphasize school 
leadership practices, and we are very pleased to see their 
inclusion in the draft. NASSP would also like to see Congress 
endorse a voluntary national advanced certification for 
successful experienced principals similar to the National Board 
For Professional Teaching Standard Certification currently in 
place for teachers.
    NASSP would like to thank the committee for authorizing and 
expanding the striving readers program for students in grades 4 
through 12. This vital program will help ensure that 6 to 8 
million students reading below grade level receive the literacy 
interventions they need to earn a high school diploma. 
Congressman Yaruth and Congressman Platts have been true 
leaders in adolescent literacy, and we thank them for their 
hard work in this area. NASSP is a national leader in high 
school reform and, in 2004, created a framework for improving 
our Nation's high schools called, ``Breaking Ranks II: 
Strategies For Leading High School Reform.''
    Implementing the proven strategies for successful high 
school reform, deep systemic intervention that improves both 
individual student and school wide performance requires 
significant resources. This is why NASSP is so pleased that the 
discussion draft authorizes the Graduation Promises Fund to 
assist low-performing high schools in implementing 
comprehensive school wide improvement plans.
    However, as a middle level principal, I would be remiss if 
I didn't remark on the missing M in ESEA. Elementary and 
secondary schools are mentioned throughout the discussion 
draft, but there are exactly 15 references to middle schools in 
the entire bill. NASSP is an original member of the Middle 
Grades Coalition on NCLB, and I would like to speak to you on 
their behalf. We are seriously concerned that the draft 
proposal has not addressed the urgent need to turn around low-
performing middle schools. The future success of NCLB rests 
largely on the shoulders of middle level leaders and teachers. 
Students in grades 5 through 8 represent 57 percent of the 
Nation's annual test takers, but middle level schools are not 
receiving adequate Federal funding and support. Therefore, I 
strongly urge the committee to support the Success in the 
Middle Act which Congressman Grijalva plans to offer as an 
amendment during the committee markup.
    Under this bill, school districts would adopt proven 
intervention strategies, including professional development and 
coaching for school leaders and teachers, and student support, 
such as personal academic plans, mentoring and intensive 
reading and math interventions. Adopting this amendment hand in 
hand with the Graduation Promise Fund would strengthen NCLB by 
providing the support necessary to turn around our Nation's 
lowest performing middle and high schools and give our 
struggling students the help they need from preschool through 
graduation.
    NASSP believes the draft moves NCLB in a positive 
direction, and school leaders are optimistic for its 
reauthorization. But our optimism has too often been dampened 
in the past when Federal budget proposals reflect education as 
so low a priority. These new provisions would be impossible to 
implement without full funding. We, therefore, strongly urge 
you to commit to your Nation's schools in budget as much as in 
law and ensure that the necessary level of funding is 
appropriated.
    Mr. Chairman, this concludes my prepared testimony, but I 
would be happy to answer any questions you or the other 
committee members may have. Thank you for this opportunity.
    [The statement of Mr. Stark follows:]

 Prepared Statement of Barry Stark, President, National Association of 
                      Secondary School Principals

    Chairman Miller, Ranking Member McKeon, and members of the 
committee, thank you for allowing us the opportunity to share our 
recommendations concerning the reauthorization of the Elementary and 
Secondary Education Act, the latest version of which is known as the No 
Child Left Behind Act. My name is Barry Stark, and I am the principal 
of Norris Middle School in Firth, Nebraska, where I have served for 10 
years. Today, I am appearing on behalf of the National Association of 
Secondary School Principals, where I serve as president. In existence 
since 1916, NASSP is the preeminent organization of and national voice 
for middle level and high school principals, assistant principals, and 
aspiring school leaders from across the United States and more than 45 
countries around the world. Our mission is to promote excellence in 
middle level and high school leadership.
No Child Left Behind Act (NCLB)
    The era of reform ushered in by NCLB requires administrators to 
excel as instructional leaders working collaboratively with a variety 
of constituent groups. It is no longer sufficient to deplore the 
achievement gap; school leaders must be able to make decisions to 
improve teaching and learning for all students or face corrective 
action if their schools fail to meet mandated accountability measures. 
Closing the achievement gap and increasing student achievement are 
certainly among the highest educational priorities of secondary school 
principals, and our members accept accountability for results. We have 
seen gains in student achievement that can be directly related to the 
law and to the emerging conversations about improved student 
achievement.
    Yet, while embracing the intention of the law, NASSP members have 
expressed concerns about the consistency, flexibility, and fairness 
with which the law has been implemented as well as the law's provisions 
to help schools build or enhance capacity among teachers and leaders to 
meet student achievement mandates. In October 2004, NASSP formed a 12-
member task force made up of principals and post-secondary educators to 
study the effects of NCLB on school leaders in the nation's diverse 
education structure. The recommendations released by our task force in 
June 2005 addressed the disconnect that exists between policy created 
in Washington, DC, and the realities that affect teaching and learning 
in the school building. NASSP strongly believes that these 
recommendations reflect a real-world, commonsense perspective that will 
help to bridge that gap and clear some of the obstacles that impede 
principals and teachers as they work together to improve student 
achievement and overall school quality and close the achievement gap.
Growth Models
    NASSP is pleased to see many of these recommendations in the 
discussion draft released by the House Education and Labor Committee 
last week. Specifically, we agree that states should be allowed to 
measure adequate yearly progress (AYP) for each student subgroup on the 
basis of state-developed growth formulas that calculate growth in 
individual student achievement from year to year.
    Using a single score to measure whether a student is making 
progress ignores many issues, primarily the academic growth of the 
individual student. Yet the current law requires that schools focus on 
grade-level growth as opposed to individual student growth by requiring 
schools and districts to compare performance for different groups of 
students each year. For example, under NCLB schools must measure growth 
of this year's seventh-grade students against the scores of the past 
year's seventh-grade students. Such systems do not take into account 
differences in the groups of students and do not tell us whether our 
instruction has resulted in individual student growth.
    In addition, focusing on a cut score may encourage a school to 
concentrate only on students who are close to meeting that goal and not 
on the education of those students who may have the greatest need. 
Individual student growth, reported over time from year to year, gives 
teachers and administrators the best possible data about whether the 
instructional needs of every student are being met. NASSP thanks the 
committee for granting this additional flexibility.
Multiple Assessments
    NASSP is pleased that the discussion draft allows states to use 
multiple measures of student performance in determining AYP, including 
state assessments in subjects beyond reading and language arts, 
mathematics, and science; end-of-course exams in a rigorous high school 
curriculum; and college enrollment rates. Student assessment on a 
regular, consistent basis allows schools to analyze what students have 
or have not learned. And teachers can then develop effective strategies 
that address individual students' academic weaknesses and to build upon 
student strengths diagnosed by the assessments.
    To view standardized test results as a measurement of a school's 
success or failure, as the law currently does, misses the broader 
point. The purpose of assessment should be to inform instruction and 
improve learning. Assessments that produce diagnostic data, and not 
just a ``score,'' give educators a direction for increasing student 
success--individually, student by student. Hold educators accountable, 
but ensure that they have the resources, the preparation, the training, 
a strong curriculum, and useful assessment data to get the job done. If 
we can do that, then all our students will achieve, and our schools 
will have truly passed the test.
Graduation Rates
    The discussion draft requires high schools to be accountable for 
improving their graduation rates, a goal which NASSP supports. We are 
pleased that the committee is supporting a five-year provision for 
graduation rates and allowing students with the most severe cognitive 
disabilities to be counted as graduates if they have received an 
alternate diploma as defined by the Individuals with Disabilities 
Education Act (IDEA). Current law requires states to graduate students 
within the ``regular'' time, which most often has been determined to 
mean within four years, though the U.S. Department of Education has 
allowed some states to extend beyond this traditional timeline.
    NASSP wholeheartedly believes that designating a four-year 
timeframe within which students must exit and graduate from high school 
goes against what we know about student learning and timelines 
designated by IDEA. In fact, we should be moving in the opposite 
direction, allowing students additional time to graduate if they 
require it without penalizing the school, or less time if they have 
reached proficiency.
    Student performance should be measured by mastery of subject 
competency rather than by seat time. States that have implemented end-
of-course assessments are on the right track and should be encouraged 
to continue these efforts. And NCLB should reward students who graduate 
in fewer than four years--which could encourage excellence--rather than 
simply acknowledge minimum proficiency, and the recognition of high-
performing students could help schools that are nearing the target of 
100% proficiency.
    Ultimately, individualized and personalized instruction for each 
student must be our goal. NASSP has been a leader in advocating for 
such positive reform strategies through its practitioner-focused 
publications Breaking Ranks II: Strategies for Leading High School 
Reform(tm) and Breaking Ranks in the Middle: Strategies for Leading 
Middle Level Reform.
Title II
    With an emphasis on school-level outcomes and student achievement, 
NCLB places the school leader at the center of all school reform 
efforts. Today's principals are expected to be visionary leaders, 
instructional experts, building managers, assessment specialists, 
disciplinarians, community builders, and more; they are also the ones 
ultimately held responsible for student achievement. The Southeast 
Center for Teaching Quality finds that high-quality leadership was the 
single greatest predictor of whether or not a high school made AYP--
more than either school size or teacher retention. Yet, until recently, 
Congress has ignored the vital role of the principal in influencing 
student success.
    If principals and assistant principals are to meet the growing, 
ever-changing expectations of this demanding position, they require 
continual professional development personalized to meet their 
individual needs. This is true for all school leaders, regardless of 
their initial preparation or their length of service. Today's 
educational environment of standards-based education and high 
accountability demand that principals are knowledgeable and skilled in 
instructional leadership, organizational development, community 
relations, and change management. Ongoing, job-embedded professional 
development is the key to developing this capacity in all school 
leaders
    NASSP is extremely supportive of the major overhaul made to Title 
II in the discussion draft, as it includes much-needed mandatory 
professional development and other supports that would increase the 
capacity of principals to effectively use data to improve teaching and 
learning, to lead schools with high numbers of diverse learners such as 
students with disabilities or English language learners, to implement 
schoolwide literacy initiatives, and to better prepare all students to 
meet challenging content standards. We have long advocated for 
induction and peer mentoring programs for principals that emphasize 
school leadership practices, and we are very pleased to see their 
inclusion in the draft. A recent study by the Stanford Educational 
Leadership Institute found that principals who participated in ongoing 
leadership development programs during their careers are significantly 
better prepared for virtually every aspect of principal practice; have 
more positive attitudes about the principalship; and are more likely to 
plan to stay in the job, spend more time on instructionally focused 
work, participate in a broader range of learning opportunities, and 
make developing and supporting their teachers a priority.
    NASSP is an active participant is an effort to revise the 
Interstate School Leaders Licensure Consortium (ISLLC) standards, which 
are used to guide principal certification or performance appraisal 
policies in more than 40 states. The important role of the ISLLC 
standards in shaping state licensure and evaluation policies makes 
their regular revision essential to ensure that they accurately reflect 
the current demands of school leaders. Likewise, licensure requirements 
across the states must be designed to attract high-quality candidates 
to leadership positions. For the past 10 years, NASSP has worked with a 
national accreditation agency to review university and college 
preparation programs in education leadership promoting alignment of 
programs to standards, development of rigorous assessments, and 
problem-based learning activities in the field. NASSP commends the 
committee for addressing this issue in the discussion draft. The 
Partnership Grants for Principals and School Leaders would improve the 
rigor of current state school leader standards and licensure processes 
and ensure that they incorporate instructional leadership standards.
    NASSP would like to see Congress endorse a voluntary national 
advanced certification for successful experienced principals similar to 
the National Board for Professional Teaching Standards certification 
currently in place for teachers. Under such certification, highly 
effective principals would be recognized and rewarded for advancing 
student learning and closing achievement gaps; using data effectively 
in decision making; creating a safe and sound environment for student 
and teacher learning; working productively with parents and community 
members; growing teacher capacity and creating a healthy professional 
community that capitalizes on the strengths of the strongest teachers 
and nurtures novice teachers; allocating resources efficiently; 
demonstrating knowledge about school management, curriculum, teaching 
and assessment; and modeling continual professional growth by engaging 
in planned development activities.
Striving Readers
    NASSP would like to thank the committee for authorizing and 
expanding the Striving Readers program for students in grades 4--12. 
This vital program will help ensure that the 6--8 million students 
reading below grade level receive the literacy interventions they need 
to earn a high school diploma.
    Nationwide, 29% of eighth-grade students read ``below basic'' on 
the National Assessment of Educational Progress. These students, who 
are in the bottom quarter of achievement, are 20 times more likely to 
drop out than students at the top. That should come as no surprise. Low 
literacy prevents students from succeeding in high school in all 
subjects. And the National Center for Education Statistics found that 
53% of undergraduates require a remedial reading or writing course. In 
addition, the National Association of Manufacturers reported that 
businesses spend more than $60 billion each year on remedial reading, 
writing, and mathematics for new employees.
    Striving Readers is a formula grant program for states based on 
poverty levels according to the U.S. Census. States would develop 
statewide literacy plans, and districts applying for the grants would 
use funds to create schoolwide adolescent literacy plans that met the 
needs of all students, including students with special needs and 
English language learners; provide professional development for 
teachers in core academic subjects; train school leaders to administer 
adolescent literacy plans; and collect, analyze, and report literacy 
data.
    The goals of Striving Readers are very much in line with Creating a 
Culture of Literacy: a Guide for Middle and High School Principals, 
which NASSP released in 2005. This guide was written for principals to 
use as they team with staff members to improve their students' literacy 
skills by assessing student strengths and weaknesses, identifying 
professional development needs, employing effective literacy strategies 
across all content areas, and establishing intervention programs.
    Congressman John Yarmuth (D-KY) and Congressman Todd Platts (R-PA) 
have been true leaders in adolescent literacy, and NASSP would like to 
thank them for their hard work in ensuring that the Striving Readers 
program has a permanent place in the Elementary and Secondary Education 
Act.
Graduation Promise Fund
    NASSP is a national leader in high school reform and in 2004, 
created a framework upon which to improve our nation's high schools 
called Breaking Ranks II: Strategies for Leading High School Reform. 
The handbook offers successful research-based practices, real-life 
examples of high schools at various stages of reform, a step-by-step 
approach to lead change, obstacles to avoid, and resources from which 
to draw. NASSP offers Breaking Ranks for all high school principals, 
regardless of school size, geographical location, or where they are in 
the school improvement process.
    High schools have historically been the forgotten stepchild of 
school reform efforts and, for far too long, have not received an 
adequate share of funding and other resources from the federal 
government. But successful high school reform requires real strategies 
and significant resources for implementing systemic improvement and 
raising individual student and schoolwide performance levels. This is 
why NASSP is so pleased that the discussion draft authorizes the 
Graduation Promise Fund to assist low-performing high schools in 
implementing the comprehensive schoolwide improvement plans required 
under Sec. 1116. The school improvement and assistance measures 
outlined in this section mirror many of the strategies NASSP promotes. 
They include ongoing, high-quality professional development for school 
leaders; schoolwide literacy and mathematics plans; programs to 
increase academic rigor; extended learning time; and practices that 
serve to personalize the school experience such as smaller learning 
communities and professional collaboration among principals, teachers, 
and other school staff.
    As a middle level principal, I would be remiss if I didn't remark 
on the missing ``M'' in ESEA. Elementary schools and secondary schools 
are mentioned throughout the discussion draft, but there are exactly 15 
references to middle schools or middle grades in the more than 1,000 
pages of this bill. Although ``secondary schools,'' by definition, 
includes middle level schools, the draft tends to use ``secondary 
school'' interchangeably with ``high school,'' which is confusing for 
middle level educators as well as states interpreting federal law. 
NASSP respectfully requests that the committee clarify in all sections 
of the bill whether the term ``secondary school'' includes grades 5--8.
    NASSP is an original member of the Middle Grades Coalition on NCLB, 
and I would like to speak to you on their behalf. In the formal 
comments submitted by the coalition last week, we expressed our support 
for the goals set forth in the Graduation Promise Fund as they pertain 
to low-performing high schools. However, we are seriously concerned 
that the draft proposal has not addressed the urgent need to turn 
around low-performing middle schools.
    The draft requires school districts to identify those students in 
the middle grades who are at high risk of dropping out of high school 
and to provide intensive supports for these students, but this really 
doesn't go far enough to address the more than 2,000 middle level 
schools that feed into the nation's ``dropout factories''--those high 
schools graduating fewer than 60% of their students. High school reform 
will never succeed in a vacuum, and many of these middle level schools 
are in need of the same comprehensive whole-school reform that is 
offered to high schools under the Graduation Promise Fund.
    The future success of NCLB rests largely on the shoulders of middle 
level leaders, teachers, and students. Students in grades 5 through 8 
represent 57% (14 million) of the nation's annual NCLB test takers, but 
middle level schools are not receiving adequate federal funding and 
support to help these students succeed. We recognize that the majority 
of districts choose to funnel their Title I funds into early childhood 
and elementary programs, and while we fully support continuing the 
drive to help students succeed in these grades, the needs of struggling 
students in our lowest-performing middle schools must not be ignored. 
If Title I funds were distributed on the basis of student populations, 
middle level schools (representing 23% of the nation's student 
population) would receive approximately $2.92 billion of the current 
Title I allocation. Yet, of the $12.7 billion appropriated in FY 2005 
for Title I, only 10% is allocated to middle schools.
    Therefore, I strongly urge the committee to support the Success in 
the Middle Act (H.R. 3406), which Congressman Ra#l Grijalva (D-AZ) 
plans to offer as an amendment during the committee markup. Under the 
bill, states are required to implement a middle school improvement plan 
that that describes what students are required to know and do to 
successfully complete the middle grades and make the transition to 
succeed in an academically rigorous high school. School districts would 
receive grants to help them invest in proven intervention strategies, 
including professional development and coaching for school leaders, 
teachers, and other school personnel; and student supports such as 
personal academic plans, mentoring, intensive reading and math 
interventions, and extended learning time.
    NASSP and the Middle Grades Coalition on NCLB believe the 
comprehensive middle level policy articulated in H.R. 3406 is necessary 
to address the realities that only 11% of eighth-grade students are on 
track to succeed in first-year college English, algebra, biology and 
social science courses (ACT, 2007), fewer than one-third can read and 
write proficiently, and only 30% perform at the proficient level in 
math (NAEP, 2005). Adopting the Success in the Middle Act as an 
amendment to the committee bill hand-in-hand with the Graduation 
Promise Fund would strengthen NCLB by providing the support necessary 
to turn around our nation's lowest-performing middle and high schools 
and give our struggling students the help they need from preschool 
through graduation.
    NASSP believes the draft moves NCLB in a positive direction, and 
school leaders are optimistic for its reauthorization. But our optimism 
has too often been dampened in the past when federal budget proposals 
reflect education as so low a priority. Experience teaches us these new 
provisions will be impossible to implement without full funding. We 
therefore strongly urge you to commit to your nation's schools in 
budget as much as in law and ensure that the necessary level of funding 
is appropriated.
    Mr. Chairman, this concludes my prepared testimony, but I would be 
happy to answer any questions you or the other committee members may 
have.
    Thank you again for this opportunity.
                                 ______
                                 
    Chairman Miller. Thank you Mr. Stark.
    Mr. Jennings, Jack welcome back to the committee as always.

  STATEMENT OF JACK JENNINGS, PRESIDENT, CENTER ON EDUCATION 
                             POLICY

    Mr. Jennings. Thank you very much, Mr. Miller.
    Let me begin by commending the entire leadership of the 
committee for having such an open process in this 
reauthorization. Having been involved in a few in the past, I 
can say that this is a very open process, and you are going to 
have better legislation as a result. It is also very 
commendable you are doing this in a bipartisan manner because, 
over time, you will have a better bill if you have a bipartisan 
bill, at least in education; maybe not in other areas, but at 
least in education.
    In June, I appeared before Mr. Castle's subcommittee 
talking about student achievement. But today my testimony is 
different. This is going to deal with the implementation of No 
Child Left Behind. The Center on Education Policy has conducted 
a 5-year study of No Child Left Behind, which involves surveys 
of State officials, surveys of national samples of school 
districts, case studies of school districts, case studies of 
individual schools. And I would like to give you some 
indication of what educators are saying about the 
implementation of No Child Left Behind. I realize that this is 
just one point of view, but it is a very important point of 
view because these are the people you expect to carry out the 
law.
    In general, what your bill does is address many of the 
concerns that have been raised by educators. And let me go 
through a few, but give you some suggestions for additions. 
Now, attached to the testimony are detailed suggestions, so I 
won't get into all of those. But let me start with growth 
models. Growth models are clearly something that educators very 
much want. But if you retain the goal of everybody being 
proficient by 2014, you are going to frustrate the use of 
growth models. Because you are going to have about the same 
number of schools identified as you would any other way. And so 
we urge you to consider gearing the goal towards high-achieving 
school districts within a State, which is an alternative goal, 
but it is a realizable goal, and it would result in a fairer 
system with use of growth modes. With English language learners 
and children with disabilities, again you have identified the 
problem; you have incorporated the number of things that are 
good solutions to the problem, but we urge you to think a 
little bit more broadly on that, too.
    With children who are learning English, we urge you to 
think about putting together the testing of English proficiency 
with the testing of content knowledge and graduating the 
results depending on the level of proficiency.
    With children with disabilities, we urge you to think about 
more deference to the Individual Educational Plan. This is the 
key in the education of the disabled children, and it should be 
considered when you are judging what kind of testing should be 
entailed with children with disabilities.
    With school improvement, you have again identified the 
problem. You move towards a graduated system of dealing with 
schools and school improvement. But I urge you to think about 
several additions to that system. One would be that you should 
only identify a school as a need of improvement if the same 
group of students for 2 years in a row in the same subject 
matter does not do well. That way, you will have a much more 
focused system of school improvement geared towards schools 
that show more consistent problems. I also urge you to think 
about continuing aid to schools that graduate from program 
improvement. Right now, what happens is schools get all sorts 
of aid to get off the list. Then, as soon as they get to their 
right level of achievement, they lose that aid. And the fear, 
and I think we are going to document this in a report pretty 
soon, is that many of those schools fall back again on the list 
because they haven't been able to institutionalize the changes. 
So I hope you consider that.
    So, in general, your bill addresses many of the problems 
identified by educators. And of course, people can differ on 
the solutions to these problems. But your bill should certainly 
move through the legislative process and be refined in the 
legislative process. If you don't move, what is going to happen 
is that many of the problems we have identified and others have 
identified won't be addressed for a year to 3 years because of 
the Presidential election and the way that Congress does 
business. And so it is very important that you continue on 
track and that you move your bill as soon as you can to address 
these problems.
    Let me conclude with a general concern expressed by many 
educators in all our surveys and interviews and case studies. 
And this is a concern that No Child Left Behind is fostering a 
narrow view of education. Basically, it is a test-driven 
accountability system to raise the bottom. And educators think, 
if this is the vision of education that the country has, it is 
a very narrow vision. Tests can do many things, but tests have 
limitations. And just raising the bottom frequently means what 
happens is that educators just raise the bubble children, the 
children just below the test level and get them over the test 
level and don't address the needs of all children. So I hope 
that there is some way--I know you have moved to a degree in 
this draft, but I hope in some way you can encourage a much 
broader look at education, a much more thorough and deeper look 
at education so that we can truly have a national vision of 
education for the country that helps all children to improve to 
some world cast level. I hope you find some way in the bill to 
encourage that for the next reauthorization, but also to help 
guide State legislatures and local school districts as they go 
about improving education. Thank you.
    [The statement of Mr. Jennings follows:]

  Prepared Statement of Jack Jennings, President, Center on Education 
                                 Policy

    Since 2002, the Center on Education Policy has been conducting a 
comprehensive study of the implementation and effects of the No Child 
Left Behind Act. Our recommendations for proposed amendments to the 
Elementary and Secondary Education Act are based on that research and 
are appended to this testimony, and I respectfully ask you to review 
them. Today, I will limit my remarks to the process used by the 
committee and to the key features of the draft legislation.
    Chairmen Miller and Kildee and Ranking Members McKeon and Castle, 
you are to be commended for having such an open process for considering 
these amendments. Through your earlier hearings, discussions of 
proposed amendments, Web-based distribution of draft legislative 
language, effort to be bipartisan, and now these hearings, you have 
shown a commendable openness to criticisms and willingness to hear a 
variety of proposed solutions.
    Your draft legislation represents a good start in addressing the 
major problems in the current law, and refinements in the legislative 
process could bring about further improvement. For my remaining time, I 
will comment briefly on the key features of your proposal, and mention 
some of the changes we would recommend.
Multiple Indicators
    In our state and school district surveys, case study interviews, 
and other research, state leaders and local educators have often 
criticized the narrowness of the accountability measures now required 
in NCLB, which rely so much on just reading and math test results. The 
proposed amendment to broaden these measures to include other objective 
measures of academic performance acknowledges that concern. CEP 
recommends also including measures other than those listed if they meet 
criteria established by the National Academy of Sciences and the 
National Academy of Education.
Growth Models
    For years, educators have been calling for the use of growth 
models, and this feature is to be applauded. However, if your 
legislation keeps the goal of proficiency for all by 2014, using growth 
models will probably not make much difference in terms of identifying 
schools for improvement. CEP instead recommends linking the degree of 
growth expected of all districts and schools each year to the average 
rate of gain over two or three years in the districts or schools within 
a state that rank at the 75th percentile. For instance, if the top 
quarter of schools and districts that made gains on state tests had 
rates of improvement in the percentage of students achieving at the 
proficient or above levels that averaged 3% per year, then adequate 
yearly progress might be defined as a 3% increase for all schools and 
districts. That is a high goal, but within reach with sufficient 
effort.
English Language Learners and Students with Disabilities
    Testing policies for English language learners and students with 
disabilities have been a matter of major controversy for years, with 
educators asking for more flexibility for both subgroups. The set of 
amendments for ELL students addresses many of the concerns raised in 
our surveys and interviews. As explained in our recommendations, 
however, we suggest that you consider giving greater weight to the 
results of English language proficiency tests and less to the results 
of academic content tests for students who have very limited 
proficiency in English, then adjusting these relative weights as these 
students gain English language proficiency.
    For students with disabilities, the basic requirement should be to 
assess these students using the same tests as those given non-disabled 
students; however, the individualized education program (IEP) could 
modify this presumption by presenting clear evidence that a particular 
student should be permitted test accommodations, an alternate 
assessment based on modified achievement standards, or an alternate 
assessment based on alternative achievement standards. There should be 
no percentage limitations on how many students can be assessed in these 
different ways.
School Improvement
    Our research has repeatedly identified problems with requiring the 
same treatment for schools in which one subgroup falls short of 
adequate yearly progress as for schools in which many subgroups fall 
short. The draft addresses that concern by creating a graduated system 
of aid for schools depending on the degree of problems. An assurance 
that significant action must be taken even in a school with only one 
subgroup not achieving adequately would ensure that the noble goal of 
NCLB of requiring that all lagging students be helped would not be 
lost. A further recommendation is that schools be identified for 
improvement only when the same subgroup of students does not meet the 
state AYP target in the same subject for two or more consecutive years.
    Another recommendation from CEP related to school improvement 
involves supplemental educational service providers. In our surveys, 
school district officials expressed concern that the tutoring services 
provided through NCLB are not always effective in raising student 
achievement. Outside providers of supplemental services should be held 
accountable just as school districts are--namely by requiring them to 
show improvement in test scores in two years or be barred from 
providing services.
    A further recommendation concerns schools that improve achievement 
enough to exit school improvement status. When schools improve 
sufficiently, they lose the extra financial assistance and other aid 
that helped them to do better. We urge you to continue this assistance 
in these schools for three years after they improve, so they can 
institutionalize the practices that helped them.
Conclusion
    The draft bill addresses many of the major concerns raised by 
educators and state officials in our five years of research. Of course, 
people who care about schools and children will disagree about 
particular solutions to those problems. But the committee has made a 
good start, and the bill should move through the legislative process. 
If there is no legislation, then the current law would apply for one or 
two more years, and the problems identified by our research and that of 
others will not be addressed.
    Let me finish by raising a general concern expressed repeatedly by 
educators in our surveys and interviews. The No Child Left Behind Act 
seeks to raise achievement for low-performing students through a test-
driven accountability system. Certainly, it is important to use 
standardized measures of achievement, but tests are imperfect 
instruments with limitations in what they can measure well. Educators 
express frustration that this test-based system is leading to a narrow 
vision of education and hope that our nation could pursue a more 
comprehensive vision of how to make American education the best in the 
world.
    Could we establish a national commission or use some another means 
to think deeply about schooling and the best means to help all American 
students become well educated? I know that today's session is 
concentrated on particular legislative language, but can't we find a 
way to think more broadly and creatively so that future federal laws, 
state policies, and local actions can lead the way to a better educated 
citizenry?
    Thank you for this invitation and opportunity to share what we have 
learned.
                                 ______
                                 

          Recommendations From the Center on Education Policy

    Since the No Child Left Behind Act (NCLB) was signed into law in 
2002, the Center on Education Policy (CEP) has been monitoring the 
effects of this important national policy. For five years, we have 
surveyed the primary agents charged with carrying out the law in the 
states--chief state school officers or other officials of state 
education agencies. To examine the effects of NCLB at the local level, 
we have surveyed administrators in a national sample of school 
districts and conducted case studies of dozens of districts and schools 
over the last four years. We have also conducted additional research on 
particular aspects of NCLB, and most notably have analyzed test data 
from all 50 states to determine if scores on state tests have gone up 
since 2002.
    This paper presents CEP's recommendations for changes to the 
Elementary and Secondary Education Act of 1965 (ESEA) as amended by 
NCLB. These recommendations grow out of the main findings of our 
research on the effects of NCLB.
Achievement
    Since 2002, in most states with three or more years of comparable 
test data, student achievement in reading and math has gone up, and 
there is more evidence of achievement gaps between groups of students 
narrowing than of gaps widening. In addition, in 9 of 13 states with 
sufficient data to determine pre- and post-NCLB trends, average yearly 
gains in test scores were greater after NCLB took effect than before. 
However, it is very difficult, if not impossible, to determine the 
extent to which these trends in test results have occurred as a result 
of NCLB; this is because states, districts, and schools have 
simultaneously implemented many different but interconnected policies 
to raise achievement in the time period since NCLB was enacted.
    Reauthorize the Elementary and Secondary Education Act. Raising the 
academic achievement of all students and eliminating the achievement 
gap for various groups of students must remain as national priorities. 
The ESEA should be reauthorized in a renewed effort to address these 
national goals.
    Support efforts to identify effective strategies for narrowing the 
achievement gap. Although there is positive news about increases in the 
test scores of underachieving students, the magnitude of the gap is 
still substantial. The reauthorized ESEA should include a research and 
evaluation component to determine the most effective ways of narrowing 
the achievement gap. Successful efforts should be replicated in schools 
and districts with persistently low-performing students.
    Require states to provide easy public access to a deep array of 
assessment data. Currently, the public does not always have access to 
adequate data on state tests. In order to foster a more transparent 
accountability system, states should be required to post test data in 
an easy-to-find place on state Web sites; provide clear information and 
cautions about breaks in the comparability of test data caused by new 
tests or changes in testing systems; and report other important 
information to aid researchers in analyzing achievement trends, such as 
standard deviations and mean scale scores.
Testing and its Impact on Curriculum and Instruction
    The NCLB requirement for states to test the reading and math skills 
of all students in grades 3 though 8 and once in high school is having 
a major influence on how education is being provided in schools across 
the country. Our district survey found that 62% of all school districts 
have increased instructional time in reading and math in elementary 
schools. In 44% of districts, this increase has meant that time for 
other subjects, such as social studies, science, art, and music, is 
reduced. Because the tests required for NCLB are the drivers of 
standards-based education reform, they must be of the highest quality 
and properly used in the education process.
    Require states to arrange for an independent review, at least once 
every three years, of their standards and assessments to ensure that 
they are of high quality and rigor. Our research suggests that school 
districts are changing their curriculum to put more emphasis on the 
content and skills covered on the tests used for accountability. 
Therefore, states should be sure these tests are ``good'' tests by 
commissioning reviews of their standards and assessments by independent 
organizations and agencies. These reviews should also determine the 
extent to which the assessments are aligned with the state standards.
    Stagger testing requirements to include tests in other academic 
subjects. Because what is tested is what is taught, students should be 
tested in math and English language arts in grades 3, 5, and 7 and once 
in high school, and in social studies and science in grades 4, 6, and 8 
and once in high school. These tests should be used for accountability 
purposes.
    Encourage states to give adequate emphasis to art and music. States 
should review their curriculum guidelines to ensure that they encourage 
adequate attention to and time for art and music, in addition to the 
subjects recommended for testing listed above. States should consider 
including measures of knowledge and skills in art and music among the 
multiple measures used for NCLB accountability.
    Provide federal funds for research to determine the best ways to 
incorporate the teaching of reading and math skills into social studies 
and science. By integrating reading and math instruction into other 
core academic subjects, students will be more ensured of a rich, well-
rounded curriculum. Funds provided under Title I and Title II of ESEA 
should be used to train teachers in using these techniques.
Accountability
    The No Child Left Behind Act is identified in educators' minds as a 
means of enforcing accountability in public education. States, school 
districts, parents, and others would be more likely to accept this 
accountability if serious defects in the law were addressed in the ESEA 
reauthorization.
    Allow states the option of using growth models to determine 
students' academic progress. The current method of measuring aggregate 
progress toward an annual state proficiency target is too crude a 
measure. A shift to a growth model system, which recognizes annual 
improvement in test scores of individual students, would be fairer to 
students and teachers. The degree of growth expected of all districts 
and schools each year could be linked to the average rate of gain in 
the districts or schools within a state that rank at the 75th 
percentile over two or three years, instead of a goal of 100% 
proficiency for all students by 2014.
    Allow states to use multiple measures of student achievement in 
determining adequate yearly progress. These measures should be weighted 
and should be limited to objective measures of academic achievement, 
including student performance on state tests in subjects other than 
math and English language arts. The National Academy of Sciences and 
National Academy of Education chould be charged with developing options 
for the criteria to be used in federal regulations to determine these 
objective measures.
    Allow the individual education program (IEP) of a student with a 
disability to determine how he or she should be tested, and convene a 
national task force to develop criteria to help guide IEP teams in 
making these decisions. The reauthorized ESEA should continue the 
requirement that students with disabilities be assessed using the same 
tests as those taken by non-disabled students, but the Act should be 
amended to allow the IEP for each student to modify this presumption by 
presenting clear evidence that a student should be afforded 
accommodations, an alternate assessment based on modified achievement 
standards, or an alternate assessment based on alternate achievement 
standards. The reauthorized ESEA should establish a national task force 
to develop criteria to assist IEP teams in making appropriate and 
consistent decisions about assessments for students with disabilities. 
There should be no percentage limitations on how many students can be 
assessed in these different ways. The results from the IEP-recommended 
assessment would be used to determine student progress for purposes of 
determining AYP.
    Weigh the English language proficiency and academic content 
assessment results for students learning English.
    NCLB requires states to test the language proficiency skills and 
academic content knowledge of students who are learning English. For 
accountability purposes, these two assessments should be twinned. More 
weight would be given to the language proficiency assessment when an 
English language learner enters the state's school system and is less 
proficient in English. As the student progresses through the education 
system and becomes more proficient in English, more weight would be 
given to the academic content assessment.
    Designate schools ``in need of improvement'' only when the same 
subgroup of students does not meet the state AYP target in the same 
subject for two or more consecutive years. Currently, a school can be 
identified for improvement if one subgroup of students fails to make 
AYP in reading one year, and then a different subgroup of students 
fails to make AYP in math the following year. This change would 
identify only those schools where there is a consistent problem and 
would allow states and school districts to better target scarce 
resources and assistance on schools that really need help.
    Allow public school choice as a school district option for 
improving student achievement in schools that have been identified for 
improvement. Our research indicates that the public school choice 
requirement has been used by only a small percentage of those who are 
eligible. In addition, we know of no major research study that has 
provided evidence that school choice raises student achievement. 
Districts should not be required to offer choice to students attending 
schools that have been identified for improvement, but can opt to do 
so.
    Establish accountability requirements for the providers of 
supplemental educational services. In our surveys, school district 
officials expressed concern that the tutoring services provided through 
NCLB are not always effective in raising student achievement. To 
address this concern, providers of supplemental educational services 
should be held to the same type of accountability as public schools. If 
students served by a provider do not show improvement in state test 
scores after two years of services, then that provider should be 
allowed to provide services only for one more year. If there is still 
no increase in scores, then that provider should be barred from 
providing services through Title I.
Schools in Need of Improvement
    Although nationally approximately 18% of all districts report 
having at least one school identified for improvement, greater 
proportions of urban districts (47%) report having such schools. This 
is due in large part to urban districts' concentrations of students of 
color and low-income children. A basic problem with NCLB is that it 
classifies schools equally as ``in need of improvement'' regardless of 
whether one grade or one subgroup of students is not making adequate 
yearly progress or many grades and many subgroups of students are 
missing AYP targets.
    Evaluate school improvement strategies that show the greatest 
success in urban schools, and then provide assistance to urban schools 
to implement these strategies. States and the federal government should 
engage in a comprehensive evaluation of school improvement efforts to 
determine what works in urban settings and then foster the replication 
of these successful efforts.
    Encourage a graduated approach of assistance to schools in 
improvement with an emphasis on schools with the greatest needs. Scarce 
federal and state resources should be targeted on schools that need 
assistance the most.
    Allow schools that graduate from school improvement to continue to 
receive financial support and assistance for three years. Our research 
has pointed to the need for continued support for schools that improve 
achievement enough to leave NCLB's school improvement status. Often, 
these schools face challenges in maintaining achievement gains and 
other improvements when they lose the extra technical assistance and 
funding that came with being identified for improvement.
    Encourage schools in NCLB's restructuring phase to engage in a 
variety of reform efforts. Our studies of NCLB school restructuring 
indicate that multiple strategies tailored to a school's needs are more 
effective in improving schools in restructuring than single strategies. 
The current federal list of options for schools in restructuring, 
therefore, should not be restricted. More specifically the option that 
allows ``any other major restructuring of the school's governance that 
produces fundamental reform'' should not be eliminated. Instead, states 
should assist districts in making good decisions about using multiple 
strategies to improve schools in restructuring.
State Departments of Education
    The state agencies primarily charged with carrying out federal 
education policy are stymied by the lack of sufficient staffing and 
funding to carry out their duties, especially responsibilities related 
to assisting schools identified for improvement.
    Establish a grant program for states to rethink the mission and 
organization of state education agencies to make them more effective 
leaders of school improvement. Each state's leadership--the governor, 
chief state school officer, and state board of education--should be 
eligible to receive an unrestricted grant allowing them to assess and 
rethink the role of state education agencies in improving elementary 
and secondary education.
    Provide additional federal funding to state education agencies to 
enable them to effectively carry out NCLB.
    Increased federal funds could be used to support such activities as 
improving low-performing schools, developing better assessments for 
students with disabilities and English language learners, and improving 
data systems.
    Require the U.S. Department of Education (ED) to review and enhance 
its efforts to assist states in implementing federal programs. ED 
should review and refashion its application and reporting procedures, 
guidance, and regulations, and create a more assistive federal/state 
partnership.
    Amend ESEA to help states assist schools more effectively by 
allowing differentiated levels of technical assistance based on the 
needs of an individual school. Resources and personnel could be better 
used if states can address the unique needs of a school instead of 
having to carry out a blanket set of actions for all schools in 
improvement.
    Provide assistance to states to develop high-quality assessments 
for students with disabilities and English language learners. Although 
some states have made progress in developing alternative or native-
language assessments to better measure the achievement of some students 
with disabilities and English language learners, states need funding 
and technical support to continue to refine assessments for these two 
subgroups.
Funding
    For school years 2003-04 and 2004-05, we found that approximately 
80% of districts have assumed costs to carry out NCLB for which they 
are not being reimbursed by the federal government. In 2006, over two-
thirds of the states reported receiving inadequate federal funds to 
carry out their NCLB duties. In a federal system, whenever costs to 
carry out a national policy are imposed on another level of government, 
dissatisfaction arises.
    Substantially increase funding for the Elementary and Secondary 
Education Act, especially Title I, Part A. Federal funding should grow 
to match the expansion of duties required of states and school 
districts since the enactment of the No Child Left Behind Act in 2002.
    Provide money for school improvement activities from a separately 
authorized source of funding. Currently, funds for school improvement 
are primarily funded through a set-aside of funds from each state's 
total Title I, Part A allocation. Due to a ``hold harmless'' provision 
in the law, however, states are sometimes unable to set aside the full 
4%. Funding school improvement through a separate authority would help 
to ensure that all states, even those with little or no increase in 
Title I, Part A funds, have funds for school improvement activities.
    The U.S. Department of Education and the U.S. Census Bureau should 
thoroughly review the accuracy of the poverty estimates used to 
distribute Title I and other federal funds. Consideration should be 
given to other options, such as using the average of the two most 
recent Census estimates, to calculate LEA grants. The amounts of Title 
I-A general funding that some states and school districts receive have 
fluctuated from year to year due to annual updating of Census estimates 
of the number of children in poverty. Formulas used to distribute Title 
I-A funds are based on each state's relative share of low-income 
children. This year, because states' relative shares of the total 
number of low-income children have shifted, some states will receive 
double-digit increases in Title I funding for school year 2007-08, 
while other states will lose substantial funds. These shifts in turn 
affect the amounts that school districts within a state receive.
    Increase funding for the Reading First program. Despite the 
Inspector General's findings of misconduct among Reading First 
officials in the U.S. Department of Education and among those 
contracted by the Department to assist states in implementing the 
program, Reading First has value. For the past two years on our state 
and district surveys, most officials reported that Reading First was an 
important cause of increases in student achievement in reading.
Teacher Quality
    Most school districts report that they are in compliance with the 
requirement for all of their teachers to be ``highly qualified,'' 
although some districts are having problems meeting the requirement for 
certain types of teachers. Despite this general compliance, educators 
express skepticism that the highly qualified teacher requirements will 
make much difference in raising student achievement.
    Encourage states to develop methods to measure teacher 
effectiveness. Grants and incentives should be provided to states to 
develop their own systems to measure and report on the demonstrated 
effectiveness of teachers. These measures could be incorporated into 
states' teacher certification and licensure systems for veteran 
teachers.
    Refine the current federal definition of a highly qualified teacher 
to address the special circumstances of certain kinds of teachers. Our 
surveys show that districts are having difficulty ensuring that 100% of 
certain types of teachers, such as special education teachers, 
secondary school teachers of science and mathematics, and teachers in 
rural areas who teach multiple subjects are highly qualified. More 
flexibility should be built into ESEA regarding qualifications of these 
teachers.
    Adopt a comprehensive approach to recruiting and retaining teachers 
in high-need schools. NCLB requires states to ensure that experienced, 
well-qualified teachers are distributed equitably among high-need and 
lower-need schools. This requirement should be supported through ESEA 
by a comprehensive approach, rather than a piecemeal assortment of 
small, narrowly focused programs. This approach could include financial 
incentives to recruit and retain highly qualified, experienced teachers 
who will make a long-term commitment to teach in high need schools; 
high-quality ``residency'' programs, similar to those used in medical 
training, developed specifically for new teachers and their mentors in 
high-need schools and for school leadership staff; and improved working 
conditions for teachers, such as lighter course loads for new teachers, 
increased planning and collaboration time, shared decision making, and 
up-to-date textbooks, technology, and facilities.
    Provide federal assistance to states to develop and implement 
comprehensive data systems. To fully comply with the highly qualified 
teacher requirements, states need to strengthen their data systems. 
With more comprehensive data about teacher qualifications, student-
teacher ratios, teacher time spent on preparation versus teaching, and 
mobility rates of teachers and administrators, states and school 
districts could better understand which conditions contribute to 
teacher and student success and what supports are needed to help 
teachers succeed.
    More detailed information on our research findings and 
recommendations can be found in the individual reports we have issued 
on the implementation of NCLB and our study of student achievement 
since NCLB was enacted. All of these reports are posted on our Web site 
(www.cep-dc.org) and can be downloaded free of charge.
                                 ______
                                 
    Chairman Miller. Thank you very much for your remarks.
    Next we will hear from Dr. Linda Darling-Hammond.
    Welcome to the committee. Thank you for all your help in 
the past.

    STATEMENT OF LINDA DARLING-HAMMOND, CHARLES E. DUCOMMUN 
          PROFESSOR OF EDUCATION, STANFORD UNIVERSITY

    Ms. Darling-Hammond. Thank you very much. It is a pleasure 
to be here. Thanks to the committee for sharing this public 
draft. Many of us appreciate that openness and that opportunity 
to comment. There is much to talk about, but I am going to 
focus on only two things. The first is the provisions to 
encourage multiple measures of assessment and school progress, 
which I believe are essential to raise standards in the ways 
that Jack was just talking about and to make them 
internationally competitive. And the second is the provisions 
to improve the quality and distribution of the teaching force, 
which is also essential for our ability to reach the high goals 
that we have set. I also want to note that I think we do need a 
new means for charting school progress from year to year, one 
that better evaluates continuing progress, measures students 
all along the continuum in the ways that Mr. Jennings just 
talked about and that can be more understandable to the public. 
And in Appendix B of my testimony, I have proposed some ideas 
for such a system.
    But I am going to shift now because I think it is important 
to just look at the big picture of developing an American 
education system that will maintain the U.S. as a first world 
power in the 21st Century, a status which we are at serious 
risk of losing. On page 2 of my testimony, you will see the 
most recent international rankings on assessments. The U.S. on 
international achievement tests ranks 19th out of 40 countries 
in reading; 20th in science and 28th in math, right on a par 
with Latvia. Furthermore, most of these countries now graduate 
virtually all of their students. And we have been stuck at a 75 
percent graduation rate for about 30 years. And our graduation 
rates are going down. We have also slipped from first in the 
world in higher education to 13th.
    We ought to ask ourselves, what are these other countries 
doing as they are galloping ahead to prepare for a knowledge-
based economy? There are two major things that are happening in 
these other countries that are addressed in part by some of the 
provisions of this bill. One is that they have very thoughtful 
curriculum and assessment systems. Their assessments are open 
ended, written examinations, oral examinations at the 
centralized level. And at the local level, there is a component 
which usually comprises about 50 percent of the examination 
score which are local assessments that engage students in 
science investigations, research projects, computer 
programming, written extended responses and presentations. You 
can see an example of this in Appendix A of my testimony which 
looks at some of the assessments in Victoria, Australia, and 
Hong Kong, both very high-achieving countries, which assemble 
the assessments in most of the high-achieving countries in the 
world. We need to be moving towards the kind of curriculum that 
is looking ahead to 21st Century skills and not be constrained 
only by multiple choice tests which measure a fairly low level 
of performance in reading and math. And our studies show, 
including the ones that Jack already mentioned, that students 
in the United States are doing less writing, less science, less 
history, reading fewer books and even using computers less in 
some States as a function of the pressures that have come about 
by the types of tests that have been selected.
    Component is very important both for this reason and to 
raise graduation rates, because it can keep into account 
keeping kids in schools as well as raising the standards. These 
points have been brought to the Congress in two letters; one 
from 23 civil rights organizations, and another from 120 
national experts, including the leading testing experts in the 
country as critical for moving our Nation forward.
    In addition, these other countries also have very well 
prepared and well supported teaching forces. They bring people 
into high quality teacher education free of charge to all 
candidates with a stipend. They then bring them into the career 
at a competitive salary, usually benchmarked to engineers. In 
Singapore, beginning teachers make more than beginning doctors. 
They then give them mentoring throughout their careers. And 
they give them professional development opportunities that are 
very deep and rich and, in many countries, a career ladder that 
allows them to progress and take leadership roles and 
contribute to mentoring other teachers.
    The teaching components of this bill, particularly those 
that come from the TEACH Act that had been previously 
introduced, are essential as beginning points for us to get to 
that kind of a teaching force in this country. The recruitment 
incentives that are there to attract both well prepared novices 
and expert teachers to high-need schools are very, very 
important. Where we have students not meeting the standards, 
quite often it is also because they are being taught by 
inexperienced and inexpert teachers. We have got to bring 
teachers to those communities. The new teacher residency 
programs in the bill, the high quality mentoring for beginning 
teachers that is there is a very essential point. We lose 30 
percent of our beginning teachers within 5 years. It is like 
filling a leaky bucket and having people fall out the bottom. 
We could save $600 million annually by ensuring mentoring for 
all of our beginning teachers.
    The New Teacher and Principal Professional Development 
Academies in the bill would move us beyond the sort of hit-and-
run or drive-by workshops that are so common and so ineffective 
in schools. And the development of career ladders for teachers 
that can recognize and reward effective teachers who contribute 
to student learning and who show high levels of performance 
like those who are nationally board certified and then can 
share their knowledge with other teachers as mentor teachers 
and master teachers can actually create an engine for school 
improvement. Ultimately, we can't expect to achieve these high 
standards unless we have great teachers in every classroom and 
a curriculum that is squarely focused on 21st Century skills. I 
think this bill makes a good start in that direction.
    [The statement of Ms. Darling-Hammond follows:]

   Prepared Statement of Linda Darling-Hammond, Charles E. Ducommun 
              Professor of Education, Stanford University

    Congressman Miller, Congressman McKeon and members of the 
Committee. Thank you for this opportunity to testify on the draft bill 
to re-authorize No Child Left Behind. I am Linda Darling-Hammond, 
Charles E. Ducommun Professor of Education at Stanford University and 
co-director of the Stanford Educational Leadership Institute and the 
School Redesign Network. I was also the founding Executive Director of 
the National Commission on Teaching and America's Future, and have 
spent many years studying policies and practices in the U.S. and around 
the world that support stronger curriculum, assessment, teaching and 
learning.
    I want also to thank the Committee for its openness and commitment 
to the democratic process in having shared a public draft of the re-
authorization bill prior to finalizing the bill. This move shows a 
respect and consideration for the public that is appreciated by those 
who care deeply about our nation's education system.
    While the very complex NCLB legislation has many elements that 
deserve attention and ongoing revision, I am sure you will hear about 
those from many others. I want to focus my testimony this morning on 
three key elements of the law:
    1. The provisions to encourage multiple measures of assessment and 
multiple indicators of school progress, which I believe are essential 
to raise standards and strengthen educational quality in ways that are 
internationally competitive;
    2. The provisions to improve the quality and distribution of the 
teaching force, which are also essential to our ability to reach the 
high goals this Congress would like to establish for our nation's 
schools, and
    3. The means for measuring school progress from year to year, which 
I believe need to become more publicly comprehensible and more closely 
focused on evaluating continuing progress for students and schools.
    My comments are based on studies of U.S. education and of the 
education systems of other countries that are outperforming the U.S. by 
larger and larger margins every year. For example, in the most recent 
PISA assessments, the U.S. ranked 19th out of 40 countries in reading, 
20th in science, and 28th in math (on a par with Latvia), outscored by 
nations like Finland, Sweden, Canada, Hong Kong, South Korea, the 
Netherlands, Japan, and Singapore (which did not participate in PISA 
but scored at the top of the TIMSS rankings) that are investing 
intensively in the kinds of curriculum and assessments and the kinds of 
teaching force improvements that we desperately need and that this re-
authorization bill is seeking to introduce.

                            2003 PISA RESULTS
------------------------------------------------------------------------
        Reading            Scientific Literacy             Math
------------------------------------------------------------------------
Finland                  Finland                  Hong Kong
South Korea              Japan                    Finland
Canada                   Hong Kong                South Korea
Australia                South Korea              Netherlands
Liechtenstein            Liechtenstein            Liechtenstein
New Zealand              Australia                Japan
Ireland                  Macao                    Canada
Sweden                   Netherlands              Belgium
Netherlands              Czech Republic           Macao (China)
U.S. ranks # 19 / 40     U.S. ranks #20 / 40      U.S. ranks #28 / 40
------------------------------------------------------------------------

    It is worth noting that PISA assessments focus explicitly on 21st 
century skills, going beyond the question posed by most U.S. 
standardized tests, ``Did students learn what we taught them?'' to ask, 
``What can students do with what they have learned?'' PISA defines 
literacy in mathematics, science, and reading as students' abilities to 
apply what they know to new problems and situations. This is the kind 
of higher-order learning that is increasingly emphasized in other 
nations' assessment systems, but often discouraged by the multiple-
choice tests most states have adopted under the first authorization of 
No Child Left Behind. Underneath the United States' poor standing is an 
outcome of both enormous inequality in school inputs and outcomes and a 
lack of sufficient focus for all students on higher-order thinking and 
problem-solving, the areas where all groups in the U.S. do least well 
on international tests.
    In addition to declines in performance on international 
assessments, the U.S. has slipped in relation to other countries in 
terms of graduation rates and college-going. Most European and Asian 
countries that once educated fewer of their citizens now routinely 
graduate virtually all of their students. Meanwhile, the U.S. has not 
improved graduation rates for a quarter century, and graduation rates 
are now going down as requirements for an educated workforce are going 
steeply up. According to an ETS study, only about 69% of high school 
students graduated with a standard diploma in 2000, down from 77% in 
1969 (Barton, 2005). Of the 60% of graduates who go onto college, only 
about half graduate from college with a degree. In the end, less than 
30% of an age cohort in the U.S. gains a college degree (U.S. Census 
Bureau, 2005). For students of color, the pipeline leaks more profusely 
at every juncture. Only about 17% of African American young people 
between the ages of 25 and 29--and only 11% of Hispanic youth--had 
earned a college degree in 2005, as compared to 34 % of white youth in 
the same age bracket (U.S. Census Bureau, 2005).
    And whereas the U.S. was an unchallenged 1st in the world in higher 
education participation for many decades, it has slipped to 13th and 
college participation for our young people is declining (Douglass, 
2006). Just over one-third of U.S. young adults are participating in 
higher education, most in community colleges. Meanwhile, the countries 
belonging to the Organization for Economic Cooperation and Development 
(OECD), which are mostly European, now average nearly 50% participation 
in higher education, and most of these students are in programs leading 
to a bachelors degree. Similarly in Southeast Asia, enormous 
investments in both K-12 and higher education have steeply raised 
graduation rates from high school and college-going rates.
    The implications of these trends are important for national 
economies. A recent OECD report found that for every year that the 
average schooling level of the population is raised, there is a 
corresponding increase of 3.7% in long-term economic growth (OECD, 
2005), a statistic worth particular note while the U.S. is going 
backwards in educating its citizens, and most of the rest of the world 
is moving forward.
What are High-Achieving Nations Doing?
    Funding. Most high-achieving countries not only provide high-
quality universal preschool and health care for children, they also 
fund their schools centrally and equally, with additional funds to the 
neediest schools. By contrast, in the U.S., the wealthiest school 
districts spend nearly ten times more than the poorest, and spending 
ratios of 3 to 1 are common within states (ETS, 1991; Kozol, 2005). 
These disparities reinforce the wide inequalities in income among 
families, with the most resources being spent on children from the 
wealthiest communities and the fewest on the children of the poor, 
especially in high-minority communities.
    Teaching. Furthermore, high-achieving nations intensively support a 
better-prepared teaching force--funding competitive salaries and high-
quality teacher education, mentoring, and ongoing professional 
development for all teachers, at government expense. Countries which 
rarely experience teacher shortages (such as Finland, Sweden, Norway, 
Netherlands, Germany, Australia, New Zealand, Japan, Taiwan, Singapore) 
have made substantial investments in teacher training and equitable 
teacher distribution in the last two decades. These include:
    <bullet> High-quality pre-service teacher education, completely 
free of charge to all candidates, including a year of practice teaching 
in a clinical school connected to the university,
    <bullet> Mentoring for all beginners in their first year of 
teaching from expert teachers, coupled with other supports like a 
reduced teaching load and shared planning,
    <bullet> Salaries which are competitive with other professions, 
such as engineering and are equitable across schools (often with 
additional stipends for hard-to-staff locations),
    <bullet> Ongoing professional learning embedded in 10 or more hours 
a week of planning and professional development time (Darling-Hammond, 
2005).
    Leaders in Finland attribute the country's dramatic climb from the 
bottom of the international rankings to the very top to intensive 
investments in teacher education. Over ten years the country overhauled 
preparation to focus more on teaching for higher-order skills and 
teaching diverse learners--including a strong emphasis on those with 
special needs--and created a funding stream to provide a 3-year 
graduate level preparation program to all teacher candidates free of 
charge and with a living stipend, a full year of training in a 
professional development school site--rather like the residency 
promoted in this draft bill, intensive mentoring once in the classroom, 
and more than ten hours a week of professional learning time in school, 
where teachers collaborate on lesson planning and on the development 
and scoring of local performance assessments that are the backbone of 
the country's assessment system.
    In high-achieving Singapore, which I recently visited as part of a 
review team for the Institute of Education, students from the top \1/3\ 
of the high school class are recruited into a 4-year teacher education 
program (or, if they enter later, a one-year graduate program) and 
immediately put on the Ministry's payroll as employees. They are paid a 
stipend while they are in training (which is free for them) and are 
paid at a rate that is higher than beginning doctors when they enter 
the profession. There they receive systematic mentoring from expert 
teachers once they begin teaching. Like all other teachers in 
Singapore, the government pays for 100 hours of professional 
development annually in addition to the 20 hours a week they have to 
work with other teachers and visit each others' classrooms to study 
teaching. As they progress through the career, there are 3 separate 
career ladders they can pursue, with support from the government for 
further training: developing the skills and taking on the 
responsibilities of curriculum specialists, teaching / mentoring 
specialists, or prospective principals.
    Curriculum and Assessment. Finally, these high-achieving nations 
focus their curriculum on critical thinking and problem solving, using 
examinations that require students to conduct research and scientific 
investigations, solve complex real-world problems in mathematics, and 
defend their ideas orally and in writing. In most cases, their 
assessment systems combine centralized (state or national) assessments 
that use mostly open-ended and essay questions and local assessments 
given by teachers, which are factored into the final examination 
scores. These local assessments--which include research papers, applied 
science experiments, presentations of various kinds, and projects and 
products that students construct--are mapped to the syllabus and the 
standards for the subject and are selected because they represent 
critical skills, topics, and concepts. They are often suggested and 
outlined in the curriculum, but they are generally designed, 
administered, and scored locally.
    An example of such assessments can be found in Appendix A, which 
shows science assessments from high-achieving Victoria, Australia and 
Hong Kong--which use very similar assessment systems--in comparison to 
traditional multiple choice or short answer items from the United 
States. Whereas students in most parts of the U.S. are typically asked 
simply to memorize facts which they need to recognize in a list 
answers, or give short answers which are also just one-sentence 
accounts of memorized facts, students in Australia and Hong Kong (as 
well as other high-achieving nations) are asked to apply their 
knowledge in the ways that scientists do.
    The item from the Victoria, Australia biology test, for example, 
describes a particular virus to students, asks them to design a drug to 
kill the virus and explain how the drug operates (complete with 
diagrams), and then to design an experiment to test the drug. This 
state test in Victoria comprises no more than 50% of the total 
examination score. The remaining components of the examination score 
come from required assignments and assessments students undertake 
throughout the year--lab experiments and investigations as well as 
research papers and presentations--which are designed in response to 
the syllabus. These ensure that they are getting the kind of learning 
opportunities which prepare them for the assessments they will later 
take, that they are getting feedback they need to improve, and that 
they will be prepared to succeed not only on these very challenging 
tests but in college and in life, where they will have to apply 
knowledge in these ways.
    Locally managed performance assessments that get students to apply 
their knowledge to real-world problems are critically to important to 
the teaching and learning process. They allow the testing of more 
complex skills that cannot be measured in a two-hour test on a single 
day. They shape the curriculum in ways that ensure stronger learning 
opportunities. They give teachers timely, formative information they 
need to help students improve--something that standardized examinations 
with long lapses between administration and results cannot do. And they 
help teachers become more knowledgeable about the standards and how to 
teach to them, as well as about their own students and how they learn. 
The process of using these assessments improves their teaching and 
their students' learning. The processes of collective scoring and 
moderation that many nations or states use to ensure reliability in 
scoring also prove educative for teachers, who learn to calibrate their 
sense of the standards to common benchmarks.
    The power of such assessments for teaching and learning is 
suggested by the fact that ambitious nations are consciously increasing 
the use of school-based performance assessments in their systems. Hong 
Kong, Singapore, and several Australian states have intensive efforts 
underway to expand these assessments. England, Canada, Sweden, and the 
Netherlands have already done so. Locally managed performance 
assessments comprise the entire assessment system in top-ranked Finland 
and in Queensland and ACT, Australia--the highest-achieving states in 
that high-achieving nation.
    These assessments are not used to rank or punish schools, or to 
deny promotion or diplomas to students. (In fact, several countries 
have explicit proscriptions against such practices). They are used to 
evaluate curriculum and guide investments in professional learning--in 
short, to help schools improve. By asking students to show what they 
know through real-world applications of knowledge, these other nations' 
assessment systems encourage serious intellectual activities that are 
currently being discouraged in U.S. schools by the tests many states 
have adopted under NCLB.
How NCLB can Help the United States Become Educationally Competitive
    Multiple Measures and Performance Assessments. The proposals in the 
re-authorization draft to permit states to use a broader set of 
assessments and to encourage the development and use of performance 
assessments are critical to creating a globally competitive curriculum 
in U.S. schools. We need to encourage our states to evaluate the 
higher-order thinking and performance skills that leading nations 
emphasize in their systems, and we need to create incentives that value 
keeping students in school through graduation as much as producing 
apparently high average scores at the school level.
    Many states developed systems that include state and locally-
administered performance assessments as part of their efforts to 
develop standards under Goals 2000 in the 1990s. (These states included 
Connecticut, Kentucky, Maine, Maryland, Nebraska, New Hampshire, New 
Jersey, New York, Oregon, Vermont, Rhode Island, Washington, Wisconsin, 
and Wyoming, among others.) Not coincidentally, these include most of 
the highest-achieving states in the U.S. on the National Assessment of 
Educational Progress. Indeed, the National Science Foundation provided 
millions of dollars for states to develop such hands-on science and 
math assessments as part of its Systemic Science Initiative in the 
1990s, and prototypes exist all over the country. One such measure--a 
science investigation requiring students to design, conduct, analyze, 
and write up results for an experiment--currently used as a state 
science assessment in Connecticut (a top-ranked state in both science 
and writing) is included with the assessment examples in Appendix A.
    Researchers learned that such assessments can be managed 
productively and reliably scored with appropriate training and 
professional development for teachers, along with moderation and 
auditing systems, and that teaching and student achievement improve 
when such assessments are used. (For a review, see Darling-Hammond & 
Rustique-Forrester, 2006).
    However, the initial years of NCLB have discouraged the use and 
further development of these assessments, and have narrowed the 
curriculum both in terms of the subjects and kinds of skills taught. 
NCLB's rapidly implemented requirement for every-child every-year 
testing created large costs and administrative challenges that have 
caused some states to abandon their performance assessments for 
machine-scored, multiple choice tests that are less expensive to score 
and more easily satisfy the law. In addition, the Department of 
Education has discouraged states from using such assessments. When 
Connecticut sued the federal government for the funds needed to 
maintain its sophisticated performance assessments on an every-child 
every-year basis, the Department suggested the state drop these tasks--
which resemble those used in high-scoring nations around the world--for 
multiple choice tests. Thus the administration of the law is driving 
the U.S. curriculum in the opposite direction from what a 21st century 
economy requires.
    A number of studies have found that an exclusive emphasis on 
(primarily multiple-choice) standardized test scores has narrowed the 
curriculum. The most recent reports of the Center for Education Policy 
(CEP) and the National Center for Education Statistics (May 2007 Stats 
in Brief) confirm sizeable drops in time dedicated to areas other than 
reading and math, including science, history, art, and physical 
education. The CEP also found that districts are more tightly aligning 
their instruction to this limited format as well as content of state 
tests. While these tests are one useful indicator of achievement, 
studies document that they often overemphasize low-level learning. As 
reporter Thomas Toch recently stated, ``The problem is that these 
dumbed-down tests encourage teachers to make the same low-level skills 
the priority in their classrooms, at the expense of the higher 
standards that the federal law has sought to promote.'' To succeed in 
college, employment and life in general, students need critical 
thinking and problem solving skills that the tests fail to measure, and 
they need a complete curriculum.
    Teachers in many states report that the curriculum is distorted by 
tests and that they feel pressured to use test formats in their 
instruction and to teach in ways that contradict their ideas of sound 
instructional practice. An Education Week survey of more than 1,000 
public school teachers reported that two-thirds felt their states had 
become too focused on state tests; 85% reported that their school gives 
less attention to subjects that are not on the state test. One Texas 
teacher noted, ``At our school, third- and fourth-grade teachers are 
told not to teach social studies and science until March.'' Teachers 
often feel that their responses to tests are not educationally 
appropriate. These comments from teachers--reflecting the view of a 
majority in recent surveys--give a sense of the problem:
    Before [our current state test] I was a better teacher. I was 
exposing my children to a wide range of science and social studies 
experiences. I taught using themes that really immersed the children 
into learning about a topic using their reading, writing, math, and 
technology skills. Now I'm basically afraid to NOT teach to the test. I 
know that the way I was teaching was building a better foundation for 
my kids as well as a love of learning. Now each year I can't wait until 
March is over so I can spend the last two and a half months of school 
teaching the way I want to teach, the way I know students will be 
excited about.
    <bullet> A Florida Teacher
    I have seen more students who can pass the [state test] but cannot 
apply those skills to anything if it's not in the test format. I have 
students who can do the test but can't look up words in a dictionary 
and understand the different meanings. * * * As for higher quality 
teaching, I'm not sure I would call it that. Because of the pressure 
for passing scores, more and more time is spent practicing the test and 
putting everything in test format.
    <bullet> A Texas Teacher
    Studies find that, as a result of test score pressures, students 
are doing less extended writing, science inquiry, research in social 
sciences and other fields, and intensive projects that require 
planning, finding, analyzing, integrating, and presenting information--
the skills increasingly needed in a 21st century workforce. The use of 
computers for writing and other purposes has even declined in states 
that do not allow computer use on their standardized tests (for a 
summary, see Darling-Hammond & Rustique-Forrester, 2005). This 
narrowing is thought to be one reason for the poor performance of the 
U.S. on international assessments like PISA, which evaluate how 
students can apply knowledge to complex problems in new situations.
    Indeed, as state test scores have gone up under NCLB, scores on 
other tests measuring broader skills have not. For example, for some 
states, Reading gains are positive on the state test but negative on 
the more intellectually challenging NAEP test. Overall, data from the 
trend NAEP assessment show that math gains from the 1990s have leveled 
off since 2002 and reading has declined.
    Perhaps the most troubling unintended consequence of NCLB has been 
that the law creates incentives for schools to boost scores by pushing 
low-scoring students out of school. The very important goal of 
graduating more of our students has simply not been implemented, and 
the accountability provisions actually reward schools with high dropout 
rates. Push-out incentives and the narrowed curriculum are especially 
severe for students with disabilities, English language learners, 
students of color and economically disadvantaged students. Recent 
reports of the Public Education Network confirm that parents, students 
and other community members are concerned about the over-reliance on 
test scores for evaluating students and schools. A number of recent 
studies have confirmed that this over-reliance has been associated with 
grade retention and other school actions that exacerbate dropout rates 
and student exclusion from school, especially for low-income students 
of color.\i\ This creates the perverse outcome that efforts to raise 
standards are resulting in fewer students receiving an education.
    If education is to improve in the United States, schools must be 
assessed in ways that produce high-quality learning and that create 
incentives to keep students in school. A central part of a solution to 
these problems is to employ multiple forms of assessment and multiple 
indicators, while retaining the powerful tools of publicly available 
assessment information and the critically important focus on equity. 
The provisions of the draft bill that allow states to develop and use 
such measures, and the requirements that these include graduation 
rates, are essential to creating the incentives for a world-class 
curriculum within a world-class education system that actually reduces 
the achievement gap while ensuring more and more students are well-
educated. A multiple measures approach can help schools and districts 
improve student outcomes more effectively because:
    1. The use of multiple measures ensures that attention will be 
given to a comprehensive academic program and a more complete array of 
important learning outcomes;
    2. A multiple measures approach can incorporate assessments that 
evaluate the full range of standards, including those addressing 
higher-order thinking and performance skills;
    3. Multiple measures provide accountability checks and balances so 
that emphasizing one measure does not come at the expense of others 
(e.g. boosting test scores by excluding students from school), but they 
can give greater emphasis to priority areas; and
    4. A multiple measures index can provide schools and districts with 
incentives to attend to the progress of students at every point on the 
achievement spectrum, including those who initially score far below or 
above the test score cut point labeled ``proficient.'' It can encourage 
schools to focus on the needs of low-scoring students, students with 
disabilities, and ELL students, using assessments that measure gains 
from wherever students begin and helping them achieve growth.
    One of the central concepts of NCLB's approach is that schools and 
systems will organize their efforts around the measures for which they 
are held accountable. Because focusing exclusively on a single 
indicator is both partial and problematic, the concept of multiple 
measures is routinely used by policymakers to make critical decisions 
about such matters as employment and economic forecasting (e.g., the 
Dow Jones Index or the GNP), as well as admissions to college. 
Successful businesses use a ``dashboard'' set of indicators to evaluate 
their health and progress, aware that no single measure is sufficient 
to understand or guide their operations. Business leaders understand 
that efforts to maximize short-term profits alone could lead to 
behaviors that undermine the long-term health of the enterprise.
    Similarly, use of a single measure to guide education can create 
unintended negative consequences or fail to focus schools on doing 
those things that can improve their long-term health and the education 
of their students. Indeed, the measurement community's Standards for 
Educational and Psychological Testing mandates the use of multiple 
sources of evidence for major decisions. NCLB calls for multiple 
measures of student performance, and some states have developed systems 
that incorporate such measures. Up to now, implementation of the law 
has not promoted their use for evaluating school progress. In the new 
NCLB these and other states will be supported to develop systems that 
resemble those in the highest-achieving nations around the globe.
    Multiple indicators can counter the problems caused by over-
reliance on single measures. Multiple forms of assessment can include 
traditional statewide tests as well as other assessments, developed at 
the state or local levels, that include writing samples, research 
projects, and science investigations, as well as collections of student 
work over time. These can be scored reliably according to common 
standards and can inform instruction in order to improve teaching and 
learning. Such assessments would only be used for accountability 
purposes when they meet the appropriate technical criteria, reflect 
state-approved standards, and apply equitably to all students, as is 
already the case in Connecticut, Nebraska, Oregon, Vermont, and other 
states successfully using multiple forms of assessment.
    To counter the narrowing of the curriculum and exclusion of 
important subjects that has been extensively documented as a 
consequence of NCLB, the new law should, as this draft proposes, allow 
states to include other subjects, using multiple forms of assessment, 
in an index of school indicators measuring school progress toward a 
``proficiency benchmark'' that incorporates both good measures of 
learning and measures of graduation and progress through school. To 
ensure strong attention is given to reading and math, these subjects 
can be weighted more heavily. Graduation rates and grade promotion 
rates should be given substantial weight in any accountability system. 
Other relevant indicators of school progress, such as attendance or 
participation in rigorous coursework, could be included. (For specifics 
on how such an index might operate, see Appendix B.) An index that 
tracks and sets targets for continual school progress--including the 
progress of student groups within the school--at all points along the 
achievement continuum would accomplish several goals:
    <bullet> It would actually measure how much students are learning, 
taking into account the progress of all students not just a select few, 
including students who score well above or below the ``proficiency'' 
level;
    <bullet> It would allow for more appropriate attention to and 
assessment of special education students and English language learners;
    <bullet> It would provide incentives for schools to offer a full 
curriculum and to incorporate multiple measures of learning that 
include more ambitious performance assessments;
    <bullet> It would provide a better warning system, distinguishing 
between schools that are making steady progress and those that are 
truly failing and thus unable to make progress on the index, so that 
states can focus on those needing the most help
    <bullet> It would enable teachers and schools to chart students' 
progress and increase ambitions for all, to proficiency and beyond
    <bullet> It would create incentives for schools to invest in all 
students' education, to keep students in school, and to and address all 
aspects of performance.
    Because evidence is clear that multiple assessments are beneficial 
to student learning and accountability decisions, it is promising that 
the bill includes a provision to provide significant funds to assist 
states and districts to implement systems that include multiple forms 
of evidence about student learning, including state and local 
performance assessments. of state assessment and accountability 
systems.
    These points in support of a multiple measures approach to 
accountability were made in two recent letters to the Congress--one 
from a group of 23 leading civil rights organizations, including 
Aspira, LULAC, the NAACP, the National Council for Educating Black 
Children, and others, and the other from more than 120 leading 
educational experts, including the nation's most prominent testing 
experts and more than a dozen former presidents of organizations 
including the American Educational Research Association, the National 
Academy of Education, and the National Council for Measurement in 
Education. These letters can be found http://www.edaccountability.org.
    Investments in Teaching. Once we develop a strong curriculum that 
focuses on 21st century skills, which teaches and assesses the skills 
we need in the ways that students will use them in the real world, we 
must also ensure that we have well-prepared and well-supported teachers 
who know and can teach challenging content extremely well to the very 
diverse group of students in our schools. Few of the conditions that 
support teaching in high-achieving nations are routinely in place in 
school systems across the U.S. and they are especially lacking in the 
school districts and schools which serve most low-income students and 
students of color.
    Unfortunately, unlike other industrialized nations that are high-
achieving, the United States lacks a systematic approach to recruiting, 
preparing, and retaining teachers, or for using the skills of 
accomplished teachers to help improve schools. With unequal resources 
across districts, and few governmental supports for preparation or 
mentoring, teachers in the U.S. enter:
    <bullet> with dramatically different levels of training--with those 
least prepared typically teaching the most educationally vulnerable 
children,
    <bullet> at sharply disparate salaries--with those teaching the 
neediest students typically earning the least,
    <bullet> working under radically different teaching conditions--
with those in the most affluent communities benefiting from class sizes 
under 20 and a cornucopia of materials, equipment, specialists, and 
supports, while those in the poorest communities teach classes of 40 or 
more without adequate books and supplies,
    <bullet> with little or no on-the-job mentoring or coaching in most 
communities to help teachers improve their skills
    Most also have few ways to engage in developing and using their 
skills to maximum advantage, spending most of their careers teaching 
solo in egg-crate classrooms, rather than working with colleagues to 
improve curriculum, instruction, and assessment.
    This re-authorization proposal promises to make substantial headway 
on these problems. Particularly important are several elements of the 
TEACH Act that have been integrated into the bill. These include:
    <bullet> Recruitment incentives to attract both well-prepared 
novices and accomplished veteran teachers into high-need schools, 
through innovative training and compensation approaches;
    <bullet> Improvements in teachers' preparation through new teacher 
residency programs in high need communities, as well as improvements in 
all teachers' preparation to teach content standards, to teach diverse 
students well, and to use technology;
    <bullet> A focus on improving teacher education and teacher 
effectiveness through the development of a nationally available teacher 
performance assessment
    <bullet> High-quality mentoring for all beginning teachers;
    <bullet> Strong professional development through new Teacher and 
Principal Professional Development Academies; and
    <bullet> The development of career ladders for teachers that can 
recognize and reward highly-accomplished and effective teachers who 
show high levels of performance and the ability to contribute to 
student learning--and that can take advantage of these teachers' 
expertise by creating mentor and master teacher positions that allow 
them to support other teachers and the school as a whole in improving 
curriculum and instruction.
    This comprehensive approach can begin to transform our conceptions 
of the teaching career in much the way that other countries have 
already done system-wide. Many elements of the bill are based on a 
thoughtful diagnosis of our teacher supply and quality problems and a 
set of initial steps that, if eventually integrated system-wide, could 
actually begin to solve these problems. Below I touch briefly on the 
reasons for the importance and likely success of these elements of the 
bill.
    Recruitment Incentives to Attract Expert Teachers to High-Need 
Schools--Much research has shown that teachers are the most unequally 
distributed school resource and that low-income schools have a 
disproportionate number of inexperienced and under-prepared teachers. 
Recruitment incentives for high-need schools are needed to attract and 
keep expert, experienced teachers in the schools where they are most 
needed, both to teach and to mentor other teachers. The bill offers a 
combination of salary incentives and improvements in working 
conditions, including time for teachers to work and plan together, 
which have been shown to influence teachers' career decisions.
    As part of a broader career ladder initiative, federal matching 
grants to states and districts can provide incentives for the design of 
innovative approaches to attract and keep accomplished teachers in 
priority low-income schools, through compensation for accomplishment 
and for additional responsibilities, such as mentoring and coaching. 
The bill allows for districts to recognize teacher expertise through 
such mechanisms as National Board Certification, state or local 
standards-based evaluations, and carefully assembled evidence of 
contributions to student learning.
    Improvements in Teacher Preparation and Professional Development. 
While NCLB's highly qualified teacher provision has strengthened 
preparation in the content areas, there is much work to be done to 
improve teacher effectiveness. Major needs are stronger preparation for 
teachers to learn how to teach effectively within their content areas, 
how to design and use assessments that reveal how students are learning 
and guide teaching, how to teach reading and literacy skills at all 
grade levels, and how to teach special education students and English 
language learners. These students are the disproportionately ones who 
are failing to meet standards under NCLB and their teachers need very 
sophisticated skills to help them.
    The TEACH Act proposes grants to strengthen teacher preparation and 
professional development in these areas which represent best practices 
in the field--involving teachers in curriculum and assessment planning, 
modeling and demonstration of teaching strategies, and follow up 
coaching in classrooms in both pre- and in-service development 
programs. These approaches should replace the ``hit-and-run'' 
professional development that is currently common. Professional 
Development Academies can provide a steady supply of high-quality 
professional development of the kind that has been shown to improve 
student achievement--intensive institutes and study opportunities for 
networks of teachers who can both work on these practices together and 
receive on the job coaching to hone their skills.
    New models of teacher preparation are especially needed in our 
high-need districts. The most critical need for improving teacher 
preparation is to ensure that programs provide one of the most 
important elements of preparation--the opportunity to learn under the 
direct supervision of expert teachers working in schools that serve 
high-need students well. Teaching cannot be learned from books or even 
from being mentored periodically. Teachers must see expert practices 
modeled and must practice them with help. However, student teaching is 
too often reduced or omitted, or it is in classrooms that do not model 
expert practice, or it is in classrooms that do not serve high-need 
students--and what is learned does not generalize to other schools. 
This fundamental problem has to be tackled and solved if we are to 
prepare an adequate supply of teachers who will enter urban or poor 
rural classrooms competent to work effectively with the neediest 
students and confident enough to stay in teaching in these areas.
    The Bill provides for teacher residency programs in high-need 
communities. This alternative has proven successful in the Urban 
Teacher Residency designed in Chicago that has created new schools or 
completely re-staffed existing schools with highly expert mentor 
teachers (like professional development schools) and then placed mid-
career recruits in the classrooms of these mentor teachers for a year 
while they complete coursework in curriculum, teaching, and learning at 
partner universities. Rather than trying to teach without seeing good 
teaching in a sink or swim model, these recruits watch experts in 
action and are tutored into accomplished practice. They receive a 
$30,000 salary during this year and a master's degree and credential at 
the end of the year. They continue to receive mentoring in the next two 
years. They are selected because they want to commit to a career in 
urban public school teaching and they pledge to spend at least four 
years in city schools. This model has already shown high retention 
rates in teaching and strong performance by graduates, who now staff 
other turnaround schools in the city. Similar models have been launched 
in Boston and other cities. Such programs can solve several problems 
simultaneously--creating a pipeline of committed teachers who are well-
prepared to engage in best practice for children in for high-need 
schools, while creating demonstration sites that serve as models for 
urban teaching and teacher education.
    Competitive grants to schools of education and districts for 
developing these kinds of learning opportunities should also require 
evidence of teacher learning and advances in practice so that knowledge 
builds about how to support teachers in acquiring these much more 
complex teaching skills. To focus more productively on teacher 
performance and effectiveness, rather than merely seat time, both 
preparation and mentoring can be strengthened if they are guided by a 
high-quality, nationally-available teacher performance assessment, 
which measures actual teaching skill in the content areas. Current 
examinations used for licensing and for federal accountability 
typically measure basic skills and subject matter knowledge in paper-
and-pencil tests that demonstrate little about teachers' abilities 
actually to teach effectively. Several states, including Connecticut 
and California, have incorporated such performance assessments in the 
licensing process. These assessments--which can also be used as data 
for the accreditation process--have been found to be strong levers for 
improving preparation and mentoring, as well as determining teachers' 
effectiveness in promoting student achievement gains. Federal support 
for the development of a nationally available, performance assessment 
for licensing will not only provide a useful tool for accountability 
and improvement, but it would also facilitate teacher mobility across 
states, which will help solve teacher shortages.
    High Quality Mentoring for Beginning Teachers--Retention is at 
least as important to solving teacher supply as recruitment. With 30% 
of new teachers leaving within 5 years (and more in urban areas), the 
revolving door cannot be slowed until the needs for beginning teacher 
support are addressed. Other high-achieving countries invest heavily in 
structured induction for beginning teachers: they fund schools to 
provide released time for expert mentors and they fund other learning 
opportunities for beginners, such as seminars, visits to other 
teachers' classrooms, and joint planning time. Such strategies have 
been also been found effective in reducing beginning teacher attrition 
in the U.S., with rates of leaving reduced from more than 30% of 
beginning teachers to as low as 5% in some districts that have 
introduced high-quality induction programs. A critical component is 
strong mentoring, which includes on-the-job observations and coaching 
in the classroom as well as support for teacher planning by expert 
veterans.\ii\
    Although requirements for beginning teacher induction have 
proliferated, with more than 30 states now requiring some kind of 
induction program, many are not funded and do not provide the kind of 
mentoring and coaching that are needed.\iii\ Two recent analyses of a 
large-scale national teacher survey revealed that, in addition to 
salaries and working conditions, the most important predictors of 
teacher's ongoing commitment to the profession are extent of 
preparation they have received and the quality of the mentoring and 
support they receive.\iv\ Federal incentives could leverage state 
efforts to create strong mentoring in every community. This bill 
provides the conditions for mentoring for beginning teachers that can 
reduce attrition and increase competence. If even half of the early 
career teachers who leave teaching were to be retained, the nation 
would save at least $600 million a year in replacement costs.
    Career Ladders for Teaching. The additional benefit of these and 
other mentoring programs is that they can be part of a career ladder 
for teachers, providing a new lease on life for many veteran teachers 
as well. Expert veterans need ongoing challenges to remain stimulated 
and excited about staying in the profession. Many say that mentoring 
and coaching other teachers creates an incentive for them to remain in 
teaching as they gain from both learning from and sharing with other 
colleagues.
    The bill's incentives for developing career ladders in willing 
districts may create models that can help transform the way we organize 
the teaching career and keep great teachers in the profession while 
better using their skills. Existing compensation systems in teaching 
create a career pathway that places classroom teaching at the bottom, 
provides teachers with little influence in making key education 
decisions, and requires teachers to leave the classroom if they want 
greater responsibility or substantially higher pay. The message is 
clear: those who work with children have the lowest status; those who 
do not, the highest.
    We need a different career continuum, one that places teaching at 
the top and creates a career progression that supports teachers as they 
become increasingly expert. Like the path from assistant professor to 
associate and full professor on campuses--or junior associate to 
partner in law firms--new pathways should recognize skill and 
accomplishment, anticipate that professionals will take on roles that 
allow them to share their knowledge, and promote increased skill 
development and expertise.
    Although tying teacher advancement to performance is a desirable 
goal, efforts to institute versions of merit pay in education have 
faltered many times before--in the 1920s, the 1950s, and most recently 
in the 1980s, when 47 states introduced versions of merit pay or career 
ladders, all of which had failed by the early 1990s. The reasons for 
failure have included faulty evaluation systems, concerns about bias 
and discrimination, strategies that rewarded individual teachers while 
undermining collaborative efforts, dysfunctional incentives that caused 
unintended negative side-effects, and lack of public will to continue 
increased compensation.
    The bill allows districts to move past these former problems by 
working with local teachers to develop new models that include multiple 
measures of performance which are carefully developed and tested. 
Without abandoning many of the important objectives of the current 
salary schedule--equitable treatment, incentives for further education, 
and objective means for determining pay--compensation systems could 
provide salary incentives for demonstrated knowledge, skill, and 
expertise that move the mission of the school forward and reward 
excellent teachers for continuing to teach. Rewarding teachers for deep 
knowledge of subjects, additional knowledge in meeting special kinds of 
student and school needs, and high levels of performance measured 
against professional teaching standards could encourage teachers to 
continue to learn needed skills and could enhance the expertise 
available within schools.\v\
    These initiatives generally have several features in common. All 
require teacher participation and buy-in to be implemented. Typically, 
evaluations occur at several junctures as teachers move from their 
initial license, through a period as a novice or resident teacher under 
the supervision of a mentor, to designation as professional teacher 
after successfully passing an assessment of teaching skills. Tenure is 
a major step tied to a serious decision made after rigorous evaluation 
of performance in the first several years of teaching, incorporating 
administrator and peer review by expert colleagues. Lead teacher 
status--which triggers additional compensation and access to 
differentiated roles--may be determined by advanced certification from 
the National Board for Professional Teaching Standards and/or other 
evidence of performance through standards-based evaluation systems 
which may incorporate evidence of contributions to student learning.
    As we work to develop these new approaches to measuring teacher 
effectiveness for purposes of recognizing and rewarding teachers, it 
will be important to consider both the availability and accuracy of 
particular measures and the potential incentive effects of their use. 
For any high stakes purpose associated with personnel decision making 
or compensation, multiple measures should be used, as they are in all 
the systems noted earlier, since all measures give a partial picture of 
teacher performance and are subject to error. In addition, the system 
should be designed to operate so that teachers are not penalized for 
teaching the students who have the greatest educational needs. 
Incentives should operate to recognize and reward teachers who work 
with challenging students. This requires sensitivity to student and 
classroom characteristics in the evaluation system and ways to examine 
gains in learning appropriately.
Conclusion
    While there are many complex elements of NCLB that will require 
continual attention and refinement, two important elements of the new 
re-authorization should be especially encouraged if we are to develop a 
world-class system of education. Multiple measures approaches to 
assessing learning--which include performance assessments of what 
students know and can do--and multiple indicators of school 
performance, including graduation rates are critically important to 
keep the U.S. focused on developing 21st century skills for all 
students.
    And serious investments in the teaching force--ultimately at a 
scale even more intensive than this bill envisions--will be the basis 
on which those ambitious standards can be taught and achieved. This re-
authorization bill is an important start on these important agendas.
                                endnotes
    \i\ For recent studies examining the increases in dropout rates 
associated with high-stakes testing systems, see Advocates for Children 
(2002). Pushing out at-risk students: An analysis of high school 
discharge figures--a joint report by AFC and the Public Advocate. 
http://www.advocatesforchildren.org/pubs/pushout-11-20-02.html; W. 
Haney (2002). Lake Wobegone guaranteed: Misuse of test scores in 
Massachusetts, Part 1. Education Policy Analysis Archives, 10(24). 
http://epaa.asu.edu/epaa/v10n24/; J. Heubert & R. Hauser (eds.) (1999). 
High stakes: Testing for tracking, promotion, and graduation. A report 
of the National Research Council. Washington, D.C.: National Academy 
Press; B.A. Jacob (2001). Getting tough? The impact of high school 
graduation exams. Education and Evaluation and Policy Analysis 23 (2): 
99-122; D. Lilliard, & P. DeCicca (2001). Higher standards, more 
dropouts? Evidence within and across time. Economics of Education 
Review, 20(5): 459-73;G. Orfield, D. Losen, J. Wald, & C.B. Swanson 
(2004). Losing our future: How minority youth are being left behind by 
the graduation rate crisis. Retrieved March 11, 2008 from: http://
www.urban.org/url.cfm?ID=410936; M. Roderick, A.S. Bryk, B.A. Jacob, 
J.Q. Easton, & E. Allensworth (1999). Ending social promotion: Results 
from the first two years. Chicago: Consortium on Chicago School 
Research; R. Rumberger & K. Larson (1998). Student mobility and the 
increased risk of high school dropout. American Journal of Education, 
107: 1-35; E. Rustique-Forrester (in press). Accountability and the 
pressures to exclude: A cautionary tale from England. Education Policy 
Analysis Archives; A. Wheelock (2003). School awards programs and 
accountability in Massachusetts.
    \ii\ A number of studies have found that well designed mentoring 
programs improve retention rates for new teachers along with their 
attitudes, feelings of efficacy, and their range of instructional 
strategies (California Commission on Teacher Credentialing, 1992; Karge 
and Freiberg, 1992; Kolbert and Wolff, 1992; Darling-Hammond & Sykes, 
op. cit.; Luczak, op. cit.)
    \iii\ National Commission on Teaching and America's Future, No 
Dream Denied. Washington, DC: Author, 2003.
    \iv\ Ingersoll, 1997b; Luczak, 2005.
    \v\ There are a few initiatives that have been developed which 
share some common features upon which these new career ladders may be 
built. These include the Procomp system in Denver, CO, a locally-
designed system of teacher compensation based on knowledge, skills, and 
performance, which incorporates compensation for additional knowledge 
and skills, evidence of performance, and new roles and 
responsibilities. (For more detail, see http://denverprocomp.org.) and 
innovative career ladders in Cincinnati, OH and Rochester, NY, which 
have been in place since the 1990s. These incorporate mentoring for 
beginners by lead teachers who have reached the top level of the career 
ladder, as well as other responsibilities for lead teachers. More 
recent efforts have been initiated in Helena, Montana and Portland, 
Maine and, in the only current state system, Minnesota (for more 
information, see http://www.educationminnesota.org/index.cfm?PAGE--ID-
15003). In addition the Teacher Advancement Project provides a career 
ladder that rewards evidence of knowledge and skill, as well as 
performance, and incorporates extensive professional development that 
occurs during shared teacher time in schools that are redesigned to 
provide regular learning opportunities.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Podesta.

   STATEMENT OF JOHN PODESTA, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, CENTER FOR AMERICAN PROGRESS

    Mr. Podesta. Thank you Chairman Miller, Mr. McKeon and 
members of the committee. It is good to be back. I was here and 
testified in May on the importance of teachers and teacher 
excellence, and I am glad to see that many of the provisions we 
talked about that day are incorporated into this discussion 
draft. At the outset, let me note that it is easy to get sucked 
into the jargon of that reform and start talking quickly about 
AYPs and growth models and AMOs and SES, et cetera. But we 
should always remember that the primary intent of this 
important legislation is to ensure that disadvantaged low-
income and minority students have the same opportunities as 
other children to attend a decent public school and to turn 
their ambitions and aspirations into a meaningful life. That 
goal is as important today as it was when President Johnson 
first signed ESEA into law more than 40 years ago, perhaps more 
important because of the increased diversity in changing 
demographics of our population and because of the important 
economic challenges that Dr. Darling-Hammond mentioned. I for 
one believe that you have had a tremendously difficult task, 
and I commend you for pulling together numerous and I think 
sometimes contradictory recommendations in a sensible manner. 
In my judgment, the discussion draft has successfully balanced 
multiple points of view while maintaining a focus on the 
important goal of helping all students meet proficiency by 
2014.
    A draft can always be improved upon, but you start from a 
very strong bipartisan base. I may be the only person of the 44 
witnesses here to say that today. My written testimony outlines 
in detail the center's assessment of the draft reauthorization. 
I would like to make very brief comments in four specific areas 
this morning. First, with regard to accountability, we believe 
the discussion draft strikes a balance between strong 
accountability and high expectations and the rightful call for 
increased flexibility. There are many important new provisions 
in this draft statute. Jack identified them. I won't repeat. 
But the center does have some concerns about the new local 
assessment pilot program. The draft says that local assessments 
are to be an addition to State assessments, but does not 
clarify how the AYP process would work and whether the State 
assessment results would still be publicly reported at the 
various performance levels for each subgroup. These provisions 
may be hard to implement and could lead to unfortunate results 
for different localities within a State.
    We therefore urge the committee to proceed cautiously with 
that pilot project and offer the following recommendations to 
do so, perhaps reduce the number of pilot States to 10 or less, 
consider geographic and urban world diversity and most 
importantly require pilot States to continue to report student 
performance levels on State assessments in addition to local 
ones.
    Second, we applaud the addition in Title II for a new Part 
A discretionary program to strengthen teacher effectiveness 
through extra pay for success, career letters and support the 
performance assessments. In order to attract and retain highly 
effective teachers and principals, there is a great need for 
targeted investments like this to bring about change. Nothing 
matters more to improving the educational opportunities of our 
students than finding and retaining high qualified teachers and 
principals. Ms. Brown is a life example of that. The draft bill 
takes important steps to ensure the effective distribution of 
effective teachers to high poverty and high minority schools, 
including closing the Title I comparability loophole and 
redesigning the formula grant in Title II, and we commend you 
for that.
    Third, we are also very pleased with the new attention to 
high school completion in Title I. We commend you for the 
addition of a Graduation Promise Fund. For decades now, the 
U.S. on-time graduation rate has failed the top 70 percent. 
This is below national graduation rates recorded in the middle 
of the 20th Century and well below current graduation rates in 
other countries. Graduation rates for African Americans and 
Hispanic students are even more distressing, blaming from 50 to 
55 percent. The Graduation Promise Fund will provide critical 
Federal resources to aid States in their efforts to keep a 
diverse range of students in school and on path to academic 
success. We urge you to distribute the fund dollars through a 
poverty formula that directs funds solely on the basis of the 
poverty level of the high school rather than its drop-out rate 
to ensure there is no incentive for keeping drop-out rates high 
in order to continue to receive funds.
    Other provisions from the Graduation Promise Act are 
included in the discussion drafts as well, and we thank you for 
that and want to commend particularly Mr. Hinojosa for his 
leadership on this important issue. Finally, I encourage your 
support for the expanded learning time and redesign 
demonstration program. Included in the discussion draft of 
Title I is Part J. The center developed this proposal with our 
partner organization, Math 2020. And we thank Congressman 
Payne, Mr. Miller and Mr. McKeon for their support of this 
issue. Based on successful efforts in several leading charter 
schools and a growing number of traditional public schools we 
know that a comprehensive approach to school reform that adds 
time to school days and weeks to the school year can result in 
significant learning gains for disadvantaged youth. The 
demonstration program requires such a comprehensive approach 
and also contains a strong evaluation component. So, in 
closing, I urge the committee to move carefully but, as Jack 
said, to move by the end of the year to build on the momentum; 
and as the Chairman and Mr. Kildee noted, at the outset to fund 
the important efforts at the level they deserve. Thank you.
    [The statement of Mr. Podesta follows:]

   Prepared Statement of John Podesta, President and Chief Executive 
                 Officer, Center for American Progress

    Chairman Miller, Congressman McKeon, and members of the Committee, 
thank you for inviting me to testify today. I am John Podesta, 
President and Chief Executive Officer of the Center for American 
Progress. I am also a Visiting Professor of Law at the Georgetown 
University Law Center.
    I appreciate the opportunity to be with you today to comment on the 
Discussion Draft of the Reauthorization of the Elementary and Secondary 
Education Act. I commend you for your willingness to seek broad input 
on provisions to reauthorize the Elementary and Secondary Education Act 
of 1965 and to move forward in a transparent and bipartisan fashion to 
enact a renewal of this major program to assist the nation's neediest 
students.
    You are engaged in a tremendously difficult job. You have entered 
into numerous consultations and have had to contend with many 
contradictory recommendations from a wide variety of stakeholders. Yet 
you have put it all together in a sensible way. You no doubt will hear 
many complaints and hopefully a few constructive suggestions. This 
morning we will offer a few of own. You can decide in which category 
they fall. But in our judgment, the discussion draft has overall 
successfully balanced multiple points of view while maintaining a focus 
on the important goal of helping all students meet proficiency by 2013-
14.
    The challenge has been to make needed adjustments to the No Child 
Left Behind Act without sacrificing the contributions it has made to 
strengthening accountability for improved academic performance for all 
the nation's students and to significantly sharpening the focus on 
those students who have been historically the least well-served. As a 
nation we must ensure that all children--regardless of race, ethnicity, 
income, native language, disability or geographic location--are 
afforded access to high-quality schools that will enable them to 
participate in the promised opportunity of the American dream.
    The Center for American Progress' specific priorities with regard 
to the reauthorization of ESEA include a combination of strong 
accountability measures and more incentives for states and school 
districts to break from their status quo and engage in deeper, more 
effective change efforts, many of which research has shown can be 
effective. My specific comments this morning are in four areas:
    <bullet> Accountability for student results
    <bullet> Improving the quality of teachers and principals
    <bullet> Greater attention to high schools, particularly through 
the Graduation Promise Fund
    <bullet> The expanded learning time demonstration program for which 
I first and foremost want to thank Congressman Payne for his leadership 
and sponsorship
    The Center for American Progress is pleased that appropriate 
attention to several of our priority areas for improvement in our 
education system are in the discussion draft. I want to particularly 
note the following important items:
    1. First, with regard to accountability, I have several comments. 
The discussion draft strikes a balance between strong accountability 
and the rightful call for increased flexibility. There are many 
important new provisions:
    <bullet> The inclusion of a student growth measure as an option for 
states in their accountability systems
    <bullet> The requirement that states build longitudinal data 
systems that track individual student performance over time and tie the 
results to individual teacher records
    <bullet> Continued accountability for and assessment of English 
language learners and students with disabilities together with 
increased investments in developing appropriate tests for both groups
    <bullet> The establishment of uniform and consistent requirements 
for the reporting and accountability of subgroups when determining 
annual yearly progress in student performance
    The Center also supports the multiple measures of student 
performance as they are incorporated in the discussion draft. They 
appropriately focus on student academic experiences and outcomes. 
However, it is imperative that these measures not be broadened or 
loosened so that accountability for all students' achievement remains 
strong.
    We have some concerns about the new local assessment pilot program 
that would allow up to 15 states to include ``as part of the assessment 
system and in addition to state assessments * * * locally developed, 
classroom-embedded assessments'' that ``may be different across'' 
districts and ``may be used'' to determine ``adequate yearly 
progress.'' The draft says the local assessments are to be ``in 
addition to state assessments'' but does not clarify how the AYP 
process would work and whether the state assessment results would still 
be publicly reported at the various performance levels for each 
subgroup.
    This local assessment provision is intended to encourage the 
development and use of richer assessments including essays and 
portfolios and it requires that the variety of assessments used be 
comparable. But these provisions may be hard to implement and could 
lead to unfortunate results of distinctly different assessments with 
lesser quality tests or lower student expectations in districts with 
significant concentrations of low-income and minority students and/or 
inadequate resources to develop good tests. We urge the Committee to 
proceed cautiously and offer the following recommendations to do so:
    <bullet> Reduce the number of pilot states to 10 or less
    <bullet> Add that the Secretary consider geographic diversity and 
the mix of urban and rural states in selecting states to participate in 
the pilot program
    <bullet> Require pilot states to continue to report student 
performance levels on state assessments in addition to performance 
levels on locally developed assessments
    2. Second are matters relating to improving the quality of teachers 
and principals.
    Teachers are the backbone of high-quality public education. As I 
said to this Committee in my testimony in May 2007, strengthening the 
teacher workforce can lay the foundation for fruitful investments in 
other areas of public education. Research demonstrates that the single 
most important factor determining how much students learn is the 
quality of their teachers. Indeed, a very good teacher as opposed to a 
very bad one can make as much as one full year's difference in the 
achievement growth of students. In this discussion draft, you have 
taken important steps to improve the nation's teaching force.
    <bullet> You have added to Title II a very important new Part A 
discretionary program for states to strengthen teacher effectiveness 
through use of extra pay for success with student achievement gains, 
introduction of career ladders, and support for performance 
assessments. In order to attract and retain highly effective teachers 
and principals, there is a great need for targeted investments like 
this to incentivize change in our public education system. We all need 
to acknowledge that job structure and financial rewards are important 
motivators for employees no matter what their profession.
    Currently, too little attention is paid to creating the financial 
incentives necessary to recruit and retain a high-quality teacher 
workforce. We need to change that by raising starting salaries and by 
offering competitive and substantial compensation that recognizes and 
rewards different roles, responsibilities, and results. Compensation 
systems that recognize the value of our teacher workforce coupled with 
career advancement systems that more effectively reward good 
performance, draw effective educators to high-need schools and to teach 
in shortage subject areas, and respond to poor performance, including 
fairly and effectively removing ineffective educators, will make larger 
investments in teacher and principal salaries more politically viable 
and maximize the returns on such investments.
    <bullet> In Part B of Title II you have redesigned the formula 
grants to direct funding to correct the inequitable distribution of 
effective teachers to high-poverty and high-minority schools and 
sharpened the focus on higher-quality professional development targeted 
to the most needy schools. Today low-income and minority students are 
about twice as likely to be assigned to inexperienced teachers who on 
average make far smaller annual learning gains than more experienced 
teachers. As a result, low-income, African American, and Latino 
children consistently get less than their fair share of good teachers. 
This must change, and your proposals provide a strong push to do that.
    <bullet> In Title I the closure of the comparability loophole is 
also vitally important to ensure that high-poverty schools get their 
fair share of resources to hire and retain effective teachers and to 
undertake other important school improvement strategies. Under the 
existing loophole, teaching salaries were excluded from determinations 
of equity in expenditures in district schools from state and local 
funds before directing additional Title I funds to them. This results 
in the continuation of lesser resources going to schools with the 
greatest needs.
    3. We are also very pleased with the new attention to high school 
completion in Title I.
    <bullet> We commend you for the addition of a Graduation Promise 
Fund. It is well established that our students have fallen behind past 
generations of Americans and young people in other nations in terms of 
on-time high school completion rates. For decades now, the U.S. on-time 
graduation rate has failed to top 70 percent. This is below national 
graduation rates recorded in the middle of the 20th century and well 
below current graduation rates in other countries. The United States 
ranked first in the world in terms of secondary school graduation rates 
40 years ago. Today it ranks 17th. For racial and ethnic minorities, 
the statistics are even grimmer. Graduation rates for African American 
and Hispanic students today range between 50 percent and 55 percent. 
Every year we lose more and more of these students in schools that are 
essentially ``dropout factories.'' The Graduation Promise Fund will 
provide critical federal resources to aid states in their efforts to 
develop, implement, and expand proven methods for keeping a diverse 
range of students in school and on the path to economic success. We 
urge you to distribute the Fund dollars through a poverty formula that 
directs funds solely on the basis of the poverty level of a high school 
rather than its dropout rate to ensure that there is no incentive for 
keeping dropout rates high in order to continue to receive funds.
    The Graduation Promise Fund is the major title of a proposal we and 
other groups made for a Graduation Promise Act. It had two additional 
titles and we are pleased to see them included in the discussion draft 
as well. The discretionary state grant program to provide incentives 
for states to raise their graduation rates is in a redesigned Part H. 
Funds to support the development of comprehensive models for dropout 
prevention and recovery are included in the Graduation Promise Fund as 
a setaside.
    <bullet> We also applaud the requirement for consistent definitions 
of high school graduation rates and meaningful inclusion of these rates 
as part of Annual Yearly Progress measures. Without such a strong 
definition, too many high schools have been judged to make AYP in 
student performance while simultaneously having very high proportions 
of dropouts.
    4. Finally, I want to address and encourage your support for the 
Expanded Learning Time and Redesign demonstration program that has been 
included in the discussion draft of Title I as Part J. The Center 
developed this proposal with our partner organization Massachusetts 
2020 and thank Congressmen Donald Payne, George Miller, and Howard 
McKeon for their support of this issue.
    The demonstration program will provide federal incentives to 
districts and states to expand learning time in low-performing, high-
poverty schools to boost student performance, close achievement gaps, 
and expand enrichment opportunities. Based on successful efforts in 
several leading charter schools and a growing number of traditional 
schools, we know that a comprehensive approach to school reform that 
adds time to school days, weeks, and/or years can result in significant 
learning gains for disadvantaged youngsters. The demonstration program 
requires such a comprehensive approach that focuses on both core 
academics and enrichment, facilitates innovation, maintains rigor and 
accountability, builds partnerships with other local organizations, and 
provides teachers with additional professional development and planning 
opportunities. The demonstration program also contains a strong 
evaluation component that will measure its impact on student 
achievement and, if successful, make the case for expansion of such 
efforts with state and local investments.
    In closing, upon refining this discussion draft I urge the 
Committee to move carefully but quickly into formal consideration of 
the reauthorization of ESEA. It is imperative that the law be 
reauthorized and signed into law before the end of 2007 to build on the 
momentum of this important bipartisan effort to improve educational 
opportunities for all students.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Ms. Messina.

  STATEMENT OF ANDREA MESSINA, COMMISSIONER, ASPEN INSTITUTE 
               COMMISSION ON NO CHILD LEFT BEHIND

    Ms. Messina. Thank you Chairman Miller, Representative 
McKeon, members of the committee, on behalf of the Commission 
on No Child Left Behind, I want to thank you sincerely for your 
efforts here today in gaining input. We recognize your 
leadership to improve the achievement of all students across 
this Nation, and it is greatly appreciated. The Commission on 
No Child Left Behind is a bipartisan organization. It was co-
chaired by former Health and Human Services Secretary, former 
Governor of Wisconsin Tommy Thompson, and the former Governor 
of Georgia, Roy Barnes. Our other members were made up of 
members from all areas of education governance from K-12 to 
higher education. We also had civil rights leaders and business 
leaders. We represented a broad spectrum of opinions, positions 
and ideas, and we took our job very, very seriously. We spent 
over a year traveling the country. We had over 12 public 
hearings and round tables where we invited State officials and 
superintendents, teachers, parents, advocates, research experts 
and policymakers at all levels. We visited schools, and we 
talked to those people who are living this law every day. We 
talked to students. Back in February, we released 75 specific 
actionable items and were heartened to see that many of our 
recommendations appear in your draft, especially in the areas 
of strengthened accountability, improved data capabilities, 
collection of teacher effectiveness data, improved State 
standards and improvements in the high school graduation rate 
accountability.
    NCLB has been described as a blunt instrument that needs 
refining. We support provisions to improve AYP measures through 
the use of growth models, just as your draft proposes. But 
while some flexibility to innovate new models is important, we 
also believe it is important that your draft requires students 
to be on a trajectory for proficiency within 3 years to count 
for AYP. Any approach that credits simple movement forward can 
weaken the accountability structure. And students could make 
forward progress every year and never reach proficiency. We 
want to see a deadline for proficiency there. We believe that 
reading and math assessments are essential to determining 
proficiency in core subject areas and that all assessments need 
to be valid and reliable. All students across the State taking 
the same tests results in a concrete measure of progress. We 
can't back away from holding the same high expectations for all 
students paired with meaningful accountability for results.
    Our concern is that multiple indicators should not be used 
in any way that would diminish the importance of achievement in 
reading and math. We appreciate the committee's recognition to 
do more for high school achievement and improved graduation 
rates. We hope that you will bring the same urgency to closing 
the graduation rate gaps as we currently see in closing the 
achievement gaps. We would like to see those gaps close by the 
year 2014. Also we are greatly encouraged that the committee is 
going to require and provide assistance to States in ensuring 
that they built sophisticated data systems that would more 
precisely measure student achievement gains. We recommend that 
the Federal investment be $400 million over 4 years partnering 
with States to ensure that the systems are sufficient to the 
tasks at hand.
    Once you get that data, that information is going to give 
you the world. The most important factor in improving student 
achievement we all know is the teacher in the classroom. We see 
it in research after research. We see it in district after 
district. NCLB attempted to ensure there is a high quality 
teacher in every classroom, but qualifications alone don't tell 
us what we need to know. The teacher's ability to improve 
achievement, that is the information you need to know. We have 
got to change from the input of qualification to an output of 
effectiveness. Now, the same longitudinal data systems that you 
are going to have regarding student growth measurements is 
going to yield your data on teacher effectiveness. The 
information is going to be there, and we commend you for 
including a teacher identifier to make the data more powerful. 
This is done in other places. In fact, we do this in Florida to 
some degree. We use data to drive instruction and to drive 
teacher training. I taught high school for 8 years. I would 
like to think I was an effective teacher. But the truth is I 
don't know. There was no valid measurement that could tell me. 
There were some students who were successful. There were some 
students who weren't. The data was not available at the time. 
The thought that I could have some valid data to tell me how 
that I can better improve my skills and delivery to the 
students in the classroom, I can't begin to tell you how 
helpful that would have been for me as an educator and how much 
time would have been wasted me trying different things.
    Teachers usually used to rely on a bag of tricks. If a 
student had difficulty learning, they would pull out something 
from their bag of tricks and throw it at the student. If it 
stuck, great. If it didn't, we would go back to our bag of 
tricks and try something else until something finally stuck. 
With the new data-driven instruction delivery methods and with 
scientific data, we now can test the students with all sorts of 
assessments, identify exactly what that student needs and 
deliver targeted instruction.
    I am simply asking that you take the same premise and apply 
it to the teachers in the classroom. Use the teacher 
effectiveness data, identify which teachers need help and in 
what areas and give those teachers the help that they need 
through targeted professional development. It just makes sense, 
and only the students can benefit. Experience has shown us that 
NCLB has been successful in identifying struggling schools but 
not so successful in turning those schools around. Education is 
the foundation of this Nation's economy, but your Federal and 
State education budgets simply don't devote enough money of 
their budget to research and development. They don't even 
compare when you look at private and other public 
organizations. The commission recommends boosting the research 
and development on school improvement. We want you to double 
the research on elementary schools and secondary schools at the 
USDOE. Aim these funds towards research to assist the schools 
in turning around and in meeting the goals of No Child Left 
Behind. Committee members, you have a great charge ahead of 
you. The future of America's young people. Our most vulnerable 
young people is depending on you. I wish you much good luck and 
success.
    [The statement of Ms. Messina follows:]

  Prepared Statement of Andrea Messina, Commissioner, Aspen Institute 
                   Commission on No Child Left Behind

    Mr. Chairman and Members of the Committee, on behalf of the 
Commission on No Child Left Behind, I want to thank you for the 
opportunity to testify before you this morning. We appreciate your 
leadership in working to improve the educational achievement of all 
students. We also appreciate the Committee's efforts in producing a 
discussion draft for public comment and your willingness to have an 
open process to generate a quality product for the reauthorization of 
No Child Left Behind (NCLB).
    Our Commission was charged with conducting an analysis of the law 
and its implementation and developing recommendations for improvements 
that would accelerate achievement for all children and close persistent 
achievement gaps. The Commission is a bipartisan organization Co-
Chaired by former U.S. Secretary of Health and Human Services and 
Wisconsin Governor Tommy Thompson and Former Georgia Governor Roy 
Barnes. Our members include representatives from all levels of K--12 
education governance, higher education as well as civil rights and 
business leaders.
    We took our charge seriously. We researched. We listened. And we 
learned. Commissioners spent more than a year traveling the country to 
talk with people who live with this law every day. The Commission 
convened 12 public hearings and roundtables and heard testimony from 86 
witnesses including state officials, superintendents, teachers, parents 
and their advocates, researchers and other experts and policymakers at 
the national, state and local levels. We also visited schools and 
talked with principals, teachers and students about their experiences 
with NCLB. For more information on Commission activities or to access 
our full report, please visit www.nclbcommission.org.
    We are heartened to see that a number of our recommendations for 
strengthened accountability, improved data capabilities, collection of 
teacher classroom effectiveness data, improved state standards and some 
improvements in high school graduation accountability are included in 
the initial draft. We hope to work with the Committee and our 
colleagues to build on this foundation to strengthen the law and to 
address our concerns about parts of your working draft.
Improved Accountability
    NCLB has brought a stronger focus on accountability for results and 
a deeper commitment to assuring that all children--regardless of race 
or economic status--achieve at high levels. In our hearings, 
roundtables and meetings with administrators, principals, teachers, 
advocates and parents, the Commission heard strong support for holding 
schools accountable for the performance of all of their students.
    However, many of those we heard from characterized NCLB's current 
adequate yearly progress (AYP) requirement as a ``blunt instrument'' 
that needed to be refined. Current law is a pass / fail standard that 
often does not properly credit schools that are making significant 
progress with kids who have further to go in reaching proficiency. We 
support the provisions in the Committee's draft to improve AYP measures 
by incorporating growth models capable of tracking individual student 
progress from year to year. While we agree that it is important to 
allow states the flexibility to innovate as new models are developed, 
we think it is very important that the draft requires that students 
must be on a trajectory to reach proficiency within three years to be 
counted as achieving AYP and that all subgroups must be on track to 
proficiency by 2014. This distinction is important because an approach 
that credits any forward movement as sufficient growth or consigns 
large numbers of students to perpetual second tier performance status 
would significantly weaken NCLB accountability.
    NCLB currently requires states to begin testing in science during 
this school year. However, the law does not require that the results of 
those tests be used for accountability purposes. The Commission 
believes this is a mistake. Strong performance in science is critical 
for a student's future success as well as for maintaining our country's 
competitiveness in the global economy. The Commission recommends that 
states count results from science assessments for AYP accountability 
purposes.
    The Commission supports the provision in the draft that requires 
states to limit subgroup sizes to no more than 30 students. We believe 
this is critical to assuring that millions of kids do not continue to 
be invisible in state accountability systems. The Commission also 
supports the provision limiting confidence intervals to 95% while also 
prohibiting their use in measuring student growth.
    The Commission agrees with the provision of draft that would allow 
states to test up to 1 percent of students with disabilities (those 
with severe cognitive disabilities) to be assessed against alternate 
achievement standards using alternate assessments. However, there is 
not a sufficient research basis for allowing an additional 2 percent of 
students with disabilities to be assessed against ``modified academic 
achievement standards'' as contained in the Committee draft. The 
Commission recommends that no more than an additional 1 percent of 
students with disabilities be allowed to be assessed against modified 
standards.
    States currently receive an annual appropriation of nearly $400 
million for the creation of standards and tests--now complete. The 
Commission commends provisions in the draft requiring the development 
of appropriate assessments for English language learners and students 
with disabilities. We recommend continuing and re-tasking this 
appropriation for states to develop those assessments as well as to 
improve the quality and alignment of assessments for all students and 
upgrade the technology for improving the delivery and scoring of tests 
to more efficiently get information to administrators, principals and 
teachers who must make accountability and instructional decisions and 
to parents students who may be eligible for additional help such as 
free tutoring.
Multiple Indicators
    NCLB currently allows states to use indicators in addition to 
reading and math assessments to inform educational decision making. The 
Committee draft, however, proposes to allow states to incorporate the 
use of multiple indicators that allow states to use other measures to, 
in effect, excuse a lack of progress in improving achievement in 
reading and math as measured on state test scores. The Commission does 
not believe that any additional indicator should be used in a way that 
diminishes these measures of progress in core subjects.
    The Committee draft also proposes a 15 state pilot project that 
would allow the use of locally developed assessments for Adequate 
Yearly Progress (AYP) determinations. The Commission believes that this 
approach is an invitation for mischief and would be very likely to 
undercut NCLB's purpose of ensuring that all students and schools are 
being held to the same high expectations.
    NCLB was created to ensure that all children become proficient in 
core subjects based on academic standards set by states. Valid and 
reliable assessments, taken by all students across the state, represent 
concrete measures of how well students are progressing toward the 
expectations contained in those standards.
    We have a responsibility as a nation to take bold steps to 
accelerate progress in closing achievement gaps that still plague our 
schools and to ensure that all children are prepared for successful and 
productive lives after high school. While significant improvements must 
be made to NCLB to achieve that goal, we cannot afford to back away 
from our insistence on holding the same high expectations for all 
children paired with meaningful accountability for results based on 
objective measures of progress.
High School Accountability
    The Commission appreciates the Committee's recognition that we must 
do more to ensure continuous achievement and improve graduation rates 
of high school students.
    Under current law, high schools can be credited with making 
sufficient progress on graduation rates even though racial and ethnic 
minorities graduate at significantly lower rates than white students. 
This masks a serious problem from public view. We must bring the same 
urgency that we have brought to closing achievement gaps to closing 
graduation rate gaps. The Commission appreciates that the draft 
addresses the need to hold schools accountable for all students by 
requiring that graduation rates be reported by subgroups. However, the 
Commission would also recommend that schools be held accountable for 
closing those gaps by 2014. The Commission has also endorsed the 
National Governors Association Compact--which was approved by the 
governors of all 50 states--to bring order and uniformity to graduation 
rate reporting and allow comparisons across states.
    While NCLB requires annual assessments in grades 3 through 8, it 
requires assessments to be administered only once in high school. Thus 
we have no way to know whether schools continue to hold high 
expectations for students after 10th or 11th grade and whether students 
continue to actually achieve to expected levels. We recommend that the 
Committee take an additional step by requiring states to create and 
implement a 12th grade assessment. The new 12th grade assessment, along 
with current 10th grade tests, would create a useful measure of a 
school's effectiveness in preparing students for college and work. This 
assessment would also make possible the inclusion of growth 
calculations in AYP for high schools and for determining teacher 
effectiveness. These assessments however, should be used for school 
accountability only and not as the sole determinant of whether a 
student receives a diploma.
Building Adequate Data Systems
    We are also encouraged that the Committee is going to require and 
provide assistance to states in assuring that they build data systems 
that more precisely measure student achievement gains. The Commission 
recommends a federal investment of $400 million over four years in 
partnership with the states to assure that systems are sufficient to 
the task of supporting an improved NCLB.
Teacher Effectiveness
    There is widespread agreement that teaching is the most important 
in-school factor in improving student achievement. The difference 
effective teachers make, especially for disadvantaged children, is well 
documented in numerous studies and we see it in district after district 
across the country. Unfortunately, too many students, particularly low 
income students and students of color, remain in classrooms in which 
ineffective teaching fails to produce sufficient learning gains. 
Though, there are many committed and able teachers working in high 
poverty schools, low income students and students of color continue to 
be significantly more likely than their peers to be taught by the least 
effective teachers.
    NCLB attempted to ensure that all students were taught by highly 
qualified teachers. But research has demonstrated that qualifications 
alone tell very little about a teacher's ability to improve student 
achievement in the classroom. Attaining the goals of the law--providing 
all students with access to capable teachers who can produce 
substantial learning gains--requires a new approach focused on 
effectiveness in improving student achievement rather than on 
qualifications for entering the profession.
    We commend the Committee's recognition of the opportunity created 
by implementing more sophisticated systems for tracking student 
performance that include an individual teacher identifier. The same 
longitudinal data systems necessary for the measurement of student 
growth from year to year also yield data on teacher effectiveness in 
the classroom. This creates an unprecedented opportunity to measure the 
effectiveness of individual teachers in improving student achievement 
in a way that is fair to teachers, because progress measures are based 
on student growth over the course of a school year rather than on 
reaching an absolute proficiency standard. The Commission has attached 
letters that we sent to Chairman Miller and Ranking Member McKeon 
urging the Congress to seize this opportunity. The Commission joined 
colleagues from the Center for American Progress Action Fund, Citizen's 
Commission on Civil Rights, National Council of La Raza, The Education 
Trust and the Mexican American Legal Defense Fund in signing the 
letters.
    The Commission believes that a reauthorized NCLB must require 
states, districts and schools using growth models in measuring AYP to 
also measure teacher effectiveness based on improvements in student 
achievement and to use that information to better support teachers in 
improving academic performance. This data should be used to better 
identify professional development needs in schools and for tailoring 
professional development opportunities to meet teacher's needs.
    Far too many teachers are subjected to ineffective and unfocused 
professional development that wastes their time and does not help them 
improve their classroom practices. Collecting and using this data over 
time will also make it possible to evaluate the effectiveness of 
various approaches to professional development--a federal investment of 
over $3 billion annually--in helping teachers improve student 
performance.
    Teacher classroom effectiveness data should also be used as the 
basis to assure that poor and disadvantaged students have the same 
access as their more advantaged peers to effective teachers who have 
proven their ability to improve student achievement--not just equally 
high paid teachers.
    This data can also be used as a fair and objective basis for other 
innovative reforms being pursued in the states and under consideration 
by the Committee, such as performance pay. The Commission has 
recommended that districts--particularly those that struggle with high 
rates of teacher turnover--explore options such as bonus pay to attract 
the most effective teachers and those teaching in hard to staff subject 
areas, mentoring new teachers, recruiting individuals from non-
traditional routes into the profession and conducting independent 
audits of working conditions and developing plans for how they will 
improve them.
Standards
    It would be a cruel hoax if students, teachers and principals did 
everything that NCLB asked of them and students still found themselves 
ill prepared for success after high school. Based on our analysis of 
state test results in comparison to student performance on the National 
Assessment of Educational Progress (NAEP), the disheartening 
performance of American students in international comparisons, and 
ample testimony at our hearings, it is clear that we simply are not 
setting expectations for our children at a level that ensures they are 
ready for college and the work force.
    We appreciate that the Committee has recognized this problem and 
has taken some initial steps toward addressing it in the draft. The 
Commission agrees that states should review their standards in 
collaboration with their business and higher education communities. 
Colleges and businesses are acutely aware of what is necessary to 
succeed and should play a significant role in making sure that schools 
expect no less. While some states, such as those working in partnership 
with Achieve, (an organization dedicated to improving the rigor and 
clarity of state standards and assessments), have begun this process, 
we need all of our states to refocus their expectations on what 
children need to know in order be successful after high school. We also 
agree with the Committee's call for the creation of a common scale for 
making comparisons across states.
    However, we do not believe that these steps alone are enough. We 
also recommend the creation of model national standards and assessments 
using the widely respected existing NAEP frameworks as a starting 
point.
    Once model national standards and assessments are developed, we 
recommend giving states three options:
    1) Adopt the model national standards and assessments as their own 
for NCLB accountability purposes
    2) Build their own assessment instrument based on the model 
national standards
    3) Maintain their existing standards and assessments
    The U.S. Secretary of Education would issue an annual report to the 
public comparing the relative rigor and quality of the standards and 
assessments in states that choose options 2 and 3 to the national model 
using a common scale. This report and the use of the common scale would 
be intended to allow accurate comparisons among the states, so we can 
clearly see differences in the level of expectations among states and 
in comparison to the national model.
Student Options and School Improvement
    In addition to holding schools accountable for results, NCLB 
presently contains a series of interventions for consistently 
struggling schools. These include providing options for students in 
schools that miss their state's AYP goals for two or more consecutive 
years, as well as an escalating series of interventions and eventual 
sanctions for turning around chronically struggling schools.
    Unfortunately, too few students have been able to benefit from 
options such as public school choice and free tutoring. Nationally, 
less than 1 percent of eligible children have been able to exercise 
their public school choice option and less than 17 percent of eligible 
children have been able to access the free tutoring option. Public 
school choice and free tutoring are important components of a 
comprehensive plan to address the needs of all students. By denying 
children access to these options, we deny them avenues to success such 
as a better school environment or additional help in reading or math.
    The Commission has made a number of recommendations for assuring 
that all eligible students are able to access free tutoring services. 
We do not support the approach taken in the draft that would reduce the 
amount of funds available for these options and allow schools 
identified for improvement the option of whether to make public school 
choice and free tutoring available. We must continue to ensure that 
there is an academic bottom line on behalf of children that provides 
immediate help to students as we work to improve school performance.
    With regard to public school choice, the Commission recommends that 
districts be required to conduct an annual audit of available space for 
choice transfers. This will be important to ensuring that we are 
maximizing the use of available spaces and for determining whether the 
current system can keep NCLB's promise to provide immediate options and 
help for students stuck in chronically struggling schools.
    So far, experience with the implementation of NCLB has shown that 
we have been much more successful at identifying struggling schools 
than we have been at actually turning them around. The Commission 
agrees with the principle in the Committee draft of directing more 
intensive attention to schools with the most significant struggles. We 
have recommended that districts be allowed to focus their restructuring 
efforts on the lowest performing 10 percent of their schools as long as 
those schools undertake one or more of the most aggressive 
restructuring options, such as converting to a charter or operation by 
a private provider, replacing school staff relevant to the failure and 
state takeover. Like the Committee draft, the Commission would 
recommend that this be a rolling 10 percent with new schools moving 
into the process as others cycle out. However, the Commission believes 
that it is critically important that other schools at various stages of 
the improvement process continue to provide choice and tutoring options 
to students as well as pursuing a comprehensive set of interventions 
designed to have a systemic impact on instruction and learning in the 
school.
    Although education is a foundational element of our nation's 
economy and competitiveness, federal and state education budgets devote 
a far lower proportion of dollars to research and development (R&D) 
than private companies or other public agencies. The Commission 
recommends boosting research and development on school improvement by 
doubling the research budget for elementary and secondary education at 
the U.S. DOE. We believe that this is an important first step and that 
increased funds should be aimed at research that assists schools in 
meeting the goals of NCLB. We must arm our teachers and principals with 
better tools, knowledge and targeted, relevant professional development 
to increase student achievement, especially in struggling schools.
Conclusion
    We commend the Committee for taking some steps in the right 
direction to strengthen the law such as requiring longitudinal data 
systems that produce more precise measures of student progress as well 
as producing data on teacher effectiveness in the classroom. We urge 
you to seize the opportunity this creates to use that data to better 
target professional development and other support to teachers and as a 
basis to assure that disadvantaged students have the same access as 
their more advantaged peers to teachers who have proven their ability 
to improve achievement. We also urge you to go further to ensure that 
our children are sufficiently challenged in all subjects--all the way 
through high school--that are important to their future success by 
creating a strong mechanism for improving the rigor of state standards 
and assessments. Finally, we must make sure that high-quality options 
such as public school choice and free tutoring are available and easily 
accessible for all eligible children as we work to become as effective 
in improving performance in struggling schools as we are at identifying 
them.
    Thank you.
                                 ______
                                 
                                                   August 29, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, House of Representatives, Washington, 
        DC.
    Dear Chairman Miller: There is widespread agreement that teaching 
is the most important in-school factor in student success. All of our 
nation's students deserve instruction that helps them advance their 
learning. Unfortunately, too many children languish in classrooms in 
which the teaching fails to result in strong learning gains. 
Additionally, too many teachers are subjected to ineffective and 
unfocused professional development that wastes their time and does not 
help them improve their classroom practices.
    Low income students and students of color--the very students who 
most need strong teachers--are still significantly more likely than 
their peers to be taught by the weakest teachers. To be clear, there 
are many very committed and effective teachers working in high poverty 
and high minority schools. However, we all know the schools with the 
stiffest teaching and learning challenges get less than their fair 
share of the most able teachers.
    Congress has the opportunity to turn the tide. In the coming 
reauthorization of No Child Left Behind (NCLB), we urge Congress to 
seize the opportunity to dramatically upgrade the quality and 
effectiveness of teaching in our most challenged schools by: 1) better 
identifying the professional development needs in these schools and 
tailoring professional development opportunities to more accurately 
meet teacher needs and 2) providing strong incentives to get the best 
and the brightest teachers to the schools and students that most need 
them.
    We believe that the reauthorized NCLB must include provisions to 
require states, districts and schools using a growth model to measure 
Adequate Yearly Progress to measure teacher effectiveness based on 
improvements in student achievement and to use that information to 
better support teachers in improving academic performance.
    Measuring teacher effectiveness is not only critical to ensuring 
that all students achieve, it is also cost-effective and workable. The 
same data systems necessary to support growth models in determining 
adequate yearly progress (AYP) in student achievement can be used to 
measure teacher effectiveness. This information can also be used to 
target limited professional development funds more productively and 
provide a meaningful basis for assuring that disadvantaged children 
have the same opportunity to receive effective classroom instruction as 
their more advantaged peers.
    We urge Congress to require that every state that implements a 
growth model to measure student progress also be required to calculate 
growth by classroom, report that information and use it--in combination 
with principal and or peer observation--to prioritize professional 
development and to ensure that poor and disadvantaged students have the 
same access to effective teachers as their more advantaged peers.
            Sincerely,
                                    Gary Huggins, Director,
                                Commission on No Child Left Behind.
                               Amy Wilkins, Vice President,
                                               The Education Trust.
                               William L. Taylor, Chairman,
                              Citizen's Commission on Civil Rights.
                               Delia Pompa, Vice President,
                                       National Council of La Raza.
             Peter Zamora, Washington, DC Regional Counsel,
                               Mexican American Legal Defense Fund.
            Cynthia G. Brown, Director of Education Policy,
                          Center for American Progress Action Fund.
                                 ______
                                 
                                                   August 29, 2007.
Hon. Howard P. ``Buck'' McKeon, Ranking Republican Member,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Representative McKeon: There is widespread agreement that 
teaching is the most important in-school factor in student success. All 
of our nation's students deserve instruction that helps them advance 
their learning. Unfortunately, too many children languish in classrooms 
in which the teaching fails to result in strong learning gains. 
Additionally, too many teachers are subjected to ineffective and 
unfocused professional development that wastes their time and does not 
help them improve their classroom practices.
    Low income students and students of color--the very students who 
most need strong teachers--are still significantly more likely than 
their peers to be taught by the weakest teachers. To be clear, there 
are many very committed and effective teachers working in high poverty 
and high minority schools. However, we all know the schools with the 
stiffest teaching and learning challenges get less than their fair 
share of the most able teachers.
    Congress has the opportunity to turn the tide. In the coming 
reauthorization of No Child Left Behind (NCLB), we urge Congress to 
seize the opportunity to dramatically upgrade the quality and 
effectiveness of teaching in our most challenged schools by: 1) better 
identifying the professional development needs in these schools and 
tailoring professional development opportunities to more accurately 
meet teacher needs and 2) providing strong incentives to get the best 
and the brightest teachers to the schools and students that most need 
them.
    We believe that the reauthorized NCLB must include provisions to 
require states, districts and schools using a growth model to measure 
Adequate Yearly Progress to measure teacher effectiveness based on 
improvements in student achievement and to use that information to 
better support teachers in improving academic performance.
    Measuring teacher effectiveness is not only critical to ensuring 
that all students achieve, it is also cost-effective and workable. The 
same data systems necessary to support growth models in determining 
adequate yearly progress (AYP) in student achievement can be used to 
measure teacher effectiveness. This information can also be used to 
target limited professional development funds more productively and 
provide a meaningful basis for assuring that disadvantaged children 
have the same opportunity to receive effective classroom instruction as 
their more advantaged peers.
    We urge Congress to require that every state that implements a 
growth model to measure student progress also be required to calculate 
growth by classroom, report that information and use it--in combination 
with principal and or peer observation--to prioritize professional 
development and to ensure that poor and disadvantaged students have the 
same access to effective teachers as their more advantaged peers.
            Sincerely,
                                    Gary Huggins, Director,
                                Commission on No Child Left Behind.
                               Amy Wilkins, Vice President,
                                               The Education Trust.
                               William L. Taylor, Chairman,
                              Citizen's Commission on Civil Rights.
                               Delia Pompa, Vice President,
                                       National Council of La Raza.
             Peter Zamora, Washington, DC Regional Counsel,
                               Mexican American Legal Defense Fund.
            Cynthia G. Brown, Director of Education Policy,
                          Center for American Progress Action Fund.
                                 ______
                                 
    Chairman Miller. Thank you. We have a lot of good wishes 
for good luck around this town.
    Ms. Messina. You are going to need it.
    Chairman Miller. Mr. Carey.

    STATEMENT OF KEVIN CAREY, RESEARCH AND POLICY MANAGER, 
                        EDUCATION SECTOR

    Mr. Carey. Thank you, Chairman Miller, Ranking Member 
McKeon, members of the committee for the opportunity to testify 
today. The single most important thing that the discussion 
draft that you put forth does is recognize the central value of 
teachers to education. And there was actually a time when we 
didn't realize how important teachers were. We thought that it 
was students' home lives or their IQ or the design of their 
school that made all the difference when it came to how much 
they learned in the classroom. But what we know now from 
research is that that is not true. In fact, there are really 
three things that I think drive a lot of the policy that you 
have put forward in this draft.
    First, we know that the quality of an individual teacher in 
the classroom makes a huge difference in how much students 
learn, even after you take into account where they come from 
and all the things that happen outside of school. Second, we 
know that all teachers aren't the same. Some are much more 
effective than others in helping students learn. And third, we 
know that disadvantaged students who are the very students that 
the Elementary and Secondary Education Act was written to help 
and protect over 40 years ago consistently get the least 
experience, least qualified and least effective teachers. The 
draft that you put forth does many things to right this 
terrible inequity, and for that you are to be commended. Just 
to name a few of them, you have improved the comparability 
provisions that guarantee that schools that receive Title I 
funds first have to receive an equal share of State and local 
funds. You have required that student information be linked to 
teacher information in your data system so we know who is 
teaching whom. You have required States receiving Title II 
teacher quality funds to live up to their obligation, which is 
actually in the current version of No Child Left Behind, to 
determine whether poor minority students are being 
disproportionately taught by teachers who are inexperienced 
throughout a field to have a plan. And if they are--and in most 
States, we know I think most of them are--to have a plan to 
improve it and to implement that plan. That that is the 
requirement, if you are going to receive funds from the Federal 
Government focus on teacher quality. You closed loopholes in 
the highly qualified teacher provisions, and you have invested 
new resources to help States that have innovative plans to 
recruit the best and the brightest into the classroom and then 
reward them if they are willing to do the hardest job and if 
they are successful. Some of these provisions will be 
controversial, we know, but they are the right thing to do, and 
you are to be commended for putting them forth today. It is 
also very clear that in looking at the accountability 
provisions of No Child Left Behind, that this committee has 
listened to the voices of educators, researchers and advocates 
who have suggested ways to improve the law. And no one should 
be surprised that the law needs improvement. Legislation is an 
iterative process by definition, and years of experience give 
us new ways to do even better. For example, and some of the 
panelists have mentioned this already, by allowing States to 
measure the year-to-year growth of individual students for 
accountability purposes. But also by requiring that students be 
on a trajectory to get towards proficiency within 3 years, I 
believe you have struck the right balance between listening to 
valid critiques of No Child Left Behind, but also maintaining 
its core commitment to making sure that all students have 
access to high standards regardless of race, income, language 
or disability. But there is a danger here that I would warn you 
of that in trying to address every criticism of No Child Left 
Behind that you will undermine its core principles. And I think 
there are really two dangers.
    There is an essential trade-off I think between the 
complexity of the bill that you put forth and its transparency 
and its integrity in the long run. And from a transparency 
standpoint the whole premise of accountability and standards is 
that we identify a problem, and then we try to fix it. But that 
requires that not only bureaucrats in the State Department of 
Education understand the problem, but that the teachers in the 
schools, the school principals understand it also. If we make 
the law so complicated that people can't understand why a given 
school is labeled as a failure or a success, it is going to be 
very hard for them to figure out how to fix it. And so as we 
start to look at new senses of nuance and complications and new 
way to measures and new systems there is a danger that we are 
going to lose that transparency. So I would encourage you to be 
as clear and precise and limited as possible in adding new 
measures to the accountability system.
    The other danger is the integrity of the system will be 
undermined. I commend the committee in its draft for putting 
forth--closing loopholes regarding subgroup sizes and 
confidence intervals, some of the statistical games that have 
been played.
    It is worth noting that the Congress didn't put those 
things into No Child Left Behind; they were invented by State 
departments of education. There has been, unfortunately, a 
pattern over the last 5 years where some States, not all, have 
pushed the letter of the law to undermine its spirit, by 
looking for nuances and complexities in the legislation to find 
ways to undermine its intent, which is to put fair but 
meaningful pressure on schools to improve. So I would encourage 
you, again, to be careful in the local assessment project that 
has been mentioned, keep the law clear, make it more nuanced, 
but also make it work in the long run.
    So, again, I thank the committee for the opportunity to 
testify today and congratulate you on your draft.
    [The statement of Mr. Carey follows:]

  Prepared Statement of Kevin Carey, Policy Manager, Education Sector

    Chairman Miller, ranking member McKeon, members of the committee, 
thank you for the opportunity to testify today. My name is Kevin Carey; 
I am the research and policy manager of Education Sector, a national, 
independent nonpartisan education think tank. Because Education Sector 
does not take institutional positions on issues or proposed 
legislation, the views I express today are my own.
    For the past two decades, Democrats and Republicans alike have 
pursued a goal that transcends party affiliation: ensuring that all 
students--regardless of race, economic background, disability or 
language--have equal access to a high-quality education that will 
prepare them for work and life. The discussion draft amendments to the 
No Child Left Behind Act recently put forth by this committee clearly 
seek to further that goal, and for this the committee should be 
commended.
    The draft also seeks to address many of the criticisms that rightly 
have been leveled against No Child Left Behind since its enactment over 
five years ago. Policymaking is by nature an iterative process and no 
one should be surprised that the experience of implementing No Child 
Left Behind has revealed new opportunities to make the law more 
effective and fair. The committee should again be commended for 
carefully listening to the voices of parents, educators, researchers, 
and advocates who have recommended ways to improve the law.
    Some proposed changes are particularly worthy of mention.
    By improving the ``comparability'' provisions guaranteeing that 
schools receiving Title I funds must first receive an equal share of 
state and local funds, the draft takes a very important step toward 
ensuring that low-income students receive their fair share of school 
resources. Research from the Center on Reinventing Public Education has 
shown that in some school districts, high-poverty schools receive 
nearly a million dollars less per year than low-poverty schools of 
similar size. This provision alone will go a long way toward ensuring 
that low-income students are not forced to attend schools that serve as 
a revolving door for inexperienced, under-paid teachers.
    Similarly, by making Title II funding contingent on states taking 
steps to ensure that poor and minority students get their fair share of 
experienced, qualified, effective teachers, the committee is taking a 
bold but necessary step to ensure real educational equity for 
disadvantaged children. Research has shown that the quality of 
classroom teaching has a huge impact on student learning, particularly 
for at-risk children. But studies also show those same students are 
much less likely than others to be taught by the best instructors. It 
is a long-accepted principle that all children deserve equal access to 
education funding. These proposed amendments simply extend that 
resource-equity principle to the single most valuable resource schools 
have: their teachers.
    And by eliminating the so-called High Objective Uniform State 
Standard of Evaluation (HOUSSE) exception to the guarantee that all 
students be taught by a highly-qualified teacher, the draft closes a 
loophole that many states have used to avoid addressing the fact that 
many students--disproportionately low-income and minority students--are 
taught by teachers without sufficient training or content knowledge in 
their field.
    The Title II amendments also reflect the need to improve the 
overall quality of the nation's education workforce. We have a major 
human capital problem in education; without high-quality personnel who 
are properly supported, even the best-laid plans and accountability 
systems will fall short. Some of the committee's recommendations, 
particularly relating to teacher pay, are bound to be controversial. 
But they are also important and long overdue. We cannot recruit the 
best and brightest into the classroom and expect them to excel and 
persist once they get there without taking every opportunity to 
recognize and reward excellence in education. By investing new 
resources in innovative programs designed to increase teaching 
excellence, the federal government can help leverage change throughout 
public education.
    In no small part because of the law's emphasis on data and the 
important work of states and organizations like the Data Quality 
Campaign, states are now in a much better position to collect and use 
data than when NCLB was first enacted. By supporting the development of 
longitudinal education data systems--including, crucially, the ability 
to link student data to teacher data--the committee will help further 
that progress and build the capacity of states to develop new 
information tools for schools and educators. The better we understand 
our schools, the better we are able to improve them.
    One of the most promising applications of these new data systems is 
the ability to measure the academic growth of individual students. By 
allowing states to use year-to-year student growth for accountability 
purposes, but also requiring that students be on a three-year 
trajectory toward proficiency, the committee has struck the right 
balance between addressing valid criticisms of NCLB's accountability 
requirements while maintaining the law's core commitment to common 
performance standards for all students regardless of race or income. 
Similarly, the use of a ``performance index'' can give states an 
incentive to focus on students across the achievement spectrum--as long 
as success at the high end doesn't unduly divert resources from 
students who struggle the most.
    By giving states incentives to adopt more rigorous, nationally and 
internationally benchmarked achievement standards, and by calling for 
new investments in the quality of state tests, the committee will 
strengthen the standards and assessment foundation on which the entire 
accountability enterprise rests. By creating a ``Graduation Promise 
Fund'' and requiring more stringent accountability requirements for 
high school completion, the committee will push schools to improve the 
appallingly low graduation rates that plague our secondary schools.
    By allowing schools to consider college-going rates in judging high 
school success, the committee will help bridge the great divide between 
the nation's systems of P-12 and higher education. This provision could 
be expanded further still. As a recent Education Sector report titled 
Reality Check: Tracking Graduates Beyond High School shows, states like 
Oklahoma and Florida have used longitudinal data systems to create new 
measures of high school success, such as the average college grade 
point average of a high school's graduates, the percent of graduates 
forced to take remedial courses in college, and the percent who obtain 
a good-paying job. If, as we all agree, the goal of high school is to 
prepare students to succeed in the workplace and further education, 
it's fair to take into account whether students actually do succeed in 
those areas when judging high school success. By allowing these 
measures to be incorporated into NCLB, leading states would be rewarded 
for innovation, while others would have an incentive to invest in their 
information infrastructure.
    The draft also limits the ability of states to use various 
statistical loopholes to reduce pressure on local schools and districts 
to improve. By disallowing the exclusion of sub-groups of students 
larger than 30, and by limiting statistical ``confidence intervals'' to 
the 95-percent level, the draft improves the law's focus on closing 
achievement gaps for disadvantaged students, and helps ensure that when 
targets are set for school improvement, schools actually have to meet 
them.
    There are also areas where I believe this draft can be 
significantly improved to ensure that the law is clear, transparent, 
and focused on helping the students who need help the most.
    By adding options like growth models, the committee recognizes that 
accountability systems need to account for the nuance and complexity 
inherent in an enterprise like public schooling. But complexity comes 
at a potentially high cost to both the integrity and transparency of 
the accountability system. Indeed, striking a balance between 
complexity, integrity, and transparency is probably the single most 
difficult task the committee faces. There is a danger that in seeking 
to address every criticism of NCLB, the committee will make the law's 
accountability provisions so complex that many new opportunities will 
emerge to exploit the law's intricacies to undermine its core 
principles. There is also a risk that the law will become so 
inscrutable that it will cease to function as an effective engine of 
change.
    As you know, the subgroup size and confidence interval loopholes 
closed by the discussion draft weren't originally part of NCLB. They 
were invented by state departments of education. A clear pattern has 
emerged during NCLB's implementation: some states--not all, but some--
have exploited their flexibility under the law to undermine the law's 
fundamental principles. I was a state education official before moving 
to Washington, D.C., and I believe many of these actions are born of 
good intentions--ensuring that hard-working educators aren't unfairly 
tarred as low-performing.
    But by opening a series of statistical safety valves in the AYP 
system, and by looking for every opportunity to push back the day when 
underperforming schools are required to do what must be done on behalf 
of disadvantaged students, these states have greatly undermined the 
law's effectiveness. As of today, some states have still identified 
less than one percent of their school districts as ``in need of 
improvement,'' an amount that defies both the intent of Congress and 
plain common sense. As a recent Education Sector report called Hot Air: 
How States Inflate Their Progress Under NCLB shows, this unfortunate 
trend of stretching the letter of the law to subvert its spirit extends 
to many other NCLB provisions, including those governing teacher 
qualifications, graduation rates, and school safety.
    States truly are, in the words of Supreme Court Justice Louis 
Brandeis, ``laboratories of democracy''--but too often that creativity 
and energy has been used to develop new ways to ease pressure on 
schools to improve, rather than to find new ways to help them improve. 
And the U.S. Department of Education's oversight in this area has been 
inconsistent at best. There is no reason to believe these patterns 
won't continue with the next version of No Child Left Behind. 
Therefore, the committee should make new accountability options as 
clear, precise, and limited as possible.
    Too much complexity can also undermine the process of school 
improvement itself. The idea behind standards and accountability is 
simple: Identify a problem, then focus resources and attention on 
fixing the problem. But when we pile system upon system and measure 
upon measure, it becomes difficult--if not impossible--for parents and 
educators to know why a given school is labeled a success or a failure. 
This will breed mistrust of the entire system. And if educators don't 
know why they're falling short, it will be very difficult for them to 
determine how to improve.
    For these reasons, the committee should limit multiple measures to 
a small number of reliable, high-quality assessments that are 
accessible to all students statewide, and ensure that performance goals 
in these areas are high. It should also limit the extent to which 
success on these indicators can mitigate failure in the foundational 
subjects of reading and math. The percent of a school's annual 
measurable objective attributable to measures other than reading and 
math achievement should not be increased from the levels established in 
the discussion draft. This will balance the laudable goal of avoiding 
``curriculum narrowing'' with the need to ensure that all students are 
proficient in the core subjects on which success in all other areas 
depends.
    The proposed local assessment pilot project deserves particular 
attention. I commend the committee for working to forge a greater 
connection between the local educators who work directly with children 
and the process by which those educators are judged. Unless teachers 
believe assessment is reliable, accurate, and fair, accountability will 
never work as intended.
    But purely local accountability is ultimately indistinguishable 
from no accountability at all. Everyone works better when they know 
someone else is paying attention to how well they work. It's 
unreasonable to expect schools to judge themselves objectively when the 
consequences of that judgment can be significant. Local assessments 
thus have the potential to undermine NCLB's core promise of equal 
education standards for all, perhaps the most important civil rights 
goal of our time.
    For these reasons, I recommend that the committee reduce the number 
of states eligible for the local assessment pilot project from 15 to 
five, and that the committee ensure that data from state assessments 
continue to constitute the majority of information used in determining 
adequate yearly progress.
    In creating a new distinction between ``High Priority'' and 
``Priority'' schools, the draft sensibly focuses scarce resources and 
attention on the schools in greatest need of help. But because the 
distinction between the two levels is primarily a function of the 
number of student subgroups who miss academic goals, there is a danger 
that significant, persistent achievement gaps for disadvantaged 
students will be allowed to endure. I recommend that the committee 
maintain the two levels of ``High Priority'' and ``Priority'' schools, 
but also ensure that a school cannot be identified at the less-severe 
``Priority'' level if large achievement gaps persist for a student 
subgroup that constitutes a significant percentage of the school 
population--even if only one subgroup is falling behind. I also 
recommend eliminating the proposed ``alternative process'' for 
identifying ``High Priority'' schools; such a process will create 
needless complexity and opens up new avenues to circumvent the law's 
goals.
    For any accountability system to work for English language 
learners, states and districts must be able to do three things: 
accurately identify ELL students, provide quality instruction for 
language proficiency and academic content, and administer appropriate 
assessments that reliably measure the effects of this instruction. 
States are struggling with all three. The proposal to provide 
additional resources and attention to state capacity-building for the 
development of quality instructional practices for ELLs and the 
development of appropriate and valid assessments is important. And in 
extending the timeframe for using native-language tests to assess ELLs, 
the committee recognized that to accurately measure the academic 
knowledge and achievement of these students, we must use tests those 
students can read and comprehend.
    However, requiring states to develop native-language tests for 
every language that represents 10 percent or more of the state's ELL 
population is onerous and, absent native instruction, will not ensure 
more accurate measurement of learning for a significant portion of the 
ELL population. The main priority should be investing new resources in 
developing psychometrically reliable and valid ELL assessments. States 
and districts do not currently have the expertise and capacity to do so 
without additional support. And as an Education Sector report titled 
Margins of Error: The Testing Industry in the No Child Left Behind Era 
has shown, the testing industry is currently hard-pressed to meet this 
and many other assessment challenges. The committee was also correct in 
requiring the improvement of state data collection on ELLs. As it 
stands, states and districts are simply not collecting reliable data on 
this population, nor are they collecting data in the same way. Without 
good information, we cannot expect any true measure of accountability 
for these children.
    When Congress passed the No Child Left Behind Act almost six years 
ago, it renewed the historic promise of the Elementary and Secondary 
Education Act to give disadvantaged students a fighting chance to 
succeed in a society and world at large that increasingly values 
education above all else. It also enacted a number of bold but 
necessary reforms. These actions have been controversial, to say the 
least. But they were the right thing to do.
    The first priority of this committee should be to further 
strengthen that commitment to educational equity while embracing a new 
set of needed reforms for the years to come. This draft is a positive 
step in that direction, and my colleagues at Education Sector and I 
look forward to being of assistance in making it stronger still.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Thank you again to all of you for your testimony. As I 
stated at the outset, this is intended to be more of a 
listening session than the traditional back and forth of the 
Congress, but I want to be sure that every member who has any 
questions or things they want to clarify is free to ask 
whatever questions you want. That doesn't mean we need all 
questions from every member, but on the points or the concerns 
that have been raised, on the top row, anyone?
    Mr. Scott?
    Mr. Scott. Thank you. I want to ask Mr. Podesta, on the 
dropout rate, we have a provision in there, if you have a high 
dropout rate, you don't make AYP. Is that not enough of an 
incentive? And, Mr. Chairman, let me just pose the question 
because we are getting answers, and we will never give members 
the opportunity----
    Chairman Miller. Mr. Podesta is very concise.
    Mr. Scott. Whether or not that is enough of an incentive; 
if not, we need to discuss that.
    Ms. Messina, if we have the data on the teacher level and 
require the principals to use that, whether or not that would 
solve the problem that you have addressed on making sure each 
teacher can do his or her particular job?
    Chairman Miller. Mr. Payne?
    Mr. Payne. Just quickly, Ms. Brown, being a former teacher, 
I wonder whether as you saw and noticed the improvement in the 
students' achievement, although they may have been moving on to 
other grades, did you find any difference in the attitude of 
the parents? Did they seem to catch on and feel that this is a 
kind of a winning thing or someone cares or that kind of thing?
    As we know, in low-income areas, people are beaten down, 
they are tired, things are going wrong, they are not making it; 
and so you don't have the spirit that you have in places where 
people are not so beaten down. I am wondering if you noticed 
any change in the esprit de corps of the people.
    Ms. Brown. Yes, parents, along with staff, are very 
encouraging. They send students to school knowing that they are 
sending the students to highly qualified, highly skilled 
teachers; and although they may not able to do what is 
necessary at the home, they are assured that we are doing 
everything possible at school to assure that their children--
the learning gap is being bridged.
    It doesn't matter. They don't have to take the kids to 
another district; everything they need is right here. I think 
they are satisfied and very pleased with what we have been 
doing so far.
    Chairman Miller. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Chairman Miller. I am sorry, let me go to the other side, 
are there any questions?
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to compliment 
each one of the panelists, because you make some very good 
points, and I am going to limit my remarks to the first lady, 
Germaine Brown, in that I was impressed that 90 percent of your 
students are on the free lunch program and I think that you 
have killed that myth that children from low-income families 
cannot learn and that you all have made so much improvement in 
2 or 3 years.
    So that leads me to a point that Mr. Podesta made in his 
remarks, and that was that we should look very closely at 
Graduation Promise Act if we are going to address the poor 
graduation rate that we have of 75 percent for about 30 years, 
and Hispanic and African American children only graduating at 
about 50 percent.
    But you said something that is being used in a few schools 
in my district, similar to yours, Ms. Brown; and they are 80 
percent Hispanic, very many from migrant families, seasonal 
farm workers. This is a magnet school for allied health and 
another magnet school for math and science and they went to a 
slightly longer day of 1\1/2\ hours per day. Number 2, they 
just couldn't get the permission from Texas Education Agency to 
add 3 or 4, maybe 6, 7 more days of school to the calendar.
    I think that should certainly be discussed because we are 
getting exceptional results in these schools in South Texas 
ISD. Two of them are in the top 100 best schools in the 
country, and they have a very rigorous academic program and the 
other factors that I pointed out.
    So I just would like for you to consider that, Mr. 
Chairman.
    Chairman Miller. Thank you.
    Anyone else on the top row?
    Mr. Tierney.
    Mr. Tierney. This is tough trying to keep it to one, I will 
tell you that. I will try to sneak in two.
    Jack, I will ask you, on the assessments, do you think that 
this draft bill does enough to resolve the disparity in State 
standards by simply having a pilot program in a National 
Academy of Science study, or ought we do more at this point in 
time about people having to tie those tests to some national 
standard or at least to a regional standard?
    The second question, are we being fair to young students at 
the third grade testing level to give them a high-stakes test 
on lessons until schools giving that test have done more for 
preschool education with respect to making sure that those 
students being tested have actually had a fair shot and a fair 
beginning?
    Mr. Jennings. Congressman, it is a lengthy bill, but as I 
read your bill, you do not move in the direction of national 
standards or encouraging increases in State standards except 
through the first provision that talks about development of 
world class standards and some incentive programs. You are in a 
real dilemma that--you have an endless number of dilemmas. You 
are trying to thread a needle here where you are tying to bring 
some flexibility while maintaining accountability.
    If I had my druthers, I would go more towards trying to 
raise State standards, if possible, through cash incentive 
programs and so on, because you have such disparity among the 
States. But every time you go in that direction you will be 
accused of nationalizing education and trying to bring about 
more uniformity than is necessary among the States. But I think 
it is time to take some steps in the direction of encouraging 
States to have higher standards.
    There are some States now that have very high passage rates 
on their State tests, and by any other indication, they 
shouldn't have those passage rates because they have set their 
cutoff scores so low and they have tests that aren't very 
demanding. So a little encouragement to raise standards would 
be useful.
    The question about third graders, as you know, the area of 
early testing is very controversial, and one thing that--
education research isn't very clear on many things. One thing 
it is clear on is the value of early preschool education, if it 
is of high quality, and especially for poor children. If there 
is one place to give an extra emphasis, I think it would be to 
try to increase early childhood education, especially for poor 
children.
    Mr. Tierney. Is it making sense for us to take the money 
spent on testing those third graders and realign it to have 
better early childhood education?
    Mr. Jennings. That is a dilemma. I don't think you would 
find that much money actually spent on testing because the 
development of tests in dollar administration of tests really 
isn't enormously costly. But you should find much more money 
for preschool education; and this is very expensive, but 
something that ought to be done.
    Chairman Miller. Thank you.
    Anyone in the second row?
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    One comment. I think Mr. Podesta's point about poverty as a 
criteria for distribution is an excellent point.
    Mr. Stark, explicit in the goals of No Child Left Behind is 
closing the achievement gap and doing something about improving 
the graduation rate, particularly among students of color and 
poor kids. Toward that end, how important is it for us in this 
legislation--beyond the message or symbolism, but in concrete 
terms--to talk about or do something about turning around our 
lowest performing middle schools at the same time and meeting 
those goals of closing the achievement gap and increasing 
graduation?
    Mr. Stark. Congressman, I think it is critical, and if you 
hold the high schools as the end, you have eliminated the 
opportunity to work with students at the elementary and middle 
level. So I think I totally agree with Mr. Jennings. Preschool 
education, the earlier we can intervene and provide assistance 
for students, all students, the logic would be that you would 
see less need for interventions at the higher level.
    So closing the achievement gap at any level is absolutely 
critical, but in my judgment, the earlier you can start those 
interventions, the higher the graduation rates, the more 
success you will see as students progress.
    Chairman Miller. Thank you.
    Ms. Davis.
    Mrs. Davis of California. Thank you, panel.
    Ms. Messina, you mentioned the deadline for proficiency in 
3 years. Then what?
    Ms. Messina. It would be identified, whether the school 
made AYP. We are asking that you include the figures, but have 
a deadline so that we know there is a drop-dead date; 
otherwise, students could always make progress, but never be 
proficient. I don't think we want to graduate students saying 
that they are not proficient, and we have tried for 12 years.
    So we would then----
    Mrs. Davis of California. Would you change the 
``punishments'' for the schools? Do you have a different sense 
of what do you do after that? If they don't make it, then what? 
What is the best way that one can drive that so you move 
towards a different----
    Ms. Messina. Targeted restructuring of the schools.
    Mrs. Davis of California. Similar to No Child Left Behind?
    Ms. Messina. Yes, ma'am.
    Mrs. Davis of California. Did No Child Left Behind drive 
the Teacher Advancement Program or was there something else 
going on that created the incentive for that program?
    Ms. Brown. No. When we were considered a status of double 
F, that was the driving force to find out what we needed to do 
to improve our student achievement. Other than the status of F 
being assigned to our school, that was our driving force, not 
being singled out as a failing school.
    We knew our students were not failing. We needed to prove 
that.
    Chairman Miller. Thank you. Next row.
    Mr. Hare or Mr. Yarmuth? Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you, Mr. Chairman. My question is to 
Dr. Darling-Hammond.
    I was very interested in what you were saying about how 
other countries are doing in comparison to the United States 
and you wanted multiple measurements. Are we teaching the wrong 
stuff? In other words, we can administer these tests which--I 
have a lot of problems with constant testing, but is the 
material wrong? Could you address that, please?
    Ms. Darling-Hammond. To some extent, yes. If you look at 
the standards in other countries that are high achieving, there 
are very few topics taught and tested at each grade level, and 
they are very carefully sequenced.
    If you look at the standards in most of our States, 
everything is being taught every year, there are 35 standards 
or topics being taught. There might be 3 or 4 math topics 
taught in Japan in a given year; we are doing 30, we do it 
superficially rather than deeply.
    That is reinforced by the testing in many cases, which 
tests too many things, forces a superficial mile-wide, inch-
deep curriculum. Our testing system is primarily focused on 
multiple choice tests, which are recognizing one answer out of 
five on a piece of paper.
    I don't go to the office in the morning, answer my multiple 
choice questions and go home. The skills I need are skills of 
thinking, gathering information, analyzing, synthesizing, 
producing work. Those skills are actually assessed in other 
countries, both in the centralized assessments and local 
assessments that teachers use to drive the curriculum. Kids are 
writing much more extensively in other countries. They are 
studying science in an investigatory way. They are doing hands-
on work with computer programming. And our kids are bumbling in 
multiple choice questions.
    We have to be concerned while we are driving our 
improvement process with standards that we get the right 
standards, that we do them in the right way, that we assess 
them in ways that produce skills used in college and in the 
workplace.
    Ms. Shea-Porter. I do believe we are denying teachers the 
opportunity to teach what they know, all their wealth, all 
their experience and all their knowledge, because of these 
tests.
    Ms. Darling-Hammond. When they are involved in the 
assessments, they learn more about how to teach and what their 
kids know and how to meet the standard. That is an important 
piece.
    Chairman Miller. Let me thank the panel very much not just 
for your testimony today, but as I have been saying over the 
last several weeks--Mr. McKeon and I have both been saying--so 
many organizations spent a lot of resources, applied a lot of 
talent and expertise to looking at this law over the last 5 
years, and intensely over the last year, and it has really been 
helpful to the members of the committee as we consider its 
reauthorization.
    I want to thank each of you for your involvement--Ms. 
Brown, for your experience-based research that is helpful to 
us. And, Mr. Stark, with so many of your members and their 
experiences that you brought to bear on this process. Thank you 
very much. We look forward to continuing this conversation as 
we move toward the reauthorization.
    Our next panel will be made up of Mr. Billy Cannaday, Jr., 
who was appointed recently to a 4-year term as Superintendent 
of Public Instruction by Virginia Commonwealth Governor Tim 
Kaine. Prior to his appointment, Mr. Cannaday served as 
Superintendent in two of the Commonwealth's largest school 
divisions.
    Former Governor Bob Wise is joining us, who became 
President of the Alliance For Excellent Education in February 
of 2001; and under his leadership, the Alliance has continued 
to build a reputation as a respected authority for high school 
policy and an advocate for reform in that secondary system. It 
goes without saying as a colleague in the Congress of the 
United States, and former governor of West Virginia.
    Adria Steinberg leads Jobs for the Future's work on 
expanding and improving educational options and outcomes for 
large groups of young people who are struggling in the State to 
get back on the road of productive adulthood.
    James McPartland is the Director of the Center for Social 
Organization of Schools at the Johns Hopkins University.
    Brian Gong is the Executive Director of the Center of 
Assessments. He has previously served as Associate Commissioner 
of Curriculum Assessment and Accountability in the Kentucky 
Department of Education.
    Michael Cohen, a nationally recognized leader in education 
policy and standards-based reform, has been the president of 
Achieve since 2003.
    And Janet Bray is the Executive Director of the Association 
for Career and Technical Education.
    Thank you so much for joining us and thank you for the help 
and assistance you have provided the committee in the past. 
Again, we will accept your testimony in the regular 5-minute 
order here.
    There will be a green light, Mr. Cannaday, when you begin, 
a yellow light when you have about a minute left, and a red 
light when we would like you to finish. But we want to make 
sure that you are able to complete your thoughts and convey 
your suggestions to the committee. Welcome.
    If we can ask people at the door, in or out, one or the 
other. Thank you.
    Thank you very much. Mr. Cannaday, we will begin with you.

     STATEMENT OF BILLY CANNADAY, SUPERINTENDENT OF PUBLIC 
             INSTRUCTION, COMMONWEALTH OF VIRGINIA

    Mr. Cannaday. Thank you, Chairman Miller, Ranking Member 
McKeon and other members of the committee. Thank you for 
providing me with an opportunity today to speak to you really 
from several perspectives--one, that of being the State 
Superintendent of Public Instruction; the other, as being a 
practicing superintendent for about 12 years, also a CCSSO 
member, but I think more importantly, what Virginia has learned 
over the last 12 years of its reform effort that deals with 
accountability.
    I would like to thank you for the attention you are giving 
to the whole notion of a sense of urgency to address this law, 
to make certain that we are accountable to all children. And 
more importantly, we can learn from the lessons over the last 5 
years how to make improvements.
    I would like to guide my comments in two areas, one being 
innovation and the other accountability. Particularly dealing 
with the college and workforce readiness issue, I am glad you 
have given attention to strengthening high schools, as we have 
done in Virginia. As a matter of fact, we are working with the 
America Diploma Project College Board, as well as ACT, to 
establish college and workplace readiness standards.
    More specifically, the governor and general assembly this 
past session passed bills that will actually guide, direct the 
department of education and State board to develop two new 
diplomas, a technical and an advanced technical diploma, both 
of which are designed to be more rigorous than a standard 
diploma, to deal with the whole issue of college and workplace 
readiness.
    I would like to give attention to the issue of innovation 
with dealing with differentiated consequences. I am very 
pleased, as both the State Superintendent of Public Instruction 
and a CCSSO member, that you are giving attention particularly 
to how do you treat school divisions that demonstrate a 
commitment to all children making exceptional progress and 
treating them differently than schools that have a recurring 
history of low performance. We do believe one-size-fits-all is 
not the remedy and are pleased in the direction you are moving.
    The other area deals with--under the notion of innovation 
is increased flexibility. We all understand that in order to 
innovate it must be timely response to an identified need. We 
are clear, a 5-year cycle certainly does not encourage 
innovation, but we are glad that you have seen to develop a 
different kind of partnership between States and the Federal 
Government about how to innovate to be responsive and more 
timely.
    In the area of accountability, it is very clear that you 
are seeking to redefine what the relationship should be between 
the State and Federal Government. In the 10 years, 12 years, of 
Virginia's reform effort, we started with high expectations in 
the mid-1990s, well before No Child Left Behind, we have 
transcended four governors, two Republican, two Democrat. Still 
the effort has sustained itself. As a matter of fact, over one-
third of the superintendents that started the process are no 
longer there, and we replaced that number by a third.
    The real issue is that we have learned something about not 
only how to innovate, but how to be held accountable. We 
believe that a partnership between State and Federal Government 
should be one that speaks of being real tight on expectations 
and on metrics to define progress in meeting those 
expectations, but also giving some differentiated flexibility. 
Where States and local schools have demonstrated ability to 
respond to these high expectations, they need to have greater 
flexibility about how to get there and to move ahead and to 
innovate.
    Again, I hope that our efforts today will assist you in 
your deliberate process to assure that the law is more 
responsive, that it does spur innovation, and certainly, it 
does maintain the important features of the law that deal with 
accountability for learning for all children at very high 
levels.
    Chairman Miller. Thank you.
    [The statement of Mr. Cannaday follows:]

Prepared Statement of Dr. Billy Cannaday, Jr., Superintendent of Public 
             Instruction, Virginia Department of Education

    Chairman Miller, Ranking Member McKeon and members of the 
committee, thank you for this opportunity to testify today regarding 
college and work readiness and the reauthorization of the Elementary 
and Secondary Education Act. I am testifying on behalf of the Council 
of Chief State School Officers and in my capacity as the Superintendent 
of Public Instruction in Virginia.
    First, thank you for using reauthorization as an opportunity to 
place a greater emphasis on strengthening the nation's high schools, 
including providing new incentives for states to align standards with 
college and work readiness. States are leading the effort to align high 
school with the knowledge and skills our young people will need to 
succeed in the global economy, and we welcome your support in this 
important area.
    In Virginia, for example, we are working with the American Diploma 
Project, the College Board, and ACT to align our standards with 
college- and work-readiness expectations. Additionally, the State Board 
is in the process of developing two new diplomas--a technical diploma 
and an advanced technical diploma--to increase rigor and better prepare 
young people--and the commonwealth--to compete for the technical jobs 
of the 21st-century global economy.
    Strong support for these diplomas from Virginia Governor Tim Kaine, 
the Virginia General Assembly, and our business community reflects the 
commonwealth's commitment to strengthening high schools, improving 
post-graduation opportunities for students, and responding to the needs 
of our communities.
    This work is a clear example of state efforts to raise the bar, and 
it is an example of the kind of innovation and judgment that the new 
ESEA must permit and encourage in all areas.
    As you know, the nation's education system has changed dramatically 
since passage of No Child Left Behind. Every state has worked to lay 
the foundations for standards-based reform, including systems of 
accountability, data-reporting mechanisms, and standards for teacher 
competence and quality. In Virginia and in many other states, this 
effort began well before President Bush signed NCLB into law.
    This transformation in our public education system has not come 
easily, and we must continue to press steadily ahead. Much work remains 
to be done before we can declare victory. Implementing the next 
generation of standards-based reforms will require an equal or greater 
commitment of resources, time, and human capital.
    As state leaders, we want you to know that the scale of our success 
will depend on our ability to work with you in partnership to 
fundamentally reform federal education policy.
    The revised ESEA must acknowledge the know-how, commitment, and 
judgment of successful educators at the state and local levels, 
especially those in states that have already significantly raised 
student achievement.
    Congress rightfully jump-started the education reform process five 
years ago, but NCLB's framework is now outdated and in some cases is 
hindering, instead of supporting, educational innovation both at the 
secondary and primary levels.
    The revised ESEA must not only provide new support for promoting 
alignment, strengthening accountability, and enhancing dropout 
prevention; it must also: (1) spur continuous state and local 
innovation; (2) facilitate increased state capacity; and (3) provide 
greater resources for ensuring that every child in America receives a 
high-quality education.
    Achieving these objectives for high schools, middle schools and 
elementary schools will require a new state-federal partnership--one 
that encourages innovative strategies for improving student achievement 
and closing achievement gaps. Congress should set a floor, not a 
ceiling, for state education policy, and then empower state and local 
educational agencies to produce results on behalf of all children by 
developing innovative solutions to challenging educational and social 
issues, such as closing the achievement gap and boosting graduation 
rates.
    We agree that the law should be reauthorized, because there is no 
time to waste and no margin for error in our quest to prepare all kids 
to succeed when they leave our care. But before completing 
reauthorization, we must ensure that we are getting the law right by 
avoiding the notion that a single formula for success can be codified 
in federal law for every local and state context.
    Achieving our shared education goals will require that we make room 
for sound education judgment and encourage continuous improvement 
across the states. Providing flexibility for such innovation across the 
law, tied to a re-invented peer review process, will help move us 
toward reauthorization and build on the foundations of NCLB without 
sacrificing meaningful accountability.
    In this city there are interest groups and think tanks that believe 
that latitude for state and local innovation is incompatible with real 
accountability. I'm here today to say that that notion is dead wrong. 
Creative, experienced educators do not fear accountability--they 
welcome it. All that we ask is for the freedom to move forward with 
innovative, peer reviewed strategies without being strangled for months 
or years by a rigid one-size-fits-all structure dictated from 
Washington.
    Reauthorization offers an opportunity to return children to the 
center of our efforts to reform and improve public education. 
Discussions between state and federal officials over specific testing 
policies and other details of reform should focus on the best interests 
of the students in question and not become a test of wills.
    States need flexibility as they tackle difficult issues, such as 
how best to include non-English speaking children in state 
accountability systems. States that have led the way in raising student 
achievement through standards-based reform should at least get the 
benefit of the doubt when questions arise about specific aspects of 
implementation.
    If we get reauthorization right, ESEA will spur innovation and 
spread promising practices, and American education will have made a 
major difference for millions of kids five years from now. If we get it 
wrong, state and local decision makers may spend years trying to sort 
out how to implement prescriptive federal requirements that may make 
sense in some contexts and fail miserably in others.
    We appreciate this opportunity to testify, and want to commend you 
for seeking to remedy many key issues in your discussion draft. The 
draft language addresses a number of critical areas for improvement, 
such as differentiating consequences, implementing growth models, and 
using multiple measures. These issues are vital to strengthening the 
framework of the law, and helping state and local educators focus on 
the students who need the most support.
    I also want to thank you for incorporating several of the important 
recommendations offered by CCSSO and other state education 
organizations. We agree, however, that the language is a work in 
progress, and believe some provisions of the draft are too 
prescriptive. We look forward to continuing our collaborative dialogue 
with you in order to address these and other challenges as the 
reauthorization process continues.
                                 ______
                                 

 STATEMENT OF HON. BOB WISE, PRESIDENT, ALLIANCE FOR EXCELLENT 
                           EDUCATION

    Mr. Wise. This gives me a chance to do my mea culpa before 
this committee. When I was governor several years ago, I was 
one of the ones seriously considering filing suit to enjoin the 
implementation of NCLB. And, quite frankly, I was wrong, and I 
am glad I didn't go forward because I began to see over time 
the importance of NCLB, particularly in putting a spotlight on 
the startling achievement gaps that were there and also the 
ability to provide all children, including poor and minority 
children, with access to a high-quality education.
    That is why I greatly also appreciate this committee draft, 
because there have been real efforts made here to address some 
of the concerns and also to improve the bill.
    I am particularly appreciative of what the committee has 
done in the area of high school reform to address the 
shortcomings and to assist high schools, which are the jumping-
off spot for college or the workplace. The high schools aren't 
effectively covered in the existing NCLB; graduation rates are 
not an effective measurement of AYP; additionally, since Title 
I is the carrot and the stick for NCLB, but only 8 percent of 
high school students are covered by Title I. Effectively, high 
school students are not covered by this bill.
    This committee draft addresses many of those concerns. You 
know the statistics, only 70 percent of students will graduate 
on time with a regular diploma. We know that even fewer 
graduate college ready for the modern workplace. We know that 
70 percent of eighth graders are reading below grade level 
according to NAEP. We know these numbers are far worse for 
children that are poor and children that are of color.
    We are pleased that this draft is built off the work of 
best-practice research. And some of the bills are already 
introduced by members of this committee. This draft takes a 
huge step forward for high school reform at the Federal level.
    In terms of improving high school, high school 
accountability must be tied to support for high school 
improvement. This draft recognizes that high school improvement 
is not a one-size-fits-all process that can be addressed with 
only a couple of mandated strategies. The draft builds off 
Representative Hinojosa's Graduation Promise Act to provide a 
more thoughtful approach to high school improvement and 
authorizes a new Graduation Promise Fund to support those 
efforts targeted to the lowest-performing high school.
    In our submitted comments, we do provide detailed 
recommendations on strengthening the school improvement process 
to better reflect what is known about high school turnaround, 
including strengthening the turnaround time line, improving the 
high school reform language, using interim indicators, 
tightening the redesign options and strengthening the State 
role.
    We also would urge creating a separate fund to turn around 
low-performing middle schools, such as in Representative 
Grijalva's bill. For college and work readiness, while NCLB set 
the goal of all students being proficient by 2014, ultimately 
the currently used State test for many of those tests often 
measures only 10th grade proficiency.
    What this draft does--and we applaud the committee for it--
is to make a clear statement that college and work readiness is 
the goal to which everything else should be aligned.
    However, we believe that a common set of standards and 
assessments would provide significant benefits in terms of 
equity, efficiency and educational outcomes. And we look 
forward to working with you to strengthen the incentives for 
States that choose to work together voluntarily to establish 
and adopt common standards and high-quality assessments aligned 
with the first 21st century's skills and knowledge.
    Graduation rates are critical to this process. Under 
current law, they are not defined consistently nor 
disaggregated by subgroup or required to improve significantly 
over time, like test scores. It is like we run our kids a mile 
race, we access them rigorously at every tenth of a mile, they 
get ready to cross the finish line and we toss the cards up in 
the air; we are not keeping track anymore. The best example of 
this is that in terms of the dropout factors that have been so 
much talked about, almost 40 percent of those actually make 
AYP.
    We are very pleased that the draft builds off of 
Representative Scott's Every Student Counts Act to clearly 
define a common graduation rate and require meaningful 
increases in the rates of accountability.
    Data systems: We are very appreciative of what the 
committee has done to focus on data to improve decision-making 
through the draft, as well as the support for building and 
using statewide longitudinal data systems.
    For multiple measures, we are concerned that the use of 
multiple measures--and we understand the committee is looking 
at this very deeply and seriously--contemplated that the draft 
might cloud AYP with indicators that are less uniform, 
objective and measurable. We would encourage the committee to 
look at the type of multiple measures and be also a little bit 
wary of college enrollment information, dropout rates versus 
graduation rates, two different things, and end-of-course 
testing, which can be vulnerable to inaccuracies. We would 
suggest creating a pilot program to explore learning further 
about multiple measures from the efforts of States prepared to 
design such a system.
    We also want to thank the committee for including in its 
draft the Striving Readers legislation, which I believe 
Representatives Yarmuth and Platts have introduced, once again 
recognizing that 70 percent of our eighth graders are not 
reading at grade level when they enter high school.
    We want to thank the committee very, very much for what it 
has done in improving high schools and recognizing the 
significant needs of high school students. This is a continuum 
from pre-K all the way through grade 12 and into higher 
education.
    High schools are a vital part of it--they have not been 
before--and what you will do is make sure that no child is left 
behind, but you will work to make every child a graduate.
    Chairman Miller. Thank you.
    [The statement of Mr. Wise follows:]

Prepared Statement of Hon. Bob Wise, President, Alliance for Excellent 
                               Education

    <bullet> Thank you for inviting me to share our thoughts on this 
Discussion Draft to reauthorize Title I of the No Child Left Behind 
Act.
    <bullet> I admit that as Governor, I seriously considered suing to 
enjoin the law. I didn't end up doing so, and over time, I have learned 
that it would have been a mistake to resist a law that despite all its 
flaws, was intended to put a spotlight on the startling achievement 
gaps and provide all children, including poor and minority children, 
with access to a high-quality education.
    <bullet> Ironically, I've come to appreciate the values behind 
NCLB, at the same time that I've learned that it doesn't do much to 
address what is a significant crisis in this country--the millions of 
students who are leaving our high schools, with or without a diploma, 
unprepared for their future.
    <bullet> We know that only 70 percent of all students graduate on 
time with a regular diploma four years later. We know that even fewer 
graduate college-ready. And we know that these numbers are far worse 
for poor and minority children.
    <bullet> We also know that the failure to graduate from high school 
college- and work-ready has consequences for those students, their 
communities, and our economy.
    <bullet> That is why, for the moral, civil rights, educational, and 
economic reasons, my organization, is dedicated to the mission of 
helping make every child a graduate prepared for success in the 21st 
century.
    <bullet> NCLB was basically designed to address grades K-8. As a 
result, it is often neglectful of or even at odds with what is known 
about low-performing high schools.
    <bullet> We are pleased that this Draft has built off the work of 
best practice, research, and some of the bills already introduced by 
Members of this Committee, to take a huge step forward for high school 
reform at the federal level.
    <bullet> It provides thoughtful approaches to aligning the goals of 
high school graduation with college and work readiness, more accurately 
identifying low-performing high schools and providing for both 
accountability and support to turn them around.
    Specifically:
High school improvement
    <bullet> NCLB: High school accountability must be tied to support 
for high school improvement. Unfortunately, NCLB's improvement 
strategies are only triggered by Title I funds and so few high schools 
receive those funds. Also, the required actions under NCLB--school 
choice and supplemental education services (SES)--do not work to 
improve high schools for a variety of reasons.
    <bullet> DRAFT: We are pleased to see the Draft recognize that high 
school improvement is not a one-size-fits all process that can be 
addressed with those two mandated strategies. The Draft builds off of 
Rep. Hinojosa's Graduation Promise Act to provide a more thoughtful 
approach to high school improvement and authorizes a new Graduation 
Promise Fund to support those efforts targeted to the lowest performing 
high schools.
    <bullet> TO IMPROVE: Our submitted comments provide detailed 
recommendations on how to strengthen the school improvement process to 
better reflect what is known about high school turnaround, including:
    <bullet> Strengthening the turnaround timeline, improving the whole 
school reform language, and tightening the redesign options.
    <bullet> Allowing districts to use Graduation Promise funding for 
systemic high school strategies in addition to whole school reform.
    <bullet> Providing more ``checks and balances'' for high school 
improvement at the state level by using state-developed interim 
indicators in addition to AYP to inform the school improvement process; 
and
    <bullet> Allowing use of high school SES funds for dropout 
prevention and recovery activities.
    <bullet> Creating a separate fund to turn around low performing 
middle schools by including Rep. Grijalva's bill.
College and work readiness
    <bullet> NCLB: NCLB set the goal of all students proficient by 
2014, and requires annual improvement toward that goal. Unfortunately, 
the currently-used state tests often measure 10th grade proficiency, 
not college- and work-readiness. And the failure to include ``college- 
and work-ready graduation'' as an accompanying goal created many 
perverse incentives.
    <bullet> DRAFT: We applaud the committee for the clear statement in 
this Draft that college and work readiness is the goal to which 
everything else should be aligned.
    <bullet> IMPROVE: However we believe that a common set of standards 
and assessments would provide significant benefits in terms of equity, 
efficiency, and educational outcomes. We look forward to working with 
you to strengthen the incentives for states that choose to work 
together to establish and adopt common standards and high quality 
assessments aligned to 21st century skills and knowledge.
Measuring graduation rates
    <bullet> NCLB: Under current law, graduation rates are not defined 
consistently, disaggregated by subgroup, or required to improve 
significantly over time in the same that test scores are. It's as if we 
are clocking runners in a race every mile but then do not pay attention 
to whether or not they cross the finish line. As a result, AYP is 
undermined as a useful tool for holding high schools accountable for 
improving student outcomes and identifying high schools that need 
assistance. The best example of this is the high percentage of dropout 
factories that actually make AYP.
    <bullet> DRAFT: We were very pleased that this Draft builds off of 
Representative Scott's Every Student Counts Act, to clearly define a 
common graduation rate and require meaningful increases in those rates 
in the accountability system for high schools. These shifts are 
critical to making AYP a more accurate measure of high school 
performance and tool for identifying low-performing high schools.
    <bullet> TO IMPROVE: However, the Draft would allow states to 
propose alternate ways for graduation rates to be used as part of AYP. 
We are concerned that this would undermine the Draft's otherwise clear 
and comparable approach that requires aggressive, attainable 
improvement.
Other issues:
    <bullet> Data Systems: We applaud the committee for focusing on 
using data to inform decisionmaking throughout the Draft, as well as 
the support for building and using statewide longitudinal data systems. 
Good data and data systems are critical to many of the other 
requirements of the Draft. We've submitted comments to improve some 
provisions in the Draft related to student privacy that restrict the 
use of data beyond current policies, and move in the opposite direction 
of where we want to go.
    <bullet> Multiple Measures: We are concerned that the use of 
multiple measures of high school performance contemplated in the Draft 
might cloud AYP with indicators that are less uniform, objective and 
measurable.
    <bullet> First, some of the indicators permitted in the Draft as 
part of AYP (including college enrollment information, dropout rates, 
and end-of-course testing) are vulnerable to inaccuracies and gaming. 
Given the lack of information and understanding about what a highly-
accurate multiple measures accountability system would look like, we 
suggest creating a pilot program to allow us to learn from the efforts 
of states that are prepared to design such a system, before expanding 
the option to every state.
    <bullet> Second, the ``multiple measures'' option would provide 
``extra'' points towards the proficiency category by showing graduation 
rate gains. This might encourage schools to graduate unprepared 
students. Instead, graduation rates and proficiency on a college- and 
work ready assessment should be weighted equally to provide balanced 
incentives for raising test scores and graduation rates.
Conclusion
    <bullet> Thank you again for creating such an open process and 
providing this opportunity to comment on the Draft.
    <bullet> As a former member of Congress, I certainly appreciate the 
process in front of you as you attempt to reauthorize NCLB. Like most 
laws--the devil is in the details, there are adamant advocates on 
opposing sides of many issues; you and your staff are doing an 
incredible job of moving this forward.
    <bullet> This Draft is a promising first step toward a 
reauthorization that has the opportunity to leverage powerful and 
necessary change in our nation's high schools.
    <bullet> We look forward to continuing to work with you to ensure 
that this reauthorization helps to move us all from ``no child left 
behind'' to ``every child a graduate.''
                                 ______
                                 
    Chairman Miller. Ms. Steinberg.

STATEMENT OF ADRIA STEINBERG, ASSOCIATE VICE PRESIDENT OF YOUTH 
                TRANSITION, JOBS FOR THE FUTURE

    Ms. Steinberg. Thank you for the opportunity to testify 
today, and more importantly, thank you for providing us with a 
bipartisan discussion draft that puts the secondary back in the 
center of the Elementary and Secondary Education Act. There is 
no more critical goal than increasing the percentage of young 
people who graduate from high school while ensuring that these 
graduates are ready for college and careers.
    My name is Adria Steinberg, and I am part of the idealistic 
generation that entered education as an extension of our work 
on civil rights just after the first ESEA was passed. As 
Associate Vice President of Jobs for the Future, my work 
focuses on fixing leaks in the educational pipeline, especially 
for low-income, African American and Hispanic students. Far too 
many of these students attend high schools where graduation is 
barely the norm and where academic offerings are spotty at 
best. And far too few of them ever reach their dream of obtain 
a postsecondary credential that will lead to satisfying and 
family-supporting careers.
    From our work at Jobs for the Future we see States, 
districts and communities facing three key challenges. And 
sealing leaks in the pipeline we call these ``the three I's''--
the invisibility challenge, the invention challenge and the 
infrastructure challenge. The good news is the discussion draft 
goes a long way towards addressing all three. I will speak 
briefly to each challenge and offer a few suggestions as well. 
We found that school districts and communities try to be 
systemic in connecting or reconnecting young people to high-
quality pathways graduation and postsecondary advancement.
    The first challenge that must be addressed is the 
invisibility of the graduation crisis. The most common methods 
of calculating graduation and dropout rates have long masked 
the true magnitude of the problem. We now know that, 
nationally, 30 percent are not graduating high school on time 
or at all and how much worse it is in low-income communities.
    Requiring, as the draft does, that all States use a common 
measure based on an adjusted cohort graduation rate and giving 
graduation rates more equal footing with academic measures in 
high school accountability will help ensure that all students 
are counted and accounted for. This will go a long way towards 
focusing attention on the true extent of the dropout crisis and 
on the large number of young people who are overage for grade 
and not on track to graduate from high school. We applaud the 
draft for that.
    The second major challenge we help districts, communities 
and States grapple with is what we call the invention 
challenge, low-performing high schools that lose almost as many 
students as they graduate. Educators are realizing that 
traditional ways of doing business will not suffice. There is a 
need for new models of secondary schooling that use evidence-
based approaches to help young people reengage with school, 
build their skills, earn a diploma and advance to postsecondary 
education and careers.
    The discussion draft addresses this challenge up front by 
setting up the Graduation Promise Fund to support the 
turnaround and reinvention of low-performing high schools. And 
by including in this provision a set-aside to build the 
capacity of nonprofit entities, to develop, replicate and scale 
up effective models for struggling students and returning 
dropouts.
    The policy makers and practitioners with whom we work would 
like nothing better than to import or adapt excellent models 
such as Talent Development, early college high school, 
YouthBuild and many, many others, and to work with nonprofit 
entities on the development of more such models.
    We would like to make two recommendations as to how the 
draft would be strengthened to have more of an impact on the 
invention challenges in the field. First, we suggest that 
supporting scale-up of existing models and creation of new 
models is so important that the set-aside should be required 
rather than at the Secretary's discretion, and that 5 percent 
of the Promise Fund be set aside for this purpose.
    Second, the invention challenges are such that it will take 
State and local partnerships to address them. In the current 
draft, the balance of authority for school improvement rests 
with the district. We would hope for language that lays our 
strategy where States and districts are expected to collaborate 
and serve as checks and balances for each other in an effort to 
turn around the high-priority high schools.
    The third and final challenge is the infrastructure 
challenge. Schools and districts need State policy to support 
them and the hard work of turnaround, reinvention and model 
design. Policy, in other words, needs to keep pace with 
innovative programming and what is now known about what works.
    The discussion draft breaks new ground by including 
incentives for States to design and implement policies in a 
strategic way to both build infrastructure and create operating 
conditions to support turnaround of high-priority high schools 
and allow new models to flourish. This strong support of State 
innovation is a refreshing addition to Part H on Dropout 
Prevention, and we hope it will be supported by appropriations 
beyond what has gone into Part H in the past. State innovation 
is critical to dropout prevention and to the ambitious goal of 
significantly raising college-ready graduation rates even in 
our most challenged school districts and schools.
    Thank you again. I look forward to further discussion with 
you.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Steinberg follows:]

 Prepared Statement of Adria Steinberg, Associate Vice President, Jobs 
                             for the Future

    I want to thank Chairman Miller, Congressman McKeon, and the other 
distinguished members of the Committee for the opportunity to testify 
today on the discussion draft of the Reauthorization of the Elementary 
and Secondary Education Act. More importantly, thank you for providing 
us with a draft that puts the ``secondary'' back in the Elementary and 
Secondary Act.
    There is no more critical goal than increasing the number of young 
people who graduate from high school and ensuring that these graduates 
are ready for college and careers.
    My name is Adria Steinberg and I have spent the last 40 years 
working in and on high schools. As Associate Vice President of Jobs for 
the Future, my work focuses on fixing leaks in the educational 
pipeline, especially for low-income, African American and Hispanic 
students. Far too many of these students attend high schools where 
graduation is barely the norm and where academic offerings are spotty 
at best. And far too few of them ever reach their dream of obtaining a 
post-secondary credential that will lead to satisfying and family-
supporting careers.
Addressing the Invisibility, Invention, and Infrastructure Challenges
    From our work at Jobs for the Future, we see districts and 
communities facing three key challenges in sealing leaks in the 
pipeline. We call these the invisibility challenge, the invention 
challenge, and the infrastructure challenge. The great news is that the 
discussion draft goes a long way toward addressing all three of these 
major challenges. And, of course, we have a few suggestions.
    We have found that as school districts and communities try to be 
systemic and strategic in connecting or reconnecting young people to 
high quality pathways to high school graduation and post-secondary 
advancement, the first challenge that must be addressed is the 
invisibility of the graduation rate crisis. The most common methods of 
calculating graduation and dropout rates long masked the true magnitude 
of the problem. We now know that nationally 30% of our young people are 
not graduating from high school on time or at all. In low-income 
communities the rate drops to 40-50%.
    Requiring, as the draft does, that all states use a common measure 
based on an adjusted cohort graduation rate and giving graduation rates 
equal footing with academic measures in high school accountability will 
ensure that all students are counted and accounted for. This will go a 
long way towards focusing attention on the true extent of the dropout 
crisis and on the large number of young people who are over-age for 
grade and not on track to graduate from high school. We applaud the 
draft for that.
    The second major challenge we have helped districts, communities, 
and states grapple with is what we call the invention challenge. In 
tackling the problem of low-performing high schools, of ``dropout 
factory'' high schools that lose almost as many students as they 
graduate, educators are realizing that traditional ways of doing 
business will not suffice. There is a need for new models of secondary 
schooling that use evidence-based approaches to help young people to 
reengage with school, build their skills, earn a diploma and advance to 
post-secondary education and careers.
    The discussion draft addresses this challenge up front--by setting 
up the Graduation Promise Fund to support the turn-around and 
reinvention of low-performing high schools, and by including in this 
provision a set-aside to build the capacity of non-profit entities to 
develop or replicate and scale up effective school models for 
struggling students and returning dropouts.
    Policymakers and practitioners with whom we work would like nothing 
better than to import or adapt excellent models such as: Talent 
Development, KIPP, early college high school, the transfer school and 
Young Adult Borough Centers in NYC, YouthBuild, Performance Learning 
Centers, or many others, and to work with nonprofit entities on the 
development of more such models.
    We would like to make two recommendations as to how the draft could 
be strengthened to have even more of an impact on invention challenges 
in the field.
    First, we suggest that supporting the expansion and scale up of 
existing models and the creation of new models is so important that the 
set-aside should be required rather than entirely at the Secretary's 
discretion and that at least 5% of the Graduation Promise Fund be set 
aside for this purpose.
    Second, the invention challenges are such that it will take state/
local partnerships to address them. In the current draft, the balance 
of power rests with the district. We would hope for language in the 
next draft that lays out a ``both-and'' strategy where states and 
districts are expected to collaborate and serve as checks-and-balances 
to each other in efforts to turn-around high priority high schools.
    The third and final challenge is the infrastructure challenge. 
Schools and districts need state policy to encourage and support them 
in the hard work of turn-around, reinvention, and model design. Policy, 
in other words, needs to keep pace with innovative programming and what 
is now known about what works.
    The discussion draft breaks new ground by including incentives for 
states to design and implement policies in a comprehensive and 
strategic way to build infrastructure and create the operating 
conditions to support turnaround of high priority high schools and to 
allow new models to flourish. This strong support of state innovation 
is a refreshing addition to Part H on Dropout Prevention and we hope it 
will be supported by appropriations beyond what has gone into Part H in 
the past. State innovation is indeed critical to dropout prevention and 
to the ambitious goal of significantly raising college-ready graduation 
rates, even in our most challenged school districts and schools.
    I am honored to have had this opportunity to share my views on this 
groundbreaking draft and look forward to further discussion with the 
committee. Thank you very much.
                                 ______
                                 
    Chairman Miller. Mr. McPartland.

 STATEMENT OF JAMES MCPARTLAND, PH.D., RESEARCH PROFESSOR AND 
 CO-DIRECTOR, CENTER FOR SOCIAL ORGANIZATION OF SCHOOLS, JOHNS 
                       HOPKINS UNIVERSITY

    Mr. McPartland. It is a great honor to appear before this 
committee and comment on draft legislation.
    The focus on high schools is really a major advance in the 
NCLB legislation. It is a great step forward not only because 
it now focuses on youngsters, the older learners in high 
schools and middle schools that have been ignored by our 
legislation, but it is very well informed by current research 
on what would work to improve high schools and how to make it 
an effective, accountable way.
    I want to comment on four key components to the legislation 
where the research backing is really very strong. First is the 
focus on a set of schools with high dropout rates. It turns out 
that about 15 percent of our Nation's high schools are really 
the place where most of the problems happen. Indeed, two-thirds 
of the African American and Latino students who drop from 
schools go to these 15 percent schools. If you could solve the 
dropout problem in these 2,000 or 3,000 schools, you would 
actually eliminate the graduation rate gap between our minority 
population and our average high school student. So very cost-
effective research says to place this focus on the highest 
need, high dropout condition schools.
    Secondly, the bill really recognizes key components of the 
reform. It is not just more money; it is money directed at 
research-based, comprehensive reform. There are really three 
big pieces needed to turn around high-problem schools. First 
are organizational changes to personalize the learning 
environment. We need smaller schools, schools within our 
schools, schools with career academies where the kids and 
teachers can really get to know one another and the young 
people feel really welcome, when they are not there, they are 
missed; the school is really a place for them to be.
    The second is intensive curriculum and instructional 
reform. We need to close these skill gaps. Often in our 
troubled high schools, the ninth grader comes in 2 or 3 years 
below in reading and other things. We know what to do; it is 
extra time in the core curriculum with focused instruction, 
teaching comprehension skills, improving their literacy and so 
on. That is the second point, and the legislation is very clear 
on more resources for classroom instruction.
    The third part of comprehensive reform is support for 
teachers. In the end, the teachers bring this home and make it 
happen--and we know how teachers can respond to time for 
training together, but mainly having expert peer coaches and 
time to build a professional development learning community. 
The legislation is very research reformed on how the money 
should be spent to turn around the focused schools.
    The third part is the resources, the Graduation Promise 
Fund that actually says about a minimum of $700 per young 
person, per student in these targeted schools, is what is 
needed. That is also what studies and our experience show: It 
is money for new curriculum and extra time, it is money for 
teacher planning and working together in teams, it is money for 
coaches and other support systems, so that the reforms we know 
will work will actually happen.
    The second part is that the research really informs both 
the needs and the resources.
    The fourth part is about the accountability measures, that 
we can calculate in a clear way what the graduation rate should 
be. This bill requires that graduation completion is added with 
equal importance to test score performance, and that is 
important as well.
    I want to conclude with a couple of suggestions about how 
this excellent legislation could actually be honed up and in 
minor ways taken to the realities of a high school. The first 
is about, rather than a 3-year planning and evaluation period, 
the natural cycles of high school requires 4 years. It is not 
only that the ninth grade is so important, we need 4 years to 
have this play its way out, but also the 4 years is the natural 
cycle of high school.
    The second part that I think could be improved is allowing 
some flexibility in the years to graduation. We want all kids 
to be on time with graduation--as many as possible in 4 years, 
but there are some set of young people that really need a fifth 
year for a second chance. These are the kids that might flunk 
the ninth grade before they get the message about how high 
school can work for them. So a little flexibility in that 
regard is valuable.
    Finally, like other speakers, I urge getting on with it. If 
this particular, the high school part, can move forward, there 
are thousands of young people every year that can be saved. 
This is important for them, not only their individual needs, 
but really it is what matters for the future of the country, 
too.
    I urge the committee and compliment them for your draft 
bill and urge ``to get on with it.''
    Chairman Miller. We are right with you there. Getting on 
with it is the toughest part.
    [The statement of Mr. McPartland follows:]

 Prepared Statement of James M. McPartland, Ph.D., Research Professor 
   and Co-Director, Center for Social Organization of Schools, Johns 
                           Hopkins University

    I am James McPartland, research professor and co-director of the 
Center for Social Organization of Schools at Johns Hopkins University. 
I have specialized in research and development at the high school level 
for high-poverty student populations.
    It is a great honor to appear before this committee to comment on 
the new prominent focus on high school reform in the legislation to 
reauthorize No Child Left Behind.
    This focus is a major advance in federal assistance to public 
schools serving high-poverty populations because (1) it offers major 
support to a large group of needy students at the high school level, 
who have not previously had access to significant federal resources 
under NCLB, and (2) it follows the most recent powerful research on how 
to best direct assistance with the most promising interventions and the 
most effective accountability. My comments are directed to the research 
support for the key elements for high school reform in the draft 
legislation, and offer two suggestions for modification that would 
further strengthen the legislation.
1. Focus on Neediest Students
    The focus on specific high schools with high dropout rates is 
backed by research that shows the most serious dropout problems are 
concentrated in a small fraction of the nation's high schools. Recent 
studies indicate that more than half of the students who drop out had 
attended 15 percent of the nation's high schools, so targeting these 
schools will attack the majority of the problems. These schools exist 
in all regions and every state of the nation, and involve high numbers 
of poor and minority students. Indeed, two-thirds of African American 
and Hispanic students who drop out attended this 15 percent of the 
nation's high schools. Solving the problem in these schools would 
eliminate the gap in dropout rates between these minority groups and 
white students.
    Thus, the legislation's focus on the schools with highest dropout 
rates is highly cost effective in targeting resources to solve this 
problem.
2. Research-based Reform Initiatives
    The draft legislation also wisely identifies the key components of 
comprehensive high school reforms to receive federal support that 
research has shown are needed to turn around unsuccessful high schools. 
These components include (a) school organization for a personalized 
learning environment, (b) instructional interventions to motivate 
students and close skills gaps, and (c) teacher support systems to 
ensure strong implementation of needed changes. All of these components 
have been found to be needed in a comprehensive package where each 
reinforces the others to impact student attendance, academic 
achievement and graduation.
    The draft legislation recognizes how school organization 
interventions can create the conditions for positive student-teacher 
relationships, strong staff morale and high expectations for student 
behavior that lead to good student attendance and engagement with their 
studies, and course success that starts in the ninth grade and 
continues for the rest of the high schools years. These organizational 
changes include separate ninth-grade academies with small teams of 
teachers sharing the same students, upper-grade career academies that 
integrate college prep academics with occupational applications, and 
block schedules with extended class periods in core subjects and time 
for teacher team planning. While such organizational improvements can 
foster a positive learning environment of school safety, good student 
attendance and increased course passing, other changes are also needed 
to raise the intellectual demands and student success at high standards 
and to support teachers during reforms.
    The draft legislation also requires that instructional programs 
must be strengthened to help poorly prepared students accelerate their 
learning and appreciate the value of their studies for later goals. 
This means a college-prep curriculum of high standards for all, with 
extra help for needy students, opportunities for active student 
learning that challenges mature thinking skills, and integration of 
career choice and applications within a core academic program.
    In addition, the draft legislation recognizes teachers as an 
essential ingredient of effective high school reform, by requiring 
advanced professional development and teachers support systems for all 
staff. Not only are teachers to be a significant part of the reform 
planning processes for their inputs and buy-in, but will also receive 
specific supports to build skills and sustain commitments. These 
supports include mentors for new teachers and expert coaches on new 
instructional approaches, as well as time for teachers to work together 
in learning communities to perfect new, effective classroom approaches.
    While the legislation calls for each key component for a 
comprehensive reform package, it allows for flexibility if a school is 
already strong in some areas, but needs improvement in others. The 
designations of high-priority schools and priority schools give leeway 
in how resources are deployed to meet local realities of program 
strengths and weaknesses.
    Thus, the draft legislation carefully aims reform resources at the 
specific change components that research shows can produce impressive 
improvements in high school learning environments and student outcomes.
3. Adequate Resources for Strong Improvement
    In the draft legislation, a Graduation Promise Fund will provide 
adequate resources to bring targeted schools the full way toward 
effective reform.
    It establishes an estimate of $700 per student each year in 
additional resources to plan and implement the required comprehensive 
high school reforms in exchange for strong research-based interventions 
and clear accountability. Our extensive experience with more than 100 
high-poverty high schools has taught us that this amount is the minimum 
needed to turn around the most troubled sites. Resources are needed for 
planning time to redesign the school and train staff, as well as form 
implementing new instructional approaches with new curriculum, smart 
professional development using expert coaches and time for teachers to 
work together through the year. It would make no sense to require 
powerful changes but to shortchange the costs to put them in place and 
make them work. This bill avoids the error with adequate resources for 
school reform.
4. Strong Accountability Requirements
    The bill also promotes high school reform by greatly strengthening 
the accountability requirements with graduation completion rates 
sharing importance with test score achievement as the end goals of 
reforms. Research has shown that educators' primary concerns with test 
scores can set up perverse incentives to attend less to the promotion 
and graduation of all students. The bill makes sure that participating 
high schools must both graduate their students and prepare them with 
core academic skills to be successful. The bill also sends the right 
message about calculating the true graduation/dropout rates by using 
available data on the ratios of seniors to freshmen four years earlier. 
Research has shown this to be a practical and valid indicator for 
planning and accountability purposes.
5. Two Changes in Bill Language to Address High School Realities
    Two modest modifications in the draft legislation are needed to 
better fit the true conditions of high schools in terms of the time 
line for implementing and evaluating comprehensive reforms and the time 
flexibility for some students to complete their program.
    A four-year reform implementation plan is needed for high schools, 
while a three-year plan will work for elementary schools. Four years 
fits high schools because reforms must set the foundation in the ninth 
grade which will take four years to show full gains in graduation 
rates. Shorter plans will unfairly concentrate evaluations on students 
who have experienced only partial reforms without the key first year, 
and will ignore the time that high school staffs truly need to plan, 
implement and refine comprehensive reforms. Indeed, a year before 
implementation is usually critical for an inclusive planning process 
and summer training and ninth-grade student transition activities to 
launch the major change interventions.
    In the same vein, bill modifications to allow some students to use 
an additional year to earn graduation will deal with high school 
realities, but must be crafted to allow flexibility without giving 
unnecessary loopholes. A rule that at least 75 percent from each race-
gender subgroup earns graduation in four years would retain high 
expectations for all, but allow some ninth-grade repeaters and other 
second-chance learners to earn graduation and count toward their 
school's success.
6. Move the Legislation Forward with Focus on High School Reform
    The draft legislation is an excellent reflection of what recent 
research says that high-poverty high schools need and what will work to 
transform those 2,000 high schools that are the worst ``dropout 
factories'' into schools where all students will have a strong chance 
to close their skill gaps and earn their high school diplomas. Moving 
ahead now with this new important emphasis on high school reform will 
literally save thousands of American students each year from dropping 
out with all the means in success for the individuals and for American 
society.
                               references
Balfanz, Robert and Legters, Nettie (2004). ``Locating the dropout 
        crisis: How many high schools have a severe dropout problem, 
        where are they located and who attends them? In Gary Orfield 
        (ed.) Dropouts in America. Cambridge MA: Harvard Education 
        Press.
Balfanz, Robert, McPartland, James and Shaw, Alta (2002). 
        ``Reconceptualizing extra help for high school students in a 
        high standards era. Journal of Vocational Special Needs 
        Education. 25(1), 24-41.
McPartland, James and Jordan, Will. (2004). ``Essential components of 
        high school dropout prevention reforms'' In Gary Orfield (ed.) 
        Dropouts in America. Cambridge MA: Harvard Education Press.
McPartland, James, Balfanz, Robert and Legters, Nettie (2006). 
        ``Supporting teachers for adolescent literacy interventions.'' 
        Perspectives, The International Dyslexia Association, 32(3), 
        39-42.
                                 ______
                                 
    Chairman Miller. Mr. Cohen, Michael, welcome.

      STATEMENT OF MICHAEL COHEN, PRESIDENT, ACHIEVE, INC.

    Mr. Cohen. Thank you, Mr. Chairman.
    High-quality standards and aligned assessments have been a 
critical part of No Child Left Behind. It has been a critical 
part over the last 15 years of standards-based reform both at 
the State and Federal levels. Comments in the earlier panel 
suggested that the existing set of standards and assessments 
leave much to be desired. They are often not sufficiently 
focused and often not sufficiently rigorous; and the 
assessments don't really measure the things that are important.
    This discussion draft takes a number of very important 
steps to rectify that situation. I want to focus my comments on 
a number of provisions that do that in this bill and suggest 
some ways in which they can be strengthened.
    First, the provision to provide incentives for States to 
set standards for postsecondary work and workplace readiness is 
extremely important. As someone mentioned earlier, the mission 
of high school, or really the mission of the K-to-12 system, 
ought to be to prepare young people for success after high 
school.
    Our own research at Achieve shows that for the most part, 
up until very recently, no State--no State--had a set of 
standards and assessments in place, as well as curriculum and 
graduation requirements, that came close to measuring what 
students need to know when they leave high school.
    Through Achieve's American Diploma Project we are working 
with a network of 30 States that are working to rectify that 
situation--Virginia is one of them--and we start by working 
with the State to revise its standards by bringing the 
governor, the postsecondary leadership, the K-to-12 leadership 
and the business community together to work on revising the 
standards so they are anchored in the real world demands that 
students will face.
    About half of the States have completed that process 
already. The preliminary data that we have suggests that as 
States do that, that the standards they set are more rigorous, 
number one; number two, reflect a broader range of skills, 
particularly the ability to apply what is learned in the 
classroom in real-world settings much more so than current 
State standards do; and thirdly as important, the differences 
between States and their expectations narrow considerably. 
There is a lot greater degree of consistency in expectations 
when States anchor them in the analysis of what the real world 
actually demands of students when they leave high school.
    So this provision is very important for creating a set of 
standards that are really a guide to what happens in the K-to-
12 system in ways that will better prepare young people for 
what they will face afterwards.
    There are a couple of ways in which this provision can be 
strengthened. One is to call for postsecondary to play a 
greater role in this. It is hard to define college readiness 
with higher education on the sidelines; having them in a more 
central role would be particularly important.
    Secondly, I think you should recognize that as States pick 
up this opportunity, they will have standards that are much 
higher, and they will immediately confront the fact, when they 
change their tests to be in line with that, they are now 
further from the 100 percent proficiency timetable than they 
were before they started this process; and you ought to give 
serious consideration to allowing those States that do step up 
to the plate to extend the time line to getting to 100 percent 
proficient, taking into account they are working toward much 
higher standards.
    The second provision in this bill I would like to comment 
on is the State Performance Assessment Pilot. I will be brief.
    Linda Darling-Hammond spoke eloquently about the need for a 
richer set of performance assessments. You see that when you 
look at other countries. This pilot program will provide 10 
States, or consortia of States, resources to work together and 
create those kinds of performance assessments that will better 
measure written skills and oral skills and will give students 
an opportunity to demonstrate that they can apply what they 
learned to real-world problems, where the answers are not 
fixed, multiple choice, but they have to find the problem first 
and the figure out a way to solve it, or promote application of 
scientific inquiry in real-world ways; and it will help promote 
effective teaching towards those ends.
    So I would encourage you to keep that provision. I think it 
is well designed and can make a real difference. Now, you also 
have a pilot program for local assessments, which I am sure you 
know is highly controversial. I want to add to the controversy 
a bit.
    Chairman Miller. Thank you.
    Mr. Cohen. I am troubled by it for a number of reasons. One 
is, allowing districts to develop their own assessments I think 
can lead to a watering down and differentiation of standards. 
District to district, it steps back from the notion of the 
common standards measured in a common way for all students; 
that is one problem.
    Secondly, technically, I think, it is going to be very 
difficult for districts to actually develop those assessments 
and for States to actually make sure that they are consistent 
across the State, and if they are proficient in one district, 
that means proficient in another. So you run the risk of 
watering down proficiency and subjecting it to more questions.
    Finally, I would say the States that we are working with 
are driving towards common assessments, across States; and the 
reason we are doing that is, they figured out if they worked 
together and pooled their resources and had better tests and 
higher quality that also provide comparability across States. 
Local assessments will move in precisely the opposite 
direction. They will only increase the likelihood of poor tests 
at a higher price with less comparable information. I don't 
think that is a good way to go.
    On the issue of multiple indicators, you will hear a lot 
about that. I simply want to say that multiple indicators of 
academic performance, in general, are a good idea. The way they 
are incorporated in this bill in a compensatory manner, where 
high performance in one subject or one area can compensate for 
low performance in another, no matter how narrowly that is 
defined, I think, sends the wrong signal.
    It would be much better to do that in an additive manner, 
where you hold schools accountable for performance in more 
areas, because they are all important. It would help limit the 
effects of narrowing the curriculum that we see now, again like 
with the college and work readiness standards, if you do it in 
an additive manner, you put schools in a position of more 
likely to fail to meet AYP than is currently the case.
    I think the remedy for that is not a complex system that 
trades off performance in one area against another; it is to 
give them more time to meet more standards. I encourage you to 
think about that.
    Thank you, sir.
    Chairman Miller. Thank you.
    [The statement of Mr. Cohen follows:]

     Prepared Statement of Michael Cohen, President, Achieve. Inc.

    Thank you Mr. Chairman and members of the Committee, for giving me 
the opportunity to comment on portions of the Discussion Draft proposal 
for the reauthorization of No Child Left Behind.
    Since the early 1990's the concept of rigorous state standards and 
well aligned assessments have provided the foundation for the nation's 
sustained efforts to improve achievement for all students. Achieve is 
an independent nonprofit organization that has worked with states over 
the past decade to help increase the rigor of state standards and the 
alignment and quality of state tests. In the past several years we have 
formed the American Diploma Project Network, a partnership of thirty 
states dedicated to aligning high school standards, curriculum, 
assessments and accountability with the academic knowledge and skills 
needed to succeed in postsecondary education and careers. I will draw 
on Achieve's decade of research and experience in standards based 
reform to comment on a handful of key provisions in the Discussion 
Draft, with the objective of suggesting ways this reauthorization can 
help improve the quality of state standards and assessments. Many of 
the provisions I address already take important steps in that 
direction. My focus here will be to suggest ways they can be 
strengthened.
Postsecondary and Workplace Readiness
    The draft recognizes the importance of encouraging states to align 
high school standards with the knowledge and skills needed for success 
in postsecondary education and work. This is essential work for every 
state to undertake. Our research shows that, up until recently, state 
standards, assessments and curriculum requirements nationwide fall well 
short of preparing young people for what they will face when they 
complete high school. In short, when states today tell students they 
are ``proficient'', they have no basis for assuring them, postsecondary 
institutions or employers that they are prepared for what they will do 
after completing high school.
    Through the American Diploma Project Network, more than 20 states 
are working closely with Achieve to align end-of-high-school standards 
with the academic skills needed for success in postsecondary education 
and work. By the end of 2007 we expect that approximately 15 will have 
completed revising end-of-high-school standards in math and/or English 
Language Arts, and nearly half have already done so.
    Based on what we have learned from working with these states, I 
would recommend three changes to better ensure that states 
appropriately define standards that reflect college and work readiness. 
One is to require that the effort be a joint undertaking of the 
governor, state education agency, state postsecondary agency and 
system, and employers, rather than the sole responsibility of the state 
education agency. The second is to require that the state postsecondary 
system and employer validate that the resulting standards reflect 
readiness, and that the postsecondary system in particular will use the 
results of an 11th grade test aligned with these standards to make 
decisions about placing students in credit-bearing vs. remedial 
courses. Absent these requirements, our experience in working with 
nearly 30 states suggests that postsecondary institutions and employers 
will see little value in the resulting standards and assessments. These 
two requirements may be difficult to accomplish within the ESEA 
reauthorization, but I believe it will be important to do this in order 
accomplish to objective we share.
    Third, an independent review to determine whether the resulting 
standards and assessments are well aligned is a good idea. However, 
this is largely a technical task, and is not likely to be performed 
well by a broadly representative panel. Groups such as parents and 
educators must be involved in the process, and generally are through 
the normal process states already have in place when developing, 
revising and adopting state standards. It would be appropriate for the 
bill to require their participation in this process, but not as 
technical reviewers.
    The provision provides an important incentive for states to 
participate in this effort, by tying access to funds provided under the 
Performance Assessment Demonstration Program to participation in this 
initiative. Unfortunately, it also creates two powerful disincentives 
to participation and may therefore not accomplish its intended purpose. 
The requirement that states have new, well aligned assessments in 
grades 3-8 and high school in place within two years of completing the 
standards revision process is unrealistic, though the intent of 
promoting speedy test development is appropriate. Three years is a more 
realistic though still tight timeline, and some states may need 
additional flexibility depending upon when current contracts with test 
vendors are set to end.
    For states that do create systems of standards and assessments 
aligned with the academic demands of postsecondary education and work, 
the resulting standards and assessments will be more rigorous than what 
is currently in place. This has almost uniformly been the case in the 
ADP Network states. As a result, states and schools that are now barely 
on track to meet the current AYP requirement of 100% proficient by 2014 
will face a higher bar to meet, and a looming deadline to do so. To 
ensure that states take on the important work of setting rigorous, real 
world standards for all students, this legislation should recognize the 
simple fact that reaching higher standards will take more time, and 
allow for it.
    The Education Trust has developed a proposal that would give states 
that can demonstrate, and validate, that they have developed standards 
for postsecondary and workplace readiness the ability to set a new 12-
year timeline and adjust proficiency targets such that 80% of high 
school students would need to demonstrate proficiency at a level that 
indicates preparation to enter and succeed in credit-bearing courses in 
four-year colleges and universities, and 95% of students demonstrate 
basic achievement pegged to entry into postsecondary education, service 
in the military, and access to formal employment-related training. 
Meeting these targets would require substantial improvement over 
current performance levels. I believe that an incentive of this type is 
both appropriate and necessary to spur needed action in all 50 states, 
and strongly encourage the Committee to adopt it.
State Performance Assessment Pilot
    The pilot program established in Title VI, providing funds for up 
to ten states or consortia of states to develop statewide performance 
assessments is an important step to improving the quality of state 
assessment systems, and enabling states to better measure knowledge and 
skills that are valued by both employers and postsecondary faculty. 
This program can help state create assessment systems that are better 
geared for the global economy students will face, and for well informed 
civic participation. For example, good performance assessments can 
measure such communication skills as writing, making oral presentations 
and using technology, which are difficult if not impossible to measure 
on large-scale on demands tests currently used to meet NCLB 
requirements. Good performance assessments can also measure how well 
students are able to apply the knowledge and skills they have learned 
in the classroom in real world situations, and help promote instruction 
aimed at the application as well as acquisition of academic skills. 
Performance assessments are also particularly important to ensure that 
students gain a deep understanding of scientific inquiry in addition to 
the scientific content they are taught. Some states are gaining 
experience in the use of performance assessments, but the support 
provided through the proposed pilot program can help more states do so.
    This pilot program is well designed. The requirements that states 
develop assessments that are aligned to state standards and that the 
same measures that can be used for all students are extremely 
important. These provisions are necessary to ensure that all students 
in the state are held to the same standard, and that the state 
accountability system is based on the appropriate measures. The 
clarification that state test used for AYP can be administered 
throughout the year is also very important. It means that states will 
not need to include all constructed response items and performance 
tasks in the end-of-year testing window. Instead states can consider 
moving the multiple choice portion of their tests closer to the end of 
the year, and spread other tasks out over the course of the year. 
States should take advantage of this opportunity to test the 
feasibility of having richer assessments without delaying the reporting 
of the results.
    I strongly encourage the Committee to retain this provision without 
change, and to work to ensure it is included in the final bill and 
funded appropriately.
Pilot Program for Locally Developed Assessments
    In contrast to the state pilot program addressed above, I don't 
believe that this pilot program is a good idea. I am aware that some 
other countries, including high performing countries, rely on local 
assessments in ways that we do not. Most high performing countries--
with national, state or local assessments--operate education systems in 
a far more coherent policy environment than we do in the U.S., and take 
different approaches to accountability, professional development for 
teachers and principals, and other key features of the education system 
than we do. Consequently, I believe the weight of the evidence of what 
is likely to happen in the U.S. if this provision is enacted is 
decidedly more negative than positive, for several reasons.
    Since Congress enacted the 1994 Improving America's Schools Act, a 
fundamental principle of education reform nationally has been the idea 
that all students and schools in each state should be held to the same 
standards, as measured by the same test. This has helped make the 
standards-based reform movement an important tool for improving 
education equity, and for ensuring that expectations are not watered 
down for students in high poverty districts. This proposal for local 
assessments would signal a retreat from that principle, and once 
enacted would be difficult to reverse.
    It will be difficult if not impossible for states to assure that 
different local assessments are each well aligned with state standards, 
and permit the appropriate comparisons among schools and districts for 
AYP purposes. To really meet this standard, it would not be enough for 
different tests to be statistically ``equated'' in some manner. Nor 
would it be sufficient to ensure that local development procedures 
complied with state and federal requirements. It would be necessary to 
determine, for each item and/or performance task, the content that was 
being measured, the cognitive process that was being called form and 
the level of challenge for each item, and to determine overall how well 
the collection of local items in each test aligned with state 
standards. This is not a procedure that states currently use. Achieve 
has developed and utilized this approach for two recent studies, of 
high school graduation tests and of widely used college admissions and 
placement tests. The methodology is strong enough as a research tool to 
enable us to draw some basic comparisons across different tests. It is 
not strong enough to ensure the level of consistency in both the 
content being measured and the cut scores being used to define 
``proficient'' that is required for different tests used for 
determining if schools make Adequate Yearly Progress.
    Consequently, the use of different local assessments will 
inherently paint a confusing picture of student and school performance 
when test results and AYP determinations are made public. The current 
provisions for defining AYP are already complicated enough for many. 
The proposed step may well undermine the very notion of ``proficient'', 
which is at the core of NCLB. One need only think of the confusion 
generated when state test results are compared with NAEP results, 
demonstrating wildly different pictures of the level of proficiency in 
each state.
    Finally, there is growing state interest in developing common 
assessments across states, on a voluntary basis. Nine states have 
recently joined together to develop a common end of course exam in 
Algebra II, and additional states will soon participate as well. This 
common test is enabling the states to have an exam that is more 
rigorous, higher quality and less costly than if each did that on its 
own. Given persistent concerns about the cost of testing, this local 
assessment provision moves in precisely the opposite direction. It will 
lead to tests that on average are less rigorous, more costly, and that 
provide no meaningful comparative information.
    My strong recommendation is to drop this provision from the bill. 
If the Committee decides to keep it, I recommend that it be applied to 
only a handful of states, and that the Secretary not be give the 
authority to expand it beyond the pilot phase in this reauthorization.
System of Multiple Indicators
    Multiple indicators of academic performance allows for a more 
complete and revealing picture of each school's strengths and weakness. 
Accountability assessments in additional subjects are a particularly 
good idea, as they can combat the trend toward narrowing the curriculum 
that rightly concerns many educators, parents and policymakers.
    The Committee is to be commended for taking up this approach. 
However, I believe the approach in this bill needs to be strengthened 
considerably, in order to produce the desired results. Because the 
provision enables schools to partially compensate for poor performance 
on some subjects or for some subgroups with performance on other 
subject matter tests or indicators. I believe it will paint a confusing 
picture to educators and the public, and set up incentives for states 
and schools alike to figure out ways to game the system in order to 
reduce the number of schools that fail to make AYP.
    Using performance on tests in subjects beyond math and reading in 
an additive rather than a compensatory manner is a better idea. It 
underscores the important of teaching all students a broad rigorous 
curriculum, and doing this well. It provides a more transparent and 
easily understood picture of how well a school is doing.
    Of course, taking an additive approach with the current AYP 
requirements will undoubtedly result in a larger number of schools 
failing to make AYP, now or in the near future. But the state's 
objective and each school's objective, should be to teach all students 
what they need to know, not to figure out accounting gimmicks in order 
to manage the number of schools identified.
    To resolve this dilemma in a straightforward manner, states that 
chose to add additional tests in additional subjects should be required 
to do so in an additive manner, but for the law to recognize that 
setting a more rigorous bar in more subjects will likely take many 
schools longer to reach 100% proficient than if they continue to focus 
so heavily on reading and math. Therefore, I recommend that states that 
take this approach be given additional time to reach the proficiency 
target, as I recommended above.
Disaggregation of Results
    I would like to commend the Committee for retaining the 
requirements for disaggregating required accountability indicators. 
This has been one of the most significant features of NCLB, and should 
be retained. The proposed provision that tightens up the use of 
confidence intervals when disaggregating data is also important, and 
should be retained as is.
Conclusion
    In conclusion, most of the provisions I have addressed here will, 
or have the potential to, strengthen state systems of standards and 
assessments, and can better help schools focus on the skills students 
need to be prepared for what they will face after high school.
    Thank you again for the opportunity to offer my views on these 
issues. I look forward to answering any questions you may have.
                                 ______
                                 
    Chairman Miller. Ms. Bray.

     STATEMENT OF JANET B. BRAY, CAE, EXECUTIVE DIRECTOR, 
         ASSOCIATION FOR CAREER AND TECHNICAL EDUCATION

    Ms. Bray. Thank you, Chairman Miller, Ranking Member McKeon 
and members of the committee. On behalf of the over 300,000 
career and technical education professionals in this country, I 
thank you for the invitation to testify.
    I think we bring a unique perspective to the education of 
our students in the P-through-16 system. We realize you have 
put much time and thought into the proposed bill, and we look 
forward to working with the committee as it moves forward with 
this.
    We view NCLB as a very important law relating to ensuring 
the U.S. Future economic competitiveness, as well as a vehicle 
that ensures students are able to meet their own personal 
education and workforce goals.
    CTE is a major enterprise within the secondary and 
postsecondary education system. More than 95 percent of all 
high school students take at least one CTE course, and over a 
third take at least three sequences of courses in career and 
technical education before they graduate. In addition, CTE is 
offered within most of the Nation's 16,000 typical 
comprehensive high schools, and there are approximately 1,000 
CTE centers that offer more in-depth CTE programs that prepare 
students for further education and, in some cases, direct entry 
into the workforce.
    Given the magnitude of the CTE enterprise, it is vital that 
career and technical education educators and leaders be active 
participants in discussions about how to improve schools for 
the needs of the 21st century and, certainly, discussion 
regarding the Elementary and Secondary Education Act.
    Since our time is limited today and the turnaround time for 
comment was somewhat short, I am going to focus my comments on 
a limited number of issues related to high school reform and 
workforce readiness. However, ACTE has been thinking about 
reauthorization for some time and has produced a set of 
recommendations which we did attach to our written comments and 
submitted to the committee, as well as our position paper on 
high school reform in general, called Reinventing the American 
High School. Those have been added to the written testimony.
    First, I would like to talk about the Graduation Promise 
Fund. ACT clearly advocates for focusing American high schools 
on the goal of preparing every student for full participation 
in the spectrum of college opportunities, meaningful work, 
career advancement and active citizenship. We call upon leaders 
in education to make needed changes in school culture, 
instructional strategies and organizational priorities that 
support this purpose.
    As my colleague, Mr. Cohen, just said, and others have 
said, high school is not an end, it is a beginning; and we need 
to make sure we are preparing students for their next steps for 
lifelong learning, whatever their next steps are. And every 
student will be different.
    We are very pleased that your bill includes the new 
Graduation Promise Fund for high schools with the lowest 
graduation rates to support school-wide improvement activities. 
Far too long, secondary schools have been left behind, and we 
believe this is one of the contributing reasons we see U.S. 
student performance stagnate and fall as learners get closer to 
graduation. As a nation, we have not focused the time and 
attention necessary related to the issue of quality secondary 
schools.
    While we have included a set of nine recommendations that 
we believe are critical to improving the system, these 
recommendations recognize that teaching and learning in the 
United States must change if we are to have a skilled workforce 
required to meet the challenges of the 21st century. An 
important facet of this change includes a focus on the 
technical and soft skills that students need in addition to the 
basic academic knowledge that is required in the workforce.
    I want to emphasize this point. A recent report by ACTE 
entitled, Ready for College and Ready for Work, provides 
empirical evidence that the levels of readiness that high 
school graduates need to be prepared for college and workforce 
training programs are comparable. Furthermore, the report shows 
that both academic and technical skills can be required through 
rigorous high school courses regardless of the context within 
which they are taught.
    We are sometimes worried that we are focusing only on 
academic rigor without giving equal consideration to the 
context and delivery of this knowledge or the skills that 
students will need in the 21st century. Career and technical 
education is directly connected to the needs of this industry, 
and many of these programs are leading the way on how to 
incorporate academic and technical skills into secondary 
programs, which leads me to the comments on postsecondary and 
workforce readiness.
    We commend the committee for including a new section in the 
legislation focused on postsecondary and workforce readiness. 
Its language provides funding incentives to States and 
localities to ensure vertical alignment from grade to grade and 
with what students need to know in order to be successful in 
postsecondary education in the workplace. We believe the 
addition of this language begins to address our call to require 
States to develop content standards, assessments and teacher 
quality standards that are aligned with postsecondary and 
industry standards.
    We believe this new section is affirmation that alignment 
in secondary, postsecondary and workforce standards is critical 
to ensure a competitive workforce. It only makes sense that 
schools and industry improve communication so that education is 
a continuum and a seamless pipeline for entering the workforce. 
We are hopeful the States will take advantage of this proposed 
new source of funding, and ACT is prepared to help States to 
incorporate this. If schools are not providing students with 
the skills needed to enter the workforce, then we as an 
education system have failed.
    We hope the committee will consider additional language 
that encourages academic and technical skill integration. 
Incentives should be provided in the bill for research and 
dissemination of best practices related to this issue. Such 
integration provides relevance of core academics for many 
students who are at risk of dropping out because they have 
become disengaged. Students at schools with highly rigorous 
academic and CTE programs have significantly higher student 
achievement in reading, mathematics and science than students 
at schools with less integrated programs.
    The 2004 National Assessment of Vocational Education report 
found that occupational concentrators increase their 12th grade 
test scores on the National Assessment of Educational Programs, 
the NAEP program, by 8 scale points in reading and 11 points in 
math, while students who took little or no career and technical 
educational coursework increased their reading by only 4 
percent.
    Chairman Miller. I am going to ask you if you can wrap up, 
please. Thank you.
    Ms. Bray. We do want to very carefully and strongly say 
that surveys have indicated that students need the important 
employability skills--oral and written communication, work 
ethic, critical thinking, problem solving. These skills are 
very important to employers and need to be combined with the 
academic skills.
    Our recommendation calls for a definition of graduation 
responding to the graduation rates by subject and skill 
competency rather than by seat time. We recommend that 
graduation on skills competency link to the workforce needs and 
postsecondary standards on time frame a standard number of 
years. We also encourage you to look at 5 years flexibility, 
for 5 years versus just 4 years, as many students do take 5.
    We believe the committee has moved in the right direction 
with the development of the NCLB draft bill. I urge you and 
other members of the committee to take the time necessary to 
fully explore the effects of the new proposals in legislation 
and put into place a new law that builds upon and improves the 
2001 legislation.
    Chairman Miller. Thank you very much.
    [The statement of Ms. Bray follows:]

     Prepared Statement of Janet B. Bray, CAE, Executive Director, 
             Association for Career and Technical Education

    Chairman Miller, Ranking Member McKeon and Members of the 
Committee: On behalf of career and technical education professionals in 
the United States, thank you for the invitation to present testimony 
today. CTE is a major enterprise within the United States' P-16 
education system. More than 95 percent of high school students take at 
least one CTE course during their high school career, and about one 
third of high school students take a concentration of three or more 
related CTE courses before they graduate.
    In addition to CTE courses offered within most of the nation's more 
than 16,000 typical high schools, there are approximately 1,000 
regional CTE centers that offer more intensive CTE programs preparing 
students for further education, and in some cases for direct entry into 
the workforce. A large number of high school reform strategies and new 
small schools employ interest-based programs, including CTE, as a way 
to increase motivation and student engagement. Further about one third 
of all students in postsecondary education are considered to be in 
postsecondary career and technical education programs.
    Given the magnitude of the CTE enterprise in secondary and 
postsecondary education, it is vital that CTE educators and leaders be 
active participants in discussions about how to improve schools for the 
needs of the 21st century, and the discussion about No Child Left 
Behind. We realize you have put much time and thought into the proposed 
bill and look forward to working with the Committee as NCLB is 
reauthorized. We view NCLB as a very important law related to ensuring 
the United States' future economic competitiveness, as well as the 
vehicle that ensures students are able to meet their own personal 
education and workforce goals.
    Since our time is limited today and the turnaround time for comment 
has been short, I am focusing my comments on a limited number of issues 
related to high school reform and workforce readiness. However, ACTE 
has been thinking about the reauthorization for some time and has 
produced several sets of recommendations that inform this discussion. I 
am attaching the full set of our NCLB recommendations and the Executive 
Summary of our high school reform position paper as addendums to my 
testimony.
Graduation Promise Fund
    ACTE advocates for clearly focusing American high schools on the 
goal of preparing every student for full participation in a spectrum of 
college opportunities, meaningful work, career advancement, and active 
citizenship. We call upon leaders to make needed changes in school 
culture, instructional strategies and organizational priorities that 
will support this new purpose
    We are very pleased that your bill includes a new Graduation 
Promise Fund for high schools with the lowest graduation rates to 
support school-wide improvement activities. For far too long NCLB has 
provided support primarily to elementary schools. Secondary schools 
have been ``left behind'' and I believe that is one of the contributing 
reasons we see U.S. student performance stagnate and fall as these 
learners get closer to graduation. As a nation, we have not focused the 
time and attention necessary related to this issue of quality secondary 
schools.
    ACTE's high school reform position paper entitled ``Reinventing the 
American High School for the 21st Century'' includes a set of nine 
recommendations that we believe are critical to improving the system. 
The recommendations recognize that teaching and learning in the United 
States must change if we are to have the skilled workforce required to 
meet the challenges of the 21st Century. An important facet of this 
change includes a focus on the technical and ``soft'' skills that 
students need in addition to the basic academic knowledge that is 
required in the workforce.
    I want to emphasize this point. A recent report issued by ACT 
entitled ``Ready for College and Ready for Work: Same or Different'' 
provides empirical evidence that the levels of readiness that high 
school graduates need to be prepared for college and for workforce 
training programs are comparable. Further, the report shows that both 
academic and technical skills can be acquired through rigorous high 
school courses, regardless of the context (academic or career focused) 
within which they are taught.
    Indeed Mr. Chairman, I sometimes worry that we are focusing only on 
academic rigor without giving equal consideration to the context and 
delivery of this knowledge or the workforce skills that students will 
need in the 21st Century. Career and technical education is directly 
connected to the needs of business and industry. And many of these 
programs are leading the way on how to incorporate both academic and 
technical skills into secondary programs.
Postsecondary and Workplace Readiness
    In addition to the Graduation Promise Fund, ACTE commends you for 
including a new section in the legislation (Section 1111A) focused on 
Postsecondary and Workplace Readiness. This language provides funding 
incentives to states and localities to ensure vertical alignment from 
grade to grade and with what students should know in order to be 
successful in postsecondary education and the workplace.
    ACTE believes the addition of this language begins to address our 
call to ``require states to develop content standards, assessments, and 
teacher quality standards that are aligned with postsecondary and 
industry standards,'' a recommendation included in another of our 
position papers, ``Expanding Opportunities: Postsecondary Career and 
Technical Education and Preparing Tomorrow's Workforce.'' We believe 
this new section is affirmation that alignment of secondary, 
postsecondary, and workforce standards is critical to ensure a 
competitive workforce. It only makes sense that schools and industry 
improve communication so that education is a continuum and a seamless 
pipeline for entering the workforce. We are hopeful that states will 
take advantage of this new source of funding and ACTE stands prepared 
to help support states as they incorporate this important provision of 
the law. If schools are not providing students with the skills needed 
to enter the workforce, we have failed.
Academic and Skills Integration
    While the Graduation Promise Fund and Postsecondary and Workplace 
Readiness additions are a good start, I hope the Committee will 
consider additional language that encourages academic and technical 
skills integration. Incentives should be provided in the bill for 
research and dissemination of best practices related to this issue. 
Such integration provides relevance of core academics for many students 
who are at risk of dropping out because they have become disengaged.
    Students at schools with highly integrated rigorous academic and 
CTE programs have significantly higher student achievement in reading, 
mathematics and science than do students at schools with less 
integrated programs, as reported by the Southern Regional Education 
Board. The 2004 National Assessment of Vocational Education (NAVE) 
Final Report found that occupational concentrators increased their 12th 
grade test scores on the National Assessment of Educational Programs 
(NAEP) by 8 scale points in reading and 11 point in math, while student 
who took little or no career and technical education course work 
increased their reading on NAEP by only 4 points and showed no 
improvement in mat achievement.
Multiple Indicators
    I commend the Committee for tackling the difficult issue of 
multiple indicators. I realize there is a lot of concern about how to 
incorporate multiple measures into the current NCLB accountability 
provisions. ACTE believes that multiple assessments offer a better 
picture of student achievement than a single assessment. Although this 
is a difficult task, the new NCLB must identify ways to incorporate 
these multiple measures of student progress.
    ACTE strongly believes that multiple measures should allow the use 
of CTE credentials and measurements. In addition, our recommendations 
ask that NCLB give schools credit, and incorporate into accountability, 
the learning that takes place in work-based and other contextual types 
of education that is gained outside of the traditional classroom. NCLB 
is setting the parameters for what is important for students to learn 
and clearly, skills in addition to core academics are just as 
important. Explicit language allowing states to use such credentials 
and measurements is important and would improve the bill.
    A survey performed in the spring of 2006 by the Conference Board, 
Corporate Voices for Working Families, the Partnership for 21st Century 
Skills and the Society for Human Resource Management indicates that too 
many of our students are not prepared for the workplace. The survey 
indicates that over one-half of new workers are deficiently prepared in 
the most important skills: Oral and Written Communications, 
Professionalism/Work Ethic, and Critical Thinking/Problem Solving. In 
fact, this report indicates that these skills are more important to 
employers than basic levels of knowledge. I want to be clear to note 
that the report is not saying that basic core academic skills are not 
important, but that these ``soft skills'' are more important for 
employers.
    The report notes that this ill-preparedness comes at a particularly 
inopportune time for Americans, a time when baby-boomers like you and 
I, Chairman Miller and Ranking Member McKeon, are retiring and leaving 
the workforce. If we do not consider student performance with relation 
to technical skills and the ``soft skills'' that students need in order 
to perform in the workplace, we are falling short.
Graduation Rates
    ACTE acknowledges the need for consistent definitions related to 
graduation and completion. Although we would rather see state 
development of a common definition of graduation we recognize the 
difficulty of this endeavor. We also would ask that the new NCLB not 
make it a disincentive for schools to reenter students who have dropped 
out of school. CTE's focus on applied learning reengages many high 
school dropouts who come back into the system--I call them ``drop in'' 
students. The law should support schools that do this important work.
    Our recommendations call for a definition of graduation by subject 
and skills competency rather than by ``seat time.'' ACTE recommends 
basing graduation on skills competency that is linked to workforce 
needs and postsecondary standards rather than on timeframe of 
``standard number of years'' as currently defined in NCLB.
    Many CTE programs are leading the way with regard to concurrent 
enrollment and middle college programs but the rigidity of NCLB with 
regard to the strict timeline by which students much graduate threatens 
to hinder such innovative initiatives. For instance, some students do 
not receive their high school diploma until after their fifth year of 
study; however, these students are taking five years to graduate 
because they also are earning an associate degree during that same 
time. This is but one example of why we should measure competency 
rather than ``seat time.''
    While we appreciate the inclusion of the option for a 5 year 
graduate rate in the draft legislation, we are concerned about the 
complexity related to these provisions and hope that does not deter 
schools from implementing the option.
Guidance and Career Development
    Lastly but certainly not least, I strongly urge you to review what 
the draft bill includes in terms of guidance and career development. 
Links to career exploration help to provide relevancy and understanding 
about why core academic knowledge is so important for students' future 
postsecondary and workforce aspirations. A cursory review of the draft 
legislation indicates more needs to be included in this area. I could 
only find one reference in the bill to ``career counseling.''
    The most recent iteration of the Carl D. Perkins Career and 
Technical Education Act (Perkins) includes a strong link to career 
development through the new requirement that states must includes at 
least one ``program of study.'' These ``programs of study'' are very 
similar to and build on, positive initiatives already underway in CTE 
programs around the county such as Tech Prep, career pathways, career 
academies, and career clusters. The Perkins language will be of great 
benefit to CTE students, but similar language should be considered for 
NCLB for the benefit of all students.
    ACTE has strongly supported the development of individual 
graduation plans for all students. These plans map a defined program of 
student on how to reach academic and career goals and are an important 
component of providing individualized instruction tailored to the 
unique academic needs of each student.
    In closing, I would like to again thank the Committee for including 
the career and technical educator's voice as part of the NCLB 
discussion. ACTE believes there are distinct purposes and reasons to 
have both NCLB and Perkins as two separate and distinct laws, but there 
is much more that can be done to align the two pieces of legislation to 
ensure that both academic and technical skills attainment is provided 
to all students.
    The Committee has ``moved in the right direction'' with the 
development of the NCLB draft bill. I urge you and the other members on 
the Committee to take the time necessary to fully explore the effect 
the new proposals in the legislation and to put into place a new law 
that builds upon and improves the 2001 legislation.
    I am happy to answer any questions.
    The Association for Career and Technical Education (ACTE) is the 
nation's largest education association dedicated to the advancement of 
education that prepares youth and adults for successful careers. For 
more information, contact: Steve DeWitt (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a594e4f5d435e5e6a4b495e4f45444643444f0445584d">[email&#160;protected]</a>) or 
Alisha Hyslop (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="63020b1a100f0c1323020017060c0d0f0a0d064d0c1104">[email&#160;protected]</a>), ACTE, 1410 King Street, 
Alexandria, VA 22314, (703) 683-3111, (703) 683-7424 (Fax), 
www.acteonline.org.

                               Addendum 1

    Recommendations for the Reauthorization of No Child Left Behind

    Career and technical education (CTE) is a major and long-standing 
enterprise within the United States' education system that has evolved 
to meet 21st century needs. More than 95 percent of students take at 
least one CTE course during high school, and the strengths and 
resources of CTE play an important role in improving outcomes for all 
students. Building on these strengths and resources, the Association 
for Career and Technical Education presents the following 
recommendations for the reauthorization of the No Child Left Behind 
Act. We urge Congress to incorporate these principles into the 
reauthorized legislation in order to support enhanced student 
achievement. While not specifically addressed in the recommendations, 
it is important to note the relationship between adequate funding and 
the law's promise. Successful NCLB implementation will be jeopardized 
by merely redirecting funds from existing quality programs or under-
funding new initiatives. A true commitment to both improved policy and 
adequate resources must be adopted if NCLB is to be successful.
Recommendation 1: Integrate Academic and Technical Education to Better 
        Engage and Prepare Students for Their Futures
    <bullet> Align NCLB to the Perkins Act through the use of programs 
of study, and encourage schools to use CTE courses to support students 
working to meet academic proficiency.
    <bullet> Give schools credit, and incorporate into accountability, 
the learning that takes place in work-based and other contextual types 
of education that is gained outside of the traditional classroom.
    <bullet> Require states to develop content standards, assessments, 
and teacher quality standards that are aligned with postsecondary and 
industry standards.
    <bullet> Provide schools incentives to integrate academic 
coursework such as math, science and language arts, with CTE 
coursework.
    <bullet> Provide funding for state- and professional organization-
led initiatives for gathering, organizing, and disseminating integrated 
lesson plans and curriculum frameworks.
Recommendation 2: Support Comprehensive Guidance and Career Development 
        Strategies to Assist Students in Determining Clear Pathways to 
        Postsecondary and Workforce Goals
    <bullet> Recognize the importance and need for leadership and 
policy to implement comprehensive guidance programs throughout the P-16 
system.
    <bullet> Ensure adequate resources for career development and 
planning across the education continuum.
    <bullet> Encourage schools to develop individual graduation plans 
for each student that map a defined program of study on how to reach 
academic and career goals.
Recommendation 3: Increase the Focus on Secondary School Completion 
        through Comprehensive Dropout Prevention and Reentry Strategies
    <bullet> Provide incentives and eliminate disincentives for schools 
to register ``drop in'' students--students that are returning to 
continue their education.
    <bullet> Develop a consistent definition of secondary school 
``dropout.''
    <bullet> Support research and development for flexible re-entry and 
completion programs, including those that employ career development and 
CTE strategies.
    <bullet> Ensure federal flexibility for reporting ``extended-time'' 
graduation rates.
    <bullet> Require schools to disaggregate and report dropout and 
graduation data.
    <bullet> Put additional emphasis on secondary school completion 
rates within calculations for Adequate Yearly Progress.
Recommendation 4: Ensure that Highly Effective Educators are Supported, 
        and Available Across the Curriculum in All Schools
    <bullet> Require that federal professional development funding 
support integrated academics and contextual teaching strategies for 
academic teachers and CTE teachers.
    <bullet> Ensure that federal professional development funding 
specifically focus on supporting administrators in their role as 
educational leaders and creating an environment where rigor and 
relevance spans across all course offerings.
    <bullet> Invest in research on curriculum structure and teaching 
methodology.
    <bullet> Maintain flexibility in defining highly qualified 
teachers, such as through the use of provisions like HOUSSE, to ensure 
that schools are able to recruit and retain professionals from a 
variety of backgrounds and through alternative pathways.
Recommendation 5: Improve Adequate Yearly Progress and Accountability 
        Provisions to More Accurately Reflect Student Learning Progress
    <bullet> Give schools credit for growth in student achievement, 
even if AYP is not fully met.
    <bullet> Allow the use of multiple assessments to measure student 
progress, including the use of CTE credentials and measurements.
    <bullet> Define graduation by subject and skills competency rather 
than by ``seat time.''
    <bullet> Focus accountability more on incentives rather than 
sanctions.
Recommendation 6: Provide Support and Incentives for Innovation, 
        Replication and Improvement
    <bullet> Promote dual and concurrent enrollment programs for 
secondary-postsecondary CTE programs, which enable students to 
accelerate learning while gaining technical skills.
    <bullet> Ensure dissemination of best practices so that all 
schools, districts and states have access to successful strategies and 
programs that can be replicated.
    <bullet> Support the development of robust, dynamic and integrated 
data systems that provide a clear picture of each student's educational 
progress.
    <bullet> Create incentive grants for states and state consortia to 
focus on multi-pronged high school redesign strategies, and promote 
close linkages at the state and local levels with CTE strategies.
    <bullet> Encourage better links between secondary and postsecondary 
education such as improved alignment between high school assessments/
exit exams and college entrance exams.

                               Addendum 2

 Executive Summary: Reinventing the American High School for the 21st 
                                Century

    The Association for Career and Technical Education (ACTE), on 
behalf of career and technical Education (CTE) professionals in the 
United States, advocates for clearly focusing American high schools on 
the goal of preparing EVERY student for full participation in a 
spectrum of college opportunities, meaningful work, career advancement, 
and active citizenship. We call upon leaders to make needed changes in 
school culture, instructional strategies and organizational priorities 
that will support this new purpose. CTE is a major enterprise within 
the United States' P-16 education system. More than 95 percent of high 
school students take at least one CTE course during their high school 
career, and about one third of high school students take a 
concentration of three or more related CTE courses before they 
graduate. In addition to CTE courses offered within most of the 
nation's more than 16,000 typical high schools, there are approximately 
1,000 regional career technology centers that offer more targeted and 
technology-intensive CTE programs preparing students, both young people 
and adults, for further education, and in some cases, for direct entry 
into the workforce. Further, a large number of high school reform 
strategies and new small schools employ interest-based programs, 
including CTE, as a way to increase student motivation and engagement. 
Given the magnitude of the CTE enterprise, it is vital that CTE 
educators and leaders participate in the important discussion about how 
to redesign American high schools for the needs of the 21st century and 
bring CTE's resources and areas of expertise to that discussion. In our 
discussions about high school redesign, we suggest a number of 
strengths and resources CTE can bring to the table for overall high 
school improvement. To provide clarity for the role of CTE, we suggest 
a three-fold purpose of career and technical education at the secondary 
school level. CTE should:
    <bullet> Support students in the acquisition of rigorous core 
knowledge, skills, habits and attitudes needed for success in 
postsecondary education and the high-skilled workplace;
    <bullet> Engage students in specific career-related learning 
experiences that equip them to make well-informed decisions about 
further education and training and employment opportunities; and,
    <bullet> Prepare students who may choose to enter the workforce 
directly after high school with levels of skill and knowledge in a 
particular career area that will be valued in the marketplace. In light 
of the current and future challenges facing our youth, the members of 
ACTE believe a new working model for high school is long overdue. We 
make the following recommendations to help guide the reinvention of the 
American high school:
Recommendation 1: Establish a Clear System Goal of Career and College 
        Readiness for All Students
    All students need a strong arsenal of reading, comprehension, 
reasoning, problem-solving and personal skills to be ready for the 
world of meaningful postsecondary education and training as well as 
entry into the high-skilled workplace. Standards should be aligned to 
the demands of career and college readiness, and all students should be 
challenged to enroll in a rigorous college and career readiness 
curriculum. Extra help, including structured transition services, 
should be provided to support this curriculum, and opportunities for 
additional advancement across broad areas should be provided. 
Traditional academic and CTE teachers must share the goal of preparing 
students for both further education and careers.
Recommendation 2: Create a Positive School Culture that Stresses 
        Personalization in Planning and Decision-making
    At a minimum, every student should be led through a process of 
academic and career awareness, exploration, and planning. This should 
include learning about the economy and career options, self-assessment 
for areas of interest; deeper exploration of how personal interests 
relate to career opportunities and gaining education and career 
decision-making skills; and knowledge and understanding of local, 
state, and national educational, occupational, and labor market 
opportunities, needs, and trends. Policies must be in place to ensure 
that career development and postsecondary planning are core activities 
within the high school as part of a comprehensive guidance program. 
Each student, and his or her parents/guardians, should develop an 
individualized plan for graduation and beyond that will guide the high 
school experience.
Recommendation 3: Create a Positive School Culture that Stresses 
        Personalization in Relationships
    Schools remain one of the best opportunities for connecting youth 
and adults in positive ways, giving students the sense that they are 
valued and cared for, and reinforcing the message that whether they 
succeed or fail actually matters to someone. A system goal must be to 
help every youth become involved in structured activity that 
strengthens positive relationships with peers and adults and encourages 
the student's sense of confidence and belonging in school. These 
activities could include advisory periods, smaller learning 
communities, co-curricular interest-based activities--such as career 
and technical student organizations (CTSOs)--or other activities that 
provide a positive adult relationship.
Recommendation 4: Dramatically Improve How and Where Academic Content 
        is Taught
    Teachers and researchers must work together to identify strategies 
that show promise for helping all students attain proficiency in high-
level courses. As each state refines and clarifies its standards for 
career and college readiness, it should recognize that ``academic'' 
skills can be acquired in a variety of settings, not just the 
traditional academic classroom. The achievement problem is not just one 
of low-level course-taking; it is also related to unfocused curriculum 
and instructional methods that are not reaching all students. 
Integration of academic competencies into CTE curricula and of real-
world content and applied methods and examples into traditional 
academic classes can raise student achievement levels and increase 
understanding of rigorous concepts. Flexibility must be in place for 
delivering academic content across the curriculum.
Recommendation 5: Create Incentives for Students to Pursue the Core 
        Curriculum in an Interest-based Context
    From across the school reform spectrum, there is ample evidence 
that connecting rigorous academic expectations with the relevance of an 
interest-based curriculum can help connect students to learning in 
powerful ways. Interest-based areas can be organized around various 
broad themes, such as the fine arts, or more specific themes like 
biotechnology, pre-engineering, hospitality, and finance. There must be 
resources and policies in place to support the development, 
implementation, and review of these interest-based areas.
Recommendation 6: Support High Quality Teaching in all Content Areas
    The No Child Left Behind Act creates mechanisms for assuring that 
every teacher in the academic core subjects is highly qualified, 
meaning the teacher holds a bachelor's degree or higher, grasps content 
at a deep level and can teach that content effectively. The crux of 
these standards, deep knowledge of content and skills in effective 
teaching methods, should apply to CTE teachers as well, including those 
entering the teaching profession through traditional teacher education 
programs and those transitioning into teaching from business and 
industry through alternative certification programs. CTE teachers 
should be able to demonstrate content mastery through a method 
appropriate to their areas of expertise, utilizing industry-based 
credentials or assessments aligned with career clusters where 
available. An expanded focus must be placed on professional development 
for all teachers in academic and technical integration and contextual 
teaching strategies.
Recommendation 7: Offer Flexible Learning Opportunities to Encourage 
        Re-entry and Completion
    True quality high school reform must include effective strategies 
to re-engage and reconnect young people who have failed or are in 
danger of failing to complete high school. These young people have been 
failed by the current high school system. With a national graduation 
rate of approximately 71 percent, millions of young people are out of 
school and grossly ill-equipped to compete in the 21st century 
workforce and economy. To reform high school without a strategy to re-
engage these young people who have already dropped out would be to 
abandon them to, and accept the social costs associated with, bleak 
futures marked by reduced earning potential, poverty, crime, drug 
abuse, and early pregnancy. High schools must provide a continuum of 
flexible interest-based learning opportunities that utilize effective 
teaching methodologies and are responsive to students' varied needs and 
life circumstances.
Recommendation 8: Create System Incentives and Supports for Connection 
        of CTE and High School Redesign Efforts
    In many states and school districts, CTE leaders are providing the 
major impetus and resources for rethinking the instructional and 
organizational design of the traditional high school. However, in some 
locales, superintendents, school leaders and school reform advocates 
are reportedly overlooking the role of CTE in providing meaning, 
relevance, and experience in deeply contextualized learning of subject 
matter. This oversight will limit the effectiveness and impact of the 
high school redesign agenda. Policymakers at the federal, state and 
local levels should see academic and interest-based courses as 
complementary of one another, and create initiatives that support rich, 
interest-based programs to be built around a core of rigorous academic 
expectations.
Recommendation 9: Move Beyond ``Seat-Time'' and Narrowly Defined 
        Knowledge and Skills
    U.S. high schools operate on a well-established set of expectations 
for size, time of day and seasons of the year that programs and classes 
are offered, how instructional material is delivered and what 
constitutes success in terms of the students' knowledge and skills. In 
order for our education system to adopt the new goal of getting every 
student ready for careers and college, we suggest a shift in focus to 
the underlying principles for what students learn and how we teach it, 
including what knowledge and skills are measured, how students are 
asked to demonstrate their knowledge and skills and how school is 
offered for all young people, particularly for the many students who 
are currently disengaged and leaving, or have already left, the 
traditional high school. Clearly, we believe that CTE courses and 
instructional methodologies have a place in the high school 
environment, and that there should not be an artificial split between 
academic coursework and vocational studies, nor should exposure to CTE-
type coursework be delayed until late in high school or college. 
Rather, we believe that all coursework, with clearly articulated 
standards and expectations, can help build within students the mix of 
skills, aptitudes and attitudes they will need for success after high 
school. Designing American high schools around the needs of students in 
the present and the future requires honesty, courage, and a willingness 
to change familiar structures and practices in the best interests of 
our young people. Real change, made for the right reasons and toward 
the right mission, will yield dramatically better results and a more 
hopeful future for America's young people and for our national economic 
and cultural well-being.
                                 ______
                                 
    Chairman Miller. Mr. Gong.

   STATEMENT OF BRIAN GONG, EXECUTIVE DIRECTOR, THE NATIONAL 
      CENTER FOR THE IMPROVEMENT OF EDUCATIONAL ASSESSMENT

    Mr. Gong. Members of the committee, I am glad to be here 
and offer these comments on the discussion draft.
    For the past 20 years, I have been working on assessment 
and accountability, primarily at the State level, to help 
foster student achievement and school capacity. I know 
firsthand the positive influence that good assessment and sound 
accountability systems can have to promote equitable school 
learning and deep school improvement. I also know the 
difficulties of doing it right.
    I am grateful to be in this setting because States usually 
do this with their State accountability systems, but they do it 
much more frequently than every 5 years, and thereis a much 
tighter conversation about how to evaluate the legislation 
implementation and capacity.
    Because I work primarily on the technical side, I had 
several comments on the technical aspects of the current 
legislation and the discussion draft. I was a member of the 
ESEA expert panel; I think you all have received this report. 
These have some of the larger points; I will mention three 
specific examples of how technical things make a difference.
    People mentioned about whether the standards were rigorous 
enough. In 2004-2005, over half of the States had already 
identified at least one out of five of their schools as not 
meeting AYP; seven States had identified over half of their 
schools. That number will be higher this year, and it will go 
up next year when the AMOs go up.
    Others have shown that the rigor of State standards are not 
related to their NAEP performance.It is simply not true that 
States that are low performing on NAEP set their standards low, 
so we need to look at empirically what the relationship is 
between the rigorous State standards and what we can do about 
it.
    Here is a second point. The ``minimum-n'' subgroup sizes 
and the confidence intervals are important safeguards to make 
reliable accountability decisions. Our studies show that a 95 
percent confidence interval for the overall decision, rather 
than for each subgroup content area, as proposed in the 
discussion draft, would help avoid misclassifying as many as 20 
percent of the schools; that is, this classification rate is 
high now and people are worrying about what to do about it. 
There is technical advice that can help you pick the right one 
if you are concerned about accuracy in schools.
    The third example is, I think it is clear to be more valid 
school accountability should be broadened to include student 
growth. Unfortunately, our studies and others show that the way 
that growth has been defined by the U.S. Department of 
Education in its growth model pilot actually hardly differs at 
all from percent proficient. In the first, year, two States had 
about 2,200 schools. The growth assessment only made a 
difference in 8 of those schools. We will see how many it makes 
this year. We are in favor of growth; it is really important 
how it is measured.
    What I would like to spend the rest of my time on is 
supporting the draft's vision of investing in future 
assessment; particularly I strongly support provisions in the 
discussion draft that include support for a wider and more 
valid set of assessments including the performance and local 
assessment pilots. This is not about going soft on 
accountability; this about creating a census to develop 
assessments that more validly reflect what the next 
generation--not this one, the next generation--what America's 
students truly need to know and be able to do.
    The first is that, as people mentioned, this legislation 
will help us attend a very important skill simply not possible 
to assess well in current traditional assessments. The time 
that we have for assessments--people are running about an hour 
to 2 hours; it is 50 questions, often multiple questions with 
two or three short-answer questions. The logistics simply will 
not allow us to assess the things that are most important, 
particularly for college and work readiness.
    Interestingly, Massachusetts, among other States, looked at 
what was going on with their dropouts, and they found out that 
a significant proportion of the students who dropped out had 
already passed Massachusetts's rigorous exit exam. The students 
weren't lacking in the basic skills, there were a number of 
other things; and that is true for college success. So we need 
to have assessments that will look at the most important 
things.
    The second is that this draft, discussion draft, provides 
an investment in the future infrastructure of assessment. For 
example, currently, our children play computer games that 
already immerse them in realistic role-playing situations, 
distributed group competitive strategies and that support voice 
and motion recognition. I can't imagine that in 20 years 
computers won't be more advanced, but I can imagine that unless 
we make this type of investment, educational testing in 20 
years will be exactly the way it is now. You may have some 
computer adaptive assessments, but it won't be testing anything 
more important. This bill is an important step in the right 
way. This is not about watering down accountability; this is 
about laying the foundation for more valid assessments.
    I believe that universities' research centers and private 
sector together can help bring this about, but it needs the 
Federal sponsorship as a catalyst to provide the focus. People 
have been interested in this type of assessment for many years. 
It has never become practical; it would have a better chance if 
we had the type of pilot programs that are sponsored here. It 
is a good time for midlevel course corrections and for 
investing in college-ready performance and local assessments.
    A valid accountability requires valid assessments. I urge 
Congress to support the suggestions made for reauthorization 
today. Thank you.
    [The statement of Mr. Gong follows:]

  Prepared Statement of Brian Gong, Executive Director, the National 
          Center for the Improvement of Educational Assessment

    Chairman Miller, Congressman McKeon, members of the Committee, I am 
Brian Gong, Executive Director of the National Center for the 
Improvement of Educational Assessment. I appreciate the opportunity to 
offer my comments and encouragement to substantially improve No Child 
Left Behind assessment and accountability provisions in the 
reauthorization of the Elementary and Secondary Education Act.
    For the past 20 years--long before No Child Left Behind--I have 
worked on improving assessment and accountability systems to help 
foster student achievement and school capacity. I know firsthand the 
positive influence that good assessment and sound accountability 
systems can have to promote equitable student learning and deep school 
improvement. I also know the difficulties of doing it right. As a 
research scientist at Educational Testing Service in the 1980's I 
worked on developing innovative instructional assessments that would 
support classroom learning and teaching. In the mid-1990's I served as 
the Associate Commissioner of Curriculum, Assessment, and 
Accountability in the Kentucky Department of Education. (Kentucky, one 
of the first and longest-tenured state accountability systems, is 
notable for tackling the technical challenges of scoring, reliability, 
and large-scale administration of performance-based, non-multiple 
choice assessments. Kentucky still uses a writing portfolio in its 
accountability system.) Our non-profit Center for Assessment is 
currently working with 20 states across the nation to provide technical 
assistance in one form or another to support assessment and 
accountability systems that are educationally and technically sound. 
The Center for Assessment is also regularly called upon to provide 
technical assistance in these areas, by groups including the U.S. 
Department of Education, the Council of Chief State School Officers, 
and the National Center on Education Outcomes. I recently served on the 
Expert Panel on Assessment convened by the Forum on Educational 
Accountability; the final report, Assessment and Accountability for 
Improving Schools and Learning (2007) is available here today and 
addresses in more depth many issues relevant to reauthorization. The 
Center for Assessment is also working on areas outside of NCLB, 
including formative assessment and college readiness with some states 
and organizations including Achieve and the Gates Foundation.
    My comments fall in two main areas:
    <bullet> I applaud the recognition for some mid-course corrections 
to ESEA. Several of the provisions of the discussion draft respond to 
concerns, but need some tuning in the legislative solutions.
    <bullet> I strongly support provisions in the discussion draft that 
move from fixing ``what is'' to pointing us where we need to go in the 
future of assessment and accountability.
Some Mid-Course Corrections
    I comment on several areas in the discussion draft that 
courageously acknowledge some problems in the 2001 legislation and 
undertake making mid-course corrections.
    1. To be more valid, school accountability should be broadened to 
include student growth. Everyone is concerned about whether schools 
helped students learn during the year, not just how high they scored. 
Unfortunately, our recent studies show that the way that growth has 
been defined by the U.S. Department of Education in its Growth Model 
Pilot program actually hardly differs from Status (percent proficient). 
Reauthorization should include a true pilot of how growth could 
effectively be measured and used for accountability.
    2. It absolutely makes sense to distinguish between a school that 
fails to meet a few of the hurdles from a school that fails to meet 
many. But, there are many cases where performance of one or two 
subgroups are not only very important but can be measured very 
reliably. Reauthorization should consider ways to make meaningful, 
reliable distinctions besides just counting the numbers of students and 
subgroups and making a decision each year.
    3. ``Minimum-n'' subgroup sizes and especially confidence intervals 
are important safeguards to support making reliable accountability 
decisions. Setting common thresholds across states makes sense from a 
technical standpoint. Hopefully the final reauthorization version will 
alter slightly the thresholds. Our studies show that a 95% confidence 
interval for the overall decision--rather than for each subgroup/
content area decision--would help avoid as many as 20% of the schools 
being misidentified.
    4. In my opinion, the aspirational goal of 100% of the students 
proficient by 2013-14 is not a credible goal. It is possible to define 
goals that will be challenging, rigorous, equitable, and possible. In 
2004-05 over half of the states had already identified at least 20% of 
their schools as not meeting AYP; seven states had identified over half 
of their schools. Even more will be identified next year when the AMO 
targets are increased. The reauthorization must address this 
fundamental issue.
    5. Working with states on accountability issues over the past 15 
years, I have become more convinced that strong accountability systems 
are important, and can be helpful, but are not enough. In fact, many 
schools do not know what to do to improve, and many face serious 
structural barriers, such as hiring and retaining strong teachers who 
are effective with the students in the school. The reauthorization and 
any school improvement plan must have a better theory of action than 
saying ``Clear goals and strong sanctions will motivate schools and 
districts to solve this problem.'' I simply do not believe that is 
true; it is not a helpful characterization of the problem or the 
solution to improving American education. The discussion drafts 
attention to improved professional development, coupled with an 
improved accountability system is a step in the right direction, but 
needs to go much further in terms of strong models of support.
    6. We need to work to include accountability special populations in 
meaningful ways. However, our current attempts at assessment of 
students with disabilities and students with limited English 
proficiency reflect more noble policy aspirations than sound 
measurement. Reauthorization should take a more realistic look at what 
is scientifically known about good assessment and learning, and inform 
the accountability requirements accordingly.
    7. Much of the complaints from the states reflect not so much the 
statute, but the process of interacting with the U.S. Department of 
Education. Reauthorization would do well to attend to how the process 
of interpreting, enforcing, and supporting the implementation of the 
law is done, not only by the states, but also by the federal Executive 
Branch.
    8. I think that content standards, assessments, and accountability 
must be yoked together with equally strong curriculum and instruction 
in order to have effective learning and teaching. I do not believe that 
movement towards federal or national standards can be effective without 
equal attention to curriculum. Reauthorization must pay attention to 
the debate of the proper role of the federal government in establishing 
supra-state standards.
Support for Draft's Vision of Investing in Future Assessment
    I strongly support provisions in the discussion draft that include 
support for a wider and more valid set of assessments, including 
performance assessments. This is not about going soft on 
accountability. This is about creating incentives to develop 
assessments that validly reflect what the next generations of American 
students truly need to know and be able to do. The proposed legislation 
is a good step in that direction.
    Some people may portray this as a backdoor attempt to water down 
accountability or to undermine rigorous standards. I don't read the 
discussion draft that way, and I wouldn't support it if I thought it 
did. I read the draft as providing incentives to try to develop more 
advanced assessments, including performance-based assessments; it 
provides a clear mandate that such assessments are not to be used for 
accountability unless and until they meet rigorous criteria 
administered by the U.S. Department of Education. It's my professional 
opinion that there is a pressing need for these more valid assessments 
for accountability, and that it will be possible to include local and 
performance assessments for accountability in ways that reliable, 
valid, and credible.
    I support the discussion draft's attention to three longer-term 
needs in assessment.
    1. It helps us attend to some very important skills that are simply 
not possible to assess well in current traditional assessments, 
particularly several aspects associated with college and work 
readiness.
    Problems of college readiness will not be solved largely by having 
a more stringent graduation standard, a longer end-of-course exam in 
Algebra, or federal performance standards for what it means to be 
proficient. Certainly we need to ensure that high school students have 
the academic knowledge these things represent. But success in college 
and success in life requires a whole set of additional skills than are 
currently being assessed. These skills have been called ``habits of 
mind'' by some. That's a fancy title, but the skills are familiar--
extended problem solving, ability to do research, write clearly, 
monitor one's own performance to be sure it is appropriately accurate 
and precise. In addition, we've heard for decades that employers care 
more about what graduates can do than what they know, and even more 
about how they actually perform in real world settings, not the 
artificial confines of a standardized test. That's why employers and 
colleges are both interested in performance assessment and 
documentation of such things as ability to communicate well orally, 
ability to work well in a small group, honesty, self-discipline, 
responsibility for getting the work done.
    I believe that we all would agree that such things are important 
and that such things are not being assessed at all in our current 
assessments. I believe that we can do much more to assess such vital 
college readiness skills, and do it in a way that is valid, reliable, 
affordable, credible, and useful. The alternative is to do nothing. And 
then, even if the grand goal of NCLB is reached in 2013-14, we'll find 
that we have students who can spit back answers on a multiple-choice 
test, with perhaps a few short answers, and even perhaps solve some 
pretty hard Algebra items about polynomial functions--but they may not 
be any better prepared to succeed in college, work, or life. The 
discussion draft represents an attempt to seize this opportunity to 
invest even a modest amount in assessing those essential learning 
skills that really matters, which we're not doing now.
    2. It provides an investment in the future infrastructure of 
assessment, such as complex performance assessments, the use of 
technology, and advanced psychometric models that incorporate what is 
known about how people learn.
    It is true that there are current technical and operational 
challenges to using performance assessments at large-scale for high 
stakes purposes. The road for implementing complex assessments in K-12 
education has been rocky. That is exactly why the field and the nation 
need the investment outlined in the discussion draft. For example, our 
children already play computer games that immerse them in realistic 
role-playing simulations, distributed group competitive strategies, and 
that support voice and motion recognition. I cannot but imagine that in 
20 years computers will have even more capacity. But I can imagine that 
unless an investment is made, educational testing in 20 years will be 
as hobbled by a lack of imagination and by 19th century measurement 
theories as it is today. Reauthorization should look to the future as 
well as try to make mid-course corrections to the present. We should 
apply what the professions, the military, industry, and other nations 
are learning about how to develop and administer complex performance 
assessments.
    3. It provides needed federal sponsorship that will catalyze 
partnerships and applications that will address and sustain the effort 
to develop new assessment infrastructure.
    I believe that universities, research centers, and the private 
sector together can help bring the next generation of valid assessments 
to the schools. But it won't happen without a catalyst to focus the 
use, practicality, and time schedule. The federal government can 
appropriately provide that sponsorship, as is proposed in the 
discussion draft. Valid accountability requires valid assessments. The 
discussion draft provides a vision and a path for both.
    It's a good time for mid-course corrections, and for investing in 
the future of college-ready and performance assessments. I urge 
Congress to support the suggestions for reauthorization I've mentioned 
today.
    Thank you for the opportunity to share these thoughts.
                                 ______
                                 
    Chairman Miller. Thank you very much. I will begin with the 
front row, and we will work our way back up.
    Mr. McKeon. I have a brief question for you, Dr. Cannaday. 
Do you know how you feel about the draft? Do you think that it 
includes enough State and local flexibility?
    Mr. Cannaday. Congressman McKeon, I believe it begins to 
move in the right direction. I would encourage that it 
differentiate that flexibility that it is predicated on. 
Experiences that demonstrate that the State is responsible, 
accountable to young people making progress, and substantial 
progress, and where that is the case, greater flexibility to 
innovate; and where it may be the case that States are less--
cannot demonstrate they are moving in an appropriate direction 
fast enough, that there be more intervention.
    So I think you are moving in the right direction, but just 
create flexibility and differentiate options.
    Mr. McKeon. Let me ask you if you would work with us to 
craft provisions that allow States to enter into a performance 
agreement with the Secretary that gives them increased 
flexibility such as consolidating numerous programs and so 
forth.
    Mr. Cannaday. We would be more than happy to.
    Mr. McKeon. Thank you.
    Chairman Miller. Thank you. I know that Mr. McKeon is a 
senior member of the Armed Services Committee, and they begin 
their hearings on General Petraeus' and Ambassador Crocker's 
report in just a short while. But thank you very much.
    Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. My question 
is directed to Mr. Cohen.
    I wanted to hear from you your thoughts on the role of 
teachers in the project that you have talked about here. Many 
of our newer and younger educators have themselves been 
disconnected in isolated systems of education by themselves.
    How are our educators oriented or reoriented to teach in a 
manner that you are recommending? And how does this draft 
legislation facilitate this type of teacher orientation with 
regard to education delivery?
    Mr. Cohen. Thank you. That is an important question, how 
teachers are involved in the processes that are laid out in 
this draft, particularly around standard setting.
    I can tell you that in the work that we have done in 
States, at the end of the day. The standards that are set are 
done by committees of K-to-12 teachers, higher-ed faculty and 
employers; and they reach out to their counterparts, oftentimes 
in very sophisticated ways in each State.
    So in a number of States, for example, at the higher-ed 
level where they have simple mechanisms in place, they have 
surveyed thousands of faculty members and shown them potential 
standards and asked for feedback.
    Most States have a mechanism, if not similar to that, at 
least a functional equivalent of involving teachers in the 
standard development process at the K to 12 level as well.
    Chairman Miller. Mr. Yarmuth?
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would like to address Mr. Cohen also on the issue of the 
local pilot program. And it probably comes as no surprise I 
would side with my fellow Kentuckian.
    Your concerns about them seem to be based on the assumption 
that local systems would not be more ambitious than the States 
might be. And I wonder why it seems like there is a sense of 
skepticism there, when, in fact, I can see easily situations 
where local districts would want to exceed the measurements 
that the State might develop.
    Mr. Cohen. I can imagine a situation where some local 
districts would want to exceed the standards that the State 
develops. What I can't figure out is how, by allowing the local 
developed assessments, given that dynamic, that you end up with 
a system of consistency across the States, where students in 
one district are held to the same expectation that students in 
another district are.
    When I listened to Brian talk, when I listened earlier to 
Linda Darling-Hammond talk about what they hoped to achieve 
through the local assessment pilot, it seems to me those are 
precisely the same things that can be achieved through the 
State assessment program that is also included in the 
legislation. I don't hear anything that is inherently local in 
the benefits of the pilot program.
    So it seems to me, if NCLB accountability is built on the 
notion that we are going to hold all students to the same 
standards, there are real advantages to doing that at the State 
level rather than the local level. That doesn't mean you can't 
involve local districts in the development of the standards, 
but then they still ought to be applied on a state-wide basis.
    Mr. Yarmuth. Well, maybe I would ask Mr. Gong to respond to 
that.
    But it also occurs to me that in some States you have 
dramatically different situations. In my district, we have one 
public school district, 97,000 kids, a very urban community 
with a lot of urban problems, particularly mobility of students 
and so forth, very different from most of the rest of Kentucky. 
So, intuitively, it would seem to me there would be great value 
in allowing some pilot programs to try to develop assessment 
systems.
    But if Mr. Gong would like to comment, that would be great.
    Mr. Gong. I think that the local pilot is really important 
because one of the shortcomings is that they have to come up 
with a decontexturalized way to assess what students know. And 
so you look at the writing prompts, for example, you have to 
have something that any student can answer but that is not 
connected at all to their curriculum.
    The local assessment, the most important feature is not 
that it is locally developed--because you do have quality 
issues--it is that it is sensitive to the context that students 
learned in. Because then you can know whether they are merely 
parroting back what the teacher said or whether they are really 
applying that. You cannot tell that in a standardized 
assessment because you don't know what the relationship is 
between the performance and the instruction.
    So the most important thing about local assessment is that 
it allows you to interpret what the students are applying and 
what they are merely repeating back.
    Chairman Miller. Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    This question is also for Mr. Cohen.
    You made the point that in setting standards for post-
secondary readiness is that the higher education community has 
to play a much larger role.
    So, just quickly, how do you see that process, going 
forward? What is the best way to structure the kind of 
articulation that would need to take place?
    Mr. Cohen. When we have worked with States doing this, we 
have asked them to create a team that involves State post-
secondary leadership, as well as faculty, particularly those 
involved in making placement decisions as to whether students 
are in credit-bearing or remedial courses, faculty from the K 
to 12 level as well, and, in a slightly different manner, 
employers.
    The main part of the process involves looking at data. What 
is the evidence, number one, about the relationship between 
what students take and learn in high school and what it takes 
to succeed in college? What are the success rates of students 
who are taking different courses, for example?
    Secondly, looking at the post-secondary curriculum in a 
range of first-year, credit-bearing arts and science courses. 
What are being taught in those courses? What will faculty there 
tell you is what they are prepared to review when students come 
in? And what are they going to say if the kid doesn't know 
that, ``They are not in the right place, because we are not 
going over that''?
    And I don't mean this just in an anecdotal manner, but with 
some evidence behind it. What we have found when we have done 
that is that it is possible to get a consistent definition of 
readiness, at least with regard to quantitative skills and some 
English, reading, writing, communication skills, to get a 
common definition of readiness across public institutions 
within a State, which is very important, because if you can do 
that, then it is very easy to say to the K to 12 system, ``Here 
is the target you need to aim for.'' If you can't get that, 
then there are thousands of targets for high schools to aim at 
and no clear definition of what it means to be ready.
    Let me just also add, when you bring the workforce training 
people into this and ask them to describe what their curriculum 
looks like, what they expect of people coming into workforce 
training programs, you tend to get this enforced as well. So it 
is important to do that, as well.
    Chairman Miller. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    I have a question for Mr. Gong.
    You say that, as the Department now uses growth, it hardly 
differs from the status method, the percent proficient, and 
that the reauthorization should include a true pilot of how 
growth could be effectively measured.
    Are you saying there are problems in the measurement and 
evaluation or in the data-keeping? What do we need to change to 
get this right?
    Mr. Gong. There are two parts. One is the definition of 
growth, and then the other is the definition of what is enough 
growth.
    In many of the systems, in fact, what is being measured is 
a combination of growth and percent proficient. And when those 
two are mixed, where they are called growth, it is not 
surprising that, in fact, you are really not giving credit for 
growth, you are really giving credit for whether those students 
start off high enough.
    The second one, I understand, is a controversial one. When 
the definition is that the students must become proficient 
within 3 years, hardly any students do that. So it is not that 
they are not growing. It is that they are not growing enough by 
that definition. And so, that is a thorny dilemma for people to 
look at.
    Empirically, we are starting to see how much students 
actually are growing in some of the highest-performing systems, 
the medium systems and lower systems. And even the very high 
ones, they are not growing enough for substantial proportions 
to be proficient in 3 years.
    Mr. Holt. Thank you.
    Chairman Miller. If I might follow on to that, I don't know 
if you heard Mr. Jennings' suggestion that that would be tied 
to high-achieving schools. Is that related to what you just 
said?
    Mr. Gong. I didn't hear Mr. Jennings' testimony.
    Chairman Miller. Well, we will match you up with the 
testimony. Thank you.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    I just want to ask one question as sort of a surrogate for 
one of my colleagues who raised a point.
    Ms. Bray and Mr. McPartland, you both talked about high 
school education and dropouts and dealing with the neediest 
students in that area. My colleague indicates that, in his 
schools, he found that there was a correlation between dropouts 
and failure to have some financial assistance in paying for 
transportation to school for 7th- to 12th-graders. And his 
thought was that it might make sense to have a Federal, State 
and local funding partnership to underwrite those 
transportation costs, at least for students that might qualify 
already for free or reduced-price school lunches.
    Have either of you heard of that problem in other 
jurisdictions, other places?
    Mr. McPartland. Well, the first thing is that kids must 
attend regularly to benefit from the high school program. One 
of the highest correlations of failing courses and dropping out 
is that kids don't get there. So if transportation is part of 
that reason, we really have to face head-on the problems of 
absenteeism and poor attendance. It is very likely, in certain 
circumstances, transportation might be part of it, and then 
that should be part of a solution.
    Mr. Tierney. And have you heard of that at all?
    Mr. McPartland. I haven't, myself. But, again, I am 
emphasizing the attendance. In the urban districts, in 
Baltimore, my own city, the kids do take public transportation. 
And there had been some safety issues that the youngsters have 
pointed out. It is not the availability of transportation but 
whether they are willing to use it or not.
    So, to that extent, I have heard about it. But, again, if 
that is what is keeping kids from attending dependably every 
day, it should be part of the solution.
    Mr. Tierney. Ms. Bray?
    Ms. Bray. I can't say we have specific information on that. 
I can tell you somewhat anecdotally many of the career and 
technical educational centers have what are called alternative 
training programs. And they are for students who are in danger 
of dropping out. They don't have enough credits; they have 
missed a lot of programs. And the transportation is provided by 
the home high school to those career tech centers, where they 
spend the day and get personalized instruction and are caught 
up and it is taught contextually. And their success rate in 
those programs is over 90 percent.
    So that is helping. But it is sort of a narrow anecdote to 
what you are asking. We don't really have information on that.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Kildee?
    Mr. Kildee. A generic question to Mike: Among the important 
elements in Title I, we have four pillars, I call it: 
standards, testing, adequate yearly progress and intervention.
    In our work--and we have done a lot of work and we have 
listened to people all over the country--is there one of those 
pillars where we should go back and do a little more work on 
that? Is one pillar weaker than the others? And, if so, could 
you be specific on where we might be weaker?
    Mr. Cohen. To be honest, I have not looked at all four 
pillars equally. But my sense is you have moved in the right 
direction on every one of them. The standards and testing 
comments, proposals, already covered--at least most of them in 
the right direction. And my guess is the differences among some 
of us could be narrowed with a little bit of discussion.
    Clearly a differentiated approach to interventions makes 
sense, making a distinction between schools that are failing to 
meet the mark by miles for all kids versus those that are just 
not there for a few. A differentiated approach makes all the 
sense in the world, so I think you are moving in the right 
direction on that as well.
    Mr. Kildee. That is encouraging. We worked hard, and we 
appreciate the input of all of you. Thank you very much.
    Mr. Cohen. Thank you.
    Chairman Miller. Thank you.
    Just let me, Ms. Bray, say, maybe you can send this to all 
the members of Congress again, the findings of your ``Ready for 
College and Ready to Work,'' that you stated in your testimony 
that the levels of readiness for high school graduates need to 
be prepared for college and for the work training programs are 
comparable. That is what I hear from employers and from college 
personnel in my district all the time, whether it is community 
college or State college or the university system. And somehow 
we have got to figure out how we do that.
    I would also say that, too often, within the Beltway, 
current technical education is still sort of viewed that this 
is the vocational education that we grew up with 30 years ago, 
and not recognizing how complicated the workplace is today, the 
proliferation of technical manuals to keep up with skills that 
are yesterday's titles but vary today in terms of technical 
skills and critical thinking skills. And so I appreciate you 
for your testimony.
    Let me just say I am quite pleased at the attention that 
this pilot project is getting. Because I have talked to so many 
CEOs, so many venture capitalists, so many economists that tell 
me one of the real problems we have here is, while we are 
reauthorizing this legislation, is, at the same time, to think 
about the future. Because this isn't about kids graduating 
today; it is about kids moving into a workforce where they are 
going to be required to have another set, you know, more and 
more, a set of skills that aren't taught in more schools. And 
that is: working cooperatively, working in collaboration, 
working across school districts, across school rooms to develop 
a set of skills.
    And I remember back to my opposition to the growth model 
for a number of years and then watching a pilot project evolve 
to such a point where I felt I had confidence in it, but many 
people had confidence in it before me. As I think Mr. Gong 
pointed out, this has been under discussion for a very long 
time but has never had the kind of financing that might allow 
us to make a determination whether or not there is another way 
of providing assessments that drive the kind of curriculum, the 
kind of skills that we want.
    We would, if it was adopted--and, mind you, it is a long 
way to adoption from today, and it would have to be signed off 
by the Secretary and the panels and all the rest of that--we 
would still require that they have to participate and be 
measured on statewide exams on math and reading.
    But I am encouraged that it has got--I thought this would 
be buried in the bill and wouldn't get the kind of attention 
that so many people who are betting, if you will, real money, 
real jobs and real decisions about staying in America or not 
with their future investments are telling me the skills that 
they need.
    As I have said, repeating what they have told me, that they 
need graduates and people who can work across companies, across 
the country and across continents. And those skills they don't 
see being truly developed under this system today. And they are 
very worried that we are not thinking about the kid who is 
starting school today in kindergarten as opposed to thinking 
about the one that is in 4th or 8th grade and we are drilling 
in on that student.
    We are trying to build an improved system for those current 
students. We are also trying to build in the opportunity to 
look at how we make overall improvements and options available.
    So thank you very much for your testimony. And again, we 
look forward to working with you as we go through your remarks 
or suggestions. They are very helpful to us, and we will 
continue that. So thank you for your time and your expertise on 
this matter.
    Our next panel, focusing on civil rights organizations, 
will begin with Nancy Zirkin, who is the vice president and 
director of public policy for the Leadership Conference on 
Civil Rights; Peter Zamora is the regional counsel for the 
Mexican American Legal Defense and Educational Fund; Stephanie 
Jones is the executive director of the National Urban League; 
Dan Losen, who is the senior education law and policy associate 
with the Civil Rights Project; and Dianne Piche, who is the 
executive director of the Citizens' Commission on Civil Rights; 
Delia Pompa, who is the vice president of the education 
programs for National Council of La Raza; Katy Neas, who is the 
director of congressional relations for the Easter Seals' 
Consortium for Citizens with Disabilities; and Myrna 
Mandlawitz, who is policy director of the Learning Disabilities 
Association of America.
    Welcome, and thank you for being here what is now, I guess, 
this afternoon. And, again, thank you for so much help, you and 
members of your organizations, and resources that you have 
pointed us to, have provided to us, as Mr. McKeon and Mr. 
Castle and Mr. Kildee and I have tried to develop this 
discussion draft.
    Nancy, we will begin with you. Welcome.
    And, again, the lights will be green, after 4 minutes 
yellow--most of you know this process--it will be yellow, and 
then red we would like you to be able to finish up. But, again, 
we want to make sure that you impart what you want to the 
committee.
    Welcome.

   STATEMENT OF NANCY ZIRKIN, VICE PRESIDENT AND DIRECTOR OF 
      PUBLIC POLICY, LEADERSHIP CONFERENCE ON CIVIL RIGHTS

    Ms. Zirkin. Thank you. I am Nancy Zirkin, vice president of 
the Leadership Conference on Civil Rights, which is the 
nation's oldest, largest and most diverse civil and human 
rights coalition. With nearly 200 member organizations, they 
are united in the belief that access to a quality public 
education is a fundamental civil right for all children.
    I would like to thank Chairman Miller and Ranking Member 
McKeon for the opportunity to testify today and for your 
leadership and the hard work you and your staffs have been 
putting into this reauthorization. We appreciate our input into 
the process.
    Within the coalition, there is a great diversity of 
opinions about No Child Left Behind. You will hear from several 
LCCR members on this panel and undoubtedly others before the 
end of the day. There are some provisions in this draft that we 
all support, such as differentiated consequences for our 
schools that fail to make AYP. And there are some provisions 
that several or more of LCCR groups won't agree with.
    What we can all agree on is that the law needs substantial 
improvements, which must be done very carefully.
    Toward that end, we are particularly pleased by the 
attention being given to high school improvements and the 
graduation rate crisis afflicting low-income and minority 
students.
    Setting a dedicated funding stream for high schools as well 
as a clear and realistic definition of graduation rates and 
demanding real accountability for all subgroups is long 
overdue.
    However, we would caution you to avoid reducing a school's 
dropout rate to be used as a substitute for improving its 
graduation rate. States and schools must not be allowed to 
classify students who have left school as anything other than a 
dropout unless they have verified that the student has enrolled 
in another school. There must be accountability for any student 
who does not stay in school through graduation.
    We also have serious reservations about the inclusion of 
local assessments in the bill. We share the desire to find a 
way to spur innovation to improve the quality of assessments, 
and appreciate your attempting to actually do so with the pilot 
project in Section 1125.
    Even though the draft would require that the State 
assessment still be given, we remain concerned about the 
implementation of local assessments, including how performance 
on the tests would be factored into AYP determinations and the 
practicable ability of any State, let alone the Department of 
Education, to effectively monitor them to ensure that they are 
not used to evade or weaken accountability under the AYP 
rubric.
    While the timing of the release has not allowed us to fully 
review it, we are encouraged by the inclusion of Title VI in 
the pilot project program for enhanced assessments on a 
statewide basis. We hope that the final draft will place 
greater emphasis on this approach to improving assessments.
    We also appreciate the draft's approach to English language 
learners. And we share the views which you will hear shortly by 
Ms. Pompa and Mr. Zamora.
    We made clear in our testimony and policy letter at the 
joint committee hearing on March 13 that, while substantial 
improvements are needed in how the law treats language minority 
students, inclusion and accountability for these students is 
essential. We believe that sensible revisions to the law can 
maintain and strengthen accountability, improve the funding 
structure, implement what we have learned so far and make the 
law fair, flexible and funded, as Chairman Miller has called 
for. Missing this opportunity to reauthorize the law would have 
terrible consequences in the field where improvements are 
desperately needed.
    We look forward to continuing to work with the committee to 
strengthen the law and its implementation and to seek a careful 
and deliberative reauthorization in this Congress.
    Thank you, Mr. Chairman.
    [The statement of Ms. Zirkin follows:]

  Prepared Statement of Nancy Zirkin, Vice President and Director of 
      Public Policy, Leadership Conference on Civil Rights (LCCR)

    Good morning, I am Nancy Zirkin, Vice President and Director of 
Public Policy of the Leadership Conference on Civil Rights (LCCR), the 
nation's oldest, largest, and most diverse civil and human rights 
coalition, with nearly 200 member organizations that are united in the 
belief that access to a quality public education is a fundamental civil 
right for all children.
    I would like to thank Chairman Miller, Ranking Member McKeon, and 
all of the Members of Committee for the opportunity to testify today, 
for your leadership, and for the extraordinarily hard work you and your 
staffs have been putting into this reauthorization. We appreciate 
having been brought into the process and that some of our input is 
reflected in the current draft.
    The Elementary and Secondary Education Act (ESEA) may be the most 
complicated law this Congress addresses, but from the perspective of 
the civil rights coalition, it may also be the most important. Some 
groups within and outside of our coalition are inclined to defend the 
current law against almost any changes. The agenda of others appears to 
be to completely dismantle the law. Neither option is acceptable.
    Within the coalition, there is a great diversity of opinions about 
No Child Left Behind--you've already heard from several LCCR members on 
this panel, and several more will be testifying later today. There are 
some provisions in this draft that we all support, such as 
differentiated consequences for schools that fail to make Adequate 
Yearly Progress (AYP), and there may even be a few that most oppose.
    What we can all agree on is that the law needs substantial 
improvements, which must be done very carefully. Towards that end, we 
are particularly pleased by the attention being given to high school 
improvement and the graduation rate crisis afflicting low-income and 
minority students. Setting a clear and realistic definition of 
graduation rates and demanding real accountability for graduation for 
all subgroups is long overdue, as is a dedicated funding stream for 
high schools.
    However, we would caution you to avoid allowing reducing a school's 
``dropout'' rate to be used as a substitute for improving its 
graduation rate. There are too many examples of states and schools 
finding ways to classify students who have left school as anything 
other than a ``dropout.'' The bottom line is whether the child stayed 
in school through graduation and there must be accountability for any 
student who did not.
    We also have serious reservations about the inclusion of local 
assessments in the bill. We share the desire to find a way to spur 
innovation to improve the quality of assessments and appreciate that 
you are attempting to do so with the pilot project in Section 1125. We 
recognize that the draft would require that the state assessment still 
be given, however we remain concerned about the implementation of local 
assessments, how performance on the tests would be factored into AYP 
determinations, and the practical ability of any state--let alone the 
Department of Education--to effectively monitor them to ensure that 
they are not used to by individual ``bad actors'' to evade or weaken 
accountability under the AYP rubric. While the timing of the release of 
Title VI has not allowed us to fully review it, we are greatly 
encouraged by the inclusion of Section 6112, the pilot program for 
enhanced assessments on a state-wide basis. We hope that the final 
draft will place greater emphasis on the state-wide approach to 
improving assessments.
    We also appreciate the draft's approach to English language 
learners (ELLs) and share the views already expressed by Ms. Pompa and 
Mr. Zamora. We made clear in our testimony and policy letter at the 
joint committee hearing on March 13th that while substantial 
improvements are needed in how the law treats language minority 
students, inclusion and accountability for these students is essential. 
In light of the poisonous atmosphere left behind by the failure of 
comprehensive immigration reform, ensuring the inclusion of ELLs--
nearly 80 percent of whom, contrary to popular perception, are American 
citizens--is more important than ever.
    There has already been some posturing on both sides about it being 
better to let this reauthorization fail rather than make some 
compromises to build a governing consensus. In the interests of 
children who truly have been left behind--and are still being left 
behind 5 years after NCLB was passed--we urge you not to let that 
happen.
    We believe that sensible revisions to the law can maintain and 
strengthen accountability, improve the funding structure, implement 
what we have learned so far, and make the law ``fair, flexible, and 
funded,'' as Chairman Miller has called for. Missing this opportunity 
to reauthorize the law would have terrible consequences in the field 
where improvements are desperately needed and in Washington, where the 
political climate for the law is likely to deteriorate further.
    We look forward to continuing to work with the Committee to 
strengthen the law and its implementation, and to seek a careful and 
deliberative reauthorization this year.
    Thank you very much.
                                 ______
                                 

    Prepared Statement of the Leadership Conference on Civil Rights

Reauthorize the No Child Left Behind Act with More Funding, Better 
        Enforcement, and Additional Supports for Struggling Schools
    Dear Chairman Kennedy and Chairman Miller: On behalf of the 
Leadership Conference on Civil Rights (LCCR), the nation's oldest, 
largest, and most diverse civil and human rights coalition, with nearly 
200 member organizations, we are writing to express our priorities for 
the reauthorization of the No Child Left Behind Act (NCLB). While it 
has been a controversial law, NCLB's goal of educating all children, 
regardless of race, gender, disability, language or economic status, is 
laudable. LCCR is committed to strengthening implementation and 
enforcement of NCLB, as well as working toward improvements in the 
statute and significantly overdue increases in funding.
    LCCR believes that access to a high quality education is a 
fundamental civil right for all children and that several core 
principles must be adhered to in federal education policy. First, 
federal policy must be designed to raise academic standards. Second, 
those high standards must apply equally to all students, of all 
backgrounds. Third, schools should be held accountable for meeting 
academic standards. Fourth, there should be good quality assessments 
that are linked to academic standards. Finally, federal and state 
governments must ensure that schools, particularly those in 
neighborhoods of concentrated poverty, have the resources they need to 
give all children the chance to meet those standards.
    When NCLB was passed, its ambitious goals were accompanied by 
ambitious funding authorization levels and extensive promises from the 
administration and Congress to fund the law's programs. Of great 
importance, the most targeted part of the Title I formula was funded 
for the first time following the passage of NCLB, resulting in 
significant increases in federal funds for districts with the highest 
concentrations of students from low income families. While there was 
also a substantial overall first-year increase over pre-NCLB federal 
education funding levels, funding has fallen far short of the law's 
authorized levels. The cumulative funding shortfall is already over $56 
billion and one conservative estimate of President Bush's FY 08 budget 
request places it $14.8 billion below a projected figure based on the 
current NCLB's authorization levels. If this Congress is serious about 
education reform, it must prioritize education spending.
NCLB Can Do More to Raise State Standards and Align Standards with 
        Curricula
    At its core, NCLB depends on state standards and state definitions 
of student proficiency at meeting those standards, and ultimately takes 
on faith that schools and school districts will adequately align their 
curricula with the state standards and provide all children the 
opportunity to meet the standards. Experience has now shown that in too 
many places, standards are not high enough, some states are setting the 
bar for proficiency too low, and curricula, standards, and assessments 
are not adequately aligned to give all students--and their teachers--a 
fair chance to meet the standards. In some schools, particularly those 
with extreme poverty concentration, where many minority students are 
enrolled, children are not provided with a rich challenging curriculum 
that is aligned to the standards. As a consequence, they may be tested 
on material that they have had no actual opportunity to learn. LCCR 
believes there are many areas where NCLB can be strengthened to require 
more front end planning by state and local education agencies, 
including:
    <bullet> Section 1111(b) should adopt a mechanism to ensure that 
state academic and proficiency standards are subject to review to 
ensure that both are sufficiently rigorous to keep students on track 
for on-time graduation from high school and entry into postsecondary 
education or the workforce.
    <bullet> There should be dedicated funding for voluntary state 
consortia designed to pool expertise and resources to raise state 
standards. Access to this additional pool of grant funding should come 
with additional oversight from the Department of Education.
    <bullet> Recipients of Title I funding should be required to ensure 
that curriculum in Title I schools is aligned with stat standards. 
Specifically, sections 1111 and 1112 should be amended to require that 
state education agencies (SEAs) and local education agencies (LEAs), 
respectively, describe in their Title I plans the concrete steps they 
will take to ensure this alignment occurs and is carried out in each 
Title I school. These new provisions should be accompanied by guidance 
from the Department on what constitutes proper alignment and by 
dedicated funding for professional development to train staff 
throughout the educational system on how to do it.
NCLB Can Do More to Improve Assessments
    Assessments play a crucial role in NCLB and their results have high 
stakes consequences for schools, educators, students, and parents. NCLB 
depends on reliable assessment data for its accountability system. 
States bear the primary responsibility for assessments and more should 
be done to ensure that states do not cut corners and that assessments 
are truly aligned with standards. Unfortunately, the federal government 
has done the bare minimum required under the law to fund assessments, 
appropriating only $2.34 billion during the first six years of NCLB. 
According to a study by the GAO, it would have cost an additional $3 
billion to fund the type of blended multiple choice and constructed 
response system many experts believe is necessary for an accurate in-
depth measure of student learning. LCCR believes NCLB can improve 
assessments and build greater public understanding and support for the 
accountability system by:
    <bullet> Substantially increasing funding for the development of 
better assessments in reading/language arts and mathematics and of new 
assessments required under the law in science, including subsidizing 
the development of constructed response testing.
    <bullet> Dedicating funding for professional development targeted 
toward assessment literacy for parents and educators to ensure that 
they understand the process and development of assessments and how they 
relate to the standards and curricula.
    <bullet> Requiring that information explaining the assessments and 
how the data will be used, as well as the local education agency report 
cards, be distributed to parents in multiple media, formats accessible 
to the lay person, and in alternative languages.
    <bullet> Promoting parental involvement through inclusion in 
sections 2113 and 2123 of funding for professional development for 
educators and principals, respectively, on effective parental and 
family communications and engagement strategies.
Building Public Support for School Interventions that Will Help 
        Struggling Schools
    LCCR is committed to NCLB's goal of supporting students in 
struggling schools. We hope that with a renewed emphasis on 
accountability and funding, some additional supports, and refinements 
to improve implementation, schools in need of improvement can be turned 
around. LCCR believes NCLB should be amended to:
    <bullet> Permit LEAs to continue to provide interventions and 
support to a school for one additional year after that school has 
exited In Need of Improvement status while the LEA reviews the 
effectiveness of the measures and plans for how to maintain the gains. 
The interventions that can be continued should include the full 
remedies allowed by the statute, including school choice and 
supplemental education services (SES), and all in-school interventions 
such as professional development.
    <bullet> Require states to evaluate the quality and effectiveness 
of their SES providers and ensure that providers are serving the full 
range of students, including English language learners (ELLs) and 
students with disabilities.
    <bullet> Allow the Secretary to grant waivers, on a case-by-case 
basis, enabling districts in need of improvement to become certified as 
SES providers if they can demonstrate their capacity to provide 
effective services.
    <bullet> Require that teachers in schools in need of improvement 
have data reports on their incoming students prior to the start of the 
academic year so that they have a reasonable opportunity to tailor 
instruction to the academic strengths and weaknesses of their students.
    <bullet> Ensure that teachers and parents are fully included in all 
stages of the development and implementation of the school improvement 
plan, which should include access to professional development for 
improving knowledge and skills on data use, selecting effective 
programs and curricula, and developing school-based leadership for 
school reform.
    <bullet> Reverse the Department's assertion that SES providers are 
not recipients of federal funds, and therefore not directly subject to 
several federal civil rights laws, including Title VI of the Civil 
Rights Act of 1964, Title IX of the Education Amendments of 1972, 
Section 504 of the Rehabilitation Act of 1973, and the Age 
Discrimination Act of 1975.
Updating the Calculation of Adequate Yearly Progress through the 
        Inclusion of Growth Models
    The fundamental task of all schools and teachers is ensuring the 
academic success of their students. When students begin the year at 
grade-level, or proficient in NCLB terms, the relevant growth is just 
one academic year to stay at grade-level and proficient for the next 
year. But, NCLB data has given us bracing and undeniable evidence of 
how far behind so many of our students are. To bring 100 percent of 
those children up to grade-level proficiency, NCLB now seeks to hold 
schools accountable for much more than just regular annual growth. In 
that context, giving schools credit toward meeting their adequate 
yearly progress (AYP) requirements for an accelerated growth trajectory 
makes sense and LCCR supports it, however does so with the following 
qualifications:
    <bullet> No growth model should be implemented without a robust 
data system in place capable of reliably tracking individual students 
from year to year.
    <bullet> For English language learners, evidence suggests rapid 
initial growth that corresponds to the initial period of language 
acquisition, but that initial growth cannot be used for the basis of a 
projection for sustained subject matter content growth. At this time, 
there does not appear to be any viable growth model available for ELL 
students. The statute should require that the Department carefully 
scrutinize any state proposal for how it plans to account for ELL 
students within a growth model.
Educational Services and Assessments Must be Improved for English 
        Language Learners
    Students who are still learning English have been poorly served by 
the educational system for far too long. NCLB's disaggregated data is 
helping to highlight the gross contours of the problem, but is still 
not giving a very clear picture of it or doing enough to solve the 
disparities. Better communication and outreach to parents in accessible 
languages, higher quality alternative language assessments, and equal 
access to supplemental services for ELLs are all necessary. LCCR does 
not support additional exemptions of ELLs from Title I assessments 
beyond the current one-year exemption in reading/language arts for 
newly-arrived ELLs. LCCR believes that NCLB should be amended to:
    <bullet> Establish a separate funding stream to ensure the 
development of appropriate academic assessments for ELLs. Priority 
should be given to states with the highest numbers of ELLs.
    <bullet> Require that states with significant ELL populations from 
a single language group develop valid and reliable content assessments 
designed specifically for that language group.
    <bullet> Require SEAs to certify that there are SES providers on 
their providers list with demonstrable capacity in meeting the 
educational needs, including language acquisition needs, of ELLs. SEAs 
must also ensure that appropriate SES providers operate in locations 
with high ELL populations.
    <bullet> Require SEAs and LEAs to undertake linguistically and 
culturally sensitive outreach (including partnering with community-
based organizations) to notify students and parents of student 
eligibility for SES and/or school choice.
    <bullet> Require that schools, in calculating AYP, include in the 
limited-English-proficient (LEP) category: 1) current ELLs; and 2) 
former ELLs who have exited the LEP category within the last two years.
    <bullet> Require, for the purpose of public reporting of student 
academic performance, that the LEP category be disaggregated into the 
following:
    1) LEP students who enter the U.S. school system at 9th grade or 
above; 2) students who have exited the LEP category within the last two 
years; and 3) recent arrivals who are ELLs who have been in the U.S. 
school system for less than 12 months.
    <bullet> Limit the ability of schools and school districts to 
obscure the failure to reach ELL students (or other subgroups) through 
large ``N-size'' statistical cut-offs. N-sizes should be consistent for 
all AYP subgroups within a district or school.
Federal Education Law Should Create Meaningful Graduation Rate 
        Reporting and Help Schools Reduce Dropout Rates
    High school graduation is a minimal qualification for economic 
opportunity, yet it is an opportunity that is rapidly slipping away 
from as many as half of African-American, Latino, and Native American 
children, and a quarter of white children. Students with disabilities, 
low-income students, language minority students, and students from some 
groups within the Asian Pacific Islander community are also graduating 
at alarmingly low rates. Inconsistent--and often deliberately 
misleading--school reporting of official dropout rates has hidden the 
extent of the problem for too long and there are reasons to be 
concerned that increased accountability for test scores may create 
additional pressure to ``push out'' more students. LCCR believes that 
NCLB should be amended to:
    <bullet> Require graduation rate reporting that is disaggregated by 
subgroup and in a format that can be fully cross-tabulated.
    <bullet> Require graduation data based on the year-to-year 
promotion rate method of accounting for all students as they progress 
each year beginning in ninth grade.
    <bullet> Use graduation rates that have clear and consistent 
national definitions, and are reported as 4-year and 5-year (and 
possibly others) completion rates.
    <bullet> Prohibit schools from exempting students who have been 
incarcerated from their graduation rate calculation, out of concern for 
the growing problem of the school-toprison pipeline.
    <bullet> Fund data system upgrades and the training and support 
required to manage the longitudinal data systems necessary to track 
multi-year graduation rates.
    In addition to improving reporting, there are many programs the 
federal government can promote to improve graduation rates for 
vulnerable students and schools. LCCR supports amending the law to:
    <bullet> Fund research and technical assistance on indicators of 
dropping out in early grades and effective early intervention 
strategies.
    <bullet> Add individual graduation plans for parenting teens and 
students facing other graduation challenges, such as chronic 
absenteeism.
    <bullet> Target professional development to dropout prevention.
    <bullet> Fund more intervention programs and services to reach 
students at risk of dropping out.
    <bullet> Add requirements in the SEA and LEA plans on rigorous 
coursework and on-grade course-taking.
    <bullet> Make career and technical education (CTE) programs more 
widely available for students for whom CTE programs can serve as an 
incentive to graduate.
    <bullet> Support Early College High Schools to address one area of 
lack of proficiency, e.g. reading, language proficiency, math, or 
science.
    <bullet> Fund extended learning time in high school.
    <bullet> Strengthen parental involvement provisions.
    LCCR believes that access to a high quality public education is a 
civil right for all children and that in the tradition of the Civil 
Rights Act 1964 and the Voting Rights Acts of both 1965 and 2006, the 
No Child Left Behind Act can play an important role in making that 
right a reality. We look forward to working with Congress to strengthen 
the law and its implementation. For additional information, please 
contact Nancy Zirkin at (202) 263-2880 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="376d5e455c5e5977545e415e5b455e505f434419584550">[email&#160;protected]</a>, or 
David Goldberg, Program Manager and Special Counsel, at (202) 466-0087 
or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="43042c2f272126312403202a352a2f312a242b37306d2c31246d">[email&#160;protected]</a>
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Zamora?

 STATEMENT OF PETER ZAMORA, REGIONAL COUNSEL, MEXICAN AMERICAN 
               LEGAL DEFENSE AND EDUCATIONAL FUND

    Mr. Zamora. Chairman Miller, members of the committee, I am 
Peter Zamora, Washington, D.C., regional counsel for the 
Mexican American Legal Defense and Educational Fund.
    Founded in 1968, MALDEF is a national, nonprofit legal 
organization that uses litigation, policy advocacy and 
community education to protect the civil rights of the Latino 
community.
    The Elementary and Secondary Education Act is a critical 
civil rights statute for Latinos. Latino students, who comprise 
20 percent of America's K-12 student population, often 
experience extreme education inequality in our nation's public 
schools. The No Child Left Behind Act has highlighted this 
inequality and has tried to ensure that schools and school 
districts could no longer prioritize the education of certain 
student populations at the expense of others. The current 
reauthorization presents a historic opportunity to build upon 
current law while correcting defects that have limited its 
effectiveness.
    My comments today will focus upon the nation's 5.5 million 
English language learners, who comprise over 10 percent of the 
total student population. Over three-quarters of the ELLs are 
Latino, and nearly half of Latino students are ELL.
    Despite common assumptions to the contrary, native-born 
U.S. citizens predominate in this student population, which 
often suffers particularly acute educational inequality and 
underperforms on nearly every measure of academic performance. 
The ESEA must promote increased resources, better instruction 
and improved academic outcomes for this large and growing 
student population.
    ELLs require academic assessments or assessment 
accommodations that are tailored to their academic and 
linguistic needs. The bipartisan draft bill recently released 
by this committee provides greatly increased supports for 
improved native language assessments, simplified English 
assessments, portfolios and testing accommodations for ELLs.
    First, the bill would target significant levels of federal 
funds for States to develop valid and reliable assessments for 
ELLs. States would be required to implement appropriate 
academic content assessments for ELLs within 2 years or face 
withholding of State administrative funds.
    The bill also supports the increased use of native language 
assessments, which are most appropriate for recently arrived 
ELLs and students who receive dual language instruction.
    The bill would also strengthen accountability for ELLs who 
are not tested in their native languages by requiring States to 
implement research-based practices to provide accommodations 
for ELLs who are tested for content in English.
    These key reforms will ensure that States will finally, 15 
years after they were first required to do so under the 1994 
act, develop and use assessments that generate meaningful 
results for ELLs.
    At the same time, the bipartisan draft grants increased 
flexibility to State and local officials in the treatment of 
ELLs under ESEA. Notably, during the 2-year window in which 
States are developing appropriate assessments for ELLs, the 
draft bill would permit schools and districts to calculate AYP 
for reading using results from English proficiency assessments 
for students at the lowest levels of English proficiency.
    It also permits schools and districts to exempt the scores 
of recently arrive ELLs from one administration of the language 
arts assessment and to count former ELLs in the ELL subgroup 
for 3 years after they gain English proficiency.
    So under the terms of the bipartisan draft, teachers and 
local education officials will finally have the tools that they 
need to measure ELL student knowledge, and they will gain 
increased flexibility in the inclusion of ELLs in local 
accountability systems. States will receive increased federal 
funding and technical assistance to support ELL assessment and 
instruction. And ELLs will finally be permitted to participate 
on an equal basis in ESEA programs and to fully benefit from 
key reforms to education systems nationwide.
    So, in conclusion, the No Child Left Behind Act has focused 
greatly increased attention upon the academic concerns of the 
Latino population and especially English language learners. The 
poor student outcomes of Latinos and ELLs were generally a 
well-kept secret prior to NCLB. This, thankfully, is no longer 
the case.
    But the act can be improved, especially for ELLs, by key 
reforms that will be authorized under the bipartisan draft bill 
that will be debated in this committee later this month. As we 
move forward in enacting and in later implementing this key 
civil rights law, we must ensure that we fully consider the 
interests of Latinos and ELLs in every provision of the act.
    The draft bill currently contains many new proposals, 
including growth models, multiple measures of achievement and 
local assessments, that, if approved, will require that 
officials pay particular attention to the needs of Latinos and 
ELLs in order to ensure that these measures are implemented 
effectively. For, if any of the ESEA's provisions are 
ineffective for Latinos and for ELLs, they will be ineffective 
in eliminating educational disparities in America's public 
schools, and a large and growing population of our future 
workforce will be unprepared for the demands of the 21st-
century workplace.
    So MALDF looks forward to continuing to work with this 
committee and with the full Congress to renew the ESEA in a 
manner that meets the needs of Latino students and ELLs. Thank 
you very much.
    [The statement of Mr. Zamora follows:]

 Prepared Statement of Peter Zamora, Washington, DC, Regional Counsel, 
      Mexican American Legal Defense and Educational Fund (MALDEF)

    Chairman Miller, Congressman McKeon, I am Peter Zamora, Washington 
D.C. Regional Counsel for the Mexican American Legal Defense and 
Educational Fund (MALDEF). Founded in 1968, MALDEF is a national 
nonprofit legal organization that employs litigation, policy advocacy, 
and community education programs to protect and promote the civil 
rights of the Latino community.
    The Elementary and Secondary Education Act of 1965 (ESEA) is a key 
federal civil rights statute for the Latino community. Latino students, 
who comprise 20% of America's K-12 student population,\1\ have 
traditionally experienced extreme educational inequality in our 
nation's public schools.\2\ The 2002 reauthorization of the Act, 
commonly known as the No Child Left Behind Act, greatly strengthened 
the ESEA for Latino students by holding states, school districts, and 
schools accountable for the academic success of all students. By 
disaggregating data for racial and ethnic minorities, language 
minorities, low-income students, and students with disabilities, the 
Act ensured that schools could no longer prioritize the education of 
certain student communities at the expense of others. In highlighting 
disparities in educational outcomes that continue to characterize U.S. 
public education, the ESEA has required officials at every level of 
government to focus upon addressing inequalities that mar our national 
commitment to educational opportunity.
    The current reauthorization of the Elementary and Secondary 
Education Act presents an historic opportunity to build upon the 
achievements of the 2002 reauthorization while remedying defects that 
have limited the law's effectiveness in eliminating educational 
inequalities. I am pleased to offer MALDEF's views regarding the 
reauthorization this critical federal civil rights law.
I. English Language Learners and the ESEA
    While the Elementary and Secondary Education Act has greatly 
affected the entire Latino student community, it has been particularly 
significant for English language learner (ELL) students, who often face 
particularly acute educational inequalities. My testimony will focus 
upon the particular needs of the ELL student population and the 
bipartisan draft bill's reforms relating to ELLs.
    The nation's 5.5 million English language learner (ELL) students\3\ 
significantly underperform on nearly every measure of academic 
performance. In the 2005 National Assessment of Educational Progress, 
for example, only 29% of ELLs scored at or above the basic level in 
reading, compared with 75% of non-ELLs.\4\ ELLs also drop out of school 
at very high rates: Latino ELLs aged 16-19, for example, have a 59% 
dropout rate.\5\
    The academic success of the ELL student population is critical to 
the success of the Latino community and the U.S. student population as 
a whole. Over three-quarters of ELLs are Latino, and nearly half of K-
12 Latino students are ELL.\6\ Over the past fifteen years, ELL student 
enrollment has nearly doubled, and experts predict that one-quarter of 
the total U.S. public school population will be made up of ELLs by 
2025.\7\
    Despite common assumptions to the contrary, native-born U.S. 
citizens predominate in the ELL K-12 student population: 76% of 
elementary school and 56% of secondary school ELLs are citizens, and 
over one-half of the ELLs in public secondary schools are second- or 
third-generation citizens.\8\ The stereotype of ELLs as foreign-born 
immigrants is, therefore, inaccurate: the majority are, in fact, long-
term ELLs whose academic and linguistic needs are not being met by our 
public school system.
II. Invalid and Unreliable Assessments Have Hindered the Effective 
        Operation of the ESEA for ELLs
    The No Child Left Behind Act adopted a sound approach to improving 
ELL student achievement. ELLs face the dual challenge of learning 
English while simultaneously gaining academic knowledge in an 
unfamiliar language.\9\ NCLB addresses each aspect of this challenge: 
Title I requires accountability for the content knowledge of the ELL 
subgroup, while Title III requires accountability for English language 
acquisition.
    Significant implementation failures by federal and state agencies 
have severely hindered the effectiveness of NCLB for ELLs, however. 
Chief among these implementation failures is that states have not yet 
implemented valid and reliable Title I content or language proficiency 
assessments for ELLs, and the U.S. Department of Education has not 
provided sufficient technical assistance or guidance to the states in 
the development of appropriate assessment policies and practices.\10\ 
Consequently, schools and districts have struggled under NCLB to 
demonstrate academic gains for the ELL student population, and ELLs 
have been denied the full benefit of the law's key reforms.
III. Ongoing Efforts to Improve Assessments for ELLs
    In order for the ESEA to be effective in eliminating educational 
disparities, ELL students require assessments and/or assessment 
accommodations that are tailored to their specific academic and 
linguistic needs. This is required not only by sound educational 
practice and the express terms of ESEA, but by the Supreme Court's 
decision in Lau v. Nichols.\11\ Lau held that Title VI of the Civil 
Rights Act of 1964 requires schools to deliver academic services to 
ELLs that are tailored to their linguistic abilities and academic 
needs.\12\
    Although the statutory requirement for valid and reliable 
assessments for all students originated in the Improving America's 
Schools Act of 1994, the U.S. Department of Education (ED) has only 
recently begun to enforce these provisions as they relate to ELL 
students. ED has also recently embarked upon a long-overdue project to 
provide technical assistance to states in developing and implementing 
appropriate assessment policies and practices for ELL students.
    In August of 2006, MALDEF, the National Council of La Raza, the 
U.S. Department of Education, and education officials from all 50 
states launched the ``LEP Partnership'' to provide technical assistance 
in appropriate ELL assessment practices to the states. The LEP \13\ 
Partnership unites assessment experts, federal and state officials, and 
advocates in an unprecedented collaborative. Our focus is to improve 
assessment practices for the 2006-07 testing cycle and to support 
improved ELL assessment practices for future years. The next formal LEP 
Partnership meeting will be held in Washington, D.C. in October of 
2007.
    Our efforts are beginning to yield results, but Congress must 
provide additional support to states in the development and 
implementation of appropriate academic and linguistic assessments for 
ELLs. The technical expertise needed to develop and implement sound 
assessments for ELLs exists, but thus far we have not generally seen 
necessary efforts at the federal and state levels to appropriately 
include ELLs in statewide assessments. Both the federal government and 
the states must do much more to implement native language, simplified 
English, portfolio, and other assessments designed to measure ELLs' 
academic content knowledge.
IV. The Committee on Education and Labor's Draft ESEA Reauthorization 
        Bill
    In its bipartisan draft bill to reauthorize the Elementary and 
Secondary Education Act of 1965, the Committee on Education and Labor 
has proposed critical reforms that will greatly improve the 
effectiveness of the Act for ELLs. This ``discussion draft'' provides 
increased federal supports for appropriate assessment practices as well 
as flexibility for schools, districts, and states in the treatment of 
ELLs under ESEA accountability systems. Many of the Committee's 
proposed reforms respond to proposals offered by the Hispanic Education 
Coalition, which unites 26 key national and local organizations in 
support of improved Latino educational opportunities. These reforms 
will greatly assist schools, districts, and states in demonstrating 
academic growth for ELLs and will ensure that ELLs may benefit from 
education reforms prompted by the ESEA.
    First, the discussion draft provides significant levels of targeted 
funding for the development and implementation of valid and reliable 
academic content assessments for ELLs. It would require states that 
have not implemented appropriate assessments for ELLs to immediately 
target 16.5% of their state assessment funds to developing and 
implementing assessment systems that will allow ELLs to be 
appropriately included in ESEA accountability.\14\ States would be 
allowed two years from the date of enactment to develop assessment 
systems that generate valid and reliable results for ELLs.\15\ To 
enforce this provision, the statute would require the Secretary to 
withhold up to 25 percent of states' Title I administrative funds if 
they have not developed appropriate assessments 2 years from the date 
of enactment.\16\ These critical reforms will ensure that states will 
finally, fifteen years after they were first required to do so by the 
1994 ESEA, implement assessment systems that generate meaningful 
results for ELLs.
    The discussion draft would also provide key federal supports for 
the increased use of native language academic content assessments, 
which are most appropriate for newly-arrived ELLs and students who 
receive dual language instruction. Under current law, states are 
required to implement such assessments when it is ``practicable,'' but 
most states have not prioritized the development and implementation of 
native language content assessments. To remedy this defect in NCLB 
implementation, the draft bill would enact a ``trigger'' to ensure that 
schools and districts are able to assess members of significant 
populations of ELLs in their native languages, when consistent with 
state law.\17\ This reform will especially support schools and 
districts that offer dual language instruction, which education 
research has shown to be the most effective instructional method for 
ELLs.
    The bill would also strengthen accountability systems for ELLs who 
are not tested in their native languages. It would require state 
education agencies to implement policies to provide assessment 
accommodations for all ELLs and present research-based evidence of the 
accommodations' effectiveness in yielding valid and reliable data on 
ELL academic achievement.\18\ This is also a significant improvement to 
the law, one that will ensure that states appropriately include all 
ELLs in ESEA accountability systems.
    At the same time, the draft bill grants increased flexibility to 
states, districts, and schools in the treatment of ELLs, especially 
during the 2-year window in which states are developing valid and 
reliable content assessments. During this 2-year window, the bill would 
permit schools and districts to, for the first time, calculate AYP for 
reading/language arts using results from English language proficiency 
assessments for ELLs at the lowest levels of English proficiency.\19\ 
Schools will therefore be relieved of pressures to demonstrate ELL 
academic achievement using assessments that have not been valid and 
reliable for ELLs. Because English language proficiency assessments are 
not ultimately comparable measures of content knowledge in reading/
language arts, however, this 2-year window will close when states 
implement the appropriate content assessments described above.
    The draft would also provide additional increased flexibility in 
the treatment of ELLs that was not in the ``No Child Left Behind'' 
statute. First, it codifies Department of Education regulations that 
exempt recently-arrived ELLs (those who have attended schools in the 
U.S. for less than 12 months) from one administration of the state's 
reading/language arts academic assessment.\20\ In addition, the draft 
would permit schools to count ELL students who have acquired English 
proficiency as members of the ELL subgroup for 3 years after they gain 
English proficiency,\21\ which will benefit schools that are doing a 
good job helping students learn English.
    Title III of the discussion draft, ``Language Instruction for 
Limited English Proficient and Immigrant Students,'' also reforms the 
ESEA to the benefit of ELLs. The draft Title III would require the 
Secretary of Education to improve data collection and grant 
distribution practices with respect to ELLs.\22\ It would require 
states to describe how they will ensure that ELLs and immigrant 
children ``access the full curriculum in a manner that is 
understandable to and appropriately addresses the linguistic needs of 
such children.'' \23\ It would also specifically authorize program 
activities that support ``instructional programs that promote academic 
proficiency in more than one language,'' i.e., bilingual education 
programs of instruction.\24\
V. Conclusion
    The No Child Left Behind Act has focused increased attention upon 
the academic and linguistic concerns of the Latino population, 
especially English language learners. The poor academic achievement 
levels of Latinos and ELLs were generally a well-kept secret prior to 
NCLB; this, thankfully, is no longer the case. NCLB has increased the 
pressure at every level of our education system to improve results for 
underperforming students, and this is clearly a step in the right 
direction for student populations that have historically existed in the 
shadows of the U.S. public education system.
    As ESEA is debated, approved, and implemented, officials at all 
levels of government must ensure that they fully consider the 
educational interests of Latinos and ELLs. If ESEA reforms are 
ineffective for these large and growing student populations that 
disproportionately suffer from low academic achievement, ESEA will be 
ineffective in reforming our public education system as a whole.
    The bipartisan draft reauthorization bill recently released by the 
House Committee on Education and Labor includes numerous reforms that 
will greatly improve the law's effectiveness for students while 
ensuring that it is less burdensome to our nation's schools and 
teachers. Latino students, especially English language learners, stand 
to benefit from many ESEA reforms that would be authorized under the 
draft bill. MALDEF looks forward to continuing to work with this 
Committee and the full Congress to ensure the timely renewal of this 
critical civil rights legislation.
                                endnotes
    \1\ Source: U.S. Department of Education. See http://nces.ed.gov/
programs/coe/2007/section1/indicator05.asp
    \2\ See, e.g., Ferg-Cadima, James A., Black, White, and Brown: 
Latino School Desegregation Efforts in the Pre- and Post- Brown v. 
Board of Education Era, Washington, D.C.: Mexican American Legal 
Defense and Educational Fund (2004) (available at: http://
www.maldef.org/publications/pdf/LatinoDesegregationPaper2004.pdf).
    \3\ Source: U.S. Department of Education. See www.ed.gov/admins/
lead/account/lepfactsheet.html.
    \4\ National Center for Education Statistics, National Assessment 
of Educational Progress (NAEP): Reading and Mathematics, Washington, DC 
(available at http://nces.ed.gov/nationsreportcard/nrc/reading--math--
2005/).
    \5\ See Fry, R., Hispanic Youths Dropping Out of Schools: Measuring 
the Problem, Washington, D.C.: Pew Hispanic Center (2003), p8.
    \6\ See http://www.ncela.gwu.edu/expert/fastfaq/4.html; see 
Lazarin, M., Improving Assessment and Accountability for English 
Language Learners in the No Child Left Behind Act, Washington, D.C.: 
National Council of La Raza (2006), pl (noting that 45% of Latino 
students are ELL).
    \7\ Source: U.S. Department of Education. See http://
www.ncela.gwu.edu/expert/faq/08leps.html; http://www.ed.gov/nclb/
methods/english/lepfactsheet.html.
    \8\ See, e.g., Capps, R., Fix, M., Murray, J., Ost, J., Passel, J., 
& Herwantoro, S., The New Demography of America's Schools: Immigration 
and the No Child Left Behind Act, Washington, D.C.: The Urban Institute 
(2005), p18.
    \9\ See, e.g., Short, Debra, & Fitzsimmons, Shannon, Double the 
Work: Challenges and Solutions to Developing Language and Academic 
Literacy for Adolescent English Language Learners, Washington, D.C.: 
Alliance for Excellent Education (2007).
    \10\ U.S. Government Accountability Office, No Child Left Behind 
Act: Assistance from Education Could Help States Better Measure 
Progress of Students with Limited English Proficiency, GAO-07-140, July 
2006 (available at http://www.gao.gov/new.items/d06815.pdf).
    \11\ 414 U.S. 563 (1974).
    \12\ Id.
    \13\ ``LEP'' is an acronym for ``Limited English Proficient,'' 
which is synonymous with ``English language learner.''
    \14\ Section 6113(c)(2).
    \15\ Section 1111(b)(10)(C).
    \16\ Section 1111(b)(10)(A).
    \17\ Section 1111(b)(6)(C).
    \18\ Section 1111 (b)(3)(D)(xi)(II); Section 1111(b)(3)(D)(xi)(IV); 
Section 1111(b)(3)(D)(xi).
    \19\ Section 1111(b)(10)(B).
    \20\ Section 1111(b)(1)(Q).
    \21\ Section 1111(b)(2)(C)(v)(II)(dd).
    \22\ Section 3111(c).
    \23\ Section 3113(b)(2).
    \24\ Section 3115(d)(8).
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Jones?

 STATEMENT OF STEPHANIE J. JONES, EXECUTIVE DIRECTOR, NATIONAL 
                          URBAN LEAGUE

    Ms. Jones. Thank you, Mr. Chairman, members of the 
committee. I am Stephanie Jones, the executive director of the 
National Urban League Policy Institute, and we are the policy 
research and advocacy arm of the National Urban League.
    On behalf of Marc Morial, our president and CEO in the 
Urban League movement, I thank this committee for the 
opportunity to offer our comments on this draft, the discussion 
draft focusing on No Child Left Behind.
    Throughout our 97-year history, the National Urban League 
has amassed substantial experience in the development and 
implementation of programs that serve children and youth. In 
just the last 3 years, for example, the National Urban League 
has directly served nearly three-quarters of a million young 
people through a range of programs conducted by our hundred-
plus affiliates around the country.
    Last July, the National Urban League unveiled our 
groundbreaking Opportunity Compact, which is a comprehensive 
set of principles and policy recommendations designed to 
empower all Americans to be full participants in the economic 
and social mainstream of this Nation.
    The Opportunity Compact is premised on four cornerstones, 
the first and most fundamental of which sets forth policies 
that guarantee our children the opportunity to thrive. Our 
Opportunity Compact and its opportunity to thrive shares many 
of the goals of No Child Left Behind because we recognize that 
only with a solid quality educational foundation can America's 
children grow up to partake in the other critical opportunities 
that all Americans deserve.
    Unfortunately, however, for too many African American and 
Latino children, the vision of No Child Left Behind has yet to 
be fully realized. In light of our deep interest in and 
considerable knowledge of this issue, last month we submitted 
to the committee our extensive recommendations for this 
reauthorization. We are pleased that many of our 
recommendations are reflected in this draft and our hope or 
that our comments today and our work with you as we move 
forward will be of benefit to you.
    Now, the draft takes some very positive steps toward our 
mutual goal.
    First, when it comes to addressing resource inequities in 
our schools, we feel that you are moving in the right 
direction, particularly by proposing to close the comparability 
loophole that currently allows school districts to provide 
high-poverty schools with less State and local funding, which 
is measured largely through teacher salaries.
    The draft document also appears to strengthen the inclusion 
of nonprofit, community-based organizations, which is a very 
positive development.
    So we are encouraged by these steps, but there are some 
other areas of the draft that need improvement. And I will go 
through each of those. And if, as a matter of time, if I don't 
get to all of them, it is not that we don't find them 
important, it is just really a function of time.
    Now, while the draft provides for multiple indicators and 
assessments to measure adequate yearly progress beyond reading 
and math tests, we believe that the menu approach, whereby 
States can pick from a list of indicators, is confusing and has 
the potential for loopholes through which districts can hide 
the performance of certain populations. We recommend that a 
comprehensive accountability framework with an index using 
multiple measures be put in place, so that schools are 
accountable for student growth along all parts of the 
achievement continuum.
    The draft document takes a positive step toward a 
longitudinal data system, as well. However, we are concerned 
that the proposed data system is not more directly tied to a 
comprehensive accountability framework. If the intent is to 
truly hold districts accountable for higher academic 
achievements, the districts must provide the necessary 
structures, supports and conditions for high-quality teaching 
and learning. Therefore, the National Urban League recommends 
that States be required to develop longitudinal data systems 
with unique student identifiers that align student data with 
teacher data, school performance and resource data.
    We find the section on school improvement and supplemental 
education services to be especially problematic. The draft 
document limits access to SES only to students attending high-
priority schools and also maintains the cap on monies available 
for this service. We strongly oppose a tiered system and 
recommend that SES eligibility requirements be changed to offer 
immediate academic support to all students not proficient, 
rather than have them wait for 3 years before they can receive 
desperately needed academic support.
    In our 2007 ``State of Black America'' report, the National 
Urban League recommended longer school days to keep young 
people, especially African American boys, focused on education 
and away from the distractions that can lead them down the 
wrong path. We are pleased that the draft includes extended 
learning time as a proven intervention option. However, we 
strongly urge that any experiment with expanded learning time 
be funded in addition to, not at the expense of, supplemental 
education services.
    The draft also requires that all students be taught by 
teachers who meet at least a minimum standard of 
qualifications. However, there does not appear to be any 
provision for incentives, outlined in our recommendations, for 
securing highly qualified teachers and principals and no 
provision for increasing African American male teachers. 
Moreover, this section appears to have too many loopholes that 
could undermine the teacher quality requirement. We recommend 
further work be done in this area to ensure that districts 
fulfill their obligation to provide qualified teachers to all 
students.
    The National Urban League applauds the draft documents that 
strengthen parental involvement policies as an important step 
toward holding schools more accountable. We urge Congress, 
however, to go further and truly empower parents by including a 
private right of action, as recommended by the Commission on No 
Child Left Behind.
    And although we have not reached the funding point of this 
process, we must never forget that these improvements that we 
recommend, while commendable and much-needed, will be little 
more than empty promises unless they are fully funded. So I 
take this opportunity to urge you in the strongest possible 
terms to fully fund No Child Left Behind and to ensure that all 
monies authorized be appropriated to reach all eligible 
children.
    The National Urban League appreciates this opportunity to 
share our views with the committee at this very early stage of 
the reauthorization of the No Child Left Behind Act, and we 
look forward to working with you to ensure that No Child Left 
Behind lives up to its original promise on behalf of all of 
America's children.
    Thank you.
    [The statement of Ms. Jones follows:]

Prepared Statement of Stephanie J. Jones, Executive Director, National 
                     Urban League Policy Institute

    Chairman Miller and Ranking Member McKeon, I am Stephanie Jones, 
Executive Director of the National Urban League Policy Institute 
(NULPI). Located here in Washington, D.C., the Policy Institute is the 
research, policy and advocacy arm of the National Urban League. 
Dedicated to the pursuit of economic self-reliance and equal 
opportunity for African Americans, the Policy Institute's work focuses 
on the National Urban League's 5-point empowerment agenda that 
includes: economic empowerment, education and youth development, health 
and quality of life, civil rights, and racial justice and civic 
engagement.
    On behalf of Marc Morial, President and CEO of the National Urban 
League (NUL), I want to thank this committee for the opportunity to 
offer our comments on the August 28, 2007 committee staff discussion 
draft that focuses on Title I of the Elementary and Secondary Education 
Act of 1965, the heart of which is known as No Child Left Behind 
(NCLB). Our analysis of the draft bill is based on how it responds to 
our extensive recommendations for NCLB reauthorization that were 
submitted to the Committee on August 9, 2007. (Copy attached)
    Throughout its 97-year history, the National Urban League has 
amassed substantial experience in the administration and implementation 
of programs that serve children and youth. In just the last three 
years, 2004--2006, the National Urban League has directly served more 
than 727,918 children and youth\1\ through a range of programs. The 
Urban League network of affiliates is directly involved in various 
aspects of No Child Left Behind Act (NCLB)--as operators of charter 
schools, Supplemental Educational Service (SES) providers, participants 
and partners under the 21st Century Learning Communities, parent 
education specialists, and members of local and state school 
improvement teams.
    In July 2007, the National Urban League unveiled its groundbreaking 
Opportunity Compact, a comprehensive set of principles and policy 
recommendations designed to empower all Americans to be full 
participants in the economic and social mainstream of this nation. 
(Copy attached) The Opportunity Compact is premised on four 
cornerstones: 1) the Opportunity to Thrive (Children); 2) the 
Opportunity to Earn (Jobs); 3) the Opportunity to Own (Housing); and 4) 
the Opportunity to Prosper (Entrepreneurship).
    The Opportunity to Thrive is the first and most fundamental of 
these four cornerstones because only with a solid, quality educational 
foundation can America's children grow up to partake in the other 
critical opportunities that all Americans deserve. For too many African 
American and Latino children however, the vision of NCLB has yet to be 
realized. According to the National Urban League's Opportunity Compact,
    Despite the goals of the [NCLB] Act, African American and Latino 
students continue to lag behind their white and Asian American peers on 
national standardized achievement tests. The disadvantages many 
minority students face on a daily basis can have a serious impact on 
their educational experiences. For example, minority students often 
attend high-poverty, poorly resourced schools with less rigorous 
curricula\2\ * * * They also experience the injustices of 
overrepresentation in special education classes and under-
representation in gifted and advanced placement classes.\3\ In addition 
to inadequate resources, minority students are more likely to be taught 
by poorly qualified or inexperienced teachers.\4\ Research also 
suggests students of color may experience bias, such as lower teacher 
expectations and less challenging academic standards than their white 
counterparts.\5\
    It is from this perspective that we offer our comments on the draft 
proposals for reauthorization of NCLB.
    Accountability--Multiple Indicators/Assessments. While the draft 
provides for ``multiple indicators/assessments'' to measure Adequate 
Yearly Progress beyond reading and math tests, it makes this a State 
option. In our recommendations, the National Urban League did call for 
the use of multiple measures of assessment but we are not in favor of a 
``menu'' approach where States could pick and choose from a list of 
indicators. We recommended that a ``Comprehensive Accountability 
Framework'' be put in place so that schools are accountable for student 
growth along all parts of the achievement continuum. Multiple measures 
allow for evaluation of a full spectrum of standards including higher-
order thinking skills and performance skills. They also allow for 
greater accountability checks and balances so that one measure does not 
occur at the expense of others--e.g. boosting test scores by pushing 
out low-performing students. Therefore an index using multiple measures 
allows States to track students' growth at every point on the 
achievement spectrum. An ``index'' using multiple measures should work 
much like those used in employment or economic forecasting (GNP or Dow 
Jones). The multiple measures recommended would create a ``dashboard'' 
to gauge student growth.
    The language used in the draft appears to allow greater opportunity 
for cherry picking indicators. The ``menu'' approach outlined in the 
draft is confusing and has the potential for loopholes through which 
the performance of certain populations could be hidden.
    Addressing Resource Inequities in Our Schools. The draft appears to 
move in the right direction on this issue by proposing to close the 
comparability loophole that currently allows school districts to 
provide high-poverty schools with less state and local funding, which 
is measured largely through teacher salaries. It requires districts to 
attain equity in teacher distribution and to include this information 
on district report cards. Title I funds were intended to supplement 
those schools that had high numbers of disadvantaged students in order 
to provide ``added'' support. The notion is that Title I would bring 
``additional'' monies to high poverty schools when operating from an 
equal funding base as measured by teacher salaries. Instead, many of 
these schools received fewer state and local dollars because districts 
used Title I funds to supplant rather than supplement.
    Community Based Organizations. The draft document appears to 
strengthen the inclusion of non-profit community based organizations 
throughout various components of the Act.
    Longitudinal Data System Requirement. The draft document takes a 
positive step towards a longitudinal data system. However, NUL is 
concerned that the proposed data system is not more directly tied to a 
comprehensive accountability framework. The NUL recommends that states 
be required to develop longitudinal data systems with unique student 
identifiers that align student data with teacher data, school 
performance, and resource data. If the intent is to truly hold 
districts accountable for higher academic achievement then districts 
must provide the necessary structures, supports and conditions for high 
quality teaching and learning.
    School Improvement and Supplemental Educational Services (SES). The 
National Urban League finds this section to be especially problematic. 
First, the NUL strongly opposes a tiered system. ``Priority Schools'' 
are those that miss AYP in one or two student groups. ``High Priority 
Schools'' missed AYP in most, if not all of their student groups. Only 
``High Priority Schools'' would be required to provide students with 
SES or choice. Therefore, when the school data is disaggregated and one 
or two students groups do not show growth then the district will not be 
required to provide SES or choice. Given that the draft also allows 
States to ``choose'' indicators from a ``menu'' it will be a given that 
States could manipulate this to show the fewest student groups as 
missing AYP. It must be noted that the draft document does not appear 
to provide any provisions for the same one or two students groups 
showing up as missing AYP for multiple years. Though these schools will 
have ``two'' interventions from a list to these ``struggling students'' 
we view this basically as paperwork.
    In its comprehensive recommendations, the NUL recommends that SES 
eligibility requirements be changed to offer academic support to all 
students not ``proficient'' immediately rather than have them wait 
three years before they can receive academic support.'' The draft 
document limits access to SES to students only attending High Priority 
Schools and also maintains the ``cap'' on monies available for this 
service. Districts must only set aside ``20 percent of the agency's 
annual allocation or an amount equal to at least 20 percent of each 
identified school's allocation''. It also appears that the draft 
document would allow districts to request the State to spend less and/
or ``use up to 10 percent for school improvement and assistance 
measures'' thereby reducing the amount even further. The NUL would 
strongly oppose this as well. Many more students are in need of SES 
services then who actually have the opportunity to receive them.
    Extended Learning Time. In our 2007 State of Black America report, 
the NUL recommended longer school days to keep young people--especially 
young boys--focused on education and away from the distractions that 
could lead them down the wrong paths. However, we strongly urge that 
any experiment with expanded learning time be funded in addition to, 
and not at the expense of Supplemental Educational Services.
    Teacher Quality. The draft requires that all students be taught by 
teachers who ``meet at least a minimum standard of qualifications.'' 
There does not appear to be any provision for incentives outlined in 
the NUL's recommendations for securing highly qualified teachers and 
principals, and no provision for increasing African American male 
teachers as proposed by NUL. This section appears to have too many ways 
for districts to NOT meet the teacher quality requirement. There still 
remain too many loopholes for districts. Though the draft states that 
``struggling'' students must not be taught by an ``unqualified 
teacher'' for more than ``two consecutive years'' the draft goes on to 
say if districts can't find a qualified person then they must make this 
public to parents and the community and take steps to try to correct 
it. The original law called for the use of qualified teachers but 
districts made use of waivers and therefore the most ``struggling'' 
students continue to be taught by under-qualified teachers (those 
teaching out of field, etc). The NUL recommends further work in this 
area to eliminate districts from opting out from their obligation to 
provide qualified teachers to all students.
    Private Right of Action. The National Urban League supports the 
bipartisan report of The Commission of No Child Left Behind (2007) 
recommendation that parents and other concerned parties have the right 
to hold districts, states, and the US Department of Education 
accountable for implementing the requirements of NCLB through enhanced 
enforcement options with the state and the US Department of Education. 
States and the US Department of Education should be required to 
establish a process to hear complaints, with the only remedy being the 
full implementation of the law. The National Urban League applauds the 
draft document's strengthened Parental Involvement policies as an 
important step towards holding schools more accountable. We urge 
Congress to go further by including a private right of action as 
recommended by the Commission.
    The National Urban League appreciates this opportunity to share our 
views with the Committee on this very early stage of the 
reauthorization of the No Child Left Behind Act. We look forward to 
working with you to ensure that the No Child Left Behind Act lives up 
to its original promise on behalf of all America's children.
    National Urban League (www.nul.org). Established in 1910, The Urban 
League is the nation's oldest and largest community-based movement 
devoted to empowering African Americans to enter the economic and 
social mainstream. Today, the National Urban League, headquartered in 
New York City, spearheads the non-partisan efforts of its local 
affiliates. There are over 100 local affiliates of the National Urban 
League located in 36 states and the District of Columbia providing 
direct services to more than 2 million people nationwide through 
programs, advocacy and research.
                                endnotes
    \1\ (2007 Urban League Census)
    \2\ See Christopher B. Knaus. ``Still Segregated, Still Unequal: 
Analyzing the Impact of No Child Left Behind on African-American 
Students.'' In The State of Black America 2007. National Urban League. 
2007.
    \3\ See Caroline Rothert. ``Achievement Gaps and No Child Left 
Behind.'' Youth Law News. April--June 2005.
    \4\ Ibid.
    \5\ Ibid.
                                 ______
                                 

  National Urban League Recommendations for the Reauthorization of No 
                        Child Left Behind (NCLB)

Introduction
    The National Urban League (NUL) is a nonprofit, nonpartisan, civil 
rights, and community based organization providing direct services, 
research and policy advocacy to help individuals and communities reach 
their full potential. NUL works primarily with African American and 
other emerging ethnic communities through its network of over 100 
professionally staffed affiliates in over 36 states and the District of 
Columbia. The NUL and its affiliates work to close equality gaps for 
people of all economic levels and stages of life.
    Throughout our 97-year history, we have amassed substantial 
experience in the administration and implementation of programs that 
serve children and youth. In just the last three years, 2004-2006, the 
National Urban League has directly served more than 727,918 children 
and youth\1\ through a range of programs. The Urban League network of 
affiliates is directly involved in various aspects of No Child Left 
Behind Act (NCLB)--as operators of charter schools, Supplemental 
Educational Service (SES) providers, participants and partners under 
the 21st Century Learning Communities, parent education specialists, 
and members of local and state school improvement teams.
All children deserve the opportunity to thrive
    In July 2007, the National Urban League unveiled its groundbreaking 
Opportunity Compact, a comprehensive set of principles and policy 
recommendations designed to empower all Americans to be full 
participants in the economic and social mainstream of this nation. The 
Opportunity Compact is premised on four cornerstones: 1) the 
Opportunity to Thrive (Children); 2) the Opportunity to Earn (Jobs); 3) 
the Opportunity to Own (Housing); and 4) the Opportunity to Prosper 
(Entrepreneurship). The Opportunity to Thrive is the first and most 
fundamental of these four cornerstones because only with a solid, 
quality educational foundation can America's children grow up to 
partake in the other critical opportunities that all Americans deserve.
    It is with this goal in mind that the National Urban League, 
drawing upon our extensive knowledge and experience base, presents our 
analysis of the vision and promise of NCLB and urges that Congress take 
the following ten steps to ensure that NCLB lives up to its promise:
    1. Authorize at least $32 billion to fully fund NCLB and ensure 
that all monies authorized be appropriated to reach all eligible 
children;
    2. Require states to compare and publicly report resources 
available to achieve a sound and basic education for every child in 
every school;
    3. Replace Annual Yearly Progress (AYP) with a Comprehensive 
Accountability Framework that can more accurately capture student 
performance using multiple measures of achievement;
    4. Enact a federal teacher and principal supply policy to identify 
and support highly qualified and effective teachers and leaders for all 
students;
    5. Establish a private right of action that gives parents and other 
concerned parties the ability to hold districts, states, and the US 
Department of Education accountable for implementing the requirements 
of NCLB;
    6. Guarantee that all three- and four-year olds have access to full 
day, developmentally appropriate, high quality early childhood 
education;
    7. Change Supplemental Education Services (SES) eligibility 
requirements to offer immediate academic support to all students not 
``proficient;''
    8. Provide increased funding to states for SES and require 
districts to provide academic support to ALL eligible students;
    9. Create a new federal secondary school improvement fund to 
support low-performing middle and high schools;
    10. Increase funds to provide for more meaningful, understandable 
and timely information regarding key school and student performance 
data.
The vision of NCLB
    In 2002 Congress signed into law NCLB with bipartisan support. This 
version of the 1965 Elementary and Secondary Education Act was also 
acknowledged by the civil rights community because it was unprecedented 
in that it placed an emphasis on improving education for those 
populations that are not well served by the nation's education system--
students of color, those living in poverty, new English learners and 
students with disabilities. In setting annual test-score targets for 
subgroups of students, NCLB aimed to raise achievement and close the 
achievement gap with a goal of ``100 percent proficiency'' by 2014. 
Under the law, a school's failure to meet these targets, or annual 
yearly progress, could lead to school reconstitutions or closures, as 
well as the ability of parents to transfer their child. The premise of 
holding schools, districts and states accountable for the education of 
our children must be applauded even if implementation was very much 
shortsighted.
    In fact, NCLB contains certain clear breakthroughs in education. 
First, data about students' performance is disaggregated by race, 
ethnicity, language and class, exposing what many in the civil rights 
community have long known: poor children and children of color are not 
receiving the kind of education that will lead them to high academic 
performance. Second, under NCLB all students are entitled to a 
qualified teacher, thereby acknowledging that students in poor families 
and students of color experience a revolving door of inexperienced and 
untrained teachers. Students in urban schools are more likely than 
their more affluent counterparts to be taught by a teacher who does not 
hold a major in the subject area they teach or a long term substitute 
not fully licensed. According to the research of Ron Ferguson, 
professor at Harvard University Graduate School of Education, the 
greatest in-school factor affecting student performance is the quality 
of the teacher. The compulsory nature of schooling should require the 
concomitant right of students to have access to a qualified teacher. 
And finally, NCLB provides more provisions for parent involvement and 
engagement than any other piece of US Department of Education 
legislation. The NCLB provisions that empower parents and guardians to 
demand that their children receive the opportunities to learn under the 
law are unprecedented.
    Implementation of NCLB has received mixed reviews. Many question 
whether NCLB has actually improved student performance; some others 
suggest that it has actually impeded progress. Clearly, changes are 
needed if NCLB is to grow closer to its original intent. The following 
are the National Urban League's recommendations for the reauthorization 
of NCLB.
Money does matter
    Congress and the President have under funded NLCB by approximately 
$56 billion since its inception. The President's proposed 2008 budget 
would again under fund the law by another $15 billion for a total of 
$71 billion since NCLB was enacted in 2002. Though the rhetoric on NCLB 
is unprecedented in its goal to ``ensure that all children have a fair, 
equal and significant opportunity to obtain a high-quality education'', 
the federal government has not invested in making this happen. 
Currently, NCLB funding represents less than 10 percent of most 
schools' budget.\2\ According to the nonpartisan Congressional Research 
Service, Title I, Part A, alone the largest program under NCLB, would 
have required approximately $24.7 billion dollars in FY04 to serve all 
children counted under the Title I basic formula using the law's own 
expenditure factors. (CRS, RL31487, ``Education for the Disadvantaged: 
Overview of ESEA Title I-A Amendments Under the No Child Left Behind 
Act.'') \3\
    Recommendation 1: The National Urban League recommends that at 
least $32 billion be authorized to fully fund NCLB and that all monies 
authorized be appropriated to reach all eligible children.
A comprehensive accountability system
    NCLB was ambitious in its attempt to put into place an 
accountability system to ensure that all students are ``proficient'' by 
2014. Testing is an important tool within an educational accountability 
system. Within a classroom testing is a diagnostic tool to help 
teachers gauge student learning and provide valuable information on 
what students know and what skills sets they are lacking At the 
district level testing affords administrators greater understanding of 
how schooling is affecting different populations of students. The 
National Urban League supports the disaggregation of data under NCLB 
and believes it should continue. Additionally, the National Assessment 
of Educational Progress (NAEP) gives a national perspective of how the 
nation's schools are performing overall, even though it must be 
remembered that education is a state responsibility and this nation has 
no national curriculum of what students should know and be able to do. 
Unfortunately, testing alone has become synonymous with the notion of 
accountability and a single test has become the sole measure to gauge 
progress. By and large, students bear the brunt of this narrowly 
defined system of accountability.
    The National Urban League believes that a more comprehensive system 
of accountability is needed, one that not only holds students, 
districts, and states accountable to help students become 
``proficient''; but also holds the federal government accountable for 
investing in high quality education for all students. The following 
recommendations are key steps to achieving this goal.
Close the Equality Gap by Ending Resource Inequities in Our Schools
    To ensure that all students have access to the structures, 
supports, and opportunities to learn, the law must address the stark 
educational inequities in resources. In some states, the per pupil 
expenditures in high-spending schools exceed low-spending schools by a 
ratio of three to one. These inequities are further exacerbated across 
states and in schools serving high numbers of children of color and 
those with high concentrations of English Language Learners. If schools 
are to close the achievement gap by 2014, we must also close the 
equality gap among schools.
    Recommendation 2: The National Urban League recommends that states 
be required to compare and publicly report resources available to 
achieve a sound and basic education for every child in every school. 
Where inequities appear, states should develop a five-year plan for 
equalizing resources and require a publicly-reported bi-annual report 
that evaluates progress towards the five-year goal. Federal incentives 
should be available to states to develop alternative school-finance 
formulas that minimize heavy reliance on local property taxes and 
increase resources for the students and school that need it most.
Replace Adequate Yearly Progress (AYP) with a Comprehensive 
        Accountability Framework
    The current system of a school's success is measured through AYP, 
which places the full responsibility for accountability on the backs of 
students. AYP is calculated based on a single test measure and 
penalizes schools with a diversity of populations, e.g. large numbers 
of students on free or reduced lunch, in special education, and English 
Language Learners. Again, the NUL supports the disaggregation of data 
as an accountability element. A more comprehensive accountability 
system is needed which uses multiple measures of assessment of student 
progress and achievement coupled with school indicators that provide 
the conditions that support high quality teaching and learning. 
Accountability standards for student achievement must be tied to the 
accountability for districts and states to provide the necessary 
structures, supports, and conditions for better teaching and learning. 
Students and teachers should not bear the brunt of accountability 
alone.
    Recommendation 3: The National Urban League recommends that annual 
yearly progress (AYP) be replaced with a Comprehensive Accountability 
Framework that can more accurately capture student performance using 
multiple measures of achievement, including higher-ordered thinking and 
understanding, and ensure appropriate assessments for special education 
students and English Language Learners. Rather than provide a single 
snapshot of student performance as with AYP, a more comprehensive 
accountability system would require schools to increase their 
disaggregate graduation rates over time and consider graduation rates 
on an equal footing with high-quality assessments aligned to college 
and work readiness in determining school quality. States would be 
required to develop longitudinal data systems with unique student 
identifiers that align student data with teacher data, school 
performance, and resource data.
All Students Must Have Access to Highly Qualified and Effective 
        Teachers and Leaders
    Currently teacher quality is unevenly distributed in our schools. 
Those schools serving students with the most challenging needs are most 
likely to have the least qualified and least effective teachers. If we 
are serious about all students performing at high levels, then all 
students must have access to highly qualified teachers and principals. 
According to Ronald Ferguson, professor at Harvard University, the 
greatest in-school factor affecting student performance is the quality 
of the teacher. Christopher Knaus noted in the National Urban League 
State of Black America 2007 report that high-poverty schools have three 
times as many uncertified or out-of-field teachers as low-poverty 
schools. These schools are more likely to have the ``least experienced 
teachers, the highest teacher turnover rates, the highest percentage of 
teachers teaching outside of their fields, and often have the highest 
student-to-teacher ratios.'' The National Urban League supports the 
recommendations to ``Provide Students with Excellent Leaders and 
Teachers They Need to Succeed'', contained in The Plan for Success, 
developed by the Campaign for High School Equity, of which we are a 
member.
    Recommendation 4: The National Urban League recommends that a 
federal teacher and principal supply policy be enacted to identify and 
support highly qualified and effective teachers and leaders for all 
students. Provide higher pay and other incentives, such as home-buying 
programs or tax credits, to attract effective school leaders and 
teachers to serve in high-need schools. Special attention should be 
made to recruit and support African American males' entry into teaching 
and the principalship through scholarships, loan forgiveness, 
fellowships, and other incentives.
Parents and Guardians Must Be Given a ``Private Right of Action''
    NCLB requires states to measure student achievement and hold 
schools accountable for results but it does not provide adequate 
remedies for students when states and schools fail to implement the 
requirements of NCLB. States are required to develop plans for 
assessment and accountability systems yet there are no ``enforcement 
obligations'' of the district, states, or the US Department of 
Education. Parents and other citizens must be given the right to ensure 
that states are living up to the requirements and obligations of NCLB.
    Recommendation 5: The National Urban League supports the bipartisan 
report of The Commission of No Child Left Behind (2007) recommendation 
that parents and other concerned parties have the right to hold 
districts, states, and the US Department of Education accountable for 
implementing the requirements of NCLB through enhanced enforcement 
options with the state and the US Department of Education. States and 
the US Department of Education should be required to establish a 
process to hear complaints, with the only remedy being the full 
implementation of the law.
Investing in strategies to support student success
    While it is important to have in place an accountability system 
that measures progress toward the goal, NCLB must provide equitable 
investment in the structures and supports that foster high quality 
education and academic success. As Christopher Knaus states in NUL's 
State of Black America 2007 report, NCLB has largely invested in the 
``outcomes of inequality''--the achievement gap, rather than investing 
in closing the inequality of opportunity to learn. The following 
recommendations focus on key student support strategies:
Increase Incentives and Support for Full-Day, Developmentally 
        Appropriate, High-Quality Early Childhood Education for all 
        Three and Four Year Olds--Universal Pre-K
    The National Urban League, in its State of Black America 2007: 
Portrait of the Black Male report, called for universal early childhood 
education as important measure for addressing the crisis of the black 
male in America. But universal early childhood education not only 
benefits young black men; it is critical that ALL children enter school 
ready to take advantage of teaching and learning in order to be 
successful in their schooling.
    According to ``Years of Promise,'' the report of the Carnegie Task 
Force on the Primary Grades (1996), these early years are crucial in a 
young person's life when a firm foundation is laid for healthy 
development and lifelong learning. According to ``The Economic Impact 
of Child Care and Early Education: Financing Solutions for the Future'' 
(April 2005), high quality early childhood education helps prepare 
young children to succeed in school and become better citizens; they 
earn more; pay more taxes, and commit fewer crimes. Further, every 
dollar invested in quality early care and education saves taxpayers up 
to $13.00 in future costs. Children in these early years make 
tremendous gains in cognition, language acquisition, and reasoning 
which form the foundation for later learning. Children who have access 
to high-quality preschool programs are better prepared to enter primary 
grades and have a better chance of achieving to high levels than those 
who do not.
    Recommendation 6: The National Urban League recommends that all 
three- and four-year olds have access to full day, developmentally 
appropriate, high quality early childhood education. Incentives should 
be put in place to encourage all early childhood education service 
providers to become NAEYC (National Association for the Education of 
Young Children) accredited, especially in high-need areas.
All Low Performing Students Must be Given the Support and Assistance 
        They Need in Order to be Successful
    Under NCLB, if a Title I school fails to meet its learning goals or 
annual yearly progress (AYP) for 3 consecutive years, a child receiving 
free or reduced lunch in that school is eligible to receive additional 
academic support through SES (supplemental educational services). 
However, common sense would tell us that learning is a cumulative 
process. Children's learning deficiencies will exacerbate exponentially 
the longer they do not receive the academic support they need. 
According to the US Department of Education, in the 2004-2005 school 
year only 19% of the students eligible to receive supplemental 
educational services under NCLB were enrolled. Approximately 38% of 
districts spent 20% or less of the amount set aside for SES in 2004-
2005. Only 18% of districts spent 80% or more of the amount set aside 
for SES in 2004-2005. If we are truly committed to closing the 
achievement gap, then students must receive the supports they need to 
achieve at higher levels when they are identified and not years later. 
Districts should not be allowed to turn away eligible students, 
restrict grade levels, limit dates for enrollment, or limit the number 
of service providers because they do not want to spend their Title I 
dollars. More than 70 Urban League affiliates throughout the country 
offer homework and tutorial support during non-school hours serving 
more than 200,000 young people annually. Fifteen Urban Leagues are 
state approved as SES providers.
    Recommendation 7: The National Urban League recommends that SES 
eligibility requirements be changed to offer academic support to all 
students not ``proficient'' immediately rather than have them wait 
three years before they can receive academic support.
    Recommendation 8: Provide increased funding to states for SES and 
require districts to provide academic support to ALL eligible students.
Create a New Federal Secondary School Improvement Fund to Support Low-
        Performing Middle and High schools
    The nation's middle and high schools are in crisis. The National 
Urban League is a member of the Campaign for High School Equity,\4\ a 
coalition of civil rights organizations who believe that our children 
must graduate from ``high school with a quality education that prepares 
them for college, the twenty-first century workplace, and overall 
success in life.'' About half of students who graduate leave high 
school are unprepared to be successful in college. The nation spends 
more than $1.4 billion a year in community college remedial education 
alone for those students who do attend college but without the 
necessary preparation they should have received while in high school. 
Research contained in, ``The Costs and Benefits of an Excellent 
Education for All of America's Children,'' (January 2007) states that 
``each new high school graduate would yield a public benefit of 
$209,000 in higher government revenues and lower government spending 
for an overall investment of $82,000, divided between the costs of 
powerful educational interventions and additional years of school 
attendance leading to graduation. The net economic benefit to the 
public purse is $127,000 per student and the benefits are 2.5 times 
greater than the costs.''
    Recommendation 9: The National Urban League recommends that a new 
federal secondary school improvement fund be created to support low-
performing middle and high schools.
Increase Support for Family Engagement and Support for Greater Student 
        Learning at Home and in School
    The positive connection between parent involvement and student 
success is supported by more than 35 years of research (Henderson & 
Mapp (2002); Catsambis, (2001); Simon (2004); Boethel (2003); Bohan-
Baker & Priscilla (2004)).\5\ Schools with well-structured, high 
quality parent and family involvement programs see higher student 
grades, test scores, and graduation rates, a decrease in the use of 
drugs and alcohol and fewer instances of violent behavior rates, and an 
increase in teachers' and administrators' morale and job satisfaction. 
A two-year study by the Appleseed Foundation found that even though 
NCLB had many laudable provisions for parent engagement, districts 
failed to provide parents with information in a clear and timely 
manner. The information that was provided, was not sensitive to the 
cultural, language, and needs of those served.
    Recommendation 10: The National Urban League recommends that funds 
be increased to provide for more meaningful, understandable and timely 
information regarding key school and student performance data. States, 
districts and schools should be required to use multiple strategies for 
communicating with parents that are culturally sensitive and in the 
language of the home.
                                endnotes
    \1\ (2007 Urban League Census)
    \2\ Darling Hammond, Linda. May 21, 2007. The Nation.
    \3\ As referenced in ``Title I funds: Who's Gaining, Who's Losing & 
Why''. The Center on Education Policy, June 2004.
    \4\ Campaign for High School Equity, A plan for success: 
communities of color define policy priorities for high school reform. 
(2007)
    \5\ Henderson & Mapp, A new wave of evidence: The impact of school, 
family, and community connections on student achievement. (2002); 
Catsambis. Expanding knowledge of parental involvement in children's 
secondary education: Connections with high school seniors academic 
success. (2001); Simon. High school outreach and family involvement 
(2004); Boethel. Diversity: school, family, and community connections 
(2003); Bohan-Baker & Priscilla. The transition to kindergarten: A 
review of current research and promising practices to involve families 
(2004).
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    Chairman Miller. Thank you.
    Mr. Losen?

 STATEMENT OF DANIEL J. LOSEN, SENIOR EDUCATION LAW AND POLICY 
            ASSOCIATE, CIVIL RIGHTS PROJECT OF UCLA

    Mr. Losen. I would like to thank you, Mr. Chairman and the 
distinguished members of this committee, for this opportunity 
to testify. My name is Dan Losen, and I offer this testimony on 
behalf of the Civil Rights Project at UCLA, where I am the 
senior education law and policy associate.
    Our extensive national research and publications on Title I 
and dropouts during the last 8 years inform these comments.
    We praise the bipartisan discussion draft revising No Child 
Left Behind. It represents a substantial improvement, while 
preserving No Child Left Behind's most important values.
    Among the major improvements are the provisions fostering 
comprehensive reforms based on research and emphasizing 
progress and those provisions that reward success for the 
attainment of education's broader goals, including graduating 
from high school.
    My testimony highlights several of our recommendations 
submitted for the record.
    First, mandate multiple measures, including 4-year 
graduation rates, for subgroups of students to be credited as 
integral parts of a reformulated adequate yearly progress 
accountability system.
    Second, put an even greater emphasis on realistic progress 
measures based on levels of growth and outcomes that successful 
schools have actually achieved.
    Third, create valid measures for English language learners' 
progress, mandate their use, and provide for the preparation of 
teachers qualified to educate the 10 percent of students who 
are English language learners.
    Fourth, eliminate supplemental education services as a 
mandatory remedy and use those funds instead to improve State 
and local capacity to implement major school and district 
reforms.
    Fifth, regularly provide transfer opportunities to clearly 
superior schools across district lines.
    And, sixth, there should be a national report that looks at 
nonschool factors and their impact of achievement on students 
served by Title I.
    I would like to elaborate on four of these.
    Multiple measures: The discussion draft significantly 
improves No Child Left Behind where it encourages the use of 
multiple measures for accountability. Over 20 civil rights 
groups and many educational leaders have called for this 
change, providing that adequate yearly progress credit also be 
given for significant growth on these multiple indicators in a 
compensatory rather than add-on fashion.
    Although the draft recognizes the importance of progress 
measures, it still requires that all students be proficient by 
2014. This deadline requires that the schools and districts 
furthest from the goal make the most extraordinary gains, far 
more than the most successful districts attain. The solution is 
to set reasonable growth goals and hold schools and districts 
accountable for improving at a rate that research says is 
achievable. Otherwise, thousands of schools, including many 
making moderate gains, will be labeled failures. This also 
encourages the flight of highly qualified teachers away from 
where they are needed most.
    High school graduation rates: There is a graduation rate 
crisis that poses a clear and present danger to our social and 
economic future. In some districts, fewer than 50 percent of 
students of color are earning a diploma. The draft's emphasis 
on high school graduation, including a disaggregation for 
accountability, could very well provide a remedy and makes the 
whole accountability system far more rigorous.
    However, our written testimony provides details on how 
using a single on-time graduation rate rather than the two 
rates proposed by the draft would close unintended 
accountability loopholes if combined with incentives to work 
with students who need extra time to earn their diploma.
    Now, I should add that, in doing so, in switching back to a 
single rate, we shouldn't allow students to change cohorts. It 
has to be transparent. That is critical for the accountability 
on graduation rates.
    Transfers: We support the draft's policy giving the most 
disadvantaged students in low-performing districts the first 
opportunity to transfer to highly functioning districts. 
However, the transfer provisions should ensure that schools 
accepting transfers are substantially better and that parent 
information systems be improved. Incentives for voluntary 
interdistrict transfers to strong schools should be added.
    English language learners: Subgroup accountability, 
including English language learners, is critically important 
but complicated, because we have severely inadequate tests. 
This draft makes positive changes but should be strengthened in 
two ways.
    First, it should mandate research and test construction at 
the national and regional levels to create valid measures for 
major language groups. Sanctions should not be imposed on the 
basis of existing invalid tests. Only valid tests should be 
required for accountability purposes.
    Second, the proposal should do more to train highly 
qualified teachers to work with English language learners. 
Toward this end, Departments of Education, the State and 
Federal level should be required to develop and implement 
teacher training standards to ensure that teachers serving high 
numbers of English level learners are highly qualified and 
understand how to help students facing great challenges of 
learning another language while struggling to keep up 
academically.
    We believe that the proposed revisions to No Child Left 
Behind should foster great equity in educational opportunity 
for American children. With further improvements to the 
excellent beginnings of this draft, we believe that educators 
and civil rights advocates, community members across the 
country, will find that their concerns have been heard, along 
with new inspiration to help achieve its goals.
    I would like to thank you once again for this opportunity.
    [The statement of Mr. Losen follows:]

Prepared Statement of Daniel J. Losen, Senior Education Law and Policy 
        Associate, on Behalf of the Civil Rights Project of UCLA

    Mr. Chairman and distinguished Members of the Committee, on behalf 
of The Civil Rights Project at UCLA, I would like to express our 
gratitude for this opportunity to comment on the Miller-McKeon 
``Discussion Draft'' of the Reauthorization of the Elementary and 
Secondary Education Act. The current version of the Act is referred to 
as ``The No Child Left Behind Act'' (NCLB) in this testimony. The Civil 
Rights Project's central focus has been educational opportunity and our 
research indicates that Title I of the Act can significantly improve 
outcomes for disadvantaged children throughout our nation, but that 
this potential has never been fully realized. Our most recent research 
shows that the No Child Left Behind Act falls short of its laudable 
goals in important ways. Therefore, we thank you for your tireless and 
bipartisan efforts to strengthen this law in this promising draft.
    The core mission of the civil rights project is to bridge the 
worlds of ideas and action in service to the civil rights movement in 
America. We commission research and work with scholars across the 
country on education reform toward the pursuit of racial and ethnic 
equity. Specifically, we have conducted 19 studies during the initial 
congressional consideration of the law and ongoing studies of the NCLB 
implementation process in six states and 11 school districts. In 
addition our work on the book, Dropouts in America and on regional 
reports and conferences around the country on this issue has put us in 
the center of the movement to lower the scandalous loss of students in 
our high schools. We believe that the breadth and depth of our 
research, always centered squarely on issues of racial justice, makes 
us well positioned to comment on the draft. Our research informs our 
testimony.
    We believe the draft proposal contains changes that can be expected 
to improve the equality of opportunity for all children and especially 
disadvantaged children of color. However, we have also found several 
serious shortcomings and inconsistencies in the draft bill and we have 
attempted to provide specific suggestions for improving the draft, some 
of which are broad, while others suggest specific changes to the 
legislative language.
Multiple Measures
    Among the most important improvements in this proposal is its call 
for multiple measures to be used to evaluate schools and for allowing 
educators to receive accountability credit for significant growth on 
several indicators besides assessments in reading and math. To the 
extent that the theory of test driven accountability shapes school 
teaching, the health of the country depends on having standards in more 
than two or three subjects and the health of the democracy requires, 
for example, that students know something about our history and 
government. This principled shift toward a multiple measure system was 
expressed in a letter that was signed by over 20 prominent civil rights 
organizations, and sent to the members of this committee a few weeks 
prior to the release of this draft. It is not good for civil rights if 
students in high poverty black and Latino schools have their education 
reduced to rote drilling in limited subjects when this comes at the 
expense of every other aspect of the curriculum not tested. As a 
remedy, we support broader accountability and ending the incentive for 
schools to push out or transfer out students with lower test scores. 
This draft represents a major stride toward such accountability.
    On the other hand, the most serious flaw in this draft concerns the 
retention of an arbitrary accountability time line, that all students 
be proficient by 2014, along with a set of calibrated benchmarks. This 
uniform deadline assumes that the schools and districts furthest from 
the goal can make the most extraordinary gains. But the assumption 
directly contradicts what research tells us about the rates of 
improvement we can expect from the most successful districts. The goal 
of 100 percent proficiency in six more years will not be attained 
because all schools and districts would have to do something that has 
never been done in any district unless the standards were extremely 
low. The solution is straightforward--set reasonable growth goals and 
hold schools and districts accountable for improving at a rate that 
research says is attainable. Specifically, the 100% proficiency 
requirement by 2014 undermines the credibility of the law, punishes 
rather than rewards many successful schools, and should be replaced by 
realistic growth targets based on the progress achieved in the quartile 
of districts making the most rapid progress in the state. This is 
consistent with the shift of attention to progress measures in the 
draft bill. Shifting the focus from the unattainable ideal to ambitious 
yet realistic goals would also help create conditions more likely to 
encourage highly qualified teachers and principals to stay in the 
schools that most seriously need them.
    The draft proposal also adds strength reporting where it expands on 
the requirement that states include in their accountability system's 
determination of adequate yearly progress high school graduation rates 
and at least one other achievement indicator for elementary schools. 
The major changes here are that the draft would require disaggregation 
for subgroups for graduation rate accountability and enable states 
greater power to create more balanced and comprehensive accountability 
systems, subject to the approval of the Secretary. CRP applauds the 
draft's addition of these critically important accountability changes. 
However, we urge the committee to add as a possible, if not required, 
indicator that schools and districts measure progress on grade 
promotion rates. We believe states should be required to report these 
rates disaggregated by subgroups and encouraged to address the problem 
of the massive retention of students, particularly in the high school 
transition years, most profoundly in grade 9. Adding this measure to 
reporting and accountability is important because research on retention 
in grade has shown that it is extremely expensive, has few academic 
benefits, and increases dropout probabilities.
Graduation Rate Measurement and Accountability
    Our research shows that the widespread failure to earn a high 
school diploma has had a devastating impact, especially in nonwhite 
communities where employability and income are drastically reduced with 
predictable effects on family instability and crime. In some districts 
more than half of our African American, Latino and American Indian 
students fail to earn high school diplomas. Failure of this magnitude 
represents a clear and present threat to our social and economic 
future. Research shows that massive flunking in ninth grade, before 
tenth grade testing, is a chronic problem especially among minority 
youth, and is linked to higher dropout rates. Without graduation rate 
accountability, schools evaluated based on test scores can look 
successful if more of their relatively low achieving students are 
retained in grade 9, and then dropout. The new, more comprehensive 
accountability system this discussion draft introduces would reveal 
this artifice when it masks fundamental failure. Toward this end, the 
addition of graduation accountability for subgroups of children for 
graduating with a real diploma is critically important. Moreover, the 
discussion draft's emphasis on graduation can be expected to make the 
whole accountability system more rigorous and effective for all.
    However, we are especially concerned that despite the tremendous 
improvement in the draft proposal, and to the extension of Title I 
resources and focus on high school reform, there are also some serious 
flaws. We have questions about the discussion draft's accountability 
program and possible unintended incentives for putting students on 
slow-tracks toward graduation. Just as research suggests the definition 
of proficiency was ``watered down'' in some states in response to 
greater test based accountability, we worry that the standard 
graduation rate, that is supposed to evaluate the typical four year 
high school by calculating the percentage of students of a entering 
high school cohort that graduate ``on time'' (in four years) with real 
diplomas, will similarly be watered down if safeguards are not added.
    Specifically, we are concerned that the discussion draft's system 
for accountability and reporting of graduation rates, where it 
introduces the ``extra year'' simultaneously introduces accountability 
loopholes and unnecessarily complicates the evaluation of high schools. 
Based on our work with public education and civil rights advocates, we 
believe that transparency will make reporting and accountability 
systems far more effective at generating public pressure on the right 
problems. While it may be possible to close the loopholes and retain 
the system as drafted, we recommend replacing the ``extra year'' 
provisions for reporting and accountability with a simpler and more 
manageable system. We need a clear and relatively simple metric that 
shows whether schools are moving forward or backward on the goal of 
graduating their students on time. They should also be credited 
separately for work they do to graduate students later without 
introducing uncertainty into the basic measure.
    The required calculations and reporting requirements of two groups, 
an ``adjusted cohort'' graduation rate and an ``extra year'' adjusted 
cohort rate both complicates and waters down the ``on time'' four year 
rate. The clarification of the ``graduation rate'' is a considerable 
improvement over the current law to the extent that it provides a 
uniform definition, is based on the performance of a cohort of 
students, and helps eliminate many of the loopholes in reporting and 
accountability that CRP's research has revealed as contributors to 
artificially inflated graduation rates which have often greatly 
overstated true completion levels. Despite these substantial and 
critically important improvements, the ``adjusted cohort'' definition 
as drafted in Section 1124 beginning on page 318 at line 17 is flawed 
because there is no reference to the ``standard number of years'' or a 
``4 year'' rate for high schools that begin in grade 9, as provided in 
the original NCLB. By leaving the ``exit year'' undefined and unbounded 
this way, schools are not evaluated according to a standard expected 
time for completion. This might allow a watering down of the standard 
graduation rate for reporting called for in the National Governors 
Association compact on this subject. Further, if graduation rates could 
be based on different exit years this variability would make comparing 
rates from school to school or district to district much more 
difficult.
    The construction of the EXTRA YEAR graduation cohort in Section 
1124 opens up tremendous accountability loopholes: Few students 
transfer after they complete Grade 12 (Grade 13?) as an ``Extra Year'' 
transfer if they move to a new district. On the other hand, many 
students who do not pass grade 12 in their first attempt try again over 
the summer or in this EXTRA year (Grade 13). The draft proposal's 
language on transfer confirmation is strong where it requires formal 
documentation of the transfer from the receiving school or diploma 
awarding educational program. In contrast, the departure confirmation 
is very weak as it requires formal documentation from the school that 
the student has departed from but no formal confirmation from a parent 
or guardian or other close relative. Therefore, the net impact is that 
while very few students will transfer in, if students move out of 
district after flunking grade twelve their departure can artificially 
improve the performance of a regular high school.
    There are complex issues here that make strengthening the departure 
confirmation requirement problematic especially in highly mobile 
communities. Fundamentally, if the parents failed to provide formal 
notice, schools cannot easily get reliable confirmation from another 
source. The extra year, therefore, adds an extra year of very difficult 
to confirm departures from the cohort. What makes matters worse, is 
that all of these ``extra year'' departures are, by definition, 
students who were counted as ``non-graduates'' for the standard ``on 
time'' or four year cohort. In other words, all of the difficult to 
confirm departures in the ``extra year'' would have previously counted 
against the school and district for ``on time'' rate accountability 
giving struggling schools a tremendous incentive to record dropouts as 
``extra year'' departures.
    The Civil Rights Project suggests eliminating the ``extra year'' 
adjusted cohort entirely. Federal law should maintain the primacy of 
the ``on time'' four year rate and only require states to track and 
report the adjusted cohort graduation rate cohort as it pertains to an 
``on time'' graduation rate. In this way, when there is public 
discussion of the graduation rate, all will know this is the standard 
four year rate. The technical solution is to both eliminate the ``extra 
year'' rate and add language to the construction of the ``adjusted 
graduation rate cohort'' indicating that it is a ``four year'' or ``on 
time'' rate, or ``based on the standard number of years.''
Graduation Rates Counting for AYP
    The new discussion draft adds language that sets a graduation rate 
goal of 90% and would reward schools and districts that fall short of 
this goal, but that meet the graduation growth rate with a bonus of up 
to 15 percentage points that could be used as an offset against 
calculating AYP based on assessments. This is a major improvement as it 
represents a reasonable compensatory system. We also believe the 
discussion draft adds important vitality to graduation rate 
accountability where it delineates the reasonable growth rate, 
requiring an average of 2.5 percentage points for what we interpret to 
be a standard ``on time'' or 4 year adjusted cohort. To build on these 
strengths, we encourage the drafters to attend to three major 
weaknesses of the extra year and alternative schools provisions 
pertaining to graduation rate accountability.
    1. There is no research that would support applying a uniform 
growth rate of 2.5% and a goal of 90% graduation to all alternative 
schools. The category of alternative schools includes those that serve 
as ``dumping grounds'' for students regular high schools will not deal 
with as well as schools that are led by amazing staffs who give new 
chance to young people who face what seem like hopeless odds. Obviously 
accountability should target the dumping grounds and reward the heroic 
efforts. While this accountability might be appropriate for some 
schools we believe it is misplaced as it would apply to many others. 
The issue arises because the discussion draft fails to acknowledge the 
wide diversity of such schools, and the fact these schools usually 
serve the very highest risk student populations. An alternative school 
of this sort that reaches out to dropouts, students who have been in 
prison, and teen parents, with a graduation rate of 65% earning real 
diplomas, is a success. A regular high school with that rate should be 
regarded as failing. Rather than apply the same graduation rate goals 
to schools serving the most at risk populations as regular schools, 
NCLB should provide schools and districts with incentives to help these 
youth earn real diplomas in extended years. This is the kind of issue 
where the standard may best be set by state officials working with 
experts, subject to federal approval.
    2. If extra year rates are the equivalent of ``on time'' rates for 
accountability there is an incentive to put disadvantage minority youth 
on the ``slow track'' so that the school can improve the chances of 
making AYP. The EXTRA year rate should never be allowed to wholly 
substitute the ``on time'' rate for a school designed around a four 
year system. As the discussion draft is written, a school could make 
AYP and earn a 15% compensatory bonus even if the 4 year rate declined. 
The Civil Rights Project is concerned that low achieving students, and 
especially students of color who have a history of being segregated 
into low tracks in secondary school, could be put on the slow track to 
make it easier for the school and district to meet the disaggregated 
graduation rate goals. Further, at least one study indicates that a 
diploma earned in 5 years is far less valuable than one earned ``on 
time.''
    3. A third major problem is that The EXTRA YEAR accountability 
provision gives schools and districts many more ways to game the system 
including an incentive to increase grade 9 retentions. Schools are 
currently encouraged to improve scores artificially, in part because 
test scores are carefully counted and graduation rates are not. We are 
concerned that without safeguards, the ``extra year'' would introduce a 
new incentive to retain more low achieving students at grade 9 where 
schools could add a year of test prep for the grade 10 test, knowing 
they also have an extra year to finish school. District data indicate 
that the highest numbers of students dropout of high school before 
grade 10. The unintended consequences of adding an extra year is that 
it also adds an incentive for retaining students in grade 9, where the 
extra year could be used for test preparation.
    CRP recommends replacing the 5 year and alternative school 
accountability with an extended years graduation rate safe harbor 
provision. We believe that there are better and simpler ways to provide 
schools and districts with greater incentives to help students needing 
more time to eventually earn their high school diploma. There should be 
a basic ``on time'' rate plus a second chance provision (safe harbor) 
that gives credit for all extended years diplomas, not just one extra 
year.
    The suggested safe harbor would give districts equal credit for all 
the students that earned a diploma in a given year, including all those 
that needed more time, without a limit. This would make the whole 
section easier to read, and would mean that alternative schools would 
not be required to achieve the same high goal or rate of growth as 
regular high schools. The provision we recommend would provide an 
incentive to reach out and serve students who needed more time as it 
would allow for AYP to be made by a school or district that had an 
extended years program if the additional diplomas of the program 
participants, when added to the standard ``on time'' calculation, 
enabled the 2.5% growth requirement to be met. All alternative schools 
not linked to a specific high school would have their diplomas count 
toward the district's safe harbor. To retain the primacy of the ``on 
time'' goal and ensure that the greater incentive was to have students 
graduate ``on time'' the availability of the 15% compensatory bonus 
could be either reduced, or eliminated if this safe harbor was needed 
to make AYP. CRP suggests that additional safeguards should further 
limit the use of the safe harbor to when four year graduates constitute 
at least 75% of the diplomas awarded. This safeguard would prevent a 
struggling school abusing the second chance provision and putting all 
low achievers on a slow track to graduation. On the other hand, where 
proven-effective specialized or alternative high schools and programs 
were purposefully designed to award diplomas after five years, the law 
should make waivers available, subject to the review of the Secretary.
    The basic Graduation Rate Safe Harbor provision could be worded as 
follows:
Graduation Rate Safe Harbor
    Schools and districts that fail to meet the 2.5% growth requirement 
may still make AYP for graduation rates if all the following conditions 
are met:
    a. The school or district's ``safe harbor graduation rate'' in 
paragraph (b) for the group or groups in question was at least 2.5 
percentage points higher than the 4 year rate for the prior year and at 
least 75 percent of the diploma recipients, overall or for any subgroup 
are four-year ``on time'' graduates.
    b. The ``safe harbor'' graduation rate is determined by adding the 
number of diploma recipients that were awarded in the current year to 
students that are not part of the current year's adjusted cohort to the 
numerator and denominator of the adjusted cohort graduation rate 
calculation. If the ``safe harbor'' rate is 2.5% points or more higher 
than the ``on time'' graduation rate for the prior year the school or 
district makes AYP.
    c. Safe Harbor Restrictions: A state may award a maximum of 5 bonus 
points to a school or district for achieving the AYP graduation rate 
goal under the safe harbor provision.
Longitudinal Data Policies and Oversight
    Even in states with advanced longitudinal data systems may need a 
combination of support and oversight. Our recent review of the Texas 
system, a system regarded by many as the ``gold standard'' revealed how 
the state adopted policies that seriously reduced the usefulness of the 
data, such as failing to track GED enrollees or treating all duplicate 
records and students with unknown status as errors and erasing them 
from the system. Therefore, law should require additional quality 
control measures and funding of these systems to ensure they are 
adequate and have policies in place that will accurately track students 
who otherwise might disappear from school records. If these systems are 
not able to document the destination of substantial numbers of 
students, especially students of color, who simply disappear from the 
system, it will not provide a reliable source for policy making and 
evaluation of educational progress.
Discipline Data
    CRP commends the committee's draft for requiring local educational 
agency report cards to include rates of suspension and expulsion 
disaggregated by subgroup in Section 1111 (2)(B)(ii)(III). However the 
state report card provisions should contain a parallel provision, 
including the disaggregation of this data in state reports.
Transfer Options Triggered by Accountability
    In several places the draft acknowledges that rigorous standards 
and raised expectations must be paired with serious support provided to 
those schools and districts needing to make hard changes. One of these 
is providing a transfer option to students in schools and districts 
needing improvement, having failed to make AYP for two consecutive 
years. In particular we applaud that the draft would authorize states 
to enable the most disadvantaged students in low performing districts 
the first opportunity to transfer to highly functioning districts.
    As it stands, problems often arise under the transfer provision 
where a school not meeting standards is required to permit its students 
to transfer to a school meeting standards in the same district. That is 
not adequate because, for technical reasons, the transfer options are 
limited in most districts and often do not include many options to 
attend less impoverished schools with genuinely higher levels of 
academic success. In fact, because a school can fail AYP because of the 
performance of a single subgroup, or because 95% of the students were 
not tested, students are often faced with the option of transferring to 
a school with an overall lower average achievement level than the 
school they are leaving. Funding a transfer from a weak school to a 
weaker one is an inexcusable waste of money.
    Further, while the draft correctly would not allow transfers to 
schools filled beyond their capacity, the lack of viable transfer 
options is all too often the reality in large urban districts with few 
highly performing schools and many struggling ones. The draft should 
add the option to transfer to a school located in a different district 
should the immediate district not have enough highly performing schools 
to accommodate all the transfer candidates. Toward the goal of 
providing truly beneficial transfer opportunities, we urge the 
committee to add financial incentives for receiving schools and 
districts to encourage the use of the inter-district transfer 
provisions and for transfers to the very highest performing schools 
generally.
    Extensive research on voluntary transfers and school choice in many 
contexts and even in other countries consistently shows that 
disadvantaged parents have little information about the choices and are 
much less likely to transfer to the best options than families with 
more resources and connections. For this reason good magnet school 
plans tended to provide extensive parental information about school 
quality and opportunity and active personal outreach and welcome to 
disadvantaged parents through parent information centers and other 
mechanisms. We believe that such efforts are needed.
    Without such mechanisms we believe that the transfer resources are 
likely to produce little or no real gain in too many cases.
Supplemental Services
    Supplemental services such as tutoring by highly qualified 
educators can be invaluable. However, there is no evidence that the 
existing SES program is a wise investment and many reasons, from 
research on serious school reform, to think that it is not. 
Specifically, there is very little research documenting the 
effectiveness of Supplemental Educational Services. Until there is 
better evidence of the effectiveness of these programs, they should not 
be required and there should not be a mandated set-aside. The worst 
result would be to create a new lobby of corporate providers able to 
secure funding without accountability. Tutoring is a valuable 
educational process but most likely to be effective when done on a one-
to-one basis by a professional teacher and linked to the school's 
curriculum.
    If the set-aside is to be continued, we suggest adding a federally 
mandated evaluation of the entire program, possibly in place of the 
requirement for local evaluations in the draft since few districts have 
the capacity to do professionally credible evaluations of this sort and 
studies by providers represent fundamental conflicts of interest. We 
further recommend that SES instructors be subject to the Highly 
Qualified Teacher provisions of NCLB since we agree with the law's 
fundamental emphasis on teacher quality.
Budget Set-Aside
    Since only one in fifty eligible students has chosen the transfer 
option, we recommend that that set aside be limited to 5% for possible 
highly positive transfers (described above) and that 5% of the current 
set aside be transferred to state school improvement efforts and the 
remainder into implementation of the school's improvement plan, which 
could, of course, include targeted tutoring linked closely to the 
school's educational mission
    If SES is to continue, it is essential to have a serious 
independent national evaluation documenting what is being done with the 
money and identifying its longitudinal effects. Further, federal 
antidiscrimination laws should be made clearly applicable to SES 
providers by formally identifying them as recipients of federal 
funding. The current language in the draft on this subject is found in 
the current law, but there are serious questions as to whether it is 
sufficient to prevent SES providers from discriminating.
State Capacity
    The Civil Rights Project's research in this area has revealed a 
major problem with the expanding state role in the current law, that is 
not addressed in the committee's draft--that is that the states receive 
more adequate funding for the extremely complex tasks they are given 
under this law. We recommend that the state share of the Title I 
allocation be doubled to 10 percent. Our research in six states shows 
that the state agencies are overwhelmed and have few resources to 
oversee the required reforms of very large numbers of schools falling 
behind NCLB goals. Anyone who has examined the disaster of Katrina or 
knows the excellence of the National Park Service should recognize how 
decisive good and expert administration is essential in managing 
complex and difficult changes. It is obvious to us from our research on 
state capacity that state officials working with the best of attentions 
simply do not have the resources to do what the law demands of them. 
Requiring fundamental changes without creating administrative capacity 
is an exercise in rhetoric.
Charter Schools
    Charter schools are public schools with special governance 
arrangements expected to provide services regular public schools cannot 
or have not provided, increasing the opportunity for students. In light 
of the fact that these schools disproportionately serve minority 
students and are offered as options for transfer for those families 
under the law, and public schools may be involuntarily transformed into 
charter schools, it is very important that they be evaluated and the 
information be made available to citizens and families with transfer 
rights. NCLB should more explicitly require that all publicly funded 
schools in each state be evaluated under the same terms and subjected 
to the same level of accountability.
The Testing and Accountability For English Language Learners
    The testing and accountability for English language learners have 
been central points of contention in the operation of NCLB because of 
the conflict between the very good ideas of subgroup accountability and 
inclusion of English language learners in the groups of students the 
schools are responsible to help and the bad problems of severely 
inadequate tests and unreasonable expectations. We believe that this 
draft bill makes some important positive changes but that its benefits 
could be strengthened. We call attention to two major issues:
    The bill definitely moves in a positive direction in requiring the 
use of the tests most likely to adequately measure students' knowledge 
of the subject, independent of the language dimension. The requirements 
to develop appropriate tests and other measures as well as appropriate 
assessments of English language development are substantial 
improvements. Although the existing NCLB has greatly accelerated work 
on these issues it is important to note that there is still much that 
needs to be learned about the psychometric construct of English 
proficiency, its relationship to academic language, and what expected 
growth targets may be for different groups of students, at different 
ages. Even California, which has by far the largest ELL population and 
has invested in this work, is far from firm conclusions and many other 
states have not demonstrated the technical or policy will yet to pursue 
these issues. Much of the work has been on Spanish-speaking students 
and addressing many small language populations has yet to begin. 
Therefore the law should strongly encourage research and test 
construction at the national level and among regional consortia of 
states, initially for the largest language groups, particularly those 
facing linguistic isolation in communities and schools. States should 
be required to develop or collaborate in developing such tests for 
large language groups, either on their own or in cooperation with 
federal projects or multi-state consortia should be encouraged. States 
should be required to use these measures as soon as they are available 
since they will offer much more accurate measures of students' 
knowledge and progress than existing tests.
    In the very important sections on teacher quality the lack of any 
real preparation for teachers to deal with the tenth of students who 
are ELL is not mentioned as part of the quality definition. In a 
situation where a tenth of our students are ELLs and almost half of 
teachers have ELL students in their classes, highly qualified teachers 
need training to help reach these students. We believe that the 
Department of Education and state Departments should be required to 
prepare analyses of key competencies such teachers need and to submit 
plans to provide the necessary preparation for teachers who wish to be 
considered highly qualified in areas and schools with substantial 
presence of such students.
Prioritization and Sanctions
    The draft proposal includes provisions to allow Priority Schools 
and High Priority Schools to select from a menu of options. Priority 
Schools must select 2 or more and High Priority Schools must select 
three specified, plus one additional option. We do not think Congress 
should require multiple simultaneous reforms from deeply troubled 
schools with limited capacity. This tends to produce confusion. CRP 
recommends that schools identified for improvement, including those 
identified as priority schools and high priority schools, be allowed to 
choose developing a schoolwide program as an additional important 
option. This suggestion reflects the judgment of Congress in enacting 
the Obey-Porter legislation and the many references in the draft law to 
research based strategies. We recommend focusing on evidence-based 
school improvement strategies and giving them time to work.
School Redesign
    This is a central provision. We recommend that the ultimate 
sanction of converting a school to a charter school be rewritten to 
include schools that have charter-like independence within a public 
system, including magnet schools and pilot schools, since both have 
evidence of positive benefits, including the new evaluation of Boston's 
pilot schools. Magnets and pilots share the charter situation of 
autonomy from normal system requirements, leaders and teachers and 
parents who chose to participate, and educational experimentation and 
competition. There is no evidence that the fact that they are under 
ultimate legal control of a school district makes them less effective 
than charters.
Feasible Levels of Simultaneous School Transformation
    We strongly support the authorization to school district to limit 
the number of schools designated for High Priority Redesign but believe 
the fraction of schools subject to simultaneous drastic redesign is 
still too high given the intensity of the effort needed to create new 
schools or fundamentally restructure existing ones. Based on work we 
and others have done on administrative capacity we recommend that this 
be limited to 2-4% of schools in a given year.
Setting the Agenda for Collaboration on Educational Breakthroughs
    We strongly recommend that Congress direct the National Academy of 
Sciences and National Academy of Education to prepare a report to 
Congress by 2009 on the non-school conditions, such as health care, 
residential instability, poverty, safety and others that create serious 
obstacles for schools striving to achieve the goals of NCLB and to 
suggest central issues for other governmental and private agencies to 
address which would have demonstrable impacts on school success. As 
this draft bill acknowledges in several areas, lasting success in 
school requires support from other agencies and governmental programs 
This report would include reviews of present and previous experiments 
and policies in the U.S. and other nations demonstrating effective 
reforms, helping Congress and the executive branch create a federal 
agenda that would greatly aid both the schools and children living in 
poverty and would be of great interest in many states and communities 
and private organizations.
Indian Education
    The CRP appreciates the extensive discussion of Indian issues in 
the draft bill and urges clarification of the rights of tribally 
controlled schools to determine their own assessment policies and urges 
consultation with the Indian Education Association in the development 
of policies implementing the new law. We recommend that the procedures 
for developing more appropriate assessment of special education 
students include a specific directive to consider the special 
conditions of Indian populations.
Conclusion
    I want to thank the Chairman and the Committee once again for their 
leadership on this important legislation. We believe that the proposed 
revisions to NCLB should foster greater equity in educational 
opportunity for American children, and substantially improve learning 
and graduation levels. With further improvements to the excellent 
beginnings in this draft, we believe that educators and communities 
across the country will find that their concerns have been heard along 
with new inspiration to help achieve its challenging goals.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Piche?

  STATEMENT OF DIANNE M. PICHE, EXECUTIVE DIRECTOR, CITIZENS' 
                   COMMISSION ON CIVIL RIGHTS

    Ms. Piche. Good afternoon, Mr. Chairman and members of the 
committee. On behalf of the Citizens' Commission on Civil 
Rights, we would like to thank you for this opportunity not 
only to testify today but for your strong bipartisan commitment 
to strengthening this law.
    The Citizens' Commission believes that education is a 
fundamental right and that the No Child Left Behind Act 
represents our nation's most serious commitment at this time to 
closing achievement gaps that inflict pain and injury on too 
many of our vulnerable children and their families.
    Over the course of the last decade, we have seen real 
improvements and progress at schools around the country as a 
result of No Child Left Behind and its predecessor, the 
Improving America's Schools Act.
    But the work of leveling the playing field is hard, it is 
tedious, and it is politically challenging. So it is not 
surprising to us that there has been significant opposition to 
No Child Left Behind from entrenched interests. And many States 
and districts have gamed the system with statistical and other 
tricks and, in some cases, outright defiance. The result: 
Millions of children, particularly African Americans and 
Latinos, are left out of the equation. The reality is that 
their failure or success does not matter.
    In the context of this dichotomy between success on the one 
hand and widespread resistance and gaming of the system on the 
other, we have analyzed this draft that is before you today. 
There are many, many improvements in the draft, and many of my 
colleagues have identified and highlighted these improvements. 
We also list them in our testimony. So, again, if I don't go 
into them here, as Ms. Jones said, we do have them extensively 
in our written testimony.
    But they include--and let me highlight these--new 
safeguards against gaming AYP, including a limit on the ``n 
size.'' We don't think you have gone far enough, but we commend 
you in taking steps in this direction.
    There is much-needed attention in the draft to improving 
State data and assessment systems. The reality is that States 
have not been able to develop the tests that have been required 
either under IASA or under this law. And if you recall, under 
IASA, States had 6 years to develop six tests that were aligned 
to standards that were valid and reliable, that included all 
students and that accurately measured the achievement of 
students with disabilities and English language learners, and 
they did not do so. NCLB added a whole other layer of 
additional tests.
    And if you look at the Department of Education's compliance 
records, many States are willfully out of compliance with these 
requirements today. So we applaud the committee for focusing on 
the need to correct and improve the statewide assessments that 
are used for accountability.
    We also applaud the efforts of this committee to provide 
equity in the distribution of teachers to all children. We know 
that we can never truly close achievement gaps without first 
assuring that poor, minority students have access to the best 
possible teachers. And we support the committee's many 
provisions that would go in this direction.
    But there are other provisions of the draft, Mr. Chairman 
and members of the committee, that would do significant harm to 
accountability and parents' rights.
    These include, first and foremost, the local assessment 
pilot. We believe this pilot has the potential to set back 
accountability and the movement for educational equity for 
years and perhaps decades. These assessments would be developed 
and scored by teachers and others at the local school district 
and then used to decide whether the same adults have done an 
adequate job teaching kids. This strikes me as not unlike 
permitting my own teenage son and his friends to score their 
own driver's license test.
    We corrected a situation like this before No Child Left 
Behind and IASA, where districts around the country could set 
their own low standards and develop their own measures. We 
brought together an aligned statewide system of measurement so 
that parents and the public would know precisely how their 
students and schools stacked up. This pilot could easily take 
us back to the days before this change. We could have one set 
of standards for well-off suburban areas and one for 
impoverished communities; one for the Bronx and one for 
Westchester County; one for Baltimore City, one for Bethesda. 
We would urge you, at this time, to delete this section.
    With respect to multiple indicators, we are also concerned 
that the draft, again, dilutes the expectation that all 
students will reach proficiency in reading and math, and 
endorse the comments of many others who testified today in that 
regard.
    And, finally, Mr. Chairman and members of the committee, we 
are very concerned that this draft does not include strong 
provisions enabling parents to enforce the law and to obtain 
relief when their children are trapped in substandard schools. 
In fact, the draft appears to take back rights previously given 
to parents to transfer their children to a better school or to 
obtain free tutoring. So we would encourage you to restore 
these rights and to strengthen them. And, particularly, we 
endorse recommendations by many civil rights organizations to 
provide for a right to transfer outside the school district 
where the district won't or can't accommodate parents' requests 
for something better.
    In closing, if history is any guide, Mr. Chairman, we 
believe it will take time and unwavering resolve on the part of 
Congress and the executive branch to fully realize the promise 
of No Child Left Behind. We look forward to working with the 
committee, and we urge you to be strong and to stay the course.
    Thank you very much.
    [The statement of Ms. Piche follows:]

 Prepared Statement of Dianne M. Piche, Executive Director, Citizens' 
                       Commission on Civil Rights

    Good afternoon Chairman Miller, Mr. McKeon, Mr. Kildee, Mr. Castle, 
and members of the Committee. Thank you for the opportunity to testify 
today on behalf of the Citizens' Commission on Civil Rights and our 
chairman, William L. Taylor. The Citizens' Commission is a bipartisan 
organization established in 1982 to monitor the civil rights policies 
and practices of the federal government and to work to accelerate 
progress in civil rights. We believe education is a fundamental civil 
right.\1\ We also believe that NCLB represents our nation's most 
serious commitment at this time to closing our nation's persistent 
academic achievement gaps--gaps that inflict enduring pain and injury 
on our most vulnerable children, their families and communities.
---------------------------------------------------------------------------
    \1\ Since 1997, the Citizens' Commission has played a ``watchdog'' 
role in monitoring implementation and enforcement of key equity 
provisions in Title I of the Elementary and Secondary Education Act 
(ESEA), including: standards, assessments, state accountability 
systems, teacher quality, and public school choice and supplemental 
services. In 2004, we investigated and reported on early implementation 
of NCLB's provisions providing a right to transfer Choosing Better 
Schools: A Report on Student Transfers Under the No Child Left Behind 
Act. In 2006, we released our first report on teacher quality and NCLB, 
Days of Reckoning: Are States and the Federal Government Up to the 
Challenge of Ensuring a Qualified Teacher for Every Studen? See also 
the following reports of the Citizens' Commission on Civil Rights' 
Title I Monitoring Project: R. Rothman, et al., Title I in California: 
Will the State Pass the Test? (2002); Closing the Deal: A Preliminary 
Report on State Compliance With Final Assessment & Accountability 
Requirements Under the Improving America's Schools Act of 1994 (2001), 
Dianne Piche, et al, Title I in Midstream: The Fight To Improve Schools 
For Poor Kids (Corrine Yu & William Taylor, Eds. 1999), Dianne Piche, 
et al., Title I in Alabama: The Struggle to Meet Basic Needs (Citizens' 
Commission on Civil Rights, 1999). All reports are available at 
www.cccr.org.
---------------------------------------------------------------------------
    We commend Mr. Miller, Mr. McKeon and their staffs for crafting the 
thoughtful proposals we are all here today to discuss. There are many 
provisions in the draft that would extend and improve the ESEA reforms 
initiated under the Improving America's Schools Act of 1994 and Goals 
2000. (See Appendix A.) The IASA made the central finding that all 
children could learn and all but the most cognitively impaired could 
learn at high levels. Both the IASA and Goals 2000 spurred states to 
begin setting high standards and expectations for all students and to 
construct statewide assessment and school improvement systems for 
equity and accountability. The No Child Left Behind Act in 2001 
strengthened the IASA by adding concrete detail and additional 
safeguards to protect the children most in need--poor children, 
children of color, children with disabilities and those who are 
learning the English language. Both laws were the work of a bipartisan 
group of legislators who placed the national interest above 
considerations of partisan advantage.
    Over the course of the past decade we have seen real academic 
progress at schools around the country. These are generally schools 
working under the leadership of a dynamic principal who has assembled a 
group of teachers and other staff who are committed to the same goals, 
who work together cooperatively, and who deliver results. Many young 
teachers have been energized by the process and more experienced 
teachers have found new motivation. But much more work remains to be 
done and the work will be very, very hard. And because the work of 
leveling the playing field in public education is so challenging--in 
classrooms, school districts, legislatures, and executive agencies--we 
have encountered significant opposition to NCLB.
    Many of us in the civil rights community have observed that the 
resistance to NCLB and the difficulty in securing full and effective 
implementation is not unlike what we have witnessed with other critical 
civil rights measures. Dianne Piche recently wrote:
    NCLB is in many respects the latest in a long line of efforts in 
the policy and legal arenas to promote equity and opportunity in the 
public schools, including desegregation cases, the Civil Rights Act of 
1964, the original ESEA, and school finance and adequacy cases in the 
states.
    How long does it take a cutting-edge civil rights law to ``work''? 
Could a credible argument have been made in 1969, five years after 
passage of the Civil Rights Act, that the ambitious law was ``not 
working'' and therefore ought to be abandoned? \2\
---------------------------------------------------------------------------
    \2\ Dianne Piche, Basically a Good Model. Fall 2007. Education 
Next. Accessed 8/26/2007 Available online: http://www.hoover.org/
publications/ednext/9223561.html
---------------------------------------------------------------------------
    We urge you at this critical juncture not to turn back the clock on 
the IASA and NCLB, not to succumb to the pressure of special interest 
groups and their so-called ``fixes'' to NCLB. Sadly, in most cases 
these ``improvements'' promulgated by many of these interests are in 
fact measures that would make life easier for the adults--employees and 
public officials in our public education system--while inflicting 
hardship and injustice on children and their parents.
    It is in this context that we offer the following comments 
regarding the current draft:
Closing the Teacher Quality Gap
    First and foremost, we commend the Committee for proposing a number 
of new measures that will help close the teacher quality gap between 
schools with high concentrations of poor and minority students and 
others. It is folly to believe we can truly close student achievement 
gaps without first assuring that our most vulnerable students are 
assigned the most qualified and effective teachers. When their schools 
are systematically shortchanged by inequitable distribution of teachers 
and other resources--on both inter-district and intra-district bases--
they are set up for failure. Contrary to what some commentators have 
asserted, the equitable assignment of teachers is a national issue, and 
it is a major civil rights priority in education today. Closing the so-
called ``comparability'' loophole is a major step in the right 
direction. We urge the Committee to retain and strengthen this 
provision and to resist measures to weaken it. Moreover, as we reported 
in Days of Reckoning, the vast majority of states have virtually 
ignored provisions in current law requiring the equitable distribution 
of experienced and qualified teachers. We believe provisions in the 
draft will continue and strengthen these requirements.
Assessment and Accountability
    Assessment Improvement. The core of reform is a sturdy system of 
accountability, which in turn depends on valid tools of assessment. 
There is much that needs improvement in assessment. When some of us 
first worked on the issue a dozen years ago, we hoped that new forms of 
assessment would be devised, and that these assessments would measure 
the analytic and creative abilities of students in addition to basic 
skills. By and large states have fallen short. Test publishers 
persuaded many states to take the easier and cheaper course and simply 
to add multiple choice questions with the assurance that they would be 
geared to state standards. That is why we are pleased that the draft 
includes provisions (and funds) to study and develop ways to improve 
assessments, both for accountability and for diagnostic and 
instructional purposes.
    Additional Subjects. The Commission also has long supported (dating 
back to Goals 2000 and the IASA) the development of challenging state 
standards and aligned assessments in all the core subject areas, 
including, e.g., science and social studies. The draft seeks to 
encourage states to move in this direction and we believe this can be a 
positive thing for children in high-poverty schools who are often 
instructionally deprived across the range of subjects. However, we must 
emphasize that introduction of additional subjects into the 
accountability system must not be at the expense of basic reading and 
math. Despite arguments to the contrary, there is nothing wrong with a 
system that relies on mastery of grade level standards in English 
language arts and mathematics as the keystone to proficiency. These are 
the foundations of learning in many disciplines and many of the most 
successful schools find ways to integrate these other disciplines into 
reading and math and vice versa. Consequently, we would urge that these 
additional subjects be added as ``conjunctive'' rather that 
``compensatory'' measures at this time.
    Multiple Indicators. In an ideal world, states would have developed 
better assessment systems, including a better system of ``multiple 
measures'' as called for in Title I dating back to the IASA in 1994. 
But they have not. And we find it hard to believe their record will 
improve without both additional help and sanctions for noncompliance. 
For example, in the 1990s, the Citizens' Commission's Title I 
Monitoring Project found that most states came up short in meeting the 
requirements of the IASA--to develop six tests in six years that met 
basic requirements of reliability, validity, alignment with standards 
and full inclusion. (See Title I in Midstream, cited in footnote 1.) 
Under NCLB, far more assessments needed to be developed and field-
tested. But as of today, many states are far from the mark, 
particularly with respect to the appropriate assessment of ELLs and 
students with disabilities.
    In this context, the notion of introducing ``multiple indicators `` 
into state assessment systems at this time is very troubling. First, we 
believe it would be far better to invest in ensuring that the current 
state assessments really do the job we want them to do, and for all 
students. Second, there is little evidence that some proposed 
indicators have a demonstrated relationship to academic proficiency. 
While the draft suggests that such a relationship should be shown, 
these are just the kind of provisions that are widely ignored by 
states. The law should not permit untested and untried indicators to 
play any role in determining whether schools and districts have made 
adequate yearly progress (AYP). And we would urge Members to be 
particularly mindful of provisions that can be gamed to avoid 
responsibility. While high school graduation is an appropriate factor 
to consider, the law should be unambiguous in requiring that high 
school graduation means readiness for post secondary education, 
productive work and civic participation.
    Transparency and Simplicity. There is one other critical problem 
with the section on multiple indicators that needs the Committee's 
attention. Much of the criticism of state accountability systems has 
rested on the notion that they are far too complicated to be readily 
accessible to parents or even to teachers who must make judgments based 
on the results. While we are sure this is unintentional, the cure 
proposed is worse than the disease. The proposals for multiple measures 
make the assessment system far more inaccessible than it is right now. 
It will be almost impossible for a parent or educator to figure out 
what contribution a score on an additional indicator will make to a 
determination of a student's proficiency--or for that matter whether a 
school is achieving basic proficiency in reading and math.\3\
---------------------------------------------------------------------------
    \3\ Moreover, as the standards for educational and psychological 
testing published by the AERA, the APA and the NCME make clear, where 
multiple predictors are used, regression analysis or other techniques 
should be used for cross validation. (See Standards, p.21.)
---------------------------------------------------------------------------
    The complexity problem also affects the new effort to provide 
gradations of the need for improvement. E.g., while it is commendable 
to try to segment these schools into those that need the most help 
(``high priority'' ) and those that need less help (``priority'') one 
answer may be allowing the school more flexibility in determining which 
school operations need the most help and how best to provide it (e.g., 
through, redesign, restructuring, etc) . We will seek to make 
recommendations to the Committee for simplification of these 
provisions.
    Safeguards. Currently millions of students, and disproportionate 
numbers of African-American, Latino and other minority students, are 
left behind because they are not counted by states in their 
accountability systems. We applaud the committee for including 
safeguards like a cap on the ``n'' size and limits on confidence 
intervals. We do believe, however, that 30 is far too large and 
recommend a minimum ``n'' of 20, which has worked and worked well in a 
number of states.
    Growth Models. Other provisions introduce needed flexibility into 
the system. Both of us served as peer reviewers for the Department of 
Education on pilot proposals for growth models. We came away with the 
conclusion that a system which can track a student's progress over 
three years and determine whether she is on a trajectory to meeting 
proficiency is a very promising way of assessing progress toward 
proficiency. The utility of growth models depends, however, on the 
development of reliable data systems and on a commitment by the state 
not to manipulate standards to inflate the proficiency rate. It should 
also be made clear (as it is not in the staff draft) that these 
``alternative systems'' are not additive but must stand on their own. 
So just as the ``safe harbor'' provision cannot be added to a growth 
model to help a school meet its annual measurement requirement, neither 
should any ``multiple indicators'' approved be used in the same way.
    Rigorous Standards. The draft nominally requires states to develop 
college and work-ready standards, but more attention needs to be paid 
to the timeline for this process and to measures to ensure states 
really see this challenge through to conclusion. In addition, because 
the danger of diluting standards to avoid findings of non-proficiency 
is not limited to growth models , but is endemic, we heartily approve 
of the draft provision (pp.113-114) calling for a study by the National 
Academy of Science of the comparative rigor of state standards and 
assessment. It makes sense to call for recommendation with respect to 
reducing disparities and developing a common standard. It also makes 
sense to provide for two year follow-ups and reports by the Secretary. 
This kind of study, along with keeping an eye on disparities between 
NAEP scores and state assessments, may help to insure some integrity in 
state systems even lacking national standards.
    Local Assessments. Finally on the question of assessments we come 
to the single provision in the staff draft that is most destructive of 
all that the reform effort has sought to accomplish. Section 1125 
provides for pilot programs in 15 states to permit ``locally developed, 
classroom-embedded assessments.'' These assessments could be used in 
determining AYP. Since the 1960s, efforts in the courts and in Congress 
have sought to abolish racially dual school systems, segregation in 
classrooms, and different standards and expectations for the advantaged 
and disadvantaged. Yet with a single stroke, this provision for local 
assessments would wipe out everything the law seeks to accomplish. We 
could have one set of standards for rural areas and another for urban 
areas, one for the Bronx and another for Westchester County, one for 
Boston and another for Brookline. Nothing in this section seeks to 
ensure that proficiency in one school district will be the same as 
proficiency in another. Moreover, given what we know about ``gaming the 
system,'' we believe such comparability is highly unlikely.
    All of the other efforts to advance educational equity, for 
example, by strengthening the comparability section and ensuring high 
quality teachers in high poverty schools, would go for naught. There 
would be no surer way of shredding an accountability system. This 
section must be deleted.
Parents' Rights and Remedies
    Right to Transfer and to Supplemental Educational Services. The 
draft does not include strong provisions enabling parents to obtain 
relief and help when their children are trapped in substandard schools. 
In fact, the draft appears to take back rights previously granted to 
families under NCLB by unreasonably limiting eligibility for choice and 
SES to a much smaller subset of students in need. These provisions must 
be restored and strengthened.
    The Citizens' Commission has submitted extensive recommendations to 
the Committee on improvements to SES and to strengthen public school 
choice. E.g., we furnished detailed recommendations to the staff and 
Ms. Piche previously testified before the Subcommittee on these issues 
on April 18, 2007. We particularly urge the committee to consider our 
recommendations on how to guarantee real choices and to facilitate 
inter-district transfers where successful schools in a district do not 
have capacity for eligible students.
    Civil rights organizations were among the original supporters of 
the right-to-transfer provisions in both IASA and NCLB and have 
supported the free-tutoring provisions as well. We stress that these 
provisions were not intended to be ``sanctions'' or punishments for 
failing schools (though they can be helpful in improving schools) but 
as options that provide some modest measure of relief and compensation 
to students who have been wronged by an inadequate education. 
Fundamental fairness dictates that if middle-class and wealthy parents 
have the freedom to move their children from substandard educational 
environments to ones that offer a better prospect, then the poor should 
have those same rights for their children. This is especially the case 
for children who have been assigned to chronically low-performing 
schools.
    Enforcement. It is unrealistic and unfair to rely solely on 
administrative enforcement at the federal and state levels to vindicate 
the rights of students when they are violated by recipients of federal 
funds. Parents and students must be empowered to become full partners 
in implementing and enforcing the law. CCCR, along with other civil 
rights organizations, will be submitting recommendations supporting 
enforcement rights of Title I beneficiaries.
   appendix a.--to testimony of citizens' commission on civil rights
Provisions Advancing Equal Opportunity
    The Miller-McKeon Discussion Draft includes many new provisions 
that will advance the educational equity goals of the IASA and the 
NCLB. We are still studying the entire draft and will add to this list 
in the near future. While some of these proposals will need to be 
refined or developed further, we would urge the Committee to include 
them in a reauthorized ESEA and without weakening amendments:
    1. A new, dedicated funding stream for high schools, with a focus 
on challenging and engaging young people and stopping the hemorrhage of 
high-drop out rates in high-poverty high schools.
    2. Clarification that only valid and reliable measures (verified by 
an independent analysis) of student academic outcomes may be used to 
calculate adequate yearly progress. The draft also broadens the scope 
of accountability by permitting states to hold schools and districts 
accountable for teaching and learning in important core subjects (other 
than reading and math) like science, social studies and writing.
    3. Increased public access to and participation in state and local 
school reform efforts, including, e.g., the provision of immediate 
access (on the internet) of all state plans.
    4. Alignment of state academic content standards and accountability 
systems to knowledge and skills needed for post-secondary education and 
the modern workplace.
    5. Support for the development of state longitudinal data systems 
to track student progress over time.
    6. Allowance for states to implement rigorous growth models, 
following the basic principles and rules for such allowance that were 
followed by the Secretary in granting this flexibility to several 
promising states. Includes important safeguards to ensure that growth 
models do not water down expectations for students.
    7. The restoration of the requirement that all students make 
``substantial and continuous academic improvement,'' a key provision in 
the IASA of 1994 that was deleted in the NCLB of 2001.
    8. Maintenance of the ``starting point'' established under NCLB in 
2002, along with the 2013-14 deadline for full proficiency.
    9. Statutory limits on confidence intervals, large ``n sizes,'' 
percentages of students with disabilities who can be excluded from 
regular assessments, and other State devices that have operated to 
leave millions of children--most of whom are minorities--out of the 
accountability system.
    10. Requirement for much-needed and long-overdue statewide policy 
on research-based assessment accommodations and adaptations.----and 
p.74-5
    11. Strengthened reports to parents on individual student 
achievement. P.72
    12. Deadline (2 years) by which states must meet a long-overdue 
requirement of the IASA of 1994: valid and reliable ways to assess 
their ELLs and students with disabilities, and penalty for 
noncompliance thereafter.
    13. Assurance that curriculum will be aligned with the standards, 
with aligned professional development. (86-87)
    14. A more sensible approach to accountability that recognizes that 
some substandard schools need to improve more, others less or in 
different ways, and the attempt to target interventions and resources 
to those schools furthest from state standards.
    15. Elimination of the loophole in Title I's ``comparability'' 
provision that for many years has enabled wealthy schools to spend more 
per student on teachers' salaries and other educational expenditures 
than poor schools in the same district.
    16. Other provisions in Title II, including provisions of the so-
called ``TEACH Act'' which has been endorsed by a broad coalition of 
civil rights and education organizations.
                                 ______
                                 
    Chairman Miller. Ms. Pompa?

 STATEMENT OF DELIA POMPA, VICE PRESIDENT, NATIONAL COUNCIL OF 
                            LA RAZA

    Ms. Pompa. Good afternoon. My name Delia Pompa. I am the 
vice president for education at the National Council of La 
Raza.
    NCLR is a private, nonprofit, nonpartisan organization 
established in 1968 to reduce poverty and discrimination and to 
improve opportunities for the Nation's Hispanics. In my role as 
vice president for education at NCLR, I oversee programs 
ranging from early college high schools and charter schools to 
prekindergarten and early childhood education.
    My work on public school reform has been shaped by more 
than 30 years' experience leading local, State and Federal 
agencies and national and international organizations. I began 
my career as a kindergarten teacher in San Antonio and went on 
to serve as district administrator and as assistant 
commissioner of the Texas Education Agency. Only providing 
these bona fides so you will know that my heart is in 
education.
    Since that time, I have been focused on helping academic 
institutions understand and respond to the needs of underserved 
children and their teachers.
    NCLR appreciates that the committee has placed the 
education of Latino and English language learners, or ELL, 
students at the center of the reauthorization process.
    While NCLR is interested in every aspect of 
reauthorization, in my testimony today I will focus on the ELL 
provisions of the discussion draft released on August 28. I 
will provide comments on those aspects for the proposed law.
    NCLB reauthorization represents a critical juncture for the 
Latino community and for public schools in general. Over the 
past decade, Latino and ELL students have changed the 
demographics of our Nation's schools. However, historically, 
public schools have not provided the Nation's Hispanic and ELL 
children with a high-quality education. Over the past 5 years, 
awareness of the low achievements of Latinos and ELLs have 
increased significantly. The harshest critics of NCLB choose to 
blame the law for this. What is seldom mentioned is that NCLB 
has highlighted conditions that have been in existence for 
decades with little notice or consternation.
    When I was teaching 30 years ago, Latino students in the 
U.S. did not receive the rigorous coursework and effective 
instruction needed to succeed in school and go on to college. 
If they were English language learners, the situation was 
grimmer. The same applied 20 years ago and 10 years ago. Simply 
put, the quality of education available to poor, minority 
children in inner cities over the last several decades has not 
come close to that available for white children or children in 
more affluent communities.
    Poor, minority and ELL kids have not been getting a fair 
shake, and there has been little public will to change that. 
While NCLB has not changed these conditions, it has forced the 
public school system to begin addressing them and to put plans 
in place to improve educational opportunities for English 
language learners.
    Unfortunately, 5 years after NCLB's enactment, there are 
many myths about the requirements of the law and about Hispanic 
and ELL student populations that have sought to weaken the 
public will to effectively implement the law.
    These include, first, ELL students are causing schools to 
fail to make AYP. In fact, according to the NCLB Commission and 
other studies, ELLs are not the sole or the main reason schools 
are identified as not making AYP.
    Another myth is that most Hispanic and ELL students are 
immigrants; thus, it is unfair to hold schools accountable for 
their academic achievement. The fact is 89 percent of Latinos 
under 18 are U.S. citizens.
    Another myth is that 5 years is just not enough time for 
States, districts and schools to put in place appropriate 
assessments for ELLs. The assessment requirements have been in 
place since 1994, as was mentioned by my colleagues, under the 
Improving America Schools Act.
    The most pernicious of all the myths is the notion that too 
many out-of-school challenges, including poverty, family 
education and limited English proficiency, make it impossible 
for schools to close the achievement gap; thus, NCLB's 
accountability system is unfair. The fact is many of these 
challenges are being addressed through programs such as Head 
Start, SCHIP, housing counseling, adult education, Even Start 
and so on. While schools have a major challenge, schools are 
not alone in this.
    Overall, the discussion draft moves the ball forward 
significantly for English language learners. Specifically, we 
support the following provisions: first, including former LEP 
students in the LEP category for 3 additional years so that 
their progress may be included in AYP.
    Second, we support the codification of the Department of 
Education's regulation allowing a 1-year exemption from the 
reading test for recently arrived English language learners.
    We also support requiring the development and use of 
appropriate English language learner assessments 2 years after 
the renewed No Child Left Behind law is effective.
    Another provision that we support is a special rule 
requiring certain States to develop native language 
assessments.
    And, finally, we support the requirement in the State plans 
for professional development and the use of accommodations for 
teachers of all ELL students.
    NCLB has changed the debate over how best to educate the 
Nation's ELLs to a simple question: How can schools improve the 
academic achievement and attainment of ELLs? NCLB gives States, 
school districts and schools the flexibility to design their 
own responses to this question with one caveat: They will be 
held accountable for helping ELLs learn English and meet the 
same academic standards of other children. NCLR urges Congress 
to maintain this focus in final reauthorization legislation.
    In conclusion, the demographics clearly show that the 
future of our public school system rests on its ability to 
prepare the growing number of Hispanic and ELL students for 
college and the workplace. Over the past 5 years, there has 
been a great momentum behind closing the achievement gap. There 
is unprecedented public will to ensure that every child has a 
quality education.
    Weakening NCLB's accountability measures would weaken the 
public will to improve our public schools and would pull the 
rug out from under millions of children and their parents, as 
well as the Nation's teachers who are committed to providing 
their students with a high-quality education.
    Thank you for considering our views.
    [The statement of Ms. Pompa follows:]

Prepared Statement of Delia Pompa, Vice President, National Council of 
                                La Raza

    My name is Delia Pompa; I am the Vice President for Education at 
the National Council of La Raza (NCLR). NCLR is a private, nonprofit, 
nonpartisan organization established in 1968 to reduce poverty and 
discrimination and improve opportunities for the nation's Hispanics. As 
the largest national Hispanic civil rights and advocacy organization in 
the U.S., NCLR serves all Hispanic nationality groups in all regions of 
the country through a network of nearly 300 Affiliate community-based 
organizations.
    In my role as Vice President for Education at NCLR, I oversee 
programs ranging from early college high schools and charter schools to 
pre-kindergarten and early childhood education. My work on public 
school reform has been shaped by more than 30 years of experience 
leading local, state, and federal agencies and national and 
international organizations. I began my career as a kindergarten 
teacher in San Antonio, and went on to serve as a district 
administrator in Houston and as Assistant Commissioner of the Texas 
Education Agency. I was formerly the Director of Education, Adolescent 
Pregnancy Prevention, and Youth Development for the Children's Defense 
Fund, and Director of the Office of Bilingual Education and Minority 
Language Affairs at the U.S. Department of Education. In particular, I 
am focused on helping academic institutions understand and respond to 
the needs of underserved children and their teachers.
    NCLR appreciates the Committee's efforts to hold this hearing on 
the reauthorization of the Elementary and Secondary Education Act of 
1965. In particular, we are pleased that the Committee has placed the 
education of Latino and English language learner (ELL) students at the 
center of the reauthorization process. One immediate benefit of the No 
Child Left Behind Act (NCLB) is that it has brought to light issues 
concerning ELLs.
    As a preliminary matter, I would like to state unequivocally that 
NCLR believes that English is critical to success in this nation and 
strongly supports English-language acquisition for ELLs and all 
individuals who are limited English proficient (LEP). The fact is, NCLR 
and its Affiliate Network are in the business of helping LEP children 
and adults acquire English-language skills. For example, about half of 
our nearly 300 Affiliates provide some English-language acquisition 
services. In addition, NCLR's network of more than 90 charter schools 
serves a diverse group of students, including ELLs.
    NCLR has also invested a great deal of time in shaping the No Child 
Left Behind Act and in working toward more effective implementation of 
that law, which we see as a linchpin for the future of Latino students, 
nearly half of whom are ELLs. NCLR worked with Congress to craft a new 
bilingual education law, Title III of NCLB, which has clear 
accountability for helping ELLs acquire proficiency in English and keep 
up with their English-proficient peers in reading, math, and science. 
NCLR worked with Congress to make sure that parents are part of the 
education process, particularly immigrant parents who are not English 
proficient. NCLR has been working in collaboration with the Department 
of Education to improve implementation of the ELL provisions of NCLB 
and to fight back efforts to erode accountability for ELLs. We hope to 
continue working with Congress to strengthen--not discard--NCLB's 
accountability provisions. NCLR's publication, Improving Assessment and 
Accountability for English Language Learners in the No Child Left 
Behind Act, provides a roadmap for NCLB reauthorization. I would like 
to submit a copy of that issue brief for the record.
    NCLR has also worked to inform the Latino community about NCLB, 
particularly the parents of students most likely to benefit from NCLB, 
yet most likely to be ignored. Specifically, NCLR has conducted 
workshops and trainings for Latino, limited-English-proficient, and 
farmworker parents. In the rural community of Woodburn, Oregon, we 
conducted a day-long training which attracted about 100 farmworker 
parents of ELLs. Their deep commitment to the education of their 
children was clear. Their main challenge in fulfilling their role under 
NCLB--to hold their local schools accountable for improving educational 
outcomes--is their lack of English proficiency.
    While NCLR is interested in every aspect of the reauthorization, in 
my testimony today I will focus on the ELL provisions of the discussion 
draft released on August 28, 2007. Specifically, I will provide (1) 
selected statistics on ELL and Hispanic students; (2) a brief history 
of the education of ELL students; (3) a brief discussion of popular 
myths about NCLB as it relates to ELL students; and (4) an examination 
of key provisions of the discussion draft.
Hispanic Education Statistics
    NCLB reauthorization represents a critical juncture for the Latino 
community and public schools in general. Over the past decade, Latino 
students have had a great impact on the demographics of our nation's 
public schools. This can be characterized by Hispanic students' large 
numbers, rapid increase, and growing presence in schools, particularly 
in ``nontraditional'' states. For example, in 2005, Hispanics accounted 
for more than 10.9 million students enrolled in U.S. public schools 
(preK-12th grade). Between 1993 and 2003, the proportion of Hispanic 
students enrolled in public schools increased from 12.7% to 19%, while 
the proportion of White students decreased from 66% to 58%. Between 
1972 and 2004, the proportion of the Hispanic student population 
increased in the South from 5% to 17%, in the Midwest from 2% to 7%, 
and in the Northeast from 6% to 14%.
    In addressing education reform, NCLR focuses on ELLs because of 
their growing presence in public schools. During the 2004-2005 academic 
year, there were an estimated 5.1 million ELL students enrolled in 
public schools, representing 10.5% of the total public school student 
enrollment and representing a more than 56% increase between 1994-1995 
and 2004-2005. Nearly four-fifths (79%) of ELL students are native 
Spanish-speakers. Nearly half (45%) of all Latino children in our 
nation's public schools are ELL students.
    ELLs are often in urban schools and large districts. An estimated 
91% of ELL students live in metropolitan areas. In fact, nearly 70% of 
the nation's ELLs are enrolled in 10% of metropolitan-area schools; a 
quarter of the 100 largest school districts have an ELL population of 
at least 15%. However, their numbers are growing in ``nontraditional 
states.'' Between 1995 and 2005, states which experienced the largest 
growth rates in ELLs included South Carolina (714%), Kentucky (417%), 
Indiana (408%), North Carolina (372%), and Tennessee (370%).
    Thus, if NCLB and public schools do not work for Latinos and ELLs, 
we do not have a functioning public school system in the U.S. 
Unfortunately, public schools have not worked thus far for the nation's 
Hispanic children.
History of Hispanic Education
    Over the past five years, awareness of the low achievement of ELLs 
has increased significantly. The harshest critics of NCLB choose to 
blame the law for this. What is seldom mentioned is that NCLB has 
simply highlighted conditions that have been in existence for decades 
with little notice or consternation. When I was teaching 30 years ago, 
Latino students did not receive the rigorous coursework and effective 
instruction needed to succeed in school and go on to college. If they 
were ELL, the situation was grimmer. The same applied 20 years ago, and 
ten years ago. Yet, despite receiving less than a quality education, 
many of these students received passing grades and eventually graduated 
from high school. Simply put, the quality of education available to 
poor, minority children in the inner cities over the last several 
decades has not come close to that of White children or children in 
suburban communities. Poor, minority, and ELL kids have not been 
getting a fair shake. And there was no public will to change the 
educational experiences of these children because there was no shared 
responsibility.
    Certainly, the current state of Hispanic education should be a 
cause of concern. Some key statistics illustrate this: Latinos do not 
have equitable access to preschool education. In 2005, 66% of Black 
children and 59% of White children participated in center-based 
preschool education programs, while only 43% of Hispanic children 
participated. (National Center for Education Statistics, ``Enrollment 
in Early Childhood Education,'' The Condition of Education 2006. 
Washington, DC: U.S. Department of Education, 2006, Table 2-1, p. 2.)
    Minority students, including Latinos, are not provided with 
rigorous coursework. According to a study by Achieve, Inc., while 74% 
of minority girls want to enroll in advanced courses, only 45% of their 
schools offer these courses. Similarly, two-thirds of minority boys 
have an interest in taking advanced mathematics courses, but fewer than 
half attend schools that offer these courses. (``If We Raise Standards 
in High School, Won't Students Become More Disengaged?'' Fact Sheet. 
Washington, DC: Achieve, Inc., 2005. http://www.achieve.org/node/595)
    The results speak for themselves. Too few Latinos and African 
Americans graduate from high school. Only 53% of Hispanic students and 
50% of African American students who enter 9th grade will complete the 
12th grade and graduate with a regular diploma, compared to 75% of 
White students. (Orfield, Gary, Daniel Losen, Johanna Wald, and 
Christopher B. Swanson, Losing Our Future: How Minority Youth Are Being 
Left Behind by the Graduation Rate Crisis. Cambridge, MA: The Civil 
Rights Project at Harvard University. Contributors: Advocates for 
Children of New York and Civil Society Institute, 2004, p. 2.)
Myths and Facts on NCLB and ELLs
    While NCLB has not changed these conditions, it has forced the 
public school system to begin addressing them and to put plans in place 
to improve educational opportunities for ELLs. Thus, NCLR strongly 
believes that any changes to NCLB during this reauthorization must 
maintain a focus on high standards, assessment, accountability, 
parental involvement, teacher quality, and adequate resources. 
Unfortunately, five years after NCLB's enactment, there are many myths 
about the requirements of the law, and about the Hispanic and ELL 
student population. These include:
    ``ELL students are causing schools to fail to meet adequate yearly 
progress (AYP) benchmarks.'' The truth is, according to the NCLB 
Commission, ELLs are not the sole reason schools are identified as not 
making AYP.
    ``Most Hispanic and ELL students are immigrants. Thus, it is unfair 
to hold schools accountable for their academic achievement.'' The truth 
is, the vast majority of Latino children are U.S. citizens by birth; 
88% of Latinos under 18 are U.S.-born. Another 1% are naturalized 
citizens. About 10% of Latino children under 18 are noncitizens. 
According to the Urban Institute, in 2000, only 1.5% percent of 
elementary schoolchildren and 3% of secondary schoolchildren were 
undocumented immigrants. Fifty-nine percent of elementary school ELL 
students are U.S.-born children of immigrants, or second generation, 
and 18% are children of U.S. native-born parents, or third generation.
    ``Five years is just not enough time for states, districts, and 
schools to put in place appropriate assessments for ELLs.'' The truth 
is, the assessment requirements have been in place since 1994 under the 
Improving America's Schools Act (IASA).
    There is also a great deal of confusion about regulations 
promulgated by the U.S. Department of Education related to recently 
arrived ELLs. The Department's ELL regulation allows states to exempt 
recently arrived LEP students from one administration of the states' 
reading/language arts assessment. It requires states to include 
recently arrived LEP students in state mathematics assessments, but 
allows them not to count in adequate yearly progress determinations the 
scores of recently arrived LEP students on state mathematics 
assessments. Myths related to the rule abound and include:
    ``The Department's new rule is unfair because schools currently 
have a three-year exemption for newly arrived ELLs.'' The truth is, 
there was no exemption of ELLs prior to this rule.
    ``Because of this new rule, ELLs are being forced to take English-
language tests after one year.'' The truth is, states can still test 
ELLs in other languages, consistent with 1111(b)(3)(C) of NCLB.
    Most pernicious of all is the notion that ``too many `out-of-school 
challenges,' including poverty, family education, and limited English 
proficiency make it impossible for schools to close the achievement 
gap. Thus, NCLB's accountability system is unfair.'' The fact is, many 
of these challenges are being addressed through programs such as Head 
Start, 21st Century Community Learning Centers, the State Children's 
Health Insurance Program, housing counseling, adult education, Even 
Start, and so on. Schools are not in this alone.
Key ELL Provisions in the August 28, 2007, Education and Labor 
        Committee Discussion Draft
    Overall, the discussion draft moves the ball forward significantly 
with regard to NCLR's principal goal of ensuring that the heart of 
NCLB--its foundation of standards, assessments, and accountability--is 
strengthened, not discarded, for ELLs. Specifically, we support the 
following provisions:
    Including ``former-LEP'' students in the ELL category for three 
additional years (Page 31, Section 1111(b)(2)(C)(v)(II)(dd)). This 
provision give schools additional flexibility in allowing ELL students 
who have acquired English proficiency to be counted as ELL for an 
additional three years for AYP purposes. This increases the likelihood 
that students in the ELL category will make AYP and does not punish 
schools which are helping students acquire English. NCLR recommends 
keeping the language as it is in the discussion draft.
    Codification of the Department of Education's regulation allowing a 
one-year exemption from the reading test on recently arrived ELLs (Page 
54, Section 1111(b)(2)(Q)). This regulation represents common-sense 
policy. Schools should have one year to provide instruction and other 
academic supports for recently arrived ELLs in order to demonstrate 
whether or not their programming is effective. Any less time would be 
unfair to schools, and more time would place ELLs in jeopardy of 
falling through the cracks. NCLR recommends keeping the language as it 
is in the discussion draft.
    Requiring the development and use of appropriate ELL assessments 
two years after the renewed NCLB is effective, with the use of 
appropriate interim measures for certain ELLs, and with 25% withholding 
of funds for noncompliance (Pages 84-85, Section 1111(b)(10)). As noted 
above, states have had since implementation of the 1994 law to develop 
appropriate assessments. Over the past five years, many states have 
made great progress toward complying with this aspect of the law and 
should be in a position to meet this requirement. The draft allows 
states to use interim measures for those ELLs at the lowest levels of 
English proficiency and use their progress in acquiring English as an 
interim AYP measure. This provides states with sufficient flexibility 
until they develop appropriate assessments. Principals, teachers, and 
students should not be asked to wait any longer for appropriate 
assessments. NCLR recommends keeping the language as it is in the 
discussion draft.
    The ``special rule'' requiring certain states to develop native-
language assessments (Pages 81-85, Section 1111(b)(6)). This provision 
is intended to provide districts and schools with a significant number 
of ELLs from one language group appropriate assessments for ELLs, in 
this case a native-language assessment. NCLR supports this provision 
because research has consistently shown that some standardized tests 
may not effectively assess the academic achievement of ELLs. The 
National Research Council found that some ELL test scores may be 
inaccurate if ELL students take tests in English, concluding that 
``when students are not proficient in the language of assessment (in 
this case, English), their scores on a test will not accurately reflect 
their knowledge of the subject being assessed (except for a test that 
measures only English proficiency).'' However, we would recommend 
changing the legislative language and the policy to clarify that 10% 
refers to 10% of all students in a state:
    ``(C) SPECIAL RULE.--Consistent with subparagraph (A) and State 
law, in the case of any State where at least 10 percent of all students 
who are English language learners share one language, the State shall--
--
    (i) develop or make available to such students native language or 
[dual language] assessments that are valid, reliable, and aligned to 
grade level content and student academic achievement standards; and
    (ii) assess such students using such assessments, if such 
assessments validly and reliably measure the content and instruction 
such students received.''
    The requirement in the state plan for professional development in 
the use of accommodations (Page 87, Section 1111(b)(11)(G)). This 
provision ensures that teachers in states which will use accommodations 
as part of their assessment system will be prepared to adjust their 
instruction accordingly and use accommodations appropriately. NCLR 
recommends keeping the language as it is in the discussion draft.
Conclusion
    The debate over how best to educate the nation's ELLs has shifted 
dramatically since passage of NCLB. Before NCLB, the ELL student 
population was often overlooked. Little to no accountability for the 
learning of these students existed. Indeed, most states did not include 
ELLs in their accountability systems. In addition, many activists and 
policy-makers argued about what was the best method for helping ELLs 
acquire English. NCLB has correctly changed the debate on ELLs to a 
simple question: How can schools improve the academic achievement and 
attainment of ELLs? NCLB gives states, school districts, and schools 
the power to design their own responses to this question with one 
caveat: They will be held accountable for helping ELLs learn English 
and meet the same reading and mathematics standards as other children. 
States and districts will have to report to parents on their progress, 
and parents will hold schools accountable if they cannot meet their 
goals.
    In addition, as Congress moves forward with NCLB reauthorization, 
we are concerned that members will seek to conflate the education of 
ELLs and Hispanic children with immigration policy. We would like to 
set the record straight before the debate begins. As noted above, the 
vast majority of Latino children are U.S. citizens by birth. Thus, any 
attempts to use immigration--legal or unauthorized immigration--to 
exclude or marginalize ELL and Hispanic students are without basis or 
merit, must be soundly rejected by Congress, and should be described 
clearly and without hesitation as an attack on the principle of 
inclusion which has characterized the U.S. and the American people.
    Congress must move the ball forward on education reform. Given the 
demographics noted above, the future of our public school system rests 
on its ability to prepare the growing number of Hispanic and ELL 
students for college and the workplace. For Latinos and ELLs, inclusion 
in NCLB represents the best opportunity to achieve this. This means 
that the heart of NCLB--its foundation of standards, assessments, and 
accountability--must be strengthened, not discarded.
    Over the past five years, there has been great momentum behind 
closing the achievement gap. There is unprecedented public will among 
educators, policy-makers, and the nation as a whole to ensure that 
every child has a quality education. Gutting NCLB's accountability 
measures would be a major setback for members of Congress, advocates, 
educators, parents, and students hoping to build on this public will to 
improve our public schools.
                                 ______
                                 
    [Internet address to National Council of La Raza Issue 
Brief No. 16, Mar. 22, 2006, follows:]

        http://www.nclr.org/content/publications/download/37365

                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Neas?

     STATEMENT OF KATY BEH NEAS, DIRECTOR OF CONGRESSIONAL 
     RELATIONS, EASTER SEALS, CONSORTIUM FOR CITIZENS WITH 
                          DISABILITIES

    Ms. Neas. Good afternoon, Mr. Chairman and members of the 
committee. My name is Katy Neas, and I speak to you today as 
one of the four co-chairs of the Consortium for Citizens with 
Disabilities' Education Task Force. I am also director of 
congressional affairs at Easter Seals.
    CCD is a coalition of nearly 100 national consumer advocacy 
provider and professional organizations, headquartered in 
Washington, D.C. Since 1973, CCD has advocated on behalf of 
people with disabilities of all ages and with all types of 
disabilities in their families. And approximately 50 national 
organizations participate in our Education Task Force.
    Let me begin with stating that No Child Left Behind has 
been very good for students with disabilities. The most recent 
amendments enhanced improvements made over the past decade to 
the Individuals with Disabilities Education Act. When Congress 
reauthorized IDEA in 1997, several provisions were added to 
this landmark civil rights law.
    First, students with disabilities were to have access to 
the general curriculum. When IDEA was first enacted, as you 
know, Mr. Chairman, in 1975, with your participation, some 
thought that that meant that kids should have the right to 
physically attend school. In 1997, Congress clarified the law 
to mean that not only should students with disabilities have 
the opportunity to physically enter a school, but that students 
should be taught the same material as their nondisabled peers.
    Second, Congress required students with disabilities to be 
included in state- and district-wide assessments. For students 
who cannot take the regular assessment, their progress was to 
be measured based on an alternate assessment. The purpose of 
these two provisions was to raise expectations about the 
academic achievement of students with disabilities. Our 
national policy was that students with disabilities should more 
than simply attend school; they should be expected to make 
academic progress that is similar to their nondisabled peers.
    NCLB continued this path of high expectations. States were 
required to measure and report the progress of all children, 
including children with disabilities. And as my colleague just 
mentioned, we now have meaningful data on the academic progress 
of students with disabilities.
    Nationally, students with disabilities represent about 13 
percent of the total student population. I have prepared a 
chart for each of the committee members showing the breakdown 
by disability category of students in their States. As you will 
see, although disabilities do range across a wide spectrum, we 
know that 85 percent of students identified do not have a 
cognitive disability. Moreover, nearly 50 percent of students 
with disabilities spend more than 80 percent of each school day 
in the regular classroom with their peers.
    We also have data attached to my testimony that indicates 
that test scores of students with disabilities are distributed 
across the performance range similar to general-education 
students. Thanks to ESEA and IDEA, students with disabilities 
are setting high goals and reaching them.
    I would like to speak to the draft bill now. Let me start 
with a positive element.
    First, we are extremely pleased that the bill does not 
establish a student's individualized education program as the 
accountability measure for students with disabilities. The 
purpose of an IEP is to spell out the special education and 
related services that a student needs to benefit from 
education. IEPs are not designed as tools for holding schools 
accountable whether a student is taught to the academic content 
and achievement standards. Rather, IEPs set goals and 
objectives that the school and parents hope the child will 
achieve as a result of achieving special education services.
    Additionally, we are pleased that the draft bill maintains 
the students' subgroup and requirement for disaggregation of 
data. Like the addition of graduation rates as a factor in AYP, 
the addition of student growth as an allowable factor in AYP, 
the requirement that the subgroup not exceed the number of 30, 
that is very important to us.
    We appreciate the bill recognizes school-wide positive 
behavior supports--that can be helpful--and the requirement of 
the development of a comprehensive plan to address 
implementation of universal design for learning.
    There are a few areas which the disability coalition would 
like to see the bill improve.
    We would like to see dropped from the bill the provision 
that would allow a local education agency to exclude up to 40 
percent of students with disabilities, some 2.4 million 
students, from grade-level academic standards. Many students 
with disabilities can achieve grade-level work when given the 
right access to high-quality instruction with qualified 
teachers and appropriate accommodations for both instruction 
and assessment.
    We acknowledge that the bill gives States 2 years to 
develop assessments for all students, and we hope the final 
bill will propel States to take this action immediately.
    In closing, I would like to reaffirm my belief that 
students with disabilities have reaped significant benefits 
from No Child Left Behind. Students whose progress is measured 
get taught. Every principal in every school has the ability to 
know the progress of each child in his or her school. Schools 
are making decisions on how best to get more children to 
achieve at the proficient level, including students with 
disabilities. Students with disabilities are being educated in 
challenging environments, where expectations of their academic 
progress are not automatically set at the lowest bar.
    I am hopeful that, when the data is reported in a decade 
from now, that we will see the graduation rate of students with 
disabilities go through the roof, where more students with 
disabilities complete college and have fuller lives.
    Thank you for the opportunity to be here.
    [The statement of Ms. Neas follows:]

Prepared Statement of Katy Beh Neas, Co-Chair, Consortium for Citizens 
                      With Disabilities Task Force

    My name is Katy Beh Neas and I speak to you today as one of the 
four co-chairs of the Consortium for Citizens with Disabilities 
Education Task Force. I am also Director of Congressional Affairs for 
Easter Seals.
    The Consortium for Citizens with Disabilities is a coalition of 
nearly 100 national consumer, advocacy, provider and professional 
organizations headquartered in Washington, D.C. Since 1973, CCD has 
advocated on behalf of people of all ages with physical and mental 
disabilities and their families. CCD has worked to achieve federal 
legislation and regulations that assure that the 54 million children 
and adults with disabilities are fully integrated into the mainstream 
of society. Approximately 50 national organizations participate in the 
Education Task Force. Thank you for this opportunity to speak to you 
today regarding the Miller-McKeon Discussion Draft of the 
Reauthorization of the Elementary and Secondary Education Act.
    Let me begin by stating that the Elementary and Secondary Education 
Act, as amended in 2002, has been good for students with disabilities. 
These amendments enhanced improvements made to the Individuals with 
Disabilities Education Act (IDEA) over the past decade. As you know, 
IDEA has been successful in ensuring children with disabilities and the 
families of such children access to a free appropriate public education 
and in improving educational results for children with disabilities.
    When Congress reauthorized IDEA in 1997, several important 
provisions were added to this landmark civil rights law. First, 
students with disabilities were to have access to the general 
curriculum. When IDEA was first enacted in 1975, there was a thought 
that kids with disabilities have the right to physically attend public 
school. In 1997, that right was clarified to mean that not only should 
students with disabilities have the ability to physically enter a 
school, but that these students should be taught the same material as 
their non-disabled peers.
    Second, Congress required students with disabilities to be included 
in state and district-wide assessments, with appropriate accommodations 
where necessary. For students who cannot take the regular assessment, 
their progress was to be measured based on an alternate assessment. The 
purpose of these two provisions was to raise expectations about the 
academic achievement of students with disabilities. Our national policy 
was that students with disabilities should do more than simply attend 
school. They should be expected make academic progress that is similar 
to their non-disabled peers.
    With the enactment of the 2002 ESEA amendments, federal education 
policy continued on this path of high expectations. The amendments 
required all students with disabilities to participate in academic 
assessments and to be taught by highly qualified teachers. States were 
required to measure and report the progress of all children, with 
direct attention placed on the progress of students with disabilities 
as a subgroup. We now have meaningful data on the academic progress of 
students with disabilities.
    Nationally, students with disabilities represent about 13 percent 
of the total student population. I have prepared for each committee 
member a chart that indicates the breakdown by disability category of 
students in their states. Although their disabilities do range across a 
wide spectrum, we know that 85 percent of students identified do not 
have a cognitive disability. Moreover, nearly 50 percent of students 
with disabilities spend more than 80 percent of each school day in the 
regular classroom with their peers. We also have data that indicates 
that test scores for students with disabilities are distributed across 
the performance range similar to general education students.
    Thanks to ESEA and IDEA, students with disabilities are setting 
high goals and reaching them.
    Today, I have been charged with commenting on the positive elements 
of the draft bill and providing suggestions on how the draft can be 
improved.
    Let me start with the positive elements. First, disability 
advocates are very pleased that bill does not establish a student's 
Individualized Education Program (IEP) as the accountability measure 
for students with disabilities. The purpose of the IEP, as currently 
configured in IDEA, is to spell out the special education and related 
services that a student needs to benefit from education, including the 
frequency, duration and scope of these services. IEPs are not designed 
or used as tools for holding schools accountable for whether students 
with disabilities are taught to the academic content and achievement 
standards established by the state for all students. Rather, the IEP 
sets goals and objectives that the school and parents hope the child 
will achieve as a result of receiving special education and related 
services. Unfortunately, not every IEP goal is measured or measurable.
    Additionally, we are pleased that the draft bill contains a number 
of policies that will directly benefit students with disabilities, 
including:
    <bullet> Maintenance of the requirement for disaggregation of 
performance and participation data by student groups and adequate 
yearly progress (AYP) to be based primarily on academic assessments;
    <bullet> Addition of graduation rate as a factor in adequate yearly 
progress;
    <bullet> Addition of student growth as an allowable factor to be 
incorporated into AYP (with specific criteria);
    <bullet> Requirement that the number of students in groups for 
disaggregation not exceed 30 (with allowable exception not to exceed 
40);
    <bullet> Requirement for each state to have an accommodations 
policy;
    <bullet> Recognition of school-wide positive behavioral supports 
that can help create school environments that are conducive to 
learning; and
    <bullet> Requirement for state education agencies to provide an 
assurance of the development of a comprehensive plan to address 
implementation of universal design for learning (UDL).
    There are a few areas in which the disability coalition would like 
to see the bill improved. We would like to see dropped from the bill 
the provisions that would allow a local education agency to exclude up 
to 40 percent of students with disabilities, some 2.4 million students, 
from the grade-level academic standards. We appreciate that states have 
created appropriate policies to measure the progress of students with 
the most significant cognitive disabilities, along with assessments for 
students who are expected to achieve grade level academic standards. We 
also agree there are students with disabilities who are not achieving 
grade-level proficiency, and that the means by which their progress can 
be measured are limited. However, there simply is no empirical evidence 
to demonstrate that exempting a significant number of students from 
grade-level academic achievement standards is the appropriate response.
    Many students with disabilities can achieve grade-level work when 
given the right access to high quality instruction, with qualified 
teachers and appropriate accommodations for both instruction and 
assessment. Nationally recognized experts have questioned how a 
policy--that will require alternate assessments and modified curriculum 
for as more than 2 million students--can be justified when the 
regulation for the students with the most significant cognitive 
disabilities effectively covers the number of students whose IEPs would 
deem them eligible for an alternate assessment. The bill should require 
states to develop modified assessments that can appropriately measure 
the knowledge and progress of these students.
    While the bill allows for the Secretary to reexamine and re-
promulgate regulations as appropriate, we find it disconcerting that 
Congress would place into law a provision that clearly continues to be 
experimental. Committing this provision to statute does substantially 
limit the Secretary's ability to use regulatory powers when findings 
indicate significant changes.
    In addition, we are concerned about several provisions related to 
alternate academic achievement standards. Particularly disturbing is 
the provision stating that students assessed on this standard are only 
entitled to be included in the general curriculum ``to the extent 
possible'' and the provision that merely requires the alternate 
academic achievement standards to ``promote'' rather than ``provide'' 
access to the general curriculum. These provisions undermine the 
alignment of ESEA and IDEA, which ensure that all students with 
disabilities are involved in and make progress in the general education 
curriculum.
    Equally disturbing is the omission of language that would align 
assessments on alternate academic achievement standards to the state 
content standards ``for the grade in which the students are enrolled.'' 
This omission is significant since the language does appear in the 
provisions for assessments on modified academic achievement standards. 
The Department of Education guidance indicates that the alternate 
achievements standards are to be aligned to the grade in which the 
child is enrolled.
    Lastly, we would like to see Title I funds be available for early 
intervening services.
    I'd like to share with you thoughts that one mom shared with a 
member of our task force.
    Rachel is about to start her junior year of high school. She has 
been on an IEP for six years for a specific learning disability in 
reading: dyslexia. During her sophomore year, Rachel decided that she 
was going to take Advanced Placement American History. This is 
considered a college level course and Rachel reads significantly below 
grade level. She is cognitively able to handle the material, but the 
reading is her biggest challenge. Upon the request of her parents, the 
district supplied her text book on CD so she could listen to the text. 
In addition, the school tutor read course materials to her as needed 
throughout the school year. Interestingly, Rachel scored at the 
advanced level on the state graduation test in the area of social 
studies during the Spring of her sophomore year. No doubt the quality 
of the teaching in her A.P. U.S. History course influenced such high 
achievement. Rachel's cognitive ability is well above average, yet her 
significant disability in reading prevents her from demonstrating even 
higher achievement in testing situations.
    We know that student success is predicated on a skilled teacher 
along with appropriate special education and related services. The ESEA 
must not construct barriers to grade level academic achievement 
standards for students like Rachel.
    In closing, I'd like to reaffirm my belief that students with 
disabilities have reaped significant benefits from the amendments to 
the Elementary and Secondary Education Act. Students whose progress is 
measured get taught. Today, every principal in every school has the 
ability to know the progress of each child in his or her school. 
Schools are making decisions on how to best get more children to 
achieve at the proficient level, including students with disabilities. 
Students with disabilities are being educated in a challenging 
environment where the expectations of their academic progress are not 
automatically set at the lowest bar. I am hopeful that when the data is 
reported in a decade from now, that we will see the graduation rate of 
students with disabilities go through the roof, where more students 
with disabilities complete college and have enviable lives.
    Thank you for the opportunity to speak with you today. I am happy 
to answer any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Thank you very much.
    Ms. Mandlawitz?

  STATEMENT OF MYRNA R. MANDLAWITZ, POLICY DIRECTOR, LEARNING 
              DISABILITIES ASSOCIATION OF AMERICA

    Ms. Mandlawitz. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, my name is Myrna 
Mandlawitz, and I am the policy director of the Learning 
Disabilities Association of America. LDA appreciates the 
opportunity to provide comments today on the discussion draft 
of the ESEA.
    LDA is a national volunteer organization representing 
individuals with learning disabilities, their families and the 
professionals who serve them. Our members have worked for more 
than 40 years to ensure that children with learning 
disabilities have access to the general-education curriculum 
and receive the supports they need to be successful in school.
    I would like to begin by thanking the Chairman, committee 
members and staff for your very hard work in delivering what 
LDA believes is a strong start to the reauthorization process. 
Overall, we are pleased with many of the elements of the draft, 
and encourage the committee to continue to work thoughtfully 
and deliberatively, using the practical input from all 
interested parties.
    While LDA has broad interest in all aspects of the law, in 
my brief time today I would like to comment on three specific 
items affecting students with learning disabilities: State 
options to adopt modified academic achievement standards; 
allowance of the use of multiple indicators to determine 
adequate yearly progress; and acknowledgment and use of 
research-based instruction and interventions, early intervening 
services and school-wide positive behavioral interventions and 
support.
    Students with learning disabilities span the academic 
achievement spectrum. Many are able to complete grade-level 
work within the normal school year and successfully 
participate, with or without accommodations, on the regular 
State assessments. However, for other students with learning 
disabilities, the rate of learning is slower and may require 
additional time to complete grade-level work. LDA supports 
challenging academic achievement standards and the option for 
States to adopt modified achievement standards for students 
with disabilities as necessary.
    That said, it will be critically important that States 
comply with the draft requirement to establish and monitor 
implementation of clear and appropriate guidelines for IEP 
teams in determining which students with disabilities should be 
assessed based on modified standards. This provision could be 
strengthened by adding specific language requiring the U.S. 
Department of Education to provide technical assistance to 
States in the development of these guidelines.
    Again, we view as the greatest challenge to a State's 
implementation the determination of which student should be 
appropriately assessed based on these standards.
    We also commend the committee for requiring that the 
Secretary engage in further study, review and disseminate 
results of current research and provide ongoing information to 
Congress on the challenges of appropriately assessing students 
with disabilities. LDA recognizes that development of modified 
standards is an emerging area that requires more research and 
resources.
    We would welcome any additional language on search specific 
to developing these standards.
    As noted earlier, students with learning disabilities by 
virtue of those disabilities do not always respond to the 
standard methods of instruction or assessment. In fact, 
students without learning disabilities have varied learning 
styles as well. Therefore, LDA supports the use of multiple 
measures of achievement to ensure that all students are given 
adequate opportunities to demonstrate proficiency without 
lowering expectations for learning.
    While we applaud the committee's inclusion of multiple 
indicators for determining AYP, we would ask you consider 
broadening the list of allowable indicators, focussing less on 
single test results to determine efficiency and focussing more 
on individual student progress. Multiple measures of student 
achievement using various methods of assessment provide a more 
accurate picture of a student's strengths and weaknesses than a 
single score on a standardized test. Understanding these 
strengths and weaknesses is essential to addressing the 
educational needs of students with learning disabilities.
    However, care must be taken to ensure such use of multiple 
measures for the purposes of AYP does not have the unintended 
consequences of more test-testing burdens rather than the more 
positive result of improving instruction. LDA approached the 
inclusion of response to intervention and early intervening 
services in the 2000 reauthorization of the IDEA with some 
trepidation since these interventions are focused specifically 
on students in general ed rather than students who are 
identified as needing special ed. LDA supports the use of 
tiered interventions and early intervening services to assist 
struggling students and believes these interventions rightly 
belong in the ESEA. We are particularly pleased under the local 
planned provisions that local districts must describe how 
assessment results will be used to provide research-based 
interventions, drawing the direct link between assessment and 
instruction.
    I know that my time has run out here, but I do want to 
mention also that we very much support the use of positive 
behavioral supports and interventions, noting that the body of 
research that demonstrates improving the overall climate for 
learning will affect and improve learning for all students.
    Finally, I will just mention that we would ask you to look 
very closely at including more language on transition planning, 
linking back to what many of the previous witnesses have talked 
about in post-secondary in looking at the post-secondary and 
entering the workforce. So thank you very much for this 
opportunity. And LDA looks forward to working with the 
committee.
    [The statement of Ms. Mandlawitz follows:]

 Prepared Statement of Myrna R. Mandlawitz, Policy Director, Learning 
                  Disabilities Association of America

    Mr. Chairman and members of the Committee, the Learning 
Disabilities Association of America (LDA) appreciates the opportunity 
to provide comments on the discussion draft of Title I of the 
Elementary and Secondary Education Act. LDA is a national volunteer 
organization representing individuals with learning disabilities, their 
families, and the professionals who serve them. Our members have worked 
for more than 40 years to ensure that children with learning 
disabilities have access to the general education curriculum and 
receive the supports they need to be successful in school.
    I would like to begin by thanking the Chairman, Committee members, 
and staff for their hard work in delivering what LDA believes is a 
strong start to the reauthorization process. Overall, we are pleased 
with many of the elements of the discussion draft and encourage the 
Committee to continue to work thoughtfully and deliberately, using the 
practical input from all interested parties.
    While LDA has broad interest in all aspects of the law, in my brief 
time today I would like to comment on three specific items affecting 
students with learning disabilities:
    <bullet> States' option to adopt modified academic achievement 
standards;
    <bullet> Allowance of the use of multiple indicators to determine 
adequate yearly progress; and,
    <bullet> Acknowledgement and use of research-based instruction and 
interventions, early intervening services, and school-wide positive 
behavioral interventions and supports.
    1. Modified Achievement Standards: Students with learning 
disabilities span the academic achievement spectrum. Many are able to 
complete grade level work within the normal school year and 
successfully participate, with or without accommodations, on the 
regular state assessments. However, for other students with learning 
disabilities, the rate of learning is slower and may require additional 
time to complete grade level work.
    LDA supports challenging academic achievement standards and the 
option for States to adopt modified academic achievement standards for 
students with disabilities as necessary. That said, it will be 
critically important that States comply with the draft requirement to 
``establish and monitor implementation of clear and appropriate 
guidelines for IEP teams to apply in determining which students with 
disabilities'' should be assessed based on modified standards. This 
provision could be strengthened by adding specific language requiring 
the U.S. Department of Education to provide technical assistance to 
States in the development of these guidelines. We view, as the greatest 
challenge to States' implementation, the determination of which 
students should be appropriately assessed based on these standards.
    We also commend the Committee for requiring that the Secretary 
engage in further study, review and disseminate the results of current 
research, and provide ongoing information to Congress on the challenges 
of appropriately assessing students with disabilities. LDA recognizes 
that development of modified standards is an emerging area that 
requires more research and resources. We would welcome any additional 
language on research specific to developing modified achievement 
standards.
    2. Use of Multiple Indicators: As noted earlier, students with 
learning disabilities, by virtue of those disabilities, do not always 
respond to the standard methods of instruction or assessment. In fact, 
students without learning disabilities have varied learning styles, as 
well. Therefore, LDA supports the use of multiple measures of 
achievement to ensure that all students are given adequate 
opportunities to demonstrate proficiency without lowering expectations 
for learning.
    While we applaud the Committee's inclusion of multiple indicators 
for determining AYP, we would ask that you consider broadening the list 
of allowable indicators, focusing less on single test results to 
determine proficiency and focusing more on individual student progress. 
Multiple measures of student achievement, using various methods of 
assessment, provide a more accurate picture of a student's strengths 
and weaknesses than a single score on a standardized test. 
Understanding these strengths and weaknesses is essential to addressing 
the educational needs of students with learning disabilities. However, 
care must be taken to ensure such use of multiple measures--for the 
purposes of AYP--does not have the unintended consequences of more 
testing burdens, rather than the more positive result of improving 
instruction.
    3. Response to Intervention (RTI), Early Intervening Services 
(EIS), and Positive Behavioral Supports (PBS): LDA approached the 
inclusion of RTI and EIS in the 2004 reauthorization of the Individuals 
with Disabilities Education Act with some trepidation, since these 
interventions are focused specifically on students in general 
education, rather than students identified as needing special 
education. LDA supports the use of tiered interventions and early 
intervening services to assist struggling students and believes that 
these interventions rightly belong in the ESEA. We are particularly 
pleased, under the Local Plan provisions, that local districts must 
describe how assessment results will be used to provide research-based 
interventions, drawing a direct link between assessment and improved 
instruction.
    LDA also strongly supports the use of positive behavioral supports 
and interventions. There is a considerable body of research 
demonstrating that improving the overall climate for learning, as well 
as addressing individual barriers to learning beyond purely cognitive 
factors, produces higher achievement. Often students with and without 
learning disabilities have co-occurring emotional and behavioral 
problems, resulting from academic frustrations. Attention to non-
academic supports is critical for all students in meeting the academic 
achievement standards.
    Finally, LDA appreciates the Committee's acknowledgement of the 
importance of ensuring that all students leave school ready for college 
or to enter the workforce with marketable skills. We would urge the 
Committee to include more language on transition planning, so that 
adequate and timely planning occurs to assist students in meeting their 
postsecondary goals. Strong transition planning would ensure that 
students are enrolled in appropriate courses, would expand their 
understanding of options for study, including more career and technical 
education options, and ensure that students clearly understand the 
ramifications of postsecondary planning.
    Thank you for the opportunity to share these comments with you. We 
look forward to working with you throughout the reauthorization 
process.
                                 ______
                                 
    Chairman Miller. Thank you. And thank you very much to all 
of you for your testimony. Are there any questions from members 
for the panel?
    Mr. Kildee.
    Mr. Kildee. Just a statement to Mr. Zamora, and we have 
made a good deal of progress starting in 1994 really. I can 
recall, at that time, I was chairman of the subcommittee, and I 
had--I was assigned to, I think, a sophomore at the time, 
Xavier Becerra, you could write the what we call bilingual 
education that day. He did an excellent job by consulting with 
your organization, and we have grown since then. So your input 
even before 1994, but especially 1994 really helped us reach 
where we are today, and I very much appreciate that. Thank you.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you.
    Ms. Neas, one of the problems we have had dealing with 
disabled children is if we allowed them not to come up to the 
regular standard, we will give an incentive to overidentify 
people as disabled, children as disabled. How can we 
appropriately measure children under IDEA without giving the 
incentive to overidentify them?
    Ms. Neas. Thank you for that question.
    Under IDEA, in order to be eligible for special education 
students, a student has to have both a disability and needs 
special education services. So by simply having a disability is 
not sufficient to meet the eligibility criteria. There are 
provisions in IDEA that say if you lack previous education 
instruction, lack of language skills, those things don't 
automatically make you eligible, and those things need to be 
ruled out before a child can be determined eligible.
    We now have requirements that were put in the 1997 
amendments and then reaffirmed in the 2004 amendments that 
prohibit States from having internal funding distribution 
formulas that would award school districts for putting children 
in more segregated environments. There really are no sort of in 
the law incentives to do that. I think, as with many instances 
with laws, it is up to parents to make sure that their children 
are appropriate, getting the appropriate services that they 
need. I think it is challenging now for schools to overidentify 
children even though we know it is happening. I think there are 
more protections now in the law than ever before. I also think 
with the subgroup categories where children can be in more than 
one subgroup category, that schools are going to be more 
diligent in trying to make sure that a child is in the 
appropriate subgroup and not in more than one if that is not 
appropriate.
    Mr. Kildee. Thank you.
    Chairman Miller. Mr. Grijalva.
    Mr. Grijalva. Thank you very much.
    For Ms. Pompa and Mr. Zamora, the States have a high 
participation of English learners, I support them very much. 
For that to be effective, is it going to be required that we 
have language provisions that complement that policy 
initiative? Or that is going to be State driven? I am still not 
clear on that, either or both.
    Mr. Zamora. It is certainly critical that we do include all 
ELL students in NCLB accountability because otherwise they 
won't get the same attention that they deserve. But I think 
your question sort of notes what has been happening really at 
the State level, where the States really haven't prioritized 
the development of good content assessments. So actually the 
draft bill I think is going to do a lot to support States in 
developing appropriate assessments and also really holding them 
responsible; that after 2 years, they suffer potential 
withholdings if they don't put in place good systems. So, 
during that 2 years, there is differential treatment of ELLs 
under AYP to help schools and districts out that don't have the 
right instruments. But after 2 years from date of enactment, we 
will have a very strong testing system and really from a long 
time coming, progress notwithstanding, that it has been 15 
years, and we still don't have good tests for ELLs.
    Mr. Grijalva. Thank you.
    Chairman Miller. Would you care to comment?
    Ms. Pompa. I would only comment that in States such as 
yours where there has been misguided legislation that undoes 
the right to provide English language instruction for students, 
this provision would help guide those districts to make the 
appropriate curricular decisions for those students and 
therefore show what children know rather than what they don't 
know.
    Chairman Miller. Misguided is a nice euphemism. Thank you.
    Ms. Piche, you talked about the equity issue involving the 
distribution of teachers, provided everybody agrees to that. 
Can you reconcile also the workplace prerogatives and rights, 
for lack of a better word, that educators have through their 
collective bargaining issue versus--if versus is the right 
word--the need to create that equity distribution? Can you 
suggest a mechanism?
    Ms. Piche. This is a very tough issue. But I would say, 
yes, it is certainly possible and in fact desirable to 
reconcile the collective bargaining rights and other rights 
that employees have in this system on the one hand with the 
very important rights and interests that parents have in making 
sure that their children have teachers who are as qualified as 
the kids on the other side of town, if you will.
    It seems to me that the current draft strikes a good 
balance between that. It preserves the rights of teachers' 
unions to bargain collectively at the local level, while at the 
same time saying there is a Federal standard, and this is a 
civil rights standard. So if you go back, for example, to the 
desegregation cases, you find to this day, for example, many 
collective bargaining agreements incorporate the goals to have 
an equitable distribution of teachers based on race, for 
example, which were part of those Federal requirements. So we 
do think that the two can, should and need to be compatible.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Also to you, Ms. Piche. In your comments about local pilot 
programs, and I want you to know staff was involved in the 
development of that provision. And first of all, I will assure 
you, the farthest thing from anybody's mind is to allow local 
school districts to regress. And in that light, I mean, you 
characterized the program as sort of like well, these local 
school districts are going to get turned loose and have no 
accountability to anybody. And yet, in the draft, these 
programs have to be developed with the assistance of experts. 
They have to be peer reviewed. They have to be coordinated with 
State programs. And there is an audit provision, and the 
Secretary has to sign off on them. I can't understand that you 
think that there could be a significant regression with all of 
that accountability of those power programs.
    Ms. Piche. I appreciate your asking the question because 
this really goes to the heart to some of our very strong equity 
concerns about this draft. First of all, I would say that, 
under current law and since 1994, local districts have been 
able to--and in fact, the 1994 law really encouraged local 
districts to supplement the State's standards and assessments 
with their own measures, provided that they didn't dilute this 
very important statewide standard that applied to all students, 
rich and poor, suburban and rural. And we haven't seen a whole 
lot of that happening.
    We would like to see more because many of the kinds of 
assessments that this bill and your draft would like to see at 
the local level are very important. And in fact, they take the 
whole technology of assessment one step further, the classroom 
embedded assessments. These are not things that we oppose. They 
are good for instruction. They are good for diagnosing student 
learning difficulties, and they are good feedback for teachers.
    We do have a problem though, when you incorporate the 
results of those measures into the statewide AYP calculation. 
And our concerns are based on a long history of inequity. And 
our concerns are based on research that we did during the 
period of the Improving America's Schools Act when many 
districts and States were transitions from having their local 
standards and assessments to the statewide system. And we found 
there were huge disparities. In the chairman's home State of 
California, over 1,000 different districts had over 1,000 
different standards and assessment systems. And we talked to 
people in the State education department, and honestly they had 
no way of assuring comparability, and that is what we really 
worry about. So if these assessments were additive to AYP, if 
these assessments were not in a position where some of the same 
people who--and systems who were being judged and therefore 
exposed to consequences were not in the position of scoring 
them, now I think we wouldn't be as deeply concerned.
    And so I would hope that, going forward, there may be some 
opportunities to talk through some of these concerns and come 
to perhaps some improvement in the draft that would provide 
teachers with a richer set of tools that they can use in the 
classroom without compromising the statewide standard.
    Mr. Yarmuth. Thank you. That is very constructive.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you. I just want to follow along on 
that point. Again, I find it hard that this pilot program is 
equated with sort of the fall of the American education system. 
And now you want to equate it with what existed sort of pre-
1994, I would say more likely pre-2000. But somehow what is 
laid out in the legislation, given the process that Mr. Yarmuth 
just took you through, you suggested that let 1,000 flowers 
bloom wherever it happens. The two systems are entirely 
different, and they are additive to the system. I mean, nobody 
is throwing out the State system. It is a question of whether 
or not you want to make an effort to see what you can 
construct, an assessment system that is more helpful to 
developing the skills that, again, most of the people who rely 
on this education system tell us they think students are going 
to need.
    That is far different than in my own home State of 
California where it was, ``do whatever you want to do and 
nobody is paying attention to any of it.'' It seems to me those 
are two different systems. But we will work on that in the rest 
of the oversight of the draft. Thank you very much.
    Mrs. Biggert?
    Thank you. Any other questions? Thank you very much for 
your testimony and, again, for your help and support in getting 
us to this point. And we look forward to working with you.
    The next panel will be from the Business Foundation and 
Innovation Panel: Mr. Jon Schnur, who will be from New Leaders 
for New Schools; Charles Harris, cofounder and executive 
partner of SeaChange Capital Partners; Nelson Smith, who is the 
president of National Alliance for Public Charter Schools; Josh 
Wyner, executive vice president, Jack Kent Cooke foundation; 
Sonia Hernandez Rodriguez, executive vice president of the 
National Farm Workers Services Center; John Castellani, who is 
the president of the Business Roundtable; Jim Kohlmoos, who is 
the president and CEO of Knowledge Alliance; and Mike Petrilli 
who is the vice president, National Programs & Policy, of the 
Thomas B. Fordham Foundation. If we can make the transition 
here from one panel to another as quickly as we might.
    We will begin, Jon, as soon as we get the door closed here 
so we will make sure that we can all hear you. Jon, welcome to 
the committee. And as we explained to you, we will begin, 5 
minutes. The yellow light will come on when then there is 1 
minute left. We would like you to finish up, but we want you to 
complete your thoughts and impart the information that you 
think is important for us to hear at this stage of the process.

   STATEMENT OF JON SCHNUR, CEO, NEW LEADERS FOR NEW SCHOOLS

    Mr. Schnur. Thank you very much, Mr. Chairman, Mr. Kildee, 
members of the committee, for the opportunity to testify on 
this important topic. I am going to try to do two quick things 
in these 5 minutes. First of all, tell you briefly some data 
and experience from our work with some 200,000 primarily low-
income kids in 10 cities over the past several years and offer 
a couple of insights that have emerged from that experience. 
Second, advocate for why I believe from this experience it is 
so critical to enact the reauthorization of the ESEA No Child 
Left Behind this year and some reasons for that with some 
specific ideas for what working in this draft legislation as 
well as a couple recommendations for what could be renewed.
    So New Leaders For New Schools, Mr. Chairman, when you came 
to New Orleans this spring and saw the schools there, and met 
with leaders from around the country, we are so appreciative of 
your engagement, as you know. We now have 400 leaders working 
in schools serving over 200,000 low income children in 10 
cities across the country. Our focus is on high achievement for 
all kids with the focus on the principalship. We have seen from 
the research that no good school that has made dramatic change 
really has done that without an effective principal. There are 
two pieces of student achievement data that I will share with 
you that I think underscore the helpfulness of the direction of 
this legislation.
    Three, first of all, there is a ground swell of support for 
the goals that this Congress has set around high achievement 
for every child. We have had 7,000 applicants for 400 slots, 
all of our new leaders this summer who started our training 
from across the country have passionately embraced the goal and 
signed contracts committing themselves to achieving the goal of 
90 to 100 percent proficiency for children in schools that lead 
by 2013. They are passionate and thrilled that the country has 
come behind that as a pressing civil rights issue.
    The second piece of data that I would offer is on 
achievement. Schools led by New Leaders principals, generally 
well trained, well recruited, are in fact making faster 
progress in academic achievement than the school systems that 
they are in. That is the good news.
    Bad news, we are not comparing to a norm; neither are you. 
We are looking at, what is the dramatic progress that we need 
to get to the 90 to 100 percent success rates? When you look at 
it that way, of all the very well trained principals, only 20 
percent of those schools are actually making the dramatic 
progress toward those goals that they need in order to get to 
those goals within 4 or 5 years of their principalship.
    The good news is there are schools that are achieving these 
levels. When people say these are unrealistic, we can cite you 
school after school after school, New Leaders-led or otherwise 
that in fact is making dramatic achievement gains. Last year, 
the most improved schools in all of Sacramento and Chicago were 
New Leaders-led schools. There are public schools, district 
schools, charter public schools across the country that are 
achieving these successes.
    Challenges, even when you have hard-working educators 
working very hard to achieve those goals, not all of them are 
making that. The question is, what do you do when you have got 
some progress but not enough progress to get to the goals that 
you have set?
    I would argue the implication of this is that fast 
enactment of this act is crucial for three reasons. One, there 
is a sense in the country that the Congress in the United 
States may be wavering about the belief that all of our kids 
can learn at high levels. There is a sense that the national 
government maybe waivers about the belief that all kids can 
read and do math at all grade levels. We see it in the schools. 
There is a lot of skepticism about that, despite evidence to 
the contrary. The first of the three reasons to think it is 
critical is for Congress on a bipartisan basis to send the 
message that this is not a short-term trend. This is a long-
term commitment to quality education for every child, starting 
with reading and math proficiency but not ending there.
    The second reason I think it is critical and that we have 
seen that it is critical is that there are some big flaws of No 
Child Left Behind, some big inadequacies, many of which this 
legislation addresses very effectively. And some of these are 
very much agreed on policies, but they have big implications 
for kids. If you don't pass this now, I worry that waiting 3 
years--3 years is a long time to wait in the life of a child as 
well as for a country that is working toward achieving these 
goals for the country. For example, moving toward a growth 
measure of--toward progress over a period of time, most people 
here are sitting around the table saying, yes, this is a good 
measure.
    In fact, in schools, the absence of that is causing very 
damaging effects. I have a key member on my team who was 
teaching recently, a couple years ago was teaching under No 
Child Left Behind in an urban school system. She encountered 
the story of a testing coordinator coming to her classroom in 
front of the students, in her class and around the school 
saying to the teacher, you need to pick two students to move to 
proficiency. If every teacher in a school can move two kids to 
proficiency, then we will meet our targets. That, as you know, 
is happening around the country.
    So fast enactment of the right kind of growth model geared 
to proficiency is more important I believe than waiting another 
3 years to resolve some differences that I really think can be 
resolved with the work that you and your teams have been doing.
    The second big example of progress that needs to be made 
and big flaw in the current bill, I would argue--now there has 
been a lot that has been learned about this, so it is less a 
critique of what has happened but more of a need for what needs 
to be done now, the research is extremely clear, as you have 
recognized and led on, Chairman Miller. The most important in-
school factor driving student achievement is the quality of 
teaching in the classroom. The second most is the quality of 
leadership at the school level. This bill is actually quite 
weak, unfortunately the current law is quite weak on driving 
dramatic changes in improvement of teaching quality and school 
leadership in our highest needs schools to help accomplish the 
goals that you have set out.
    So I am thrilled that there are many provisions in a very 
powerful Title II draft that you and Ranking Member McKeon have 
put out there to address this. Number one, to attract teachers 
to the schools that need--where they need them the most is 
critical. Investing in professional development at the school 
level by paying master or mentor teachers more to provide the 
right kind of professional develop at the school level; 
improving the induction and preparation of new teachers and 
principals is critical, other provisions from the Teach Act 
that were supported on a bipartisan basis. Formative 
assessments, every school we have seen making dramatic progress 
has principals and teachers making effective use of data 
through formative assessments which you have made a real 
priority for school improvement. There are many important 
priorities in this bill that I think are critical that we can't 
wait 3 years for these to help children benefit from.
    I will close quickly by saying that our recommendations for 
improvement: One, Chairman Miller you provided terrific 
leadership on New Orleans, provided stop-gap incentives to help 
attract and retain teachers and leaders in New Orleans. I would 
recommend incorporating your renewal act into the No Child Left 
Behind reauthorization as well as providing support to rebuild 
and modernize the school buildings in New Orleans. The Federal 
goal is to help needy schools, and there are no more needy 
schools than in the City of New Orleans, and they have been 
waiting for a while.
    The second recommendation is--I think there are some ways 
you can streamline the performance measures in AYP 
accountability. It kind of creates a third way between one side 
that wants just reading and math measures and one side that 
wants an endless list of input measures to say that there are a 
small number of outcome measures that ought to be used to hold 
schools accountable. I think there are ways of making that work 
without watering down accountability for reading and math. And 
my final recommendation will be on your Title II component to 
include a performance and evaluation plan that would basically 
ensure that all the competitive grant programs that you have 
got in Title II which we think are very good, that there is an 
active effort to learn from those to bring back comprehensive 
lessons learned to inform the next reauthorization 6 years from 
now. Thank you.
    [The statement of Mr. Schnur follows:]

     Prepared Statement of Jon Schnur, Chief Executive Officer and 
                 Cofounder, New Leaders for New Schools

    Thank you so much for the opportunity to provide testimony to the 
Committee on Education and Labor today on the crucial and timely topic 
of reauthorizing and improving the Elementary and Secondary Education 
Act and NCLB in order to drive high achievement for every student. As 
the Chief Executive Officer and co-founder of New Leaders for New 
Schools, I am pleased to share a perspective grounded in our current 
work with 400 public schools and school leaders serving 200,000 mostly 
low-income students in over 10 cities across the United States--
including Baltimore, Chicago, Memphis, Milwaukee, Newark, New Orleans, 
New York City, Oakland, Prince George's County, Sacramento, and 
Washington D.C.
    First, my colleagues and I embrace the nationwide goals of No Child 
Left Behind and the Elementary and Secondary Education Act--grade-level 
proficiency for virtually every student in reading and math--as a 
crucial cornerstone of a quality education for every student. We salute 
bipartisan leadership--including the crucial leadership of this 
committee--for embracing these goals for the nation. There is actually 
a groundswell of support for these goals from educators nationwide. For 
example, we have had 15 times more applications than slots from 
educators and leaders wishing to become urban principals driven by a 
belief that every student regardless of background can achieve at high 
levels and a sense of urgency and personal responsibility that we as 
adults must close the achievement gap All of the ``New Leaders'' who 
began their training with us this summer have signed on to at least a 
six-year commitment and goals that (at a minimum) 90-100% of the 
primarily low-income students in the schools they lead will achieve 
grade-level proficiency in core academic subjects and that 90-100% of 
their high school students will be graduating by 2014. We are actively 
exploring adding a very small number of additional student success 
goals such as dramatically increasing the percentage of low-income 
students at advanced levels and enrolling and graduating from college.
    Like so many other educators across our nation, these instructional 
leaders are working every day to translate the goals of these important 
national initiatives into reality in low-income, urban schools 
nationwide--school by school, classroom by classroom and student by 
student. In most of our cities, students in schools led by our New 
Leaders principals for at least two years are on average making faster 
academic progress than comparable students in the school system--with 
the single-most-improved school in cities such as Chicago and 
Sacramento led by New Leaders principals. But outperforming the norm is 
not enough. That's why we are actively examining why only about 20% of 
New Leaders-led schools are
    But neither our progress nor our limitations can distract us from 
the goal of a high quality education for every student. After all, 
while there are many different methods for how to teach children to 
read effectively and independently by the 3rd grade, our society and 
children cannot afford to question whether we should hold ourselves 
accountable for whether every child regardless of background learns to 
read effectively and independently by the 3rd grade.
    I believe that the birthright to learn how to read, for example, 
shouldn't be a New York or Louisiana or California birthright--nor 
should it be a birthright only for a child who happens to be born in 
certain affluent communities. It should be an American birthright 
available to every child that walks in the door of any school in any of 
our communities anywhere across our nation. And yet today, a 3rd 
grader's ability to read, an 8th grader's ability to do algebra, and a 
12th grader's ability to graduate from high school and choose a college 
or career is an accident of geography--usually due to family income and 
occasionally because a student happens to attend one of the tiny number 
of public (or private) schools where today we are achieving such 
successes with low-income students. The fact that these successes are 
happening in certain schools serving low-income students demonstrates 
that our children are capable of such success. The fact that taking 
these successes to scale is very hard, complex work--and that we don't 
have all of the solutions yet--should not diminish our commitment to 
our young people or our educators who are working tirelessly on what 
they rightly see as America's top domestic priority.
    Second, achieving these goals requires a massive, long-term, and 
bipartisan national commitment to success and quick action this year by 
this Congress to reauthorize and improve ESEA and NCLB.
    Achieving these goals also requires all of us to augment our 
institutional self-interests with a civic responsibility to candidly 
examine data and experience about our progress, our failures, and what 
it will take to succeed together.
    Every generation faces a small number of imperative challenges and 
opportunities that will most affect whether we bequeath a stronger, 
fairer, and more successful society to our children and grandchildren. 
There is no greater challenge and opportunity for our generation that 
ensuring first-class, high quality public schools available to every 
student regardless of background, race, disability, native language, or 
income. Doing this and closing the achievement gap will require the 
same kind of generational, long-term commitments shown through the 
civil rights movement and our triumph over the Nazis. A close 
examination of data and experience shows we are dangerously far from 
achieving our goals (with for example a typical low-income 7th grader 
reading at the levels of a more affluent 3rd grader), but we have begun 
to make serious progress in some classrooms, schools and communities. A 
close examination of schools under NCLB shows some important strengths 
and limitations of NCLB as a tool to help all of our students succeed.
    Fast reauthorization will help renew and signal broad, bipartisan 
commitment to crucial ESEA and NCLB goals that most of you share--and 
to build on important strengths in the legislation. For example, we 
continue to see too many people reject the proposition that virtually 
every student regardless of background can learn and achieve. We see 
too many people who quietly believe that a low-income child or child of 
color has less innate capacity to learn and achieve than their affluent 
or white peers. We see too many others who believe children regardless 
of background might have the capacity to succeed but that we don't have 
the capacity as adults to unlock that potential given all of the 
obstacles. Those beliefs persist in face of evidence from classrooms 
and schools to the contrary. And these beliefs represent some of the 
most pernicious and dangerous obstacles to our success. Reauthorizing 
ESEA and NCLB will demonstrate to educators, families, students, and 
others that the commitment to these goals--success for every student, 
holding schools and systems accountable for student progress, a laser-
like focus on closing the achievement gap--transcends any particular 
party, President, or Congress.
    Fast reauthorization will also address some agreed-on inadequacies 
in current law in order to better equip our students and educators to 
achieve our shared goals. For example, current law does not make 
possible a universally available, high quality ``growth model'' where 
schools could be accountable for the rapid progress of actual (and all) 
students toward proficiency and above as opposed to the performance of 
a group of students just below the proficiency line one year compared 
to another group of students the previous year. Current law fails to 
focus adequately on scaling up what's working or how school systems and 
others can help build the capacity and tools of educators to achieve 
these goals--and especially in the lowest-income and lowest-achieving 
schools. And current law does not invest or focus adequately in high-
quality assessments and accountability systems to prevent an excessive 
focus on (or create a glass ceiling of) test-preparation and basic 
skills.
    It is my belief that other real, but solvable, disagreements among 
education advocates shouldn't keep Congress from building on these 
strengths and addressing these and other inadequacies. Failure to act 
this year likely means that students will wait at least three more 
years for recommitment to these goals and improvement of capacity and 
strategies to achieve them. Three years is a long time in the life of a 
child. And it is a long time in a nation with urgent and important 
goals for educators, students, families, policymakers and others to 
accomplish by 2014. Given these moral imperatives and our experiences 
and data, I believe it is of utmost importance that Congress 
reauthorizes the Elementary and Secondary Education Act and NCLB this 
year. The leadership of Chairman Miller, Congressman McKeon, and this 
committee have been and will continue to be absolutely crucial to make 
this happen.
    Third, the evidence suggests that Congress should place a laser-
like focus on supporting and investing in quality teaching and school 
leadership--especially in low-income urban and rural communities--to 
achieve our nationwide goals for student success. The evidence is very 
clear: the greatest in-school factor affecting student achievement is 
the quality of teaching in a student's classroom. And the second 
greatest factor is the quality and effectiveness of the principal. And 
while the evidence suggests that NCLB has very much helped to focus our 
nation, school systems, and schools on the achievement gap, it has not 
yet adequately equipped our teachers and school leaders to effectively 
solve it.
    Studies have shown a difference of 50 percentile points among 
students who have had more effective teachers compared to those with 
less effective teachers over the course of three years. And studies 
have shown that nearly 25 % of the in-school factors affecting student 
achievement can be attributed directly to the quality and effectiveness 
of the principal. This is second only to the effects of teacher 
instruction--which is shaped by the way our most effective principals 
select, manage, and develop their teachers. And because principals 
select, train, manage, support, evaluate and teachers--and set the 
culture for the school--a teaching quality strategy can't be successful 
without an effective principal strategy.
    The bottom line: the quality and effectiveness of school teachers 
and principals matters a lot to the future of our students and to the 
future of our nation.
    In a world where there are no shortcuts to school success, a 
serious focus on supporting quality teaching and school leadership 
provides no silver bullet. But systematic efforts to drive the quality 
and effectiveness of
    Translating this simple insight into effective policy and scalable 
practice is no easy task, and Chairman Miller and Congressman McKeon 
have thankfully made this a powerful priority in the draft discussion 
bill. Enacting the ideas embedded in the Miller-McKeon draft 
legislation would make a dramatic contribution to the capacity of our 
schools in our neediest communities to accomplish your goals for 
student success.
    For example, I applaud the draft legislation's focus on:
    <bullet> Attracting and retaining our most effective teachers and 
school leaders in our highest-need schools. The bill would provide 
crucial incentives to increase likelihood that effective teachers will 
remain in or come to high-need schools. As this week's Time Magazine 
notes, Chairman Miller provided crucial leadership along with 
Representatives Melancon and Jindal (as well as from Senators Landrieu, 
Kennedy, and Cochran) to ensure that Congress provided similar 
incentives in New Orleans and other communities hit hard by Hurricanes 
Katrina and Rita. It's making a difference in New Orleans and 
elsewhere. The focus on systems changes to attract and hire teachers 
and school leaders can make a big impact.
    <bullet> Ensuring more school-level instructional support and 
feedback--including through master teachers, mentor teachers, teacher 
residencies and more. We have learned that professional development is 
a crucial investment to support our teachers and principals, and the 
most effective professional development is usually school-based and 
ongoing as opposed to one-shot sessions outside of the school.
    <bullet> Improving the preparation of aspiring and novice teachers 
and school leaders in high-need schools. Investing in teacher and 
school leader residencies, merit-based selection models, and ongoing 
coaching and support can help ensure the next generation of well-
prepared teachers and school leaders for high-need schools and 
communities.
    <bullet> Ensuring greater transparency and focus by states and 
school systems on the fair distribution of resources for teachers and 
school leaders in the highest-need schools. Conditioning Title II aid 
on state progress toward ensuring quality and effective teachers in our 
highest-need schools is an important idea. And it is very important in 
ensuring that high-need schools have at least their fair share of 
experienced and effective teachers and instructional leaders--and it is 
critical that more resources and professional development be available 
in our high-need schools given that most of our highest-need schools 
tend to have the most novice teachers.
    <bullet> Investing in and scaling what's effective. This 
legislation includes important and innovative support to identify 
what's working in driving dramatic student achievement gaps and provide 
additional resources to help those successful efforts serve more 
students. Rarely do successful efforts get recognized and scaled. This 
legislation would do that, explain and share what's working, and build 
greater capacity among effective school systems and educators to 
continue their work and serve more students. I appreciate the 
leadership of Chairman Miller as well as Representative Carol Shea-
Porter on this important effort.
    It is not easy to balance the urgency of the need for effective 
principals at scale (especially in our highest-need schools) with the 
need to ensure that these reforms are implemented in a deliberate, high 
quality way. Too often, powerful ideas are lost to inadequate knowledge 
about how to bring ideas to scale, limited capacity, and well-
intentioned but poorly planned implementation. As we consider solutions 
and strive to meet the urgent educational needs of children as quickly 
as possible, we must both identify how the federal government can be 
most effective in this work and recognize the current need for more 
research and development as well as learning on how to gain clearer 
knowledge, build capacity, and quickly scale effective efforts. This 
legislation manages to strike the right balance between these 
priorities--including providing the kind of R &D that would be 
supported in human capital efforts through a number of innovative, 
competitive grant programs.
    I have three major recommendations for improving this legislation. 
First, I recommend that the MillerMelancon-Jindal RENEWWAL legislation 
be incorporated into this reauthorization to ensure additional support 
to ensure effective teachers and school leaders in New Orleans and 
other communities hit hard by Hurricanes Katrina and Rita. I also 
recommend that reauthorized ESEA and NCLB provide New Orleans and these 
communities with crucial support to help rebuild and modernize school 
facilities--and work with others in Congress to amend the Stafford Act 
to remove bureaucratic obstacles that currently require FEMA to only 
fund the rebuilding of low-income schools to atrocious pre-Katrina 
standards. This is an opportunity to modernize and rebuild school 
buildings to post-Katrina standards of excellence not pre-Katrina 
standards and specifications that went hand-in-hand with the historic 
poor performance of the New Orleans schools.
    The next 12 months represent a crucial inflection point for the 
city of New Orleans and other communities hit hard by these 
hurricanes--and the fate of the public schools will be a crucial factor 
affecting the success of these communities. This year is the crucial 
time to ensure that these communities have the teachers, school 
leaders, and investment in facilities they need to succeed. This year 
is when the direction of these schools and communities will be set for 
years and decades to come.
    Second, I recommend streamlining the provisions on performance 
measures to ensure transparency and accountability on a small set of 
important, measurable outcomes such as high school graduation rates, 
college enrollment, and improved success on AP and IB assessments 
without reducing accountability and support for reading and math 
proficiency. I think that a solution can be found that ensures a focus 
on this broader set of rigorous student success outcomes that matter to 
students, business, and our society without diminishing crucial 
accountability and support for reading and math proficiency. I'd be 
happy to discuss ideas for doing this after the panel has finished 
providing testimony. These differences can be reconciled. I strongly 
encourage you not to let the vital, speedy reauthorization of ESEA and 
NCLB be slowed by what are truly solvable differences on these issues.
    Third, I recommend instituting a greater investment and focus on 
the evaluation and performance-orientation of many of the human capital 
initiatives in the discussion draft of Title II. In my view, the 
competitive grant programs outlined in this legislation can provide 
important R &D for how to ensure successful teaching at greater scale. 
But they will only maximize their intended impact if there is:
    <bullet> a rigorous evaluation of all programs funded by these 
initiatives,
    <bullet> continued funding for only those programs that demonstrate 
progress in student achievement, and
    <bullet> a research plan and strategy for reviewing the findings 
across programs to ensure that there are lessons learned and 
recommendations for an even broader focus on human capital that can 
inform the next ESEA reauthorization 6-7 years from now.
    Thank you again for the opportunity to share these perspectives and 
recommendations with you. My team and I are happy to work with you and 
your staff in any way that might be helpful to inform your continued 
deliberations on this vital topic. Thank you for your leadership on 
these issues--your speedy work on the reauthorization of ESEA and NCLB 
can make a profound impact on our children, schools, and nation.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Harris.

STATEMENT OF CHARLES HARRIS, CO-FOUNDER AND EXECUTIVE PARTNER, 
                   SEACHANGE CAPITAL PARTNERS

    Mr. Harris. Mr. Chairman, members of the committee, thank 
you so much for the opportunity to testify about the vital 
importance of reauthorizing No Child Left Behind.
    A brief introduction on my own background might provide 
some helpful context. I am not an educator by training or 
practice. I spent the bulk of my career as a corporate finance 
partner at Goldman Sachs where I arranged financings and 
mergers and acquisitions for a large number of corporations 
across a broad array of industries and where I served as a 
leader of the firm-wide committee that assessed the risks and 
rewards of specific underwriting transactions. We got some of 
those right.
    Over the years, I have also been active as a philanthropist 
in the field of education involved with expanding pre-K to 
higher education. In 2002, I decided to invest my time as well 
in pursuit of the improvement of educational opportunity and 
practices. With advice and input from a number of highly 
regarded foundations and individual philanthropists, this work 
lead me to join my former Goldman Sachs partner, Robert Steel, 
who is currently serving as Under Secretary of the Treasury for 
Domestic Finance, in founding a nonprofit financing 
organization called SeaChange Capital Partners.
    The mission of SeaChange Capital Partners is 
straightforward. While there are many innovative and effective 
ventures in education, there are also many that lack the 
funding to grow to a scale where they can significantly improve 
the landscape of American education. We intend to serve as a 
matchmaker between selected proven nonprofit programs in the 
ample and growing philanthropic resources of the Nation. We 
will identify the programs, perform in depth due diligence, 
work with management to market the programs to a nationwide 
philanthropic network, ranging multi-million dollar, multi-year 
rounds of financing to fuel their growth, much in the same 
manner that outstanding business organizations finance their 
expansion.
    Numerous studies have shown the cost of financing in the 
nonprofit sector far exceeds the cost in the for-profit sector. 
We believe that by adapting financing techniques as appropriate 
to the social sector, we can realize real efficiencies. Once we 
complete the fundraising for our own operations, our goal 
during our initial 3 years is to arrange $100 million in growth 
capital financing at a cost much lower than is generally the 
case for nonprofits.
    Happily, Goldman Sachs has agreed to provide a portion of 
our start-up capital and to support us with human capital as 
well. I am also pleased to report that we are far from alone in 
this effort. Many in the private sector have recognized the 
growth capital problem. Our general purpose is the same as the 
bringing success to scale concept in the draft legislation to 
assist the most effective programs in reaching many more of our 
young people. In joining this effort, we won't be speculating. 
Instead, we will rely on intensive research to find the 
organizations that have a common set of core characteristics, 
strong missions, well-developed programs, talented management 
teams, compelling results in their work to date, a commitment 
to measuring what they do and adjusting their work based on 
what they have learned from the data and, importantly, well-
crafted strategies for growth. I would like to emphasize that 
we will be selecting operating organizations for this 
financing, not simply effective program elements.
    Mechanisms to evaluate impact on academic achievement 
already exist. I believe it is critical for the Federal 
Government and the private sector to collaborate to identify 
what works best and to bring the substantial financial 
resources required to these efforts. I believe that NCLB is 
bringing success to scale and, when instituted, will allow the 
private sector's philanthropic contribution to mesh with the 
government's effort in a unified and collaborative way with 
evaluation methodologies and matching funding provisions that 
will appeal to private philanthropists.
    One other point from the draft that I would like to 
address. As a person who spent his business career using data 
to measure progress and make decisions, I believe we should not 
abandon the useful standardized assessment that NCLB has put in 
place at the State level. I applaud your decision to include a 
variety of new measures as well that I believe will do a better 
job of giving us all clearer insight into how a school is 
performing.
    You have included college enrollment rates as one of your 
new measures. Through my work with the national organization 
based here in Washington called College Summit, I have seen 
firsthand how a commitment to tracking the college enrollment 
rates of graduating seniors in high schools in low-income 
communities when combined with programming to build the 
school's capacity to assist these students in the transition 
from grade 12 to 13 is significantly enhancing college-going in 
these communities.
    Since then--I know a number of people have said this today. 
Since high school graduation cannot be considered an end to 
itself today, I believe the Federal Government should consider 
a high school's trend in college enrollment an important 
supplemental measure of adequate yearly progress in that 
school. As with other measures of progress, it is no surprise 
that superintendents and principals are more likely to be 
successful in meeting goals for which they have been held 
accountable and for which the data is public. I hope that my 
perspective from the private sector will help persuade you all 
of the importance of supporting bringing success to scale and 
also the advisability of adding college enrollment trends as an 
additional measure of a high school's success. Thank you.
    [The statement of Mr. Harris follows:]

 Prepared Statement of Charles T. Harris III, Co-Founder and Executive 
                  Partner, Seachange Capital Partners

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to testify before you today about the vital importance of 
the reauthorization of the Elementary and Secondary Education Act, 
better known as the No Child Left Behind Act.
Background
    A brief introduction to my background may provide some helpful 
context for my testimony today. I am not an educator by training or 
practice. I spent the bulk of my career as a corporate finance partner 
at Goldman Sachs, where I arranged financings and mergers and 
acquisitions for a large number of corporations across a wide array of 
industries, and where I served as a leader of the firmwide committee 
that assessed the risks and rewards of specific underwriting 
transactions.
    Over the years I have also been active as a philanthropist in the 
field of education, involved with programs spanning pre-K to higher 
education. In 2002 I decided to invest my time as well in pursuit of 
the improvement of educational opportunity and practices, with advice 
and input from a number of highly regarded foundations and individual 
philanthropists. This work led me to join my former Goldman Sachs 
partner Robert Steel (currently serving as Under Secretary of the 
Treasury for Domestic Finance) in founding a nonprofit financing 
organization called SeaChange Capital Partners.
SeaChange and ``Bringing Success to Scale''
    The mission of SeaChange Capital Partners is straightforward: while 
there are many innovative and effective ventures in education, there 
are also many that lack the funding to grow to a scale where they can 
significantly improve the landscape of American education. We intend to 
serve as a matchmaker between selected, proven nonprofit programs and 
the ample and growing philanthropic resources of the nation.
    We will identify the programs, perform in-depth due diligence and 
work with management to market the programs to a nationwide 
philanthropic network, arranging multi-million dollar, multi-year 
rounds of financing to fuel their growth, in the same manner that 
outstanding business organizations finance their expansion. Numerous 
studies have shown that the cost of financing in the nonprofit sector 
far exceeds the cost in the for-profit sector. We believe that by 
adapting financing techniques from the for-profit sector, as 
appropriate, to the social sector, we can realize real efficiencies. 
Once we complete the fundraising for our own operations, our goal 
during our initial three years is to arrange $100 million in growth 
capital financing at a cost much lower than is generally the case for 
nonprofits.
    Goldman Sachs has agreed to provide a meaningful portion of our 
startup capital and to support us with human capital as well. I'm also 
pleased to report that we are not alone in this effort; many in the 
private sector have recognized the growth capital problem.
    Our general purpose is the same as the ``Bringing Success to 
Scale'' concept in the draft legislation: to assist the most effective 
programs in reaching many more of our young people.
    In joining this effort, we will not be speculating. Instead, we 
will rely on intensive research to find the organizations that have a 
common set of core characteristics: strong missions; well-developed 
programs; talented management teams; compelling results in their work 
to date, a commitment to measuring what they do and adjusting their 
work based on what they learn from the data, and well-crafted 
strategies for growth.
    Mechanisms to evaluate impact on academic achievement already 
exist. I believe it is critical for the federal government and the 
private sector to collaborate to identify what works best and to bring 
the substantial financial resources required to these efforts. I 
believe that NCLB's ``Bringing Success to Scale'', when instituted, 
will allow the private sector's philanthropic contribution to mesh with 
the government's efforts in a unified and collaborative way.
College Enrollment Rates as a Measure of High School Success
    As a person who spent his business career using data to measure 
progress and make decisions, I believe that we should not abandon the 
useful standardized assessments that NCLB has put in place at the state 
level. I applaud your decision to include a variety of new measures 
that I believe will do a better job of giving all of us a clearer 
insight into how a school is performing. You've included college 
enrollment rates as one of your new measures. Through my work with a 
national organization based here in Washington, called College Summit, 
I have seen first-hand how a commitment to tracking the college 
enrollment rates of graduating seniors in high schools in low-income 
communities, combined with programming to build the schools' capacity 
to assist these students in the transition from grade 12 to 13, is 
significantly enhancing college-going in these communities. Since high 
school graduation cannot be considered an end in itself in today's 
hypercompetitive economy, I believe the federal government should 
consider a high school's trend in college enrollment an important 
supplemental measure of adequate yearly progress in that school, as set 
forth in the draft NCLB legislation. As with other measures of 
progress, it's no surprise that superintendents and principals are more 
likely to be successful in meeting goals for which they are held 
accountable and for which the data is made public.
Closing
    I hope that my perspective will help persuade you of the importance 
of supporting ``Bringing Success to Scale'' as a way to spread 
effective practices in public education, and of the advisability of 
adding college enrollment as an additional measure of a high school's 
success.
    Thank you for inviting me to testify today.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Smith.

  STATEMENT OF NELSON SMITH, PRESIDENT, NATIONAL ALLIANCE FOR 
                     PUBLIC CHARTER SCHOOLS

    Mr. Smith. Thank you, Mr. Chairman, and members of the 
committee. I appreciate being asked to join this august panel 
today. I am Nelson Smith. I am president of the National 
Alliance For Public Charter Schools, which is the national 
nonprofit representing all sectors of the charter school 
movement.
    I want to first take a moment to commend the committee for 
the very open and transparent approach in this reauthorization. 
I know that you have talked to a lot of people, and part of 
what I want to say today is really a response to some of what 
you have heard. You have my written testimony. So I will just 
summarize and talk very briefly about a couple of points. First 
of all, the national charter community very strongly supports 
No Child Left Behind. It has done so since it was passed in 
2002. This is based on a lot of conversations we have had with 
folks in the field. What is most appealing is the combination 
of the high standards for all children and the disaggregation 
of data, which has revealed some troubling achievement gaps 
that you have heard about this morning.
    If there is one great mission for public charter schools, 
it is closing those achievement gaps. We want to commend the 
committee, first of all, for the draft on Title V, which 
incorporates the provisions for the Federal Charter Schools 
Program. This is a very solid well-managed program that over 
the last decade has been an immeasurable support to the growth 
and the quality and numbers of charter schools around the 
country. This draft expands the growth of high quality public 
charters. It will strengthen accountability, and particularly, 
it will broaden replication on a nationwide basis of effective 
charter models that work. And we think that this is a perfect 
corollary to the broader goals of No Child Left Behind. When 
you identify schools in need of improvement, when you have 
identified students that need other choices, you need to have a 
supply of healthy new public school options to give those 
parents. So we applaud your work on Title V and the Charter 
Schools Program.
    As you know, charter schools are public schools. And 
therefore, they are also subject to the accountability 
provisions of Title I, and I would like to just take a moment 
and summarize what is in the written testimony about at least 
one and perhaps two aspects of Title I. We have some misgivings 
about a subject you have already heard about this morning, that 
is the question of multiple indicators in addition to reading 
and math for measuring schools. We know that you have heard 
from a lot of districts and particularly individual schools 
around the country, some of them charter schools, that we think 
it is unfair to be held accountable for one snapshot of test 
score results. And that is a legitimate issue, and we very 
sympathetic to that. We are very glad that you have heard that 
message. And we are also glad by the way that you have taken a 
very serious approach to trying to respond to it. Multiple 
indicators could mean a lot of things, a grab bag of possible 
indicators. But what is in the draft is actually a pretty 
serious set of rigorous measures that could be added onto 
reading and math.
    The problems that we had with the approach are three. First 
of all, I think, as you have heard from other panelists this 
morning, there is no way around the fact that this is going to 
some extent vitiate commitment to reading and math as the 
cornerstone indicators of whether students are being prepared 
for the economy and for productive adult life; if you reduce it 
as much as 25 percent, the impact that reading and math has on 
adequate yearly progress.
    Secondly, a point that hasn't been made except sort of 
tangentially this morning is that the complexity that you will 
encounter, and that schools and parents and States will 
encounter if indeed they take this option of broadening the 
number of indicators. I have here a chart from one of our most 
successful public charter schools here in D.C. And if you are a 
parent or a policymaker and you want to know how they are doing 
in reading, you might go to the public charter school's Web 
site and you would see this chart. This is just the AYP's 
measures on reading. There are 108 different cells in this 
chart. I know the committee members can't see them, but this is 
what is referenced in our testimony. And it is not linked 
there.
    Let's say a State takes you up on the addition of multiple 
indicators, as good as they might be. You will add perhaps 
several hundred more cells. You also have to have somewhere an 
explanation of the various weightings that are given to the 
core measures and the multiple indicators, measures. So we 
think this is especially for parents but especially also in 
terms of the paperwork and reporting burdens for small schools, 
many of which are charter schools, and for their authorizers 
some of which are not local education agencies and do not 
otherwise collect this data. We think this mitigates against 
the approach. And finally, I want to say that you have kind of 
solved the problem elsewhere in the draft. And I want to draw 
your attention to this connection. The draft has a very sound 
approach toward using growth models as a component of adequate 
yearly progress. If you have a solid student level 
longitudinally linked growth model that gives you achievement 
data over time and shows the impact of schools on the 
development and learning of that student as he or she moves 
around, you then are not relying on a single snapshot from a 
single day of a single set of tests. You are relying on a much, 
much broader picture of what the actual impact of schools is on 
that student as opposed to whatever the school brings from 
family or prior educational experiences. So given that you have 
largely solved that problem, we would strongly suggest that 
that be considered the answer to the snapshot problem. There 
are other aspects of this that I would take some more time for, 
but I see the red light is on. It is all in the written 
testimony. I would be happy to take questions afterwards. Thank 
you.
    [The statement of Mr. Smith follows:]

 Prepared Statement of Nelson Smith, President, National Alliance for 
                         Public Charter Schools

    Mr. Chairman, Ranking Member McKeon, and members of the Committee, 
good afternoon. Thank you for the opportunity to testify today on 
recommendations to improve the Elementary and Secondary Education Act. 
I am Nelson Smith, President of the National Alliance for Public 
Charter Schools (the Alliance), a nonprofit organization representing 
all sectors of the national charter school movement.
Background: A Commitment We Share
    In 1965, President Johnson signed into law the Elementary and 
Secondary Education Act (ESEA). Subsequent reauthorizations have seen 
changes in the name and scope of this groundbreaking law, but its goals 
have always remained the same: improving public schools for our 
nation's most underserved children. An overwhelming number of public 
charter schools subscribe to this same philosophy, and these 
independently operated public schools today serve a higher percentage 
of poor students, minority students, and English language learners than 
traditional public schools.
    The federal government has played a critical role supporting the 
growth of public charter schools. Initially created in 1995, when only 
seven states had charter laws and just 60 schools operated in the 
country, the federal Charter Schools Program has been instrumental in 
propelling public charter school growth. Currently, there are over 
4,000 charters schools enrolling over 1.14 million students in 40 
states and the District of Columbia.
    As public schools, charters are open to all students, regardless of 
income, gender, race, or religion. Like other public schools, charter 
schools receiving federal money fall under the purview of the No Child 
Left Behind Act (NCLB). While there are certain programs that only 
impact them, charter schools are required to operate under many of the 
same NCLB requirements as traditional public schools.
    No legislation is easy to craft, and reauthorizing a bill as large 
and complex as NCLB is particularly difficult. The Alliance commends 
the Committee and its staff for their hard work on this discussion 
draft, and more broadly, for the open and transparent manner in which 
the reauthorization effort is being managed.
Title I and the Accountability System
    No federal education program has had as broad an impact as Title I. 
NCLB pushed its effect even further by striking a new accountability 
bargain. In exchange for Title I funding, schools must work towards 
universal student proficiency by 2014, the first year a class would 
graduate after having spent their entire K-12 education career under 
NCLB's requirements. This bargain relies on a complicated but 
manageable Adequate Yearly Progress (AYP) measurement. States set their 
own standards and proficiency goals, and are required to administer 
yearly reading and math tests in grades three through eight and one 
grade in high school. Schools are required to report the progress of 
subgroups of students via race and ethnicity, economic status, 
disability level, and language proficiency. For schools and districts 
to make AYP, tested students have to meet certain increasing 
percentages of proficiency as well as test participation goals.
    Despite the complexity of this approach, the national charter 
community has strongly supported NCLB, particularly because its 
accountability rules have laid bare the troubling gaps in achievement 
between groups of American students. If there is one great goal of our 
movement, it is closing those gaps and providing high quality education 
for all students.
    As we all know, the 2002 Act has flaws. By relying on end-of-year 
``snapshots'' of average proficiency levels, it fails to acknowledge 
that students often enter schools with skills far below grade level, or 
to recognize schools that make significant student-level gains but fall 
short of the AYP bar. The current system continually forces states to 
push for higher absolute achievement levels, but fails to measure or 
credit student progress toward those increasingly challenging summits.
    We have strong empirical evidence from studies in three of the 
largest chartering states (Florida, California, and Texas) that charter 
school students typically enter our schools behind their peers in 
academic performance. As the AYP threshold rises, charter and other 
public schools that actively recruit low-performing students will 
likely be labeled ``in need of improvement'' even if they achieve 
substantial annual gains in student achievement, creating a huge 
disincentive to create schools that serve the nation's most 
disadvantaged students.
    To remedy these problems, the current discussion draft includes a 
well-crafted growth model that will reward public schools across the 
country for their actual effect on individual students. Moreover, it 
will recognize those schools that barely missed making AYP, but clearly 
produced impressive academic results.
    The discussion draft also requires states to develop longitudinal 
data systems capable of tracking individual student results and linking 
those results back to individual teachers. This information will help 
identify truly effective teachers and inform policy makers in future 
discussions about teacher qualifications.
    While there are many positive aspects about the draft's proposed 
accountability system, there are three areas that deserve 
reconsideration.
    Multiplying Complexity. First, the draft allows states to use 
multiple indicators for determining AYP, partially substituting these 
indicators for the law's current requirements for proficiency on 
reading and math tests. We know that the Committee has faced enormous 
pressure to include additional indicators, and appreciate your effort 
to include rigorous measures. However, we are concerned that the 
complexity of the proposed approach outweighs its potential benefits. 
States adding new indicators will surely become embroiled in the same 
disputes over measurement and reporting that have marked the first five 
years of NCLB. The burden of data collection will be multiplied for all 
public schools, but will weigh especially heavily on charter schools 
and their authorizers.
    Besides diluting focus on the paramount objective of reading and 
math proficiency, the proposed system would greatly complicate 
achievement reporting, a hallmark of the current NCLB. For instance, 
for one charter school here in Washington, D.C., there are 108 cells in 
its reading report card alone.\1\ Under the proposed system, parents 
could receive report cards with several hundred additional cells--not 
to mention explanations of weighting formulas for counting math and 
reading test results as 75% of AYP and the new indicators as 25% of it, 
as the draft allows.
---------------------------------------------------------------------------
    \1\ Capital City Public Charter School, 2006 AYP Report: http://
www.dcpubliccharter.com/nclbayp/allreports/capcitynclbayp.pdf
---------------------------------------------------------------------------
    More to the point, multiple indicators simply may not be necessary. 
The primary shortcoming of NCLB's current approach to AYP--and the 
source of much current criticism of the Act--is that by relying on one-
day test ``snapshots,'' it may identify for improvement schools that 
are actually making substantial progress but fall short of absolute 
proficiency standards. By allowing states to consider growth measures 
in AYP, the draft largely resolves this problem.
    Restricting Choice. A second source of controversy in the 2002 Act 
is that the accountability system treats all schools that don't make 
AYP the same. A school that misses AYP in only one subject for one 
subgroup should be treated differently than a school that misses in 
almost all subjects for just about every subgroup. The need for a 
system that recognizes these differences has been broadly endorsed by 
the Administration, the Aspen Commission, and other groups.
    However, the discussion draft responds by creating a two-tiered 
system for categorizing schools that don't make AYP for two consecutive 
years. For schools that don't make AYP for the next two years, it 
creates another two-tiered classification system. Apart from the 
complexity of this approach, and the real possibility of arbitrary 
judgments by school districts, the interventions proposed for schools 
in the various categories differ dramatically. The net result would 
deny parents and families the new opportunities they were guaranteed in 
the 2002 Act.
    Currently, if a school does not make AYP for two consecutive years 
or more, it must offer all of its students the option of transferring 
to a higher-performing public school, including a charter school. The 
new system would require a smaller number of struggling schools to 
provide this option. We recommend that the draft be changed to require 
that all schools that fail to make AYP for two years or more must 
continue to offer public school choice to all of their students.
    Keeping the Loophole Closed. Finally, with respect to the proposed 
rules on restructuring, there is good news and bad news in the draft. 
Currently, if a school does not make AYP for six consecutive years, it 
faces a range of consequences including contracting, state takeover, 
and closure/reopening as a charter school. The impact of this provision 
has been severely limited by a loophole that allows districts to pursue 
``any other major restructuring of a school's governance arrangement,'' 
which has been by far the preferred option and resulted too often in 
cosmetic changes. We applaud the Committee for closing this loophole, 
but we caution that the proposed new rules will create an even larger 
one. Schools that chronically fail students must be an urgent priority, 
period. Allowing districts and states to put them on ``List B'' and 
then merely suggesting a set of remedies will simply replicate the 
sorry record of the past five years.
Title II and Highly Qualified Teachers
    The quality of a student's teacher is the most important 
controllable factor impacting a student's achievement. If a student has 
highly effective teachers year after year, a bright academic future is 
likely. Conversely, several consecutive ineffective teachers can cause 
serious harm to a student's potential.
    The No Child Left Behind Act took some important first steps on the 
teacher quality issue, attempting to ensure a highly qualified teacher 
(HQT) for every student. However, the law's definition of a highly 
qualified teacher focused more on inputs such as degrees and 
certifications than on classroom effectiveness.
    For charter schools, NCLB explicitly defers to state charter law 
regarding certification requirements. If a state does not require any 
charter teachers to be certified, NCLB does not impose that additional 
mandate. Fortunately, the discussion draft keeps this provision.
    In other areas, however, the discussion draft maintains aspects of 
the current law that make innovation difficult not only in charter 
schools, but in any small school--a point recognized in the U.S. 
Department of Education's recent rulemakings regarding HQT rules in 
rural schools. For example, the list of core academic subjects for 
which NCLB's teacher requirements is applicable is long, and 
demonstrating subject-matter competency in multiple subjects can be 
time-consuming and burdensome for teachers (and expansive for schools). 
These requirements are particularly problematic for high schools using 
project-based or other interdisciplinary methods. Teachers in such 
innovative high schools should be allowed to demonstrate their 
abilities in a manner consistent with the environment in which they 
teach.
    The Alliance recommends that NCLB provide broader latitude to 
states in defining teacher quality, including allowing states to define 
core subjects. It should also encourage states to focus on teacher 
effectiveness instead of input-based qualifications. This shift will be 
facilitated by the move to an accountability system that includes 
student-level growth data, which should be the foundation for the 
definition of a ``highly effective teacher.''
Title V and the Charter Schools Program
    In the last 20 years, few education reforms have been as successful 
as charter schools, which have provided thousands of new public school 
choices to children and families who need them the most. While many 
public school districts around the country struggle to maintain their 
current students (particularly in inner cities), charter schools have 
grown exponentially since 1992, and demand continues to grow. We 
estimate that there are over 300,000 students on charter schools 
waiting lists.
    The federal Charter Schools Program (CSP) has been an invaluable 
and well-managed contributor to the success of the charter school 
movement. The program has provided much needed financial assistance to 
charter schools to cover start-up costs.
    Over the past two years, the Alliance has engaged in a nationwide 
dialogue with charter school operators, key stakeholders, and other 
supporters to consider what changes ought to be made to enhance the 
program. The discussion draft incorporates many of the most important 
suggestions from the field, which we deeply appreciate.
    <bullet> First, while helping charter school start-ups remains the 
foundation of the CSP, the draft also provides greater support for the 
expansion and replication of successful charter models. In particular, 
the draft allows more than one CSP grant per recipient and permits 
charter support organizations to receive grants to undertake expansion 
and replication activities. We emphasize that enabling the growth of 
high-quality charter schools is a crucial corollary to the other goals 
of NCLB. Parents must have an expanding array of solid new public-
education options in communities where their children are disserved by 
the traditional system.
    <bullet> Second, the draft strengthens the priority criteria by 
which the Secretary of Education may award grants to states. An ideal 
state charter school law encourages growth and quality as well as a 
high degree of school autonomy and accountability. To motivate states 
to adopt the ideal law, the draft adds priorities to encourage the 
creation and support of non-district authorizers, the strengthening of 
charter school autonomy and accountability, and the provision of 
equitable funding to charter schools.
    <bullet> Third, the draft strengthens the administration of the CSP 
by allowing charter school authorizers to serve as grant administrators 
in addition to state education agencies (SEAs). In some states, the SEA 
may be the best organization to manage CSP funds. These SEAs have 
involved their state's public charter school leaders in the 
administration of their grants and in developing programs that reflect 
their state's specific needs. In states where SEAs have fallen short in 
administering (or even applying for) the program, however, 
accountability will be enhanced by allowing charter school authorizers 
to compete for the CSP grant administrator role.
    <bullet> Fourth, the draft allows the Secretary of Education to 
allocate funds as needed between the Charter Schools Program and State 
Facilities Incentive Grants Program. Despite the continuing growth of 
public charter schools, the CSP funding level has been relatively 
stagnant for the past five years. This funding challenge is further 
exacerbated by the reservation of up to $100 million in new CSP funds 
for the State Facilities Incentive Grants Program. By granting 
discretion to the Secretary, the draft allows for federal 
appropriations to respond to the needs of the states, recognizing that 
in certain years more money will be needed for the CSP, while in other 
years more money will be needed for the State Facilities Incentive 
Grants Program.
    <bullet> Fifth, the law creates a national dissemination program. 
As charter schools continue to grow, the best practices developed in 
these innovative public schools must be disseminated to all other 
public schools. Previously, the CSP's dissemination activities were 
primarily state-focused. As proposed by the law, a new national 
dissemination program will encourage the sharing of charter schools' 
best practices among public schools across the nation.
    <bullet> Finally, the draft incorporates reauthorization of the 
Credit Enhancement for Charter School Facilities Program, an important 
vehicle for encouraging private sector investment in charter school 
facilities. This change will enhance administrative efficiency in the 
overall charter schools programs.
Conclusion
    Few pieces of federal legislation have as far-reaching and 
important an impact on this nation's disadvantaged students as the 
Elementary and Secondary Education Act. As custodians of this 
legislation, it is vital that the Committee ensure reauthorization 
happens in a timely manner this year.
    NCLB 1.0 was clearly a momentous step in the right direction for 
American education. However, too many of our most vulnerable children 
still remain in struggling schools. As the Committee works to create 
NCLB 2.0, we urge that you put much stronger emphasis on creating new, 
high quality public charter schools where they are most needed--schools 
that will foster radically higher academic achievement for children who 
are still, today, left behind.
    As you move forward with your markup, I hope you will look to the 
National Alliance for Public Charter schools as a resource in your 
discussions. I want to again thank the Committee for inviting me to 
testify today.
                                 ______
                                 
    Chairman Miller. Mr. Wyner.

 STATEMENT OF JOSH WYNER, EXECUTIVE VICE PRESIDENT, JACK KENT 
                        COOKE FOUNDATION

    Mr. Wyner. Thank you Chairman Miller, other distinguished 
members of the committee. I am pleased to be here today to 
discuss a population previously ignored in Federal education 
policy and underserved in our Nation's schools; that is, the 
3.4 million American students who are overcoming challenging 
socioeconomic circumstances to excel academically. Today, the 
Jack Kent Cooke Foundation and Civic Enterprises are pleased to 
release this report, ``Achievement Trap: How America is Failing 
Millions of High Achieving Students From Lower Income 
Backgrounds.''
    This report contains new and original research regarding 
the educational experiences of high-achieving lower-income 
students from first grade through graduate school. Our research 
comes from 20 years of longitudinal data from three Federal 
databases. It examines the experiences of students who perform 
in the top quartile on nationally standardized academic 
assessments in those databases and are from the bottom half of 
the national income distribution. I am here today to discuss 
our research findings as they relate to a very important 
concept being considered by this committee, whether Federal 
education law should measure not only schools--should hold 
schools not only accountable for the academic growth of 
students at proficiency but also those students who are 
performing at advanced levels. In other words, how do we close 
the gap at the high end of achievement?
    We view as essential two ideas in this draft bill. One, 
that schools should be held accountable for the number of 
lower-income students achieving not just at proficiency but 
also at advanced levels. And secondly, that schools should be 
held accountable for the number of lower-income students who 
pass IB and AP exams. And that additional high quality AP and 
IB courses be made available in high schools with high 
concentrations of low-income students. A brief summary of four 
of the key research findings from our report will demonstrate 
why we view these measures as so important. Our first finding, 
there are a lot of these extraordinary students across America. 
In the 6 years that I have been doing this work and the Jack 
Kent Cooke Foundation has been working with these students, we 
are frequently met with the idea that there aren't a lot of 
low-income kids who achieve at high levels. This report refutes 
that. There are 3.4 million students by our estimation in our 
Nation's K-through-12 schools today who score in the top 
economic quartile even though they are from families below the 
national median. That is greater than the population of 21 
individual States. More than a million of these students are 
eligible for reduced and free lunch.
    Second finding, these students are everywhere, and they 
reflect the racial diversity and the diversity overall of 
America. When they enter first grade, these students are in 
urban, suburban and rural communities in numbers that are 
proportionate to the overall first grade population. The same 
is true of gender. They are boys and girls in numbers equal to 
the overall first grade population. And perhaps most 
importantly, they are black and white, Hispanic and Asian in 
numbers that are proportionate to the overall racial and ethnic 
population of American first graders. In other words, what 
happens to these students is not an issue for any one of us or 
an interest group issue; it is an issue for all of us.
    Third finding, high-achieving lower-income students 
disproportionately fall out of the high-achieving group during 
both elementary and high school. What did we find in this 
respect? I think in elementary school it is most dramatic. 
Nearly half of the students who are from lower-income brackets 
who are performing in the top quartile in reading at the 
beginning of elementary school fall out by fifth grade. Nearly 
half of those students. In high school, it is about a quarter 
of students who enter eighth grade performing at the top 
quartile. They are falling out of the top quartile by 12th 
grade in math.
    In both cases, upper-income students do much better than 
lower-income students. So if you are a high achiever, it 
matters what your income level is in terms of your ability to 
maintain that high achievement level. Our final finding, lower-
income students with high potential rarely rise into the top 
quartile of academic achievement. Specifically, the percentages 
are somewhere between 4 and 7 percent in both elementary school 
and high school of students from the bottom income half who can 
actually rise during those periods into the top quartile of 
achievement on either reading or math. If you look at that for 
higher-income students, the numbers are at least twice that 
rate.
    We do not believe importantly that the interests of these 
students, that the needs of these students should be pitted 
against students who are below proficiency. Advanced students 
and students below proficiency who are from lower-income 
backgrounds are facing the same kinds of challenges. They are 
not being served adequately in our schools. We work with a lot 
of these students at the Jack Kent Cooke Foundation, and one 
student we have been working with for the last 6 years from 
rural Oregon I think said it best.
    He said, there are a ton of smart low-income students in 
this country who don't have someone to speak for them, no one 
to get them the programs and enrichment they need. In modern 
society, we tend to associate monetary gains with success. And 
sadly, with this paradigm, we often fail to recognize that 
academic talent which rests within lower-income students.
    It is our view that we should continue to work to close the 
proficiency gap as No Child Left Behind has worked so hard to 
do and the education department of this committee has worked so 
hard to maintain in the current draft bill that you have before 
you. But that struggle has to be accompanied by a concerted 
effort to promote high achievement in the low-income population 
as well.
    Unless we do so, many more of America's brightest students 
will meet the same educational fate that we have seen in the 
research for our report. So we are encouraged by the efforts of 
this committee to change that, to broaden the current focus on 
proficiency standards in No Child Left Behind and to establish 
policies and incentives that expand the number of lower-income 
students who achieve at advanced levels. Thank you.
    [The statement of Mr. Wyner follows:]

Prepared Statement of Joshua Wyner, Executive Vice President, Jack Kent 
                            Cooke Foundation

    Good morning, Chairman Miller, Ranking Member McKeon, and other 
distinguished members of the committee.
    I am pleased to be here today to discuss a population previously 
ignored in federal education policy and underserved in our nation's 
schools: the 3.4 million American students who are overcoming 
challenging socioeconomic circumstances to excel academically.
    Today, the Jack Kent Cooke Foundation and Civic Enterprises are 
releasing this report, Achievement Trap, which contains new and 
original research regarding the educational experiences of high 
achieving, lower-income students from first grade through graduate 
school.
    Our research comes from 20 years of longitudinal data from three 
federal databases. It examines the experiences of students who perform 
in the top quartile on nationally standardized academic assessments and 
are from families in the bottom half of the national income.
    We are here today to discuss our findings in the context of No 
Child Left Behind reauthorization, in particular because they relate to 
an important concept being considered by this committee--whether 
federal law should measure and hold schools accountable for the 
academic growth of every student, including those performing at 
advanced levels.
    We view as essential two provisions in the draft bill:
    <bullet> That schools should be held accountable for the number of 
lower-income students achieving not just proficiency but also at 
advanced levels and
    <bullet> That schools should be held accountable for the number of 
lower-income students who pass international baccalaureate and advanced 
placement exams.
    A brief summary of four of our key research findings will 
demonstrate why we view such measures as so important.
    First, there are lots of these extraordinary students across 
America.
    <bullet> There are 3.4 million students in our nation's K-12 
schools today scoring in the top academic quartile even though they are 
from families earning below the national median.
    <bullet> This population is greater than the individual population 
of 21 states.
    <bullet> More than a million of these students are free and 
reduced-lunch eligible.
    <bullet> In other words, what happens to high-achieving lower-
income students is a substantial education policy issue.
    Second, these students are everywhere and reflect the diversity of 
America.
    <bullet> They are in urban, suburban, and rural communities in 
numbers proportionate to the overall population.
    <bullet> They are black and white, Hispanic and Asian, and boys and 
girls in numbers that are proportionate to the overall racial and 
ethnic population in America.
    <bullet> In other words, what happens to high-achieving lower-
income students is not an interest-group issue; it is about all of us.
    Third, high-achieving lower-income students disproportionately fall 
out of the high-achieving group during both elementary and high school. 
Specifically, we found that
    <bullet> Nearly half of the lower-income students who achieved 
reading scores in the top quartile in first grade fell out of the top 
quartile in reading by fifth grade.
    <bullet> In high school, one quarter of the lower-income students 
who had top-quartile math scores in eighth grade fell out of the top 
academic quartile by twelfth grade.
    <bullet> In both cases, upper-income students maintained their 
places in the top quartile of achievement at significantly higher rates 
than lower-income students.
    And finally, lower income kids with high potential rarely rise into 
the top quartile of achievement. Specifically, we found that * * *
    <bullet> Only between 4% and 7% of students from lower-income 
families rise into the top academic quartile during elementary school 
and high school.
    <bullet> By contrast, children from families in the upper income 
half are at least twice as likely to rise into the top academic 
quartile during both elementary school and high school.
    These findings make clear that we are squandering talent throughout 
K-12 education. Tanner Mathison, a student from rural Oregon who has 
been a part of the Cooke Foundation Young Scholars Program, recently 
described one reason that may be happening:
    ``There are a ton of smart, low-income students in this country who 
don't have someone to speak for them--no one to get them access to the 
programs and enrichment they need,'' Tanner says. ``In modern society 
we tend to associate monetary gains with success, and sadly, with this 
paradigm, we often fail to recognize that academic talent can rest 
within lower-income students.''
    The needs of high potential and high-achieving students like Tanner 
should not be pitted against the educational needs of students who 
achieve below proficient levels.
    We must close the proficiency gap if our nation is to achieve its 
promise of equal opportunity at home and maintain its economic position 
internationally.
    But, this struggle to reverse under-achievement among low-income 
students must be accompanied by a concerted effort to promote high 
achievement within the same population.
    Simply put, lower-income students achieving at advanced levels are 
not exempt from the struggles facing other lower-income students.
    Holding on to that faulty assumption will prevent us from reversing 
the trend made plain by our findings: we are failing these high-
achieving students throughout the educational process.
    This failure is especially severe in a society in which the gap 
between rich and poor is growing and in an economy that increasingly 
rewards highly-skilled and highly-educated workers.
    We are therefore encouraged by the effort of this committee to 
consider ways to broaden the current focus on proficiency standards in 
NCLB, and to establish policies and incentives that expand the number 
of lower-income students who achieve at advanced levels.
    Thank you, Mr. Chairman and members of the committee, for allowing 
me to testify.
                                 ______
                                 
    [Internet address to ``Achievementrap,'' How America Is 
Failing Millions of High-Achieving Students From Lower-Income 
Families, a report by the Jack Kent Cooke Foundation, follows:]

      http://www.jackkentcookefoundation.org/jkcf--web/Documents/
                         Achievement%20Trap.pdf

                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Rodriguez.

    STATEMENT OF SONIA HERNANDEZ RODRIGUEZ, EXECUTIVE VICE 
        PRESIDENT, NATIONAL FARM WORKERS SERVICE CENTER

    Ms. Rodriguez. Good afternoon, Chairman Miller and members 
of the committee. Thank you for the opportunity to appear 
before the House Education and Labor Committee today to discuss 
the committee's discussion draft relating to Title I of ESEA. I 
am here today representing the National Farm Workers Service 
Center, a nonprofit organization affiliated with the United 
Farm Workers of America. Both foundations were founded by Cesar 
Chavez in the 1960s to improve the lives of farm workers and 
other working poor.
    Through the National Service Center, we have been providing 
educational services to the working poor since its inception. 
For the last 3 years, we have also been SES providers.
    In addition, I am here as co-chair of the Coalition for 
Access to the Educational Resources, CAER, which is a nonprofit 
grassroots organization representing parents, families, 
educators and providers, and along with the Education Industry 
Association, a trade organization representing over 3,000 
businesses. In a letter recently sent to you, Mr. Chairman, by 
UFW president Arturo Rodriguez, he stated his concerns 
regarding possible changes to the SES provisions of Title I.
    The farm workers he represents work under conditions most 
of us could not tolerate, laboring under a blazing sun with the 
hope always of providing a brighter future for their children. 
Farm workers want educational opportunities for their families. 
As an SES provider, we have worked with children in poor rural 
communities, in farm labor camps and in struggling urban 
centers. The proposed changes to SES may deny services to the 
very children who need more help and more access to supportive 
services. Our hope is that we would be serving more children 
and not less. It is important I think to know and to recognize 
that SES is working for our children. As an organization, we 
not only measure student progress, focussing specifically on 
reading and math, we also work to help parents understand that 
their children need to go into high school. We help them 
understand that they need to get on college track and that they 
need to monitor what is happening to their students as they go 
into high school.
    But we also look at additional indicators to show that our 
programs are working. For example, we know that children who 
are performing poorly don't like to go to school. So we check 
with their teachers to make sure that their attendance is 
increasing. We check for classroom participation. Children that 
are feeling better about their capabilities tend to participate 
more. We check for homework completion. And when it comes to 
English language learners, one of the largest populations that 
we serve, we measure their acquisition of academic English, not 
just conversational English but academic English that gives 
them the opportunity to access content.
    The recent RAND study documents progress in nine large 
school districts. The RAND Corporation found that participation 
in SES by students in nine school districts nationwide, 
including Los Angeles and San Diego, had a statistically 
significant positive effect on students' achievement in reading 
and math. We also know that SES is highly valued by parents. 
More than 80 percent of parents believe that SES is having a 
direct positive impact on their children's academic 
performance.
    We are asking that even though this program is still 
relatively new, well, it is certainly new to us, that it is 
showing promise for some of the neediest students that we work 
with, and we are hoping in its early stages of implementation 
you would not abandon it. In fact, let me go a step further and 
ask for your help in several areas.
    To be more successful in the field, we find that we need 
access to school facilities. Too often when we are dealing in 
some of our communities, we find that unless kids are able to 
go home or find a way to get home from school, that 
transportation becomes a serious problem for them. Some of them 
live 20, 30 miles from school. Hard to imagine, but that is 
actually true.
    Secondly, we would be encouraged to see the rollover of SES 
funds from 1 year to the next. Too often districts know if they 
sit on them long enough, the money stays with them, and the 
services that were supposed to be provided never do get 
provided. The support for English language learners is really 
critically important as well as for students with special 
needs. Time on has for them--is a really important, important 
concept, an important way of dealing with their needs. And most 
of all, we would ask that you not reduce the number of students 
to be served or the funds with which to serve them. Again, on 
behalf of CAER, EIA and the Chavez Farm Worker Movement, we 
want to thank you for everything that you are doing for No 
Child Left Behind. We do believe that NCLB offers to increase 
educational opportunities for Latinos and other working poor 
families in our Nation, and we stand ready to help in any way 
that we can. Thank you.
    [The statement of Ms. Hernandez Rodriguez follows:]

 Prepared Statement of Sonia Hernandez Rodriguez, Executive Director, 
                  National Farm Workers Service Center

    Chairman Miller, Ranking Member McKeon and members of the 
committee, thank you for the privilege and opportunity to appear before 
the House Education and Labor Committee today to discuss the 
Committee's discussion draft relating to Title 1 of the Elementary and 
Secondary Education Act (ESEA). Mr. Chairman and Ranking Member McKeon, 
I first would like to commend you on the countless hours that you and 
your staffs have worked to produce the discussion draft. In my humble 
view, there are few pieces of legislation that this Committee will 
consider during this Congress that will be as important and have as 
long-lasting an impact on the future generations of our country than 
the reauthorization of the ESEA, or No Child Left Behind (NCLB) as it 
is widely referred to coast-to-coast.
    Chairman Miller, it is particularly an honor to appear before you 
because I live in California and am a constituent of yours.
    Today, Mr. Chairman, I am here representing the National Farm 
Workers Service Center which is one of the many high-quality, state-
approved providers of Supplemental Education Services' tutorial 
services in California and across the country. We are also a member of 
the Education Industry Association (EIA), the industry trade group that 
represents many of the 3,000 approved SES providers. I am also co-chair 
of the Coalition for Access to Educational Resources (CAER) along with 
former Governor of Nevada Bob Miller. CAER is a national grassroots 
coalition committed to educating parents and policy makers about the 
options available under NCLB.
    I would like to spend my brief time addressing the committee on the 
SES section of the discussion draft. First, let me give you the good 
news before I review the not so good news in the discussion draft. We 
know that SES is working, both in California and nationwide. The recent 
study conducted by the Rand Corporation found that participation in SES 
by students in nine school districts nationwide--including Los Angeles 
and San Diego--had a statistically significant, positive effect on 
students' achievement in reading and math. We also know that SES is 
highly valued by parents and students alike. SES studies consistently 
demonstrate that some 80 percent of parents believe that SES has had a 
positive impact on their children. I can certainly assure you that many 
of the parents and students that I work with on a daily basis in 
California, are pleased that SES remains a critical element of school 
reform interventions that are recommended in the discussion draft. We 
are also encouraged that the Committee has taken steps that we believe 
will improve certain aspects of SES, particularly those related to 
better access to school facilities and to the provision of services to 
students with special needs and needs and others with limited 
proficiency in English.
    At the same time, we are very concerned about a few significant 
items that we discovered while reviewing the discussion draft, and we 
hope that the Committee will change these provisions prior to formally 
introducing a final bill. As the EIA has described in the comments that 
the association submitted to the Committee, which I will outline 
shortly, we believe that several provisions included in the draft 
would: (1) significantly reduce the overall number of students in low-
performing schools who can take advantage of and benefit from these 
services; (2) substantially cut the amount of total funds currently 
available for free tutoring; (3) not go far enough to ensure that all 
districts are taking the necessary steps to ensure SES is offered to 
all eligible students and (4) limit school district options in seeking 
both nonprofit and for-profit partners for school services beyond SES.
    I would like to briefly touch on the issues of greatest concern to 
us.
Reduction of Universe of Students Eligible to Receive Free Tutoring
    The discussion draft includes several provisions, which taken 
together, would severely reduce the number of students likely to be 
eligible for free tutoring Just a few days ago, Secretary Spellings 
announced her Department's finding that just half of the current number 
of SES students will get free tutoring should the proposed language 
become law. In particular, the draft provides States the option to 
develop a system of multiple indicators to help schools meet their 
annual measurable objectives by giving credit to those schools that 
might otherwise not be able to meet their annual goals of students 
proficient in math and reading.
    The discussion draft would allow schools to use a new performance 
index measure to determine adequate yearly progress (AYP) and also 
create a pilot program (that could be extended to all 50 States within 
three years) encouraging a system of local assessments that would be 
used to determine AYP. By reducing the number of schools identified as 
in need of improvement, these provisions would mean that a significant 
number of students would lose their access to free tutoring services--
in spite of the fact that these same students would continue to be in 
the same schools that have not been able to demonstrate academic gains.
    While our comments do not provide specific recommendations on the 
aforementioned concerns, we raise these issues in hope that we can have 
a more in depth dialogue with you and your staff regarding the likely 
impact of these provisions on the nearly 3 million students currently 
eligible for free tutoring under NCLB.
    In addition to provisions which could fundamentally alter the 
current assessment and accountability systems at the State and local 
levels, we are also concerned with proposed language that would have 
the effect of significantly scaling back the instances in which SES 
would be offered to eligible students.
    Specifically, under the draft proposal, schools would no longer be 
deemed as missing AYP unless the same group failed to meet the same 
proficiency target in the same subject for two consecutive years. This 
is a considerable departure from current law, which does not enable 
schools to avoid missing AYP simply because different groups within the 
school missed proficiency targets over the course of several years.
    The draft proposal would also modify which schools in improvement 
would be required to offer SES. Under current law, all schools missing 
AYP for three consecutive years must provide SES. The discussion draft 
would allow districts to develop a new, less stringent category of 
``priority'' schools which would have the option of providing SES. In 
all likelihood, once again, this change will greatly reduce the number 
of students who--under current law--have opportunities to receive free 
tutoring services.
Reduction in the Amount of Funds Available for Free Tutoring
    While the discussion draft maintains a set-aside of funds to be 
used to provide SES, the language actually makes considerable changes 
to current law that would result in significantly less funding being 
available to provide SES to eligible students. Specifically, current 
law requires any district with one or more schools that are required to 
offer SES to set aside district level funds in ``an amount equal to 20 
percent of its allocation under subpart 2 [Title I].'' The discussion 
draft would drastically reduce this amount in virtually all school 
districts by requiring that only 20 percent of ``each identified 
school's allocation'' be set aside for SES and public school choice 
options. To ensure that a proportional amount of funds are spent under 
the discussion draft as they are in current law, every Title I school 
in the district would have to be required to offer SES and public 
school choice--which is not a realistic expectation under current law 
or the provisions of the discussion draft.
Ensuring Funds Remain Available for SES
    The draft proposal begins to take steps to address the issue of 
local districts not fully spending their set-aside and ensuring that 
all eligible students are notified of these services. However, we 
believe the draft does not go far enough with respect to this issue and 
requires further changes that we have shared with the committee.
    Let me briefly touch on a few more issues with which we have 
concerns before closing my comments.
Extended Learning Time Programs
    According to the National Assessment of Title I (February 2006), 
the percentage of identified Title I schools experiencing various types 
of interventions since identification for improvement (2004-2005) shows 
that 24 percent of schools in year 1 of improvement; 29 percent of 
schools in year 2 of improvement; 42 percent of schools in corrective 
action; and 31 percent of schools in restructuring are already using 
funds for extended learning time programs. In light of current, 
significant school expenditures and the new Expanded Learning Time 
Demonstration Program authorized under Part J, we believe that extended 
learning time opportunities are adequately addressed in the discussion 
draft and no diversion of set aside funds is warranted.
    That said, if language remains in the bill which will allow money 
set aside for SES and public school choice options to be used for 
extended learning time programs, it should be clarified to ensure that 
the set aside amounts to a maximum of 10 percent of the 20 percent 
described and equates to 2 percent of the LEA allocation.
Facility Access
    We are pleased the discussion draft addresses obstacles providers 
face in accessing school facilities to provide tutoring services. 
However, we would recommend that the language be clarified to ensure 
that SES providers have the same access to facilities on the same terms 
that are available to other groups that seek access to the school 
building.
Regulations
    We believe the provisions regarding regulations are not necessary 
as the Secretary is already able to regulate on these issues which are 
already included as part of the State process for identifying 
providers.
Role of For-Profit Entities Supporting Schools Beyond SES
    While the National Farm Workers Service Center is a non-profit 
entity, we believe that ``No Child Left Behind'' in general, and SES in 
particular, should offer SES-eligible families as many options for 
their children as possible. In addition, school districts themselves 
must be free to procure services from a broad array of vendors as they 
do under current law.
    To that end, we believe that for-profit organizations, along with 
non-profit entities such as the Farm Workers, should be able to 
participate in any appropriate NCLB, including SES, drop out prevention 
and school redesign activities. Language in the discussion draft 
excludes profit-making organizations, and should be changed to be as 
inclusive as possible.
Conclusion
    I know that the Committee and the Congress have a lot of unfinished 
work regarding NCLB, but I also know that the issues that I outlined 
regarding SES are critically important to our children. Again, on 
behalf of the National Farm Workers Service Center, I appreciate the 
Committee's efforts to improve and strengthen SES for our children, and 
thank you for the opportunity to make our views known to the Committee 
today.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Castellani.

  STATEMENT OF JOHN CASTELLANI, PRESIDENT, BUSINESS ROUNDTABLE

    Mr. Castellani. Thank you, Mr. Chairman. Distinguished 
members of the committee, on behalf of the Business Coalition 
for Student Achievement, BCSA, I am pleased to be here today to 
discuss the coalition's views on the discussion draft for 
reauthorizing the Elementary and Secondary Education Act. I am 
also here because education reform is such a high priority for 
the chief executive officers who are the members of the 
Business Roundtable. The BCSA represents business leaders from 
every sector of the economy. We believe that improving the 
performance of our K-through-12 education system is necessary 
to provide a strong foundation for both U.S. competitiveness 
and for individuals to exceed in our rapidly changing world. It 
is for this reason BCSA continues to stand firmly behind the 
principles underlying the No Child Left Behind Act. We are also 
part of a broad coalition NCLB works, and this includes 
business education community and civil rights groups that share 
the common belief that NCLB has been instrumental in focussing 
our Nation on improving academic achievement for all students.
    As this committee moves forward, we strongly urge that you 
resist any changes to the law that would undermine or reduce 
this fundamental focus. And at the same time, there are areas 
where NCLB does need improvement and expanded flexibility. We 
are pleased that the discussion draft includes math and reading 
proficiency by 2013 and 2014. We are pleased that it includes 
post-secondary and workplace readiness, accountability and 
rigor for high school and student growth models as well as a 
uniform end size. However it is detailed in our formal 
comments, we are deeply concerned about provisions that we 
believe could undermine the current accountability for all 
students to reach proficiency. The draft provides a path by 
which States could create accountability systems that are so 
complex as to be rendered meaningless. While we do not believe 
it is the intent of this committee to reduce accountability, we 
do have serious concerns about the draft's cumulative impact. I 
want to make it clear that the business community supports a 
core curriculum for all students, and employers are looking for 
skills that go beyond those in the current law. However, any 
additional measures must be additions to and not subtractions 
from the current requirements.
    For example, we support adding science to the current 
accountability system. Science should not be an optional 
indicator for extra credit if a school falls short of its 
reading and math targets. Our test for supporting the draft as 
it is, is based on two key questions. First, do the proposals 
advance or dilute accountability? And second, are they based on 
or do they generate sound data? The current draft does not pass 
that test. Now that being said, we are pleased with the 
dialogue we have had with you and your staff since the release 
of this draft. We remain hopeful that our concerns can be 
addressed and that you will have the full support of the 
business community behind reauthorization of this important 
law. It is outlined in greater detail in our submitted 
comments.
    The following four areas are those in which we have the 
greatest concern. First, the draft creates too many 
opportunities for schools to game the system, obscuring the 
fact that students are not progressing toward being able to 
read and do math at grade level. It allows schools that do not 
meet their annual objectives in reading and math to meet their 
targets based on other measures. Second, it significantly 
weakens the process by identifying schools in need of 
improvement, it allows schools to ignore shortfalls in math and 
reading just because the lack of improvement shifts groups from 
year to year. Third, it dramatically reduces the availability 
of public school choice and supplemental educational services 
and substantially reduces funding for these options. And 
fourth, it establishes a difficult to understand and explain 
and implement multiple measures framework. We want to ensure 
the reauthorization does not result in masking what NCLB has 
exposed, the fact that too many students, many from 
economically disadvantaged backgrounds, are moving through our 
schools without the basic skills necessary to be successful and 
productive citizens.
    Mr. Chairman, you have conducted a remarkably open process, 
and we have great respect for your leadership and commitment as 
well as that of Representative McKeon. Again, I want to thank 
you for this opportunity to testify, and we look forward to 
working with the committee as the reauthorization process moves 
forward.
    [The statement of Mr. Castellani follows:]

     Prepared Statement of John J. Castellani, President, Business 
Roundtable, on behalf of the Business Coalition for Student Achievement 
                                 (BCSA)

    Chairman Miller, Senior Republican Member McKeon and other 
distinguished Members of the Committee. On behalf of the Business 
Coalition for Student Achievement (BCSA), I am pleased to be here today 
to discuss the Coalition's views on the reauthorization of the 
Elementary and Secondary Education Act (ESEA) of 1965 and specifically 
our views on the Committee's staff discussion draft for reauthorization 
of Title I of this law. I also am here because education reform is such 
a high priority for the CEO members of the Business Roundtable.
    The BCSA represents business leaders from every sector of the 
economy and believes that improving the performance of the K-12 
education system in the United States is necessary to provide a strong 
foundation for both U.S. competitiveness and for individuals to succeed 
in our rapidly changing world.
    As employers, we understand the important role the U.S. business 
community must play in ensuring the American education system prepares 
our youth to meet the challenges of higher education and the workplace. 
It is for this reason BCSA has been a staunch supporter of education 
reform and continues to stand firmly behind the principles underlying 
the No Child Left Behind (NCLB) Act.
    We are also part of a broad coalition--NCLB Works--which includes 
business, education, community, and civil rights groups working to 
strengthen and reauthorize the Act. We share the common belief that 
this law has been instrumental in focusing our nation on improving 
academic achievement for all students and we stand behind NCLB's goal 
of all students being able to read and do math on grade level by the 
2013-2014 school year.
    As this Committee moves forward with reauthorization, we strongly 
urge that you resist any changes to the law that would undermine or 
reduce this fundamental focus.
    At the same time, there are areas where NCLB needs improvement and 
expanded flexibility, and we formally shared our ideas with the 
Committee earlier this year. For example, BCSA supports allowing States 
to implement well-designed growth models to determine adequate yearly 
progress (AYP). We also believe school districts should have the 
ability to target the most significant interventions to those schools 
that are the furthest behind in ensuring all of their students are 
proficient.
    BCSA is pleased that discussion draft includes:
    <bullet> math and reading proficiency by 2013-14
    <bullet> postsecondary and workplace readiness
    <bullet> accountability and rigor for high school
    <bullet> student growth models
    <bullet> uniform N-size
    However, as we detailed in our formal comments to the Committee, we 
are deeply concerned about provisions included in the draft that we 
believe would undermine the current accountability for all students to 
reach proficiency. The draft provides a path by which States could 
create accountability systems so complex as to be rendered meaningless.
    While we do not believe it is the intent of the Committee to reduce 
accountability, BCSA has serious concerns about the draft's cumulative 
impact on accountability for improved academic achievement for all 
students.
    I want to make it very clear that the business community supports a 
core curriculum for all students, and employers are looking for skills 
beyond those in the current law. However, any additional measures must 
be additions to, not subtractions from, the current requirements. For 
example, we believe that science should be added to the current 
accountability system. Science should not just be an optional indicator 
for extra credit if a school falls short of its reading and math 
targets.
    Our test for supporting the bill as it is currently drafted is 
based on two key questions: First, do the proposals advance or dilute 
accountability? Second, are they based on or do they generate sound 
data? The current draft does not pass that test. That being said, we 
have been very pleased with the dialogue we have had with you and your 
staff since the release of the discussion draft and remain hopeful that 
our concerns can be addressed prior to the bill's introduction and that 
BCSA can lend the full and enthusiastic support of the business 
community behind the reauthorization of this important law.
    As outlined in greater detail as part of our submitted comments, 
the following areas are those in which we have the greatest concern. In 
particular, the discussion draft:
    <bullet> Creates too many opportunities for schools to game the 
system, obscuring the fact that students are not progressing toward 
being able to read and do math on grade level. It allows schools that 
do not meet their annual measurable objectives in reading and math to 
be considered as meeting their targets based upon other measures, 
including local assessments;
    <bullet> Significantly weakens the process for identifying schools 
in need of improvement. It allows schools to ignore shortfalls in 
proficiency in math and reading just because the lack of improvement 
happens to shift subgroups from year to year. It overly limits the 
identification of schools in need of the most assistance to improve 
student achievement;
    <bullet> Dramatically reduces the availability of public school 
choice and supplemental educational services and substantially reduces 
funding available for such options; and
    <bullet> Establishes a difficult to understand, explain, and 
implement multiple measures framework. This framework runs counter to 
NCLB's current transparent accountability system. It also creates a 
confusing accountability system to address the critical need to 
increase high school graduation rates.
    We want to ensure this reauthorization does not result in masking 
what NCLB has exposed. The fact is that too many students--many from 
economically disadvantaged backgrounds--are not getting a high-quality 
education and are moving through our schools without the basic skills 
necessary to be successful and productive citizens.
    Mr. Chairman, you have conducted a remarkably open process and we 
have great respect for your leadership and commitment, as well as that 
of Representative McKeon. The reauthorization of NCLB provides an 
opportunity to take the next, and important, step of not just 
identifying schools in need of improvement, but ensuring they have the 
tools necessary to reach higher levels of achievement.
    Again, thank you for this opportunity to testify, and we look 
forward to working with the Committee as this reauthorization moves 
forward.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Kohlmoos.

    STATEMENT OF JIM KOHLMOOS, PRESIDENT AND CEO, KNOWLEDGE 
                            ALLIANCE

    Mr. Kohlmoos. Thank you very much. Good afternoon. My name 
is Jim Kohlmoos. It is my pleasure and honor to present the 
testimony on behalf of Knowledge Alliance. And thank you for 
this opportunity. By way of introduction, Knowledge Alliance is 
a nonpartisan coalition of 30 leading research and development 
organizations in education around the country. Our members 
include a diversity of nonprofit, for-profit organizations, 
public and private universities involved in virtually every 
aspect of education reform, touching virtually every school 
district in every State and territory in the country.
    While the business of research and development, 
particularly in education, can sometimes seem confusing, 
detached and overly complex, our collective cause as an 
alliance is actually quite straightforward, to connect the 
research community with the school improvement enterprise and 
to use the best available research-based knowledge to help all 
students achieve. R&D is the lifeblood of innovation and 
productivity in other sectors, and we believe the same should 
be true in education, particularly as it relates to school 
improvement.
    We applaud the bipartisan effort thus far, as others have, 
in sustaining the key goals of No Child Left Behind. The tricky 
part, of course, as we have already heard, is how best to 
achieve those goals. To be sure, reaching consensus on new 
accountability provisions and fixes will be challenging to say 
the least, but we hope that there will be a broad agreement on 
shifting more attention to school improvement, and to your 
proposals for sustaining and scaling improvement efforts. In 
this regard, we have three general observations to make. First, 
the discussion draft's greater focus on school improvement 
moves reauthorization in the right direction. We think it is 
important to put this reauthorization in historical context, as 
Mr. McKeon did last week at your business coalition. For the 
past 20 years, dating back to the first Bush Administration, 
the Federal administration policy has been guided with a 
standards-based reform framework, one which has not really been 
overly debated here today.
    The idea is to develop standards; align the system through 
those standards; create strong accountability measures; and, 
last and certainly not least, to deliver solutions to schools. 
With NCLB's heavy emphasis on accountability in 2002, we 
believe the conditions now are ripe to move to the next level 
and focus greater attention on school improvement. As embedded 
in your discussion draft, the next reauthorization should aim 
to balance the needed sanctions with compelling robust 
innovative solutions.
    Second, invest in building local and State capacity for 
school improvement. We believe the discussion draft is on the 
right track in emphasizing the need for capacity building. We 
would go so far as to recommend that the new title of the 
statute be called something like, ``Building America's Capacity 
for Excellence for All Children,'' which would create an 
interesting acronym following NCLB and ESEA.
    We are pleased by the proposed increase in the State's set-
aside for school improvement, the continuation of the State 
Formula Grant Program, which Congress just recently funded for 
the first time, and the inclusion of a broad array of new 
programs for high schools, for data systems, for adolescent 
literacy. And we are particularly pleased with the second 
generation of comprehensive school reform about which we have 
several specific recommendations for change.
    Third, inject a sense of rigor in school improvement 
efforts, more than a sense of rigor; inject rigor in school 
improvement efforts. We agree with the inclusion of the term 
scientifically valid research, as defined in the Education 
Sciences Reform Act that has been included in many different 
places in the draft. This definition creates a market demand 
for research-based knowledge and strikes, we think, a practical 
balance between relevance and rigor in implementing key 
provisions in the statute. The term should be consistently 
applied throughout the entire statute.
    We applaud also including third party expert service 
providers as part of the State's system of delivering needed 
school improvement, including comprehensive centers, regional 
education laboratories, the National Research and Development 
Centers and other school improvement experts who can quickly 
and effectively mobilize high-quality intensive assistance.
    Mr. Chairman, we have seen the benefits of many effective 
school improvement initiatives all across the country. I 
highlighted them in my written comments. There is a lot of good 
work going on out there that needs to be scaled and sustained 
and further refined through research and research development. 
I noted in my comments, transformative school improvement 
efforts in Calexico Unified School District, the Northwest 
Regional Laboratory's intensive work in turning around, the 
National Center of Research on Evaluation Standards and Student 
Testing at UCLA, which is using rigorous methods for validating 
promising after-school programs in numerous States and stirring 
new innovative approaches.
    In summary, this reauthorization can and should accelerate 
nationwide efforts to fulfill the promise of NCLB. Through a 
robust and rigorous system of school improvement, we believe 
that the increasingly urgent needs for turning around low-
performing schools can and would be met. Thank you.
    [The statement of Mr. Kohlmoos follows:]

  Prepared Statement of James Kohlmoos, President and CEO, Knowledge 
                                Alliance

    Good morning. My name is Jim Kohlmoos, president of Knowledge 
Alliance. It is my pleasure and honor to present this testimony on 
behalf of the Knowledge Alliance. We appreciate this opportunity to 
present to the Committee our comments and recommendations on the 
reauthorization of the Elementary and Secondary Education Act (ESEA), 
also referred to as No Child Left Behind (NCLB).
    By way of introduction, Knowledge Alliance (formerly known as 
NEKIA) is a nonprofit, nonpartisan trade association composed of 30 
leading education organizations dedicated to expanding the use of 
research-based knowledge in policy and practice in K-12 education. In 
the aggregate, Alliance members are involved in virtually all aspects 
of school improvement including high-quality education research and 
development, dissemination, technical assistance, professional 
development and evaluation at the federal, regional, state, tribal, and 
local levels. We firmly believe that the effective use of research-
based knowledge can significantly enhance and accelerate the nationwide 
efforts to improve academic performance and close achievement gaps in 
K-12 education.
    While the business of research and knowledge creation and use can 
sometimes seem confusing, detached, and complex, our goal is very 
straightforward and clear: to help educators use and apply the best 
available research-based knowledge to help all students succeed.
    We applaud the bipartisan effort throughout the process in 
sustaining key goals of NCLB. We believe that this reauthorization is 
an opportunity not only to improve some of NCLB's accountability 
provisions, but also to give greater focus to school improvement and to 
more effectively deliver research-based solutions to schools that have 
the greatest needs
    We offer this testimony at a critical juncture in the evolution of 
education reform in this country. As you know, federal education policy 
has evolved in phases over the past 15 years. The focus on standards 
and assessments in the late 1980s and early 1990s spawned major 
attention on the alignment of standards, curriculum and assessments in 
the 1990s, which in turn played a role in the current emphasis on 
accountability. The next logical step in this standards-based continuum 
is to deliver of solutions to the problems identified by the 
accountability system. This means focusing comprehensive and vigorous 
attention on school improvement and providing significant new resources 
and expertise targeted both to turning around low performing schools 
and to building a knowledge-based capacity and infrastructure for 
sustained improvement. As a nation, we have already made a firm 
commitment through the NCLB to provide a world class education to every 
student that attends our schools. With this upcoming reauthorization we 
believe that the time has come to take this next big step towards this 
ambitious goal.
    We have already provided extensive comments to the Committee 
regarding the Title I reauthorization draft, but I wanted to take a few 
minutes to make some general comments and suggestions:
    Focus priority attention and resources on school improvement and 
capacity building--We applaud the greater emphasis in the discussion 
draft on building capacity at the state and local levels to provide 
urgently needed school improvement support in terms of expertise, 
research-based knowledge and funding. In order to reflect the 
importance of school improvement and capacity building, we recommend 
that the title of the statute reflect this emphasis: for example, 
``Building America's Capacity for Excellence for All Children Act.'' 
This will help highlight school improvement and capacity building as 
one of the guiding principles of this reauthorization.
    Increase investments in School Improvement Grants--We are pleased 
by the proposed increase to 5% for the state set aside for school 
improvement. We also suggest to ensuring the continuation of the 
formula grant program for states which the Department of Education 
recently activated. To ensure the successful expansion of school 
improvement grants, we encourage the Committee to increase the 
authorization to $500 million over the life of the authorization.
    Define and consistently include the term ``Scientifically Valid 
Research''--We agree with the inclusion of this term in many places in 
the draft. We suggest that the definition should be the same as that 
used in the Education Sciences Reform Act with only slight modification 
to address external validity issues. This definition reflects the need 
for both relevance and rigor in developing and implementing key 
programs and provisions in the statute. We also suggest that term be 
consistently used throughout the statute. In order alleviate confusion, 
other related terms such as ``evidence-based'' should be avoided.
    Launch the ``second generation'' of Comprehensive School Reform--We 
applaud the inclusion of this ``second generation'' program and 
recommend that the program be of sufficient size and scope (authorized 
at least $300 million). A State formula grant system through which 
competitions would be conducted for LEA subgrants allows all states to 
participate and increases the diversity of grantees. Awards to the LEAs 
should be at least $100,000 the first year (to allow for start-up 
costs) and $50,000 in subsequent years. Up to a 3% set aside for 
national activities should be included for further model development, 
quality center evaluations and clearinghouse activities.
    Involve expert, third party providers in the state system of 
assistance--We applaud including third party service providers as part 
of the state system of delivering needed school improvement. 
Specifically, this support should include the Comprehensive Centers, 
the Regional Educational Laboratories, the National Research and 
Development Centers, and other school improvement specialists and 
entities which will help to mobilize intensive and extensive 
assistance.
    We have seen the benefits of many effective school improvement 
initiatives at the local level which emphasize capacity building and 
the use of scientific valid research in delivering solutions to 
specific problems and circumstances. Allow me to briefly share with you 
three examples. The Calexico Unified School District, where nearly 80% 
of the students are eligible for free or reduced-price lunches, 
contracted with WestEd in 2001 to work intensively with six 
underperforming schools. WestEd helped the schools create and implement 
an improvement plan and then worked with all nine Calexico schools to 
define a common language of teaching for administrators and coaches. 
Both now provide specific feedback to teachers on instructional 
practices and regularly analyze and discuss classroom instruction. By 
2005, all schools had made great achievement gains, reflected in an 
increase of 124 points, on average, on California's Academic 
Performance Index.
    The Siletz Valley Charter School in Oregon, the local school for 
the Siletz tribe, became successful over a four-year period with 
intensive support from Northwest Regional Educational Laboratory 
(NWREL). Beginning as a failing school with a 78 percent poverty rate, 
it now has more that 80 percent of their students meeting or exceeding 
state benchmarks in both reading and math. As a school improvement 
consultant to the school, NWREL helped the staff find appropriate 
curriculum materials, conduct qualitative reading inventories, use 
children's literature to build decoding skill, comprehension, and 
positive attitude, implement the 6+1 Trait approach to assessing and 
teaching writing, and collect data to support Title I eligibility. This 
school not only avoided closure, but is now a thriving, successful 
community school.
    The National Center for Research on Evaluation, Standards and 
Student Testing (CRESST) at UCLA is using rigorous multiple methods to 
validate the promising afterschool practices of sites located in 
Connecticut, Florida Illinois, Ohio, New York, and Pennsylvania (among 
others). Findings are being used to create training and web-based tools 
to help afterschool programs across the country to implement more 
effective interventions in reading, math, arts, homework help, and 
technology. The project is being conducted in collaboration with 
Southwest Educational Development Laboratory and the National 
Partnership for Afterschool Learning, which also brings together and 
benefits from collective reach of numerous other R&D organizations 
around the country.
    By focusing greater attention on school improvement and capacity 
building as a key element of the next reauthorization, the Committee's 
discussion draft is headed in the right direction. ESEA can and should 
re-shape and accelerate nationwide efforts to fulfill the promise of 
NCLB. Through a robust system of support that emphasizes rigor and 
relevance and the use of scientifically valid research in its 
solutions, we believe that the increasingly urgent needs for turning 
around low performing schools can be effectively met. With our 
recommendations we are committed to helping the Committee find common 
ground in fulfilling the legislation's ambitious goals.
    We thank you for the opportunity to testify today, and thank you 
again for your ongoing dedication to our nation's children.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Petrilli.

    STATEMENT OF MIKE PETRILLI, VICE PRESIDENT FOR NATIONAL 
      PROGRAMS & POLICY, THE THOMAS B. FORDHAM FOUNDATION

    Mr. Petrilli. Thank you, Mr. Chairman, members of the 
committee, thank you for the opportunity to testify today. I am 
honored to represent the Thomas B. Fordham institute, an 
independent education policy think tank located here in 
Washington. As a think tank guy and not a lobbyist or a 
representative of an interest group, I enjoy a certain amount 
of freedom to call things as I see them.
    Let me state an obvious truth, one that you clearly 
wrestled with in the development of your discussion draft. When 
it comes to accountability, it is impossible to offer 
meaningful flexibility to the States while at the same time 
foreclosing any possibility of chicanery. In other words, if 
you were 100 percent committed to ensuring that the Nation's 
schools operated under a rock solid tamper-proof set of 
accountability rules, you would build it yourself from 
Washington. You would create a water-tight national 
accountability system complete with national academic 
standards, national tests and national school ratings. You 
would ask an independent commission to determine what students 
need to learn in order to compete with the rest of the world, 
have them build top-notch tests, design sophisticated growth 
models, decide appropriate end size and confidence in the 
rules, develop a rating system with well designed school 
labels; every school in the country would be judged in exactly 
the same way.
    And this isn't a crazy idea. I and my Fordham colleagues 
would discuss going national with such an accountability system 
so long as we also went flexible with everything else, how 
schools spend their dollars, what kind of teachers they can 
hire, how States and districts can intervene with schools that 
aren't making the grade, how many choices families have among 
schools, and on and on. It is pretty clear, though, that you 
aren't willing to call for such a national accountability 
system. And to be fair, neither are the business groups and the 
civil rights groups and some of the other accountability hawks, 
much less of course the administration.
    So you are left with a delicate balancing act that you are 
trying to get right. If you give too much flexibility to 
certain States and districts, they will make Swiss cheese out 
of NCLB version 2.0. If you give too little flexibility though, 
well-meaning States will continue to chafe against the Federal 
dictates, unable to implement world-class accountability 
systems that, left to themselves, they might have otherwise 
developed.
    This is a true dilemma, and there is no right answer. The 
best that you can achieve, though, is to provide political 
cover and enough flexibility for States that want to do the 
right thing. While we are moving to perverse incentives, we 
might be pushing States to do the wrong thing. So let me 
explain briefly what that means. For well-meaning States, and 
let's imagine there are so many of them out there, you need to 
allow them to have a set of design principles for their 
accountability system, not a rigid system that is imposed on 
them.
    Now you seem to agree with this approach to some degree. 
When it comes to growth models, you rely on design principles 
rather than specific dictates. Yet, in other cases, you lapse 
into what might be considered over prescription. For example, 
you open the doors to multiple indicators, good indicators in 
my view. But you limit the rates to 15 and 25 percent 
respectively for elementary school and high school. So why not 
20 and 30 percent or 25 and 35 percent? You also allow States 
to move from the current system of labeling schools in one of 
two ways, either make AYP or they don't, to one of three ways, 
they make AYP or they are a priority school or they are a high-
priority school. Why not four types of labels or five? A, B, C, 
D, E and F? We are not necessarily arguing for greater 
leniency. If you have to pick numbers, your numbers are 
generally fine. But no matter what numbers you go with, they 
are going to constrain some States in unforeseen and 
undesirable ways. So, instead, why not focus on design 
principles. For example, you could say the States could develop 
a school rating system with multiple gradations, the most 
severe label has to be reserved for schools where the vast 
majority of schools are failing to meet State expectations, one 
where also subgroups of students are achieving at high levels. 
Moving from prescription to design principles would give well-
meaning States some much needed breathing room. Now, may it 
also open the door to abuse by States that want to do the wrong 
things? Yes, of course, it could. The best you could do, 
though, is again to remove perverse incentives that might be 
pushing them in the wrong way. The worst reverse incentive that 
you still have in this discussion draft is the requirement that 
100 percent of students have to be proficient by 2014 or on a 
trajectory to get there.
    The evidence is clearly in, this measure is doing harm; it 
is rewarding States that have low standards and pushing States 
with high standards to lower the bar further. And in a 
classroom, what this means is that our teachers are under a lot 
of pressure to aim for very low-level skills. I don't think 
that is what any of you have been intending to do. What you 
could do is to adopt the education trust proposals, and it 
would allow States to move to more rigorous standards and tests 
and then aim for less than universal proficiency.
    The other big perverse incentive in the discussion drafts 
is your decision to not require priority schools to provide 
supplemental educational services. This creates huge incentives 
for States that don't like supplemental services to play games 
to try to label as few schools as possible as high priority. At 
the very least, you might offer all schools that are priority 
and high priority make sure that they offer supplemental 
services. Even better, why not require every Title I school in 
the country with a lot of poorer students that are below 
proficient and not on trajectory to get to proficiency to 
provide supplemental services. Let's think of supplemental 
services as a benefit for students, not as a sanction for 
schools.
    It is a lot of great work here. Again, you have a very 
tough, difficult balancing act to play if you are not willing 
to go all the way and have a national accountability system. If 
you keep moving in this direction by focusing on design 
principles, we think that you will produce a law that is less 
than perfect, but better than good. That is a step in the right 
direction.
    Thank you, Mr. Chairman.
    [The statement of Mr. Petrilli follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you.
    Do we have questions from the panel?
    Chairman Miller. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman. Let me begin with Mr. 
Kohlmoos, I was intrigued by your wish to abolish the phrase 
evidence based and replace it only with scientifically valid 
research.
    In our effort to avoid code words or politically loaded 
language in this bill, I'd like you to say one or two things 
that would be measured differently using the one phrase rather 
than the other, what records would be kept differently?
    Mr. Kohlmoos. The term ``scientifically valid'' is one that 
is contained in the Education Sciences Reform Act, as you know, 
and outlines a series of nine, or eight, principles to guide 
the methodological approach to different programs. And that 
definition we think is much better than the definition of used 
``scientifically based'' research that is currently----
    Mr. Holt. Give us one or two things that would be done 
differently if we were using that other phrasing.
    Mr. Kohlmoos. I think there would be less of an inclination 
to immediately have a knee-jerk reaction towards using 
randomized field trials for everything you could possibly do. 
This scientifically valid research values high-quality rigorous 
scientific inquiry, but it emphasizes that the method to be 
used should be a function of the question being asked rather 
than the other way around.
    Mr. Holt. Mr. Castellani, having sat on the Glenn 
Commission with two of your CEOs, Craig Barrett and Ed Rust, 
and knowing Mr. Ryan from Prudential in my home State of New 
Jersey, I know how devoted they are to this and how much 
thought has gone into your recommendations. Nevertheless, we 
run into a lot of opposition in saying that science should be 
counted in measurements of progress.
    Can you help me explain to the skeptics why we should add 
one more measurement for yearly progress? Not to me, because I 
have always maintained science is not just another subject.
    Mr. Castellani. Well--and please don't let the committee or 
you misunderstand me and misunderstand our position. We would 
support adding science as an addition, not as a substitute. 
When we look across those skill sets that are necessary for 
U.S. businesses to be competitive, not only today but in the 
future, our members who are the chief executive officers of the 
160 largest companies in the country find a common shortfall, 
and that is skills both today and in the future that are in the 
areas of science, technology, engineering and mathematics. 
Those skill sets are short now. They will get even scarcer in 
the future. And the capability for U.S. industry to be able to 
innovate and compete in an international marketplace is really 
going to be dependent on the availability of those skill sets. 
So that is why it is very, very important for the Business 
Roundtable.
    Mr. Holt. Thank you.
    Chairman Miller. Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman.
    Mr. Petrilli, I find your testimony to be very interesting 
and very thoughtful. I would like to you ask you in layperson's 
terms--since you are not a lobbyist, you are a think tank guy, 
as you said--what one or two things specifically do you think 
we need to do because clearly we are not going to have the 
initial thing you talked about. What one or two things do you 
think can make this bill as good as we can get this bill?
    Mr. Petrilli. Thank you for the question, Mr. Congressman.
    Again, I think removing this goal of getting 100 percent 
proficiency by 2014 is very important. That objective has 
incredible appeal and we all understand why it is important to 
say No Child Left Behind, but the reality is this is having 
serious consequences. It really does seem to be driving States 
to lower their standards, especially States that had very high 
standards before and are now aiming more towards the middle.
    What that means is that if schools are focusing on the 
bubble kids or trying to get to that proficiency level in 
States with very low proficiency, it means they are really 
driving the level of instruction down. I think that would make 
a huge difference if you found a better way to aim high. Again, 
I think Education Trust had some good ideas. If States are 
really aiming for college readiness by the 12th grade, you 
might aim for 80 or 85 percent instead of 100 percent. The way 
to think about this may be to focus on the end point: 
Proficiency really only has meaning when we talk about when the 
next step is ready in an educational process. So 12th grade 
proficiency is what really matters by the 12th grade as the 
student is ready to go on to college or enter the workforce. In 
grades K to 11, basically, proficiency is to make sure whether 
or not students are on track for reaching that end result and 
goal. The focus might be on making sure students are on the 
trajectory to get to proficiency by the time they graduate high 
school, and then States may have more incentives to make sure 
the bar for proficiency is set high and is really meaningful. I 
think that would be the most transformative thing that you 
could do to encourage States to lift the bar and have schools 
lift the level of instruction they are providing.
    Chairman Miller. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would like to make a brief statement in response to some 
of your comments, Mr. Petrilli. It is really to get on the 
record the fact that I think all of us applaud the notion that 
the Federal Government should do everything it can to make sure 
that there is equity in education throughout the country. The 
fact remains, there have been a lot of statements made that 
imply States are not trying to do the right thing, avoiding 
accountability and so forth. I kind of take offense to that. My 
State was one of the leaders in trying to create a very 
comprehensive and meaningful assessment program. We were held 
up as a model several years ago. We are still paying, as every 
other State is, 90 percent of the bill, local tax dollar, 
property taxes, financing, education. Many States are doing the 
best they can.
    I don't think there is one Governor, one mayor, who doesn't 
believe that education is a huge priority. We have 
accountability level starting with site-based decision making 
councils at the school level and we have voter-elected school 
boards, as most districts do. We have a State system that is 
providing accountability.
    So just in terms of getting on the record the fact that I 
believe No Child Left Behind is important because it sets some 
standards so that States can't avoid it. But I think most 
States are doing as good as they can or trying to improve 
education for everyone.
    So when the heavy hand of the Federal Government is held 
above us, we have to remember that there are a lot of people at 
ground level working really hard to make sure we accomplish the 
same goals.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you. Ms. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. Is it Ms. Rodriguez?
    Ms. Rodriguez. Yes.
    Mrs. Biggert. I have Hernandez here.
    Ms. Rodriguez. It is Rodriguez.
    Mrs. Biggert. In your statement you said that Secretary 
Spellings had announced that finding half of the current 
members of SES students will get the free tutoring under this 
law?
    Ms. Rodriguez. I am sorry, I didn't actually hear that.
    Mrs. Biggert. In your statement, there is a reduction of 
students eligible to receive free tutoring. Could you explain 
that a little bit more? Is that because there is a high-
priority school, then a priority school?
    Ms. Rodriguez. I think the change was mentioned earlier; 
with the identification in the categorization of schools as 
high-priority schools, now we are talking a more bifurcated 
approach, two sets of categories, and only the lower number of 
schools would actually get that recognition. And then the money 
that is designated would be based on the schools rather than on 
the districts and that would make a huge impact.
    Mrs. Biggert. I have two questions on this. Number one, if 
it is a high-priority school, then all of the students in that 
school, because they haven't met average yearly, probably would 
have an opportunity for tutoring, even though some of them did 
meet----
    Ms. Rodriguez. It doesn't play out that way now. The school 
becomes designated, and then what the district does is identify 
the lowest performing children in those schools and those are 
the ones that receive the services.
    Mrs. Biggert. It is not every student?
    Ms. Rodriguez. No.
    Mrs. Biggert. Is every student eligible?
    Ms. Rodriguez. Technically.
    Mrs. Biggert. Do you know how many schools--they are 
eligible, but are there a lot of students that really should 
fit into that category that isn't enough money?
    Ms. Rodriguez. No, I don't have that statistic. We have 
been checking with the Department of Education to get more firm 
numbers how this would play out if the changes were actually 
enacted, and we have not gotten good numbers so I would be 
leery to say something about that.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Miller. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I wanted to follow up on that line of questioning because 
if a school failed AYP because of one subgroup, should the 
response to that be targeted to the subgroup that caused the 
failure, or should the response be spread all over the school, 
including extra services to subgroups that are already making 
satisfactory progress?
    Ms. Rodriguez. Well, I think, quite honestly, the way the 
districts have been operating is to identify the subgroup that 
is not performing at the proficient level. So those are the 
children that have been actually receiving services. Do I agree 
with that? Yes, I do actually.
    Mr. Scott. So it should be targeted to the subgroup that 
caused the failure?
    Ms. Rodriguez. Yes. I think the children with the greatest 
needs should be the ones that would receive the first option. 
Now, clearly, some families choose not to do that for a lot of 
reasons; they may not have access to providers, et cetera. So 
once you have hit that mark, then the additional students who 
then are also eligible, if you break them down according to 
test scores, those that are below basic, far below basic, et 
cetera, become eligible.
    Mr. Scott. The question, though, is if one subgroup failed, 
everybody else is doing fine, if you have limited funds why 
wouldn't you put all of the money addressing the problem? Why 
would you try to spread it out amongst those not having a 
problem? That might cause some to be technically ineligible.
    Ms. Rodriguez. Those that are not eligible don't receive 
services now. My understanding is they wouldn't receive 
services under the changes recommended. Although a school is 
identified as a high-priority school, not all students are 
eligible for the services. The money isn't going to go that far 
anyway. They work with the lowest performing groups and, yes, 
they do target; and we have no problem with targeting the 
children with the greatest need.
    Chairman Miller. I think if I am correct, as the gentleman 
stated, in the high-priority schools, current law--in the 
discussion draft, current law is the same as low-income 
children across that school because they have failed in a 
number of different areas. In the priority schools, the school 
could choose the option of providing these services to those 
children in that group on the basis of trying to target the 
resources, and until we know more about how effective these 
programs are, we think that targeting and choice to local 
schools--our local school district is one way to go, but that's 
open for discussion.
    Any further discussion? Thank you for your participation 
and for your suggestions.
    Our next panel will be made up of the Teaching and School 
Leadership Panel. MaryKate Hughes, who is a math teacher from 
D.C. Preparatory Academy. And I would like to recognize 
Congressman Mahoney from Florida to introduce the next person 
on the witness list.
    Mr. Mahoney of Florida. Thank you, Mr. Chairman, for 
letting me have this honor of announcing Ms. Rooker, who is 
from Charlotte County, one of the principals of Neil Armstrong 
Elementary School. She's been a teacher for 30 years, a master 
teacher and principal for 3 years. We had a great day together 
down in the district. This is a person of true passion.
    I would also like to point out, Mr. Chairman, we had 
another person from Charlotte County at an earlier panel, 
Andrea Messina, who was testifying for the Aspen Institute 
Commission. And I am real proud of the fact these fine 
educators and people who care about our children are here 
representing today.
    Chairman Miller. Thank you. I appreciate you making the 
recommendation that we should hear it again. I heard from Ms. 
Rooker down in Florida. And it is pretty compelling.
    Next would be Mr. Reg Weaver who is the president of the 
National Education Association; Kati Haycock who is the 
president of Education Trust; Antonia Cortese, executive vice 
president of American Federation of Teachers; Frances Bryant 
Bradburn, who is the director of instructional technologies, 
North Carolina Department of Public Instruction; Mary Kay 
Sommers who is a principal at Shepardson Elementary School in 
Colorado; and Kristan Van Hook who is the senior vice 
president, Public Policy and Development, National Institute 
for Excellence in Teaching.
    Welcome to the committee, we appreciate you making the time 
available to us for your suggestions.
    For those who haven't testified before, you will be given 5 
minutes. A green light will be on on the indicators on the 
table. A yellow light will go on when you have about a minute 
left, and a red light when we would like you to finish up. But 
again, we want you to complete your thoughts and make sure you 
have imparted the information that you think is essential to 
the committee at this stage of the process.
    Chairman Miller. Ms. Hughes, we will begin with you.

 STATEMENT OF MARYKATE HUGHES, MATH TEACHER, D.C. PREPARATORY 
                            ACADEMY

    Ms. Hughes. Good afternoon. Thank you for the opportunity 
to testify today.
    I am a sixth grade math teacher at D.C. Prep, a public 
charter school serving a high-need student population in the 
poorest census track west of the Anacostia River here in 
Washington, D.C. Prior to joining the founding faculty of D.C. 
Prep in 2003, I was a teacher in the District of Columbia, 
teaching fifth grade.
    The mission of D.C. Prep is to prepare our students for 
excellent college preparatory high schools. Our new students 
come to us in fourth grade, about 40 percent behind their peers 
nationally, so they need to make over a year's progress every 
year in order to be prepared for entrance into these excellent 
high schools.
    Attracting, developing and supporting teachers is critical 
to our mission because the student achievement goals of D.C. 
Prep are not attainable without a high-quality faculty.
    Since we began over 4 years ago, we have struggled to 
recruit our outstanding faculty from the existing pool of 
applicants. This is not an uncommon challenge. Finding 
professionals who are prepared to create success where so many 
others have failed is no small task. We realized there is a 
tremendous need to implement a support structure that enabled 
highly intelligent, highly motivated teachers who continually 
improve the effectiveness of their instruction if students were 
going to continually make more than a year of progress.
    The teacher advancement program has provided the framework 
for us to make this happen in our school. Through career 
ladders for teachers, objective evaluation and coaching and 
performance-based pay linked to student achievement, our 
mission is becoming a reality. For example, students who have 
been with us for 3 years have doubled their proficiency rate in 
reading and tripled their proficiency rate in math, compared to 
their peers in neighboring D.C. Public schools.
    Our parents also note positive changes in the students' 
attitudes and behaviors towards doing well in school. They rate 
their childrens' attitude toward academic achievement an 
impressive 4.7 out of 5. Perhaps what makes me most proud is 
that every single member of our first graduating class was 
accepted to a high school with over 90 percent graduation rate 
compared with 55 percent in the District.
    I share these things with you to highlight the fact that 
high-quality teachers do make a difference in student 
achievement. In fact, they make a critical difference. The 
question is how do we recruit, train and retain high-quality 
teachers so that our success is not uncommon. For us the 
teacher advancement program has been the answer. One of the 
most powerful aspects of the program is the opportunity for 
teachers to increase their skills and take on additional 
leadership roles and responsibilities while remaining in the 
classroom.
    I became a mentor teacher during our first year of 
implementation in 2005 and this year have advanced to the 
position of master teacher, overseeing all aspect of TAP 
implementation. With some creative scheduling, I am able to 
fill this role and remain a classroom teacher, able to directly 
impact students. Because of the opportunities created through 
TAP, I have expanded my influence beyond the students in my 
classroom. As I work closely with other teachers to develop 
better instructional techniques throughout our school, their 
students are also positively impacted. Because of this, I 
continue to be motivated and excited by my profession.
    The importance of support, coaching and career advancement 
within the classroom environment cannot be overstated. When I 
began my teaching career, I felt daunted by the prospect of 
having the same job responsibilities for the rest of my life. I 
didn't know how to reach all of my students, and I felt 
isolated and unsure how to move forward. Still, I loved being 
in the classroom and was hungry for a way to grow 
professionally that would make a significant impact on my 
students' achievement. Without the support and knowledge I have 
gained through TAP and the opportunity to take on new roles and 
challenges as a mentor--and now I am a master teacher--it is 
likely I would not still be teaching. It is certain I would not 
be as effective a teacher as I have become.
    Since implementing TAP at D.C. Prep, we have been able to 
recruit outstanding teaching professionals who I believe 
typically would not have stayed in the teaching profession. 
Most of our teachers had multiple job offers in the D.C. Area, 
and time and again they tell us support, opportunities for 
career advancement, and financial incentives are the reason 
they chose our school over the others.
    If we want to draw intelligent and highly motivated 
teachers into the schools that need them most, we need to be 
prepared to support and reward them. My experience is that good 
intentions are not enough to compel promising teachers to 
remain in a profession that can be isolating, with no clear 
path to success. Performance-based pay incentives provide a 
focus for teachers in their work afford them opportunities to 
advance in their work, and make a greater impact and recognize 
their contributions in a tangible way.
    At D.C. Prep our success for students is inextricably 
linked to our outstanding faculty. TAP is an instrument for 
attracting qualified candidates to our school because they know 
they will be supported to improve, and rewarded for their 
efforts. Thank you.
    [The statement of Ms. Hughes follows:]

 Prepared Statement of MaryKate Hughes, Master Teacher, DC Preparatory 
                                Academy

    Thank you for inviting me to testify today concerning the 
importance of teacher quality to student achievement, and programs 
proposed by the Committee to fund career opportunity and teacher 
performance compensation with the goal of increasing student 
achievement.
    I am a 6th grade math teacher at DC Prep, a public charter school 
in Washington, DC serving a high need student population in the poorest 
census tract west of the Anacostia River. I joined the faculty at DC 
Prep as a founding teacher in 2003 when we opened our first school and 
currently am the Master Teacher, responsible for providing professional 
development, evaluation, and coaching for teachers at DC Prep in 
addition to teaching 6th grade math classes.
    This past year, I was surprised and honored to be selected by the 
Milken Foundation as a National Educator of the Year, an award given to 
only one hundred teachers across the country each year who display 
exceptional educational talent, inspire and motivate students, 
colleagues, and their communities, and demonstrate long-range potential 
for leadership. In addition, I teach an elementary math methods 
graduate school class at American University.
    DC Prep currently manages two campuses, DC Prep Edgewood, which 
opened in the fall of 2003, and serves 275 students in grades four 
through eight, and our newly opened elementary school which opened this 
fall and serves 300 students from preschool to third grade. Currently, 
sixty percent of our students in these schools qualify for free or 
reduced price lunch.
    DC Prep plans to continue expanding to a total of four elementary 
and four middle schools by the fall of 2012, serving a total of 
approximately 2500 students. We plan to locate our campuses in the 
poorest sections of Washington DC where local schools have about 75 
percent free and reduced price lunch students. DC Prep will recruit its 
student population primarily from these neighborhoods and we anticipate 
at least 50 percent of the student body at each new school will qualify 
for free and reduced price lunch.
    DC Prep was created to bring the lessons learned in high-performing 
schools nationwide to bear on the tremendous need in Washington DC and 
to build an effective organization capable of opening and running high-
quality schools on a large scale. We strive to prepare our students, 
many of whom enter DC Prep far behind their peers academically, to 
attend and be successful at the most competitive college preparatory 
high schools.
    Our first step was to create one excellent school located in an 
under-served community and use it as a model to expand into a system of 
high-performing schools--ultimately serving thousands of children in 
Washington. DC Prep partnered with the National Institute for 
Excellence in Teaching (NIET) to bring the Teacher Advancement Program 
(TAP) to these schools in order to address one of our most pressing 
challenges--developing and supporting a highly effective teacher for 
every student.
    TAP is a comprehensive, research-based reform designed to attract, 
retain, support, and develop effective teachers and principals. It 
combines comprehensive teacher support with performance pay incentives 
to create an instructional environment that is continually focused on 
advancing student learning. Attracting, developing, and supporting 
excellent teachers is crucial to our mission because the student 
achievement goals of DC Prep schools are simply not attainable without 
a high quality faculty.
    Since we began over four years ago, we have struggled to recruit 
our outstanding faculty from the pool of applicants we received for 
teacher and principal positions. This is a challenge faced by schools 
around the country. What's more, we find that among the applications we 
do receive, only a small percentage of them meet the standards we have 
set for teaching excellence (high expectations for all students, 
demonstrated analytical skills, and a minimum of two years urban 
teaching experience). Thus, there is a critical need both a) to ensure 
that DC Prep continues to provide an environment that attracts and 
retains the most qualified and effective teachers, and b) to expand the 
number of teachers with the requisite skills and knowledge to respond 
to DC Prep's growing demand. I believe TAP helps us address both of 
those needs.
Introduction of TAP at DC Prep
    After our first two years of operation of DC Prep Edgewood, a 
middle school serving grades four through eight, DC Prep began 
discussions with NIET about implementing the Teacher Advancement 
Program (TAP), . During our initial years, we had achieved some early 
academic gains with students who historically were not achieving at the 
levels necessary to enter competitive college preparatory high schools. 
Yet after achieving these gains, our student's achievement scores began 
to plateau and were not reaching the levels necessary to enable the 
majority of our students to enter top high schools.
    We realized there was a tremendous need to implement a support 
structure that enabled teachers to continually improve the 
effectiveness of their instruction if students were going to continue 
improving academically. TAP had an established track record of success 
with similar teachers and students in other high need schools. The 
method for achieving these results was an intensive focus on increasing 
teacher quality through a comprehensive program that included 1) school 
based professional development led by Master and Mentor teachers, 2) 
career opportunities for teachers to take on additional roles and 
responsibilities with additional pay without leaving the classroom, 3) 
a fair, rigorous and objective evaluation system for teachers and 
principals implemented and overseen by their colleagues, and 4) 
performance based pay incentives for teachers and principals. DC Prep 
began implementing TAP in the fall of 2005 with the first year serving 
as a ``practice'' year, where all aspects of the program were 
incorporated, but no performance bonuses were awarded.
Student Achievement Results with TAP in the Pilot Year
    TAP has been instrumental in building a professional learning 
community at DC Prep Edgewood where teachers feel both supported and 
challenged to refine and deepen their craft. This has been done through 
TAP by fostering a culture of continuous professional growth and 
reflection, creating multiple career paths for teachers, and rewarding 
effective teaching as demonstrated by student achievement. The 
introduction of weekly TAP cluster groups--small groups of teachers 
discussing instructional skills and strategies for students--along with 
bi-monthly interim assessments has ensured periodic monitoring of 
student progress and given faculty the data and skills to continuously 
tailor instruction to areas of academic need throughout the school 
year.
    When asked how TAP has impacted her own teaching, one DC Prep 
language arts teacher responded TAP has raised the level of 
professionalism in our school community and created a culture of 
reflective practitioners who strive to be the best teachers they can 
be. Personally, the support and coaching which TAP has provided to me 
has allowed me to grow tremendously as a professional and has 
ultimately made me a more effective teacher as evidenced by the growth 
of my students.
    With the support of TAP, we have been able to demonstrate success 
and ensure our students--even those who enter the school far below 
grade level--are prepared for future academic and career success. For 
example:
    <bullet> Students who have been at DC Prep for three years have 
doubled their proficiency rate in Reading and tripled their proficiency 
rate in Math compared to their peers in neighboring DC public schools, 
as measured by the DC-CAS, the public standardized test used by the 
District.
    <bullet> Roughly 60 percent of three-year veteran students (6th and 
7th graders) achieved proficiency or higher on the DC-CAS in the spring 
of 2006.
    <bullet> Parents also note positive changes in their children's 
attitudes and behaviors as a result of a DC Prep education. When 
presented with the following statement: ``Since coming to DC Prep my 
child thinks doing well in school is * * * 1 (Not Important), 3 
(Somewhat Important), 5 (Very Important),'' parent rankings averaged a 
very positive 4.7.
Career Opportunities
    One of the most powerful aspects of this program is the opportunity 
it creates for teachers to increase their skills and take on additional 
roles and responsibilities while remaining in the classroom. I became a 
mentor teacher during the first year of the program in 2005, and in 
this position was responsible for providing professional development, 
individualized support, coaching, and conducting evaluations for career 
teachers. To accomplish these tasks, I was provided with release time 
from my own classroom for several hours each week.
    This year I am serving as the Master Teacher at DC Prep Edgewood, 
overseeing a team of several Mentor Teachers. Together with the 
Principal and Assistant Principal, we make up the ``leadership team'' 
for the school and set school-wide goals based on data and student 
needs, as well as provide professional development, coaching and 
evaluation for our career teachers.
    As the master teacher, it is my role to provide ongoing, applied 
professional development, and observe, evaluate, and coach the faculty 
at DC Prep. In this role, I identify research-based strategies for 
teachers to use in addressing specific needs of students in their 
class. We identify these needs through standardized testing and 
classroom based assessments, as well as taking into account each 
teacher's individual evaluation of classroom skills and knowledge. 
After field testing the strategies to tailor them to our specific 
student population, I plan and implement clusters for teachers to learn 
the strategies for classroom implementation. Finally, I manage the 
teacher evaluation process, observing teachers in the classroom and 
providing specific and individual feedback for each teacher afterwards 
for the purpose of professional growth.
    Being involved in TAP has expanded my influence beyond the students 
in my classroom. It has allowed me to develop my own teaching 
expertise, which has brought instruction in my classroom to a higher 
level. As I work closely with other teachers to develop better 
instructional techniques throughout our school, their students are also 
positively impacted. Further, I've been able to connect with other 
outstanding educators throughout the country, which has expanded my 
scope of understanding about successful teaching techniques and 
strategies. Because of these opportunities, I continue to be motivated 
and excited by my profession.
    The importance of support, coaching, and career advancement within 
the classroom environment cannot be overstated. When I began my 
teaching career, I felt daunted by the prospect of having the same job 
responsibilities for the rest of my life. I did not know how to reach 
all of my students and I felt isolated and unsure how to move forward. 
Still, I loved being in the classroom and was hungry for a way to grow 
professionally in a way that would make a significant impact on student 
achievement. Without the support and knowledge I have gained through 
TAP, and the opportunity to take on new roles and challenges as a 
Mentor and now a Master Teacher--opportunities that have advanced my 
career and skills but kept me connected to teaching students in the 
classroom--it is likely I would not still be teaching. I certainly 
would not be as effective a teacher as I am.
Performance Pay
    DC Prep did not award performance pay in its first year of TAP 
since we treated this as a practice year. This past year was the first 
year teachers received performance pay bonuses. I believe the 
establishment of performance pay at DC Prep is one factor that has 
helped to focus teachers on the specific student achievement goals we 
have for our students. Bonuses for increased student achievement do not 
by themselves improve teacher skills, but they do provide concrete 
goals for teachers and they reward and acknowledge outstanding effort. 
The other aspects of TAP--professional support, coaching, evaluation 
and career opportunity--are essential to complement performance pay as 
they provide a mechanism for teachers to improve their practice and to 
increase student achievement on a consistent basis.
    Since implementing TAP at DC Prep, we have been able to recruit 
outstanding teaching professionals who I believe typically would not 
have stayed in the teaching profession. On the math team last year, we 
had a teacher who had been a successful technology consultant as well 
as another who was an experienced engineer. Both of these teachers were 
high-achieving in their first careers, but came to teaching for the 
altruistic reasons typically attributed to many who join the teaching 
profession. However, my experience is that good intentions are not 
enough to compel the best and the brightest to stay in a profession 
that can be isolating and challenging with no clear path to success. 
Policies promoting performance based pay need to do more than simply 
offer financial incentives and bonuses. They need to provide a 
mechanism for intelligent, highly motivated individuals to become and 
remain teachers who make a positive impact on student achievement.
Teacher Retention and Satisfaction
    Entering our third year with TAP at DC Prep, we have found it has 
had a positive impact on both teacher satisfaction and retention. While 
teachers at DC Prep are already highly motivated and professional 
individuals, TAP provides the structure for us to create a school-wide 
instructional environment that continuously focuses on the best 
teaching practices and student achievement. This creates an outlet for 
teachers to experiment and share ideas, improve instruction within the 
classroom, and advance student learning together, while providing 
support and development training. This has been invaluable in our work 
to keep our students on the upward path to higher achievement as well 
as our efforts to attract and retain the most qualified, highly-
motivated faculty. TAP is the reason many teachers choose our school 
over others, and it is one of the reasons these outstanding teachers 
remain at our school. It is a key ingredient to our success.
    We recently received the results from the standardized test our 
children take to show progress for the No Child Left Behind Act. Over 
the past four years, our average new 4th grader comes to DC Prep about 
40 percent behind the national average achievement in math and reading. 
It is our mission to make up that gap in the five years they spend with 
us. We had our first graduating class this past spring, and so we 
looked forward to our scores with anticipation. As the head of the math 
team, I was particularly eager to see our math scores. As has been 
typical for us, fewer than 40 percent of our 4th graders scored 
proficient or better on the math test. The longer our students had been 
at the school, the higher their scores: 65 percent of our 6th graders 
and 87 percent of our 8th graders scored proficient or better this past 
year in math. While there are many factors that contribute to student 
success, much of the credit for this incredible improvement lies with 
the faculty of our school. TAP has been a successful tool for us to be 
able to recruit, train, support, and reward our faculty for creating 
this kind of achievement.
Performance Based Pay One Part of Comprehensive Teacher Quality 
        Solution
    Performance based pay systems should be a small part of a 
comprehensive plan to improve the recruitment, retention, and training 
of quality teachers. In our experience at DC Prep, TAP is a vehicle for 
attracting more qualified candidates to our school because they know 
they will be supported to improve and rewarded with high student 
achievement. The performance based pay incentives within TAP provide a 
focus for teachers in their work, afford them opportunities to advance 
and make a greater impact, and recognize their significant 
contributions in a tangible way.
                                 ______
                                 
    Chairman Miller. Thank you very much. I was remiss; I want 
to say I was honored to be at the ceremony when you received 
the Milken Foundation Prize as educator of the year.
    Ms. Hughes. Thank you, I was honored.
    Chairman Miller. I was honored to be at your school 2 weeks 
ago. I spent most of my time trying to teach the students how 
to be a pirate, but we got along famously. But thank you for 
gathering the educators that you did on that morning so that I 
could hear a cross-section of thought about No Child Left 
Behind.
    Chairman Miller. Ms. Rooker.

    STATEMENT OF KATHLEEN ROOKER, PRINCIPAL, NEIL ARMSTRONG 
                       ELEMENTARY SCHOOL

    Ms. Rooker. Thank you for welcoming me here today, Mr. 
Chairman. I would hire you anytime.
    Chairman Miller. You may have to.
    Ms. Rooker. I speak to you today, though, from the school 
house level. I am a school principal and so many of us school 
principals agree on the intent of this act. No child should 
ever enter a classroom unless there is a well qualified and 
certified teacher standing at that door. No child should be in 
a classroom unless good teaching and learning take places every 
day in that room. And no child should enter a classroom unless 
their teacher sees them as a worthwhile and capable individual 
and learner.
    Schools should be held to a high level of accountability as 
they are responsible for our most special resource, our 
children. This act hoped to put a stop to the schools that 
failed to live up to that obligation, our D and F schools. But 
along the way, as it addressed the failing schools, there were 
some unexpected and unwelcome consequences involving successful 
Title I schools.
    Two and a half years ago I was appointed principal at Neil 
Armstrong Elementary School, Charlotte County, Florida, a Title 
I school that had not made AYP previously for 3 consecutive 
years. The percentage of students at Neil Armstrong on free and 
reduced lunch is the highest in the district. The school also 
is a center school for the District for ELL learners and 
children with cognitive disabilities such as autism.
    There were no changes in staff made when I took on the 
principalship. The staff focused on aligning their teaching 
goals with State standards. Teaching strategies were based on 
research-based strategies that have the best research base that 
they will make the positive difference in academic achievement 
in children.
    At the end of my first year there, 05-06, the school made 
AYP for the very first time. During this past school year, 06-
07, we continued our emphasis on power standards and research-
based strategies. On State accountability tests the percentage 
of students meeting high standards of reading improved from 71 
percent to 82 percent from the previous year. In mathematics 
the percentage meeting high standards improved from 62 percent 
to 87 percent. The percentage making learning gains in reading 
improved from 65 to 77 percent, while the percentage making 
learning gains in math improved from 66 to 80 percent. The 
percentage of that lowest quartile making gains in reading 
improved from 69 percent to 80 percent, while 74 percent, the 
lowest quartile, made gains in math.
    The excitement grew at our school about the gains in 
student achievement as the State of Florida rewarded school 
grades to the school districts and individual school. I am 
fortunate to work in a school district that has been graded an 
A consistently.
    In order to receive a grade of A, a school must achieve 525 
points. These points are awarded based on the percentage of 
students meeting high standards as well as the percentage 
making learning gains and the percentage of students moving out 
of that lowest quartile.
    Neil Armstrong was awarded 620 points. That was the highest 
number of points in the District and ranked us 17th among the 
entire State of Florida. The school was ready to enjoy the 
distinction of having two consecutive years of AYP. Certainly 
since school achievement was up double digits from the previous 
year when we made AYP, 06-07 AYP would be no problem.
    Unfortunately, Neil Armstrong did not make AYP despite 
these double-digit improvements in math and reading. Regardless 
of the significant academic improvement from the previous year 
when the school was judged as making AYP, the school was 
required to begin the year by sending out a letter to every 
parent of every student identifying our school as a school in 
need of improvement. Parents were offered an opportunity to 
send their children to another school and were offered 
supplemental educational services. Our outstanding staff was 
heartbroken. Should our school not make AYP this year, despite 
our outstanding academic achievement, we will be forced to 
redesign our school and we will be forced to redesign our staff 
and administration.
    Neil Armstrong succeeds when students succeed. Our students 
are succeeding, yet the evaluation of our school is based on a 
flawed process. Success or failure is based on a single test 
score. Neil Armstrong with disabilities and Hispanic students 
were not capable test takers that day. Students that are not 
capable test takers will label a school a school in need of 
improvement. A school labeled as a need of improvement faces 
punitive sanctions. Instead of celebrating our academic 
achievements with the community or students and staff, we are 
busy transferring students to neighboring schools, finding new 
bus routes to get students there, and trying to explain to some 
less than capable supplemental educational services providers 
what a school academic goal should even look like, because some 
of them have not a clue.
    We are chasing down parents until we get a response from 51 
percent of our parents as to whether they wish the service of 
an SES provider or not. Our community and our students deserve 
a better use of our time. Schools believe in value effective 
and comprehensive accountability systems, but an accountability 
system that is just keeping a single score and makes victims 
out of schools is not an accountability system that gives much 
information about classroom teaching and learning or about 
teaching practices and curriculum. It is a system that ignores 
the indicators of a viable school curriculum.
    I thank you for this opportunity.
    [The statement of Ms. Rooker follows:]

   Prepared Statement of Kathleen Rooker, Principal, Neil Armstrong 
                           Elementary School

    Two and one half years ago I was appointed principal of Neil 
Armstrong Elementary School in Charlotte County, Florida, a Title 1 
school that had not made AYP for three consecutive years. The 
percentage of Neil Armstrong students on free and reduced lunch is the 
highest in the district. The school also is a center school for English 
Language Learners and students with cognitive disabilities such as 
autism.
    There were no changes in staff made when I assumed the 
principalship. The staff focused on aligning their teaching goals with 
state standards. Teaching strategies were based on researched based 
strategies that have positive effects on student learning. At the end 
of the 05/06 school year, the school made AYP for the first time.
    During the past school year (06/07) we continued our emphasis on 
power standards and researched based teaching strategies. On the state 
accountability tests the percentage of students meeting high standards 
in reading improved from 71% to 82% from the previous year. In 
mathematics the percentage meeting high standards improved from 62% to 
87%. The percentage making learning gains in reading improved from 65% 
to 77% while the percentage making learning gains in math improved from 
66% to 80%. The percentage of the lowest quartile making gains in 
reading improved from 69% to 80% while 74% of the lowest quartile of 
students made gains in math.
    The excitement about the gains in student achievement grew as the 
state of Florida rewarded school grades to school districts and 
individual schools. Charlotte County is an outstanding school district 
and has consistently been awarded a grade of A. In order to receive a 
grade of A, the school must earn at least 525 points. Points are 
awarded based on the percentage of students meeting high standards as 
well as the percentage making learning gains and the percentage of the 
lowest quartile that make learning gains. Neil Armstrong was awarded 
620 points, the highest number of grade points in the district and 17th 
among all public schools in Florida. The school was ready to enjoy the 
distinction of 2 consecutive years of earning AYP. Certainly, since 
student achievement was up by double digits from the previous year when 
the school made AYP, 06/07 AYP would be no problem.
    Unfortunately, Neil Armstrong did not make AYP despite these double 
digit improvements in math and reading. Regardless of the significant 
academic improvement from the previous year when the school was judged 
as making AYP, the school was required to send a letter to every parent 
of a student at the school identifying it as a school ``in need of 
improvement''. Parents were offered an opportunity to send their child 
to another school and were offered Supplemental Educational Services. 
Our outstanding staff was heartbroken. Should the school not make AYP 
this year, despite outstanding academic achievement, we will be forced 
to redesign our school.
    Neil Armstrong succeeds when students succeed. Our students are 
succeeding. Yet the evaluation of our school is based on a flawed 
process. Success or failure is based on a single test score. Neil 
Armstrong students with disabilities and Hispanic students were not 
capable test takers. Students that are not capable test takers will 
label a school a ``school in need of improvement.''
    A school labeled as ``in need of improvement'' faces punitive 
sanctions. Instead of celebrating our academic achievements with the 
community, students and staff, we are busy transferring students to 
neighboring schools, finding new bus routes to get students there, 
trying to explain to some less that capable SES providers what an 
academic goal should look like, and chasing down parents until we can 
get a response from at least 51% of them as to whether they wish to use 
the service of an SES provider. Our community and students deserve a 
better use of our time.
    Schools believe and value effective and comprehensive 
accountability systems. But an accountability system that is just 
keeping a single score and makes losers out of schools is not an 
accountability system that gives much information about classroom 
teaching and learning or about teaching practices and curriculum. It is 
a system that ignores the indicators of a viable school curriculum.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Miller. Mr. Weaver.

    STATEMENT OF REG WEAVER, PRESIDENT, NATIONAL EDUCATION 
                          ASSOCIATION

    Mr. Weaver. When I came before you in March at the outset 
of the SEA reauthorization process, I expressed hope that we 
would have an opportunity for renewed broad and bold and 
national discussion about how to improve and support public 
education.
    Mr. Chairman, in July you indicated that No Child Left 
Behind, as it has played out in the field, is not fair, not 
flexible and not funded and we agree. So this is an opportunity 
for a major course correction, and for us it is about more than 
fixing No Child Left Behind's accountability provisions. Our 
members care deeply about this process and its outcome because 
they have lived for more than 5 years under a system that was 
crafted without enough of their input and has had negative 
unintended consequences. They are counting on a thoughtful 
process this time and a bill that recognizes the flaws of the 
current test label punish theory of education reform.
    The bottom line is this. We do not believe the committee'S 
first discussion draft of Title I adequately remedies the 
problematic provisions of the current law. The draft provisions 
around growth models and meaningful multiple measures are too 
rigid. They do not represent a greater fairness or flexibility. 
They represent more one-size-fits-all approach prescriptions 
from the Federal level. And this reauthorization should send a 
message to students that they are more than just a test score. 
We should be sending a message to educators that the art and 
practice of teaching is and must be about more than just test 
preparation.
    Unfortunately, this draft misses the mark about how to 
adequately serve and educate all children. It avoids, once 
again, the more difficult discussion of what services and 
outcomes are important for all stakeholders to be held 
accountable. We have been hopeful that this reauthorization 
finally would address the fundamental truth and the real 
education accountability. And that real education 
accountability is about shared responsibility to remedy 
intolerable opportunity gaps. Yet, 50 years after Brown v. the 
Board, too many policymakers at all levels still seem unwilling 
to do anything but point the finger and avoid responsibility. 
It is time to force a dialogue about how to share in that 
responsibility.
    In reviewing the committee draft, we find an entirely 
insufficient focus on the elements of our positive agenda that 
would truly make a difference in student learning and success. 
These include class size reduction, safe and modern facilities, 
early childhood education, and a real attempt to infuse 21st 
century skills and innovation into our schools. We find no 
recognition of the impact of teaching and learning conditions 
on teacher recruitment and retention, particularly in the 
hardest-to-staff schools. Instead we find more mandates and 
even more prescriptive requirements.
    We are greatly disappointed that the committee has released 
language that undermines educators' elective bargaining rights. 
This is an unprecedented attack on a particular segment of the 
labor community, the Nation's educators.
    Finally, let me address a point about which there should be 
no mistake. NEA cannot support Federal programs, voluntary or 
not, that mandate pay for test scores. To mandate a particular 
evaluation or compensation term of a contract would be an 
unprecedented infringement upon collective bargaining rights as 
well as protections. We think this to be offensive and 
disrespectful of educators.
    We are not able to support the Title I or Title II 
discussion draft as it is currently written. We are hopeful 
that the committee will take the time to get it right. Our 
members are not afraid of those who hurl accusations about what 
is in their heart every day when they teach and care for our 
Nation's young people. Our members are united and will stand 
firm in our advocacy for a bill that supports good teaching and 
learning and takes far greater steps toward creating great 
public schools for every child.
    Thank you, Mr. Chairman and committee.
    [The statement of Mr. Weaver follows:]

    Prepared Statement of Reg Weaver, President, National Education 
                              Association

    Chairman Miller, Ranking Member McKeon, and distinguished Members 
of the Committee, on behalf of the 3.2 million members of the National 
Education Association, thank you for inviting us to speak with you 
today about the reauthorization of the Elementary and Secondary 
Education Act (ESEA).
    When I came before you in March at the outset of this process, I 
expressed our members' hope that this ESEA reauthorization would 
finally offer an opportunity for a renewed, broad, and bold national 
discussion about how to improve and support public education. I shared 
with you that I had appointed a very thoughtful and diverse committee 
of our members to help outline what, in our view, would be a positive 
reauthorization of ESEA. They worked for over two years--hearing from 
experts, digesting volumes of research, and listening to practitioners 
across the country--to come up with not just recommendations about how 
to change AYP, but substantive, thoughtful recommendations about how to 
define and create a great public school for every child.\1\
---------------------------------------------------------------------------
    \1\ ESEA: It's Time for a Change! NEA's Positive Agenda for ESEA 
Reauthorization, http://www.nea.org/lac/esea/images/posagenda.pdf.
---------------------------------------------------------------------------
    Simply put, this reauthorization is and should be about more than 
tweaking the No Child Left Behind portions of ESEA. It should be a 
comprehensive examination of whether federal policies follow what the 
research says about how children learn and what makes a successful 
school.
    Mr. Chairman, in July you indicated that No Child Left Behind as it 
has played out in the field is not fair, not flexible, and not funded. 
We agree. So, this is the opportunity for a major course-correction. As 
we speak, our ESEA Advisory Committee, as well as our members and 
affiliates, are still analyzing the Title I draft just released last 
week to determine what the proposed changes would mean in their state 
and district systems and, more importantly, whether they will improve 
America's classrooms for our students. And, these same members and 
affiliates will also begin analyzing the 601 pages for the remaining 
titles released just days ago. We will use those analyses to inform 
this Committee about the impact of the proposals across the country.
    It is important that you all understand that our members care 
deeply about this process and its outcome because they have lived for 
more than five years under a system that was crafted without enough of 
their input and that has proven to be unworkable and in too many cases 
has had negative, unintended consequences. They are counting on a 
thoughtful process this time and a bill that recognizes more than just 
the technical flaws with the statute, but the conceptual and 
philosophical flaws of the current test-label-punish theory of 
education reform.
    The bottom line is this: While we applaud the Committee for 
identifying most of the problematic provisions of the current law, we 
do not believe the Committee's first discussion draft of Title I 
adequately remedies them.\2\
---------------------------------------------------------------------------
    \2\ We have previously provided the Committee with detailed 
comments about the Title I discussion draft.
---------------------------------------------------------------------------
    We are pleased that the draft includes the concepts of growth 
models and multiple measures in an attempt to get a more accurate 
picture of student learning and school quality. These provisions, 
however, are inadequate, as the accountability system the Committee 
envisions still relies overwhelmingly on two statewide standardized 
assessments. This does not give real meaning to the growth model and 
multiple measure concepts and defies the advice of assessment experts 
across the country, some of whom are here today.
    For example, shouldn't we truly value the percentage of students 
taking Advanced Placement or honors courses not only as an indicator of 
the number of students receiving a more challenging educational 
experience, but also as some indication of areas where access to these 
curricular offerings is limited? We do not believe that prescribing a 
limited list of measures that states can use and not allowing them to 
propose other indicators in crafting meaningful accountability systems 
is in keeping with measurement experts' guidance about multiple sources 
of evidence. We do not believe this represents greater fairness or 
flexibility. Rather, it represents more one-size-fits-all prescription 
from the federal level.
    Again, this reauthorization for us is about more than fixing AYP 
and other provisions that have been problematic; it's about recognizing 
that providing a quality education to every student takes more than a 
measurement system. It's about sending a message to students that they 
are more than just test scores. We should care as much OR MORE about 
whether a child graduates after receiving a comprehensive, high-quality 
education as we do about how he or she performs on a standardized test. 
We should be sending a message to educators that the art and practice 
of teaching is and must be about more than test preparation. If the 
only measures we really value are test scores, rather than some of the 
other indicators of a rich and challenging educational experience and 
set of supports provided to students, then we will have missed the mark 
again about adequately serving and educating all children. We will have 
avoided yet again the more difficult discussion of what services AND 
outcomes are important for all stakeholders to be held accountable.
    We should all keep in mind that the original purpose of ESEA was to 
attempt to remedy disparities in educational opportunities and 
resources for poor children. To that end, we have been hopeful that 
this reauthorization finally would address the fundamental truth that 
real education accountability is about shared responsibility to remedy 
intolerable opportunity gaps.
    Again, as I stated in March, if one of our goals is to remedy 
achievement and skills gaps that exist among different groups of 
students in this country, we cannot do so without also addressing 
existing opportunity gaps. Why is it that 50 years after Brown vs. 
Board, and after 30 years of litigation in 44 states to address 
equitable and adequate educational opportunities and resources, policy 
makers at all levels still seem unwilling to do anything but point 
fingers and avoid the responsibility to tackle this insidious problem, 
which continues to plague too many communities and students? This is 
about more than disparities in per pupil spending across states, within 
states, and within districts; it's about disparities in the basics of a 
student's life--disparities in the learning environments to which 
students are subject, disparities in the age of their textbooks and 
materials, disparities in course offerings, disparities in access to 
after-school help and enrichment, and yes, disparities in access to 
qualified, caring educators.
    Given the fact that so many Title I students are not fully served 
due to current funding levels and historically haven't been, we have 
been hopeful that THIS reauthorization would mark an opportunity to 
address these inequities from a policy standpoint, not just an 
appropriations standpoint. It's past time to stop pointing fingers 
about whose responsibility it is to address opportunity gaps. It's time 
to force a dialogue about how to share in that responsibility.
    In a preliminary reading of the remaining titles of the Committee's 
ESEA reauthorization discussion draft,\3\ we find an entirely 
insufficient focus on the elements of our Positive Agenda that would 
truly make a difference in student learning and success. These include 
early childhood education, class size reduction, safe and modern 
facilities, and a real attempt to infuse 21st century skills and 
innovation into our schools to ensure that public education in this 
country is relevant and engaging to students in the changing, inter-
dependent world. We can find no significant discussion of the fact that 
teaching and learning conditions are one of the two main factors (low 
salaries being the other) that continue to create the teacher 
recruitment and retention problem, particularly in the hardest to staff 
schools.
---------------------------------------------------------------------------
    \3\ We will provide a detailed analysis of the remaining titles of 
the Committee's draft by the Committee's September 14th deadline.
---------------------------------------------------------------------------
    Instead, there are more mandates and even more prescriptive 
requirements. This will detract from the essential element of public 
education: good teaching and learning. More mandates aren't magically 
going to make kids read at grade level or perform math on grade level. 
Tweaks to the measurement system won't ensure that students perform any 
better on assessments. Good teaching practice, involved parents and 
communities, and engaged students will do that.
    We are gravely disappointed that the Committee has released 
language in Title I and Title II that undermines educators' collective 
bargaining rights. This is an unprecedented attack on a particular 
segment of the labor community--the nation's educators. Time and time 
again, our members in bargaining states don't simply negotiate about 
money, they negotiate about the very conditions that impact teaching 
AND learning. In almost every circumstance, those conditions--class 
sizes, professional development, collaborative planning time to name 
just a few--have a direct impact on students.
    Finally, let me address a point about which there should be no 
mistake. NEA cannot support federal programs--voluntary or not--that 
mandate pay for test scores as an element of any federal program. 
Teachers aren't hired by the federal government; they are hired by 
school districts. As such, the terms and conditions of their employment 
must be negotiated between school districts and their employees. To 
attempt to enact any federal program that mandates a particular 
evaluation or compensation term of a contract would be an unprecedented 
infringement upon collective bargaining rights and protections.\4\ This 
is offensive and disrespectful to educators.
---------------------------------------------------------------------------
    \4\ We have attached to this testimony a more detailed explanation 
of our views regarding professional pay for educators.
---------------------------------------------------------------------------
    We are not able to support the Title I or Title II discussion draft 
as currently written. We are hopeful that the Committee will take the 
time to get this right. In essence, we urge you not to rush to mark up 
a bill that would lead to yet another set of unintended consequences.
    In closing, I want to emphasize that our members are not afraid of 
those who hurl accusations about what's in their hearts every day when 
they teach and care for our nation's students. Our members are united 
and will stand firm in our advocacy for a bill that supports good 
teaching and learning and takes far greater steps toward creating great 
public schools for every child.
       appendix.--professional pay for the profession of teaching

                             July 23, 2007

    The profession of teaching should offer a brilliant and rewarding 
field for professionals committed to the success of their students. 
Unfortunately, today's teachers still struggle with fundamental needs. 
Too often, teachers barely make ends meet, find insufficient support 
for quality professional development and are inconsistently compensated 
for assuming additional, demanding responsibilities.
    Compensation systems must be designed to firmly establish teaching 
as a respected profession and improve student learning through improved 
teacher practice. A comprehensive pay system must support factors shown 
to make a difference in teaching and learning--the skills, knowledge, 
and experience of classroom teachers.
    NEA supports key strategies that can meet these goals. 
Congressional leadership can accelerate the advancement of the 
profession of teaching and improve conditions for student learning 
through the actions outlined here.
    1. Express support for improved starting salaries.
    We know that quality teachers are the key to providing Great Public 
Schools for Every Student. In order to attract and retain the very 
best, we must pay teachers a professional level salary. We must ensure 
a $40,000 minimum salary for all teachers in every school in this 
country. While that is primarily a state and local government 
responsibility, Congress can express support for this minimum salary in 
the ESEA reauthorization.
    2. Through congressional action, take advantage of the flexibility 
of salary schedules now in place to offer incentives for teachers to 
gain additional skills and knowledge and for taking on challenges and 
additional responsibility.
    Compensation systems now have the flexibility to accommodate some 
immediate changes. Congressional action that takes advantage of what is 
already in place will make more of a difference, faster, than trying to 
reinvent the system.
    NEA recognizes the need in many jurisdictions to bargain (or 
mutually agree to, where no bargaining exists) enhancements to the 
current salary schedule. NEA already supports many ideas to enhance the 
single salary schedule. Congressional support for diverse approaches 
could spur needed change and enable local school districts to tailor 
action to their specific educational objectives.
    NEA supports:
    <bullet> Incentives to attract qualified teachers to hard-to-staff 
schools.
    <bullet> Incentives for the achievement of National Board 
Certification.
    <bullet> Incentives for teachers to mentor colleagues new to the 
profession.
    <bullet> Incentives for accepting additional responsibilities such 
as peer assistance or mentoring.
    <bullet> Additional pay for working additional time through 
extended school years, extended days, and extra assignments.
    <bullet> Additional pay for teachers who acquire new knowledge and 
skills directly related to their school's mission and/or their 
individual assignments.
    <bullet> Additional pay for teachers who earn advanced credentials/
degrees that are directly related to their teaching assignments and/or 
their school's mission.
    <bullet> Group or school-wide salary supplements for improved 
teacher practice leading to improved student learning, determined by 
multiple indicators
    3. Include in the ESEA reauthorization a competitive grant program 
that provides funds on a voluntary basis to states and school districts 
to implement innovative programs such as those listed in item two.
    ESEA offers the opportunity to provide incentives to strengthen the 
profession of teaching. In constructing those incentives, NEA believes 
that federally-supported programs will be most effectively implemented 
when teachers have the opportunity to understand them and option to 
embrace them. Therefore, any such federal program for compensation 
innovations must require that such program be subject to collective 
bargaining, or where bargaining does not now exist, subject to a 75 
percent majority support vote of the affected teachers.
    4. NEA opposes federal requirements for a pay system that mandates 
teacher pay based on student performance or student test scores.
    There are innumerable reasons for steering away from such schemes: 
tests are imperfect measures; student mobility in a given district or 
classroom might be high, skewing the system; test scores are not the 
only measure of student success; single year test scores do not measure 
growth. In addition, a federal mandate that requires test scores or 
student performance as the element of a compensation system undermines 
local autonomy and decision making.
    To be clear: NEA affiliates at the local and state levels are open 
to compensation innovations that enhance preparation and practice which 
drive student performance. NEA underscores that in those circumstances, 
local school administrators and local teacher organizations must work 
together to mutually decide what compensation alternatives work best in 
their particular situation. The federal government can play a role in 
providing funds to support and encourage local and state innovations in 
compensation systems, but the federal government should leave the 
specific elements to be decided at the local level.
                                 ______
                                 
    Chairman Miller. Ms. Haycock.

     STATEMENT OF KATI HAYCOCK, PRESIDENT, EDUCATION TRUST

    Ms. Haycock. Chairman Miller and members of the committee, 
thank you very much for the opportunity to testify this 
afternoon. As I think many of you know, I and my colleagues at 
the Education Trust spend most of our time not here in 
Washington, but in schools in districts around the country.
    Our experiences over the last couple of years have left us 
very much encouraged about the impact of your bold leadership 
to date. Schools across the country are unquestionably more 
focused on student learning. And we are no longer sweeping the 
underperformance of some groups of kids underneath the rug. But 
though the data unquestionably shows some progress, it is a 
sobering reminder of how much remains to be done.
    Today, roughly six in ten of our African and Latino fourth 
graders can't even read at the basic, much less the proficient 
level. That means in other words that today a majority of our 
African American and Latino kids at fourth grade cannot read. 
If you look up at the 12th grade, what you see very clearly is 
African American and Latino youngsters performing in both 
reading and math at about the same level at their white eighth 
grade counterparts.
    No matter how you think about our future as a country, 
whether it is in economic terms or in terms of the health of 
our democracy, what is clear is this: We continue to need to 
stretch goals. We cannot back down now. Clear and high goals, 
in other words, are hugely important if we are both going to 
raise overall achievements in this country, but also close once 
and for all the gaps between groups that have haunted us for so 
long.
    As Mr. Miller said so clearly in this morning's Washington 
Post, however, we are not going to get there with just goals 
alone. We have to close the gaps in teacher quality as well. 
Let me be clear here. I do not want to suggest that there 
aren't some great teachers in high poverty schools. There 
certainly are. And I get a chance to watch some of those 
teachers almost every week. But no matter which measure of 
teacher quality you use, it is very clear that high poverty 
schools and the children they serve continuously come up on the 
short end.
    Certainly teachers are not the only things that matter in 
terms of student achievement. Curriculum matters a lot, 
effective principals matter a lot, and so do parents. We all 
certainly know that. But overwhelming evidence makes it 
abundantly clear that teachers matter more than anything else. 
The students who have a sequence of strong teachers in a row 
will soar, no matter what their family background, or kids that 
have two or three weak teachers in a row literally never 
recover.
    Now, largely because of your leadership back in 2000-2001, 
NCLB itself addressed issues of teacher quality much more 
thoroughly than any previous iteration of the Elementary and 
Secondary Act. But as I know you all know, we didn't make 
anywhere near the kind of progress that you had hoped to bring 
about in a fair distribution of teacher talent.
    We have learned a lot along the way about how to do even 
better. In our judgment, the discussion draft that you produced 
does a terrific job of addressing almost all the lessons that 
we have learned to date, including the need for better data 
systems, a need for increased clarity--which actually means 
when you say the poor kids deserve their fair share of strong 
teachers--and also providing generous support for teachers to 
work in and succeed in high poverty schools.
    Two provisions are hugely important. Number one, first 
among these is really the proposed changes in the comparability 
requirements of the law. As I think all of you know, current 
Federal law is based on a fundamental fiction. It is the idea 
that a school within a district gets the same amount of State 
and local dollars as its neighbor across town and that Federal 
dollars come to you if you have more poor kids so you can 
provide them extras on top of that even base.
    Unfortunately, the comparability test that you provided in 
current law makes that a fiction, because you allow the 
exclusion of teacher salary, which is the majority of school 
budget from those calculations.
    Our research in California, and Texas and elsewhere shows 
what that means is that schools that are predominantly black, 
or Hispanic or high poverty in a district may get a quarter 
million or a half million, if they are a high school, maybe 
even a full million dollars less than the exact same school on 
the other side of town that has more wealthy kids. That is a 
real abuse. It is a rip-off Federal dollars that are intended 
to provide more to poor kids and provides Federal cover for a 
deep injustice.
    Thankfully, your proposed provisions will end that once and 
for all. We hope you don't back down.
    The second, though, is lets be clear. Nobody wants to 
attain a better balance of teacher talent by dragging teachers 
kicking and screaming from one school to another. Nobody wants 
to do it that way. To achieve that goal, districts need to make 
schools with lots of poor kids attractive to teachers to teach.
    The committee draft takes important steps enabling schools 
to do that by dealing with these resource questions, by 
authorizing incentive and performance pay, and by continuing 
the concentrations of Title II dollars in the districts that 
serve the most poor kids. You could, and we hope will, go one 
step further to make sure those Title II dollars get to the 
schools that actually need them the most.
    In the weeks ahead I have no doubt that you will 
undoubtedly get a lot of pushback about those provisions. They 
will be labored a big Federal intrusion, robbing Peter to pay 
Paul, a Robin Hood scheme, just to name a few. I hope you 
remain steadfast in your commitment to right that wrong. Nobody 
has suggested that poor kids need to have all of the good 
teachers, we have only asked that they get their fair share. 
Given the huge importance of quality teachers, that is common 
sense and it is also common decency.
    Thank you, sir.
    Chairman Miller. Thank you.
    [The statement of Ms. Haycock follows:]

   Prepared Statement of Kati Haycock, President, the Education Trust

    Mr. Chairman, Mr. McKeon, and Members of the Committee, thank you 
for providing me with the opportunity to testify before you this 
morning on the reauthorization of the No Child Left Behind Act, in 
particular about the teacher quality provisions.
    This Committee has shown great leadership not only in confronting 
the achievement gap in our public schools, but also in recognizing that 
improving the quality of teaching at high-poverty and high-minority 
schools is the most effective gap-closing strategy. While the No Child 
Left Behind Act (NCLB) addressed teacher quality issues more directly 
and thoroughly than in any previous authorization of the Elementary and 
Secondary Education Act, it is has not yielded all the needed and 
hoped-for change. There is still much to do. And there are some very 
clear ``lessons learned'' from the last five years that point toward 
more effective policies.
    The Committee's discussion draft embraces many of those lessons and 
proposes important and constructive changes to the current law. The 
draft, however, leaves one huge problem unaddressed.
    The positive changes in the draft include:
    <bullet> Support for better information and data management systems 
that will allow state and local policymakers and administrators to make 
informed, rational and just decisions about the deployment of teacher 
talent;
    <bullet> Increased clarity about Congressional intent on the 
equitable distribution of teachers;
    <bullet> The demand for real fiscal comparability between Title I 
and non-Title I schools; and
    <bullet> Powerful incentives and supports for teachers to work at 
and succeed in hard-to-staff schools.
    There is, however, some unfinished business in the draft. It 
neglects to correct one of the most glairing shortcomings of the 
original law. The current law fails to target Title II funds to the 
hardest-to-staff or highest-poverty schools. And the draft, as it 
stands, makes the same mistake. While it is the clear intent of the law 
that these funds reach these schools, we know from the experience of 
the last five years that without clear direction from Congress, Title 
II money will not benefit the schools that need the most help.
We Know That Good Teachers Make an Enormous Difference
    Researchers are finding that strong teachers make a huge difference 
for our most educationally vulnerable kids.
    <bullet> Researchers in Texas concluded in a 2002 study that 
teachers have such a major impact on student learning that ``* * * 
having a high quality teacher throughout elementary school can 
substantially offset or even eliminate the disadvantage of low socio-
economic background.'' \1\
    <bullet> A recent analysis of Los Angeles public school data 
concluded that ``having a top-quartile teacher rather than a bottom-
quartile teacher four years in a row would be enough to close the 
black-white test score gap.'' \2\
    <bullet> A second study in Texas showed that the teacher's 
influence on student achievement scores is twenty times greater than 
any other variable, including class size and student poverty.\3\
But the Students Who Most Need Good Teachers Don't Get Them.
    Despite these and other studies that document the tremendous power 
that great teachers have to help students overcome the burdens of 
poverty and racism, we persist in providing those who need the most 
from their teachers with the teachers who have the very least to offer 
them.
    <bullet> Nationally, fully 86% of math and science teachers in the 
nation's highest minority schools are teaching out of field.\4\
    <bullet> In Texas high schools with the most African American 
students, ninth-grade English and Algebra courses--key gatekeepers for 
high school and college success--are twice as likely to be taught by 
uncertified teachers as are the same courses in the high schools with 
the fewest African American students. Similarly, in the state's 
highest-poverty high schools, students are almost twice as likely to be 
assigned to a beginning teacher as their peers in the lowest poverty 
high schools.
    <bullet> And let's not just pick on Texas: Researchers reported 
recently that economically advantaged fifth-grade students in North 
Carolina were substantially more likely than other students to be 
matched with highly-qualified teachers.\5\ Across the state, African-
American seventh graders were 54 percent more likely to face a novice 
teacher in math and 38 percent more likely to have one for English, 
with the odds even greater in some of North Carolina's large urban 
districts.\6\
    <bullet> Recent research conducted by The Education Trust and 
stakeholders in Wisconsin, Ohio, and Illinois found similar inequitable 
distribution problems.\7\ In Illinois, for example, 84% of the schools 
with the most low-income students were in the bottom quartile in 
teacher quality, with more than half in the very bottom 10% of teacher 
quality. Among low-poverty schools, only 5% were in the bottom quartile 
of teacher quality.\8\
    <bullet> In 2000, teachers in the highest-poverty schools in New 
York City were almost twice as likely (28%) to be in their first or 
second year of teaching compared to teachers in the lowest-poverty 
schools (15%). Similarly, more than one in four (26 percent) students 
of color was taught by teachers who had failed the general knowledge 
certification exam, compared to only 16 percent of white students.\9\
The Effects of these Unjust Distribution Patterns on Achievement is 
        Dramatic and Devastating
    <bullet> In high-poverty, high-minority high schools in Illinois 
with above-average teacher quality, students were almost nine times as 
likely to demonstrate college-ready academic skills as their 
counterparts in other high-poverty, high-minority schools with lower 
teacher quality. Indeed, students who completed Calculus in schools 
with the lowest teacher quality were less likely to be college ready 
than their counterparts who completed only Algebra II in schools with 
medium teacher quality. The simple truth is that if you do not have 
high-quality teachers, you do not have rigorous courses, no matter what 
the course name says.
    <bullet> Research in Tennessee shows that teacher effects are 
cumulative. Students who start the third grade at roughly equal 
achievement levels are separated by roughly 50 percentile points three 
years later based solely on differences in the effectiveness of 
teachers to whom they were assigned. Students performing in the mid-
fiftieth percentiles who were assigned to three bottom-quintile 
teachers in a row actually lost academic ground over this period, 
falling to the mid-twentieth percentiles.
    <bullet> What about students who start off low-achieving, as do so 
many low-income students? Researchers from the Dallas public school 
district concluded: ``A sequence of ineffective teachers with a student 
already low-achieving is educationally deadly.''\10\
    I want to acknowledge that despite these overall trends, there are 
some truly fantastic teachers in our high-poverty schools who are 
achieving dazzling success for their students and their communities. 
Indeed, at The Education Trust we celebrate these educators and seek to 
learn from their accomplishments. But these exceptional teachers are 
exactly that--exceptions. For no matter the measure of teacher quality, 
the conclusion is always the same: low-income students and students of 
color are consistently assigned to less qualified and less able 
teachers than are their peers. These inequalities undermine their 
educations, their life chances and ultimately our collective future.
    Much of the research cited above had not been published five years 
ago when Congress passed NCLB, but the research available at the time 
was enough to convince members that the achievement gap couldn't be 
closed without addressing the teaching talent gap. Congress made an 
historic and critical attempt to focus the attention of state and local 
education leaders on assuring teacher quality and turning around unfair 
and damaging teacher distribution patterns.
    The teacher-related provisions in No Child Left Behind embody three 
basic principles:
    1. That all students are entitled to qualified teachers who know 
their subject(s) and how to teach them;
    2. That parents deserve information about their children's 
teachers; and
    3. That states, school districts and the national government have a 
responsibility to ensure a fair distribution of teacher talent.
    To accomplish these goals, Congress increased funding for teacher 
quality initiatives by 50%, from $2 billion to $3 billion per year--on 
top of significant increases in Title I, which can also be used to 
improve teacher quality. These new dollars were targeted to high-
poverty school districts, and local leaders were given nearly 
unfettered discretion to spend the money in ways that were tailored to 
local circumstances.
    Despite a sincere effort by Congress, the law has not been a 
sufficiently powerful tool to achieve the hopes of legislators or to 
meet the needs of students. Some of the failure is due to utterly 
inadequate implementation efforts by the Department of Education, some 
is due to massive resistance from powerful adult stakeholders, and some 
portion of that failure is rooted in the flaws in the statute itself.
    The discussion draft, by significantly recasting the law, addresses 
many of the problems that the original statute had, and would be a 
powerful lever of greater equity in the distribution of teachers.
Proposals Are Headed In Right Direction
            <bullet> Data to Drive Decision Making
    A major impediment to meaningful improvement is the lack, in most 
states, of data systems that are capable of analyzing whether the 
distribution of qualified and effective teachers stacks the deck 
against poor and minority students. Despite a plethora of external 
studies showing pervasive problems in the supply of strong teachers in 
high-poverty schools, most states and districts are not collecting or 
using such data to guide local efforts. Indeed, in the summer of 2006, 
when USDOE finally asked states to comply with teacher equity 
provisions of Title II, most states were unable to report even the most 
basic information on whether poor and minority students were taught 
disproportionately by inexperienced and unqualified teachers.
    Congress should provide dedicated funds to each state for the 
development and operation of education information management systems 
and set minimal requirements for such systems. One such requirement 
should be that the systems have the ability to match individual teacher 
records to individual student records and calculate growth in student 
achievement over time.
    The data systems called for in Title I of the draft--which provides 
for matching of students and teacher records and could measure 
classroom-level learning growth--coupled with the teacher needs 
assessments called for in Title II will provide objective decision-
making data to replace the good intentions and bad habits that are now 
the basis of too many education decisions.
            <bullet> Needs Assessments
    Under NCLB, local school districts were required to conduct a 
``needs assessment'' to identify the most pressing teacher quality 
problems. However, because the requirements were vague, because many 
places lacked capacity to collect the data and weren't required by 
USDOE to improve, and because there was no clear link between the needs 
assessment provisions and the use of funds, these provisions have not 
been powerful drivers for targeting Title II funds to the schools and 
teachers that need the most help.
    Under the current Committee discussion draft, however, core 
analyses are required and tightly connected to the use of Title II 
funds. For example, the proposal requires school districts to identify 
schools that have higher rates of novice teachers, schools with teacher 
attrition problems (using a three-year average), and schools with the 
most teachers on waivers or emergency credentials. By grounding Title 
II plans in measurable, actionable areas, the Committee draft, if 
adopted, would ensure a better fit between Congressional intent and 
local action.
            <bullet> Comparability
    Federal investments cannot ensure meaningful equity in public 
education unless state and local districts use their own resources 
equitably. That's why Title I has always required local school 
districts to ensure ``comparability'' in resources for Title I schools 
before Title I funds are applied. But, by ignoring teacher salaries in 
assessing comparability, current Title I law allows school districts to 
shortchange students in high-poverty schools, to cover up this theft 
with opaque accounting practices, and in the end to redirect Title I 
funds away from the low-income students Congress intends to help.
    Federal law should not contain loopholes that exclude teacher 
salaries from the determination of comparability across schools. The 
Committee is to be commended for addressing this issue, and for 
including a reasonable phase-in period. Although you are certain hear 
many loud and powerful voices asking you to turn a blind eye to this 
inequity, please know that those voices are endorsing the continuation 
of a grave and federally-sanctioned injustice that has limited the life 
chances of too many students for far too long. Closing the 
comparability loophole is simple justice and absolutely essential to 
giving Title I schools--and the students who attend them--a fighting 
chance.
            <bullet> Differential Pay Demonstration Programs
    Finally, in terms of teacher quality, we've learned that the 
federal law must compel states and districts to take more 
responsibility for staffing high-poverty schools with strong teachers. 
Part of the reason high-poverty and high-minority schools are so 
consistently shortchanged in teacher talent is because state and local 
policy fail to acknowledge that, all other things being equal, most 
teachers migrate away from the highest-poverty and highest-minority 
schools. For too long, problems with recruitment and retention have 
been seen as school problems, while states and district control many of 
the levers that create the inequities and that could be used to address 
them. For example, teachers are all paid the same, no matter if they 
teach in schools where all the students need extra support, no matter 
if they bring special skills and abilities to the classroom, and no 
matter whether they are successful or not in teaching.
    We need policies that provide better conditions and richer 
incentives so teachers can earn more pay and higher status, and get 
more support, if they are successful in schools where success has been 
all too rare. There are many proposals in the current Committee 
discussion draft that would spur innovation in this area, including 
support for ``premium pay'' in hard-to-staff, high-poverty schools, as 
well as career ladders for teachers to grow as professionals while 
staying in the classroom. These proposals were initially proposed in 
the TEACH Act, introduced by now-Chairman Miller in the last Congress, 
and were widely praised across the education community, including 
public endorsements from both of the national teachers' unions, and 
they deserve to be enacted.
    It is long past the time to move on from the anachronistic single-
salary schedules that treat teachers as if they are assembly line 
workers instead of professionals. Teachers who take on greater 
responsibility, and teachers who are more successful, should be able to 
distinguish themselves within the profession. Given that the most acute 
need for better teachers and experienced mentors is in high-poverty, 
Title I schools--and that these schools have languished without 
appropriate assistance in recruiting and retaining the strongest 
faculty--it is entirely appropriate for Congress to create these 
incentives for innovation. It is important to keep in mind that none of 
these incentive programs are mandatory; they simply are being made 
available to states and local districts that are ready to try something 
new to help their students succeed. If we are serious about closing the 
achievement gap, we cannot leave these strategies off the table.
Targeting of Teacher Quality Funds Must Still Be Strengthened
    Congress sought to seed innovations in teacher assignment and 
distribution with the creation of Title II in NCLB. Title II grants 
have provided almost $3 billion per year since NCLB was enacted--
totaling almost $15 billion--that was supposed to help states and 
districts to ensure students in high-poverty schools got their fair 
share of the best teachers. Unfortunately, the money is not getting to 
the schools that Congress sought to help the most.
    In November 2005, an audit by the Government Accountability Office 
that was requested by this Committee found that Title II was being used 
to provide professional development to teachers in general, without any 
focus on the schools or teachers most in need of help. According to the 
GAO, ``only a few of the Title II-funded initiatives were directed to 
specific groups of teachers, such as teachers in high-poverty schools 
or teachers who had not yet met the [highly qualified teacher] 
requirements of NCLBA.'' (Improved Accessibility to Education's 
Information Could Help States Further Implement Teacher Qualification 
Requirements, at page 33, Report # GAO-06-25, Government Accountability 
Office, November 2005.)
    When Title II is reauthorized, the law should ensure that money 
meant for teachers in struggling schools is spent on teachers in 
struggling schools. Title I provides a good framework for district-to-
school distribution; while local school districts retain a lot of 
discretion in how narrowly or broadly to focus the money, the highest-
poverty schools must be served first and must get the biggest per-pupil 
allocations. Adopting this approach in Title II would allow Congress to 
leave significant discretion with local officials in terms of how to 
raise teacher quality, but would ensure that focus of the federal 
investment stays true to helping students in the highest-poverty 
schools.
Conclusion
    This Committee has led the way in focusing on teacher quality as a 
key driver of closing the achievement gap. This focus is based on a 
strong record of research establishing teacher quality as the single 
most critical component of educational improvement efforts. This focus 
must be renewed and strengthened because unequal opportunity still is a 
huge challenge to closing achievement gaps. I commend the Committee for 
its leadership on this issue and hope that when the Elementary and 
Secondary Education Act is reauthorized, it represents an even stronger 
tool for raising teacher quality in high-poverty schools.
                                endnotes
    \1\ Steven G. Rivkin, Eric A. Hanushek, and John F. Kain. 2002. 
Teachers, Schools, and Academic Achievement, University of Texas-Dallas 
Texas Schools Project.
    \2\ Robert Gordon, Thomas J. Kane, and Douglas O. Staiger, 2006. 
Identifying Effective teachers Using Performance on the Job. 
Washington, D.C.: The Brookings Institution.
    \3\ As cited by Daniel Fallon, 2003. Case Study of A Paradigm Shift 
(The Value of Focusing on Instruction). Education Research Summit: 
Establishing Linkages, University of North Carolina.
    \4\ Jerald, C. 2002. All Talk, No Action: Putting an End to Out-of-
Field Teaching. The Education Trust. Available: www.edtrust.org.
    \5\ Clotfelter, C. T., Ladd, H. F., & Vigdor, J. L. (2006). 
Teacher-student matching and the assessment of teacher effectiveness. 
Journal of Human Resources, 41(4), 778-820.
    \6\ Clotfelter, C. T., Ladd, H. F., & Vigdor, J. L. (2005). Who 
teaches whom? Race and the distribution of novice teachers. Economics 
of Education Review, 24, 377-392.
    \7\ Peske, H. and Haycock, K. 2006. Teaching Inequality: How Poor 
and Minority Students are Shortchanged on Teacher Quality. The 
Education Trust. Available: www.edtrust.org
    \8\ Presley, J., White, B., and Gong, Y. 2005. Examining the 
Distribution and Impact of Teacher Quality in Illinois. Illinois 
Education Research Council. Policy Research Report: IERC 2005-2. 
Available: http://ierc.siue.edu.
    \9\ Susanna Loeb and Luke C. Miller, 2006. A Federal Foray into 
Teacher Certification: Assessing the ``Highly Qualified Teacher'' 
Provision of NCLB. Available: http://devweb.tc.columbia.edu/manager/
symposium/Files/98--LoebMiller--%20Nov%201.pdf
    \10\ Ibid.
                                 ______
                                 
    Chairman Miller. Ms. Cortese.

    STATEMENT OF ANTONIA CORTESE, EXECUTIVE VICE PRESIDENT, 
                AMERICAN FEDERATION OF TEACHERS

    Ms. Cortese. On behalf of the American Federation of 
Teachers, I want to thank you for inviting me here today to 
discuss the committee's No Child Left Behind reauthorization 
draft.
    Probably the easiest and most popular thing in the world 
for me would be for me to say that the draft is fine, let's 
move it along and let's get it done, but that wouldn't be the 
right or responsible thing to do.
    I want to say candidly that the AFT would be troubled, very 
troubled, if we thought the final bill was going to look a lot 
like this draft. The AFT has called for some substantive 
changes to NCLB. This draft does not address those concerns 
adequately, and more work needs to be done to fix the law's 
fundamental problems.
    More than 5 years of experience with NCLB has taught many 
things. Chief among them is the need to take the time and care 
to ensure that what is enacted in Washington will actually work 
in our classrooms. Our submitted comments on Title I addressed 
concerns about the need to fix the current law's adequate 
yearly progress. It is a flawed accountability system that does 
not give credit to schools that started further behind but are 
making real progress. This discussion draft doesn't fix that; 
it just makes it more complex.
    We are pleased that the draft offers a more realistic 
approach to identifying schools for school improvement. The 
committee was right to have such schools be selected based on 
the performance of the same subgroup in the same subject. That 
is a step in the right direction. But too much of the draft 
moves us in the wrong direction. Our teachers and others who 
have had to work under NCLB have said fix AYP, give credit for 
student progress, create a more rational assessment system so 
that it informs instruction instead of interfering with it, 
give struggling schools the help they need, not punitive 
sanctions that don't work.
    One fix for AYP was to create a growth model to give credit 
for student progress. Unfortunately, the growth model in the 
draft is, in reality, a trajectory model. It does not give full 
credit for gains and student achievement. This is clearly an 
area that needs much more thought and work. Instead of giving 
struggling schools more help when they need it most, the 
continued use of supplemental education services, despite the 
lack of any reliable data that demonstrates they are effective. 
Schools that are not making progress need proven interventions 
that really work.
    Let me take a moment to say something about the issue of 
comparability. The AFT's longstanding commitment to equity for 
the disadvantaged students of this country tells you more about 
our support for comparability than I could say here. Every 
child should be taught by a qualified teacher. We have to work 
together to help to make this happen. The AFT, however, 
supports an approach that we know works, based on our 
experience in Miami and the ABC unified school district in 
California and the South Bronx. If we want highly qualified 
teachers to work in hard-to-staff schools, we must address the 
factors that will improve learning and teaching conditions. We 
need real remedies, not mechanistic changes that could drive 
teachers out of the profession or to other more advantaged 
schools.
    Another challenge for the committee is to identify the best 
ways to attract and retain highly qualified teachers where they 
are needed the most. The approach proposed in Title II of the 
draft would impose a top-down policy. Such a policy jeopardizes 
buy-in from the teachers and, ultimately, the success of the 
program. It also interjects Federal law into the collective 
bargaining process, a matter that is within the purview of the 
State and local law.
    Making improvements to NCLB is a top priority and getting 
it right needs to happen. However, it is important that the 
product, not the clock, drive the process. We are glad the 
committee has kicked off the discussion, but let's be honest; 
much more work needs to be done and much more serious dialogue 
needs to occur before our final bill is passed. Our Nation's 
children deserve a law that works. We have a long way to go 
before the discussion draft passes that test.
    Thank you.
    [The statement of Ms. Cortese follows:]

 Prepared Statement of Antonia Cortese, Executive Vice President, the 
                    American Federation of Teachers

    On behalf of the American Federation of Teachers (AFT), thank you 
for inviting me to speak with you today to discuss the Committee's No 
Child Left Behind (NCLB) reauthorization draft
    The AFT understands that the bill is a ``draft'' document, and that 
is how we have approached it.
    The easiest thing in the world would be for me to say that the 
draft is fine, let's move it along, and let's get it done. But that 
wouldn't be the right or responsible thing to do.
    I want to say, candidly, that we would be troubled--very troubled--
if we thought the final bill was going to look a lot like this draft.
    Parents, teachers, elected officials and others have called for 
substantive changes to NCLB. This draft does not appear to address 
those concerns adequately, and it is clear that more work needs to be 
done to fix the law's fundamental problems.
    More than five years of experience with NCLB has taught us many 
things. Chief among them is the need to take time and care to ensure--
as nearly as possible--that what is enacted in Washington will work in 
our nation's classrooms. We cannot achieve the law's goals if we do 
otherwise.
    We sent initial comments on Title I last week. We are still 
reviewing Titles II through Title XI, which came to us late Thursday 
night.
    Our comments on Title I address our specific concerns about the 
need to fix adequate yearly progress (AYP), a flawed accountability 
system that that does not give credit to schools that started further 
behind but are making real progress not recognized under the law. 
Unfortunately, this discussion draft doesn't fix AYP. It makes it much 
more complex.
    We saw some provisions aimed at improving this part of current law, 
but in all candor these changes do not go far enough and fail to fully 
address troubling aspects of current law.
    Let me just single out one improvement in the Committee's draft. We 
are pleased that the draft offers a more realistic approach to 
identifying schools for school improvement by allowing such schools to 
be selected based on the performance of the same subgroup in the same 
subject.
    That's a step in the right direction, and there are others. But too 
much of this discussion draft moves us in the wrong direction.
    I am not going to go into great detail, but let me just say this 
about the draft's shortcomings.
    For more than five years, our teachers and others who have had to 
work under NCLB have said:
    <bullet> Fix AYP;
    <bullet> Give credit for student progress;
    <bullet> Get the testing under control so that it informs 
instruction instead of interfering with it; and
    <bullet> Give struggling schools the help they need, not punitive 
sanctions that don't work.
    Everyone said we needed a growth model, but everyone had a 
different concept of what that meant. The committee's charge is to 
propose a growth model that will work. And when we say ``work,'' we 
don't mean low standards and no accountability. Unfortunately, the 
growth model that is being proposed is in reality a trajectory model 
and does not fully give credit for the gains in student achievement 
that schools are making. This is clearly an area that needs more 
thought and work.
    Instead of giving struggling schools more help when they need it 
most, the draft is requiring the continued use of supplemental 
educational services (SES) as an intervention for high priority schools 
despite the lack of any reliable data that demonstrates they are 
effective. Schools that are not making progress need to have the 
flexibility to choose which interventions meet their needs.
    Let me take a moment to say something about the issue of 
comparability. The AFT's longstanding commitment to equity for 
disadvantaged students tells you more about our support for 
comparability than anything I could say here. Every child should be 
taught by a highly qualified teacher.
    We have to work together to help make that happen.
    The AFT supports an approach that we know works, based on our 
experience in Miami and the ABC Unified School District in California. 
Simply put, if we want highly qualified teachers to work in hardtostaff 
schools, we must address the factors that will improve learning and 
teaching conditions. Unfortunately, these schools often suffer from 
terrible building conditions, unsupportive leadership, and a lack of 
professional supports, as well as other factors that contribute to an 
unacceptable learning and teaching environment. If we are to improve 
teaching and learning at Title I schools, then states and local school 
districts must first address these underlying systemic problems. We 
need real remedies, not ones that have the potential to drive teachers 
out of the profession or to other, moreadvantaged schools.
    Another challenge for the Committee is to identify the best ways to 
attract and retain highly qualified teachers where they are needed the 
most. The AFT believes that the approach proposed in Title II of the 
draft would impose a topdown policy that jeopardizes buyin from the 
teachers and, ultimately, the success of the program. It also 
interjects federal law into the collective bargaining process--a matter 
that is within the purview of state and local law.
    I know from my many discussions with our members and our state and 
local leaders that making improvements to NCLB and getting it right 
needs to happen as soon as possible. However, I think that it is 
important that the product, not the clock, drives this process.
    When all is said and done--whether it's this session or 2008 or 
2009--I can't go back to our members and say, ``This bill is good 
because it's not as bad as the original NCLB.'' I can't go back and 
say, ``The final bill is good because it's not as bad as the discussion 
draft.''
    I want to tell our members that ``This bill is good for your 
students, it's good for public schools, and it's good for your 
communities.''
    We're glad the committee has kicked off the discussion. But let's 
be honest: much, much more work needs to be done, and much more serious 
dialogue needs to occur before a final bill is passed.
    Let's keep in mind what the goal is here. It is to produce a law 
that evaluates schools and holds them accountable in a fair and 
reliable way. It is to ensure that tests are aligned with standards so 
they can support good instruction. Finally, it is to hold students to 
high standards while also giving them the help they need if they are 
struggling.
    Our nation's children deserve a law that works. We have a long way 
to go before this draft passes this test.
                                 ______
                                 
    Chairman Miller. Ms. Bradburn.

STATEMENT OF FRANCES BRYANT BRADBURN, DIRECTOR OF INSTRUCTIONAL 
 TECHNOLOGIES, NORTH CAROLINA DEPARTMENT OF PUBLIC INSTRUCTION

    Ms. Bradburn. Thank you, Chairman Miller and the committee. 
I want to especially thank Representative Virginia Foxx for her 
dedication to improving education in North Carolina, and 
Representative Hinojosa and Representative Biggert for their 
leadership in promoting systemic reform and professional 
development using technology through the ATTAIN Act.
    I am Frances Bryant Bradburn, Director of Instructional 
Technologies for the North Carolina Department of Public 
Instruction.
    What if I could tell you that you could increase student 
achievement in reading and math from 67 percent to 78 percent, 
or from 78 percent to even 96 percent in about 4 years? What if 
I could tell you that you could increase the college-going rate 
from 26 percent to 84 percent in 5 years? What if I could tell 
you that you could go from second highest teen pregnancy rate 
in North Carolina down to 18th during that same 5-year window. 
What if I could tell you that you could increase student 
retention for both your newest and your most experienced 
teachers, or reduce class size consistently not by hiring 
bevies of classroom teachers, but by hiring one or two--an 
instructional technology facilitator who is a certified 
classroom teacher whose specialty it is to partner with the 
school library media specialist and classroom teachers to 
create units of instruction and project-based learning to 
really change the way teaching goes on in schools.
    What if I could tell you that you could offer advanced 
calculus, AP biology or AP history, even university courses for 
college credit in even our smallest high schools in the U.S.? 
All of these are possible and have already been made possible 
across the country with NCLB funding, especially enhancing 
education through technology funding.
    Through the ATTAIN Act, which is Title II part (f) in the 
reauthorization draft, this money--you will have the 
opportunity to replicate these successes across the Nation 
again.
    This is an exciting time to be a teacher and a student. In 
selected schools, students across the U.S. are able to use a 
variety of technology tools to learn how to solve problems and 
learn in a real-world environment. In North Carolina we made 
this happen through a systemic reform model called IMPACT. In 
my work with CITA, I know it is also happening in other 
programs across the U.S. In these schools teachers and students 
are using laptop computers, digital cameras, interactive 
whiteboards, video cameras and the like to learn in exciting 
new ways.
    Let me tell you a couple of stories to illustrate this. One 
of our IMPACT model school principals tells the story of 
walking into a special education class. The teacher had 
mentioned that she would like for him to drop by to see an 
autistic child who had spent 4 years in that classroom huddled 
in the corner. When he walked into the classroom that day, he 
saw this child up in front of an interactive whiteboard, 
manipulating information. Not only that, but he also saw that 
child turn around and try to speak to the teacher, the first 
time he had done either of those things in 4 years.
    We also have students in a school, which, by Federal 
guidelines, has 33 percent of its population that is homeless, 
where they are using video equipment to produce a morning news 
program daily. We are watching students have a reason to get up 
in the morning and come to school because people rely on them 
and because they are finally good at something and they can see 
their future for the first time. By the way, these students are 
meeting standards and the school is meeting AYP.
    Students in the same school are using a program, a 
simulation program called Quest Atlantis. This program helps 
students learn to solve social and environmental problems. For 
the first time, these students realize they can make a 
difference, they can solve problems, they can change the world. 
And they feel powerful.
    I want to end my storytelling with a very special story 
from Green County. It comes from a police report. The police 
were called on Saturday night to the school, to the high 
school, because neighbors had said there were teens gathering 
there in the parking lot of the high school. When the police 
squad car got there, they realized that these kids were 
squatting on the school's wireless network, doing their 
homework and communicating with the rest of the world rather 
than getting into trouble.
    With its focus on systemic reform and ongoing professional 
development, the ATTAIN Act, Title II, part (f) has the 
opportunity to extend and expand these stories. The ATTAIN Act 
has a potential to build upon what we have learned in North 
Carolina with IMPACT, what my colleagues in Texas have learned 
with their Texas TIP project, and in Missouri and Utah with 
EMETS.
    While we would all assume that technology would also be 
included in other parts of the reauthorization such as the 
graduation promise, the formative evaluation, high-quality 
professional development and growth models, I would urge you to 
specify the importance of technology in each of these areas.
    Yes, technology is an investment and it requires constant 
reinvestment, yet it is investment that yields great benefits. 
Business once wrestled with this cost of implementing 
technology solutions and obviously its investments have served 
this country well. Like business, we can transform education. 
We urge you to invest up front in technology to make a 
difference in our children's and our Nation's future.
    Thank you.
    Chairman Miller. Thank you very much.
    [The information follows:]

      Prepared Statement of Frances Bryant Bradburn, Director of 
     Instructional Technology, North Carolina Department of Public 
                              Instruction

    Good Morning. Thank you to Chairman Miller, Representative McKeon, 
and the Committee for inviting me to testify today. I would also like 
to thank Representative Virginia Foxx for her dedication to improving 
education in western North Carolina and Committee members 
Representatives Hinojosa and Biggert for their leadership in promoting 
systemic reform and professional development using technology. In 
several schools in North Carolina, we have had the opportunity to 
implement a school reform model utilizing technology to transform 
teaching and learning. After four years, the results are staggering and 
include increased students achievement, increased likelihood for 
students to stay on grade level, increased college-going rates, and 
increased teacher retention. I will share with you why we believe it is 
our responsibility to lead an education system that prepares students 
for the 21st Century and how we are beginning to accomplish this in 
many districts in our state.
Technology in Education Critical to Ensuring America's Competitiveness
    Reauthorizing No Child Left Behind is an important step in helping 
to ensure America's competitiveness in the 21st Century. As you know, 
the effective use of technology throughout education is critical to 
preparing our students for a global marketplace. We are not talking 
about putting some computers in the back of a classroom--we are talking 
about utilizing the power of technology to change the way teachers 
teach and children learn. The education community needs the resources 
and investment that the business community made as it transformed its 
practices throughout the last 20 years.
    The Committee has demonstrated its focus on the critical role that 
technology plays in our education system by the inclusion of the ATTAIN 
Act in the reauthorization bill as Title II, Part F. Technology is also 
integral to the effective implementation and use of data systems, on-
line assessments, virtual AP Courses, and on-going and sustainable 
professional development. Many states currently use educational 
technology to reach these goals and have shown to improve student 
achievement, certify highly qualified teachers and help close the 
achievement gap.
    While many of you cannot imagine your workday without technology to 
access resources or communicate, this is still not the case for many 
students and teachers on a typical school day. From the upper middle 
class suburbs of Baltimore to inner city San Diego, it is often 
considered a bonus if teachers have access to a laptop for planning or 
students to have wireless access. It is hard to imagine, but some 
students only access to technology is a visit to the computer lab once 
a week. Unfortunately, we cannot assume that technology has been 
maximized in most schools--a Department of Labor study shared that 
education was actually 55th out of 55 industries studied in use of 
technology.\1\ Although access to the Internet and the ratio of 
students to computers has improved over time, there is only an average 
of only 1 computer for every 3.8 students in American schools.\2\ In 
addition to Internet access and devices, teachers and students must 
also have reliable access to new applications such as those used for 
delivering education content, managing courses, collecting student 
data, and accessing professional development.
    Training is critical to helping teachers utilize the resources and 
applications. Teachers need the skills to utilize technology within 
their instruction and to maximize the engagement of curriculum, data, 
and other tools available to improve student learning. These tools 
frequently provide opportunities to reach more students through 
individualized instruction which ultimately helps to increase student 
achievement.
    As we look at America's future, we must also reflect on the 
present. Only 5% of U.S. college students currently major in math or 
science fields, more than 57% of our post-doctoral engineering students 
are from outside of the U.S., and the fact that U.S. Patent 
applications from the Asian countries grew by 759% from 1989 to 2001. 
Patent applications from the U.S. during the same period grew at 116%. 
High-speed global networks enable nearly instantaneous communication, 
collaboration and knowledge sharing which gives our competitors more 
advantages than they had in the past. Any approach to our challenge of 
educating America's youth must rely on technology solutions that are 
scalable, flexible, reliable, and have the ability to cost-effectively 
individualize education for all students.
    While it is easy to be discouraged or overwhelmed by disappointing 
graduation rates, information on how students are not prepared for 
work, or how education has not changed, it is not too late to make a 
real difference for students in our country. Key tools and proper 
training are making a difference and model programs can be replicated 
throughout the country.
    For example, in my state of North Carolina, we developed and 
implemented the IMPACT model.
The IMPACT Model
    North Carolina's IMPACT model, the basis of the North Carolina 
Educational Technology Plan, is a school reform model of technology 
immersion with an intense focus on collaborative planning. When you 
enter an IMPACT school, you quickly experience that collaborative 
learning, higher level thinking skills, and student engagement are 
pervasive whether students are learning math, science, reading, or 
history. School and teacher leaders drive change and learn from one 
another to utilize data to address the individual needs of each 
student. Using digital cameras, interactive white boards, and 
computers, students are provided with opportunities to collaborate and 
connect to the rich and relevant content that would not always be 
readily available to some students. They are experiencing school in a 
new way that builds those 21st century skills necessary to succeed. 
Teachers have become the facilitators of learning and students become 
engaged in their own progress.
    The transformation in the IMPACT schools is largely a result of the 
role of the school library media coordinator or technology learning 
facilitator plays in working with small groups and individual teachers 
to provide professional development and modeling as more and more 
technology is used to engage students in instructional units. Teachers 
work together to develop new lesson plans, consider how to facilitate 
learning, and utilize data to individualize instruction. As ideas are 
shared, new technology tools are incorporated to enhance the unit. 
Often the new tool is demonstrated or even taught during the meeting, 
or a special training date is determined for additional professional 
development. This type of planning and collaboration among teachers 
result in a transformation of learning, and the results are 
significant.
North Carolina's Scientifically-Based Research Results
    North Carolina had the benefit of receiving a grant from the U.S. 
Department of Education to implement scientifically-based research to 
study the IMPACT model from 2003 to 2007. The Evaluating State 
Educational Technology Programs (ESETP) grant allowed North Carolina to 
compare high need, high poverty schools implementing the IMPACT model 
with similar comparison schools that did not utilize IMPACT. The study 
focused specifically on math, reading, leadership, and teacher 
retention. After controlling for background demographics such as race, 
sex, grade, days absent, parent education, and free/reduced lunch 
status, results of the study include (for three years unless otherwise 
noted):
    Student Achievement--Math:
    <bullet> When looking at change in passing status (going from 
passing to failing or failing to passing):
    <bullet> The odds that IMPACT students would go from non-passing to 
passing status over the three years were 42% higher than that for 
comparison students
    <bullet> In the fourth year, the odds of IMPACT students passing 
the Math EOG were 24% higher than that of comparison. This effect was 
stronger in earlier grades.
    <bullet> IMPACT students were less likely to drop achievement 
level, and more likely to increase achievement level over these three 
years than comparison students.
    <bullet> The odds of IMPACT students dropping one or more 
achievement levels were 25% less than comparison students
    <bullet> The odds of IMPACT students increasing one or more 
achievement levels were 37% higher than comparison students
    <bullet> When looking at pass/fail rates for the End of Grade (EOG) 
tests, in the baseline year IMPACT students were significantly less 
likely to pass the math tests than comparison students. By the fourth 
year, IMPACT students were more likely to pass the test.
    <bullet> IMPACT students had stronger growth curves than comparison 
school students. Higher grades had stronger differences.
    Student Achievement--Reading:
    <bullet> When looking at change in passing status, the odds that 
IMPACT students would increase from failing to passing over the four 
years were 55% higher than the odds for comparison students. When 
looking at Year two to year four with the larger sample, the odds were 
43% higher for IMPACT students.
    <bullet> The odds of IMPACT students increasing achievement level 
from the second to the fourth years were 3 times that of comparison 
students
    <bullet> When looking at pass/fail rates for the EOG tests, in the 
baseline year IMPACT students were significantly less likely to pass 
the reading EOGs than comparison students. By the fourth year, IMPACT 
students were equally likely to pass the test.
    <bullet> In general, IMPACT students had stronger growth curves
    Results--Teacher Retention:
    <bullet> The odds of IMPACT teachers being retained for these three 
years were 65% higher than that for comparison school teachers.
    <bullet> The odds of beginning teachers being retained was 64% 
higher in IMPACT than comparison schools.
    <bullet> Similarly, teachers in years 4-10 did not have a 
significant effect, but the odds IMPACT teachers would be retained were 
.71 that of comparison teachers.
    <bullet> Finally, there was a highly significant effect for master 
teachers (11+ years, Odds ratio =2.87, p < .002), indicating that the 
odds that master teachers in IMPACT schools would be retained across 
these three years was 2.87 times that of comparison master teachers.
    Technology & Teacher Attitude Results:
    <bullet> Based on the School Technology Needs Assessment (STNA) 
developed by SERVE and used by North Carolina State University (NCSU), 
IMPACT teachers perceived that their schools were more supportive of 
risk-taking, and had more linkages to the community than did comparison 
schools.
    <bullet> Attitudes: IMPACT teachers consistently saw IT as more 
useful, and had more positive attitudes toward the usefulness of email, 
the World Wide Web, multimedia in the classroom, and instructional 
technology for teachers than the comparison teachers. Ironically, 
comparison school teachers were more likely to view student interaction 
with computers more positively.
    <bullet> IMPACT teachers started out less confident (about a half 
standard deviation below) than their comparison teacher counterparts, 
but had substantially stronger growth so that by the beginning of the 
second year of the project, IMPACT teachers had much higher overall 
scores on the NETS-T (about one-half standard deviation above the 
comparison teachers)
Modified IMPACT Model in High School--Greene County, NC
    Greene County embraced the potential of technology to transform its 
school district and community five years ago by immersing schools with 
technology, providing students with a 24/7 laptop, and ensuring that 
teachers had access to high quality, on-going professional development. 
Greene County is a district with 70% free & reduced lunch and 50% 
African American and 18% Latino students. When the program began, the 
college going rate in Greene County was 24%, and the County was 
predicted to be the fastest declining district in terms of population. 
This modified IMPACT model has in fact changed the entire learning 
process and the lives of students and all people in this community, and 
technology has been the catalyst for change.
    Results--Greene County:
    <bullet> Since the inception of the program, the college going rate 
of students has increased from 24% to 84% in 2007. The goal for 2008 is 
90%.
    <bullet> Greene County was #2 in North Carolina for number teenage 
pregnancies and has dropped to #18 in the state.
    <bullet> Test scores in middle and high schools have increased.
    <bullet> Linked to a growth in population of 2-3% and an increase 
in economic development that has allowed the county to build its first 
golf course and public park.
    The IMPACT model includes key components significant for any 
organizational change and critical to maximize the power of technology 
to transform teaching and learning, including: quality leadership, on-
going professional development, data driven decision making, and high 
quality resources and tools.
Achievement through Technology and Innovation (ATTAIN)
    The results above demonstrate that the IMPACT model has had a 
significant impact on students in North Carolina, and many districts 
have replicated this model with their own funding. In North Carolina, 
the ATTAIN Act would serve as a catalyst to allow more districts and 
schools to replicate the IMPACT model or a similar systemic approach. 
With ATTAIN's focus on systemic school reform and teacher training to 
integrate technology into reading, math, and science lessons, this 
legislation will help to ensure that our students are competitive in 
the 21st Century global economy and are able to achieve at high levels.
    I want to congratulate the Committee for recognizing this crucial 
need to promote comprehensive, systemic, and innovative approaches to 
changing teaching practices and student behavior. These principles are 
reflected in the ATTAIN Act--Title II, Part F of the Discussion Draft 
of NCLB Reauthorization, which encourages states to develop their own 
versions of IMPACT or enhance existing programs that have proven 
results. The formula program of ATTAIN ensures that districts can 
implement on-going and sustainable professional development similar to 
those referenced with in the IMPACT model, which transforms instruction 
of core curricular subjects.
    ATTAIN provides necessary leadership for states like North Carolina 
to provide systemic approaches to utilizing technology to:
    1. Ensure every student has access to individualized, rigorous, and 
relevant learning to meet the goals of NCLB and to prepare all students 
for the 21st Century work force needs.
    2. Increase on-going, meaningful professional development around 
technology that leads to changes in teaching and stronger curriculum, 
and which improves student achievement, including but not limited to 
core curricular subjects, and student technology literacy.
    3. Evaluate, build upon and increase the use of research-based and 
innovative systemic school reforms that center on the use of technology 
and lead to school improvement and increase student achievement.
    4. Utilize real-time data to understand the individual needs of 
students and connect students with the appropriate curriculum and 
resources to immediately help them achieve.
    Through the State Educational Technology Directors Association 
(SETDA), North Carolina communicates with other states that have 
implemented similar projects with real progress in teacher quality and 
academic achievement by implemented integrated technology initiatives. 
Programs reflecting these principles currently having significant 
effects on students in other states include:
    <bullet> In Utah, Missouri, and Maine, the eMINTS program provides 
schools and teachers with educational technology tools, curriculum, and 
over 200 hours of professional development to change how teachers teach 
and students learn. In classrooms in the same school (one with eMINTS 
and one without), the student achievement of students in the eMINTS 
classroom was repeatedly over 10% higher than the control classroom.
    <bullet> In West Virginia, students receiving access to on-line 
foreign language courses performed at least as well as those in face-
to-face versions of the classes, providing comparable high quality 
instruction for those in rural areas who otherwise would not have 
access to such courses.\3\
    <bullet> In Michigan's Freedom to Learn technology program, 8th 
grade math achievement increased from 31% in 2004 to 63% in 2005 in one 
middle school, and science achievement increased from 68% of students 
proficient in 2003 to 80% 2004.\4\
    <bullet> In Texas, the Technology Immersion Pilot (TIP), 
implemented in middle schools, demonstrated that discipline referrals 
went down by over \1/2\ with the changes in teaching and learning; 
while in one school, 6th grade standardized math scores increased by 
5%, 7th grade by 42%, and 8th grade by 24%.\5\
    <bullet> In Iowa, after connecting teachers with sustainable 
professional development and technology-based curriculum interventions, 
student scores increased by 14 points in 8th grade math, 16 points in 
4th grade math, and 13 points in 4th grade reading compared with 
control groups. 6
    <bullet> In Alaska, over twenty-five percent of school districts 
offer eLearning classes through videoconferencing and the web. The 
Kuspuk School District began distance education via video conferencing 
through support from Enhancing Education Through Technology and Rural 
Utilities Service grants. They offer traditional courses in AP English, 
Algebra 1, and Algebra 2; as well as unique courses including 
publications, service learning and FAA Groundschool. Imagine the value 
of completing Groundschool in one of the district's eight villages 
accessible only by air and river travel through eLearning.
    The ATTAIN Act provides an important catalyst for helping more 
states, districts, and schools implement systemic reform models and on-
going and sustainable professional development that have been proven to 
improve student achievement and ensure that students are competitive in 
the 21st Century global workforce.
The Role of Technology throughout ESEA Reauthorization
    We applaud your leadership in understanding the importance of 
technology in systemic reform and professional development and see many 
opportunities for technology to increase effectiveness and efficiency 
throughout the reauthorized ESEA. Specifically, technology plays an 
integral role in reaching the goals stated in the following areas:
    <bullet> Graduation Promise Fund
    <bullet> College and Work-Ready Standards and Assessments
    <bullet> Growth Models
    <bullet> Performance Index
    <bullet> ELL and Special Education Students
    <bullet> School Improvement and Assistance and School Redesign
    <bullet> Parental Involvement
    <bullet> Extended Learning Opportunities
    <bullet> Improving Teacher and Principal Quality
    <bullet> Partnerships for Math & Science Quality Improvement
    <bullet> Math Success for All
    <bullet> Innovation for Teacher Quality
    Although we understand that technology may be assumed in some of 
these areas, we ask that you specifically state the potential role of 
technology in meeting the requirements and goals throughout the 
reauthorization with NCLB. We cannot afford to miss the opportunity 
that technology provides to engage students, to improve instruction and 
teacher quality, and to ultimately improve student achievement so that 
our students are prepared for the 21st Century.

                                ENDNOTES

    \1\ U.S. Department of Commerce (2003), Digital Economy 2003
    \2\ Business Roundtable, Tapping America's Potential: The Education 
for Innovation Initiative
    \3\ eMINTS, http://www.emints.org/, and http://www.emints.org/
evaluation/reports/
    \4\ Freedom to Learn Evaluation, http://www.ftlwireless.org/
content.cfm?ID=505
    \5\ This recent article highlights the results in two districts: 
http://www.thejournal.com/articles/20931--1 in a very succinct way. The 
evaluation site is: http://www.etxtip.info/, and the program site can 
be found at: http://www.txtip.info/.
                                 ______
                                 
    Chairman Miller. Ms. Sommers.

STATEMENT OF MARY KAY SOMMERS, PRINCIPAL, SHEPARDSON ELEMENTARY

    Ms. Sommers. Chairman Miller, distinguished members of the 
committee, good afternoon.
    I am Mary Kay Sommers, principal of Shepardson Elementary 
in Fort Collins, Colorado. The student body of our school 
includes students with disabilities, English language learners 
and gifted students. This year I am also serving as president 
of the National Association of Elementary School Principals.
    Thank you for this opportunity to represent our membership 
of nearly 30,000 elementary and middle-level principals in 
commenting on the committee's ESEA bill draft. Today I will 
focus on some key provisions in Titles I and II. While the 
draft proposes many positive changes, such as a consideration 
of a growth model and multiple measures, we are disappointed 
that it retains a reliance on high-stakes testing and 
unreasonable requirements for assessing students with special 
needs.
    NASP does not support these provisions because they 
contradict our aims as the chief architects of learning within 
a school on behalf of all children. The accountability 
provisions in Title I gauge student and school success with a 
flawed system. Standardized test scores retain a level of 
importance that education research and practice indicate is 
unwarranted. This devotion to high-stakes testing produces an 
inaccurate picture of educator and school quality. NASP has a 
longstanding position against high-stakes assessment practices 
stated in our current platform and attached to my written 
testimony.
    Although we are pleased with the draft bill that includes 
provisions for the use of multiple assessments, it falls 
perilously short. There are many academic and non-academic 
factors that affect student progress, and the draft 
overemphasizes achievement defined primarily in terms of test 
scores. It ignores other crucial contributors that promote or 
inhibit learning.
    NASP recommends that the committee reduce the weight given 
to the standardized test scores at the elementary level for 
measuring AYP. Other critical indicators could include rates of 
student and teacher attendance, number of discipline referrals, 
class size, level of parental involvement and school climate 
survey results. Non-academic factors such as the availability 
of physical and mental health care, nutrition and wellness and 
other student and family support services should be factored 
into the determination of school quality and student progress. 
This is not about avoiding accountability or having low 
expectations. It is about addressing the needs of the whole 
child and making sure that everything is done to help every 
child succeed.
    We are very disappointed that the draft bill does little to 
change the current assessment requirements for students with 
disabilities. Testing them on their chronological grade level 
rather than the grade level at which they are taught is not 
appropriate.
    My fellow principals and I have been dismayed by the 
distress that forced grade-level testing elicits in many of our 
students with disabilities. NASP recommends that the committee 
allow progress toward achievement of the IEP goals to count 
toward AYP, and allow the IEP team to determine the appropriate 
assessments. This team includes parents and school staff and 
others with legitimate interest in the students' education, 
working collaboratively to establish those rigorous and 
relevant goals.
    I would like to you imagine this scenario. A young student, 
I will call him Jose, qualifies for special education. He 
struggles very hard, yet his motivation never ceases. Watching 
him take these tests each year is one of the most painful 
experiences we have ever had. Jose persists in attempting to 
read each word, even though the test is nearly 4 years ahead of 
him. His courage and tenacity are qualities we want for every 
child. Last year it took him more than a whole day to complete 
one 55-minute exam, but he refused to stop. Even though he has 
made great growth, he still finds he is labeled unsatisfactory. 
Imagine everyone's disappointment.
    Now imagine this scenario. In 2008 Jose continues to work 
harder than most students. This year's test is designed at his 
level, and a bit beyond, to see what he has learned, how well 
he has accomplished his IEP goals. Imagine the hope that this 
would inspire. May you and your committee consider being the 
ones who give hope to Jose and other students.
    I must also express strong concerns about a provision 
seeking to establish a Federal definition of an exemplary 
principal. Educator qualifications and quality should remain a 
State and district responsibility. It would be 
counterproductive for the Federal Government to interfere with 
the local authority in taking on this additional 
responsibility. The draft definition includes significant 
characteristics and knowledge that principals should have. But 
most would be difficult to assess, leading inevitably to 
defining principal quality and effectiveness through test 
scores. For the same reason we do not support pay-for-
performance plans based mostly on high-stakes testing, we 
believe one of the most effective ways to have exemplary 
principals in all schools is to make sure principal development 
programs are of high quality. 
    States and districts must be supported in conducting 
effective recruiting, mentoring and professional development 
for all principals.
    Thank you again for this opportunity to advocate for 
children through the voice of principals.
    [The statement of Ms. Sommers follows:]

  Prepared Statement of Mary Kay Sommers, Ph.D., President, National 
          Association of Elementary School Principals (NAESP)

    Chairman Miller, Ranking Member McKeon, and members of the 
committee: Good afternoon. I am Mary Kay Sommers, principal of 
Shepardson Elementary School in Fort Collins, Colorado and president of 
the National Association of Elementary School Principals. Thank you for 
the opportunity to represent NAESP's membership of nearly 30,000 
elementary and middle level principals in providing testimony on the 
committee's discussion draft of the Elementary and Secondary Education 
Act (ESEA) reauthorization bill. I request that the full statement be 
included in the hearing record.
    NAESP appreciates very much the care that the committee has taken 
to solicit and review input from the gamut of education stakeholders. 
Mr. Chairman, your heartfelt commitment to education and that of your 
committee colleagues is evident, and we are grateful for the long 
months of staff and member work that have gone into the creation of the 
discussion draft. Even though we don't expect to see all of our 
recommendations incorporated in the reauthorized ESEA, we appreciate 
that we've been heard and our views have been considered.
    Because principals are engaged in all aspects of the work of 
schools, NAESP is interested in all 1,036 pages of the discussion 
draft. Due to time constraints, however, my testimony will focus 
largely on some key provisions in Titles I and II. Over the next 
several days, NAESP will provide the committee with additional 
suggestions for specific legislative language changes, and we will 
continue to do so throughout the reauthorization.
    On behalf of our nearly 30,000 members, I regret being unable to 
rate the discussion draft as ``Proficient.'' While, the draft bill 
proposes some positive changes to the law, such as the use of growth 
models and consideration of multiple measures, we are disappointed to 
see that it retains core provisions, most notably a reliance on high-
stakes testing and unreasonable requirements regarding the assessment 
of students with special needs. NAESP does not support these core 
provisions because we believe them to contradict our aims as chief 
architects of learning within our school communities, and in fact, 
believe them to be harmful to children.
    The assessment and accountability provisions in Title I gauge 
student and school success through the use of a flawed system. As in 
current law, standardized test scores are raised to a level of 
importance that education research and practice indicate is 
unwarranted. This devotion to making high-stakes decisions on the basis 
of test scores produces an incomplete and therefore inaccurate picture 
of the quality of educators and schools. NAESP has a longstanding 
position against high-stakes assessment practices, stated in the 2007-
2008 NAESP Platform, which is available on our Web site 
(www.naesp.org). Our resolutions on overall assessment practices and 
the appropriately limited use of standardized tests have been in place 
for decades and reaffirmed many times since their creation. Copies of 
these two resolutions are attached to my written testimony.
Multiple measures in assessment
    Although we are pleased that the draft bill includes some 
provisions for the use of multiple measures in assessment, it falls 
short. There are many academic and nonacademic factors that affect 
student progress, and the draft language overemphasizes ``achievement'' 
defined primarily in terms of test scores. The discussion draft ignores 
the many other contributors that promote or inhibit learning, such as 
test anxiety and emotional fatigue.
    NAESP recommends that the committee eliminate the 85 percent weight 
given to standardized test scores at the elementary level for measuring 
AYP and allow additional indicators for elementary schools to use in 
multiple measurement systems. Such other factors that affect learning 
could include changes in rates of student and teacher attendance, 
changes in number of discipline referrals, class size, level of 
parental involvement, and the results of school climate surveys. We 
also strongly believe that such nonacademic factors as the availability 
of physical and mental health care, nutrition, and other student and 
family support services should be factored into the determination of 
school quality and student progress. This is not about avoiding 
accountability; it's about addressing the needs of the whole child and 
making sure that all is done that should be done to help every student 
succeed without penalty or fear of failure.
Assessment of special needs students
    We are very disappointed that the draft bill does little to change 
the assessment requirements for students with disabilities in current 
law and codifies the U.S. Department of Education's regulations 
relating to students falling into the ``one percent'' and ``two 
percent'' categories. Requiring students with disabilities to be 
assessed on their chronological grade level, rather than the grade 
level at which they are taught, is neither an appropriate nor a 
reasonable measure of achievement. My fellow principals and I have been 
dismayed by the distress that forced grade-level testing elicits in 
many students with disabilities.
    Imagine this scenario. I have watched a young boy who has many 
factors that are legitimately impacting his learning and he qualifies 
for special education. I'll call him Jose. I have never seen a child 
who struggled so hard and made such gains in his learning. His 
motivation never ceased, nor did his smile and incredible positive, 
caring attitude. Jose is well-liked by all of the students and the 
staff. Watching him take these tests each year is one of the most 
painful experiences we've ever had. Unlike many adults, Jose will 
persist in attempting to read each word and work each problem when the 
testing level is nearly 4 years ahead of him. His courage and tenacity 
to work hard are indeed the qualities we would want every child to 
have. Last year it took him the whole day, and 35 minutes after school, 
to complete one 55-minute exam. He refused offers to stop. He wanted to 
finish. The good news is that he made great growth; the bad news is 
that he finds he is still Unsatisfactory. There is no doubt in my mind 
that Jose will be one the most productive citizens who will make this 
world a better place and who will infect others with his positive zest 
for living and caring about others.
    Now, imagine this scenario. In 2008, Jose continues to work hard, 
harder than most students. Only this year, his test is designed at his 
level and a bit beyond to see what all he has learned, how well he has 
accomplished his IEP goals. Imagine the look on that face that says, 
``Someone really cared enough to make changes in this test so I could 
truly do my best and feel proud of all the learning I've done this 
year.''
    My worst fear as Jose moves into Junior High School is that his 
frustration will exceed his ability to persist. What have we taught him 
then?
    May you and this committee consider being the ``ones who really 
cared'' to make a difference for Jose and others similar to him.
    NAESP recommends that the committee allow progress made toward 
achievement of the IEP goals to count toward the student and school's 
AYP and allow the IEP team to determine the appropriate assessments for 
students with disabilities. The IEP team includes parents, school 
staff, and others with a legitimate interest in the student's 
education, all working collaboratively to establish goals and plans 
that are suitable to the student's education level, standards-based, 
and rigorous in design. We appreciate the fact that the committee has, 
with respect to modified assessments, applied the appropriate authority 
to the IEP team and believe that authority should be extended to 
include other decisions about the academic assessment of students with 
disabilities.
    Clearly, there are other important provisions in Title I, but I'll 
move now to Title II in order to respect time limitations. NAESP will 
provide additional written comments on the full draft bill later this 
week.
    NAESP has a strong interest in the preparation, recruitment, and 
professional development of educators. We are pleased to see in Title 
II an increased call for principals' professional development and 
encourage the committee to make even more of the allowable uses of 
professional development funds mandatory. By including a specific 
reference to principals in the title of the Teacher and Principal 
Quality state grants, the committee is signaling an interest in helping 
principals receive professional development that addresses their unique 
role, and we appreciate that. Providing mentoring to new principals and 
ongoing, high-quality professional development throughout one's career 
is the best way to move toward what all schools need: an excellent 
principal who is armed with the best and most current skills and 
knowledge to function effectively as an instructional leader and school 
building CEO.
    I have had several opportunities to mentor prospective principals 
so they can better understand the different skills and knowledge they 
will need in this role. They have been amazed at the complex nature of 
the position, the variety of human and technical skills, and the need 
for situational leadership. I also am aware of the high turnover and 
the increasing difficulty in finding qualified educators to serve in 
this critical leadership position.
    I must express our strong concern, however, about the provisions in 
Title I that seek to establish in federal law a definition of an 
``exemplary, highly qualified principal.'' Of course we all want 
schools to be run by principals who are qualified and who do exemplary 
work, but creating such a federal definition raises a number of 
concerns. First, the determination of educator qualifications and 
quality is a state and district responsibility and should remain so. 
School, district, and state personnel are those who best know the 
complex work of principals and understand the situational context and 
needs of each school within each school district. It would be unwise 
and counterproductive for the federal government to interfere with 
local authority in taking on this additional responsibility.
    Another major problem with creating a federal definition or label 
is naturally inherent when describing principal quality. Although the 
list of criteria in the discussion draft includes significant 
characteristics and knowledge that principals should have, most of the 
criteria would be difficult to assess. We believe this dilemma would 
inevitably lead to a practice of defining principal quality and 
effectiveness largely or fully on the basis of test scores. Our 
opposition to the high-stakes use of test scores has been articulated 
already, so I will only reiterate that it is an important and 
longstanding position of NAESP. For the same reason, we do not support 
so-called ``pay for performance'' plans or bonuses for educators that 
are based fully or in large part on test scores.
    We believe that the most effective way to move toward the important 
goal of having all schools led by exemplary principals is to make sure 
that principal preparation programs are of the highest quality and 
offer the most current, research-based education and training. 
Likewise, states and districts need support to establish and implement 
effective principal recruitment, mentoring, and professional 
development opportunities that are available to all principals 
throughout their careers.
    Thank you again, Mr. Chairman, Mr. McKeon and members of the 
committee, for this opportunity to advocate for children through the 
voice of preschool, elementary and middle level principals.

   From NAESP Platform 2007-2008, National Association of Elementary 
                           School Principals:

                         EDUCATIONAL ASSESSMENT

Assessment
    NAESP believes that, for assessment information to be valid and 
useful, educational standards specifying what students are expected to 
know and be able to do must be clearly defined through a broad-based 
consensus process before assessment procedures are developed.
    Assessment focused on student performance has as its primary 
purpose the advancement of student learning and the improvement of 
instruction. This process must be fair, flexible, and authentic in that 
it reflects the students' demonstration of competence. The procedures 
utilized must be valid and appropriate representations of the 
expectations placed on students. NAESP recognizes that assessment is an 
integral part of curriculum and instruction, which includes the 
teaching and learning of test-taking skills. NAESP encourages the 
alignment of curriculum, instruction, and assessment to maintain a 
balance between teaching and formal assessment.
    The assessment process must involve educators in its design and 
use, and include procedures that ensure accessibility, data analysis, 
continuous review, and improvement. Test results must be accessible and 
reported in an understandable, timely manner within the context of 
other relevant information affecting the school.
    NAESP urges its members to become involved in state and local 
activities establishing the design and implementation of assessment 
processes. ('92, '94, '01, '06)
Standardized Tests
    NAESP believes children have diverse abilities and learning 
potential that should be identified and developed. Educators, parents, 
and children need multiple, fair, and effective assessment 
opportunities that can be used for determining the needs of children in 
order to design appropriate instruction.
    NAESP opposes the use of standardized test scores as the sole 
criterion to measure student performance; to rate, grade or rank school 
effectiveness; to allocate funds; or to take punitive measures against 
schools and/or school personnel.
    NAESP recognizes that some uses of standardized testing are 
detrimental to education.
    It is imperative that the limitations of standardized tests are 
clearly understood by decision makers:
    1. Standardized tests, by design, generate data that are valid for 
specific purposes.
    2. Interpretation and use of the data must be limited to those 
purposes.
    Therefore, multiple, non-discriminatory, and longitudinal measures 
must be employed if the data are used to:
    1. Make educational decisions for each student;
    2. Adequately assess the achievement level of student subgroups; or
    3. Monitor student progress and/or program effectiveness over time.
    NAESP also believes that, in reporting assessment results to the 
public, explanations of the proper interpretations of the data must be 
included.
    NAESP urges principals and their local, state, and national 
associations to use assessment data to improve instruction and help 
students learn.
    NAESP also urges principals to actively educate policy-makers and 
the public about the proper interpretation and use of standardized test 
data. ('72, '76, '85, '89, '97, '01, '02, '07)
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much.
    Ms. Van Hook?

STATEMENT OF KRISTAN VAN HOOK, SENIOR VICE PRESIDENT FOR PUBLIC 
 POLICY AND DEVELOPMENT, NATIONAL INSTITUTE FOR EXCELLENCE IN 
                            TEACHING

    Ms. Van Hook. Thank you. Thank you for inviting me to 
testify here today. And I just wanted to say what an honor it 
is to serve on the panel with some of the other folks who have 
spoken today.
    The National Institute for Excellence in Teaching is a 
nonprofit dedicated to improving teacher quality and advancing 
the teaching profession. You have heard from a couple of 
participants in our programs today.
    Our signature program is the Teacher Advancement Program, a 
performance pay and professional development career ladder 
system that is increasing student achievement and improving 
teacher recruitment and retention in very high-needs schools. 
We strongly support the committee's inclusion of performance 
compensation bonuses and career ladder programs in the draft 
NCLB bill. We encourage the committee to consider allowing 
nonprofits with proven expertise in these programs to work in 
partnership with schools and districts.
    As you have heard today, just briefly I will mention, 
teachers have a greater impact on student learning than 
anything else in schools, though most States and districts 
don't act like it. Current policies discourage those who are 
effective teachers from staying in the profession and those who 
could be great teachers from entering all together, and they 
offer few incentives for the strong teachers to take on the 
toughest assignments.
    While there are many outstanding educators in the field 
today, clearly there simply are not enough of them. And not 
enough of the most effective educators are teaching the 
students with the greatest needs.
    You already have heard about, in high-needs schools, nearly 
three-quarters of math classes are taught by teachers who lack 
a major or minor in math. Research has shown that having an 
effective teacher for 5 years can close the achievement gap 
between low-income and high-income students, as Ms. Haycock 
mentioned.
    With this in mind, TAP is designed to support schools in 
providing every child with an effective teacher, and we try to 
do so by countering many of the traditional drawbacks that have 
plagued the teaching profession: ineffective professional 
development, lack of career advancement, unsupported 
accountability demands, and low undifferentiated compensation.
    TAP provides an integrated solution to these challenges. We 
believe such a comprehensive approach is essential, combining 
performance pay and career ladders with school-based 
professional development delivered during the school day and a 
standards-based evaluation system that also provides feedback 
to teachers and helps them to understand what it is they need 
to do to do better.
    We consistently tell schools, ``Don't do performance pay in 
a vacuum.'' Our research has shown the importance of a 
comprehensive approach, such as that that is taken in the bill 
before you today.
    Since the year 2000, TAP has been involved in implementing 
its program in 15 States and the District of Columbia. As of 
this fall, about 180 schools are in the process of implementing 
TAP, serving about 5,000 teachers and 60,000 students.
    Just briefly, this is outlined in my written testimony, but 
I would like to briefly summarize some of our results.
    Our primary goal is increased student achievement. In our 
evaluation reports, we find that teachers in TAP schools are, 
on average, more effective than similar teachers in control 
schools. By ``more effective,'' we mean more likely to achieve 
a year's growth or more than a year's growth with their 
students.
    As Mary Kay mentioned at the beginning of the panel, 
achieving more than a year's growth every year in a row with 
students at a high-needs school is a real challenge, and there 
are a number of supports that are necessary for teachers. And 
we think that programs like ours and others you are considering 
under this bill would help to achieve that.
    So you heard today, again, about Stewart Street Elementary 
and D.C. Preparatory Academy from the teachers who were on the 
panel. We have similar results in high-needs schools in other 
States and districts. This fall we are excited because we are 
beginning implementation in Chicago, with a partnership with 
Chicago Public Schools and the Chicago Teachers Union. More 
than 40 school faculties voted ``yes'' to participate in this 
program. We require a faculty vote. Although there were only 10 
slots to fill, we were really delighted with this level of 
interest from the teachers. And we think that we have seen this 
type of evidence of teacher support in a number of other 
locations around the country. We were pleased to see that you 
also had these requirements in your bill.
    In addition, our program helps to reduce teacher turnover 
and increase retention of effective educators. In South 
Carolina, they have been implementing this program for a number 
of years, and the way they chose the schools to start the 
program were those that had rates of teacher turnover in the 30 
to 40 percent range every year. These were high-needs schools.
    In a number of these districts, we found that, after 1 or 2 
years of the program, they were able to reduce those turnover 
rates to less than 10 percent. And we find that is really 
essential to be able to keep those effective educators in the 
high-needs schools.
    In addition, you heard from others on the panel about the 
problem of trying to get effective educators to teach in high-
needs schools and to keep them there over time. Usually, 
teachers start in a high-needs school, they get some 
experience, and then they move to a school that is maybe not 
quite as challenging.
    Through our program, we are finding that teachers are 
moving from higher-socioeconomic schools to lower-socioeconomic 
schools. And part of the reason is because there are 
opportunities, such as Mary Kay took advantage of, to become a 
master or mentor teacher with additional responsibility, 
additional challenge and additional compensation.
    As one example, in a particular district in Louisiana--
there is more detail in my testimony on this--75 percent of the 
teachers who assumed the new master teacher positions--there 
were 60 of them in the first year we implemented there--75 
percent of those teachers came from a higher-socioeconomic 
school to a lower one that was implementing TAP. We were quite 
pleased with that result.
    We also find that TAP increases collegiality. We find that 
over 70 percent of teachers in TAP schools report increased 
levels of collegiality. This is despite the fact many are 
concerned that performance pay will lead to competition and to 
a lack of collegiality in schools. We find the opposite.
    I think part of the reason for this is because we build 
professional development that allows the teachers to work 
together in a team, and this really helps to balance the 
performance base, and the entire system then becomes something 
the teachers are extremely supportive of.
    As I mentioned, one of our priorities is working with 
teachers and getting their buy-in for these programs. That is 
essential. And in Cincinnati, we are working with the local AFT 
affiliate to bring the program to that school district. In 
Columbus, we are working with a local NEA affiliate. And we 
have worked with many others across the country, in Minneapolis 
and elsewhere.
    In some of these locations--and I would point out 
Minneapolis as one example--it was the local union who really 
was the instigator of the program and helped to design what it 
would look like. That was an essential element of success 
there, we believe. We think that is important.
    In addition, our program has been able to generate other 
funding. I see my time is running out, so I won't get into that 
detail.
    Finally, the reason we support the draft reauthorization 
bill before you today and the committee's focus on performance 
pay through that bill, as well as through the Teacher Incentive 
Fund, we believe that there are a couple of things in that bill 
that are particularly important.
    Performance bonuses are based on multiple measures of 
effectiveness, but one of those is student achievement gain. We 
find that is extremely important. The evaluations must be based 
on objective criteria. That is also key. Student learning gains 
are measured using growth models. That way, teachers with 
students who start out at a lower level of achievement are not 
disadvantaged compared to their peers. And funding for master 
and mentor teachers is in place, so that those who are going to 
help teachers improve their skills are there in the school 
setting. That is very important. That is why the career ladder 
is such an important part of the proposal.
    So to conclude, we think it is essential that this new 
funding, new performance pay and career ladders for new 
teachers is tied to the accountability system that has been 
established by the Congress. We found that asking teachers to 
perform at extraordinary levels in high-needs schools, making 
more than a year's growth with every student every year, must 
be accompanied by additional support and compensation for this 
effort, and there must be funding for the support staff of 
professionals in the school in the form of master and mentor 
teachers to provide this intensive support.
    When this intensive support is provided, we agree with the 
committee that new funding must be linked in part to increases 
in student achievement and to measures of teacher effectiveness 
in the classroom. And just to clarify, in terms of increases in 
student achievement, we look at both classroom achievement as 
well as schoolwide achievement in our program.
    We also believe the career ladders are extremely important, 
and I think you have seen evidence of this today from some of 
the folks who have testified before the committee.
    To conclude, performance pay programs that include 
opportunities for career advancement and professional support, 
such as TAP and others, have demonstrated their success in 
supporting teachers in high-needs schools in making more than a 
year's academic growth. This is what will be required to close 
the achievement gap, we believe, and we encourage you to 
include these provisions as you move the bill forward.
    I would be happy to take any questions.
    [The statement of Ms. Van Hook follows:]

 Prepared Statement of Kristan Van Hook, Senior Vice President, Public 
 Policy and Development, National Institute for Excellence in Teaching

    Thank you for inviting me to testify today. The National Institute 
for Excellence in Teaching (NIET) is a non-profit dedicated to 
improving teacher quality and advancing the teaching profession. Our 
signature program is the Teacher Advancement Program (TAP)--a 
performance pay and professional development system that is increasing 
student achievement, and improving teacher recruitment and retention in 
high need schools.
Challenges in Teacher Quality and Retention Today
    Teachers have a greater impact on student learning that anything 
else in schools. Yet most states and districts do not act like it. 
Current policies discourage those who are effective teachers from 
staying in the teaching profession and those who could be great 
teachers from entering altogether, and they offer few incentives for 
strong teachers to take on tougher assignments.
    Secondary and elementary schools will need to hire over two million 
new teachers by the end of the decade, and 50% of those new teachers 
are not expected to remain in teaching more than five years. The 
turnover rate is even higher in high-need schools.
    While there are many outstanding educators in the field today, 
there simply are not enough of them, and not enough of the most 
effective educators are teaching the students with the greatest needs. 
As an example, in high-need schools, nearly three quarters of math 
classes are taught by teachers who lack a major or a minor in math.
    Research confirms that teacher quality is THE most important 
school-related factor affecting student achievement. 43% of the 
variance in student achievement is based on teacher qualifications, 49% 
on home and family, and 8% on class size (Marzano). And yet in 
districts we have worked with, class size reduction represents over one 
half of title II funding expenditures.
    Research based on schools in Texas has shown that having an 
effective teacher for five years can close the achievement gap between 
low income and higher income students, essentially overcoming the 
advantage provided by a higher income home and family. Research based 
on schools in Indiana shows that having an effective teacher versus and 
ineffective teacher equals one full year's academic growth.
Unique Solutions Provided by the Teacher Advancement Program
    The Teacher Advancement Program counters many of the traditional 
drawbacks that plague the teaching profession: ineffective professional 
development, lack of career advancement, unsupported accountability 
demands and low, undifferentiated compensation. TAP provides an 
integrated, comprehensive solution to these challenges--changing the 
structure of the teaching profession within schools while maintaining 
the essence of the profession. TAP is a whole school reform intended to 
recruit, motivate, develop and retain high quality teachers in order to 
increase student achievement.
    Since 2000, TAP has been involved in implementing its reform in 15 
states plus the District of Columbia. As of fall 2007, more than 180 
schools are in various stages of implementing the TAP performance pay 
program, serving more than 5,000 teachers and 60,000 students. TAP has 
enjoyed sustainability in its programs: 78 schools in 10 states have 
been in TAP for 3 years or more.
    In designing TAP, we surveyed the research, consulted with 
academics and outstanding elementary and secondary school teachers and 
principals, and applied experiences from success in the private sector. 
From these sources, we created a four-element approach.
    1. Building the Capacity of Teachers and Principals through 
Professional Development that is directly aligned to content standards 
and elements of effective instruction and takes place during the 
regular school day, so educators can constantly improve the quality of 
their instruction and increase their students' academic achievement. 
This allows teachers to learn new instructional strategies and have 
greater opportunity to collaborate, both of which will lead them to 
become more effective teachers.
    2. Additional Roles and Responsibilities allow teachers to progress 
from a Career, Mentor and Master teacher--depending upon their 
interests, abilities and accomplishments. This allows good teachers to 
advance without having to leave the classroom and provides the expert 
staff to deliver intensive, school-based professional development that 
supports more rigorous coursework and standards.
    3. A Fair, Rigorous and Objective Evaluation Process for evaluating 
teachers and principals. Teachers are held accountable for meeting 
standards that are based on effective instruction, as well as for the 
academic growth of their students, and principals are evaluated based 
on student achievement growth as well as other leadership factors. 
Evaluations are conducted multiple times each year by trained and 
certified evaluators (administrators, Master and Mentor teachers) using 
clearly defined rubrics which reduces the possibility of bias or 
favoritism.
    4. Performance-based Compensation Based on Student Achievement 
Gains and Classroom Evaluations of Teachers throughout the Year. 
Student achievement is measured using ``value-added'' measures of 
student learning gains from year to year.
    Performance pay is based on standards and assessment--both valid 
and reliable measures of student achievement that are used to calculate 
progress under NCLB. TAP changes the current system by compensating 
teachers according to their roles and responsibilities, their 
performance in the classroom, and the performance of their students. 
The new system also encourages districts to offer competitive salaries 
to those who teach in ``hardto-staff'' subjects and schools.
    By combining these elements in an effective strategy for reform, 
TAP is working to turn teaching, especially in high need schools, into 
a highly rewarding career choice. The real reward will be the 
outstanding education available to each and every student in the 
country.
The Human Capital Challenge
    Teaching is struggling to keep pace with other professions, 
particularly as women now have many more professional options than was 
true in the past. In the period 1971-1974, 24% of teachers scored in 
the top decile of high school achievement. In 2000, only 11% did.
    In high poverty schools the challenge is greater. 34% of teachers 
in high poverty schools come from the bottom quartile of SAT scores 
compared to only 9% in low poverty schools. Only 8% of teachers in high 
poverty schools come from the top quartile of SAT scores, compared with 
23% in low poverty schools.
TAP Outcomes
            Student Achievement:
    TAP's ultimate outcome is improving student achievement. Our most 
recent evaluation report of TAP was released in January 2007 and 
compares TAP schools to similar control schools. The report finds that 
in TAP schools nationwide, on average TAP teachers produce higher 
student achievement growth (defined as a year or more than a year's 
student academic gains) than non-TAP teachers. And on average, more TAP 
schools outperformed similar non-TAP schools in producing an average 
year's growth or more in both reading and math achievement. 
Additionally, in most comparisons between TAP schools' AYP results and 
statewide AYP averages in 2004-2005 and 2005-2006, TAP schools compare 
favorably with the state as a whole when considering TAP schools' 
higher share of students on free or reduced-price lunch rates. A 
summary of the report is included at the end of my statement in 
Appendix A. For the full evaluation report, The Effectiveness of the 
Teacher Advancement Program, visit our web site 
www.talentedteachers.org.
    Specific examples of student achievement gains:
    The Teacher Advancement Program has demonstrated strong student 
achievement gains throughout the country.
    For the 2005-06 school year, Stewart Street Elementary in Gadsden 
County, Florida, a high need school, ranked #15 of the top 100 
elementary schools in the state, gaining an outstanding 88 points from 
the previous year. Similar elementary schools in Gadsden County gained/
decreased from 44 points to -15 points. Stewart Street Elementary's 
school grade increased from an ``F'' to a ``C'' on Governor Bush's A+ 
plan in the first year. At the end of the 2006-2007 school year Stewart 
Street had earned a ``B'' and made Adequate Yearly Progress (AYP). 
Another Florida TAP school, Gray Middle School in Lake County, ranked 
#18 of the top 75 middle schools in the state, gaining an impressive 71 
points. Similar middle schools in Lake County gained from 57 points to 
4 points. Gray Middle School rose from a ``C'' to an ``A'' on the 
state's A+ plan.
    TAP schools in Eagle County, Colorado have also had very strong 
results in increasing student achievement. In the 2004-2005 school 
year, 12 Colorado TAP schools (86%) increased the percentage of 
students at proficiency or higher in either reading, mathematics, or in 
both categories. For example, Brush Creek Elementary School made an 
average gain of 31 percentile points in mathematics. And finally, 73% 
of TAP schools in Colorado made AYP in 2004-2005.
    In Rapides Parish, Louisiana, according to state iLEAP fourth-grade 
test results, the number of Forest Hill Elementary students reaching 
``basic'' and above proficiency increased from 73 to 90 percent in 
math, and from 76 to 85 percent in English/language Arts since 
implementing TAP. Ninety percent of the students showed ``basic'' and 
above proficiency in science. Similarly, Forest Hill's School 
Performance Score increased from 105.2 to 114.7 after just one year of 
TAP, and by the end of the 2005-06 year, jumped a staggering 21.2 
points to 124.5--the largest growth in the entire parish. Because of 
its extraordinary achievements, the State of Louisiana named Forest 
Hill a Distinguished Title I School of the Year, an honor presented to 
only two schools in the state. To mark this achievement, the school was 
honored at the 2007 National Title I Conference in Long Beach, 
California, and was among 100 award recipients.
    Assessment data from Forest Meadow Junior High School, in Dallas, 
Texas, highlights significant gains in math proficiency from 2004-2006. 
The percentage of all students meeting assessment math standards 
increased at a higher rate between 2005 and 2006 than between 2004 and 
2005, 3 % gains compared to 1 % gains.
    The 2005-2006 school year marked not only the first year of TAP 
implementation at Thurgood Marshall Elementary, a high need school with 
more than 80% of students receiving free and reduced lunch, in Dallas, 
Texas but also the first year of being in existence. In its' first 
year, Thurgood Marshall achieved recognized status from the state of 
Texas for its academic achievement. It also made significant progress 
with groups that are most in need. The percentage of At-Risk students 
that passed the TAKS increased 25% on writing, and 10% in math. Similar 
increases were seen among economically disadvantaged students (14% in 
writing and 9% in math). Thurgood Marshall also had a school--wide 
value added gain in 2005-2006 its first year of existence of a 5--
showing the school met more than a year's worth of growth. *
    Finally, in the 2005-2006 school year, South Urban High School in 
Columbus, Ohio outperformed two other high schools with similar 
demographics in the same district. South Urban increased their math 
scores by 10 percentile points while one similar school increased by 2 
percentile points and another decreased by 2 percentile points. In 
reading they increased their scores by 2 percentile points while both 
other schools demonstrated a decrease of 12 percentile points in 
reading scores.
            Teacher Turnover/Retention:
    The Teacher Advancement Program, with its strong support system of 
professional development led by master and mentor teachers in the 
school, has helped to reduce teacher turnover.
    At Bell Street Middle School in South Carolina, teacher turnover 
was a serious problem with approximately 40% of teachers leaving in the 
1999-2000 school year, and 32% the next year. TAP was introduced in the 
2001-2002 school year, and by the 2003-2004 and 2004-2005 school years, 
teacher turnover had dropped to below 10% each year.
            Attracting Talented Teachers to High Poverty Schools:
    In the past six years we have seen effective teachers move from 
high SES schools to low SES TAP schools. In Calcasieu Parish, 
Louisiana, at least 75% of the teachers assuming the 60 master teacher 
positions, transferred from a higher SES school to one with a lower 
SES. Similar results also occurred in South Carolina.
            Collegiality:
    In our annual survey of teacher attitudes, we found that over 70% 
of teachers in TAP schools report high levels of collegiality and 
satisfaction. We believe these results are a natural outgrowth of TAP's 
ongoing applied professional growth. Whatever concerns teachers have 
over the shift in culture to performance based compensation and 
rigorous accountability is tempered by the cluster groups that 
naturally facilitate collegiality.
TAP Continues to Grow
    TAP's successes in recruitment, retention, effective teaching 
practices and most importantly increased student achievement have led 
to huge growth over the lifetime of the program. A few of these 
examples are below.
    In evaluating TAP teachers and similarly TAP schools, SAS EVAAS 
calculates the effect of each teacher on student progress as assessed 
by the difference between the growth scores of the teacher's students 
and the average growth scores of the control group, which defines a 
year's growth. We then place each teacher (TAP and control) in one of 
five categories.
    Teachers in categories ``1'' and ``2'' produced less than an 
average year's growth with their students, and teachers in categories 
``3'', ``4'', and ``5'' produced a year's growth or more with their 
students.
    The initial success of TAP in a few schools in Louisiana has led to 
the expansion of the Teacher Advancement Program (TAP) in 39 schools 
across the State including the New Orleans area.
    Columbus, OH and Cincinnati, OH are expanding implementation of TAP 
based on its success in the initial four schools in Columbus. These 
schools serve high-need students and had experienced difficulty in 
attracting and retaining teachers prior to their implementation of TAP. 
In Cincinnati, the local AFT affiliate has led the effort to introduce 
the program; in Columbus, the local NEA affiliate has been the lead 
partner in introducing this reform.
    Following a highly successful implementation of TAP in three Dallas 
area schools, the Texas State Department of Education allocated funds 
for an additional six schools to implement the program. Last year, the 
Texas legislature passed a bill providing $140 million for the 
expansion of performance pay programs in districts and schools across 
the State.
    TAP served as the model for the development of Minnesota's Q Comp 
program which is now operating statewide. Additional schools are 
implementing TAP using funding through the Teacher Incentive Fund.
What Makes TAP Work
    We have seen that TAP's implementation has been most effective in 
schools with strong teacher-level support. Teachers as well as 
administrators must be willing to commit time and energy to create 
positive change. For TAP to be successful it must be imbedded in the 
normal routine of the school, which requires modifications to 
traditional school schedules as well as development of team-oriented 
approaches to instruction. We have seen that for a performance-pay plan 
to be successful, certain conditions must exist: All teachers must 
understand both the standards by which they are being judged as well as 
the scoring rubrics used to measure those standards; every teacher must 
be evaluated multiple times by trained and certified evaluators; and 
most importantly, high quality, ongoing professional development 
opportunities must be made available so teachers are prepared to meet 
these rigorous professional standards.
    Schools must be confident money is available to reward the efforts 
of their most effective teachers. When these elements are in place, we 
find that teachers view the idea of measuring and rewarding their 
performance based on their skills and behaviors in the classroom, and 
the learning gains they help their students achieve, as fair and 
acceptable. We believe that the proposed funding for performance pay 
and career ladders in the draft NCLB reauthorization bill meets these 
criteria.
Key Elements of Successful Performance Pay Systems
    NIET recently released a report along with 11 other teacher quality 
organizations, Creating and Sustaining Successful Performance Pay 
Programs, which summarized the findings from performance pay programs 
across the country.
    TEACHER SUPPORT AND BUY IN--resources are invested in explaining 
the system to teachers, incorporating their suggestions, and providing 
ongoing training, mentoring and coaching; teachers are central to the 
selection and approval of the program.
    CLEAR STANDARDS FOR EVALUATIONS based on research, that are fully 
explained to teachers
    FAIR EVALUATIONS BY MULTIPLE, CERTIFIED EVALUATORS which reduce 
potential bias of a single evaluator
    OBJECTIVE MEASURES OF STUDENT LEARNING GAINS (VALUE ADDED) and a 
data system that links student and teacher data
    HIGH QUALITY PROFESSIONAL DEVELOPMENT that is school-based and 
supported by master and mentor teachers who help teachers to customize 
strategies for their classrooms
    OPPORTUNITIES FOR CAREER ADVANCEMENT AND RECOGNITION many 
outstanding teachers decide to remain in the classroom by becoming a 
master teacher, and they also often agree to teach at a higher need 
school in order to take this position.
    MULTIPLE FACTORS USED TO CALCULATE PERFORMANCE PAY, AND REWARDS 
THAT ARE SIGNIFICANT generally TAP schools allocate $2500 per teacher 
to the fund, and bonuses range from several hundred to several thousand 
dollars per teacher based on performance.
    SIGNIFICANT EFFORTS TO IDENTIFY FUNDING SOURCES including federal, 
state and district funds, private foundation funds
    RIGOROUS EVALUATION of the program and a feedback mechanism to 
incorporate changes and improvements into the program
Why we support the TEACH Act and the draft NCLB reauthorization bill
    All of the above elements we find in the draft bill before the 
Committee. For example, evaluation criteria must be based on objective 
criteria and developed in collaboration with local teacher unions. In 
addition, evaluation criteria must be based on multiple measures of 
success including student learning gains, principal evaluations, and 
master teacher evaluations, and student learning gains are measured 
using growth rather than absolute level of achievement, thus ensuring 
that all teachers have an opportunity to benefit. Funding for master 
and mentor teachers ensures that the school based personnel necessary 
to support teachers in increasing their skills are in place. For these 
reasons we support the draft bill before the Committee and the 
provisions for performance pay and career ladders in particular. We 
also believe the bill addresses three key challenges facing states and 
districts interesting in reforming their teacher compensation systems, 
including:
    I. FUNDING FOR PERFORMANCE PAY AND CAREER LADDERS We strongly 
support the bill's proposed funding for performance pay programs and 
career ladder programs. While there are many other important proposals 
impacting teacher quality in the bill, we believe these two programs 
are critical. States and districts need funding to move toward new ways 
of supporting and rewarding effective teaching, and for encouraging 
effective teachers to select and remain in high need schools. We have 
found that asking teachers to perform at extraordinary levels in high 
need schools--making more than a year's growth with every student, 
every year--must be accompanied by additional support and compensation 
for this effort. And there must be funding for the support staff of 
professionals in the school, in the form of master and mentor teachers, 
to provide this intensive support for the improvement of teaching 
practice. This requires funding, and we urge the Committee to support 
the proposed funding for these efforts.
    We also applaud the Committee's requirements that this new funding 
be linked in part to increases in student achievement. Too often in the 
past, professional development has been delivered without any measure 
of whether teachers took it back to their classrooms or whether, if 
they did, it had any impact on student achievement.
    II. SUPPORTING SCHOOL-BASED PROFESSIONAL DEVELOPMENT THROUGH CAREER 
LADDERS Another challenge addressed by these proposals in the bill is 
creating the school-based, job-embedded professional development to 
support meaningful increases in teacher skills, and an effective 
leadership team to deliver ongoing training and support. The bill's 
support for career ladder programs will provide the funding necessary 
for school-based professional development. This will enable schools to 
set aside time during the school day for job-embedded professional 
development that is directly tied to student needs at that school as 
identified by student data.
    This funding will also support the development of effective 
leadership teams that include teachers--creating distributed leadership 
that is critical to meeting school goals.
    III. DATA TO CALCULATE VALUE-ADDED GAINS The bill also calls for 
data systems to support the measurement of gains in student 
achievement. We believe that performance pay must be based on gains in 
student learning rather than absolute levels. By measuring gain, 
teachers with lower achieving students are not disadvantaged compared 
to their peers teaching more advanced students. If our goal is to 
encourage effective teachers to teach high need students, we must 
ensure that they are rewarded for gains these students make.
Summary
    We encourage the members of the Committee to support strategies and 
policies that have been proven effective in addressing the need for 
effective educators in high need schools and districts. Performance pay 
programs that include opportunities for career advancement and 
professional support, such as TAP, have demonstrated their 
effectiveness in increasing student achievement, as well as increasing 
recruitment and retention of effective educators in high need schools.
    The challenge we face is how to support teachers in high need 
schools in making more than a year's academic growth with their 
students every year. This means our teaching staff must be consistently 
exemplary, and we must create an environment that encourages them to 
remain in high need schools over time. One time bonuses will not ensure 
that effective educators remain in these schools past the period of the 
bonus. Ongoing bonuses, earned each year, are far more effective in 
retaining effective teachers over time.
    In a high need school there is a tremendous need to create an 
ongoing support structure that enables teachers to continually improve 
the effectiveness of their instruction if students are going to 
continue improving academically. We believe the proposed draft bill 
accomplishes this goal. I would be happy to answer any questions you 
may have.
                                 ______
                                 
    [Additional material submitted by Ms. Van Hook may be 
viewed at the following Internet address:]

  http://edlabor.house.gov/testimony/091007KristanVanHookTestimony.pdf

                                 ______
                                 
    Chairman Miller. Thank you very much.
    Are there questions for the panel?
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    President Weaver, you mention in your testimony that--I am 
quoting--``We are gravely disappointed that the committee has 
released language that undermines education collective 
bargaining rights.''
    I wonder if you could perhaps expand upon that. And, from 
your perspective, what would we need to do to fix that, from 
your perspective?
    Mr. Weaver. I think what the draft currently is looking at 
is mandating, through the language, that there be issues as it 
relates to those issues that are regularly bargained, that once 
it is in the language in a Federal bill, then it takes away for 
the local employee and employer the opportunity for them to 
agree.
    We know as well as you that educators are hired by the 
local district and not the Federal Government. And as such, 
whatever the terms and conditions under which they work, it 
should be bargained at the local level.
    So we would suggest that any time you are talking about 
usurping the rights of the employee by taking away their 
collective bargaining rights by mandating it through Federal 
mandates, we think that that is not right.
    Mr. Hare. Mr. Weaver, do you share Ms. Van Hook's testimony 
about teacher performance pay?
    Mr. Weaver. Do I share her----
    Mr. Hare. Her views on that?
    Mr. Weaver. No.
    Mr. Hare. Could you explain that? I am sorry for the loaded 
question. Let me rephrase it. Let me rephrase it. Could you 
tell me what your differences are with Ms. Van Hook's?
    Mr. Weaver. Well, many of our State and locals, you know, 
as it relates to compensation, they are really open to looking 
at compensation and how compensation is addressed, but they are 
not open to having it mandated to them. They are not open to 
having it indicate that it should be based on student 
performance when, in fact, they may not have any control over 
the students that come to them.
    So, once again, to flat-out say that our locals and States 
object to different types of compensation is not true. But, in 
fact, if, in fact, there are going to be different types of 
compensations that they are going to be working under, then 
they want to be able to have a say in terms of having it 
bargained collectively or if, in fact, collective bargaining 
does not exist, then 75 percent of the teaching force agree to 
it.
    Mr. Hare. Would the AFT share that view?
    Ms. Cortese. There are many of our locals that do have 
compensation programs, and many are involved in TAP.
    I would share with what Reg said about the fact that--and 
also pick up on something she said, and that is that TAP works 
when it is a collaborative effort. And I don't think that there 
is a one-size-fits-all. And therefore, I don't think that the 
Federal Government ought to be in the business of mandating 
what shall be in a plan for either career ladders or for some 
kind of compensation program. That is really up to the local 
district and the local teachers' bargaining unit.
    Mr. Hare. Ms. Rooker, I just wanted to say, I was listening 
to you; that had to be a real morale downer for the people at 
that school. They worked so hard to do so well, and at the end 
of the day, now you are sending letters out to the parents 
after all this work.
    And I just wanted to know, you know, just from a--I mean, 
morale-wise, this had to be really very difficult, I am 
assuming, at best.
    Ms. Rooker. I have to be frank with you, I have really 
downplayed some of the sanctions against us because student 
morale and employee morale makes all the difference. If you 
feel good about yourself, you do well. So we do a lot of 
positive affirmations at my school. There is a very positive 
climate. And we are going to continue with that because we have 
a mission to accomplish and we are successful.
    My biggest fear is next year we may face a whole 
restructuring of our school, and yet we are doing all the right 
things. We want to do that.
    Mr. Hare. So you are getting punished for doing the right 
thing? That makes no sense.
    Ms. Rooker. Exactly.
    Chairman Miller. Just following up on that, Ms. Rooker, I 
heard you outline this in Florida, and I thought it was 
important that members of the committee--because I think I 
heard one version of this or another from many members of the 
committee as they talked to local school officials. And it is 
obviously the conundrum that we are trying to work out here.
    Some people have different reasons why this happened, or 
didn't happen. Some people blame the Florida system; other 
people blame the Federal system. But I think it is the 
challenge of this effort, reauthorization, to try and work that 
out.
    So I thank you for taking the time. I know you think, ``I 
traveled all this way for 5 minutes?'' but it is an important 
piece in the mosaic, as we try to figure out the best way to 
reauthorize this law. But I thought you put a very real face on 
what districts are facing. Our job now is to sort of decipher 
how that is to happen. Thank you.
    Ms. Rooker. Thank you.
    Chairman Miller. Following also on Mr. Hare, President 
Weaver and Ms. Cortese, you are both aware that the language in 
the legislation is the language that AFT and NEA negotiated and 
accepted and has promoted and has asked Members of Congress to 
support over the last couple of years. It is identical to that 
language.
    Mr. Weaver. I don't believe it is, Congressman.
    Chairman Miller. It is identical to that language, Mr. 
Weaver.
    Mr. Weaver. Well, we have had discussions with your staff 
for the past week, week and a half, trying to negotiate some 
language, but that was not acceptable.
    Chairman Miller. No, no, Mr. Weaver, that was acceptable, 
and your people got up from the table. And that was not about 
the language in the bill; it was about changes to the language 
in the bill.
    The language in the bill is identical to that which you and 
a number of other organizations, business organizations, reform 
groups, over the last couple of years worked out and then 
supported and have, in fact, supported and asked people to 
support over the last couple of years.
    Mr. Weaver. In anticipation of that question being asked, I 
asked our staff to put together chronological events, and I do 
have that. It will speak to it.
    Chairman Miller. We will exchange them after the hearing.
    Mr. Weaver. That speaks to the fact that, in 2005, we did 
send a letter talking about general support for the TEACH Act, 
but it was not talking about specific support.
    Chairman Miller. But the language you are objecting was 
specifically in the language of the TEACH Act, and you knew 
that, and you negotiated.
    Mr. Weaver. When we negotiated----
    Chairman Miller. When you negotiated the TEACH Act.
    Mr. Weaver. We were also under the impression, and we have 
that too, that speaks to the fact that conversations did occur 
between your office and ours that said that there would be some 
type of communication before it was introduced, in hopes that 
it could be made----
    Chairman Miller. Mr. Weaver, we are talking about the 
language. You can dance all around as you want. You approved 
the language. It was introduced. It has been introduced the 
last couple of years.
    Mr. Weaver. Congressman, we are talking about the language. 
And when we talk about negotiating and talking about 
straightening up and clearing up, we are talking about the 
language.
    Chairman Miller. I just want you to know, as a starting 
point, you didn't come in here suggesting that there should be 
change in the language. You suggested you were opposed to the 
concept. For a starting point, let us start from what was 
mutually arrived-at language which you participated in, AFT 
participated in, and that is the language that is in the bill. 
You want to start from a point now and talk about how you might 
or might not change that; that is a different proposal.
    Ms. Sanchez said that the mandates were paid based solely 
on the test scores of students. Now, you know that that is not 
true because you never would have negotiated that language. You 
would have never let the TEACH Act, be introduced in that 
fashion with your name on it. It isn't solely based on test 
scores. It is one of a series of factors that can only be done 
within the inside of the collective bargaining agreement, and 
the language is clear on that.
    We don't have time to decipher all of those changes, but 
that is the fact, and it is important. We have asked people to 
come here on the discussion draft and discuss the language in 
the discussion draft, and people have made, just in my series 
of take-aways today, just from suggestions people have made, 
questions that I will be raising with members and with staff 
that is based upon the language.
    The language in the discussion draft with respect to 
performance pay or TEACH Act or teacher improvements and 
mentoring and all that language that was mutually arrived at 
between a very diverse group of parties.
    Ms. Cortese. Can I get in a question?
    Chairman Miller. Sure.
    Ms. Cortese. In 2005, AFT sent you a letter. And in that 
letter, we clearly stated that, while the AFT is supportive of 
the overall bill, referring to the TEACH Act, we do have a 
specific concern about its support for programs that use 
student test scores to evaluate teachers. Our position has 
never changed.
    Chairman Miller. Right. But the suggestion now that you 
never participated in the drafting of that language I think is 
to mislead where we are in that process.
    I agree this is not a done deal. I agree that this is 
controversial. But we ought to start from a common basis, and 
the common basis was that language which you participated in 
drafting. I am just making this point for the record.
    We will continue these discussions. I appreciate that.
    Ms. Cortese. I hope so.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I just want to invite President Reg Weaver back to Flint, 
Michigan.
    Your last trip there was very successful, and I appreciate 
it.
    Mr. Weaver. Thank you very much.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you.
    I would like to ask Ms. Van Hook and Ms. Hughes: Ms. Van 
Hook, you indicated that in South Carolina a school dropped 
from 40 percent to below 10 percent. The teachers in that 
school made more money, paid more.
    Ms. Van Hook. I am sorry, that they made more money?
    Mr. Scott. Right.
    Ms. Van Hook. Yes. They were participating in the 
performance pay program.
    Mr. Scott. How much more did they make?
    Ms. Van Hook. The average bonus money into the pool per 
teacher is $2,500, but then the bonuses can range anywhere from 
$300-ish to $5,000.
    So not every teacher gets the same bonus. It depended on 
three factors: One is their teacher classroom performance, one 
is their individual value-added student gains, and one is the 
school-wide value-added gains.
    Mr. Scott. The average is how much?
    Ms. Van Hook. The average per teacher into the pool is 
$2,500.
    Mr. Scott. Ms. Hughes, how much more did the teachers make 
in Washington?
    Mr. Hughes. At the school I teach at, in our first year we 
didn't do performance-based pay. So this is our first year. And 
I am not privy to how much the other teachers got as bonuses 
because it is very individualized.
    Mr. Scott. Okay.
    Mr. Weaver, you have indicated a Federal interest. One of 
the problems we are dealing with, and Title I recognizes this, 
and that is the schools most in need usually get the short end 
of the stick when left to the local devices.
    How could we make sure that the schools in need get the 
best teachers if it is not a TAP act structure?
    Mr. Weaver. I would suggest that we begin to no longer 
continue to talk about three things that we have been talking 
about for 25 years based on reports from committees and 
commissions, and that is only talking about standards 
assessment and accountability. As long as you only discuss 
those things and not talk about the other parts of the 
education puzzle, we will never be able to have for those 
schools what we know they need.
    I am suggesting that we talk about economic structure and 
tax base and adequate and equitable funding, because those are 
the kinds of things that are needed in order for children to be 
successful and in order for educators to be successful.
    We all know what needs to be done. But the question is, do 
we have the courage to make sure that the entire education 
puzzle is talked about, as opposed to just three parts?
    Mr. Scott. Well, Ms. Cortese, do you want to comment on 
that? Even within the school district, I think it is fair to 
say that the schools most in need are the least likely to get 
the best teachers.
    Mr. Weaver. Well, yes, because, in many instances, the 
teachers who go to the better-off suburban schools, they know 
in those particular schools the pay is better, there are less 
discipline problems, more parental involvement, the schools are 
safe and orderly----
    Mr. Scott. Even within your jurisdiction, you can use your 
seniority to go to the easiest schools. And my question is, how 
can we incentivize the best teachers to end up at the schools 
that most need their skills?
    Mr. Weaver. What I am suggesting to you, sir, is to make 
sure that in the schools where children have greatest needs 
that their environment be the same, their commitment on the 
part of the policymakers be the same as they are over here in 
those schools that have those particular kinds of things.
    You know what they are, and I know what they are. But the 
question is, why is it that the schools that we are talking 
about don't have those?
    Mr. Scott. Ms. Cortese?
    Ms. Cortese. In my testimony, I mentioned that we know what 
works. And I do want to refer back to what was the old 
chancellor's district in New York City, the zone schools in 
Miami-Dade, the incentive programs in the South Bronx. It isn't 
rocket science to figure out the reasons that teachers would go 
to schools that have high poverty, and what that takes is good 
leadership, safe and orderly schools, good professional 
development, teamwork. It also could involve a financial 
incentive, especially if there is an extended school day.
    So we know what factors work. And what we are trying to say 
to the members of this committee is, why don't we do what works 
rather than experiment once again? We know what attracts 
teachers to do that. I have given you the districts. There are 
more models around--the ABC District in California. We know 
what it takes to get teachers there.
    The other thing I just want to mention is that the real 
differences here lie between districts and not necessarily 
interdistricts.
    I want to take two examples. The average salary difference 
between a Title I and a non-Title I school is really not that 
large. And I fortunately took two districts from California. 
San Jose: The difference between Title I and non-Title I 
schools is 2.9 percent, which amounts to $1,890. In San Diego, 
it is $1,353, which is 2.7 percent. Now, there is a difference, 
but it certainly is not to the enormity that I think that we 
hear here.
    And the real differences, as I said, lie between the 
wealthier districts who abut the poorest districts. That is 
where you will find the largest difference, and that is where 
it goes back to the whole issue of equity.
    Mr. Weaver. I was in a school on Saturday in Florida, and 
it was an F school. And the question that you raised was the 
same question that they were raising there. And my comments 
were the same.
    What I found is that you had a committed principal, you had 
committed teachers. But what was happening, because of the 
label F, you had a number of students that were leaving. 
Parents were warning their kids not to go to that school 
because they didn't feel as though the school was successful. 
You had an administration that was not receiving the help and 
the support that they needed in order to make the school go 
from an F to a greater grade.
    But I indicated to them, you know, ``Just keep on working 
at it, and you will be successful,'' and encouraged the people 
that were there, the policymakers as well as parents, to make 
sure that they had the same opportunity for those kids that 
they had for the kids in the ABC schools.
    Chairman Miller. Any further questions?
    Thank you very much for your testimony and, again, your 
help to get us to this point in the process, and we look 
forward to continuing to work with you.
    Our next panel is made up of State and local 
administrators: Mr. David Brewer, who is the superintendent of 
schools, Los Angeles Unified School District; Joan Wodiska, who 
is the director of Education, Early Childhood and Workforce 
Committee, National Governors Association; Mike Casserly, who 
is the executive director of the Council of the Great City 
Schools; Paul Houston, who is the executive director of the 
American Association of School Administrators; LaRuth Gray, who 
is the deputy director of the Metropolitan Center for Urban 
Education; and Michael Resnick, who is the associate executive 
director of the National School Boards Association.
    Welcome.
    And as we make the transition here, we will begin.
    Admiral Brewer, thank you for taking the time to be with 
us.

   STATEMENT OF DAVID BREWER, SUPERINTENDENT OF SCHOOLS, LOS 
                ANGELES UNIFIED SCHOOL DISTRICT

    Mr. Brewer. Chairman Miller and distinguished members of 
the committee, thank you for inviting me. My name is David 
Brewer. I am the superintendent of schools for Los Angeles 
Unified School District.
    L.A. Unified is the second-largest and arguably most 
diverse school district in the Nation, spanning 27 ethnically 
and economically diverse cities. More than 91 percent of the 
district's 700,000 students are of color, and 76 percent of our 
students are eligible for the National School Lunch Program. 
More than 40 percent of our schools are English language 
learners, and of those, 94 percent speak Spanish as their 
native language. Eleven percent of our students are with 
disabilities. The district maintains more than 1,000 
educational centers, 608 of which are Title I.
    At LAUSD, we have experienced some success with the 
implementation of NCLB. An overwhelming majority of our 
teachers are highly qualified, our students continue to improve 
academically, and we remain committed to helping each and every 
one of our students meet adequate yearly progress targets.
    But NCLB's inflexible, one-size-fits-all approach to 
turning around vulnerable schools has not engendered the 
substantial gains that Congress envisioned, but rather has 
penalized schools that are making significant gains. Despite 
achieving growth across all subgroups and all grade levels 
greater than the State, reducing the achievement gap, and 
missing AYP by only three of the 46 elements, LAUSD is entering 
its third year of program improvement. This means the district 
cannot be a provider of supplemental educational services and 
faces physical and programmatic controls and sanctions.
    Of the district's 608 Title I schools, 309 have failed to 
meet AYP, 31 of which are newly identified. Fifty-one of the 
278 LAUSD schools identified for program improvement in 2005 
and 2006 made AYP for 2006 and 2007. This past school year, 15 
schools made AYP for 2 consecutive years and will exit program 
improvement status. Three of these schools were in corrective 
action and have now exited.
    Upon first glance, these numbers appear startling. More 
than half of our Title I schools are not making the grade. But 
that is not a fair conclusion. Let me offer the committee some 
specific examples.
    In 2007, Hamilton High School made proficiency targets for 
all significant subgroups. However, they failed to achieve AYP 
because they did not meet the 95 percent participation 
requirement. Eighty-nine percent of African American students 
took the English language arts exam and scored 37.1 percent 
proficient. The target was 23.3 percent. Ninety-two percent of 
Hispanics took the mathematics exam and scored 32.4 proficient. 
The target was 20.9 percent. Mathematically, even if enough 
additional students had taken the exams and none had scored 
proficient, the school would still have made AYP. However, 
because the rules are somewhat inflexible, the school failed to 
meet the achievement standards.
    Venice High School serves an area that encompasses a major 
homeless population. LAUSD has 13,571 homeless students. Two-
third of the Venice High School students are Hispanic, two-
thirds socioeconomically disadvantaged, and nearly half are 
ELLs. In 2007, every significant subgroup made the targeted 
proficiency rates, with the schoolwide scores twice the target, 
yet the school failed to make AYP because of participation 
rates. Most rates hovered around 94 percent and barely missed 
the 95 percent requirement. Again, the entire school will be 
penalized because the school cannot meet the participation 
rate, despite meeting twice the target proficiency rates for 
most of the subgroups.
    Congresswoman Linda Sanchez and I visited another one of 
our schools, San Miguel Elementary School, which serves an 
almost exclusive Hispanic population, 50 percent of whom are 
English language learners. This school met all AYP targets 
except one: English language learners failed to meet 
proficiency standards in English language arts by a mere 0.3 
percent. Importantly, this school reclassified English language 
learners at a higher rate than the district or the State and 
showed a steady growth pattern, with significant number of 
students moving from below basic to basic.
    Let me be very clear, with my military background, I will 
tell you point-blank, I am a strong believer in accountability. 
Now, we strongly believe in accountability, including 
participation rates, effective teachers and high academic 
achievement standards. But NCLB failed to provide the 
flexibility, room for innovation, resources targeted to those 
students who needed it the most, and proven strategies to 
assist our staff in turning around vulnerable schools.
    We believe these stories illustrate the district's everyday 
reality. And, fortunately, the discussion draft represents a 
positive first step to alleviate a number of our concerns.
    English language learners--Chairman Miller, we are very 
pleased to see that the discussion that we had and the 
discussion draft reflects Los Angeles Unified School District's 
recommendations regarding English language learners. We are 
particularly pleased that the draft makes improvement toward 
better measuring and teaching English language learners. By 
definition, an English language learner is not proficient in 
English. Therefore, as the numbers require to test proficient 
or advanced continues to climb, it would be virtually 
impossible for any school with a significant number of ELLs to 
make AYP. The proposed change recognizes that fact and merely 
allows a school to take credit for its successes. To date, 
California has not implemented effective native language 
assessments, which has greatly impacted our ability to gauge 
the academic achievement of our ELL population.
    Let me wrap up by saying this: There are several things 
that we support, and we think that the draft language is on 
track. We have schools that are coming out of P.I. status, and 
they are coming out of P.I. status with proven, what I call, 
methodologies. I have schools who basically are doing extremely 
well, but the biggest problem I am having in this district is 
being able to benchmark and replicate those particular 
improvements across the system. What I need are resources and 
flexibility in order for me, as a superintendent, and for me 
and for the board to go into these schools and make the 
requisite changes and can have, for example, intervention 
inside of schools. Supplemental educational services are okay, 
but frankly speaking, they do not get the job done.
    We need learning teams. I need funding to help teachers 
collaborate. When teachers collaborate and work together, they 
do well. So we need those kinds of resources in order to make 
this work.
    Thank you.
    [The statement of Mr. Brewer follows:]

Prepared Statement of David L. Brewer III, Superintendent, Los Angeles 
                        Unified School District

    Good afternoon, my name is David Brewer, and I am the 
Superintendent of the Los Angeles Unified School District (LAUSD). 
Thank you for the opportunity to testify at this hearing on the 
reauthorization of the Elementary and Secondary Education Act.
    LAUSD is the second largest and arguably most diverse school 
district in the nation--spanning 27 ethnically and economically diverse 
cities. More than 91% of the District's 700,000 students are of color 
and 75% of our students are eligible for the National School Lunch 
Program. More than 40% of our students are English language learners 
(ELL), and of those, 94% speak Spanish as their native language. Eleven 
percent are students with disabilities. The district maintains more 
than 1,000 educational centers, 608 of which are Title I schools.
    At LAUSD, we have experienced some success with the implementation 
of NCLB--an overwhelming majority of our teachers are highly-qualified, 
our students continue to improve academically, and we remain committed 
to helping each and every one of our students meet adequate yearly 
progress (AYP) targets. But, NCLB's inflexible ``one size fits all'' 
approach to turning around vulnerable schools has not engendered the 
substantial gains in achievement Congress envisioned, but rather has 
penalized schools that are making significant gains.
    Despite achieving growth across all subgroups and at all grade 
levels greater than the state, reducing the achievement gap, and 
missing AYP on only three of the forty-six elements1, LAUSD is entering 
its third year of program improvement. This means the District cannot 
be a provider of Supplemental Educational Services and faces fiscal and 
programmatic controls and sanctions. Of the District's 608 Title I 
schools, 309 have failed to meet AYP--31 of which are newly identified. 
51 of the 278 LAUSD schools identified for program improvement in 2005-
06 made AYP for 2006-07. This past school year, fifteen schools made 
AYP for two consecutive years and will exit program improvement status; 
three of these schools were in corrective action and have now exited. 
Upon first glance, these numbers appear startling. More than half of 
our Title I schools are not making the grade, but that isn't a fair 
conclusion. Let me offer the committee specific examples of schools 
that failed to meet AYP:
    The following three criterion were not met:
    <bullet> 23% proficient in English language arts--21.3% English 
Learners and 12.8% Students with Disabilities were proficient in 
English Language Arts.
    <bullet> 23.7% proficient in Mathematics--15.3% LAUSD students with 
disabilities were proficient.
    <bullet> Have a graduation rate of 82.9%--The graduation rate 
declined from 65.6% in 2006 to 62.8% in 2008, a 2.8% percent decline in 
the first year that students were mandated to pass the high school exit 
exam to graduate.
    In 2007, Hamilton High School students met proficiency targets for 
all significant subgroups. However, they failed to achieve AYP because 
they did not meet the 95% participation requirement. Eighty-nine 
percent of African American students took the English Language Arts 
exam, and scored 37.1% proficient (the target was 23.3%). Ninety-two 
percent of Hispanic students took the mathematics exam and scored 32.4% 
proficient (the target was 20.9%). Mathematically, even if enough 
additional students had taken the exams and none had scored proficient, 
the school would still have made AYP. However, because the rules are so 
inflexible, the school failed to meet the achievement standards.
    Venice High School serves an area that encompasses a major homeless 
population. Two-thirds of the students are Hispanic, two-thirds socio-
economically disadvantaged, and nearly half are ELL's. In 2007, every 
significant sub-group made the target proficiency rates, with the 
school wide scores twice the target. Yet the school failed to make AYP 
because of participation rates. Most rates hovered around 94% and 
barely missed the 95% requirement. Again, the entire school will be 
penalized because the school can't meet the participation requirement.
    San Miguel Elementary School serves an almost exclusively Hispanic 
population--50% of whom are ELL's. This school met all AYP targets 
except one. English language learners failed to meet proficiency 
standards in English language arts by a mere 0.1%. Importantly, this 
school reclassified ELL's at a higher rate than the District or the 
state, and showed a steady growth pattern with significant numbers of 
students moving from below basic to basic.
    We strongly agree with the need for accountability, effective 
teachers, and high academic achievement standards, but NCLB failed to 
provide the flexibility, room for innovation, resources targeted to 
those students who need it most, and the proven strategies to assist 
our staff in turning around vulnerable schools. We believe these 
stories illustrate the District's everyday reality. Fortunately, the 
discussion draft represents a positive first step to alleviate a number 
of our concerns.
English Language Learners
    We were pleased to see that the discussion draft reflects our 
recommendations regarding English Language Learners. We are 
particularly pleased that the draft makes improvement toward better 
measuring and teaching English language learners. By definition, an 
English language learner is not proficient in English. Therefore, as 
the numbers required to test proficient or advanced continues to climb, 
it will be virtually impossible for any school with a significant 
number of ELL's to make AYP. The proposed change recognizes that fact 
and merely allows a school to take credit for its successes.
    To date, California has not fully implemented effective native 
language assessments, which has greatly hindered our ability to gauge 
the academic achievement of our ELL population. The ability to test 
ELL's in the language most appropriate is educationally sound and will 
provide more accurate results. We do not want ELL's, or any students, 
to languish without recognition of their educational attainment. The 
modifications proposed would continue to assess these students and 
formally monitor their growth, but would do so without unfairly 
penalizing a school with unfair expectations. We are pleased to see 
that the discussion draft requires states to develop native language 
assessments in two years and that schools can use language proficiency 
tests in place of regular reading tests during that period.
    Moreover, we are also pleased to see that states would have to 
identify testing accommodations for ELL's and develop a written plan 
for how teachers will be prepared to utilize accommodations 
appropriately. The Miller/McKeon draft provision to continue to count 
ELL's for three years after reclassification is an important and much 
needed step forward.
Increased Focus on Secondary Schools
    We are pleased to see the increased focus on secondary schools in 
the discussion draft. We would greatly benefit from the expansion of 
resources during this critical and often under-resourced stage of 
education. The Graduation Promise Fund offers a promising solution to 
the overwhelming challenge of improving achievement in middle and 
senior high schools.
Growth Model
    LAUSD strongly supports the required development of a statewide 
longitudinal tracking system and the implementation of a comprehensive 
growth model that provides credit to schools for gains made toward the 
annual measurable objectives. We are pleased that the draft would allow 
states to measure growth in individual student achievement over time 
instead of comparing cohorts of students.
    While the District has the capacity to implement the growth model 
today, the state of California does not. I urge the committee to allow 
local educational agencies to adopt and implement a growth model for 
AYP purposes.
Multiple Indicators/Assessments
    We welcome multiple measures that will help provide a comprehensive 
picture of student achievement rather than a snap shot based solely on 
a single test. While we like most of the categories enumerated in the 
draft's list of multiple indicators, we have significant concerns about 
including college enrollment rates. To track college enrollment would 
require an enormous data gathering effort and would not necessarily be 
accurate. FERPA rules would make it difficult to track students who are 
18 years and older. We do know how many students are college-ready, but 
would find it difficult to track enrollment. Additionally, we know that 
some high schools are very successful in enrolling their graduates in 
college, but those students are not necessarily those who complete even 
their first year. Because those elements measured become the required, 
we fear that college enrollment would become the only measure of 
``success'' and would negate the value of career preparation that does 
not result in college.
Tiered Sanctions
    Current law required schools that failed to make AYP to implement 
the same menu of interventions with no consideration of its 
circumstances. The discussion draft creates a two-tiered intervention 
system that would categorize schools that fail to meet AYP as 
``priority'' or ``high priority'' schools, and allow them to implement 
corrective interventions accordingly. We are pleased that the draft 
moves away from a general prescription for all schools and provides 
schools--in conjunction with school districts and states--with some 
flexibility to implement targeted and specific interventions.
    It is important to note that we remain concerned about the draft's 
required use of interventions such as supplemental education services. 
To date, there has been no credible research that concludes that 
supplemental education services are effective at improving student 
achievement. The most vulnerable schools should not be required to 
spend limited Title I funds on unproven programs that divert resources 
away from research based interventions.
Comparability
    We agree with the committee that teacher quality is crucial to the 
achievement of our students, and we are pleased that the committee 
sought to address equitable placement of highly-qualified and effective 
teachers. However, we have significant concerns about the proposed 
requirement regarding comparability of teacher salaries. The 
implementation of this provision would require burdensome record 
keeping as well as mandatory transfers of teachers (a potential 
conflict with collective bargaining agreements). Teachers must already 
meet the requirements to be highly qualified and teach within their 
designated subject fields. Conceivably, a school may be required to 
release a dynamic teacher with outstanding academic preparation in 
order to hire a more seasoned teacher with lesser qualifications. We 
fail to see how that could improve instruction for our students. The 
requirement to have comparable expenditures of state and local funds 
among schools should be just that, and schools should determine how to 
most effectively appropriate funds to meet the needs of students.
Increased Administrative Costs and Paperwork Requirements
    The draft does not recognize the increased administrative and 
record-keeping costs that would be required. Some of the areas that 
would increase costs include the requirement to explain why consensus 
was not reached with a private school, tracking college enrollment 
rates, and the requirement to make the supplemental education services 
application available online, for example. The meager portion of 
federal funds that can be spent on administrative activities are 
already insufficient to cover the full costs, and some of the elements 
in this draft would increase the encroachment of Title I on school 
district general funds.
Conclusion
    I would like to close by sharing with you one of the District's 
most significant accomplishments. I am very proud to say that the only 
high school in California to ever exit after being in Program 
Improvement for five years is an LAUSD school--Banning Senior High 
School. This achievement was the result of a concerted, sustained 
effort on the part of the school, the District, and the community, and 
reflects strong leadership at the site.
    According to Banning Principal Michael Summe:
    <bullet> The staff focused on developing a strong partnership 
between teacher, administrators and parents.
    <bullet> Data was used to develop individual plans for each student 
to identify their strengths and weaknesses, and services were provided 
according to their needs.
    <bullet> The District supported the infrastructure by providing 
extra administrators (reading recovery administrator, bridge 
coordinator, dropout program advisor, and academic coaches). The 
District also identified and supported Achievement Solutions as the 
professional development provider, initiated periodic assessments for 
all schools to inform instruction, and provided infrastructure 
requirements to sustain small learning communities.
    <bullet> Banning was the first comprehensive high school to have an 
approved plan for wall-to-wall small learning communities. Businesses 
and the Port of Los Angeles provide internships, enrichment activities, 
and academic supports.
    <bullet> Professional development was determined by academic 
departments. The school has exceptionally strong math and English 
departments, and they developed interventions that focus on standards 
and reaching students.
    We know that with adequate resources we can replicate the Banning 
Senior High School model around the District, but we need Congress to 
pass a law that will provide the much needed flexibility, resources, 
and room to develop and implement innovative and proven programs.
    I know that the members of this committee have a serious task ahead 
of them with the reauthorization of NCLB and I know that you all care 
about the future of our children as much as we do at LAUSD. I thank you 
for the opportunity to share our thoughts and concerns, and I welcome 
your questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Wodiska?

STATEMENT OF JOAN WODISKA, DIRECTOR, EDUCATION, EARLY CHILDHOOD 
    AND WORKFORCE COMMITTEE, NATIONAL GOVERNORS ASSOCIATION

    Ms. Wodiska. Chairman Miller, members of the committee, 
thank you for inviting the National Governors Association to 
testify today. My name is Joan Wodiska, and I am the director 
of the NGA Education, Early Childhood and Workforce Committee. 
I am pleased to be here on behalf of the Nation's Governors. 
Governors Carcieri and Henry wanted to be here but were unable 
to be, given their tight schedules and the short time frame.
    The Nation's Governors call on Congress to refine and 
reauthorize the No Child Left Behind Act. They believe that 
NCLB is a landmark Federal education law that brought 
transparency and accountability to our Nation's public schools. 
The law fundamentally altered the expectations of our public 
education system from one of compulsory attendance to 
compulsory performance for every student. Governors embrace 
this goal and are committed to ensuring that every student 
succeeds.
    For this reason, Governors are very encouraged by a number 
of the proposed modifications in the initial discussion draft 
that appear consistent with NGA's NCLB recommendations. 
Specifically, I would like to highlight allowing growth models, 
the differentiation of consequences, the classification of 
priority and high-priority schools, flexibility to assess 
students with disabilities, reforms to the peer review process, 
and support for high school reform.
    Governors also appreciate that the proposed high school 
graduation rate is consistent with the NGA high school compact 
endorsed by 48 governors. NGA looks forward to working with the 
committee to further refine the time frame, targets and the use 
of the 5-year graduation rate to ensure that NCLB can build off 
and support the work of Governors.
    Governors also share a number of concerns with the 
discussion draft that, if enacted, could slow or reverse State 
advances. Throughout our Nation's history, education has 
primarily and properly been a State and local responsibility. 
States and schools are the laboratories of education 
innovation.
    And despite this, NCLB scarcely recognizes that Governors 
exist. A quick scan of the 435-page discussion draft of Title I 
tells it all: The Secretary of Education is referenced 220 
times. The Secretary of Interior appears 23 times. The word 
``Governor'' appears seven times. If our Nation is to help all 
students achieve 100 percent proficiency, No Child Left Behind 
must ensure that the chief executive of each State is at the 
table.
    The discussion draft also does not support a strong 
relationship between States and local school reform, especially 
in the area of improvement. State best practices in innovation 
should drive and inform Federal policy, not the other way 
around.
    In addition, Governors have expressed concern with the 
proposed Federal mandate to test English language learners in 
their native language and to develop new tests for students 
with disabilities.
    Also troubling is the proposed penalty that States would 
lose 25 percent of their administrative funds if the new 
testing mandates are not met within 2 years. Struggling States 
need a helping hand from the Federal Government, not a shove 
backward.
    And while Governors are encouraged by the concept of local 
school improvement plans, they are concerned by the discussion 
draft's dogmatic requirements and the lack of State 
involvement. Overly prescriptive improvement plans are more 
likely to result in paralysis by analysis rather than 
empowering schools to succeed.
    The draft also mandates that States create federally 
prescribed longitudinal data systems. Governors recognize and 
value the importance of the data. However, insufficient funding 
and time is provided to help States create these costly and 
complex systems. Additionally, the draft would unjustifiably 
alter and upset the approximately 29 existing and working State 
P16 systems.
    Lastly, something missing from the draft that Governors 
hope to see is support for the creation of P16 councils. 
Governors support State P16 councils and hope that this proven 
State best practice can be incorporated into the 
reauthorization.
    Governors also care about and are carefully reviewing a 
number of other provisions within the discussion draft, 
including the standard ``n size,'' teacher quality and premium 
pay, a system of multiple measures, high school reform and 
college and work readiness. Governors continue to review these 
areas of interest and intend to follow up with the committee in 
the days and weeks ahead.
    NGA is optimistic that Governors' concerns can be addressed 
with modest revisions to the draft as this process moves 
forward. Governors have learned a lot since the passage of 
NCLB. They have learned what works, what needs to be reformed.
    The last few years have been filled with a number of 
challenges as well as a few opportunities, but Governors are 
confident that they are ready to work with you to help achieve 
our national goal of helping every student succeed.
    Thank you.
    [The statement of Ms. Wodiska follows:]

   Prepared Statement of Joan E. Wodiska, Director, Education, Early 
   Childhood and Workforce Committee, National Governors Association

    Chairman Miller, Ranking Member McKeon, members of the Committee, 
thank you for inviting the National Governors Association (NGA) to 
testify today.
    My name is Joan Wodiska, and I am the Director of NGA's Education, 
Early Childhood and Workforce Committee. I am pleased to be here on 
behalf of the nation's governors to discuss NGA's perspective on the 
need to reauthorize No Child Left Behind (NCLB) and the recently 
released discussion draft of Title I.
    The reauthorization of the No Child Left Behind Act comes at a time 
of significant economic and global change, and provides a critical 
opportunity for all levels of government to renew our commitment to 
high standards and partner together to strengthen education.
    According to a recent nationwide public opinion poll conducted by 
Dr. Frank Luntz for the nation's governors, 9 out of 10 Americans--
Democrats and Republicans alike--believe that if our nation fails to 
innovate, our children and our economy will be left behind. And while 
Americans believe we have the most innovative nation in the world at 
the moment--ahead of China and Japan--they see America losing ground in 
20 years. Why? According to the poll, Americans believe that other 
nations are more committed to education. America's economic future is 
inextricably linked to education and the public's perception of our 
education system. Simply put, America cannot lead the new global 
economy if our education system is lagging behind.
    Our nation has a powerful incentive to improve the education 
pipeline. In the next decade, two-thirds of new jobs will require some 
postsecondary education beyond a high school degree. To be competitive 
and create the conditions for strong economic growth, states need to 
help all of their residents increase their skills and be prepared for 
lifelong learning. Much is at stake.
Governors Call on Congress to Reauthorize NCLB
    No Child Left Behind is a landmark piece of federal education 
policy that brought transparency and accountability to our nation's 
public schools. NCLB provided an important framework for states, 
schools, and parents to focus on student achievement and ensure our 
nation's competitiveness. Governors call on Congress to refine and 
reauthorize this important law.
    Governors are committed to ensuring that every student succeeds--
not just some students, most students, or the `bright' students. 
Governors believe that education policy must improve student learning 
and enable all students to reach academic proficiency. Through 
disaggregated data, annual testing, and transparency, NCLB is helping 
states and schools focus on student academic achievement and, 
ultimately, close the achievement gap.
    Governors' litmus test for NCLB and any proposed changes to the law 
is simple and straightforward: Does it help improve student learning? 
Any changes should adhere to this principle and not unnecessarily limit 
states' or schools' ability to teach and prepare every child for 
success.
    Governors are encouraged by a number of the proposed modifications 
in the initial discussion draft of Title I. At the same time, they 
continue to review proposed changes that could potentially slow or 
reverse state progress in education or constrain school reform efforts. 
Governors believe that the Committee can adequately address these 
concerns as it moves forward through the process.
Areas of Support
    Governors are encouraged by the following modifications that appear 
consistent with NGA's NCLB recommendations:
    <bullet> differentiated consequences;
    <bullet> classification of the Priority/High Priority school 
designations;
    <bullet> providing flexibility to assess students with 
disabilities;
    <bullet> recognizing success and supporting proactive solutions;
    <bullet> a reformed peer review process; and
    <bullet> the proposal of a uniform, disaggregated graduation rate.
    With regard to high school reform and a common high school 
graduation rate, several years ago governors led the difficult and 
important work of redesigning America's high schools. This work can and 
should be supported through the reauthorization of NCLB to ensure that 
every student graduates from high school prepared to compete in a 
global economy. Governors are pleased that the proposed high school 
graduation rate is consistent with the NGA High School Compact that was 
endorsed by 48 governors. The discussion draft allows states to utilize 
an interim alternative high school graduation rate, allows for 
exceptions for special education diplomas and alternative education 
settings, and provides flexibility through alternative targets. 
However, governors urge the Committee to work with NGA to further 
refine the timeframe, targets, and how to most appropriately use the 
five year graduation rate for accountability purposes.
Areas of Concern
    Role of Governors/States: Governors are concerned that the 
discussion draft does not adequately recognize the role of governors 
and states in education. Specifically, the law needs to recognize 
``governors'' as well as state education agencies as valued partners in 
education reform. The bill should support a stronger relationship 
between governors, state education agencies, school districts, and 
schools to achieve transformational change of our education system and 
to help all students achieve proficiency.
    Education is primarily and properly a state responsibility. 
Elementary and secondary education is broadly defined in state 
constitutions, specified in state law, and implemented by school 
districts. Governors, not the federal government, are constitutionally 
responsible for the education of their citizens. Governors must 
maintain the authority to oversee the operation of education in their 
states. Despite this fact, the discussion draft does not recognize the 
leading role of governors in education reform.
    NCLB was intended to provide a framework for accountability. NCLB 
should build upon existing sound state education laws and practices, 
including the use of existing state assessments to determine student 
progress. For this reason, state best practices and innovation should 
drive and inform federal policy, not the other way around.
    To this end, NCLB needs to empower states, and schools, to learn 
what works best to improve and support student achievement. NCLB can 
support sound state education practices and reinforce state and local 
control by incorporating language that (1) reinforces the role of 
states (including governors and other state officials); (2) allows 
other activities, solutions, or strategies ``as identified by the 
state''; and (3) recognizes that provisions must be ``consistent with 
state law.''
    Governors strongly support the use of accountability, but the 
measures, systems, and solutions must be determined at the state level, 
not by the federal government. Maximum flexibility in designing state 
accountability systems, including testing, is critical to preserve the 
amalgamation of federal funding, local control of educating, and state 
responsibility for system-wide reform. In short, NCLB must recognize 
that one-size-does-not-fit-all and that the nation's governors are a 
powerful leverage point to reform education.
    Special Education: According to the discussion draft, a 
declassified special education student would remain in the special 
education subgroup for three years after moving out of the subgroup. 
Governors are concerned that this provision will seriously undermine 
accountability and state progress to raise academic standards for 
students with disabilities. The discussion draft would also federally 
require states to develop three different assessments for students with 
disabilities. The cost and feasibility of this federal mandate are 
unclear. NGA encourages Congress to refrain from mandating any 
additional federal testing requirements and to allow states to 
determine the appropriate test instrument to assess student 
performance.
    English Language Learners (ELLs): Governors appreciate the 
provision giving states the flexibility to test the English language 
proficiency of new English Language Learners, the ability to 
appropriately reflect student performance gains, and to have those 
scores count for accountability purposes. Governors also appreciate the 
recognition that the development of new assessment tools is costly and 
will take time.
    While these are improvements in the current law, the discussion 
draft would also require states to develop assessments in the native 
language for a group of ELLs that compose at least 10% of the school 
population, and may test any ELL student for up to seven years in their 
native language. Governors are concerned that the federal requirement 
to assess students in their native language and the provision to allow 
assessment in a native language for up to seven years conflicts with 
the goal of obtaining proficiency in English. In some states, ELLs are 
being taught exclusively in English. Research is clear that students 
should be tested in the language in which they are taught. The cost, 
feasibility, and validity of this federal mandate are also unclear. NGA 
urges Congress to allow states to retain the authority to determine the 
appropriate test instrument to assess student performance.
    State Penalties: States would lose 25% of administrative funding if 
ELL and special education assessments are not available within two 
years of passage of the bill. Governors are concerned that this penalty 
would punish states and further hinder the development of valid and 
reliable assessment tools.
    School Improvement and Assistance Programs: According to the 
discussion draft, local education agencies (LEAs) would be required to 
develop detailed school improvement plans, subject to peer review by 
individuals chosen from the LEA. While governors are encouraged by the 
concept of developing school improvement plans, states are concerned by 
the prescriptive nature of the plans, the lack of a relationship to or 
oversight by the state education agency, and the need for a third party 
objective peer review process. In particular, NGA is concerned that the 
overly prescriptive data requirements on local schools may result in 
`paralysis by analysis' rather than empowering schools to focus on key 
contributors to student and teacher success. Governors are also 
concerned that struggling schools may lack the capacity to develop 
strategies that will turn around their schools.
    NGA encourages Congress to work with Governors to significantly 
improve this section of the discussion draft. The discussion draft 
should build upon state established priorities and research-based 
strategies that work to improve student achievement and teacher 
capacity.
    Longitudinal Data Systems: According to the discussion draft, 
states would be required to create federally prescribed longitudinal 
data systems to monitor student academic progress across grades, 
despite the fact that many states already have existing data systems. 
Longitudinal data systems are an essential tool in states' efforts to 
close the achievement gap. Governors recognize the importance of these 
information systems for diagnosing performance and determining 
appropriate solutions; however, governors are concerned that an 
insufficient amount of funding and time will be available to develop 
and institute these costly systems, and that existing systems may need 
to be unjustifiably modified.
    The discussion draft is unnecessarily prescriptive including its 
treatment of existing data systems, requiring states to form 
committees, requiring the federal government to certify state data 
systems with independent audits, and penalizing states for failure to 
implement such systems. While governors believe that data systems must 
secure students' privacy rights, the draft legislation interferes with 
states' need to use student data for legitimate educational purposes.
    States are making substantial progress in building data systems to 
monitor student progress from early education to college or beyond. In 
2006, only 13 states had data systems in place to calculate a four-
year, longitudinal graduation rate; now 29 states can do so. However, 
states need more resources and time to finish this work.
Additional Gubernatorial Priorities
    As part of their efforts to improve the competitiveness of states 
and the nation, the nation's governors have identified a number of 
additional priorities that the Committee should consider as part of its 
reauthorization of NCLB.
    Voluntary International Benchmarking: The discussion draft proposes 
that the National Academy of Sciences evaluate state standards. This 
proposal falls short of the recommendations proposed by the nation's 
governors to help ensure that our students will be internationally 
competitive. As the Chairman of NGA, Governor Pawlenty of Minnesota 
would say, students no longer compete against their peers in 
neighboring cities or even states--our students must compete in the 
global economy. Unfortunately, neither the NCLB discussion draft nor 
the recently signed into law America COMPETES Act addresses governors' 
recommendation to assist states voluntarily benchmark state standards 
to skills measured on the Program for International Student Assessment 
(PISA) or Trends in International Mathematics and Science Study 
(TIMSS).
    State P-16 Councils: Governors also support of the creation of 
state P-16 councils. P-16 councils are innovative and a proven best 
practice that should be accelerated across all states. Several of the 
major advantages of state P-16 councils include:
    <bullet> smoothing student transitions from one level of learning 
to the next, e.g. high school to college;
    <bullet> aligning teacher preparation with the demands of today's 
and tomorrow's classrooms;
    <bullet> reducing costly administrative inefficiencies, 
duplication, or inconsistencies;
    <bullet> identifying and fixing holes in the education pipeline; 
and
    <bullet> closing the achievement gap and improving outcomes for all 
students.
    Most notably, state P-16 councils are critical to help prepare 
students for postsecondary education. Specifically, state P-16 councils 
can:
    <bullet> identify the skill gaps for students to prepare and be 
successful in higher education;
    <bullet> redesign high school graduation standards to match college 
entrance requirements;
    <bullet> target for improvement schools that produce students with 
high remediation rates; and
    <bullet> improve student postsecondary success and attainment 
rates.
    Additional Areas of Consideration: The nation's governors also care 
about and are reviewing several other provisions in the discussion 
draft including the proposed standard N-size, teacher quality and 
premium pay, a system of multiple measures, the alignment of state 
standards and assessments to college or work readiness, and the 
Graduation Promise Fund. Governors continue to review these areas of 
interest and intend to follow-up with the Committee during the 
legislative process.
Conclusion
    When I was a child, my mother said to me, `Anything worth doing is 
hard. And anything not hard, probably isn't worth much.' Education 
reform is difficult; it is also worth doing. Governors learned a lot 
since the passage of NCLB about what works and what needed to be 
reformed. The last few years were filled with both challenges and 
opportunities as we moved to improve education for our nation's 
students. However, work remains to achieve our national goal of helping 
every student succeed.
    Governors are encouraged by the Committee's efforts to reauthorize 
NCLB in a timely manner. Across the country, governors stand ready to 
work with Congress and the Administration to refine and reauthorize the 
No Child Left Behind Act.
  attachments: nga official nclb policy (ecw-2) education reform; nga-
    ccsso-nasbe joint nclb recommendations; ecw-2. education reform
2.1 Preamble
    In today's competitive global economy, our kindergarten through 
twelfth grade (K-12) education system must prepare students to be 
successful in work, life, and in an ever and rapidly changing world. 
Governors support the tenets of the No Child Left Behind Act (NCLB) and 
are working to implement the law, close the achievement gap, and 
ultimately, improve achievement among all students. Congress should 
work closely with states to provide the necessary flexibility, while 
maintaining the principles of the law and holding education to the 
highest standard, to ensure that NCLB is working for states, school 
districts, and most importantly, our nation's children. During the past 
decade, the nation's Governors have been bold and effective leaders in 
the education reform movement. Under gubernatorial leadership, states 
have set higher standards for students and followed through with 
substantially increased funding to support districts and schools in 
helping students reach those standards. Governors have been at the 
forefront of the standards-based movement to improve student 
achievement. However, Governors recognize that much work still remains 
to achieve America's education goals.
    Education is primarily and properly a state responsibility. 
Governors also recognize the important and supporting role of the 
federal government in education. The federal government can assist 
states by providing extra and essential assistance for students most in 
need, recognizing and assisting teachers, and supporting Governors' 
leadership authority through NCLB.
    In the upcoming reauthorization of NCLB, Governors believe that 
Congress should reinforce and support sound state education practices, 
roll-back restrictions on states' ability to align and integrate 
delivery systems for students, assist and recognize the needs of our 
nation's teachers, and ultimately, support state efforts to raise 
student achievement. For this reason, Governors urge Congress to adopt 
and support the following recommendations to further reform elementary 
and secondary education.
2.2 The Role of Governors
    Elementary and secondary education policy is broadly defined in 
state constitutions, specified in state statutes, and implemented by 
school districts. Federal law should support gubernatorial authority 
and state responsibility for K-12 education. Governors must maintain 
the authority to oversee the operation of education in their states at 
all levels. The fragmentation and diffusion of education governance 
creates competing interests and conflicts at a time when the system 
needs to move toward collective goals for all students. For this 
reason, NCLB must recognize and reinforce the leading role of Governors 
in education. Governors believe it is essential for state education 
agencies to adhere fully to the consultation requirements of NCLB. The 
U.S. Secretary of Education should require certification of compliance.
2.3 P-16 Alignment of the Education System
    Governors also have taken the lead in recognizing the fundamental 
state responsibility for a seamless progression from preschool through 
college (P-16) to lifelong learning. P-16 alignment is critical to 
ensure that students are prepared for and successful at each step 
within the education system and prepared for work, postsecondary 
education, and life. Recognition of this seamless educational continuum 
is important in fashioning federal education policies. Today's 
competitive global economies demand that our education systems start at 
an early age, be available to everyone, and continue for a lifetime. 
This can best be achieved through a vigorous federal-state-local 
partnership. Moreover, vigorous coordination among federal, state, and 
local education entities is important in fostering P-16 alignment of 
education laws. Congress should align the requirements, goals, and 
outcomes of NCLB with other federal education and workforce laws, 
promoting excellent education and smooth transitions for all students.
2.4 Accountability
    Key to states' success is the use of accountability systems. Every 
state has developed new academic standards and assessments that measure 
progress against those standards. States are using standards and 
assessments as the foundation to build accountability systems that 
inform the public about the performance of students across the state 
and call for specific actions to be taken if a school or school 
district is not able to help its students do their best. Each state's 
accountability system is different because it aims to reflect the 
appropriate role that the state plays in education reform at the local 
level.
    2.4.1 State Accountability Systems. Governors support an education 
system that focuses on performance, is aligned with the state's 
standards, and incorporates strong accountability mechanisms. Federal 
education resources must be accompanied by broad flexibility to ensure 
that those who work within the education system can be held accountable 
for their results. Governors strongly support the use of accountability 
measures, but these measures must be determined at the state level, not 
the federal level. Maximum flexibility in designing state 
accountability systems, including testing, is critical to preserve the 
amalgamation of federal funding, local control of education, and state 
responsibility for system-wide reform. Governors acknowledge that with 
this additional flexibility comes an added responsibility for states to 
develop their accountability systems, including testing, and to satisfy 
the intent of NCLB.
    2.4.2 Assessing Student and School Performance. Governors recognize 
the critical importance of meaningful annual assessment of students and 
schools and the need for reliable, disaggregated data to understand 
student learning as well as the strengths and needs within a school. 
Governors support the requirement in NCLB to annually assess students 
in reading and math in grades three through eight, as well as once in 
high school, and believe that a combination of state and local testing 
satisfies federal assessment requirements. The U.S. Department of 
Education should approve a state's assessment plan as being in 
compliance with any new federal requirements for annual state student 
assessments if the plan meets the goals of federal accountability 
policies.
    2.4.3 Adequate Yearly Progress. Governors support measuring 
adequate yearly progress (AYP) for students to provide a clear picture 
of student performance at the state and local levels, and to diagnose 
areas of need for all subgroups of students. While refinement of AYP 
may be necessary to reflect real-world student progress, the tenets of 
the law to ensure that ``no child is left behind'' must be fiercely 
preserved to ensure that all students achieve their potential and that 
schools are held accountable for student performance.
    Governors support the use of voluntary value-added or growth models 
to determine AYP. Congress should work closely with Governors in the 
development of legislation dealing with value-added or growth models to 
ensure maximum state flexibility and utility, while preserving the 
tenets of NCLB to raise student achievement. All states should be 
eligible to utilize value-added or growth models.
    Limited English Proficient (LEP) students, one of the fastest 
growing groups of students in the nation, often have difficulties 
participating in assessments due to language barriers. Congress and the 
Administration should work with Governors to provide flexibility within 
AYP to ensure that LEP students are given adequate time to overcome 
language barriers and make academic gains, and that LEP student gains 
are accurately reflected within school data.
    Congress and the Administration should work to refine AYP to 
reflect the academic progress of students with disabilities. Governors 
believe that flexibility on alternate and modified assessments for 
students with disabilities should be addressed in the law. 
Additionally, Congress should continue to work with Governors to ensure 
accountability for the education of students with disabilities while 
also providing flexibility for and recognition of schools and states 
making progress.
    Congress and the Administration should continue to work with 
Governors to ensure that states have the flexibility needed to 
appropriately measure the progress of all students while vigorously 
working to close the achievement gap among struggling students.
    2.4.4 Data Collection. Congress and the Administration should 
promote, reward, and fund the voluntary use of state P-16 data 
collection systems. Exemplary state longitudinal data systems that 
measure student progress will help pinpoint the holes in the education 
pipeline by improving system-wide accountability and the relationship 
between teaching and learning, as well as inform resource allocation. 
Congress and the Administration must align NCLB and other federal 
education data requirements.
2.5 Teacher Quality
    Congress should support state efforts to create a highly qualified 
teacher workforce. Governors believe that high standards for the 
teaching profession are central to improving student performance. 
States are adopting different strategies to improve teacher 
performance. Some successful strategies include high-quality and 
relevant professional development activities for teachers; teacher 
testing and certification based on high standards, such as those 
developed by the National Board for Professional Teaching Standards; 
merit or performance pay; teacher academies; alternative routes to 
certification; and other methods to ensure that teachers in all 
classrooms have knowledge of both subject matter and teaching methods. 
Professional development activities should be aligned with the state's 
content and student performance standards and should be tied to 
improving student achievement.
    Governors support and recognize the importance of having highly 
qualified teachers in the classroom and are addressing issues of 
teacher preparation, licensure, induction, professional development, 
compensation, and advancement. In addition, states are rethinking how 
postsecondary institutions should prepare and provide ongoing support 
for school professionals. Through these efforts, states are making 
progress towards recruiting and retaining highly qualified teachers. 
While Governors support current state efforts to align teacher 
preparation and school leader preparation programs, any federalized 
efforts to link teacher preparation programs with student performance 
should be opposed by Congress. Instead, Congress should support state 
or federal strategies to encourage our nation's best teachers to accept 
the most challenging teaching assignments.
    Congress should retain its emphasis on highly qualified teachers in 
every classroom so that all students may benefit from strong teaching. 
However, Governors urge Congress to provide and codify flexibility for 
teachers of multiple subjects in high-need areas, particularly for 
special education teachers and teachers in rural areas. Flexibility is 
crucial to ameliorating excessive burdens and teacher shortages due to 
highly qualified teacher requirements.
2.6 NCLB Rewards, Incentives, and Sanctions
    2.6.1 Rewards or Incentives. NCLB should be amended to offer states 
rewards or incentives for raising student performance and holding 
schools to high standards. Congress should work closely with Governors 
to design an incentive or reward system in NCLB. Governors also believe 
that states should be enabled to reward or incentivize schools and 
school districts that raise student achievement. States, local 
districts, and schools that improve should not be penalized by the 
withdrawal of rewards or incentives when increased student achievement 
is reached. Federal funds should be available to states for such 
rewards or incentives, and any federal rewards or incentives program 
should be funded without a reduction in funding for critical education 
programs.
    2.6.2 Supplemental Services and School Choice. Governors recognize 
the need to provide assistance to struggling students. Governors urge 
Congress and the Administration to allow states to raise student 
achievement by first offering supplemental services before providing 
school choice. Governors support this logical progression of services 
for students, with an emphasis on helping students receive high quality 
services while staying in their school.
    2.6.3 School Restructuring and Sanctions. Governors must have the 
discretion and wide flexibility to intervene in their states to 
continue to improve education. Governors support, and urge Congress to 
expand, the current authority granted to states in NCLB to quickly 
address areas of need in their education systems. Governors urge 
Congress to expand and reinforce gubernatorial authority in this area 
as well. Any federal sanctions should provide states with the time, 
flexibility, technical assistance, and clear authority to resolve 
problems and assist schools in need of improvement. In addition, 
Governors urge Congress to provide additional support to states to 
assist schools in need of improvement, since meaningful school reform 
requires substantial resources and capacity.
2.7 Funding
    The goal of NCLB--that every child will reach proficiency as 
defined by the state--is supported by the nation's Governors. Governors 
also believe that the federal government must commit sufficient 
resources to ensure that states, schools, and students have the means 
to reach this important goal.
    Congress should support full funding for the real costs of 
achieving proficiency for all children. Congress must make critical and 
substantial investments in education to support school reform--through 
enhanced and aligned data systems, meaningful technical assistance, 
reliable research, ongoing professional development, enhanced student 
support services, and strong accountability systems--for the 
achievement gap to close and for every child to succeed. Effectively 
preparing our nation's students for the 21st century global economy 
also requires investments in supporting federal education programs to 
reflect the continuing nature of education. In addition, each and every 
federal education mandate impacts state and local budgets and is often 
offset by resources from other state or local programs. Federal policy 
and funds should focus on supports and incentives for raising student 
achievement; federal funds should not be withheld from struggling 
schools or their states, as this would reduce financial resources at a 
time when additional assistance is necessary.
    In moving toward the goal of NCLB, Congress could achieve 
considerable federal savings by reducing and streamlining the 
administrative costs and burdens of the law on states.
    2.7.1 Targeting to Greatest Need. Governors recognize the link 
between poverty and low educational achievement. Working in conjunction 
and in cooperation with the states, the federal government should 
continue to target Title I funds to schools with the highest 
concentration of students living in poverty. Such support is essential 
if the nation is truly committed to the belief that all students can 
achieve at higher levels. Congress also should support targeted 
assistance for states working to raise student achievement among 
struggling subgroups of students.
2.8 Waiver Authority and State Flexibility
    As the implementation of NCLB continues, the U.S. Secretary of 
Education should be granted enhanced waiver authority for unforeseen 
issues and circumstances that arise from the law.
    Governors support the important NCLB provisions on exceptional or 
uncontrollable circumstances, such as natural disasters, emergencies, 
or a precipitous decline in the state's economy. Moreover, Governors 
believe that the U.S. Secretary of Education should be provided greater 
and broader waiver authority in times of natural disasters or 
emergencies for states. This waiver authority should include but not be 
limited to extending or waiving reporting requirements; waiving or 
modifying fiscal requirements related to maintenance-of-effort; 
modifying the required and allowable uses of federal funds; waiving any 
matching requirements for federal funds; expanding federal 
transferability of funds and carry-over authority for states; extending 
the length of time for states and schools to obligate federal funds; 
and adding flexibility for teacher qualifications and adequate yearly 
progress.
2.9 Rigorous Curricula
    2.9.1 Science and Math Programs. The nation's Governors recognize 
that the growing need for highly skilled workers has caused many 
American companies to look increasingly to other areas of the world. 
The Governors believe that the United States should accept no less than 
to ensure that America leads the world in global innovation and remains 
the world's number one source of researchers, discoverers, inventors, 
teachers, and health care workers. Therefore, it is essential to 
inspire young people to pursue science and math in their future 
education and careers. This can be achieved by implementing real reform 
policies that emphasize strong educational and research development 
systems at every level; by implementing rigorous math and science 
curriculum in our schools; and by featuring strong accountability for 
both students and teachers.
    2.9.2 Technology. Governors recognize that technology is an 
integral part of daily life in the 21st century, from home to school to 
the workplace. The use of technology in schools is not only critical in 
preparing our nation's students for the ever flattening global economy, 
but it also is an important tool to increase access to education 
through distance learning.
    As technology becomes increasingly woven into every day life and 
the world marketplace, our nation's students must develop mastery over 
technology in order to be the premier leaders in the global economy. In 
addition, schools are safe and nurturing environments for students to 
receive critical training and practice with computers and technology. 
Therefore, teachers must be prepared to seamlessly utilize technology 
to instruct students.
    Governors urge Congress to continue investing in critical 
programs--including, but not limited to, Title V, assistive technology, 
and E-Rate--that support teacher and student mastery of 21st century 
skills.
    Governors also recognize that distance learning is increasingly 
important to ensure that barriers to learning are removed and that all 
students have access to a diversity of learning options and highly 
qualified teachers, even in remote areas. In addition, distance 
learning can facilitate meeting the goals of NCLB by removing 
geographic and physical barriers to education. For these reasons, 
Governors urge the federal government to support distance learning 
programs and provide enhanced technical assistance to state departments 
of education in the development, deployment, and expansion of distance 
learning programs essential for academic subjects, advanced placement 
coursework, and technical training.
    2.9.3 Literacy Programs. Governors recognize the importance of 
literacy improvement efforts at all age levels to prepare our nation's 
students for lifelong learning and work opportunities. Governors 
applaud federal efforts to help states expand and create multi-
generational literacy programs of the highest quality that are based on 
reliable and replicable research. Governors believe that literacy 
programs such as Reading First, which provides grants to states to 
ensure that all students are proficient readers by the third grade, are 
important components of comprehensive literacy services. Governors 
support continued funding of student and family literacy initiatives.
    2.9.4 Civics Education. Governors support federal initiatives that 
seek to help states educate a more knowledgeable citizenry. Efforts 
that focus on improving teachers' knowledge and supporting the state 
development of model curricula for history, geography, and civics are 
examples of initiatives that will help schools, school districts, and 
states better prepare their students for life in a global economy, 
while allowing states flexibility to meet specific state situations.
2.10 Other Supporting Elementary and Secondary Programs and Services
    2.10.1 Parental and Guardian Involvement. Parents and guardians 
have the primary responsibility and right to make decisions about their 
children's education and must be included in any decisions made on 
behalf of students. Governors recognize that there are actions parents 
can take so their children can reach their full potential. States must 
be allowed to use federal funds to encourage and expand the work of 
schools through programs designed to support parents as their child's 
first teacher and to further parents' participation in their children's 
education while also promoting collaboration with other programs and 
agencies that support parent involvement.
    2.10.2 Safe and Drug Free Schools. The Governors continue to place 
a high priority on making schools safe and nurturing environments for 
students. States have used federal Drug-Free Schools and Communities 
Act funds for diverse prevention efforts. Governors support the 
specific set-aside to assist Governors in implementing school safety 
and drug abuse prevention efforts and believe states should be allowed 
to coordinate related federal funds across state agencies for 
supporting state and local efforts to create a safe learning 
environment for all children.
    2.10.3 Healthy Schools. The nation's Governors are committed to--
and working towards--promoting healthy schools. Governors urge the 
federal government to support states in these efforts through voluntary 
child nutrition in school meals and classes; physical activity; and 
partnerships among schools, families, and the community on school 
health and wellness initiatives. Governors also support fresh fruit and 
vegetable programs for school meals. In addition, many states have 
realigned their human services delivery systems to ensure that young 
children come to school ready to learn and that these children's health 
and emotional needs are being met so they can focus on learning. 
Federal education programs, including opportunities for waivers from 
existing regulations, should give states the option to coordinate human 
services delivery systems.
    2.10.4 Continued Federal Funding for Impact Aid. The federal 
government has a unique and historical responsibility to help finance 
the education of children connected to federal property on which no 
local property taxes are paid to support education. Any reduction in 
the federal government's commitment to impact aid would result in an 
unfunded mandate on states and local school districts.
    2.10.5 School Construction Bonds. Governors urge Congress and the 
Administration to support the Qualified Zone Academy Bond program and 
to expand its use to new construction so that states may continue to 
upgrade and modernize educational facilities. The federal government 
also should ensure that the annual authorized limit on the federal tax 
credit is sufficient to meet states' needs.
    2.10.6 Innovative Programs. Title V, Part A, Innovative Programs of 
NCLB, is an important program that provides critical, flexible funds to 
state departments of education and local school districts to help raise 
and improve student academic achievement. Despite the enhanced 
flexibility of NCLB, states and local schools continue to rely on this 
important program to provide and supplement educational services and 
resources that improve students' academic achievement. Governors urge 
Congress and the Administration to support and maintain funding for 
this flexible and important program.
    2.10.7 National Assessment of Educational Progress. Governors 
recognize the importance of the National Assessment of Educational 
Progress (NAEP) to provide Congress with national data in an 
independent role. The NAEP results were designed as a national snapshot 
of student performance, as they were intended. State NAEP results are 
not comparable with State Assessment Results, since NAEP is not based 
on or aligned with individual state academic standards. NAEP should not 
be used as the primary measure of state proficiency or as a substitute 
for state assessments. Rewards or sanctions should not be levied on a 
state based on its NAEP results, but should rely on the state's own 
accountability system. In addition, Governors believe it is important 
to recognize that NAEP is designed as a representative sample and 
should not be required of every student; however, NAEP should provide 
appropriate accommodations for students with disabilities. Given the 
variety and breadth of high school assessments, Congress and the 
Administration should closely consult with Governors before mandating a 
twelfth grade NAEP. The federal government must continue to ensure that 
all related state and local NAEP assessment expenses are fully 
reimbursed.
Related Policies
ECW-13, High School Reform to Lifelong Learning: Aligning Secondary and 
        Postsecondary Education
ECW-14, Public Charter Schools
ECW-15, Principles of Federal Preschool-College (P-16) Alignment
EDC-8, State Priorities in Communications

    Time limited (effective Winter Meeting 2006--Winter Meeting 2008). 
Adopted Annual Meeting 1993; revised Winter Meeting 1994; reaffirmed 
Winter Meeting 1996; revised Annual Meeting 1996, Annual Meeting 1998, 
Annual Meeting 1999, Winter Meeting 2001, Winter Meeting 2002, Winter 
Meeting 2003, and Annual Meeting 2004; reaffirmed Winter Meeting 2005 
and Annual Meeting 2005; revised Winter Meeting 2006 (formerly Policy 
HR-4).
  joint statement on reauthorization of the no child left behind act 
                                 (nclb)

                                PREAMBLE

    The reauthorization of the No Child Left Behind Act (NCLB) of 2001 
comes at a time of significant economic and global change, and provides 
a critical opportunity for all levels of government to renew our 
commitment to high standards and partner together to strengthen 
education. In today's competitive economy, our education system must 
work even harder to prepare students to be successful in work, life, 
postsecondary education and in an ever and rapidly changing world. 
Every student must be prepared for lifelong learning. Much is at stake.
    In this effort, NCLB provided an important framework for states, 
schools, and parents to focus on student achievement and ensure our 
nation's competitiveness. However, work remains to achieve America's 
education goals for every student.

                            RECOMMENDATIONS

    Since the passage of NCLB, students were assisted by key provisions 
in the law, but states and schools also learned what areas needed 
additional modifications. Given this understanding, governors, chief 
state school officers, and state boards of education members are 
offering the following recommendations to improve the academic 
achievement of all students to ensure they are prepared for 
postsecondary education, work, and lifelong learning in the 21st 
century.
    Enhance State Accountability Systems--State standards and 
assessments are the foundation of state accountability systems and 
inform the public about student performance. States support measuring 
students' and schools' yearly progress to provide a clear picture of 
performance and to diagnose areas of improvement. While refinement of 
measures is necessary to reflect real-world student progress, the goals 
of NCLB should be preserved to ensure that all students achieve their 
potential and that schools are held accountable for students' 
performance.
Recommendation
    Allow states to use growth models to complement existing status 
measures. All states should be able to utilize a state-determined 
valid, educationally meaningful accountability system--such as growth 
models--to measure individual student progress. [Section 1111 and 6161]
    Promote and support the use of multiple measures aligned to state 
standards to determine student progress as part of a graduated system 
of classifications for schools and districts that have been identified 
as in need of improvement. [Section 1111; 6111; and 6112]
    Reinforce State Assessment Decisions--States recognize the critical 
importance of annual assessment of students and the need for reliable, 
disaggregated data to understand student learning as well as the 
strengths and needs within an individual school. States also support 
the annual assessments of students in grades 3-8 and once in high 
school. States are currently working to develop assessments in 
additional core subjects and grades.
Recommendation
    States and localities must retain the authority to determine the 
appropriate testing instruments to assess student performance. [Section 
1111; 1905; 9527; and 9529]
    Refrain from mandating additional federal testing requirements. 
[Section 1111; 1905; 9527; and 9529]
    Create Rewards and Differentiate Consequences--Currently, states 
are required to implement a system of rewards and consequences for all 
public schools and districts, including a series of required, 
escalating sanctions for Title I schools and districts. NCLB requires 
the same classifications and interventions for Title I schools and 
districts regardless of whether they missed adequate yearly progress 
(AYP) by a little or a lot, and regardless of the plans and capacities 
in place or interim progress. The focus of NCLB should shift from 
consequences to supporting proactive state and local solutions, 
providing incentives, and celebrating success in the education system.
Recommendation
    Provide and dedicate sustained resources, technical assistance, and 
other supports for states to develop the capacity to assist schools. 
[Section 1002 and 1116]
    Broaden the array of options to allow states and local school 
districts to differentiate and determine consequences and target 
interventions to student populations who do not meet AYP. [Section 
1116]
    Allow states to raise achievement by first offering supplemental 
services prior to public school choice where applicable. [Section 1116]
    Work with governors and chief state school officers to develop a 
bonus system for states and schools that hold high standards and raise 
student performance in a significant manner. [Section 1111; 2113; and 
2416]
    Address Special Populations--States are committed to raising 
achievement for all students, including students with disabilities and 
English language learners (ELL). Their inclusion should continue, but 
in a manner consistent with their individual education goals and high 
expectations.
Recommendation
    Work to close the achievement gap for students with disabilities 
through their inclusion in an accountability system, while also 
incorporating existing flexibilities into the law. [Section 1111 and 
IDEA]
    For a limited group of students with disabilities, allow states to 
use alternate or modified assessments for students with disabilities, 
based on the student's individualized education program, to reflect 
student progress and achievement. [Section 1111]
    Provide flexibility within AYP to ensure that ELL students are 
given adequate time to overcome language barriers and that ELL student 
gains are accurately reflected within school performance data through 
the use of multiple measures or alternative assessments. [Section 1111]
    Support Teacher Quality--States recognize that high standards for 
the teaching profession are central to improving student achievement. 
States are working hard to ensure that every classroom can benefit from 
strong teaching by adopting different strategies to improve teacher and 
principal preparation, performance, and retention, including high-
quality and relevant professional development activities, merit or 
performance pay, induction programs, teacher academies, and alternate 
routes to certification.
Recommendation
    Support state strategies to recruit, retain, and reward our 
nation's best teachers and principals. [Title II; Section 2002; 2113; 
and 9101]
    Support expansion of programs, like the Teacher Incentive Fund, to 
reward teachers and principals. [Section 2113 and 2123]
    Amend the highly qualified teacher (HQT) requirements to count 
newly hired teachers (particularly rural, special education, and ELL 
teachers) as ``highly qualified'' when they meet standards in their 
primary subject areas and are on a pathway with regard to additional 
subjects based on the high, objective, uniform state standards of 
evaluation (HOUSSE). [Section 1116 and 9101]
    Help states enhance their capacity to develop a highly qualified 
teacher workforce, including induction and mentoring programs to 
address retention. [Section 2113 and 2123]
    Support state strategies to encourage our nation's best teachers to 
accept the most challenging teaching assignments and discourage the 
practices of emergency certification of teachers and out-of-field 
teaching. [Title II and Section 1111]
    Optimize, Target, and Increase Resources--States have assumed 
significant new responsibilities under NCLB and are required to take 
core actions to implement federal law and move towards the goal of 
every child proficient by 2014. States support this mission, but also 
believe that the federal government must optimize, target, and commit 
additional resources to ensure that states, schools, and students have 
the means to reach the goals of NCLB.
Recommendation
    Commit sufficient resources to enable success and close the 
achievement gap. [PL 107-110 and Section 1002]
    Provide greater state and local flexibility to transfer federal K-
12 funds to achieve the goals of NCLB. [Title VI; Section 6121; 6142; 
and 9201]
    Invest substantial, long-term, consistent funding for state action 
and intervention in underperforming schools. [Sections 1002; 1117; and 
2141]
    Dedicate federal resources for states to develop state assessments 
and P-16+ state data systems, and to provide meaningful technical 
assistance, reliable research, support for teachers, and enhanced 
student support services. [Section 2113; 2141; 6111; 6112; and New 
Section]
    High School Reform--Across the nation, governors and chief state 
school officers are leading efforts to redesign American high schools, 
including improving access to Advanced Placement coursework, 
strengthening P-16+ longitudinal data systems, and increasing access to 
dual enrollment and early college options. This work can be supported 
and expanded to ensure that every student graduates from high school 
better prepared for college and career success.
Recommendation
    Expand and fund access to Advanced Placement (AP), International 
Baccalaureate (IB) and certificate programs for all students and 
preparation for teachers. [Title I, Part 6, Section 1704 and 1705]
    Provide grants to governors and chief state school officers to 
develop, enhance, and expand state dual enrollment and early college 
programs. [Section 1803; 1811; 1822; and New Section]
    Expand the use of technology to include e-learning, virtual high 
schools, or e-mentoring for high school students. [Title I, Part D; 
Section 1825; 2415; and 2416]
    Voluntary International Benchmarking--Students no longer compete 
against peers in neighboring cities or even states--our students must 
compete in a global economy. The federal government should recognize 
and support states' initiatives to voluntarily benchmark state 
standards to international skill sets to help improve students' global 
competence.
Recommendation
    Provide grants to governors and chief state school officers to 
conduct a voluntary analysis of state standards with the skills being 
measured on Program for International Student Assessment (PISA) and 
Trends in International Mathematics and Science Study (TIMSS) and 
incentive funds to implement governor-and chief-led solutions, 
including standards improvements. [New Section]
    Reinforce Role of the States--States are positioned to build on the 
systems developed as part of NCLB and are eager to work with Congress 
and the Administration to reauthorize NCLB in a manner that recognizes 
the leading role of states and builds on states' tremendous 
accomplishments. To this end, NCLB should be revised to include a 
renewed state-federal partnership that promotes innovation and provides 
flexibility, while holding education accountable, to ensure that the 
law is working for states, school districts, and most importantly, our 
nation's students.
Recommendation
    Amend NCLB to support, recognize, and reinforce gubernatorial and 
state education agency ``states'' authority over K-12 education. 
[Section 1111; 1905; 9101; 9527; and 9529]
    Recognize and value the leading role states play in the 
development, implementation, and enforcement of federal, state, and 
local education policies. [Section 1111; 1905; 9101; 9527; and 9529]
    P-16+ Alignment--States have taken the lead in recognizing the 
fundamental responsibility for a seamless progression from preschool 
though college (P-16+) to lifelong learning. P-16+ alignment is 
critical to ensure that students are prepared for and successful at 
each step within the education system. Recognition of this seamless 
education continuum is critical in fashioning federal education 
policies.
Recommendation
    Align NCLB requirements, goals, and outcomes with other federal 
education and workforce laws, promoting excellent education and smooth 
transitions for all students. [IDEA, Perkins, HEA, and Head Start]
    Support the development of state P-16 or P-20 Councils and state P-
16 or P-20 longitudinal data systems to identify and shore up holes in 
the education pipeline. [Section 6111 and New Section]
    Peer Review--States and local schools are the engines of education 
innovation. Working together, states and the federal government can 
promote this commitment to continuous improvement and utilization of 
best practices through the peer review process and allowance for 
waivers.
Recommendation
    Work with states to share best practices and new innovations. 
[Section 1419; 1502; 1811; 2151; and 3303]
    Ensure a strong state role in the selection of qualified state 
peers. [Section 6162]
    Require a range of improvements in the peer review process with a 
focus on technical assistance, transparency, clear communication and 
dialogue with states, consistency in peer review standards and outcomes 
across states, timeliness of feedback and results. [Section 1111; 6162; 
and 9401]
Conclusion
    The recommendations above represent the major issues Congress will 
face in reauthorizing NCLB. The nation's governors, chief state school 
officers, and state boards of education members submit these joint 
recommendations in an effort to craft a new federal education law that 
preserves NCLB's ``bright line principles'' while returning authority 
to states to ensure that all students are prepared for postsecondary 
education, work, and citizenship in the 21st century.
    Governors (National Governors Association), chief state school 
officers (Council of Chief State School Officers), and state boards of 
education members (National Association of State Boards of Education) 
also recommend additional amendments to the law as outlined in their 
respective NCLB and ESEA policies. Our positions are also attached for 
your information.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Casserly?

 STATEMENT OF MICHAEL CASSERLY, EXECUTIVE DIRECTOR, COUNCIL OF 
                     THE GREAT CITY SCHOOLS

    Mr. Casserly. Good afternoon, Mr. Chairman. And thank you 
for the opportunity to testify.
    As the committee knows, the Council of the Great City 
Schools was the only national education organization to support 
No Child Left Behind, and we continue to do so. We backed up 
our support with extensive technical assistance to our members 
on implementing the law and boasting student achievement, which 
I am proud to say now outpaces gains at both the national and 
the State levels.
    The council is also pleased with the number of features in 
the draft bill. Items deserving special praise include the 
committee's unprecedented openness, the bill's consistency with 
the original intent of NCLB, the draft's recognition of local 
capacity limitations, and the bill's emphasis on pay-for-
performance data systems and high school reform.
    At the same time, the council has substantial concerns that 
we detailed in 30 pages of recommendations to the committee. In 
summary, we are concerned that the draft legislation lacks any 
meaningful attempts to encourage States to raise standards. We 
understand there is little appetite in Congress for national 
standards, which we think is too bad, but we contend there is 
room for a national pilot or State incentives that would move 
toward greater rigor and coherence in our educational goals.
    The draft is also likely to apply the law's most serious 
and costly sanctions almost exclusively to the Nation's urban 
public schools, letting other schools mask their subgroup 
results and avoid penalties.
    An example may help make the point. The bill divides 
schools in need of improvement into two categories, high 
priority and priority, according to the percent of students not 
proficient. No one has data on how this will work precisely, 
but a quick examination of Maryland data on the main criteria 
indicates that all but two of its high-priority schools would 
be located in Baltimore City or Prince George's County.
    These school systems need improvement, to be sure, but 45 
percent of all African American students in the state, 75 
percent of all students with disabilities, 66 percent of all 
limited-English-proficient students, and 56 percent of all poor 
students go to a public school somewhere else in the state. The 
academic attainment of these groups outside of Baltimore and 
P.G. County is only marginally better than those inside, yet 
the bill would sanction schools more severely where failure is 
concentrated than where it is dispersed.
    These disparities vary widely from State to State, 
depending on how each defines proficiency, seeks ``n size'' 
waivers and wants credit for multiple measures. We urge this 
committee not to exempt suburban and rural communities from 
accountability and isolate the cities as the only places facing 
the law's sanctions. Achievement gaps are a national issue, not 
just an urban one.
    Another issue involves teacher placement, which we applaud 
you for tackling, but we don't think the bill gets to the heart 
of the problem by focusing on comparability. But we think this 
for the opposite reasons that you heard from the previous 
panel. The draft simply shuffles resources without attending to 
the research on teacher effectiveness or on State laws and 
collective bargaining agreements that underlie the problem.
    The draft includes a provision that would also give schools 
credit for progress, but we don't think that the bill's growth 
model will do what the committee hopes. States using the bill's 
approach see almost no effect with it. The problem is that the 
trajectory for improvement is too steep. We would solve this 
problem by adding safe harbor language to credit students 
moving from below basic to basic and proficient to advanced, 
rather than treating this provision as a multiple measure.
    A further concern involves supplemental services. The bill 
sets aside large portions of Title I money for external 
providers who have avoided accountability and allows districts 
too little flexibility to use funds for strategies with greater 
likelihood of success. Nothing in the bill, moreover, 
explicitly allows districts to provide services, despite the 
research showing that schools can serve more students for less 
money with comparable results.
    Finally, the draft imposes supplemental services only on 
schools in high-priority status. If these services are 
effective in raising student achievement, then they should 
apply to high-priority and priority schools alike. If they are 
not effective, they should apply to neither.
    Finally, a word about the law itself. The promise of NCLB 
rests in its pledge of academic proficiency for all. But the 
law, mostly because of how it has been implemented, has 
devolved over the years into a paper chase that has too little 
to do with student learning. But the draft bill attempts to 
emphasize instruction to correct that problem, but it misses 
the mark in too many places with all the new requirements and 
procedures.
    The Council of the Great City Schools has been proud to 
back No Child Left Behind, wants to support this latest 
iteration, but, Mr. Chairman, we are not there yet.
    Thank you.
    [The statement of Mr. Casserly follows:]

Prepared Statement of Michael Casserly, Executive Director, Council of 
                         the Great City Schools

    Good morning, my name is Michael Casserly. I am the Executive 
Director of the Council of the Great City Schools. Thank you for the 
opportunity to testify at this hearing on the reauthorization of the 
Elementary and Secondary Education Act.
    The Council is a coalition of 66 of the nation's largest urban 
public school systems. Our Board of Directors is composed of the 
Superintendent of Schools and one School Board member from each city, 
making the Council the only national organization comprised of both 
governing and administering personnel and the only one whose sole 
mission and purpose is improving urban education.
    Our member urban school systems educate more than 7.4 million 
students--or about 15 percent of the nation's K-12 public school 
enrollment. Some 64 percent of our students are eligible for a free 
lunch and about 18 percent are English language learners. Approximately 
78 percent of our students are African American, Hispanic, or Asian 
American. Nearly one-third of the nation's students of color and poor 
students are educated in our schools each day.
    The Council of the Great City Schools supported the passage of No 
Child Left Behind when it was heading to the House and Senate floors 
for final passage in December 2001. We were the only national education 
organization to give the legislation any measure of support, and we did 
so because our members wanted to be on record in support of raising 
student achievement, closing achievement gaps, and being accountable 
for results.
    The Council has backed up its support of the law by providing 
extensive technical assistance to our members on implementing the law; 
publishing our annual state test scores--city-by-city, grade-by-grade, 
year-by-year in both reading and math for each subgroup;\1\ initiating 
the Trial Urban District Assessment to track our progress as cities on 
the National Assessment of Educational Progress (NAEP);\2\ conducting 
research on the reforms that are common among major urban school 
systems across the country that are making substantial academic 
gains;\3\ and organizing Strategic Support Teams to help our member 
urban school districts raise student achievement.\4\
---------------------------------------------------------------------------
    \1\ Beating the Odds: A City-by-City Analysis of Student 
Performance and Achievement Gaps on State Assessments, March 2006.
    \2\ Trial Urban District Assessment: Reading and Mathematics, 2005. 
National Assessment of Educational Progress: The Nation's Report Card.
    \3\ Foundations for Success: Case Studies of How Urban School 
Systems Improve Student Achievement. MDRC for the Council of the Great 
City Schools, 2002.
    \4\ The Council has provided Strategic Support Teams in instruction 
to Cincinnati, Cleveland, Columbus, Dayton, Denver, Detroit, Kansas 
City (MO), Milwaukee, Newark, New Orleans, Philadelphia, Pittsburgh, 
Richmond, St. Louis, Toledo, and Washington, DC.
---------------------------------------------------------------------------
    We are proud of the fact that our urban school systems have seen 
steady academic improvements over the last several years. Our 
achievement gains, in fact, now outpace those at the national and state 
levels on both the state assessments and on the National Assessment of 
Educational Progress.
    Still, our overall academic performance is below state and national 
averages; our racially identifiable achievement gaps remain wide--
although they are not much wider than those of the nation at large; and 
our students and schools remain a focus of NCLB and some of the 
nation's most interesting and dramatic reforms. We understand the work 
we still need to do.
    The Council of the Great City Schools is pleased with a number of 
features of the discussion draft that the committee has issued. Items 
deserving special praise include----
    <bullet> The committee has been particularly open to ideas and 
suggestions from the public and from stakeholder organizations about 
how to improve the legislation. That the committee released a 
discussion draft is unprecedented.
    <bullet> The discussion draft remains largely consistent with the 
intent of No Child Left Behind. It insists on accountability, progress, 
and results--none of which the Great City Schools seek to avoid.
    <bullet> The draft bill provides additional time to implement 
instructional reforms and interventions. The draft language should 
mitigate some of the problems that school districts have with the 
annually cascading sanctions in current law. The draft also allows a 
planning year for schools that are in warning status, something that 
current law does not provide. We think that both of these provisions 
make instructional sense.
    <bullet> The discussion draft also recognizes the current capacity 
limitations school districts have in simultaneously tackling reforms in 
numerous schools. We think this provision will help school districts 
focus more intensely on schools with the greatest needs.
    <bullet> The draft makes a first step toward addressing issues of 
teacher effectiveness and distribution, although the provisions are not 
likely to work as intended.
    <bullet> The draft also puts additional resources into the 
development of better and more comprehensive data systems. This 
investment should pay dividends later in our ability to measure 
progress and assess teacher effectiveness.
    <bullet> The committee draft, moreover, authorizes a major new 
program--the Graduation Promise Act--to reform and improve the nation's 
lowest performing high schools with high dropout rates. The focus of 
the legislation and its targeting of resources and attention is exactly 
what's needed.
    <bullet> Finally, the discussion draft authorizes the use of 
``growth models'' and value-table models that would credit schools for 
the progress they are making towards each state's annual measurable 
objectives. If implemented by the states, the provision could help 
guide instruction while acknowledging improvement.
    At the same time, the Council has substantial concerns with the 
draft bill. We have submitted 30 pages of detailed comments and 
recommendations on which we pledge to work with the committee. Our 
overarching concerns include----
    1. The draft legislation lacks any meaningful attempt to encourage 
states to raise content standards or to improve their consistency from 
state to state. There is a new provision that would authorize the 
Secretary and the National Academy of Sciences to study state standards 
and assessments and their rigor, and make recommendations on developing 
a common scale to compare their results. There is no mechanism in the 
draft, however, to spur states to heighten expectations.
    While the Council is in favor of national standards in the core 
subjects, we understand there is little political appetite in Congress 
for developing and implementing them. Still, we contend that there is 
room for either a national pilot or some set of state incentives the 
law could put into place that would move toward greater rigor and 
coherence in our national educational goals. Leaving the current 
patchwork of disparate state standards in place will only aggravate the 
inequities we see in schooling from state to state and community to 
community. It also allows states to lower standards in response to 
NCLB, a problem that echoes through the draft legislation.
    2. The discussion draft, moreover, is likely to apply the law's 
most serious and costly sanctions--choice, supplemental services, and 
restructuring--almost exclusively to the nation's urban public schools, 
leaving other schools to mask their subgroup results behind schoolwide 
averages and avoid sanctions. This runs counter to the stated intent of 
No Child Left Behind by easing penalties on schools where minority, 
poor, and disabled students are not concentrated enough to notice. The 
problem is created in the draft in a number of ways: the school 
improvement designations, the ``differentiated consequences,'' the N-
size provisions, and the multiple measures.
    An example makes the point. The draft language divides schools in 
need of improvement into two categories: high priority and priority. A 
high priority school is one where half or more of its students are not 
proficient on the state test or one where two or more subgroups have 
less than half of their numbers proficient in reading and math. We (nor 
anyone else) do not have data yet on the second criteria, but a quick 
examination of Maryland data on the first criteria indicate that only 
47 of the state's 883 elementary schools have less than 50 percent of 
their students proficient in math--all but two of which (45) are in 
Baltimore City or Prince George's County--and 25 schools with less than 
half of their students proficient in reading--all of which are in those 
two locations.
    These two school systems need improvement to be sure, but 45 
percent of all African American students in the state; 75 percent of 
all students with disabilities; 66 percent of all limited English 
proficient students; and about 56 percent of all poor students go to a 
public school somewhere else in the state beside these two school 
districts. The academic attainment of these subgroups outside of 
Baltimore and Prince George's County, however, is only marginally 
better than those inside. Yet, the draft bill would sanction schools 
more severely where failure is concentrated than where it is dispersed. 
The disparities become more or less exaggerated from state to state, 
depending on how each SEA defines proficiency, sets its cut scores, 
seeks exemptions to the N-size requirements, and seeks extra credit for 
such things as college-enrollment rates. This is inconsistent with the 
spirit of a law that insists that no child be left behind.
    The provisions that produce this effect have political backing from 
wealthier communities that don't like having the spotlight shined on 
their achievement gaps. But we urge this committee not to let these 
communities exempt themselves from the law's accountability provisions 
and isolate the cities as the only jurisdictions facing the law's 
sanctions. The achievement gaps that are so much a focus of the bill 
are a national concern, not just an urban one. The committee cannot 
contain this issue inside our city limits. Nor should the committee 
abdicate these designations to the states, who have done everything in 
their power to game the law's accountability systems.
    3. Another major concern we have with the draft involves the 
important issue of teacher placement. The committee is correct that the 
disproportionate and inequitable placement of qualified and effective 
teachers is a serious national issue, and we applaud you for tackling 
it. But we do not think the bill gets to the heart of the problem by 
focusing on comparability. In its simplest form, the discussion draft 
requires, for example, a school district to balance a Title I school 
having a $50,000 per year teacher and seven years experience with a 
non-Title I school having a $80,000 per year teacher and 17 years 
experience by allocating the difference--$30,000--to the Title I 
school, hardly enough to buy even a novice teacher. There is little 
research to indicate, however, that the 7-year teacher is less skilled 
or effective than the 17-year one, but there is no research to indicate 
that the novice teacher is likely to be very effective. The fiscal 
calculation proposed in the bill is likely to create problems that are 
impossible for us to solve without the corresponding authority to alter 
state laws or local collective bargaining agreements that often lie 
behind the problem. Passing the comparability requirement by itself 
allows the committee to claim that it addressed the problem without 
really doing so.
    4. The discussion draft also includes important new concepts like 
``growth'' that would give schools credit for the progress they have 
made even when they have not attained the state AMO. We applaud this 
addition to the law. We note two concerns, however. Our first concern 
is that the growth model, as currently proposed in the bill, won't 
actually do what the committee hopes it will do. The original two 
states, North Carolina and Tennessee, using the bill's model see almost 
no effect with it. Part of the problem is that the trajectory for 
improvement in the bill is tied to universal proficiency by 2013-14 and 
too steep to jump. We propose adding a ``safe harbor'' provision in the 
law to give credit to schools that also move students from below basic 
to basic and from proficient to advanced. This would have the added 
benefit of removing the current incentive to focus instruction solely 
on the ``bubble kids,'' who are just below the proficiency bar. The 
current placement of this provision in the section on multiple measures 
is not likely to have much effect.
    The second concern is that the use of the growth provision is 
entirely dependent on state discretion. There are large city school 
districts with data capacity as good as or better than their states 
that might be denied the ability to credit improvement if the state did 
not ask for the authority. We suggest adding a provision that would 
permit school districts with the capacity to use the approved growth 
model from another state if their own SEA did not seek such authority.
    5. A further concern involves supplemental services. The discussion 
draft almost completely ignores the research to date that suggests 
services have moderate to negligible effect on state test scores and 
more students can participate when districts are providers alongside 
the private companies. Yet, the draft bill continues to set aside 
sizable portions of Title I money for providers who avoid 
accountability on the same measures on which school districts are 
responsible, and provides little flexibility to districts to use funds 
for other strategies with greater likelihood of success.
    Nothing in the bill, moreover, explicitly allows districts to 
provide services, despite the fact that schools can provide SES to more 
eligible students for less money with comparable results. The 
percentage of eligible students served in cities where districts can 
provide SES is 24.3 percent, compared with 10.9 percent in cities where 
the district is not a provider.
    Finally, the draft imposes supplemental services only on schools in 
high priority status. If these services are effective in raising 
student achievement, however, then they should be applied to high 
priority and priority schools alike; if they are not effective, then 
they should apply to neither.
    Finally, a word about the law itself and what the new draft fails 
to correct. The promise of NCLB rests in its pledge to close 
achievement gaps and attain academic proficiency for all students, 
goals that galvanized support from the nation's urban schools. The law 
brought attention to students that schools had historically overlooked, 
required greater transparency in public reporting, and held school 
officials accountable for results.
    But the law has devolved over the years into a compliance-oriented 
paper chase that has little to do with student learning. Instead, 
considerable effort has gone into specifying who should be providing 
what services, how teachers are credentialed, when sanctions are 
levied, and what data are reported. Unfortunately, precious little 
attention has been given to the instructional strategies and supports 
all schools need to attain the goals the legislation rightly set. The 
discussion draft makes an attempt to put more emphasis on instruction 
but it misses mark with all the new requirements and procedures.
    Congress needs to steer the law away from its overbearing and 
largely ineffectual procedural rules, streamline its requirements, and 
return to NCLB's foundation in the standards movement. Most 
importantly, the reauthorization should direct the law's resources 
toward instructional practices that solid research indicates actually 
boost student achievement rather than toward costly activities that 
demonstrate little promise of success. At that point, No Child Left 
Behind really could meet the grand intent that its authors so boldly 
envisioned.
    The Council of the Great City Schools has been proud of its support 
of No Child Left Behind over the years, has worked hard to implement 
the law, and wants to support its latest iteration. But we have major 
concerns that the draft has become a loose collection of eclectic 
provisions--all of which our schools, which operate the largest and 
most complicated programs in the country, will have to reconcile and 
implement.
    Thank you for the opportunity to testify. I would be happy to 
answer your questions.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Houston?

    STATEMENT OF PAUL HOUSTON, EXECUTIVE DIRECTOR, AMERICAN 
              ASSOCIATION OF SCHOOL ADMINISTRATORS

    Mr. Houston. Chairman Miller, members of the committee, I 
appreciate you staying with us into what is turning into the 
``no panel left behind'' afternoon. [Laughter.]
    My name is Paul Houston. I am executive director of the 
American Association of School Administrators. We are the 
national association for school system leaders, and I am here 
representing the nearly 13,000 public school superintendents 
that serve the Nation's children.
    Reauthorization of the Elementary and Secondary Education 
Act was always a cause for hope among school administrators 
because, in the past, ESEA has focused on improving educational 
outcomes for low-income students. However, ASA had many issues 
with the provisions of the last ESEA reauthorization. In fact, 
we felt so strongly that we opposed that bill. Many of the 
concerns we raised, sadly, proved themselves, and we have seen 
schools and educators struggle with those provisions.
    During this cycle, we commend congressional staff and 
members for the transparency of the process and the 
professional courtesy shown to our staff by members from both 
the majority and minority staff members. We are particularly 
pleased with modifications that you have put into the bill for 
the real education achievement program in the discussion draft.
    However, while the draft identifies important issues that 
need to be addressed in the reauthorization, such as multiple 
measures and growth, it does not fully resolved those issues. 
There is inconsistency between some of the sections of Title I. 
There is increased complexity and confusion for AYP that makes 
estimation of effects impossible. There are 14 new reports and 
analysis required of local school districts that we can count. 
In addition, there is conflict between IDEA and Title I, 
inappropriate assessment of English language learners, and 
continuation of inappropriate provisions for the 5,000 small 
and rural school districts around the country.
    We believe that problems exist in discussion draft because 
the flawed assumptions underlying NCLB have not been adequately 
re-examined. Where I grew up, we learned that when you lean 
your ladder against the wrong wall, you end up painting the 
wrong house. Solutions based on wrong or inconsistent 
assumptions are not solutions at all; they are simply new 
problems.
    What are some of these incorrect assumptions? One is that 
the answers to educational questions should flow from 
Washington and from the Department of Education. There is no 
relief from the prescriptive nature of the current law. The 
discussion draft adds new prescriptive Federal authority, such 
as how to calculate graduation rates and what measures beyond 
tests could be used to judge schools. The changes make it 
impossible to estimate the effects on AYP, which must be 
addressed before implementation.
    ASA believes that educators who are the closest to the 
issues and have the greatest experience working with children 
should drive the solutions. Our country is strong and vibrant 
because of our system of federalism and because we have had a 
partnership among local communities, States and the Federal 
Government. The last ESEA reauthorization badly strained that 
partnership, and new mandates emanating from Washington aren't 
likely to relieve that strain.
    There are some other assumptions that I will just quickly 
touch on that are still built into this draft: that the annual 
standardized test will somehow ensure improvement in 
achievement; that a one-size-fits-all reform can somehow reform 
a one-size-fits-all system, and there is no need to make 
exemptions for geographically isolated schools; the best way to 
estimate achievement is through a single standardized test; and 
that the best way to motivate professionals to change their 
practices and policies is to discredit public schools and focus 
shame and punishment on teachers and administrators.
    One last assumption I would like to highlight that I think 
needs revision is the assumption that accountability models 
should focus on the information needs of the Federal and State 
policymakers. No one on this or any other panel would suggest 
that accountability should not be part of the educational 
improvement, but AASA believes that the only way to get close 
to what we feel is probably the unattainable goal of 100 
percent efficiency is by focusing the accountability system on 
the information needs of teachers, principals and school system 
leaders.
    We have only the time and funding for one accountability 
system. If you want to get close to the 100 percent goal, put 
the information in the classroom instead of in Washington.
    The most encouraging change that we have seen is an 
addition of local formative assessments and accountability. 
While we think it may be a mistake to limit that, to not make 
it available to all States, it is important to get that concept 
included in the bill.
    Accountability is more than student achievement, and 
student achievement is more than a test score. If America's 
children have any chance of success in a global market, they 
will need to be proficient in more than we can currently test. 
They need to be creative and curious, have a sense of 
adventure, be willing to challenge authority. Any system that 
reduces those skills or implies that only answering questions 
found in a bubble is good education is a system that ultimately 
weakens America's competitive position and undermines the 
potential success of our children.
    In conclusion, we are pleased with the direction, 
transparency and professional courtesy of the process. However, 
at this time, we would be hard pressed to support the draft. We 
urge Congress to take the time to get the assumptions right, 
make the bill internally consistent, eliminate the conflicts 
with IDEA and accommodate the realities of rural schools.
    Thank you.
    [The statement of Mr. Houston follows:]

 Prepared Statement of Dr. Paul Houston, Executive Director, American 
                  Association of School Administrators

    Good morning. My name is Paul Houston and I am executive director 
of the American Association of School Administrators. We are the 
national association for school system leaders and I am here 
representing the nearly 13,000 public school superintendents who serve 
the nation's children.
    The reauthorization of the Elementary and Secondary Education Act 
is always a cause for hope among school administrators. In the past, 
ESEA has focused on improving educational outcomes for low-income 
students.
    AASA had many issues with the provisions of the last ESEA 
authorization. We felt so strongly that we opposed the bill. Many of 
the concerns we raised, sadly, proved prescient and we have seen 
schools and educators struggle with those provisions. During this 
cycle, we commend congressional staff and members for the transparency 
of the process and the professional courtesy shown to AASA staff and 
members by both majority and minority staff.
    We are pleased with the modifications to the Rural Educational 
Achievement Program in the discussion draft. However, while the draft 
identifies important issues that need to be addressed in the 
reauthorization, such as multiple measures and growth, it does not 
fully resolve those issues. There is inconsistency between sections of 
Title I. There is increased complexity and confusion for AYP that make 
estimation of effects impossible. There are 14 new reports and analyses 
required of local school districts. In addition, there is conflict 
between IDEA and Title I, inappropriate assessment of English language 
learners and continuation of inappropriate provisions for 5,000 small 
and rural school districts.
    We believe that problems exist in the discussion draft because the 
flawed assumptions underlying NCLB have not been adequately reexamined. 
Where I grew up, we learned that when you lean your ladder against the 
wrong wall, you end up painting the wrong house. Solutions based on 
wrong or inconsistent assumptions are not solutions at all--they are 
new problems.
    What are some of these incorrect assumptions? One is that answers 
to educational questions should flow from Washington and from the 
Department of Education. There is no relief from the prescriptive 
nature of the current law. The discussion draft adds new prescriptive 
federal authority, such as how to calculate graduation rates and what 
measures beyond tests can be used to judge schools. The changes make it 
impossible to estimate the effect on AYP, which must addressed before 
implementation.
    AASA believes that educators, who are closest to the issues and 
have the greatest experience working with children, should drive the 
solutions. Our country is strong and vibrant because of our system of 
federalism and because we have had a partnership among local 
communities, states and the federal government. The last ESEA 
reauthorization badly strained that partnership and new mandates 
emanating from Washington aren't likely to relieve that strain.
    Other assumptions in NCLB that have not been fully corrected in the 
draft are:
    <bullet> That annual standardized tests will ensure improvement in 
achievement;
    <bullet> That one size fits all, and that there is no need to make 
exceptions for geographically isolated school.
    <bullet> That the best way to estimate achievement is through a 
single standardized test; and
    <bullet> That the best way to motivate professionals to change 
their practices and policies is to discredit public schools and focus 
shame and punishment on teachers and administrators.
    Another assumption that needs revision is that accountability 
models should focus on the information needs of federal and state 
policy makers. No one on this or any other panel would suggest that 
accountability should not be a part of educational improvement. But, 
AASA believes that the only way to get close to the unattainable goal 
of 100 percent proficiency is by focusing the accountability system on 
the information needs of teachers, principals and school system 
leaders. We have only the time and funding for one accountability 
system. If you want to get close to the 100 percent goal, put the 
information in the classroom, instead of in Washington.
    Accountability is more than student achievement and student 
achievement is more than a test score. If America's children are to 
have any chance of success in a global market, they will need to be 
proficient in more than we can currently test. They need to be creative 
and curious, have a sense of adventure and be willing to challenge 
authority. Any system that reduces those skills or implies that only 
answering questions found in a bubble is a system that ultimately 
weakens America's competitive position and undermines the potential 
success of our children.
    In conclusion, we are pleased with the direction, transparency and 
professional courtesy of the process. However, we would be hard pressed 
to support the draft. We urge Congress to take the time to get the 
assumptions right, make the bill internally consistent, eliminate the 
conflicts with IDEA and accommodate the realities of rural schools.
                                 ______
                                 
    Chairman Miller. Thank you. I thought Admiral Brewer was 
going to get the most testimony inside of 5 minutes, but I 
think, Mr. Houston, you just one-upped him.
    Dr. Gray?

STATEMENT OF LARUTH GRAY, DEPUTY DIRECTOR, METROPOLITAN CENTER 
                      FOR URBAN EDUCATION

    Ms. Gray. Chairman Miller, members of the committee, I am 
LaRuth Gray, deputy director of the Metropolitan Center for 
Urban Education at New York University.
    But today I am representing the National Alliance of Black 
School Educators, a voluntary organization. And on behalf of 
the president, Dr. Emma Epps, superintendent of schools in 
Ecorse, Michigan, and our 140 national affiliates, we 
appreciate this opportunity to make further comments beyond our 
September 5 letter, which did include specific recommendations.
    Just by way of introduction, our organization of 4,000 is 
comprised of a membership range in the field of education which 
brings together in one organization school board members, 
superintendents, retired educators, central office staffs, 
principals, higher education faculty and researchers. This 
provides a rich opportunity to have quite an interesting 
dialogue across those specific groups that speak directly to 
the needs of children of African descent.
    Before I continue, the National Alliance of Black School 
Educators--you have heard it over and over again today, but we 
really do applaud you for doing public work, public business in 
the public. That is very important.
    We have three things that we wanted to talk to you about, 
but let me just say that we do support the direction of several 
promising factors in the bill: the graduation promise fund, the 
comparability discussion, multiple measures, multiple 
indicators and those issues that talked to parent involvement.
    But the three things that we are most passionate about is 
Title I funding, which is the anchor of the bill. The second is 
an accountability construct that allows for multiple sources of 
evidence, multiple indicators and the potential for measurement 
of student achievement, student performance, and progress. The 
third is the inclusion within the new bill of a pilot program 
of dual language, specifically targeted to poor Title I 
schools.
    Let us go with the Title I funding in the targeting 
resource. Is the alliance concerned about Congress's commitment 
many sessions ago to fund special education of 40 percent? Of 
course we are. Is it concerned about the deteriorating school 
buildings? Of course we are. Are we concerned about teacher 
quality and class size? Of course. Are we concerned about 
parents and their role in this education equation? Of course. 
Are we concerned about ``n size'' and ELLs and SES? We are 
concerned about all that. Are we concerned that currently 30 
percent, at least 30 percent, of the new public charter schools 
in America are run by for-profit organizations? Of course we 
are.
    However, we are most concerned about full funding for Title 
I.
    Currently, Title I is only 2 percent of the national K-12 
spending. It has been 42 years since Congress and the Johnson 
administration moved to establish Head Start and Title I to 
help eliminate the large educational gaps that had long 
persisted among students from different socioeconomic levels in 
a society.
    The notion was bold and courageous at that time, because at 
that time no country in the world was in possession of proven 
strategies for quickly closing such gaps. Indeed, here in the 
United States, educators and policymakers did not yet have good 
national data on the extent to which academic achievement 
differed among groups.
    However, the data that was available suggested that 
children from less-advantaged homes and communities and 
children without a rich construct of opportunity--there is that 
word again, ``opportunity''--were experiencing much less 
academic success than they should or could. Congress and the 
President had the wisdom to make substantial new investments in 
the education of less-advantaged children.
    At the core of our recommendations is the notion that 
parity and equity in student achievement and excellence in 
educational attainment for all citizens is dependent on the 
equitable and adequate targeting of Federal dollars based on 
need and on a substantial investment in other education-
relevant resources. And in our appendix, we laid out those six.
    Let me just say to you that in the last month we have been 
very pleased--or maybe it has been 2 months--we have been very 
pleased to see two things where it is clear that this Congress 
understands that: the Competitiveness Act and, of course, your 
just most recent passage of the College Cost Reduction Act. 
That sounds just right.
    I won't go into--you know the purpose. But let me just say, 
the reality is that a significant number of children of African 
descent attend schools in very poor and rural communities. Of 
the current 300 African American superintendents who belong to 
AASA in the country, two-thirds had either poor, rural or newly 
resegregated school districts in suburban rings that are also 
very poor. Though we believe our recommendations benefit every 
student in America, we specifically speak to the needs of poor 
students of African descent.
    In short, let us just remember that Title I was designed to 
compensate for the disadvantages in children's economic status 
and deficiencies in learning associated with home, school or 
community experience. We are still there 40 years later.
    We actually provided for you, on September 5, a specific 
proposal that we think is on the right focus, and I won't 
repeat that because of time, but it is in our September letter, 
and I have also included it today in this testimony.
    Let me remind you that we have been here before. During the 
1960s and early 1970s, when there was more money funded--and we 
are not saying that money makes a difference instead of 
achievement; that is not what we are asking for, money instead 
of achievement. During the 1960s and early 1970s, poor, 
minority communities from the Delta in Mississippi to the rural 
mountains of Vermont and New Hampshire to the Appalachian 
communities in West Virginia to the urban epicenters of 
Chicago, New York City, L.A., Houston and Birmingham, citizens 
were engaged in making their communities, once divided and 
isolated, whole through various community actions and model 
city and many wonderful school programs. And it was certainly 
the distinguished gentleman from California at that time who 
became Chair in 1984, Congressman Gus Hawkins from California, 
who understood this. And we saw great, great stuff happening.
    Then, just as it was beginning to work, some promise and 
progress was halted by voices that said, ``Those Great Society 
programs have to go. Too much money. It is a waste and a 
failure.'' A campaign was forged to carry out an agenda that 
really, in fact, blamed the victims, namely poor 
disenfranchised families and communities.
    This is not a discussion about whether Title I was a 
failure or a success. We can handle that in another discussion. 
But what we do know is that, for the school year of 2007-2008, 
total appropriations for Title I granted for school districts 
was $12.8 billion, an increase of less than 1 percent, $124 
million, over the previous-year funding.
    Does money, then, matter for the poor? You bet it does. You 
can't fully fund it in this cycle? Well, then let us tell you 
what we think you ought to do.
    Chairman Miller. You are going to have to do that quickly, 
Dr. Gray.
    Ms. Gray. Okay.
    Target the money to the poorest schools, the poorest 
districts and the poorest children.
    Let me just say to you that we have a proposal for funding 
a dual language program in Title I schools, and we have that 
proposal, and we think we have two sponsors. So we will talk to 
you later.
    [The statement of Ms. Gray follows:]

      Prepared Statement of Dr. La Ruth H. Gray, Deputy Director, 
                Metropolitan Center for Urban Education

    Dear Honorable Committee Members, on behalf of our President Dr. 
Emma Epps, Superintendent of Schools in Ecorse, Michigan and our 140 
affiliates, we appreciate this opportunity to make further comments 
beyond our September 5th letter which include specific recommendations. 
Our organization of 4,000 is comprised of a membership range of actors 
in the field education. Its structure is that of Commissions and 
Affiliates representing teachers, school board members, retired 
educators, Superintendents of Schools, Central office staffs, 
Administrators, Principals, Higher Education Faculty and Researchers. 
This provides rich opportunities for coordinated conversations and 
actions that speak directly to the needs of children of African 
descent. Before we continue with the remainder of our 5minutes. The 
National Association of Black School Educators (NABSE) commends you on 
conducting public business in the public. As the Congress moves forward 
on its reauthorization of the Elementary and Secondary Education Act of 
1965, your precedent-setting action of providing America's citizenry 
with your thinking in a draft discussion document is powerful. We urge 
you to continue this transparency protocol throughout the process of 
reauthorizing the Elementary and Secondary Act of 1965. We would like 
to direct our commentary today to three issues:
    1. Title I funding; the anchor of the bill.
    2. An accountability construct that allows for multiple sources of 
evidence, multiple indicators, and the potential for measurement of 
student achievement, performance and PROGRESS along a continuum.
    3. The inclusion within the new bill of a pilot program of dual 
language specifically targeted to the poorer Title 1 schools.
Title I Funding and the Targeting of Resources
    Is the Alliance concerned about Congress' commitment (many sessions 
ago) to fund special education at a 40% percent level. Of Course. Is 
the National alliance concerned about the school infrastructure and 
deteriorating school buildings? Of course. Is it concerned about 
teacher quality and class size? Of course. Is it concerned about 
parents and their role in this education equation? Is it concerned 
about N size, ELLs, SES ? Of course. Is the NABSE concerned about 
vouchers, block grants, and the fact that 30 percent of the new public 
charter schools in America are run by FOR PROFIT organizations? Of 
course. Is NASBE concerned about high school reform and about school 
improvement? Of course. However, the National Alliance of Black School 
Educators' burning and passionate concern is FULL FUNDING for Title I. 
Currently, Title I is only two percent (2%) of National k-12 spending.
    It has been on 42 years since the Congress and the Johnson 
Administration moved to establish Head Start and Title I to help 
eliminate the large educational gaps that had long persisted among 
students from different socioeconomic levels in our society. The notion 
was bold and courageous because, at that time, no country in the world 
was in possession of proven strategies for quickly closing such gaps. 
Indeed, here in the United States, educators and policymakers did not 
yet have good national data on the extent to which academic achievement 
differed among groups. However, the data that were available suggested 
that children from less advantaged homes and communities and children 
without a rich construct of opportunity were experiencing much less 
academic success than they should or could. Congress and the President 
had the wisdom to make substantial new investments in the education of 
less advantaged children.
    At the core of the NABSE's recommendations for the reauthorization 
and full funding of Title I of the Elementary and Secondary Education 
Act (ESEA) is the notion that parity and equity in student achievement, 
and excellence in educational attainment for all citizens is dependent 
on the equitable and adequate targeting of federal dollars based on 
need and on a substantial investment in other education-relevant 
recourses 1 that positively affect the educational experience of 
students. The popular press and much of the country's polity equate 
poor Black and Latino students only with urban communities. The reality 
is that a significant number of children of African descent attend 
schools in very poor rural communities. Of the current 300 African 
American Superintendents in the country, two-thirds head either poor 
rural or newly re-segregated school districts in suburban rings. Though 
we believe our recommendations will benefit every student in America, 
we speak specifically to the needs of poor students of African descent 
who reside in rural and inner-city America or in the recently re-
segregated suburban
    The stated purpose of the 1965 Title I Act includes the following: 
In recognition of the special educational needs of low-income families 
and the impact that concentrations of low-income families have on the 
ability of local education agencies to support adequate educational 
programs, the Congress hereby declares it to be the policy of the 
United States to provide financial assistance to local educational 
agencies serving areas with concentrations of children from low-income 
families to expand and improve their educational programs by various 
means (including preschool programs) which contribute particularly to 
meeting the special educational needs of educationally deprived 
children.
    In short, Title I was designed to compensate for the disadvantages 
in children's economic status and deficiencies in learning associated 
with home, school, or community experience. Ladies and gentlemen, these 
disadvantages still exist today--40 years later. We included in our 
commentary on September 5th a recommendation for a very specific 
formula change. We will not repeat it here but are including it in the 
written text.
    We ask the Honorable Congressmen to explore and address funding in 
that section of Title I that addresses targeted grants and the finance 
incentive grants. Currently, these grants are determined by 
concentration of poverty. This, of course, is the right focus. However, 
we are as concerned as our colleagues in AASA about the ways in which 
concentration of poverty is defined. Currently, concentration of 
poverty is based on the number of poor students in a district or the 
percentage of poverty, whichever is higher. Thus, districts with lower 
levels of poverty often receive more Title I funding per student than 
smaller districts with much higher percentages of poverty. (There are 
300plus Black superintendents in this country. Of those 87% are leading 
poor districts of less than 50,000. The best example of small districts 
affected in this manner can be found in the Mississippi Delta.)
    We strongly believe that the weighting based on the number of poor 
students should be eliminated from this definition. Instead, we believe 
that a school district's allocation should be based on their percentage 
of poverty. That way, all districts at the same percentage of poverty 
will receive the same amount per student.
    We've been here before. During the sixties and early seventies, 
poor and minority communities (from the Delta in Mississippi, to the 
rural mountains of Vermont and New Hampshire, to the Appalachian 
communities in West Virginia, to the Urban Epic Centers of Chicago, New 
York City, Los Angeles, Houston and Birmingham) citizens were engaged 
in making their communities once divided and isolated whole, through 
various community actions and model city and school programs visible 
progress was being made and the horrible vestiges of segregation, 
isolation, and poverty were being chipped away.
    Just as that began to work and was beginning to show some promise, 
progress was halted by voices that said that the ``great society 
programs'' were a waste and failure. A campaign was forged to carry out 
an agenda that really in fact blamed the victims, namely poor, 
disenfranchised families and communities.
    Thus the discussion is not about whether Title I is a success or 
failure. That is another argument, another story and another construct 
where NABSE can respond quite compellingly that Title I has been a 
strong force in impacting the lives of the less advantaged socially, 
emotionally and academically. As Jack Jennings so eloquently stated in 
past articles in both The Kappan and Education Week, that while 
eliminating the achievement gap is a worthy goal--and we agree that it 
is--that this is not the stated purpose of Title I, nor the standard 
for marking its success. On another note, much has been made of the 
notion that ``we've spent billions over 40 years.''
    For the school year 07-08 total appropriation for Title I-A granted 
for school districts was 12.8 billion an increase of less than 1 
percent or 124 million over the previous years funding. Does money then 
matter for the poor? Does parity cost? You bet.
    We believe that at a time when a significant number of citizens 
have enjoyed economic opportunity advantages, and at a time when the 
data demonstrate that a large number of our school children and their 
families remain far below the poverty line, that this is the time to 
address the recent findings which show that 20 percent of the schools 
with poverty levels of 50 to 74 percent have little or no Title I 
funds! This is the time to fully fund Title I.
    Can't fully fund it in this cycle? Then we are requesting that all 
Title I funds be concentrated and targeted to the poorest children in 
the poorest schools in the poorest districts rather than diluting the 
funding as is the current practice with almost every district in the 
nation receiving some amount of Title I allocation.
A Comprehensive Model of Accountability (Multiple indicators and 
        Multiple measures)
    We are a member organization of the forum on Educational 
Accountability (FEA). We concur with premise put fourth by FEA on 
multiple indicators and multiple assessments. We believe that providing 
flexibility to state and local education agencies in developing 
assessments that can be validated and reliable as part of their state 
plan is simply the right thing to do. After all, the Constitution 
ultimately holds states responsible for the education of their 
citizens.
    We will not repeat our recommendations here, which are available on 
www.edaccountabilty.org. However, it is important to adequately fund 
the states ability to determine how well their students are doing. It 
is as important to help states find out how ``smart'' are their 
students, as it is for Congress to continue funding smart bombs.
    Multiple indicators of school performance in a strong 
accountability construct allow districts and states to move beyond 
equalizing test scores and to examine other indicators so that 
EDUCATIONAL EQUITY is approached. In a 21st Century, World Class, 
Educational System it is appropriate to examine structures and 
processes from other strong researched--based fields, for example:
    a) Multiple measures is the hallmark of good social-science 
research. Earl Babbie, in his book, The Practice of Social Research, 
notes, ``* * * there is no single indicator that will give you the 
measure of the variable you really want'' (p. 141). In this sense, no 
single indicator can adequately measure a student's academic 
performance or ability, but rather a multitude of indicators and 
measures should be employed too assure equity and excellence.
    b) Our nation's economic and employment system (Dow Jones, GNP) 
uses multiple measures to forecast, project and determine growth. Why 
is this not good enough for our Nation's Public Schools?
    Most of America's College Admissions (Public and Private) are based 
on multiple measures. Why is this not good enough for our children, 
particularly the least advantaged?
    Multiple forms of assessment and multiple indicators together will 
provide more opportunities and meaningful success, as well as help 
ensure that all children receive a comprehensive schooling aimed at 
educating the whole child.
    The current adequate rate of progress requirements expect that 
those who start the race behind and who often have fewer resources (in 
effect, racers with weights attached) will reach the same level as 
those with great advantages. A system that expects reasonable, strong 
progress for all is what we need.
Pilot Dual Language Program
    It is in the national interest to grow a cadre of citizens who are 
able to speak more than one language and who are versed in other 
cultures. That phenomenon is best served through language. We are 
requesting that there be a section included in the bill to fund at the 
elementary level a demonstration dual language program for a select 
number of the poorest Title I schools in each of the ten USDOE regions. 
It is imperative that poor students of African descent not be ``left 
behind'' in the move toward foreign language acquisition there is much 
research about the benefits of learning a second language. Some of that 
research indicates that learning a second language promotes cognitive 
flexibility and enhances academic achievement. Finally, dual language 
programs breaks down so many barriers because they allow students to 
embrace the world.
    We recognize that the discussion draft only sends the train out of 
the yard and onto the tracks. We would like to see the train pull out 
of the station during this Congressional session.
    We would be pleased to work with the committee and its staff at 
every stop along the way.
            Sincerely,
                                             Dr. Emma Epps,
                                                         President.
                                       Dr. La Ruth H. Gray,
             Government Relations and Legislative Liaison to Board.
                               appendix 1
    Miller, L. Scott, An American Imperative: Accelerating Minority 
Educational Advancement. Yale University Press. 1995 The National 
Alliance of Black School Educators adhere to the theoretical framework 
on education-relevance resources as explained by L. Scott Miller:
    Education-relevant resources encompass the idea that the amount of 
educational resource varies from school to school across the country, 
and the amount of resources available from students' families varies 
even more. So, even a school with excellent resources may not be able 
to fully help some students. Education-relevant resources include:
    <bullet> Human capital(the acquired knowledge, skills, and 
experience that a person has accumulated in his/her lifetime that can 
be a benefit to others through education);
    <bullet> Social capital (the relationship and personal bonds that 
people share in addition to the networks, groups and communities that 
grow out of these relationships);
    <bullet> Health capital (amount of access that a student has to 
quality health treatment, and the health conditions in which the 
student lives);
    <bullet> Financial capital (the income and savings of the family of 
the student); and
    <bullet> Political capital (how much society is committed to 
educating the students)
                        appendix 2.--references
Grissner, D.W., Does Money Matter for Minority and Disadvantaged 
        Students: Assessing the Empirical Evidence. National Center for 
        Research, Development in School Finance, Office of Educational 
        Research and Improvement. (1997)
Jennings, John F., Title I: Its Legislative History and Its Promise. 
        Phi Delta Kappan (2000)
Miller, L. Scott, An American Imperative: Accelerating Minority 
        Educational Advancement. Yale University Press. 1995
                                 ______
                                 
    Chairman Miller. Thank you. I don't want you to think that 
those extra minutes you were granted were just because it is 
your birthday. You know, I am just generally a nice guy.
    Ms. Gray. It is my birthday.
    Chairman Miller. Yes, right. There you go. We are very 
thorough. 
    Mr. Resnick?

  STATEMENT OF MICHAEL RESNICK, ASSOCIATE EXECUTIVE DIRECTOR, 
               NATIONAL SCHOOL BOARDS ASSOCIATION

    Mr. Resnick. Thank you, Mr. Miller. I guess I am in the 
honorable position of being the cleanup batter for today. We 
appreciate the opportunity to testify on the Title I discussion 
draft to reauthorize the No Child Left Behind Act.
    My name is Michael Resnick. I am the associate executive 
director of the National School Boards Association. Our 
association represents 95,000 local school board members.
    First, I want to express our appreciation to the 
committee's leadership in pressing forward this year with the 
reauthorization and the openness with which you are proceeding. 
Our local school boards have had extensive experience in 
implementing No Child Left Behind over the last 5 years and are 
united in agreeing that the law needs significant changes, 
changes that cannot wait for another 2 or 3 years.
    If I leave the committee with just one overall impression 
today, I hope it is this: In moving forward with the 
reauthorizations this year, we urge you to heed the lessons 
learned during the implementation of the current law. This 
comprehensive draft, even with the best intentions, will 
produce unintended consequences. This is a complicated proposal 
with a myriad of changes and interaction of provisions both 
within Title I and with the other titles that are just now 
evolving. We urge your continued openness to adjusting the bill 
through final enactment, allowing for adequate local reaction 
and involvement.
    I want to focus on a few key issues from the 50 separate 
comments for improvement we submitted last week and attached to 
this testimony.
    We are pleased that your draft reflects a paradigm shift 
away from the rigid punitive aspects and one-size-fits-all 
approach we now have and recognizes the need for greater 
flexibility and increased options for States and districts in 
the law's implementation.
    In general, with some refinements, we are pleased with the 
key concepts in the draft, such as growth models and indexing 
systems, multiple measures of academic achievement, the local 
assessment pilot program, and reforms regarding accountability 
measures for students with disabilities and English language 
learners.
    We strongly support the proposed changes to more 
strategically target the identification of schools for 
improvement, such as tying identification to when the same 
group of students missed their academic targets in the same 
subject for 2 consecutive years. This new direction also 
appears to emphasize a desire to provide constructive 
assistance, including the Graduation Promise Fund Program.
    However, we do have ample concerns. In some ways, the draft 
suggests an exchange to focus assistance and sanctions on the 
high-priority schools for an expansion on management and 
process duties on many others. In so doing, the draft adds many 
new requirements, including significant process data collection 
and reporting requirements for schools and school districts. No 
one, least of all our students, would be well-served if their 
schools are overwhelmed by increased data and implementation 
requirements, especially with the numerous other changes this 
bill would bring.
    For example, States adopt growth models, develop detailed 
data systems, design new standards in assessments and enact new 
interventions. Local districts will need to make adjustments to 
their curriculum, structural materials, professional 
development programs and more. We are concerned that the sum 
total of these processes and substantive requirements, some 
occurring simultaneously, will substantially complicate general 
understanding of the revised law and its actual implementation.
    We urge you to prioritize the specific details that are 
absolutely necessary to help raise student achievement and 
discount those that may be a theoretical ideal but, in 
practice, will only complicate the work of schools.
    A few examples might help, at the expense of getting into a 
little detail. On LEA improvement plans, we urge you to 
reconsider this exhaustive and highly structured list of 
requirements. We are especially concerned that rural and 
smaller districts, and urban districts for different reasons, 
lack the resources and manpower to undertake all that would be 
required than, say, negotiating those requirements between the 
SEA and LEA to meet local conditions.
    On students with disabilities, the draft allows local 
school districts to apply to exceed the 2 percent cap but 
requires schools to provide past evidence regarding teacher 
qualifications and research-based instruction. How far back in 
those students' education must that evidence be provided? How 
will schools adequately assemble it for students moving in from 
other districts or other States? How much review of all of that 
student documentation will actually occur at the State and 
Federal level? Why not defer to the IEP evaluation team 
consistent with IDEA?
    On English language learners for determining AYP, the bill 
should recognize research findings that ELL students frequently 
take 4 to 7 years to become proficient in academic English, the 
language skills needed in the classroom. On using other 
indicators for AYP, while the goal is good, the draft requires 
substantial data collection, it is fairly limited in its 
weighting, is restrictive in the conditions for its use, and 
quite complex and variable from year to year in setting 
benchmarks to be as beneficial as it could be in scoring AYP or 
as a planning tool for the use of these indicators.
    On providing teacher quality through school equalization, 
the effort should focus on incentives, not mandates on teacher 
assignment, especially given the realities of negotiated 
contract agreements in many States.
    Finally, funding matters. Accountability is a two-way 
street, and the Federal Government must do its part. We urge 
the addition of funding triggers in the event that adequate 
funding does not occur.
    This authorization will shape the costs of America's public 
schools for another 5 or 6 years. We must get it right. We look 
forward to continuing to work with the committee as this 
process advances.
    Thank you, again, for the opportunity to testify.
    [The statement of Mr. Resnick follows:]

Prepared Statement of Michael A. Resnick, Associate Executive Director, 
                   National School Boards Association

    Chairman Miller, Ranking Member McKeon, Chairman Kildee, Ranking 
Member Castle, Members of the Committee. Thank you for the opportunity 
today to share our thoughts on the pending reauthorization of the 
Elementary and Secondary Education Act, or No Child Left Behind, and 
specifically on the Title I discussion draft.
    My name is Michael Resnick, Associate Executive Director at the 
National School Boards Association, and I speak on behalf of the 95,000 
local school board members across the country who serve the nation's 49 
million students in our public schools.
    I first want to express our appreciation for your leadership in 
pressing forward, this year with the reauthorization, and for the 
transparent manner in which you have done so, seeking input from those 
responsible for governing our local schools. I also want to recognize 
the long, hard hours your staffs already have devoted to the 
reauthorization.
    Local school boards have had extensive experience in implementing 
NCLB over the past 5 years. Based on that ``real world'' experience, 
school boards are united in agreeing that the law needs significant 
changes. And they are united in agreeing that the status quo cannot 
continue for another 2 or 3 years.
    If I leave you with just one overall impression today I hope it is 
this: we wish for the committee to continue moving forward with the 
reauthorization this year, but urge you to heed the lessons learned 
during implementation of the current law. Any comprehensive law, even 
the best legislation created with the best intentions, is bound to 
result in unintended consequences. And we all know the current NCLB has 
suffered that fate.
    So we suggest that as you consider specific approaches that may 
sound right on paper, that you take pains to determine whether they can 
actually work where it counts: in our schools. And whether they will 
result in our shared goal of improving the achievement of all students. 
That should be the bright-line test for what should and should not be 
included in the law.
    This will be a complicated process with time needed for local 
school personnel to carefully reflect and comment on the myriad changes 
it would bring. We urge your continued openness to making necessary 
adjustments to the bill throughout the entire process, including 
looking far ahead, in conference committee.
    Today I will focus only on a few key issues based on our initial 
reaction to the discussion draft, and ask that you review our more 
detailed comments as submitted to the committee last week and attached 
to this testimony.
    Overall, school boards are pleased that your draft reflects a 
paradigm shift away from the rigid punitive aspects and ``one-size-
fits-all'' approach we now have, and moves toward recognizing the need 
for greater flexibility and increased options for states and districts 
in improving student achievement. This new direction also appears to 
emphasize a desire to provide constructive assistance.
    In general we are pleased with key concepts in the draft such as 
growth models and indexing systems, multiple measures of academic 
achievement, and reforms regarding progress measures for students with 
disabilities and English Language Learners. We strongly support the 
proposed change to tighten the identification of schools for 
improvement to those in which the same group of students miss their 
academic targets in the same subject for two consecutive years. This 
was one of NSBA's key recommendations made to Congress and it will help 
ensure that limited federal resources are strategically targeted to the 
students and schools most in need.
    In our initial review, we believe there is much here that improves 
upon current law, but we do have ample concerns, and I refer you to our 
extensive comments for details. In some ways the draft suggests an 
exchange. While assistance or sanctions would be more focused, there 
would be an expansion on management and process duties. Right now, our 
overarching concern is the addition of many new layers of requirements, 
including significant process, data collection and reporting 
requirements for schools and districts.
    Please keep in mind that in the past decade schools and districts 
have reduced administrative staff in order to reallocate resources to 
the classroom. The proposed changes would expand upon and add new 
managerial duties to a wide range of the nation's schools. We have 
serious reservations that the sum total of these requirements, 
occurring simultaneously, will substantially complicate general 
understanding of the revised law and its actual implementation.
    No one, least of all our students, will be well served if their 
schools are overwhelmed by increased data and reporting requirements, 
along with the numerous changes this bill would bring. For example, as 
states adopt growth models, develop detailed data systems, design new 
standards and assessments, and enact new interventions, local districts 
must make significant adjustments to their curriculum, instructional 
materials, professional development programs, and more.
    When taken collectively, we question whether schools, districts, 
states and the Department of Education, have the capacity to carry out 
all that would be asked. We urge you to prioritize specific details 
that are absolutely necessary to help raise student achievement, and 
discard those that may meet a theoretical ideal but in practice will 
only complicate the work of schools. Or, better yet, defer to the 
judgment of the states and districts on this matter.
    A few other concerns to briefly note:
    <bullet> 1) On LEA Improvement Plans: We urge you to reconsider 
this exhaustive list of requirements. We are especially concerned that 
rural and smaller districts lack the resources and manpower to 
undertake all that would be required. One approach would be to develop 
the list as options for LEA's to consider in developing their plans and 
permit the specifics to be negotiated between the SEA and LEA.
    <bullet> 2) On Testing of Students with Disabilities: The draft 
allows local districts to apply to exceed the 2 percent cap on 
allowances but requires schools to provide past evidence of teacher 
qualifications or research-based instruction. How far back in the 
child's education must that evidence be provided and how will schools 
adequately assemble it for students moving in from other districts or 
states? How much review of such documentation will actually occur at 
the state and federal levels? We believe the better approach is to 
defer to the IEP team evaluation, consistent with IDEA.
    <bullet> 3) On Teacher Quality. We support efforts to ensure that 
all students have access to qualified and effective teachers and 
believe the federal role should be to assist this process via 
incentives, not the broad requirements in the draft. We question how 
districts will equalize school-by-school teacher salaries given the 
realities of negotiated contract agreements in many states. 
Additionally, the draft ignores other factors beyond salaries that 
warrant consideration. Take for example a district that lowers the 
teacher-student ratio at a high-poverty school staffed with qualified 
teachers who have slightly less experience than teachers in another 
school with larger class sizes. Based on salary schedules the latter 
school would have a higher average expenditure for salaries, yet the 
lower teacher-student ratio at the other school may be more significant 
academically.
    <bullet> 4) On Labeling of Schools: Given that the draft bill 
defines criteria for designating which schools make or miss AYP, there 
is no need for the federal government to stipulate the specific label. 
We suggest providing states the option of using the bill's labels or 
determining their own labels, since other terms may be more consistent 
with their own accountability systems.
    Finally, we would be remiss if we did not mention funding. 
Resources matter. Accountability is a 2-way street, and the federal 
government must do its part to ensure ample funding is provided to 
schools in order to meet the requirements and challenges the law 
creates. We recognize this is an authorizing committee, but urge you to 
strongly advocate for a sustained substantial investment in our 
schools, and to include provisions in the bill that offer relief for 
schools in the event adequate funding does not materialize. Our 
specific recommendation, included in H.R. 648, calls for a deferral of 
the most punitive sanctions in any year where Title I appropriations do 
not increase by $2.5 billion until the program is fully funded.
    This reauthorization will shape the course of America's public 
schools for another 5 or 6 years. We must get it right. We look forward 
to continuing to work with the committee as this process advances. 
Thank you again for hearing our initial comments.
                                 ______
                                 
    Chairman Miller. Thank you very much. It has been a 
wonderful day to hear all of this overwhelming and extensive 
support for the discussion draft. I can't tell you what it has 
meant. We now have received support on one or more points from 
every point on the compass along with the opposition.
    But I want to thank you very much for your taking the time 
and for not only--again, I want to say this: So many people who 
participated and testified today have been involved with this 
committee in helping us put together recommendations and 
suggestions and improving our knowledge of exactly how this all 
works on the ground and what we have learned and not learned 
over the last 5 years. And, clearly, all of you have been 
deeply involved in that process.
    That is not to say we accepted every recommendation or that 
we got every recommendation exactly as you wanted it or that we 
even have it in the right form. That is why Mr. McKeon and I 
decided we would sort of break with precedent here and put a 
discussion draft out for very broad and wide circulation so 
that we could receive the kind of testimony we received today 
and receive the testimony that we received from so many people 
across the country via the Internet where they have read it as 
teachers or administrators or school board members or what have 
you. As I pointed out in the beginning, some 60,000 downloads 
of this information has taken place since we first put it up on 
the Internet, which is important.
    And your involvement, all of the organizations which you 
represent, have been deeply involved and very important to 
this, as have the other panels. It has been a long day, but I 
think it has been most helpful. At least I view it that way.
    I referred earlier to all of my take-aways. I have been 
ripping and tearing and underlining your testimony here. I am 
sure the staff is delighted to hear this. But I think it is 
important that we continue to raise the question so that we can 
do this in the best fashion possible.
    I appreciate that most people consider it a matter of 
urgency that we get this reauthorization done this year. And we 
want to attempt to--obviously, we want to hold to our goal of 
getting that done.
    I would also say that a number of people--and this wasn't 
specifically, because we all know that it is a more difficult 
issue--but dealing with--and, Dr. Gray, you raised the question 
of funding. In the case of schools that need improvement, 
tragically this is the first year that any money was provided 
for schools in need of improvement. Those schools, some of 
them, were in need of improvement before this law was passed, 
because it was from the prior legislation that existed.
    But we are trying to suggest to the education community 
that we are serious about changing the direction of the funding 
in this country for this. We are not going to make up $55 
billion in 1 year when we inherited the sea of red ink that we 
have today.
    We are trying to do this on a pay-as-you-go. We are trying 
to make this a priority within pay-as-you-go. We did that in 
the higher education reconciliation bill that not only cut the 
cost of college, but also provided $3 billion for teachers and 
teacher improvement, career development and all of the rest of 
it to put that money in place.
    That is a struggle that we continue with. The 
Appropriations Committee, I think, given what they had to work 
with, has done a significant job in changing the directions. 
And we continue to counsel with them on how we can have that 
happen.
    We clearly, at the end of the day, need the partnership of 
the President to support this increased funding. And it would 
make everybody's job somewhat easier and would certainly be 
important to those schools that are struggling and those 
districts that are struggling to bring about the reform and the 
change and the improvement in their various districts.
    Let me thank you again and thank the members for 
participating. And thank you for sticking with us on this 
effort to provide the best opportunity that we can to make the 
improvements that are necessary in this act and, at the same 
time, hold on to the integrity of the act, which I think is 
terribly important.
    Mrs. Biggert. Mr. Chairman, would you just yield for 1 
minute?
    Chairman Miller. Sure.
    Mrs. Biggert. I just wanted to thank you for holding this 
hearing. I think it was a great idea to have so many ideas 
coming at us all at once, but, really, to kind of bring it all 
together so that we can get it organized and hearing from so 
many.
    But I would hope that we would have ample time to actually, 
as a committee, discuss these issues. Because I think, after 
everything that we have heard and all the roundtables that we 
have had in our districts and everything, before we finally--I 
know you wanted to do it this year, but we would have ample 
time to discuss it.
    And I thank you for holding this.
    Chairman Miller. We are going to treat those two things as 
being consistent for the moment: ample time and getting it done 
this year. We are going to try.
    But thank you again very much for all your expertise and 
your time.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on the Miller-
McKeon discussion draft of the Elementary and Secondary Education Act 
(ESEA) reauthorization.
    I believe that the proposed changes outlined in the discussion 
draft represent significant improvements to ESEA. However, I also feel 
that more improvements should be made as we move from a draft to a 
final product. I look forward to hearing from today's panelists, who 
represent a diverse set of education stakeholders, on what aspects of 
the discussion draft should be maintained and on what can be improved.
    In particular, I am interested to hear comments on the discussion 
draft's proposal to allow multiple indicators to be used in measuring 
adequate yearly progress. I know that some feel that the discussion 
draft is too limiting in the types of indicators that it allows for, 
while others believe that including any additional indicators will lead 
to reduced accountability. Strong arguments can be made on both sides 
of the issue and I am glad that this hearing will allow for a full 
discussion of this and many other important issues.
    Thank you again, Mr. Chairman, for holding this hearing and for the 
open nature with which you have conducted this reauthorization. I yield 
back the balance of my time.
                                 ______
                                 
    [Additional statements submitted by Mr. Miller follow:]

 Prepared Statement of Eliza Byard, Ph.D., Interim Executive Director, 
              Gay, Lesbian, and Straight Education Network

    Chairman Miller, Ranking Member McKeon and members of the 
Committee, thank you for this opportunity to submit testimony regarding 
the importance of preventing bullying and harassment in the nation's 
schools in order to ensure school safety and create school environments 
where all students can achieve high standards. I am happy to inform 
this Committee that over 30 national education, health care, civil 
rights, law enforcement, youth development, and other organizations--
all members of the National Safe Schools Partnership (NSSP)--have 
called on Congress to address this important challenge with specific 
recommendations.
    I am pleased to offer these comments on behalf of the Gay, Lesbian 
and Straight Education Network (GLSEN) as a member of the National Safe 
Schools Partnership. We believe that all students are entitled to an 
education free from bullying and harassment and want to thank you for 
recognizing and beginning to address the widespread problem through 
reauthorization of the Elementary and Secondary Education Act (ESEA). 
Before I start, I also want to acknowledge the tremendous leadership of 
Representative Linda Sanchez, who has been a true champion for school 
safety and the prevention of bullying and harassment.
    Meeting the ambitious proficiency goals set forth by the No Child 
Left Behind Act, and ensuring the academic success of all students, 
will only be possible when every child feels safe in the classroom. 
Evidence demonstrates that bullying and harassment significantly impact 
academic performance, school attendance, dropout rates and a student's 
likelihood of obtaining a post-secondary education. In fact, our 
research shows that nearly one in 11 students missed a class or a day 
of school, within the past month, because they felt unsafe. 
Additionally, the U.S. Department of Education has concluded that 
bullying and harassment ``affects nearly one in every three American 
schoolchildren in grades six through ten.'' And we know that bullying 
and harassment can lead to even greater school safety problems. Many 
high profile cases of school violence--as well as incidents that are 
less noted--have been attributed to students who were bullied and 
harassed in school. This research, and other findings I will describe 
later in my testimony, were published by members of the National Safe 
Schools Partnership in June in a policy paper titled, ``Bridging the 
Gap in Federal Law: Promoting Safe Schools and Improved Student 
Achievement By Preventing Bullying and Harassment in Our Schools.'' (A 
copy of the document is attached for your review and inclusion in the 
Record.)
    Given this evidence, we strongly support your decision to use the 
reauthorization process as an opportunity to strengthen state and local 
efforts to prevent bullying and harassment through the Safe and Drug 
Free Schools and Communities Act (SDFSCA). Leveraging the existing 
SDFSCA structure, as well as the fact that all public schools already 
have student conduct codes, provides an opportunity for Congress to act 
in a way that will have demonstrable high impact toward our shared 
educational aims, while doing so in a way that will have a minimal 
burden at the state and local level. Indeed, although a limited number 
of federal laws address certain particular kinds of harassment, they do 
not prohibit all kinds of harassment in schools, and no federal law 
specifically prohibits bullying in schools. Therefore, your work will 
fill a troubling gap in federal education policy--to ensure that all 
students, regardless of their background, are provided a safe 
environment in which to learn.
    Regarding specific provisions, we agree with your proposal to 
require states to include a bullying and harassment analysis in 
mandatory school safety needs assessments. We also share your desire to 
require better public reporting of bullying and harassment incidents 
and enhanced coordination among relevant state agencies. In addition to 
these requirements, the new law should require state needs assessments 
to include students' perceptions regarding their school environment, 
including with respect to the prevalence and seriousness of incidents 
of bullying and harassment and the responsiveness of the school to 
those incidents.
    We agree with you that school districts should establish bullying 
and harassment prevention programs, and appreciate your decision to 
provide support for the related professional development needed to make 
these programs work effectively. We also support your decision to 
require annual communications to parents, including describing an LEA's 
processes and procedures for addressing bullying and harassment 
grievances. This language could be strengthened by requiring such 
parent and student communications to include the name of the district 
staff person designated to receive and handle bullying and harassment 
complaints and by setting a timeline for resolving them. Authorizing 
funding for educating students about the consequences of bullying and 
harassment is also vitally important to fostering a safe learning 
environment, and we strongly support your decision directing governors 
to prioritize Safe and Drug Free Schools funding applications that 
include bullying and harassment prevention plans. While these changes 
are positive, districts should also be required to establish 
performance indicators designed to ensure prevention programs and 
activities are working.
    Our primary concern--and one shared by so many of the organizations 
that comprise the National Safe Schools Partnership--is that the 
discussion draft does not define ``bullying'' and ``harassment.'' This 
is a critical omission. A study commissioned by GLSEN and conducted by 
Harris Interactive concluded that students who attend schools with 
anti-harassment policies that enumerate categories of students for 
protection report that they feel safer (54% vs. 36%) and are less 
likely to skip a class because they feel uncomfortable or unsafe (5% 
vs. 16%), compared to students at schools with non-enumerated policies.
    Correspondingly, specific enumerated policies against bullying and 
harassment also make it more likely and easier for educators to 
intervene when they witness bullying and harassment. More than half of 
all teachers (53%) reported that bullying and harassment of students is 
a serious problem in their school. Students noted that teachers were 
more likely to intervene (25.3% vs. 12.3%) when bullying occurred, and 
were more likely to do so successfully (55.7% vs. 38.7%), if school 
policies included enumerated categories (compared to non-enumerated 
policies).
    Thus, while the discussion draft's expansion of the definition of 
violence to include bullying and harassment is crucial, it must be 
coupled with a clear explanation that all students, regardless of their 
background (including, among other grounds, sexual orientation or 
gender identity/expression) must be protected from bullying and 
harassment.
    This comprehensive approach to bullying and harassment--including 
needs assessments, reporting & communications requirements, prevention 
programs & professional development, and the definitions recommended 
above--would substantially reduce violence in our schools and ensure 
that schools become safer places to learn. A copy of our specific 
recommendations for how to define bullying and harassment, as well as 
our other recommendations for strengthening the discussion draft, is 
included below for your review and consideration.
    In closing, I also want to note the importance of authorizing 
consistent funding for the SDFSCA above current appropriations levels. 
State and local education authorities need sufficient funding to make 
these vital programs work effectively on behalf of children.
    Thank you again for addressing this important problem. We look 
forward to working with you throughout the reauthorization process and 
would be pleased to provide any additional information you and your 
staff may require.
    Response to House Education & Labor Committee ESEA, Title IV 
Discussion Draft
            Sec.  4151
    No Relevant Section. Definitions--Students who attend schools with 
anti-harassment policies that enumerate categories of students for 
protection report that they feel safer (54% vs. 36%) and are less 
likely to skip a class because they feel uncomfortable or unsafe (5% 
vs. 16%). Research shows that specific enumerated policies against 
bullying and harassment also make it more likely and easier for 
educators to intervene when they witness bullying and harassment. 
Therefore, we urge the Committee to include the following definitions 
of bullying and harassment:
    ``Bullying--The term `bullying' means conduct, including conduct 
that is based on any of the following: a student's actual or perceived 
race, color, national origin, sex, disability, sexual orientation, 
gender identity, religion, or any other distinguishing characteristics 
that may be defined by a State or local educational agency; that----
    (A) affects one or more students; and
    (B) adversely affects the ability of a student to participate in or 
benefit from the school's educational programs or activities by placing 
a student in reasonable fear of physical harm.''
    ``Harassment--The term `harassment' means conduct, including 
conduct that is based on any of the following: a student's actual or 
perceived race, color, national origin, sex, disability, sexual 
orientation, gender identity, religion, or any other distinguishing 
characteristics that may be defined by a State or local education 
agency; that----
    (A) affects one or more students; and
    (B) adversely affects the ability of a student to participate in or 
benefit from the school's educational programs or activities because 
the conduct as reasonably perceived by the student is so severe, 
persistent, or persuasive.''
    Effect on Other Laws--If the above definitions are adopted, the 
ESEA must clearly state that the requirements of the SDFSCA do not 
affect other federal and state non-discrimination laws. Thus, a new 
provision should be added that reads as follows:
    ``Federal and State Non Discrimination Laws--Nothing in this part 
shall be construed to invalidate or limit rights, remedies, procedures, 
or legal standards available to victims of discrimination under any 
other Federal law or law of a State or political subdivision of a 
State, including title VI of the Civil Rights Act of 1964 (42 U.S.C 
2000d et seq.), title IX of the Education Amendments of 1972 (20 U.S.C. 
1681 et seq.), section 504 of the Rehabilitation Act of 1973 (29 U.S.C. 
794), or the Americans with Disabilities Act of 1990 (42 U.S.C. 12101 
et seq.). The obligations imposed by this part are in addition to those 
imposed by title IX of the Education Amendments of 1972 (20 U.S.C. 1681 
et seq.) title VI of the Civil Rights Act of 1964 (42 U.S.C 2000d et 
seq.), and the Americans with Disabilities Act of 1990 (42 U.S.C. 12101 
et seq.).''
            Sec.  4113
    Student Perceptions--The new law should require states' mandatory 
needs assessments to include students' perceptions regarding their 
school environment, including with respect to the prevalence and 
seriousness of incidents of bullying and harassment and the 
responsiveness of the school to those incidents.
    State Support--The new law should also require SEAs to provide an 
assurance in their applications for Safe and Drug Free Schools Funding 
that they will assist districts and schools in their effort to prevent 
and appropriately respond to incidents of bullying and harassment a
            Sec.  4114
    Performance Indicators--Districts should be required to establish 
performance indicators designed to ensure bullying and harassment 
prevention programs and activities are working.
    Parent/Student Communications--Districts should be required to 
provide parents and students with the name of the school district staff 
person responsible for receiving bullying and harassment complaints.
    Resolution Timeline--Districts should be required to establish and 
publish a timeline for resolving bullying and harassment grievances.
                                 ______
                                 

  Prepared Statement of Rudolph F. Crew, Ed.D., Superintendent, Miami-
                  Dade County, Florida Public Schools

    Mr. Chairman, Ranking Member McKeon and members of the Committee, 
thank you for the opportunity to provide written testimony about the 
role that the federal government can play in ensuring all children 
experience an education that prepares them fully as learners, as 
citizens and as competitors in a global economy. I am Rudy Crew, and I 
am superintendent of the Miami-Dade County Public Schools in Florida, 
the nation's fourth largest school system.
    By the very nature of our district's diversity and size, Miami-Dade 
County Public Schools faces the successes and challenges of most 
districts across the nation. With over 350,000 students in 325 school 
buildings spread across over 2,000 square miles, our team of educators, 
students, and parents are dedicated to doing what needs to be done to 
achieve high levels of performance. This work is done on a daily basis 
in all of our classrooms, but we all know that success in the classroom 
is intricately linked to the real world. For this reason, I think it is 
incredibly important that I share with you the ``tale of two cities'' 
that plays out in our community.
    Upon arriving in Miami in July 2004, I found schools that were 
falling short of meeting their mission of preparing and molding 
students with the skills and experiences that would prepare them for 
life * * * real life. These underperforming schools were found 
throughout our district, but most of them were clustered together at 
the heart of our poorest neighborhoods. I immediately set three 
priorities for our work to address those stark disparities. Over the 
past three years we have worked harder than ever to eliminate low-
performing schools, to raise achievement for all students, and to 
improve the efficiency of business and construction practices. 
Significant progress has been made on all three fronts. In fact, Miami-
Dade is a finalist for the prestigious Broad Prize in Urban Education 
for a second consecutive year.
    This type of recognition does not come along without clear and 
quantifiable results. In the core academic subjects that have been the 
focus of the federal government's recent attention--reading, 
mathematics and science--student achievement is at its highest level 
ever in Miami-Dade. For two years in a row, more than half of our 
students are proficient readers based on Florida's standards. Despite 
having a student body that is far more diverse economically and 
ethnically than the nation as a whole, our median reading score on the 
national comparison portion of Florida's tests tops the national 
median. The results in math are even higher than in reading. Notably, 
our biggest gains have come at critical transition points in students' 
academic lives--in 3rd grade, when reading must be mastered, and in 
middle school, when the path to postsecondary success begins to be set.
    We have not, however, let our aspirations be guided simply by 
Florida's standard of proficiency. We have dramatically expanded our 
identification of and service to gifted students, resulting in a 26 
percent increase in students served last year. We have moved 
aggressively to increase access to Advanced Placement (AP) and 
International Baccalaureate courses, particularly in schools that have 
the highest concentrations of struggling students. Some schools are 
approaching 50 percent AP enrollment as a result of our efforts. We 
have also taken the lead in implementing a secondary school reform 
initiative to transform our high schools that includes the opportunity 
for a workplace internship or dual enrollment in higher education for 
every student, so that our graduates will have first-hand experience 
with the demands of the real world.
    Even with this level of progress, we know that there is much more 
to be accomplished. We need to ensure that all low performing students 
become proficient. We need to ensure that many more of our students 
graduate high school. We need to ensure that those who graduate are 
prepared for the challenges they will face as adults. Thus far, nearly 
three-quarters of our graduates who enroll in our county's community 
college system are assigned to at least one remedial course before 
beginning their credit-bearing studies and more than a quarter take 
three or more remedial courses. Our school system is not unique in this 
regard; nationally, half of high school graduates take remedial college 
courses. Keep in mind these are graduates who have met state 
requirements and, in Florida and many other places, passed a state 
test. We have taken on the charge of educating all of our students with 
the crystal clear goal of not leaving one single child behind, but 
there are limits to what even a large school district such as Miami-
Dade County Public Schools can do alone to carry this torch to the 
finish-line. I believe there is a clear federal role to be played in 
completing this journey that we have been able to launch so well 
locally.
    Moreover, this is at a time where I see our nation at a disturbing 
crossroads as many question whether in fact the United States can solve 
the problems in its education system to provide an excellent education 
to every student. Many wonder how we can build, refine, and enhance 
while simultaneously putting out many academic fires. My answer to the 
question of these perceived unsolvable problems is simple--let's solve 
them. My intention is not to be flip, or to underplay the complexity of 
the challenges. Rather, I see a well-defined set of actions that can be 
taken by all of us--educators, parents, business and political 
leaders--at all levels including the federal one to continue improving 
our schools and making our students globally competitive.
    Specifically, I believe the federal government must act in three 
ways:
    1. We Need the Federal Government to Define and Measure What 
Matters Most
    First and foremost, the federal government should establish common 
national standards in reading, math and science that are comparable in 
rigor to what the highest performing nations in the world expect of 
their students. Then aligned assessment tools should be created to 
measure these standards. Common national standards and assessments will 
eliminate the intellectual and political clutter around expectations, 
and will force a new focus on the more technical obstacles impeding 
equity in education.
    Having individual states determine what it takes to be proficient 
in the real world is risky, costly, and in the end pointless. For 
example, it makes no difference to know that New Jersey has more 
proficient students in math than Nevada if they both use different 
standards. It makes even less sense if we have students that are 
identified as proficient, but cannot keep up with math students in 
Singapore. The University of Miami does not put helmets and shoulder 
pads on its intramural flag football champion and send that team to the 
Sugar Bowl to play the University of Southern California; intra-
national results are insignificant compared to international results. 
This is apparent every day in a community like Miami-Dade, which serves 
as a gateway to another continent and in which business is transacted 
globally.
    The expansion of the role of the National Assessment of Educational 
Progress (NAEP) under the No Child Left Behind Act was intended to 
bring some order and common sense to the determination of proficiency. 
In 2005, Florida said 44 percent of its 8th graders were proficient 
readers, while only 27 percent scored that well on NAEP. If we held 
states' accountable to defining and measuring proficiency in meaningful 
ways to the same level of accountability schools face in making 
Adequate Yearly Progress ( AYP), states' would be facing the ``closing 
down'' of state assessments altogether just as school districts face 
school closures when Adequate Yearly Progress is not met.
    In my view, NAEP's expectations are a natural and worthy starting 
point for national standards. I see them as rigorous enough to be 
internationally credible. Both as chancellor of the New York City 
schools and in Miami, I have used them as benchmarks above and beyond 
state tests.
    Settling on common national standards will bring greater 
transparency to educational accountability, and help to eliminate 
conflicts that have emerged between state and federal accountability 
systems. The number of F schools in Florida and in our system spiked 
this year because the state added its science test to the grading 
criteria and stiffened requirements in math. It is undeniably good to 
have high expectations and to measure proficiency in science, but those 
shifts amount to changing the rules of the game in the third quarter. 
In Miami-Dade, the increase in F schools came despite better results in 
reading and math generally. It is difficult to explain to an already 
skeptical and, in some cases, demoralized public that things are better 
when they appear to be worse. The same schism exists when Florida gives 
one of our schools an A or B grade, but the school fails to meet the 
federal AYP standard.
    Some will see it as heresy for a local superintendent to advocate 
for national standards, arguing for the nation's historic bias toward 
local control of schools. Our national defense once was under the 
purview of state and local militias. At that time, we realized that 
national security was best served by federally organized armed forces 
and, that we could not win wars leaving it solely to states whether to 
buy more bombers or more fighter jets. The same is true of education 
today. To be clear, I do not want a federally run system of schools or 
for Congress to become the national school board; execution should 
remain a local matter. We must be completely purposeful in where we 
allow for choice and variability in and among schools, and that should 
not include the fundamentals of what students must learn and how we 
know they have learned it. Bringing those debates to an end, creating 
an unavoidable structure to the answers to those questions actually 
will free communities to be innovative and to bear down on the needs 
exposed by high expectations. Local control cannot be an excuse for 
local ignorance or local neglect.
    Common, high national standards create the opportunity for 
commonsense national assessments and eliminate the need to spend tens, 
if not hundreds, of millions of dollars designing 50 versions of what 
is largely the same 6th-grade math test. A pooling of intellectual, 
political and financial capital around a set of state-of-the-art 
assessments in reading, math and science will free capital to create 
assessments of other educational outcomes that in the 21st century are 
as determinative of real world readiness as literacy was in eras past; 
these include personal integrity, workplace literacy and civic 
awareness (no high school student should be able to graduate without 
demonstrating knowledge of the U.S. Constitution, for example). Common 
assessments also will provide an opportunity for a more nuanced view of 
academic success. Schools should be judged by a mix of absolute targets 
and the growth they prompt in students. Also, the comparisons over time 
should be made against the same students' prior performance, rather 
than judging this year's 9th graders by the results of a completely 
different group of 9th graders last year. Gauging this year's 9th 
graders against their own performance as 8th graders is more 
illuminating and fairer.
    National assessments also will allow us to address the incredible 
language diversity we enjoy in this country. In our district, children 
whose home language is Haitian Creole represent a large minority whose 
progress needs to be assessed. But within the state of Florida as a 
whole, Haitian Creole is far less prevalent and the state's need for 
assessments in that language is far less pressing. Developing a common 
set of measurement tools that could be used wherever Haitian Creole 
speakers live and learn solves this problem.
    As we develop these national assessments, we should be transparent 
about how the results will be used. I am deeply troubled that testing 
and accountability have merged, that high-stakes tests have warped the 
purpose of education and create more anxiety than learning. I 
appreciate assessments. In both New York and Miami, I increased 
assessments and demanded administrators in the central office and at 
schools master the data that those assessments produced. But I believe 
we must take assessment for what it is--a momentary picture of a 
student's progress. Certainly, at the school level, a much more 
comprehensive picture can be painted using graduation and promotion 
rates, participation in higher level courses, and testing in other 
academic subjects.
    I believe strongly in accountability--continual failure in the 
service of children cannot be tolerated. But the survival-of-the-
fittest atmosphere that has enveloped testing and accountability is 
harmful. If a student cannot do algebra, we do not pull the student out 
of class and punish him. Algebra is a subject that a student builds a 
rhythm for; helping a student find that rhythm takes a methodic, 
technical intervention. The same is true of a school in which 
performance is flagging. That failure should be attacked by the state 
and federal governments as an engineering problem, not a behavioral 
one.
    2. We Need the Federal Government to Support Efforts that Make the 
Biggest Difference
    On my first day as superintendent in Miami, I announced that I 
would take over schools that had chronically underperformed, creating 
the School Improvement Zone. The schools were easily identified; people 
had mentioned their names to me even before I officially started on the 
job--Edison, Booker T. Washington, Holmes. Their poor results were both 
well established and well known, but the district had not marshaled 
what was necessary to resuscitate them. Within two months, we presented 
a plan for turning the schools around.
    I pledged to our School Board that the School Improvement Zone of 
39 schools would be a time-limited intervention, so our team had to 
identify strategies that would give us the greatest lift in those 
schools in a short period of time. I urge that you promote a similar 
view--intense focus on what is most likely to bring about deep change 
quickly--as you craft the intervention provisions in this 
reauthorization.
    In the Zone, we identified schools that were part of a continuum of 
underperformance--elementary schools that fed into middle schools that 
fed into a high school. Chronic poor performance, particular in a high 
school, is difficult to address as a discrete problem. In our view, an 
intervention that would last needed to be articulated across schools in 
a community.
    The change that was most immediately visible--and most costly--in 
the Zone was the extension of learning time by roughly 20 percent by 
adding days to the school year and one hour to every school day. I have 
no question that every student in Miami can reach high standards; I am 
equally convinced that they will need different amounts of learning 
time to reach them. As we adjust expectations upward through common, 
internationally rigorous standards, we will need to adjust how school 
is delivered as well. Time is the most ready resource we have.
    The extension of time is critical, particularly in middle schools, 
where we need to provide students with a much more relevant experience. 
Every middle school student should get introduced to careers and leave 
8th grade with a well-articulated plan for pursuing a career. As part 
of this introduction to work, students should have mentoring from local 
businesses. Time must be spent on building students skills at social 
interaction.
    The Zone schools adopted a highly structured, shared literacy 
program that made reading their raison d'etre. We removed the reading 
books and replaced them with the same series across the schools. This 
allowed us to maximize professional development, hours for which were 
also boosted. We were able to train on one book, rather than four or 
five. Eventually, we took the same position districtwide in our 
elementary schools, shouldering the expense of purchasing basal reading 
books outside of the state's normal adoption cycle so that we could 
improve professional development and minimize the impact of high 
student mobility in our county.
    Finally, we made sure that only teachers who wanted to take on the 
challenge of the Zone schools were in those schools. We negotiated with 
our teachers union to give teachers a grace period during which they 
could transfer to a non-Zone school without consequence. At the same 
time, we took applications for positions within the Zone; we had more 
than 500 teachers take part in a job fair when we had only 200 
potential openings. The selection process placed a premium on teachers' 
results in moving low-performing students to higher standards.
    In my view, like standards and assessment, the federal government's 
role in teacher quality should be expanded. First, their should be a 
national pay scale that ensures no teacher earns less than $40,000 per 
year regardless of their location. Teaching cannot be left to the 
charitable; a starting teacher coming out of college earns $34,200 per 
year in Miami-Dade, a community in which the average home costs more 
than $400,000 and apartments rent for $1,100 per month on average. We 
need a national pay structure that includes performance pay, to help 
capture more of the brightest college students as teachers. Second, in 
exchange for this pay scale, we need national standards for teacher 
certification. These changes will not happen if school systems are left 
to enact them at their own pace.
    In addition, beginning with the Zone's secondary schools and now 
districtwide, we have paid much more attention to student attendance. 
Truancy is a leading indicator both of dropout risk and of 
instructional issues at a school--students who are engaged show up the 
next day to be engaged again. New research in Chicago has found that 
the graduation rate for students who miss less than a week of school 
hovers around 90 percent. Improving attendance is the first, best 
dropout prevention strategy.
    I would contrast our approach to the Zone with our experience with 
Supplemental Educational Services under No Child Left Behind. Secretary 
Spellings has pointed to Miami-Dade as a district that has taken 
seriously the charge to make SES widely known and readily available. 
Our district devotes significant resources to alerting parents to the 
SES opportunity, using everything from automated telephone calls to 
events in shopping malls--all in three languages and all paid for above 
and beyond the percentage of Title I dollars we must hold back to pay 
for the services. Even with this massive effort, the numbers of 
families that avail themselves of the tutoring is small. First, not all 
families respond to our appeals. Second, the providers often back away 
from services in a particular school or neighborhood if the 
concentration of students there is insufficient. Unlike the strategies 
we pursued in the Zone, the return on investment for SES is 
unacceptably small in my view, particularly when it ties up a large 
portion of Title I funds that could be well spent in other ways. There 
is a disparity in terms of accountability as well. Schools in the Zone 
know that their performance will be measured each and every year. The 
same is not true for SES providers; if the students they serve fail to 
make AYP, they are free to continue to provide services. Strategies 
like those used in the Zone are the efforts that make the biggest 
difference. I ask that you look closely at efforts that show a clear 
return on investment and support them and let go of the efforts that 
are not impacting the progress of our students and school districts.
    3. We Need the Federal Government to Support Scaffolding Parents 
who Will Demand More
    Our experience promoting SES is instructive in contemplating what 
it takes to engage more parents more deeply in their children's 
education. The No Child Left Behind Act included new requirements for 
reporting school performance to the public generally and to parents 
specifically. The assumption was that parents would know how to act 
once armed with the information.
    One way that Miami-Dade's tale of two cities plays out is through 
the involvement of parents. We have what I describe as ``demand'' 
parents and ``supply'' parents. Demand parents understand how our 
schools operate, know what should be expected academically from 
students and how to get their concerns addressed by the district. In 
contrast, supply parents are glad that school is open every day and 
have little idea of whether their children are being prepared for 
college or for dead-end, low-scale jobs.
    We have set out to create more demand parents through a program 
called The Parent Academy, which offers nearly 100 courses in more than 
100 locations across our county that are easily accessible to parents. 
The courses range from lessons about our school system and its services 
to more general offerings about child development and child rearing to 
classes that help parents as adults such as resume writing or 
citizenship preparation. The response from both the community and 
parents themselves to The Parent Academy has been overwhelming. Our 
plan called for the academy to be funded entirely by private and 
philanthropic sources, and we have been able to raise the millions 
needed to offer this program. More than 50,000 parents have received a 
course certificate through The Parent Academy in just two school years.
    As you consider this reauthorization, I urge you to consider school 
district's obligation not simply to promulgate information, but also to 
ensure that parents are empowered to act with that information.
    In closing, I acknowledge that some may see an expanded federal 
role in some of the areas I have advocated for as risky. I consider 
these areas to be highly strategic; focusing on them may allow for a 
reduced federal stake in other areas. I also know that many will charge 
that these steps will require massive new investment. The steps will 
require new investment, but if done now these new investments will only 
require a focus on dollars spent in education. At the moment, that may 
simply be a question of political will. Eventually, given current 
trends in economics, innovation and demographics; it may very well be a 
question of national survival. Every moment we do not place the 
education of our nation as a priority brings us closer to consequences 
that WILL impact other national priorities (including spending) 
creating a domino effect that will be much harder to fix. I believe 
that our nation is both up to these challenges and is willing to face 
them head on in the best interest of our children.
    Again, I thank you for this opportunity to provide the committee my 
written comments and share my views with you.
                                 ______
                                 

 Prepared Statement of Mary K. Poeck, MLIS, Library Media Specialist, 
                  Vallejo City Unified School District

    Chairman Miller and Ranking Member McKeon, thank you for allowing 
me to testify on behalf of the American Library Association (ALA). I 
appreciate the opportunity to comment on the value of school libraries 
and the school library media specialist in achieving the laudable goals 
of the No Child Left Behind Act.
    My name is Mary Poeck and I am the Coordinator of Library Media 
Services, 6-12 for the Vallejo City Unified School District. I am also 
a member of the American Library Association, the oldest and largest 
library association in the world with some 66,000 members, primarily 
school, public, academic, and some special librarians, but also 
trustees, publishers, and friends of libraries. Prior to my present 
position, I was a library media specialist in one of the three 
comprehensive high schools in the district. However, due to serious 
financial problems in our district, requiring a State take over in 
2003, the seven secondary library media specialists have been 
progressively eliminated in an effort to regain financial stability. 
When my high school library media position was eliminated, I was 
appointed as the Coordinator of Library Media Services, 6--12 in an 
effort to maintain some library services for secondary students. The 
school site libraries in the secondary schools are being run by Library 
Media Technicians. The Library Media Technicians are keeping the 
libraries running and doing an outstanding job of that, but since our 
libraries also distribute all textbooks for each secondary school, the 
teaching and student support functions of our libraries have been 
dramatically reduced. I provide as much support as possible, giving in-
service training to teachers on library use and information seeking 
skills so they can then train their classes in these skills, but, 
needless to say my ability to provide specific library instructional 
services to approximately 8,000 students is minimal, especially with my 
need to coordinate textbook services as well. Elementary school library 
services are less available with staffing at only some of the 
elementary libraries, and then often only part-time. From this 
experience, I have personally seen how eliminating credentialed library 
media specialist positions greatly diminishes student and teacher 
access to the multiple roles filled by this position including teacher, 
instructional partner, information specialist, reading support 
specialist and program administrator.
    In 2001, with strong bipartisan support, the nation embarked on an 
ambitious school reform plan entitled the No Child Left Behind Act 
(NCLB), whose goal was to create higher standards and greater 
accountability throughout the Nation's school systems. Among other 
things, NCLB requires states to set high standards for all students and 
holds schools accountable for the results. Further, it requires that 
there be a ``highly qualified'' teacher in every classroom. This 
emphasis has resulted in significant changes in how teachers are hired 
and retained as well as how professional development is provided. ALA 
applauds the highly qualified teacher requirements in NCLB, but 
believes the same standards being applied in our classrooms should be 
extended to our nation's school libraries--that every school library 
should be staffed by a highly qualified, state certified library media 
specialist.
    (Did you know, Chairman Miller, that of the 25 schools in your 
district there are 12 schools with no library media specialists 
whatsoever? And Congressman McKeon, of the 115 schools in your 
district, 66 are without school librarians.)
    Yet, despite the vital role school libraries play in helping meet 
high standards for all students by having ``highly qualified'' 
teachers, NCLB is silent when it comes to the qualification of those 
individuals in charge of our school libraries. The more than 62,000 
state certified library media specialists in public schools and 3,909 
state certified library media specialists in private schools in the 
United States fill multiple roles--teacher, instructional partner, 
information specialist, reading support specialist, and program 
administrator--ensuring that students and staff are effective users of 
information and ideas, and that students develop a life-long love of 
reading and learning.
    School library media specialists are, in every level of education, 
the professionals who give students the skills they need for jobs in 
the 21st century workplace: computing, networking, and learning how to 
locate and utilize all the information available to them. Using the 
library's many and varied resources, school librarians also teach 
students how to work collaboratively, which, combined with the 
information literacy skills, is ideal for ensuring college readiness.
    School libraries are critical partners in ensuring that states and 
school districts alike meet the reading requirements that are part of 
NCLB as well as President Bush's unequivocal commitment to ensuring 
that every child can read by the end of third grade. President Bush and 
the Congress recognized the important role school libraries play in 
increasing literacy and reading skills when they created the Improving 
Literacy Through School Libraries program as part of NCLB (Title I, 
Part B, Subpart 4, Sec.1251).
    The Improving Literacy Through School Libraries program, the first 
program specifically aimed at upgrading school libraries since the 
original school library resources program was established in 1965, is 
designed to improve student literacy skills and academic achievement by 
providing schools with up-to-date, age appropriate and exciting library 
materials, including well-equipped, technologically advanced school 
library media centers, and to ensure that school library media centers 
are staffed by state certified school library media specialists.
    Multiple studies, more than 60 since 1965, have affirmed that there 
is a clear link between school library media programs and student 
achievement, when those libraries are staffed by an experienced school 
library media specialist. Based on analysis from the first year of 
funding for the Improving Literacy Through School Libraries program, 95 
percent of local education agencies have reported increases in their 
reading scores. The Department of Education's November 2005 evaluation 
of the Improving Literacy Through School Libraries program found it has 
been successful in improving the quality of school libraries. Fourteen 
statewide studies demonstrate that a strong library media program helps 
students learn more and score higher on standardized achievement tests 
than their peers in library-impoverished schools. Unfortunately, about 
25 percent of America's school libraries do not have a state-certified 
librarian on staff, and many professional school library media 
specialists are being replaced by non-professionals and in some cases 
school libraries are being closed, in part because school library media 
specialists and programs are not included in the NCLB requirement for 
``highly qualified'' staff.
    In June 2007, new legislation was introduced with these same goals: 
the Strengthening Kids' Interest in Learning and Libraries (SKILLs) 
Act, which was introduced by Representatives Raul Grijalva (D-AZ) and 
Vernon Ehlers (R-MI). This legislation is critical to meeting the goals 
of NCLB in that it requires school districts, to the extent feasible, 
to ensure that every school within the district employs at least one 
highly qualified school library media specialist in each school 
library.
    The SKILLs Act defines highly qualified school library media 
specialists as those who have a bachelor's degree and have obtained 
full state certification as a school library media specialist or passed 
the state teacher licensing examination, with state certification in 
library media in such state. Further, the SKILLs Act establishes as a 
state goal that there be at least one highly qualified school library 
media specialist in every public school no later than the beginning of 
the 2010-2011 school year.
    The SKILLs Act also accomplishes the following: it broadens the 
focus of training, professional development, and recruitment activities 
to include school library media specialists; it ensures that funds will 
serve elementary, middle and high school students; and it requires 
books and materials to be appropriate for and engage the interest of 
students in all grade levels and students with special learning needs, 
including English-language learners.
    The skills needed to function successfully in a 21st century global 
workforce have gone beyond reading. Business leaders are concerned that 
people are now entering the workforce without information literacy 
skills--those skills needed to find, retrieve, analyze and use 
information--which equip people with the ability to think critically 
and work proficiently. Who better to teach information literacy than 
librarians, the information experts.
    When it comes to our children's education, we must ensure that they 
receive the best instruction possible from competent, qualified 
instructors. This is true in the classroom and should be true in our 
school libraries. Education is not exclusive to the classroom; it 
extends into school libraries and so should the qualification we demand 
of our school librarians. To be a critical part of a comprehensive and 
renewed strategy to ensure that students learn to read (and to read 
well), every school library should be staffed by a highly qualified, 
state certified library media specialist and every school should have a 
school library.
    As Congress begins consideration of reauthorization of the 
Elementary and Secondary Education Act of 1965, ALA recommends the 
following:
    1. Encourage each state to review their requirements for library 
media specialists and to define for their own state what it means to be 
a ``highly qualified library media specialist;''
    2. Set a goal for all schools receiving Title I funding to have at 
least one ``highly qualified library media specialist'' as defined by 
the state; and
    3. Provide local flexibility for schools and districts to use funds 
under Title II, Part A to help hire, retain and train library media 
specialists so they are able to meet the `highly qualified' definition 
set by the state.
    We appreciate your responsiveness and look forward to determining 
how we can work with you to ensure that all schools reach the goals 
established in NCLB and that all schools are staffed by a highly 
qualified, state certified library media specialist.
    Thank you again for this opportunity to comment on behalf of the 
American Library Association.
                                 ______
                                 
    [Whereupon, at 4:30 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
